                        SIGTARP: Quarterly Report to Congress | October 25, 2012
                                                                                                           C
                                                                                                      INSPE TOR GEN
                                                                                                 AL                E
                                                                                              CI




                                                                                                                              RA
                                                                                          E
                                                                                        SP




                                                                                                                                  L
                                                                                                                                  M
                                                                                       TRO




                                                                                                                              RA
                                                                                             LE




                                                                                        UB




                                                                                                                         OG
                                                                                                  DA                          R
                                                                                                       S S E T R E LI E F P




SIGTARP
SIG-QR-12-04
                         Q4
                        2012
                                                                                   SIGTARP                                            Office of the Special Inspector General
                                                                                                                                      for the Troubled Asset Relief Program
                                                                                   Advancing Economic Stability Through Transparency, Coordinated Oversight, and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                  Quarterly Report to Congress
SIGTARP@treasury.gov                                                                                                                                              October 25, 2012
www.SIGTARP.gov
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal, or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”), as amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise, and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
Contents

Executive Summary	3
  Oversight Activities of SIGTARP	                                       7
  SIGTARP Recommendations on the Operation of TARP	                      9
  Report Organization	                                                   9


Section 1
The Office of the Special Inspector General for the
Troubled Asset Relief Program	                                         11
  SIGTARP Creation and Statutory Authority	                            13
  SIGTARP Oversight Activities Since the July 2012 Quarterly Report	   13
  The SIGTARP Organization	                                            29


Section 2
tarp overview	                                                          33
  TARP Funds Update	                                                    35
  Financial Overview of TARP	                                           41
  Housing Support Programs	                                             62
  Financial Institution Support Programs	                               86
  Asset Support Programs	                                              133
  Automotive Industry Support Programs	                                151


Section 3
TARP Operations and Administration	                                    159
  TARP Administrative and Program Expenditures	                        161
  Current Contractors and Financial Agents	                            162


Section 4
SIGTARP Recommendations	                                               173
  Recommendation Regarding LIBOR	                                      175
  Recommendation Regarding AIG	                                        179
  Recommendations Regarding CPP Preferred Stock Auctions	              180
  Update on Recommendations on the Hardest Hit Fund 	                  183

  Endnotes	203
Appendices
A.	Glossary	                                                          224
B.	 Acronyms and Abbreviations	                                       228
C.	 Reporting Requirements	                                           231
D.	 Transaction Detail	                                               235
E.	 Cross-Reference of Report to the Inspector General Act of 1978	   328
F.	 Public Announcements of Audits	                                   329
G.	 Key Oversight Reports and Testimony	                              330
H.	Correspondence	                                                    343
I.	 Organizational Chart 	                                            344
Executive Summary
4   special inspector general I troubled asset relief program
                                                                              quarterly report to congress I october 25, 2012   5




The purpose of the Troubled Asset Relief Program (“TARP”), as originally
intended, was to provide financial stability to protect taxpayers, and its past,
present, and future must be viewed through that lens. Treasury has justified each
TARP program as necessary to support industries and markets where a disruption
could pose a risk to financial stability and to the economy as a whole. Recently,
Treasury appears to have shifted its emphasis from promoting financial stability
to assessing returns on investment. It is important that taxpayers be made whole
on their TARP investments. However, TARP was never about a simple return on
investment. Treasury statements on financial stability largely relate to Treasury’s
view of TARP’s contribution to restoring financial stability in the past. But what of
TARP’s contribution to present-day and future financial stability? The stability of
the American financial system and the economy as a whole certainly has improved
since 2008, and U.S. financial markets are no longer on the brink of collapse. But
full economic recovery has been slower than anticipated, and is not guaranteed.
It is imperative that Treasury bring back its primary focus to promoting financial
stability for the long term. TARP will exist for several years to come, as highlighted
by the fact that after four years, the TARP programs in which taxpayers have the
greatest financial investment continue to exist. To protect taxpayers fully, TARP’s
impact and protections must be enduring.
     SIGTARP’s mission is to advance economic stability through transparency,
coordinated oversight, and robust enforcement. In furtherance of that mission,
SIGTARP made a series of recommendations that center on sustained financial
stability as the driving force for TARP (discussed in detail in Section 4).

•	 Getting London Interbank Offered Rate (“LIBOR”) out of TARP: SIGTARP
   recommended that to protect taxpayers who funded TARP against any future
   threat that might result from LIBOR manipulation, Treasury and the Federal
   Reserve should change TARP programs PPIP and TALF to cease reliance on
   LIBOR. Secretary Geithner testified before Congress that he did not know if
   taxpayers were disadvantaged by the use of LIBOR in TARP. Federal Reserve
   Chairman Bernanke testified before Congress that LIBOR manipulation
   undermines public confidence in financial markets. Treasury’s Office of
   Financial Research reported that this type of manipulation “poses significant
   risks to market integrity and investor trust.”
       The time for Treasury and the Federal Reserve to act is now, rather than
   wait for global LIBOR reform, because there are $598.6 million in outstand-
   ing TALF loans and $5.685 billion in outstanding PPIP debt with interest rates
   tied to LIBOR. These TARP programs last as long as 2015 and 2017. Given
   the LIBOR manipulation and its current lack of reliability, the Federal Reserve
   has a solid basis to reach out to TALF borrowers and Treasury to the six PPIP
   managers, to express the need to amend the TALF/PPIP contracts. Treasury
   also foresaw in PPIP its need to remove LIBOR unilaterally based on, among
   other reasons, its “reasonable determination” that LIBOR would not adequately
   and fairly reflect the true cost of lending. Treasury can base this broad discre-
   tion on discussions it should engage in with those who have already analyzed
6   special inspector general I troubled asset relief program




                                               LIBOR’s current state and on their findings, including Martin Wheatley, a top
                                               official of the United Kingdom’s Financial Services Authority (“FSA”), which
                                               oversees LIBOR reform, and the U.S. Commodity Futures Trading Commission
                                               (“CFTC”), which oversaw a LIBOR investigation. Wheatley found LIBOR to
                                               be a broken system, “built on flawed incentives, incompetence and the pursuit
                                               of narrow interests that are to the detriment of markets, investors and ordinary
                                               people.” He reported that retaining LIBOR unchanged is not viable, given the
                                               scale of identified weaknesses and loss of credibility. CFTC Chairman Gary
                                               Gensler testified that questions about the integrity of LIBOR remain today.
                                               Continued use of LIBOR for TARP while it is broken, unreliable, and remains
                                               potentially subject to manipulation, undermines public confidence in financial
                                               markets and TARP and could put taxpayers at risk.
                                           •	 Voting AIG systemically important to ensure the strongest level of Federal
                                              regulation: Having had no banking regulator for years, AIG became regulated
                                              by the Federal Reserve as a savings and loan holding company last month when
                                              Treasury’s ownership of AIG stock dropped below 50%. This regulation is based
                                              on AIG’s ownership of a small bank, which AIG’s CEO plans to sell. Should
                                              that sale happen, there would once again be no banking regulator over AIG’s
                                              financial business, which continues outside the bank. Taxpayers still on the
                                              hook for billions of dollars for their TARP investment in AIG deserve to have
                                              strong regulation of AIG, whether AIG keeps or sells the bank. Taxpayers need
                                              to be protected against the potential impact of any future AIG financial distress
                                              on the broader economy based on AIG’s size, as one of the largest insurance
                                              companies in the world, and interconnectedness. SIGTARP recommended
                                              that Treasury (which has an ownership interest in AIG through TARP) and the
                                              Federal Reserve (which currently regulates AIG) recommend to the Financial
                                              Stability Oversight Council (“FSOC”) that AIG be designated systemically
                                              important under Dodd-Frank, which if approved would provide the strongest
                                              regulation available. This designation requires 2/3 FSOC vote. Subsequently,
                                              on October 2, 2012, AIG disclosed that it had received notice that it is under
                                              consideration by FSOC for a proposed determination that AIG is a systemically
                                              important financial institution, which is a positive step towards implementation
                                              of SIGTARP’s recommendation.
                                           •	 Conducting analysis in consultation with banking regulators that TARP
                                              bank auctions promote financial stability: Treasury’s new practice of not
                                              waiting for banks to repay in full, but instead auctioning off its TARP shares,
                                              has resulted in Treasury consistently selling its TARP investment in banks at
                                              a loss, sometimes back to the bank itself. Treasury has announced that it will
                                              also conduct pooled auctions of some of the 290 remaining Capital Purchase
                                              Program banks. Concerned that some banks may have the ability to repay in
                                              full but may now try to get out of TARP for less, SIGTARP recommended that
                                              Treasury undertake an analysis, in consultation with Federal banking regulators,
                                              to determine that allowing the bank to redeem its TARP shares at a discount
                                              outweighs the risk that the bank will not repay in full.
                                                                                                                         quarterly report to congress I october 25, 2012   7




         In addition, SIGTARP recommended that Treasury determine through
     analysis, in consultation with banking regulators, that its auction of its TARP
     shares in these banks promotes financial stability. SIGTARP has learned that
     Treasury is not conducting any analysis of the potential impact of these auctions
     on the financial stability of the bank, or the industry at a community, state, or
     regional level. Treasury is also not consulting with Federal banking regulators
     who know these banks and the industry, despite the fact that throughout the
     existence of TARP, Treasury and banking regulators have shared non-public
     information about specific banks. Treasury has told SIGTARP that it prefers to
     act as a private investor. Treasury’s view that it acts like a private investor risks
     that Treasury is not considering its greater responsibility to protect taxpayers
     and promote financial stability. Without analysis or consultation with banking
     regulators, it is unclear how Treasury can be assured that this exit strategy
     promotes financial stability or preserves the strength of community banks.
     Community banks are still feeling the effects of the crisis and have only just
     begun their recovery. Any TARP exit plan should ensure that the industry does
     not lose ground on that recovery. While an en masse exit of hundreds of banks
     from TARP could provide a partial return for taxpayers, care must be taken in
     that exit to ensure that these banks and the banking industry stay healthy so
     that history does not repeat itself. TARP’s Capital Purchase Program goals of
     promoting financial stability, maintaining confidence in the financial system,
     and enabling lenders to meet the nation’s credit needs, cannot be viewed solely
     in the past tense, but must be enduring to protect taxpayers.




Oversight Activities of SIGTARP
As of September 30, 2012, SIGTARP has worked to bring transparency and
oversight to TARP through audits and evaluations (issuing 19 reports) and has
actively fulfilled its role as a white-collar criminal law enforcement agency, with
more than 150 ongoing investigations. Many investigations are in partnership with
other law enforcement agencies in order to leverage resources throughout the
Government.
    SIGTARP’s investigations have delivered substantial results, including:

•	 criminal chargesi against 109 individuals, including 73 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations
•	 criminal convictions of 71 defendants, of whom 35 have been sentenced to
   prison (others are awaiting sentencing)
•	 civil cases against 52 individuals (including 38 senior officers) and 32 entities
   (in some instances an individual will face both criminal and civil charges)


	Federal indictments and other charging documents are only charges and not evidence of guilt. A defendant is presumed innocent until
i

  and unless proven guilty.
8   special inspector general I troubled asset relief program




                                           •	 orders of restitution and forfeiture and civil judgments entered for more than $4
                                              billion. This includes restitution orders entered for $3.7 billion, forfeiture orders
                                              entered for $170.4 million, and civil judgments and other orders entered for
                                              $281.9 million. Although the ultimate recovery of these amounts is not known,
                                              SIGTARP has already assisted in the recovery of $160.8 million
                                           •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
                                              the now-failed Colonial Bank

                                               Although much of SIGTARP’s investigative activity remains confidential, over
                                           the past quarter there have been significant public developments in several of
                                           SIGTARP’s investigations, which are set forth in more detail in Section 1.
                                           SIGTARP investigations have resulted in additional criminal actions to hold
                                           accountable those who committed fraud related to failed banks that applied for
                                           TARP. This quarter, SIGTARP agents, along with its law enforcement partners,
                                           arrested two co-conspirators who are charged with an alleged fraud at failed TARP
                                           applicant The Park Avenue Bank. These individuals are alleged to be co-conspir-
                                           ators with former bank President and CEO Charles Antonucci, the first person
                                           convicted of attempting to steal from TARP by using a roundtrip transaction in an
                                           attempt to steal $11 million in TARP funds. Criminal fraud charges, as a result of
                                           a SIGTARP investigation, were brought against Adam Teague, former senior vice
                                           president and senior loan officer of failed TARP applicant Appalachian Community
                                           Bank.
                                               SIGTARP’s criminal investigations with its law enforcement partners are
                                           resulting in significant jail time, as well as substantial orders of restitution and
                                           forfeiture payments. This quarter, Mark A. Conner, former president and CEO of
                                           failed TARP applicant FirstCity Bank, was sentenced to 12 years in Federal prison
                                           and ordered to pay $19.5 million in restitution to victims. This quarter, Eric H.
                                           Menden and George P. Hranowskyj were sentenced to 11.5 years and 14 years in
                                           Federal prison, and a third co-conspirator, Thomas E. Arney, awaits sentencing
                                           after pleading guilty to fraud at failed TARP applicant Bank of the Commonwealth.
                                           Menden and Hranowskyj were ordered to pay $32.8 million in restitution and to
                                           forfeit $43.5 million. Jerry J. Williams, former president and CEO at failed TARP
                                           applicant Orion Bank, was sentenced to six years in Federal prison and $31.05 mil-
                                           lion in restitution payments. These are significant prison sentences, particularly for
                                           white-collar crime.
                                               This quarter, as a result of investigations by SIGTARP and its law enforcement
                                           partners, criminal charges were brought against individuals for TARP-related
                                           schemes involving struggling homeowners. SIGTARP agents, along with its law
                                           enforcement partners, arrested 11 individuals who have been charged with running
                                           an alleged massive fraudulent mortgage modification scheme through 21st Century
                                           Real Estate Investment Corp. Criminal charges were also brought this quarter
                                           against Glen Allen Ward for an alleged foreclosure-rescue scam, and SIGTARP
                                           agents and law enforcement partners arrested Alan David Tikal on charges that he
                                           was operating an alleged mortgage rescue operation. In addition, three individuals
                                           who ran Compliance Audit Solutions, Inc. were sentenced in connection with a
                                                                            quarterly report to congress I october 25, 2012   9




mortgage modification fraud that used websites named www.obama4homeown-
ers.com and www.hampnow.org. Three individuals who ran Legacy Home Loans
and Real Estate pled guilty to conspiracy to collect upfront fees for mortgage
modifications.
    This quarter, there were also developments in SIGTARP’s investigations of
crime where a TARP bank is a victim. Robin B. Brass was sentenced to eight
years in Federal prison for defrauding investors where funds went through Bank
of America. Joseph D. Wheliss, Jr., pled guilty to a scheme to defraud TARP bank
Pinnacle National Bank. SIGTARP will continue to protect taxpayers who became
investors in TARP banks.
    SIGTARP takes its law enforcement mandate seriously, working hard to deliver
the accountability the American people demand and deserve.




SIGTARP Recommendations on the
Operation of TARP
One of SIGTARP’s oversight responsibilities is to provide recommendations to
Treasury and the banking regulators related to TARP to facilitate effective oversight
and transparency and to prevent fraud, waste, and abuse. SIGTARP has made
110 recommendations. Section 4 of this report, “SIGTARP Recommendations,”
provides updates on existing recommendations and summarizes the
implementation of previous recommendations.
    This quarter, Section 4 includes more detailed discussions of the recommen-
dations described above. This includes SIGTARP’s recommendation to Treasury
and the Federal Reserve to cease using LIBOR in TARP programs; SIGTARP’s
recommendation to Treasury and the Federal Reserve that they recommend that
AIG be designated a systemically important financial institution; and SIGTARP’s
recommendations to Treasury regarding protecting taxpayers and promoting
financial stability related to CPP auctions. Section 4 also provides an update on
earlier SIGTARP recommendations regarding the Hardest Hit Fund.




Report Organization
The report is organized as follows:

•	 Section 1 discusses SIGTARP’s actions to fulfill its mission of advancing
   economic stability through transparency, coordinated oversight, and robust
   enforcement.
•	 Section 2 details how Treasury has spent TARP funds and contains an
   explanation or update of each program.
10   special inspector general I troubled asset relief program




                                            •	 Section 3 describes the operations and administration of the Office of Financial
                                               Stability, the office within Treasury that manages TARP.
                                            •	 Section 4 discusses SIGTARP’s recommendations with respect to TARP.

                                                The report also includes numerous appendices containing, among other things,
                                            figures and tables detailing all TARP investments through September 30, 2012,
                                            except where otherwise noted.
              The Office of the Special
Sect io n 1   Inspector General for the
              Troubled Asset Relief Program
12   special inspector general I troubled asset relief program
                                                                                                                             quarterly report to congress I October 25, 2012   13




SIGTARP Creation and Statutory Authority
The Office of the Special Inspector General for the Troubled Asset Relief
Program (“SIGTARP”) was created by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) as amended by the Special Inspector General
for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”). Under EESA
and the SIGTARP Act, SIGTARP has the responsibility, among other things, to
conduct, supervise, and coordinate audits and investigations of the purchase,
management, and sale of assets under the Troubled Asset Relief Program (“TARP”)
or as deemed appropriate by the Special Inspector General. SIGTARP is required
to report quarterly to Congress to describe SIGTARP’s activities and to provide
certain information about TARP over that preceding quarter. EESA gives SIGTARP
the authorities listed in Section 6 of the Inspector General Act of 1978, including
the power to obtain documents and other information from Federal agencies and
to subpoena reports, documents, and other information from persons or entities
outside the Government.
    Under the authorizing provisions of EESA, SIGTARP is to carry out its duties
until the Government has sold or transferred all assets and terminated all insurance
contracts acquired under TARP. In other words, SIGTARP will remain “on watch”
as long as TARP assets remain outstanding.




SIGTARP Oversight Activities Since the July
2012 Quarterly Report
SIGTARP continues to fulfill its oversight role on multiple parallel tracks:
investigating allegations of fraud, waste, and abuse related to TARP; conducting
oversight over various aspects of TARP and TARP-related programs and activities
through 19 published audits and evaluations, and 110 recommendations as of
October 9, 2012; and promoting transparency in TARP and the Government’s
response to the financial crisis as it relates to TARP.

SIGTARP Investigations Activity
SIGTARP is a white-collar law enforcement agency. As of October 15, 2012,
SIGTARP had more than 150 ongoing criminal and civil investigations, many in
partnership with other law enforcement agencies in order to leverage resources
throughout the Government. SIGTARP takes its law enforcement mandate
seriously, working hard to deliver the accountability the American people demand
and deserve. SIGTARP’s investigations have delivered substantial results, including:

•	 criminal chargesi against 109 individuals, including 73 senior officers (CEOs,
   owners, founders, or senior executives) of their organizations

i
    Federal indictments and other charging documents are only charges and not evidence of guilt. A defendant is presumed innocent until
    and unless proven guilty.
14   special inspector general I troubled asset relief program




                                            •	 criminal convictions of 71 defendants, of whom 35 have been sentenced to
                                               prison (others are awaiting sentencing)
                                            •	 civil cases against 52 individuals (including 38 senior officers) and 32 entities
                                               (in some instances an individual will face both criminal and civil charges)
                                            •	 orders of restitution and forfeiture and civil judgments entered for more than $4
                                               billion. This includes restitution orders entered for $3.7 billion, forfeiture orders
                                               entered for $170.4 million, and civil judgments and other orders entered for
                                               $281.9 million. Although the ultimate recovery of these amounts is not known,
                                               SIGTARP has already assisted in the recovery of $160.8 million
                                            •	 savings of $553 million in TARP funds that SIGTARP prevented from going to
                                               the now-failed Colonial Bank

                                                SIGTARP investigates white-collar fraud related to TARP. These investiga-
                                            tions include, for example, accounting fraud, securities fraud, insider trading, bank
                                            fraud, mortgage fraud, mortgage modification fraud, false statements, obstruction
                                            of justice, money laundering, and tax crimes. Although the majority of SIGTARP’s
                                            investigative activity remains confidential, over the past quarter there have been
                                            significant public developments in several SIGTARP investigations.

                                            The Bank of the Commonwealth
                                            On September 26, 2012, and October 15, 2012, the U.S. District Court for the
                                            Eastern District of Virginia sentenced business partners Eric H. Menden and
                                            George P. Hranowskyj, respectively, to prison for their roles in a $41 million bank
                                            fraud scheme that contributed to the failure of the Bank of the Commonwealth
                                            (“BOC”). Menden was sentenced to 11.5 years in Federal prison, followed by
                                            three years of supervised release. Hranowskyj was sentenced to 14 years in Federal
                                            prison, followed by three years of supervised release. Menden and Hranowskyj were
                                            ordered to pay $32.8 million in restitution and to forfeit $43.5 million.
                                                As previously reported, Menden pled guilty on April 12, 2012, to conspiracy to
                                            commit wire fraud, making false statements, and conspiracy to commit bank fraud.
                                            Additionally, Hranowskyj pled guilty on July 12, 2012, to conspiracy to commit
                                            wire fraud and bank fraud. Menden and Hranowskyj admitted that, from January
                                            2008 through August 2011, they performed favors for BOC insiders by using the
                                            proceeds of loans provided by BOC insiders to purchase BOC-owned properties
                                            and properties owned by BOC insiders. Menden and Hranowskyj further admit-
                                            ted to submitting construction draw requests to the bank for amounts owed to
                                            subcontractors that were inflated or for work that was not completed. Menden
                                            and Hranowskyj admitted knowing the loan proceeds obtained from these draw
                                            requests were to be used solely for renovating the property but instead they used
                                            the proceeds for their own personal purposes. At the time the bank failed, Menden
                                            and Hranowskyj owed the bank approximately $41 million and the total loss attrib-
                                            uted to the loans outlined in court was over $13 million. Menden and Hranowskyj
                                            also pled guilty to a separate six year tax fraud scheme that cost state and Federal
                                            Government over $12 million and investors more than $8 million.
                                                                            quarterly report to congress I October 25, 2012   15




    In addition, on August 24, 2012, Thomas E. Arney, a BOC customer, pled guilty
in the U.S. District Court for the Eastern District of Virginia to conspiracy to com-
mit bank fraud, unlawful monetary transactions, and making false statements to a
financial institution. As previously reported, on July 11, 2012, a Federal grand jury
returned a 25-count indictment against Arney and five other individuals for their
alleged roles in a massive fraud scheme that contributed to the failure of BOC. Also
charged in the indictment were four former executives of BOC, including chief ex-
ecutive officer and chairman of the board Edward Woodard, his son Troy Brandon
Woodard, executive vice presidents Simon Hounslow and Steven Fields, and BOC
customer Dwight Etheridge. At sentencing on December 3, 2012, Arney faces a
maximum of 20 years in prison.
    Arney was a real estate developer and businessman in Norfolk, Virginia.
According to documents filed in court in connection with his plea agreement,
Arney performed favors for BOC insiders in exchange for preferential treatment
that harmed the bank. Arney also admitted to helping these BOC insiders fraudu-
lently conceal the extent of BOC’s non-performing assets by purchasing BOC-
owned properties. Specifically, despite Arney having difficulty staying current on $7
million in loans he guaranteed at BOC, BOC insiders arranged for BOC to fund
additional loans to Arney (sometimes through nominee borrowers for Arney), the
proceeds of which Arney used to make payments on past-due loans at BOC and
for his personal and business expenses. In addition, Arney further admitted that
he purchased a condominium owned by BOC’s chief executive officer (Edward
Woodard) with a BOC loan arranged by a BOC commercial loan officer. Arney
admitted to purchasing the condominium as a favor to the chief executive officer
and in return for preferential treatment on his BOC loans. Arney further admitted
that BOC insiders also provided Arney financing to purchase certain bank-owned
properties, enabling BOC to convert these non-earning assets into earning assets.
In one instance, the BOC insiders provided financing to Arney to purchase a bank-
owned property after BOC’s regulators had prohibited the bank from extending any
new loans to Arney without explicit approval of BOC’s Board of Directors.
    BOC was a community bank headquartered in Norfolk, Virginia, that failed in
September 2011. It was the eighth largest bank failure in the country that year and
the largest bank failure in Virginia since 2008. FDIC estimates that BOC’s failure
will cost the deposit insurance fund more than $268 million. In November 2008,
BOC sought $28 million in TARP funds. Subsequently, BOC’s Federal
banking regulator asked the bank to withdraw the TARP application, which the
bank did.
    As previously reported, four additional individuals have been charged (three
of whom pled guilty) in this ongoing investigation. On May 9, 2012, Jeremy C.
Churchill, a BOC vice president and commercial loan officer, pled guilty to con-
spiracy to commit bank fraud. On May 15, 2012, Recardo Lewis, a former vice
president at Tivest Development and Construction LLC, pled guilty to conspiracy
to commit bank fraud. On September 15, 2011, Natallia Green, a former employee
of Menden and Hranowskyj, pled guilty to making a false statement to BOC in
a loan application. On August 10, 2011, Maria Pukhova, a former employee of
16   special inspector general I troubled asset relief program




                                            Menden and Hranowskyj, was charged with making a false statement in a loan
                                            application to BOC. Churchill and Lewis are currently awaiting sentencing and
                                            Green was sentenced in January 2012 to five years’ probation.
                                                This ongoing investigation is being conducted by SIGTARP, the United States
                                            Attorney’s Office for the Eastern District of Virginia, the Federal Bureau of
                                            Investigation (“FBI”), the Internal Revenue Service Criminal Investigation Division
                                            (“IRS-CI”), and the Federal Deposit Insurance Corporation Office of Inspector
                                            General (“FDIC OIG”).

                                            The Park Avenue Bank
                                            On October 1, 2012, SIGTARP agents, along with its law enforcement partners,
                                            arrested Matthew L. Morris, a former Park Avenue Bank senior vice president, and
                                            Anthony Huff, a businessman from Kentucky, for their roles in an alleged bank
                                            fraud scheme that led to the failure of Park Avenue Bank, as well as an alleged
                                            insurance fraud scheme. On the same day, the U.S. District Court for the Southern
                                            District of New York unsealed the 13-count indictment against Morris and Huff,
                                            which charged the defendants with conspiracy to commit bank bribery, bank and
                                            insurance fraud, and the theft of $2.3 million from a publicly traded company. Huff
                                            was also charged with tax evasion. Allen Reichman, a former executive director
                                            of investments at an investment bank and financial services company, was also
                                            arrested and charged with conspiracy to commit wire fraud in connection with the
                                            alleged insurance fraud.
                                                As previously reported, on October 8, 2010, Charles Antonucci, the former
                                            president and chief executive officer of Park Avenue Bank, pled guilty in the U.S.
                                            District Court for the Southern District of New York to offenses including securi-
                                            ties fraud, making false statements to bank regulators, bank bribery, and embezzle-
                                            ment of bank funds. Antonucci was arrested in March 2010 after attempting to
                                            steal $11 million of TARP funds by, among other things, making fraudulent claims
                                            about the bank’s capital position. With his guilty plea, Antonucci became the first
                                            defendant convicted of attempting to steal from TARP. Antonucci is scheduled to
                                            be sentenced on April 3, 2013.
                                                According to the indictment, in about October 2008, Morris, Huff, and
                                            Antonucci allegedly devised a plan to prevent Park Avenue Bank from being
                                            designated as undercapitalized by its regulator, the Federal Deposit Insurance
                                            Corporation (“FDIC”). Morris, Huff, Antonucci and other co-conspirators allegedly
                                            used a series of fraudulent transactions to make it appear that Antonucci person-
                                            ally invested $6.5 million in Park Avenue Bank when, in actuality, the $6.5 million
                                            was part of Park Avenue Bank’s pre-existing capital. Morris, Huff, and Antonucci
                                            allegedly further defrauded FDIC by making false statements to, and providing
                                            false documents to, FDIC about the true source of the funds used for Antonucci’s
                                            purported $6.5 million investment in Park Avenue Bank. Antonucci emphasized
                                            to FDIC that his $6.5 million investment had stabilized the bank’s capital prob-
                                            lems and should be considered favorably in evaluating the bank’s November 2008
                                            request for $11.35 million in TARP funds through the Capital Purchase Program.
                                                                              quarterly report to congress I October 25, 2012   17




Park Avenue Bank specifically referenced Antonucci’s $6.5 million investment in its
TARP application.
    In addition, from 2007 through 2009, Huff allegedly provided $400,000 and
other benefits in bribes to Morris and Antonucci in exchange for preferential treat-
ment in connection with Huff’s banking relationship with Park Avenue Bank. In
exchange for bribes, Morris and Antonucci allegedly (a) caused Park Avenue Bank
to issue fraudulent letters of credit totaling $1.75 million to aid Huff in securing an
investment in a business he owned, (b) allowed Huff to freely overdraft accounts
at Park Avenue Bank in excess of $9 million in violation of bank policy, (c) facili-
tated intra-bank transfers in furtherance of frauds perpetrated by Huff and (d)
fraudulently caused Park Avenue Bank to issue at least $4.5 million in loans to
Huff-related businesses by circumventing the bank’s loan review procedures and
allowing Huff to submit loan applications containing false statements.
    The charges further allege that, from July 2008 to November 2009, Morris,
Huff, and Antonucci conspired with Reichman, an executive director of an invest-
ment firm, to defraud Oklahoma insurance regulators into allowing Antonucci to
purchase the assets of an Oklahoma insurance company. Huff and Antonucci
allegedly funded most of the purchase of the insurance company by convincing
Reichman to cause the investment firm to issue a $30 million loan. Huff and
Antonucci pledged the insurance company’s own assets as collateral for the loan,
which was prohibited under Oklahoma law. To secure regulatory approval of the
purchase of the insurance company, Morris, Huff, and Antonucci allegedly falsely
represented to regulators that Park Avenue Bank was funding the purchase, thereby
concealing the fact that the insurance company’s own assets were pledged as col-
lateral for the loan. After the sale was finalized, Morris, Huff, and Antonucci alleg-
edly took millions of dollars of the insurance company’s assets for themselves. The
insurance company later became insolvent and was placed into receivership.
    On Friday, March 12, 2010, The Park Avenue Bank, New York, NY, was closed
by the New York State Banking Department, and FDIC was appointed as receiver.
FDIC estimates that Park Avenue Bank’s failure will cost the deposit insurance
fund $50.7 million.
    The ongoing SIGTARP investigation is being conducted in partnership with
the U.S. Attorney’s Office for the Southern District of New York, the FBI, U.S.
Immigration and Customs Enforcement, the New York State Banking Department
Criminal Investigations Bureau, and FDIC OIG.

FirstCity Bank
On August 9, 2012, Mark A. Conner, the former president, chief executive officer,
and chairman of FirstCity Bank (“FirstCity”), was sentenced by the U.S. District
Court for the Northern District of Georgia to 12 years in Federal prison followed by
five years of supervised release. In addition, Conner was banned from the banking
industry for life, and ordered to pay more than $19.5 million in restitution to FDIC
and victim banks. Conner also agreed to forfeit $7 million. In February 2009,
FirstCity unsuccessfully sought $6.1 million in Federal Government assistance
18   special inspector general I troubled asset relief program




                                            through TARP. FirstCity subsequently failed and was seized by Federal and state
                                            authorities on March 20, 2009.
                                                As previously reported, on October 21, 2011, Conner pled guilty to conspiracy
                                            to commit bank fraud and perjury. Conner admitted to conspiring with others to
                                            defraud FirstCity’s loan committee and board of directors into approving multiple
                                            multi-million dollar commercial loans to borrowers who were actually purchasing
                                            property owned by Conner or his co-conspirators. The fraud took place in the years
                                            prior to the regulators seizing the bank. As part of the conspiracy, Conner misrep-
                                            resented the essential nature, terms, and underlying purpose of the loans and falsi-
                                            fied documents and information presented to the loan committee and the board
                                            of directors. He and others caused at least 10 other Federally insured banks to
                                            invest in the fraudulent loans based on these and other fraudulent misrepresenta-
                                            tions, shifting all or part of the risk of default to the other banks. Conner personally
                                            received at least $7 million in proceeds from the fraud. To conceal their unlawful
                                            scheme, Conner and others routinely misled Federal and state bank regulators and
                                            engaged in further misconduct in an attempt to avoid seizure by regulators. Conner
                                            also committed perjury in connection with his personal bankruptcy filing.
                                                As also previously reported, on June 26, 2012, Clayton A. Coe, the former vice
                                            president and senior commercial loan officer at FirstCity, pled guilty to bank fraud
                                            and to making a false statement on his tax return. Coe faces a maximum sentence
                                            of 33 years in prison and a fine of up to $1.1 million at sentencing. Coe admitted to
                                            defrauding FirstCity by causing FirstCity’s loan committee to approve an $800,000
                                            loan to a borrower in connection with a real estate development transaction that
                                            provided a personal financial benefit to Coe. In addition, Robert E. Maloney,
                                            FirstCity’s former in-house counsel, has been charged with conspiracy to commit
                                            bank fraud, making false entries in the records of an FDIC-insured financial insti-
                                            tution, and conspiracy to commit money laundering. Maloney’s trial is scheduled to
                                            begin on January 15, 2013.
                                                The case is being investigated by SIGTARP, the United States Attorney’s Office
                                            for the Northern District of Georgia, the FBI, IRS-CI, and FDIC OIG.

                                            Appalachian Community Bank
                                            On August 22, 2012, Adam Teague, a former senior vice president and senior loan
                                            officer of Appalachian Community Bank (“Appalachian”), pled guilty to conspiracy
                                            to commit bank fraud for his participation in a scheme to defraud Appalachian
                                            of millions of dollars and hide certain past-due Appalachian loans from FDIC. At
                                            sentencing, Teague faces up to 70 months in prison and a fine of up to $1 million.
                                            Teague also agreed to forfeit $7 million and certain real property.
                                                According to the charges filed in court, to prevent FDIC from discovering cer-
                                            tain past-due loans on Appalachian’s books, Teague and co-conspirator A arranged
                                            several sham real estate transactions from June 2008 to August 2009. They caused
                                            Appalachian to make approximately $7 million in fake loans to co-conspirator A to
                                            make it appear that co-conspirator A had purchased properties from Appalachian’s
                                            foreclosure inventory and was making monthly payments on the new mortgages.
                                            Teague engaged in a similar scheme to further hide Appalachian’s bad debts from
                                                                             quarterly report to congress I October 25, 2012   19




FDIC when, in August 2009, he and co-conspirator B formed two shell companies
and engaged in sham transactions to make it appear that one of the shell com-
panies had purchased 11 residential properties from Appalachian’s foreclosure
inventory for $3.7 million. Teague and co-conspirator B caused Appalachian to fully
fund this purchase by having the bank loan the purchasing shell company 90% of
the purchase price and loan the remaining 10% of the purchase price to the second
shell company. In addition, in April 2009, Teague and co-conspirator A caused
Appalachian to finance their purchase of two condominiums through shell compa-
nies they established. Approximately two months later, Teague and co-conspirator A
refinanced these mortgages, pocketed more than $875,000, and used the funds to
pay off personal debts, make monthly loan payments on the refinanced mortgages,
pay condominium fees, and purchase new furniture for properties.
    In October 2008, Appalachian applied for, but did not receive, $27 million
in TARP funding. On March 19, 2010, Appalachian was closed by the Georgia
Department of Banking and Finance, which appointed FDIC as receiver. FDIC
estimates that Appalachian’s failure will cost the deposit insurance fund more than
$419 million.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
Northern District of Georgia, the FBI, and the Federal Housing Finance Agency
Office of Inspector General (“FHFA OIG”).

Orion Bank
As previously reported, on June 12, 2012, Jerry J. Williams, former president,
chief executive officer, and board chairman of Orion Bank (“Orion Bank”) and its
holding company, Orion Bancorp, Inc., was sentenced by the U.S. District Court
for the Middle District of Florida to 72 months in Federal prison. On August 28,
2012, the same court ordered Williams to pay $31.05 million in restitution to
FDIC (as receiver for Orion Bank). This restitution amount is in addition to the
$5.76 million in restitution that the court previously ordered Williams to pay
to victims. Orion Bancorp unsuccessfully sought $64 million in TARP funds in
October 2008. Florida’s Office of Financial Regulation closed Orion Bank on
November 13, 2009, and appointed FDIC as receiver. FDIC estimates that Orion
Bank’s failure will cost the deposit insurance fund more than $600 million.
    Williams had previously pled guilty to conspiracy to commit bank fraud and
making false statements to Federal regulators arising from his participation in a
bank fraud scheme involving Orion Bank. Williams admitted that, after Orion Bank
failed to raise capital as instructed by Federal banking regulators, he conspired with
two other Orion Bank executives, Thomas Hebble, former executive vice presi-
dent, and Angel Guerzon, former senior vice president, and a former Orion Bank
borrower, Francesco Mileto, to mislead state and Federal regulators into believing
that Orion Bank was financially healthier than it truly was. Hebble, Guerzon, and
Mileto pled guilty to their participation in the fraud and received prison sentences
of 30 months, 24 months, and 65 months, respectively. Hebble and Guerzon were
each ordered to pay $33.5 million in restitution to FDIC and Mileto was ordered
to pay $65.2 million in restitution to FDIC ($33.5 million of which is to be paid
20        SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 jointly and severally with Guerzon and Hebble). The court also ordered Mileto to
Note: As of September 25, 2013                   forfeit $2 million.
                                                     The case was investigated by SIGTARP, the U.S. Attorney’s Office for the
The adjacent description contains                Middle District of Florida, the FBI, IRS-CI, the Federal Reserve Board Office of
data compiled and provided by                    Inspector General, and FDIC OIG.
the U.S. Department of Justice
pertaining to the results of the                 Financial Fraud Enforcement Task Force’s Distressed Homeowner
Distressed Homeowner Initiative                  Initiative
during Fiscal Year 2012. That data               On October 9, 2012, the U.S. Department of Justice, the U.S. Department of
was later found to be incorrect.                 Housing and Urban Development, the FBI and the Federal Trade Commission
To view the original source of                   announced the results of the Distressed Homeowner Initiative, the first-ever
the information, view the Justice                nationwide effort to target fraud schemes that prey upon suffering homeowners.
Department press release and                     The yearlong initiative, launched by the FBI, a co-chair of the Financial Fraud
disclaimer located at www.justice.               Enforcement Task Force’s Mortgage Fraud Working Group, and supported by
gov/opa/pr/2012/October/12-                      SIGTARP, resulted in 530 criminal defendants charged, including 172 executives,
ag-1216.html.                                    in 285 Federal criminal indictments or informations filed in U.S. District Courts
                                                 across the country.  These cases involved more than 73,000 homeowner victims,
The initial Justice Department press             and the total loss by those victims is estimated by law enforcement at more than
release incorrectly stated that the              $1 billion.
Distressed Homeowner Initiative                      From October 1, 2011, to September 30, 2012, the Distressed Homeowner
netted 530 criminal defendants                   Initiative focused on fraud targeting homeowners, such as foreclosure rescue
(revised to 107 criminal defendants)             schemes that take advantage of homeowners who have fallen behind on their
in cases involving more than 73,000              mortgage payments. Typically, the con artist in such a scheme promises the home-
victims (revised to 17,185 victims)              owner that he can prevent foreclosure for a substantial fee by, for example, having
and losses of more than $1 billion               so-called investors purchase the mortgage or by transferring title in the home to
(revised to $95 million), in FY 2012.            persons in league with the scammer.  In the end, the homeowner can lose every-
                                                 thing.  Other targets of the Distressed Homeowner Initiative include perpetrators
A subsequent review of the reported              of loan modification schemes who obtained advance fees from homeowners after
cases by the Justice Department                  false promises that they would negotiate more favorable mortgage terms on behalf
concluded that the original                      of the homeowners. Additionally, SIGTARP and the Department of the Treasury
figures included in the Distressed               (“Treasury”), in order to protect homeowners from fraudulent or confusing web-
Homeowner Initiative included not                sites that misuse the Treasury seal and key TARP housing program names such as
only criminal defendants who had                 the Home Affordable Modification Program (“HAMP”), shut down or forced into
been charged in Fiscal Year 2012,                compliance more than 900 mortgage rescue websites or web advertisers. 
as reported, but also a number of                    SIGTARP, the Consumer Financial Protection Bureau, and Treasury have also
defendants who were the subject of               established a task force to combat mortgage modification scams exploiting HAMP
other prosecutorial actions – such               and to raise public awareness of the scams. The task force has issued two consumer
as a conviction or sentence – in                 fraud alerts, one specifically offering resources for U.S. servicemembers, that offer
Fiscal Year 2012. In addition, the               tips on how to identify and avoid mortgage modification scams. These alerts are
announcement included a number                   reproduced in the back of this report. 
of defendants who were charged
in mortgage fraud cases in which
the victim(s) did not fit the narrow
definition of distressed homeowner
that the initiative targeted.
                                                                              quarterly report to congress I October 25, 2012   21




Glen Allen Ward (aka Brandon Michaels)
On August 17, 2012, a Federal grand jury sitting in the Central District of
California returned a five-count indictment charging Glen Allen Ward (aka
Brandon Michaels) with bankruptcy fraud, mail fraud, and aggravated identity theft
associated with his operation of a foreclosure-rescue scam that illegally postponed
foreclosure sales. Ward, who had been a fugitive sought by U.S. Federal authorities
since 2000, was arrested in Canada on April 5, 2012, and is awaiting extradition to
the United States.
    According to the indictment, from July 2007 through April 2012, Ward and his
co-conspirators solicited homeowners whose properties were facing foreclosure
and promised to postpone the foreclosure for six to 36 months in exchange for a
monthly fee of approximately $700. After collecting fees from a homeowner, it is
alleged that Ward would have the homeowner execute and record a deed granting
a small interest in the property to a random debtor in bankruptcy whose name
Ward found in bankruptcy records. Ward would also retrieve a copy of the debtor’s
bankruptcy petition unbeknownst to the debtor. The indictment further alleges
that Ward or a co-conspirator then defrauded the bank seeking to foreclose on the
homeowner’s property by providing the bank copies of the debtor’s bankruptcy peti-
tion and documents showing that the debtor owned an interest in the subject prop-
erty. Because a bankruptcy filing triggers an automatic stay that protects a debtor’s
property, the receipt of the bankruptcy petition and deed in the debtor’s name
forced the lender to cancel the foreclosure sale. When a lender would succeed in
having a court lift the stay, Ward would arrange another automatic stay by having
the homeowner sign another deed transferring a small interest in the property to
a different debtor in bankruptcy. Ward would repeat this course of action, thereby
continuously delaying sale of the property, for as long as the homeowner paid the
monthly fee. The indictment alleges that Ward and his co-conspirators delayed the
foreclosure sales of approximately 824 distressed properties by using 414 bank-
ruptcies filed in 26 judicial districts, and collected more than $1 million in fees for
illegal foreclosure-delay services. As a result, multiple lenders, including Bank of
America and other TARP recipient banks, incurred costs and delays while attempt-
ing to collect money that was owed to them.
    According to the indictment, Ward allegedly worked with Frederic Alan Gladle
to perpetrate the foreclosure-rescue fraud. As previously reported, Gladle was
charged with orchestrating a foreclosure-rescue fraud and pled guilty to bankruptcy
fraud and aggravated identity theft. On May 3, 2012, Gladle was sentenced by the
U.S. District Court for the Western District of Texas to 61 months in prison and
ordered to pay $214,259 in restitution and to forfeit $87,901.
    This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
Central District of California, the FBI, and the U.S. Trustee’s Office.
22   special inspector general I troubled asset relief program




                                            21st Century Real Estate Investment Corp.
                                            In September 2012, SIGTARP agents, along with its law enforcement partners,
                                            arrested 11 individuals who had been charged by a Federal grand jury in the
                                            Central District of California with running a massive fraudulent mortgage
                                            modification scheme in Rancho Cucamonga, California, through 21st Century
                                            Real Estate Investment Corp. and several related companies (“21st Century”). The
                                            indictment charged the defendants with five counts of mail fraud, three counts of
                                            wire fraud, and one count of conspiracy. Each count in the indictment carries a
                                            statutory maximum penalty of 20 years imprisonment.
                                                The indictment alleges that, between approximately June 2008 and December
                                            2009, defendant Andrea Ramirez operated 21st Century as a fraudulent mortgage
                                            modification business. The charges allege that 21st Century employees (includ-
                                            ing the defendants) contacted financially distressed homeowners through cold
                                            calls, advertisements, mailings, and websites. In solicitations and during conversa-
                                            tions with homeowners, 21st Century employees made numerous materially false
                                            statements, including: (a) assertions that multiple lawyers were employed with
                                            the company to assist in mortgage modifications; (b) false testimonials from 21st
                                            Century customers who purportedly received satisfactory modifications through
                                            21st Century; (c) claims that 21st Century had a “98% ratio of success” with loan
                                            modifications; (d) assurances that homeowners would receive a refund of fees paid
                                            to 21st Century if the company was unable to obtain a loan modification; (e) guar-
                                            antees that 21st Century could obtain specific interest rates and reduced mortgage
                                            payments for homeowners; (f) statements that 21st Century was sponsored by the
                                            United States Government; (g) statements that homeowners were preapproved
                                            for loan modifications; and (h) assurances that 21st Century would use fees paid
                                            by homeowners to pay the homeowners’ mortgage lenders. In truth, according to
                                            the indictment, 21st Century rarely was successful in obtaining loan modifications,
                                            rarely refunded fees to homeowners, had only one attorney affiliated with the com-
                                            pany and this attorney rarely worked on homeowner files, could not know whether
                                            and under what terms a mortgage lender would offer a homeowner a modification,
                                            was not sponsored by the United States Government, did not use fees received
                                            from homeowners to pay the homeowners’ mortgages, and regularly instructed
                                            homeowners to stop making mortgage payments to their lenders and to cut off all
                                            contact with their lenders because they were represented by 21st Century.
                                                The indictment further alleges that when 21st Century did submit loan modifi-
                                            cation applications to lenders, those applications frequently included false infor-
                                            mation, including forged rental agreements (which created the impression that
                                            homeowners were receiving rental income) and false statements exaggerating the
                                            homeowners’ financial hardship. Many of the financial institutions to which the
                                            21st Century employees sent this false information were either TARP-recipient
                                            banks (including Wells Fargo Bank) or had agreed to otherwise participate in
                                            HAMP.
                                                It is also alleged that on some occasions 21st Century employees told homeown-
                                            ers that 21st Century was using fees paid by the homeowners to make mortgage
                                            payments, when in fact they were simply keeping the homeowners’ money. In total,
                                                                           quarterly report to congress I October 25, 2012   23




21st Century fraudulently obtained at least $7 million from more than 4,000 vic-
tims, and many homeowners lost their homes to foreclosure.
    The defendants, who were arrested by SIGTARP and its law enforcement
partners, are: Andrea R. Ramirez, Christopher P. George, Michael B. Bates, Crystal
T. Buck, Michael L. Parker, Catalina Deleon, Hamid R. Shalviri, Yadira G. Padilla,
Mindy S. Holt, Iris M. Pelayo, and Albert DiRoberto.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Central District of California, the FBI, IRS-CI, U.S. Postal Inspection Service
(“USPIS”), and FHFA OIG.

Alan David Tikal
On October 11, 2012, a grand jury sitting in the Eastern District of California
returned a nine-count indictment against Alan David Tikal on charges that Tikal
was operating a fraudulent mortgage rescue operation. Previously, on September
28, 2012, SIGTARP, along with its law enforcement partners, arrested Tikal
based on a criminal complaint filed in connection with the charges. According
to the indictment, from January 2010 through September 2012, Tikal allegedly
falsely told distressed homeowners that he was a “registered private banker” who
could reduce their outstanding home loans by 75% and that he had a tremendous
success rate. Through an entity named KATN Trust, Tikal promised distressed
homeowners that, for an upfront fee, he would replace the homeowners’ existing
home loan with a new loan in an amount equal to only 25% of the original loan
principal. Homeowners were also instructed to send all payments on the new
“loan” to Tikal or to a designated recipient and to ignore any demands for payment
by the original lenders. As alleged in the criminal complaint, Tikal also allegedly
informed homeowners that the Department of Treasury was aware of his program.
As a result of this scheme, homeowner victims made payments to Tikal rather than
their lenders, were delinquent or in default on their mortgages, and did not avail
themselves of the opportunity to modify their loans through programs implemented
to help such distressed homeowners, such as HAMP. Tikal allegedly never made
any payments to financial institutions on behalf of homeowners in satisfaction of
their pre-existing mortgages and never extended loans to any homeowners. This
resulted in many victims losing their homes to foreclosure. It is alleged that over
1,000 victimized homeowners paid in excess of $3.3 million to KATN and these
funds were transferred to accounts controlled by Tikal. If convicted, Tikal faces up
to 30 years in prison.
    This case is being investigated by SIGTARP, the U.S. Attorney’s Office for the
Eastern District of California, IRS-CI, the California Department of Justice, and
the Stanislaus County District Attorney’s Office.

Compliance Audit Solutions
As previously reported, on February 14, 2012, Ziad al Saffar, Sara Beth Rosengrant,
and Daniel al Saffar pled guilty to charges of conspiracy to commit wire fraud and
mail fraud for their roles in operating a fraudulent mortgage loan modification
business under the names Compliance Audit Solutions, Inc. (“CAS”) and
24   special inspector general I troubled asset relief program




                                            CAS Group, Inc. (“CAS Group”). On July 20, 2012, all three defendants were
                                            sentenced by the U.S. District Court for the Southern District of California. Ziad
                                            al Saffar was sentenced to 21 months in Federal prison, followed by three years of
                                            supervised release, and ordered to pay $270,417 in restitution to victims. Sara Beth
                                            Rosengrant was sentenced to 12 months of home detention as part of a three-
                                            year probation term, and ordered to pay $101,068 in restitution to victims. Daniel
                                            al Saffar was sentenced to six months of home detention as part of a three-year
                                            probation term, and ordered to perform 600 hours of community service and pay
                                            $46,757 in restitution to victims.
                                                The defendants admitted targeting homeowners who were unable to afford their
                                            mortgage payments and using fraudulent tactics to induce the homeowners to pur-
                                            chase an “audit” of their home mortgage loan. The defendants claimed the “audit,”
                                            for which they charged homeowners between $995 and $3,500, could identify “vio-
                                            lations” in the homeowners’ loan documents that could be used to force banks to
                                            negotiate new terms for the loans. The defendants admitted to publishing numer-
                                            ous misrepresentations in advertisements, including claiming that the defendants
                                            were affiliated with or employed by the United States Department of Housing and
                                            Urban Development, and that CAS and CAS Group were participating in a Federal
                                            Government program called “Hope for Homeowners.” The defendants also used
                                            websites named www.obama4homeowners.com and www.hampnow.org, which
                                            implied affiliation with HAMP, the housing support program funded by TARP.
                                                This case was investigated by SIGTARP, the U.S. Attorney’s Office for the
                                            Southern District of California and the FBI.

                                            Legacy Home Loans and Real Estate
                                            On July 10, 2012, Magdalena Salas, Angelina Mireles and Julissa Garcia, the
                                            owner, manager, and CEO, respectively, of Legacy Home Loans and Real Estate
                                            (“Legacy Home Loans”) pled guilty in the San Joaquin County, California,
                                            Superior Court to conspiracy to collect upfront fees for mortgage modifications.
                                            According to the charges and other information presented in court, the defendants
                                            collected thousands of dollars in up-front fees from distressed homeowners
                                            in Central California after making false promises to obtain loan modifications
                                            for the homeowners. The defendants falsely promised homeowners that they
                                            would receive loan modifications regardless of their financial situation through
                                            Federal Government programs, sometimes referred to as the “Obama Plan.” The
                                            defendants also falsely overstated their success rate, made false money-back
                                            guarantees, and falsely represented that attorneys would work on the modifications.
                                            The modification services promised by the defendants were never carried out and
                                            many clients ended up losing their homes. On July 11, 2012, all three defendants
                                            were sentenced by the court to probation and ordered to obey all laws and
                                            complete 240 hours of community service. Salas was also ordered not to engage in
                                            any professional services requiring a license that she does not possess. A hearing to
                                            determine restitution will be scheduled at a future date.
                                                                             quarterly report to congress I October 25, 2012   25




    This case was investigated by SIGTARP, the California Attorney General’s of-
fice, the San Joaquin District Attorney’s office, the California Department of Real
Estate, and the Stockton Police Department.

Flahive Law Corporation
This quarter, the State Bar Court of California (“California Bar”) disciplined
Gregory Flahive and Cynthia Flahive for their roles in perpetrating a fraudulent
home loan modification scam through the Flahive Law Corporation (“FLC”), a
law firm operated by the Flahives. The Flahives each stipulated to multiple counts
of misconduct in connection with the provision of loan modification services
to homeowners. Effective July 5, 2012, Cynthia Flahive will serve a 60 day bar
suspension while on a two year bar probation and effective August 11, 2012,
Gregory Flahive will serve a three year bar suspension while on a five year bar
probation. The California Bar also ordered both Flahives to pay restitution to their
victims.
    As previously reported, Gregory and Cynthia Flahive and Michael Johnson,
FLC’s former managing attorney, were arrested by SIGTARP agents and its law
enforcement partners on March 8, 2012, pursuant to an indictment returned by
a California grand jury. According to the indictment and court documents, from
January 2009 to December 2010, FLC promoted its loan modification services
to homeowners through advertisements, including a television infomercial. FLC
falsely represented that experienced lawyers would negotiate with banks on behalf
of homeowners seeking modifications, including under HAMP, misrepresented that
FLC’s law firm status would give them extra leverage when negotiating with such
banks, and overstated FLC’s rate of success in obtaining loan modifications on
behalf of homeowners. FLC allegedly collected up-front fees of up to $2,500 from
homeowners for loan modification services that were never performed.
    On May 16, 2012, in response to the criminal charges, Johnson entered a plea
of no contest to misdemeanor conspiracy for his participation in the fraud and was
ordered by a California criminal court to serve three years of probation, pay restitu-
tion to victims, and to not participate in loan modification services. A California
Bar disciplinary proceeding against Johnson is pending.
    The Flahives are scheduled to go on trial for the criminal charges on November
19, 2012.
    The case is being investigated by SIGTARP, the California Attorney General,
Folsom Police Department, Rancho Cordova Police Department, and the El
Dorado Sheriff’s Department.

Freedom Companies Marketing
On July 23, 2012, the Federal Trade Commission (“FTC”) filed a civil complaint
and a motion for a temporary restraining order against Freedom Companies
Marketing and its related companies (“FCM”) in connection with an alleged
fraudulent mortgage assistance relief scheme that targeted Spanish-speaking
homeowners. That same day, the U.S. District Court for the Northern District of
Illinois issued an order freezing the assets of FCM.
26   special inspector general I troubled asset relief program




                                                The FTC complaint alleges that FCM and its owner David Preiner violated the
                                            FTC Act and the Mortgage Assistance Relief Services Rule by promising to dra-
                                            matically lower homeowners’ monthly mortgage payments in exchange for upfront
                                            fees, but failing to provide homeowners with the promised services. According to
                                            the complaint, FCM telemarketers called financially distressed Spanish-speaking
                                            homeowners and falsely promised them a mortgage modification in 30 to 90 days
                                            in exchange for upfront fees of $995 to $1,500. FCM telemarketers would alleg-
                                            edly state during these calls that mortgage modifications were available through
                                            a Federal program created by President Obama, state that the homeowner quali-
                                            fied for a modification under this program, and falsely claim that the FCM was
                                            affiliated with the United States Government or approved by the Government to
                                            obtain modifications for homeowners under this program. FCM also allegedly
                                            guaranteed or virtually guaranteed that it would be able to obtain modifications for
                                            the homeowners and provided fabricated quotes as to the homeowners’ modified
                                            mortgage payment amount or interest rate. To better enable the homeowners to
                                            afford to pay FCM the upfront fee, FCM allegedly instructed homeowners to stop
                                            paying their mortgages and assured homeowners that their lender would forgive all
                                            past-due payments and late fees after the loan modification process was completed.
                                            However, FCM allegedly failed to disclose to homeowners that they could lose their
                                            homes or damage their credit rating by not paying their mortgage.
                                                In most or all cases, according to the complaint, FCM failed to provide any
                                            service of value to homeowners who paid the upfront fee to FCM. When home-
                                            owners contacted FCM to check on the status of their modifications after paying
                                            an upfront fee, FCM almost always told the homeowners that they would need to
                                            pay additional fees for their loan modifications to be completed. In addition, FCM
                                            allegedly sent homeowners letters with the official Government logo of the Making
                                            Home Affordable program or the logo of the homeowners’ mortgage lender or
                                            servicer. These letters stated that the homeowners’ modifications had been
                                            approved and requested that the homeowners pay a closing fee. As a result, many
                                            homeowners paid thousands of dollars in additional fees to FCM. In total, FCM
                                            collected more than $2 million in fees from homeowners during the last three
                                            years.
                                                This ongoing investigation is being conducted by SIGTARP, the FTC, the FBI
                                            and the United States Attorney’s Office for the Northern District of Illinois.

                                            Brian W. Cutright
                                            On October 9, 2012, Brian W. Cutright pled guilty to one count of mail fraud in
                                            connection with a fraudulent mortgage assistance company he operated, Sterling
                                            Mutual LLC (“Sterling”). A federal grand jury sitting in the U.S. District Court for
                                            the District of Nevada previously had returned a seven-count indictment against
                                            Cutright. At sentencing on February 6, 2013, Cutright faces a maximum sentence
                                            of 20 years in prison and a fine of $250,000.
                                                As part of the plea, Cutright admitted to creating and operating Sterling, a Las
                                            Vegas company that falsely claimed to have alliances with private investors and
                                            equity funds to purchase mortgages from distressed homeowners. Cutright
                                                                              quarterly report to congress I October 25, 2012   27




admitted to causing Sterling to send mass mailing advertisements falsely stating
that Sterling worked together with investment groups and hedge funds to make
millions of dollars available to assist homeowners with principal reduction pro-
grams and to purchase clients’ mortgages from lenders at or below market value.
Cutright admitted that Sterling was not allied with these investment groups or
hedge funds nor did it have millions of dollars in private hedge fund money to buy
homeowners’ distressed mortgages. Cutright also admitted that Sterling’s false
representations persuaded victims to give money to Sterling for the purpose of ob-
taining principal reductions; principal reductions that homeowners did not, in fact,
receive. As alleged in the indictment, Sterling advertisements also falsely stated that
the U.S. Treasury’s Public-Private Investment Program (which was implemented
under TARP) allowed banks to sell homeowner mortgages to investors at below
market value, after which the homeowners could receive a principal reduction of
90% to 100% of the home’s current appraised value by negotiating a lower mort-
gage principal with the investor and Sterling.
    The case is being investigated by SIGTARP, the Department of Housing and
Urban Development Office of Inspector General, and USPIS.

Robin B. Brass
On July 27, 2012, Robin B. Brass was sentenced by the U.S. District Court for
the District of Connecticut to 96 months in Federal prison followed by three
years of supervised release for defrauding investors of approximately $2 million.
As previously reported, Brass pled guilty to mail fraud in April 2012. A hearing to
determine restitution will be scheduled at a future date.
    From March 2009 through November 2011, Brass successfully solicited funds
from investors by falsely representing herself as a successful investment advisor,
guaranteeing investors against losses, and promising them a good rate of return on
their investment. Brass used some of the investor funds to pay off other investors
to keep the scheme going and to pay personal expenses for herself and her family,
including her mortgage at Bank of America, a TARP-recipient bank. To perpetuate
the fraud scheme, Brass sent fraudulent account statements to investors that made
it appear that their investments were performing well.
    The case was investigated by SIGTARP, the United States Attorney’s Office for
the District of Connecticut, USPIS, the FBI, and with assistance from the State
of Connecticut Department of Banking as part of the Connecticut Securities,
Commodities and Investor Fraud Task Force.

Joseph D. Wheliss, Jr.
On October 5, 2012, Joseph D. Wheliss, Jr., pled guilty in the U.S. District Court
for the Middle District of Tennessee to bank fraud. As previously reported, on
November 2, 2011, Wheliss was charged with bank fraud for his involvement in
a scheme to defraud Pinnacle National Bank (“Pinnacle”). Pinnacle received $95
million in TARP funds in December 2008. Wheliss, the owner and operator of
National Embroidery Works, Inc., was a banking customer of Pinnacle. Wheliss
admitted that, from approximately 2005 to 2011, he defrauded Pinnacle by
28   special inspector general I troubled asset relief program




                                            submitting false and forged documents to the bank regarding his finances and
                                            assets to cause the bank to issue multiple commercial loans to him. Pinnacle
                                            suffered a loss of approximately $4.7 million due to Wheliss’ fraud.
                                                At Wheliss’ sentencing, which is scheduled for January 11, 2013, he faces a
                                            maximum of 30 years in prison and $1 million fine.
                                                The case is being investigated by SIGTARP, the United States Attorney’s Office
                                            for the Middle District of Tennessee, and the FBI.

                                            SIGTARP Audit Activity
                                            SIGTARP has initiated 29 audits and four evaluations since its inception. As of
                                            September 30, 2012, SIGTARP has issued 19 reports on audits and evaluations.
                                            Among the ongoing audits and evaluations in process are reviews of: (i) Treasury’s
                                            and the Federal banking regulators’ evaluation of applications submitted by
                                            recipients of TARP funds to exit TARP by refinancing into the Small Business
                                            Lending Fund; (ii) the Special Master’s 2012 decisions on executive compensation
                                            at American International Group, Inc., General Motors Corporation, and Ally
                                            Financial, Inc.; and (iii) Treasury’s role in General Motors’ decision to top up the
                                            pension plan for hourly workers of Delphi Corporation.

                                            SIGTARP Hotline
                                            One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
                                            Hotline and provide a simple, accessible way for the American public to report
                                            concerns, allegations, information, and evidence of violations of criminal and
                                            civil laws in connection with TARP. The SIGTARP Hotline has received and
                                            analyzed more than 31,257 Hotline contacts. These contacts run the gamut
                                            from expressions of concern over the economy to serious allegations of fraud
                                            involving TARP, and a number of SIGTARP’s investigations were generated in
                                            connection with Hotline tips. The SIGTARP Hotline can receive information
                                            anonymously. SIGTARP honors all applicable whistleblower protections and will
                                            provide confidentiality to the fullest extent possible. SIGTARP urges anyone aware
                                            of fraud, waste, or abuse involving TARP programs or funds, whether it involves
                                            the Federal Government, state and local entities, private firms, or individuals, to
                                            contact its representatives at 877-SIG-2009 or www.sigtarp.gov.

                                            Communications with Congress
                                            One of the primary functions of SIGTARP is to ensure that members of Congress
                                            remain adequately and promptly informed of developments in TARP initiatives and
                                            of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector General
                                            and her staff meet regularly with and brief members and Congressional staff.

                                            •	 On July 10, 2012, the Special Inspector General, Christy Romero, testified
                                               before the U.S. House Committee on Oversight and Reform Subcommittee on
                                               TARP, Financial Services and Bailouts of Public and Private Programs regarding
                                               TARP investments in the automotive industry and SIGTARP’s audit of the
                                                                            quarterly report to congress I October 25, 2012                 29




   decision making relating to General Motors’ topping-up the pensions of certain
   hourly employees of Delphi Corporation.
•	 On July 20 and 23, 2012, SIGTARP’s Chief of Staff, Mia Levine, presented
   briefings open to all Senate and House staff, respectively, on SIGTARP’s July
   2012 Quarterly Report.

    Copies of written Congressional testimony are posted at www.sigtarp.gov/pages/
testimony.aspx.




The SIGTARP Organization
SIGTARP leverages the resources of other agencies, and, where appropriate and
cost-effective, obtains services through SIGTARP’s authority to contract.

Hiring
As of September 30, 2012, SIGTARP had 164 employees, plus two detailees from
FHFA OIG and one from the FBI. SIGTARP’s employees have hailed from private
sector businesses and many Federal agencies, including the Air Force Office of
Special Investigations, the Army Criminal Investigation Command, the Army Office
of Chief Legislative Liaison, the Congressional Oversight Panel for TARP, the
Department of Defense, the Department of Energy-Office of Inspector General,
the FBI, FDIC OIG, the Financial Crisis Inquiry Commission, the Government
Accountability Office, the Government Printing Office, the Department of
Homeland Security-Office of the Inspector General, IRS-CI, the Department
of Justice, the Naval Criminal Investigative Service, the Nuclear Regulatory
Commission, the Office of the Director of National Intelligence, the Secret
Service, the SEC, the Small Business Administration-Office of Inspector General,
                                                                                            FIGURE 1.1
the Department of State, the Department of Transportation, the Department of
Transportation-Office of Inspector General, the Department of Treasury-Office of            SIGTARP FY 2012 OPERATING
Inspector General, Treasury Inspector General for Tax Administration, and USPIS.            PLAN
                                                                                            ($ MILLIONS, PERCENTAGE OF $40.3 MILLION)
The SIGTARP organization chart as of October 1, 2012, can be found in Appendix
I: “Organizational Chart.”
                                                                                                          Other Services
                                                                                                                $2.3, 6%
Budget                                                                                        Advisory Services
On February 14, 2011, the Administration submitted to Congress Treasury’s                                 $3.2

fiscal year 2012 budget request, which included SIGTARP’s funding request for                                     8%
$47.4 million. The fiscal year 2012 House mark and Senate mark both provided                Interagency
approximately $41.8 million. H.R. 2055/Public Law 112-74 Consolidated                       Agreements      20%                  Salaries
                                                                                                   $8.0                    63%   and
Appropriations Act, 2012, provides $41.8 million in annual appropriations.
    Figure 1.1 provides a detailed breakdown of SIGTARP’s FY 2012 budget that                                                    $25.6

reflects an adjusted total operating plan of $40.3 million, which includes spending                  Travel
from SIGTARP’s initial funding.                                                                   $1.2, 3%
30             special inspector general I troubled asset relief program




     FIGURE 1.2                                           On February 13, 2012, the Administration submitted to Congress Treasury’s
     SIGTARP FY 2013                                  fiscal year 2013 budget request, which included SIGTARP’s funding request for
     PROPOSED BUDGET                                  $40.2 million. The fiscal year 2012 House mark provides $35 million and the fiscal
     ($ MILLIONS, PERCENTAGE OF $46.8 MILLION)
                                                      year 2012 Senate mark provides $40.2 million in annual appropriations.
                                                          Figure 1.2 provides a detailed breakdown of SIGTARP’s fiscal year 2013
                   Other Services
                         $2.2, 5%                     budget, which reflects a total operating plan of $46.8 million. This would include
       Advisory Services
                                                      $40.2 million in requested annual appropriations and portions of SIGTARP’s initial
                   $3.2                               funding.
                           7%
                                                      Peer Review Results
     Interagency                          Salaries
     Agreements
                     22%                              Federal Offices of Inspector General are required to engage in peer review
                                    64%   and
           $10.1                                      processes related to both their audit and investigative operations. Section 5(a) of
                                          $30.2       the Inspector General Act of 1978, as amended by section 989C of the Dodd-Frank
               Travel                                 Act, contains reporting requirements pertaining to peer review reports. In keeping
            $1.1, 2%                                  with those requirements, SIGTARP is reporting the following information related
                                                      to its peer review activities.

                                                      Peer Review of SIGTARP’s Audit Division
                                                      In September 2012, SIGTARP’s Audit Division passed its mandated external peer
                                                      review with the highest rating possible, a peer review rating of pass. Government
                                                      Auditing Standards requires Federal Offices of Inspector General that perform
                                                      audits or attestations in accordance with generally accepted government auditing
                                                      standards to have an appropriate system of quality control and to undergo external
                                                      peer reviews at least once every three years. The SIGTARP Audit Division began
                                                      operating in early 2009, and this was its first peer review.
                                                          The Railroad Retirement Board Office of Inspector General (“RRB OIG”)
                                                      conducted a comprehensive peer review of the SIGTARP Audit Division’s system of
                                                      quality control in accordance with Government Auditing Standards and guidelines
                                                      established by the Council of the Inspectors General on Integrity and Efficiency
                                                      (“CIGIE”). On September 4, 2012, the RRB OIG issued its System Review Report
                                                      on the operations of SIGTARP’s Audit Division. The report noted that “the system
                                                      of quality control for SIGTARP in effect for the year ended March 31, 2012, has
                                                      been suitably designed and complied with to provide SIGTARP with reasonable
                                                      assurance of performing and reporting in conformity with applicable professional
                                                      standards in all material respects.”
                                                          The report is available on SIGTARP’s website at www.SIGTARP.gov, under
                                                      “Audit and Other Reports.”

                                                      Peer Review of SIGTARP’s Investigations Division
                                                      In August 2012, SIGTARP’s Investigations Division also passed its mandated
                                                      external peer review with the highest rating possible, a peer review rating of
                                                      compliance with the quality standards established by CIGIE and the applicable
                                                      Attorney General guidelines. The Department of Education Office of Inspector
                                                      General (“DE OIG”) conducted a comprehensive peer review of the SIGTARP
                                                                                                                              quarterly report to congress I October 25, 2012   31




Investigations Division’s system of internal safeguards and management
procedures.
    On August 29, 2012, the DE OIG’s report concluded that SIGTARP’s system
of internal safeguards and management procedures for its investigative func-
tions in effect for the period ending May 2012 was in compliance with the quality
standards established by CIGIE and the applicable Attorney General guidelines.
These safeguards and procedures provide reasonable assurance of conforming with
professional standards in the planning, execution, and reporting of SIGTARP’s
investigations.
    The report is available on SIGTARP’s website at www.SIGTARP.gov, under
“Audit and Other Reports.”

Physical and Technical SIGTARP Infrastructure
SIGTARP’s headquarters are in Washington, DC, with regional offices in New
York City, Los Angeles, San Francisco, and Atlanta. SIGTARP posts all of its
reports, testimony, audits, and contracts on its website, www.sigtarp.gov. Since
its inception through September 30, 2012, SIGTARP’s website has had more than
61.1 million web “hits,” and there have been more than 5.4 million downloads of
SIGTARP’s quarterly reports. In addition to these web “hits,” SIGTARP’s website
has recorded 31,621 page views since July 1, 2012, according to Treasury’s new
tracking system.ii




ii
     In October 2009, Treasury started to encounter challenges with its web analytics tracking system and as a result, migrated to a new
     system in January 2010. SIGTARP has calculated the total number of website “hits” reported herein based on three sets of numbers:

• Numbers reported to SIGTARP as of September 30, 2009
• Archived numbers provided by Treasury for the period of October through December 2009
• Numbers generated from Treasury’s new system for the period of January 2010 through September 2012

Starting April 1, 2012, a new tracking system has been introduced that tracks a different metric, “page views,” which are distinct from
“hits” from the previous system. Moving forward, page views will be the primary metric to gauge use of the website.
32   special inspector general I troubled asset relief program
sect io n 2   tarp overview
34   special inspector general I troubled asset relief program
                                                                           quarterly report to congress I October 25, 2012            35




This section summarizes how the U.S. Department of the Treasury (“Treasury”) has
managed the Troubled Asset Relief Program (“TARP”). This section also reviews
TARP’s overall finances and provides updates on established TARP component
programs.




TARP Funds Update
Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.1 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”2 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.3 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.4
     The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.5 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion.
     Treasury’s investment authority under TARP expired on October 3, 2010. This
means that Treasury could not make new obligations after that date. However,
                                                                                            Obligations: Definite commitments
dollars that have already been obligated to existing programs may still be expended.
                                                                                            that create a legal liability for the
As of October 3, 2010, Treasury had obligated $474.8 billion to 13 announced
                                                                                            Government to pay funds.
programs. Subsequent to the expiration of Treasury’s investment authority, Treasury
has deobligated funds previously designated for some programs. As of September
                                                                                            Deobligations: An agency’s cancellation
30, 2012, $467 billion is obligated to TARP programs.6 Of that amount, $417.3
                                                                                            or downward adjustment of previously
billion had been spent and $44.4 billion remained obligated and available to be
                                                                                            incurred obligations.
spent.7 According to Treasury, in the quarter ended September 30, 2012, $1.1 bil-
lion of TARP funds were spent.8 Taxpayers are owed $84.2 billion as of September
30, 2012. According to Treasury, as of September 30, 2012, it had written off or
realized losses of $22.1 billion that taxpayers will never get back, leaving $62.1
billion in TARP funds outstanding.9 These amounts do not include $5.5 billion
in TARP funds spent on housing programs, which are designed as a Government
subsidy, with no repayments to taxpayers expected. The Office of Management and
Budget (“OMB”) predicts that TARP will cost taxpayers $63.5 billion and Treasury
itself in its most recent audited annual report dated November 2011 predicts TARP
will cost $70 billion, which includes expected losses on assistance to the automo-
tive industry and to insurer American International Group (“AIG”), as well as the
cost of the housing programs.10
     Table 2.1 details write-offs and realized losses.
36   special inspector general I troubled asset relief program




                  Table 2.1
                   TREASURY’S STATEMENT OF REALIZED LOSSES AND WRITE-OFFS IN TARP, AS OF 9/30/2012
                   ($ MILLIONS)

                   TARP                                                TARP   Realized Loss
                   Program    Institution                        Investment     or Write-Off          Date   Description
                   Realized Losses
                                                                                                          Sold 98,461 shares and equity
                                                                                                          stake in the UAW Retiree
                   Autos      Chrysler                              $1,888           $1,328     4/30/2010 trust for $560,000,000 and
                                                                                                          collected $48,055,721 for the
                                                                                                          sale of collateral
                   Autos      GMa                                   49,500           4,337d    11/17/2010    Sale of common stock at a loss
                                                                                      1,918     5/24/2011
                                                                                      1,984     3/13/2012
                   SSFI       AIG a,b
                                                                    67,835            1,621     5/10/2012 Sale of common stock at a loss
                                                                                      1,621      8/8/2012
                                                                                      4,636     9/14/2012
                                                                                                             Sale of subordinated
                   CPP        FBHC Holding Company                       3                2      3/9/2010
                                                                                                             debentures at a loss
                              First Federal Bancshares of
                   CPP                                                  17               11      5/3/2010 Sale of preferred stock at a loss
                              Arkansas, Inc.
                   CPP        The Bank of Currituck                      4                2     12/3/2010    Sale of preferred stock at a loss
                   CPP        Treaty Oak Bancorp, Inc.                   3                3     2/15/2011 Sale of preferred stock at a loss
                                                                                                             Exchange of preferred stock at
                   CPP        Central Pacific Financial Corp.          135              32d     2/18/2011
                                                                                                             a loss
                   CPP        Cadence Financial Corporation             44                6      3/4/2011    Sale of preferred stock at a loss
                              First Community Bank
                   CPP                                                  11                3     5/31/2011    Sale of preferred stock at a loss
                              Corporation of America
                   CPP        Cascade Financial Corporation             39               23     6/30/2011    Sale of preferred stock at a loss
                   CPP        Green Bankshares, Inc.                    72                4      9/7/2011    Sale of preferred stock at a loss
                   CPP        Santa Lucia Bancorp                        4                1    10/21/2011 Sale of preferred stock at a loss
                              Banner Corporation/Banner
                   CPP                                                 124              14d      4/3/2012    Sale of preferred stock at a loss
                              Bank
                   CPP        First Financial Holdings Inc.             65                8d     4/3/2012    Sale of preferred stock at a loss
                              MainSource Financial Group,
                   CPP                                                  57                4d     4/3/2012    Sale of preferred stock at a loss
                              Inc.
                              Seacoast Banking Corporation
                   CPP                                                  50                9d     4/3/2012    Sale of preferred stock at a loss
                              of Florida
                   CPP        Wilshire Bancorp, Inc.                    62                4d     4/3/2012    Sale of preferred stock at a loss
                   CPP        WSFS Financial Corporation                53                4d
                                                                                                 4/3/2012    Sale of preferred stock at a loss
                   CPP        Central Pacific Financial Corp.          135              30d      4/4/2012    Sale of common stock at a loss
                   CPP        Ameris Bancorp                            52                4d
                                                                                                6/19/2012    Sale of preferred stock at a loss
                   CPP        Farmers Capital Corporation               30                8d    6/19/2012    Sale of preferred stock at a loss
                   CPP        First Capital Bancorp, Inc.               11                1d
                                                                                                6/19/2012    Sale of preferred stock at a loss
                   CPP        First Defiance Financial Corp.            37                1d
                                                                                                6/19/2012    Sale of preferred stock at a loss
                   CPP        LNB Bancorp, Inc.                         25                3d    6/19/2012    Sale of preferred stock at a loss
                   CPP        Taylor Capital Group, Inc.               105              11 d
                                                                                                6/19/2012    Sale of preferred stock at a loss
                                                                                                                     Continued on next page
                                                                                   quarterly report to congress I October 25, 2012   37




TREASURY’S STATEMENT OF REALIZED LOSSES AND WRITE-OFFS IN TARP, AS OF 9/30/2012
($ MILLIONS) (CONTINUED)

TARP                                               TARP   Realized Loss
Program    Institution                       Investment     or Write-Off         Date   Description
Realized Losses
CPP        United Bancorp, Inc.                    $21              $4d    6/19/2012 Sale of preferred stock at a loss
CPP        Fidelity Southern Corporation            48                5     7/3/2012    Sale of preferred stock at a loss
CPP        First Citizens Banc Corp                 21                2     7/3/2012    Sale of preferred stock at a loss
CPP        Firstbank Corporation                    33                2     7/3/2012    Sale of preferred stock at a loss
CPP        Metrocorp Bancshares, Inc.               45                1     7/3/2012    Sale of preferred stock at a loss
           Peoples Bancorp Of North
CPP                                                 25                2     7/3/2012    Sale of preferred stock at a loss
           Carolina, Inc.
CPP        Pulaski Financial Corp.                  33                4     7/3/2012    Sale of preferred stock at a loss
           Southern First Bancshares,
CPP                                                 17                2     7/3/2012    Sale of preferred stock at a loss
           Inc.
CPP        Naples Bancorp, Inc.                      4                3    7/12/2012 Sale of preferred stock at a loss
           Commonwealth Bancshares,
CPP                                                 20                5     8/9/2012    Sale of preferred stock at a loss
           Inc.
CPP        Diamond Bancorp, Inc.                    20                6     8/9/2012    Sale of preferred stock at a loss
CPP        Fidelity Financial Corporation           36                4     8/9/2012    Sale of preferred stock at a loss
CPP        First Western Financial, Inc.            12                2     8/9/2012    Sale of preferred stock at a loss
CPP        Market Street Bancshares, Inc.           20                2     8/9/2012    Sale of preferred stock at a loss
CPP        CBS Banc-Corp.                           24                2    8/10/2012    Sale of preferred stock at a loss
           Marquette National
CPP                                                 36               10    8/10/2012    Sale of preferred stock at a loss
           Corporation
CPP        Park Bancorporation, Inc.                23                6    8/10/2012    Sale of preferred stock at a loss
CPP        Premier Financial Bancorp, Inc.           7                2    8/10/2012 Sale of preferred stock at a loss
CPP        Trinity Capital Corporation              36                9    8/10/2012 Sale of preferred stock at a loss
CPP        Exchange Bank                            43                5    8/13/2012    Sale of preferred stock at a loss
CPP        Millennium Bancorp, Inc.                  7                4    8/14/2012 Sale of preferred stock at a loss
CPP        Sterling Financial Corporation          303              188    8/20/2012    Sale of preferred stock at a loss
CPP        BNC Bancorp                              31                2    8/29/2012    Sale of preferred stock at a loss
CPP        First Community Corporation              11              0.2    8/29/2012    Sale of preferred stock at a loss
CPP        First National Corporation               14                2    8/29/2012    Sale of preferred stock at a loss
CPP        Mackinac Financial Corporation           11              0.5    8/29/2012    Sale of preferred stock at a loss
           Yadkin Valley Financial
CPP                                                 13                5    9/18/2012    Sale of preferred stock at a loss
           Corporation
CPP        Alpine Banks Of Colorado                 70               13    9/20/2012    Sale of preferred stock at a loss
           F&M Financial Corporation
CPP                                                 17                1    9/20/2012    Sale of preferred stock at a loss
           (NC)
CPP        F&M Financial Corporation (TN)           17                4    9/21/2012    Sale of preferred stock at a loss
           First Community Financial
CPP                                                 22                8    9/21/2012    Sale of preferred stock at a loss
           Partners, Inc.
CPP        Central Federal Corporation               7                4    9/26/2012 Sale of preferred stock at a loss
Total Realized Losses                                          $17,942
                                                                                                Continued on next page
38   special inspector general I troubled asset relief program




                   TREASURY’S STATEMENT OF REALIZED LOSSES AND WRITE-OFFS IN TARP, AS OF 9/30/2012
                   ($ MILLIONS) (CONTINUED)

                   TARP                                                                  TARP          Realized Loss
                   Program         Institution                                     Investment            or Write-Off                      Date       Description
                   Write-Offs
                                                                                                                                                      Accepted $1.9 billion as full
                   Autos           Chrysler                                              $3,500                  $1,600           7/23/2009           repayment for the debt of
                                                                                                                                                      $3.5 billion
                   CPP             CIT Group Inc.                                          2,330                   2,330         12/10/2009 Bankruptcy
                   CPP             Pacific Coast National Bancorp                                4                        4       2/11/2010 Bankruptcy
                   CPP             South Financial Group, Inc.         c
                                                                                              347                     217         9/30/2010           Sale of preferred stock at a loss
                   CPP             TIB Financial Corpc                                          37                      25        9/30/2010           Sale of preferred stock at a loss
                   Total Write-Offs                                                                              $4,176
                   Total of Realized Losses and Write-Offs                                                     $22,118
                   Notes: Numbers may not total due to rounding.
                   a
                     Since this company remains in TARP, a final determination of realized loss incurred on Treasury’s investment cannot be calculated until the investments have been fully
                     divested.
                   b
                     Treasury has sold a total of 1.42 billion AIG common shares at a weighted average price of $30.97 per share, consisting of 937,640,180 TARP shares and 483,228,626
                     non-TARP shares based upon the Treasury’s pro-rata holding of those shares. The non-TARP shares are those received from the trust created by the Federal Reserve
                     Bank of New York for the benefit of the Treasury. Receipts for non-TARP common stock totaled $14.96 billion and are not included in TARP collections. The realized loss
                     reflects the price at which TARP sold common shares in AIG and TARP’s cost basis of $43.53 per common share.
                   c
                     According to Treasury, in the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at
                     a loss as realized losses.
                   d
                     Treasury changed its reporting methodology in calculating realized losses, effective June 30, 2012. Disposition expenses are no longer included in calculating realized
                     losses.

                   Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Section 105(a) Report, 10/10/2012; Treasury Press Release, “Treasury Announces Agreement to Exit
                   Remaining Stake in Chrysler Group LLC,” 6/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx, accessed 9/28/2012; Treasury, response to
                   SIGTARP data call, 10/4/2012.




                                                            With the expiration of TARP funding authorization, no new expenditures may
                                                       be made through 10 TARP programs because all obligated dollars have been spent.
                                                       For three programs — the housing programs, the Term Asset-Backed Securities
                                                       Loan Facility (“TALF”), and the Public-Private Investment Program (“PPIP”) —
                                                       $44.4 billion in TARP dollars that were obligated but unspent as of September
                                                       30, 2012, are available to be spent. According to Treasury, in the quarter ended
                                                       September 30, 2012, $1.1 billion of TARP funds were spent; of that, $1 billion
                                                       was spent on housing support programs, no funds were spent on TALF, and $0.1
                                                       billion was spent on PPIP.11 Table 2.2 provides a breakdown of program obliga-
                                                       tions, changes in obligations, expenditures, principal repaid, amounts still owed to
                                                       taxpayers, and obligations available to be spent as of September 30, 2012. Table
                                                       2.2 lists 10 TARP sub-programs, instead of all 13, because it excludes the Capital
                                                       Assistance Program (“CAP”), which was never funded, and summarizes three pro-
                                                       grams under “Automotive Industry Support Programs.”
                                                                                                                            quarterly report to congress I October 25, 2012                                        39




Table 2.2
 Obligations, Expenditures, PRINCIPAL REPAID, AMOUNTS STILL OWED TO TAXPAYERS, and Obligations Available
 to be Spent ($ Billions)
                                          Obligation After                       Current                                                                        Still Owed to                    Available
                                              Dodd-Frank                       Obligation               Expenditure           Principal Repaid                    Taxpayers                   to Be Spent
Program                                     (As of 10/3/2010)            (As of 9/30/2012)           (As of 9/30/2012)            (As of 9/30/2012)          (As of 9/30/2012)a           (As of 9/30/2012)

Housing Support
                                                       $45.6                        $45.6                         $5.5                             $—                          $—                    $40.1
Programsb
Capital Purchase Program                               204.9                        204.9                       204.9                        193.1c                         11.8                         0.0
Community Development
                                                           0.6                         0.6                          0.2                          0.0*                        0.6                         0.0
Capital Initiatived
Systemically Significant
                                                         69.8                        67.8e                        67.8                         49.3                         18.5                         0.0
Failing Institutions
Targeted Investment
                                                         40.0                        40.0                         40.0                         40.0                          0.0                         0.0
Program
Asset Guarantee Program                                    5.0                         5.0                          0.0                          0.0                         0.0                         0.0
Term Asset-Backed
                                                           4.3                         1.4f                         0.1                          0.0                         0.1                         1.3
Securities Loan Facility
Public-Private Investment
                                                         22.4                        21.7                         18.6                           9.8g                        8.8                         3.1h
Program
Unlocking Credit for Small
                                                           0.4                         0.4                          0.4                          0.4                         0.0                         0.0
Businesses
Automotive Industry
                                                         81.8i                       79.7j                        79.7                         35.2                         44.5                         0.0
Support Programs
Total                                                $474.8                      $467.0                       $417.3k                      $327.5                        $84.2                       $44.4
Notes: Numbers may not total due to rounding.
a
    Amount taxpayers still owed includes amounts disbursed and still outstanding, plus write-offs and realized losses totaling $22.1 billion. It does not include $5.5 billion in TARP dollars spent on housing
    programs. These programs are designed as Government subsidies, with no repayments to taxpayers expected.
b
     Housing support programs were designed as a Government subsidy, with no repayment to taxpayers expected.
c
    Includes $363.3 million in non-cash conversions from CPP to CDCI. Includes $2.2 billion for CPP banks that exited TARP through SBLF.
d
    CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million was related to CPP conversions for which no additional CDCI cash was
     expended; this is not counted as an expenditure, but it is counted as money still owed to taxpayers. Another $100.7 million was expended for new CDCI expenditures for previous CPP participants. Of the
     total obligation, only $106 million went to non-CPP institutions.
e
   Treasury deobligated $2 billion of an equity facility for AIG that was never drawn down.
f
  Treasury deobligated $2.9 billion in TALF funding, bringing the total obligation to $1.4 billion.
g
   On April 10, 2012, Treasury changed its reporting methodology to reclassify as repayments of capital to the Government $958 million in receipts previously categorized as PPIP equity distributions. That
   $958 million is included in this repayment total.
h
  Total obligation of $22.4 billion and expenditure of $18.6 billion for PPIP includes $356.3 million of the initial obligation to The TCW Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the
  funds that were invested in its PPIF; however, these dollars are not included in the amount available to be spent. Current obligation of $21.7 billion results because Invesco and AllianceBernstein ended
  participation in the program without fully drawing down all the committed equity and debt. The undrawn debt was deobligated, but the undrawn equity was not as of September 30, 2012.
i
  Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.
j
  Treasury deobligated $2.1 billion of a Chrysler credit facility that was never drawn down.
k
  The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash outlay.

* Amount less than $50 million.

Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Daily TARP Update, 10/1/2012; Treasury, response to SIGTARP data call, 10/4/2012.
40   special inspector general I troubled asset relief program




                                            Cost Estimates
                                            Several Government agencies are responsible under EESA for generating cost
                                            estimates for TARP, including the Office of Management and Budget (“OMB”),
                                            the Congressional Budget Office (“CBO”), and Treasury, whose estimated costs
                                            are audited each year by the Government Accountability Office (“GAO”). Cost
                                            estimates have decreased from CBO’s March 2009 cost estimate of a $356 billion
                                            loss and OMB’s August 2009 cost estimate of a $341 billion loss.12
                                                 On August 31, 2012, OMB issued its semiannual report on estimated TARP
                                            costs, which included a TARP lifetime cost estimate of $63.5 billion, based upon
                                            figures from May 31, 2012.13 That was a decrease from its estimate of $67.8
                                            billion, based upon figures from November 30, 2011.14 According to OMB, this
                                            decrease was largely attributable to the higher valuation of AIG common stock held
                                            by Treasury. OMB also cited a more modest increase in the valuation of GM stock
                                            as well as the effect of lower projected interest rates on PPIP costs.15 This estimate
                                            assumes that all $45.6 billion of obligated funds for housing will be spent. It also
                                            assumes that PPIP will make a profit of $2.6 billion and CPP will make a profit of
                                            $7.4 billion, including principal repayments and revenue from dividends, warrants,
                                            interest, and fees.
                                                 On October 11, 2012, CBO issued an updated TARP cost estimate based on
                                            its evaluation of data as of September 17, 2012. CBO estimated the ultimate cost
                                            of TARP would be $24 billion, down $8 billion from its estimate of $32 billion in
                                            March 2012.16 According to CBO, the decrease stems primarily from higher market
                                            prices for the Government’s AIG stock holdings and Treasury’s sale of part of its
                                            AIG investment at a price higher than the market price at the time of CBO’s previ-
                                            ous report. Additionally, CBO’s estimate of the cost of TARP’s automotive programs
                                            went up $1 billion because of shifts in the price of GM stock, and its estimates of
                                            the gains from both CPP and PPIP each increased $1 billion. CBO estimated that
                                            only $16 billion of obligated funds for housing will be spent.
                                                 On November 10, 2011, Treasury issued its September 30, 2011, fiscal year
                                            audited agency financial statements for TARP, which contained a cost estimate of
                                            $70 billion.17 This estimate is an increase from Treasury’s March 31, 2011, esti-
                                            mate of $49 billion. According to Treasury, “These costs fluctuate in large part due
                                            to changes in the market prices of common stock for AIG and GM and the esti-
                                            mated value of the Ally [Financial] stock.”18 According to Treasury, the largest losses
                                            from TARP are expected to come from housing programs and from assistance to
                                            AIG and the automotive industry.19 In its most recent monthly report to Congress,
                                            Treasury estimated the total lifetime costs of TARP at $63.5 billion as of May 31,
                                            2012. According to Treasury, this unaudited estimate is prepared in conjunction
                                            with OMB.20
                                                 The most recent TARP program cost estimates from each agency are listed in
                                            Table 2.3.
                                                                                                                           quarterly report to congress I October 25, 2012   41




TABLE 2.3
 Cost (gain) of TARP Programs                              ($ Billions)

                                                                                                           Treasury Estimate,
                                                                                                                TARP Audited
                                                                                                             Agency Financial
Program Name                                      OMB Estimate                     CBO Estimate                    Statement
    Report issued:                                   8/31/2012                      10/10/2012                      11/10/2011
    Data as of:                                      5/31/2012                       9/17/2012                       9/30/2011
Housing Support Programs                                         $46                              $16                                $46
CPP                                                                (7)                            (18)                               (13)
SSFI                                                               22                              14                                 24
TIP and AGP                                                        (7)                              (8)                               (8)
TALF                                                                 0                               0                                 0
PPIP                                                               (3)                              (1)                          (2.4)
Automotive Industry Support
                                                                   25                              20                                 24
Programsa
Otherb                                                               *                               *                                 *
Total                                                            $75                            $24   c
                                                                                                                                $70d
Interest on Reestimatese                                          (12)
Adjusted Total                                                  $64d
Notes: Numbers may not total due to rounding.
a
  Includes AIFP, ASSP, and AWCP.
b
   Consists of CDCI and UCSB, both of which are estimated between a cost of $500 million and a gain of $500 million.
c
  The estimate is before administrative costs and interest effects.
d
   The estimate includes interest on reestimates but excludes administrative costs.
e
  Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
   estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.

Sources: OMB Estimate — OMB, “OMB Report Under the Emergency Economic Stabilization Act, Section 202,” 8/31/2012, www.
whitehouse.gov/sites/default/files/omb/reports/tarp_report_august_2012.pdf, accessed 10/5/2012; CBO Estimate — CBO, “Report
on the Troubled Asset Relief Program — March 2012,” 3/28/2012, www.cbo.gov/sites/default/files/cbofiles/attachments/03-28-
2012TARP.pdf, accessed 9/28/2012; Treasury Estimate — Treasury, “Office of Financial Stability–Troubled Asset Relief Program
Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/
agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 9/28/2012.




Financial Overview of TARP
Treasury had obligated $474.8 billion of the $475 billion ceiling under the Dodd-
Frank Act, but in 2011 and 2012 deobligated funds for several programs, reducing
obligations to $467 billion as of September 30, 2012. Of the total obligations,
$417.3 billion was expended as of September 30, 2012.21 There remains
approximately $44.4 billion still available to be spent.22 According to Treasury, in
the quarter ended September 30, 2012, $1.1 billion of TARP funds were spent; of
that, $1 billion was spent on housing support programs, no funds were spent on
TALF, and $0.1 billion was spent on PPIP.23
    As of September 30, 2012, 374 institutions remain in TARP: 290 banks in
CPP, 81 banks and credit unions in CDCI, plus AIG, GM, and Ally Financial.
Treasury (and therefore the taxpayer) remains a shareholder in companies that have
not repaid the Government. Treasury’s equity ownership is largely in two forms
42                special inspector general I troubled asset relief program




     FIGURE 2.1                                                      — common and preferred stock — although it also has received debt in the form of
     CURRENT TARP EXPENDITURES,                                      senior subordinated debentures.
     REPAYMENTS, AND AMOUNT                                              According to Treasury, as of September 30, 2012, 319 TARP recipients (in-
     OWED ($ BILLIONS)                                               cluding 314 banks and credit unions, two auto companies, and three former PPIP
     $500                                                            managers) had paid back all of their principal or repurchased shares, although
                                                                     one of the auto companies, Chrysler, did so at a loss to Treasury. Some of these
      400
               $417.3                                                institutions repaid TARP by refinancing into other Government programs such
      300
                                                                     as the Small Business Lending Fund (“SBLF”). In addition, 25 TARP recipients,
                                 $327.5
                                                                     including six PPIP managers, had partially repaid their principal or repurchased
      200                                                            their shares but remained in TARP.24 According to Treasury, as of September 30,
      100
                                                                     2012, 78 banks and credit unions have exited TARP with less than a full repay-
                                                     $84.2
                                                                     ment, including institutions whose shares have been sold for less than par value,
         0                                                           institutions whose shares have been sold at auction, and institutions that are in
             TARP              TARP              Amount
             Expenditures      Repayments a      Owed b              various stages of bankruptcy or receivership.25 According to Treasury, repayments
                                                                     have totaled $327.5 billion.26 Taxpayers are still owed $84.2 billion as of September
                                                                     30, 2012. According to Treasury, it has incurred write-offs of $4.2 billion and
      Notes: As of 9/30/2012. Numbers may be affected due
      to rounding.                                                   realized losses of $17.9 billion as of September 30, 2012, which taxpayers will
      a
        Repayments include $193.1 billion for CPP, $40 billion
        for TIP, $35.2 billion for Auto Programs, $9.8 billion for   never get back, leaving $62.1 billion in TARP funds outstanding (not including
        PPIP, $49.3 billion for SSFI, and $.4 billion for UCSB.
        The $193.1 billion for CPP repayments includes $2.2
                                                                     $5.5 billion in TARP funds spent as a subsidy for TARP housing programs).27
        billion for banks that refinanced from TARP into             OMB predicts that TARP will cost taxpayers $63.5 billion and Treasury itself in
        SBLF as well as $363.3 million in non-cash conversion
        from CPP to CDCI, which is not included in the $327.5        its most recent audited annual report dated November 2011 predicts TARP will
        billion total TARP repayments because it is still owed to
        TARP from CDCI.                                              cost $70 billion, which includes expected losses on assistance to the automotive
      b
        Amount owed includes $22.1 billion that Treasury has
        written off or realized losses. It does not include $5.5     industry and to insurer AIG, as well as the cost of the housing programs.28 Figure
        billion spent for housing programs, which were
        designed as a Government subsidy, with no repayment
                                                                     2.1 provides a snapshot of the cumulative expenditures, repayments, and amount
        to taxpayers expected.                                       owed as of September 30, 2012. According to Treasury, as of September 30, 2012,
       
      Sources: Treasury, Transactions Report, 9/28/2012;             the Government had also collected $41.8 billion in interest, dividends, and other
      Treasury, Daily TARP Update, 10/1/2012; Treasury,
      response to SIGTARP data call, 10/4/2012.                      income, including $9.2 billion in proceeds from the sale of warrants and stock
                                                                     received as a result of exercised warrants.29
                                                                         As of September 30, 2012, obligated funds totaling $44.4 billion were still avail-
                                                                     able to be drawn down by TARP recipients under three of TARP’s 13 announced
                                                                     programs.30 TARP’s component programs fall into four categories, depending on
                                                                     the type of assistance offered:




     Common Stock: Equity ownership entitling                        Preferred Stock: Equity ownership that      Senior Subordinated Debentures: Debt
     an individual to share in corporate                             usually pays a fixed dividend before        instrument ranking below senior debt but
     earnings and voting rights.                                     distributions for common stock owners       above equity with regard to investors’
                                                                     but only after payments due to debt         claims on company assets or earnings.
                                                                     holders. It typically confers no voting
                                                                     rights. Preferred stock also has priority
                                                                     over common stock in the distribution
                                                                     of assets when a bankrupt company is
                                                                     liquidated.
                                                                                                          quarterly report to congress I October 25, 2012   43




•	 Housing Support Programs — These programs are intended to help
   homeowners who are having trouble making their mortgage payments by
   providing incentives for foreclosure alternatives.
•	 Financial Institution Support Programs — These programs share a common
   stated goal of stabilizing financial markets and improving the economy.
•	 Asset Support Programs — These programs attempt to support asset values
   and market liquidity by providing funding to certain holders or purchasers of
   assets.
•	 Automotive Industry Support Programs — These programs are intended to
   stabilize the U.S. automotive industry and promote market stability.

   Some TARP programs are scheduled to last as late as 2020. Table 2.4 provides
details of those exit dates.

Table 2.4
 TARP Program SCHEDULE
 TARP Program                                                    Scheduled Program Dates
 Term Asset-Backed Securities Loan Facility                      2015 maturity of last loan
 Public-Private Investment Program                               2017 for fund manager to sell securities (with
                                                                 possibility to extend to 2019)
 Home Affordable Modification Program                            2019 to pay incentives on modifications
 Hardest Hit Fund                                                2017 for states to draw on TARP funds
 FHA Short Refinance Program                                     2020 for TARP-funded letter of credit


     Other TARP programs have no scheduled ending date; TARP money will
remain invested until recipients pay Treasury back or until Treasury is able to sell
its investments in the companies. Table 2.5 provides details on the status of the
remaining Treasury investments under those programs.
Table 2.5
 TARP INVESTMENTS
 TARP Program                                                    Remaining Treasury Investment
 Capital Purchase Program                                        Preferred stock in 290 banks
 Community Development Capital Initiative                        Preferred stock in 81 banks/credit unions
 Systemically Significant Failing Institutions                   16% stake in AIG
 Automotive Industry Financing Program                           32% stake in GM
                                                                 74% stake in Ally
 Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Response to SIGTARP data call, 10/4/2012.
44   special inspector general I troubled asset relief program




                                            Housing Support Programs
                                            The stated purpose of TARP’s housing support programs is to help homeowners
                                            and financial institutions that hold troubled housing-related assets. Although
                                            Treasury originally committed to use $50 billion in TARP funds for these programs,
                                            it obligated only $45.6 billion.31 As of September 30, 2012, $5.5 billion, or 12%
                                            of this amount, has been expended. However, some of these expended funds
                                            remain as cash on hand or administrative expenses with the state Housing Finance
                                            Agencies participating in the Hardest Hit Fund program.

                                            •	 Making Home Affordable (“MHA”) Program — According to Treasury, this
                                               umbrella program for Treasury’s foreclosure mitigation efforts is intended to
                                               “help bring relief to responsible homeowners struggling to make their mortgage
                                               payments, while preventing neighborhoods and communities from suffering
                                               the negative spillover effects of foreclosure, such as lower housing prices,
                                               increased crime, and higher taxes.”32 MHA, for which Treasury has obligated
                                               $29.9 billion of TARP funds, consists of the Home Affordable Modification
                                               Program (“HAMP”), which includes HAMP Tier 1 and HAMP Tier 2, which
                                               both modify first-lien mortgages to reduce payments, the Federal Housing
                                               Administration (“FHA”) HAMP loan modification option for FHA-insured
                                               mortgages (“Treasury/FHA-HAMP”), the U.S. Department of Agriculture Office
                                               of Rural Development (“RD”) HAMP (“RD-HAMP”), the Home Affordable
                                               Foreclosure Alternatives (“HAFA”) program, and the Second Lien Modification
                                               Program (“2MP”).33 HAMP in turn encompasses various initiatives in addition
                                               to the modification of first-lien mortgages, including Home Price Decline
                                               Protection (“HPDP”), the Principal Reduction Alternative (“PRA”), and the
                                               Home Affordable Unemployment Program (“UP”).34 Additionally, the overall
                                               MHA obligation of $29.9 billion includes $2.7 billion to support the Treasury/
                                               FHA Second-Lien Program (“FHA2LP”), which complements the FHA
                                               Short Refinance program (discussed later) and is intended to support the
                                               extinguishment of second-lien loans.35
                                                    Treasury made several changes to MHA in the first half of 2012. Notably,
                                                the application period for HAMP was extended by a year to December 31,
                                                2013, and investor incentives for principal reduction were doubled for 2MP
                                                and tripled for PRA. Additionally, on June 1, 2012, HAMP was expanded under
                                                “HAMP Tier 2” to open HAMP to non-owner-occupied rental properties and
                                                to borrowers with a wider range of debt-to-income ratios.36 For more detailed
                                                information, see the “Housing Support Programs” discussion in this section.
                                                    As of September 30, 2012, MHA had expended $4 billion of TARP money.37
                                                Of that amount, $3.4 billion was expended on HAMP, $333.3 million on
                                                HAFA, and $238.5 million on 2MP. As of September 30, 2012, there were
                                                405,689 active permanent first-lien modifications under the TARP-funded por-
                                                tion of HAMP, an increase of 11,802 active permanent modifications over the
                                                past quarter.38 For more detailed information, including participation numbers
                                                for each of the MHA programs and subprograms, see the “Housing Support
                                                Programs” discussion in this section.
                                                                               quarterly report to congress I October 25, 2012                45




•	 FHA Short Refinance Program — Treasury has allocated $8.1 billion of
   TARP funding to this program to purchase a letter of credit to provide loss
   protection on refinanced first liens. Additionally, to facilitate the refinancing of
   non-FHA mortgages into new FHA-insured loans under this program, Treasury
   has allocated approximately $2.7 billion in TARP funds for incentive payments
   to servicers and holders of existing second liens for full or partial principal
   extinguishments under the related FHA2LP; these funds are part of the overall
   MHA funding of $29.9 billion, as noted above.39 As of September 30, 2012,
   there have been 1,772 refinancings under the program.40 For more detailed
   information, see the “Housing Support Programs” discussion in this section.
•	 Housing Finance Agency (“HFA”) Hardest Hit Fund (“HHF”) — The stated
   purpose of this program is to provide TARP funding for “innovative measures
   to help families in the states that have been hit the hardest by the aftermath
   of the housing bubble.”41 Treasury obligated $7.6 billion for this program.42 As
   of September 30, 2012, $1.5 billion had been drawn down by the states from
   HHF. However, as of June 30, 2012, the latest data available, only $506.6
   million had been spent assisting 58,519 homeowners, with the remaining
   funds used for administrative expenses and cash-on-hand.43 For more detailed
   information, see the “Housing Support Programs” discussion in this section.

Financial Institution Support Programs
Treasury primarily invested capital directly into financial institutions including
banks, bank holding companies, and, if deemed by Treasury critical to the financial
system, some systemically significant institutions.44                                           Systemically Significant Institutions:
                                                                                                Term referring to any financial
•	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly                              institution whose failure would impose
   purchased preferred stock or subordinated debentures in qualifying financial                 significant losses on creditors and
   institutions (“QFIs”).45 CPP was intended to provide funds to “stabilize and                 counterparties, call into question the
   strengthen the U.S. financial system by increasing the capital base of an                    financial strength of similar institutions,
   array of healthy, viable institutions, enabling them [to] lend to consumers and              disrupt financial markets, raise
   business[es].”46 Treasury invested $204.9 billion in 707 institutions through                borrowing costs for households and
   CPP, which closed to new funding on December 29, 2009.47 As of September                     businesses, and reduce household
   30, 2012, 290 of those institutions remained in CPP.48 Of the 417 that have                  wealth.
   exited CPP, 165, or 39.6%, did so through and into other Government programs
   — 28 of them into TARP’s CDCI and 137 into SBLF, a non-TARP program.49                       Qualifying Financial Institutions (“QFIs”):
   Only 175 of the banks that exited, or 42%, fully repaid CPP otherwise.50 Of                  Private and public U.S.-controlled
   the other banks that have exited CPP, three CPP banks merged with other                      banks, savings associations, bank
   CPP banks, Treasury sold its investments in 56 institutions at a loss, and 18                holding companies, certain savings
   institutions or their subsidiary banks failed, meaning Treasury lost its entire              and loan holding companies, and
   investment in those banks.51 As of September 30, 2012, taxpayers were still                  mutual organizations.
   owed $11.8 billion related to CPP. According to Treasury, it had write-offs and
   realized losses of $3.1 billion in the program, leaving $8.7 billion in TARP funds
   outstanding.52 According to Treasury, $193.1 billion of the CPP principal (or
   94.2%) had been repaid as of September 30, 2012. The repayment amount
   includes $363.3 million in preferred stock that was converted from CPP
46             special inspector general I troubled asset relief program




                                                         investments into CDCI and therefore still represents outstanding obligations
                                                         to TARP, and $2.2 billion that was refinanced in 2011 into SBLF, a non-
                                                         TARP Government program.53 Treasury continues to manage its portfolio of
                                                         CPP investments, including, for certain struggling institutions, converting its
                                                         preferred equity ownership into a more junior form of equity ownership, often
                                                         at a discount to par value (which may result in a loss) in an attempt to preserve
                                                         some value that might be lost if these institutions were to fail. For more detailed
                                                         information, see the “Capital Purchase Program” discussion in this section.
                                                      •	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
                                                         Treasury used TARP money to buy preferred stock in or subordinated debt from
     Community Development Financial
                                                         Community Development Financial Institutions (“CDFIs”). Treasury intended
     Institutions (“CDFIs”): Financial
                                                         for CDCI to “improve access to credit for small businesses in the country’s
     institutions eligible for Treasury funding
                                                         hardest-hit communities.”54 Under CDCI, TARP made capital investments
     to serve urban and rural low-income
                                                         in the preferred stock or subordinated debt of eligible banks, bank holding
     communities through the CDFI Fund.
                                                         companies, thrifts, and credit unions.55 Eighty-four institutions received $570.1
     CDFIs were created in 1994 by the
                                                         million in funding under CDCI.56 However, 28 of these institutions converted
     Riegle Community Development and
                                                         their existing CPP investment into CDCI ($363.3 million of the $570.1
     Regulatory Improvement Act. These
                                                         million) and 10 of those that converted received combined additional funding
     entities must be certified by Treasury;
                                                         of $100.7 million under CDCI.57 Only $106 million of CDCI money went to
     certification confirms that they target
                                                         institutions that were not already TARP recipients. As of September 30, 2012,
     at least 60% of their lending and other
                                                         81 institutions remain in CDCI.
     economic development activities
                                                      •	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI
     to areas underserved by traditional
                                                         enabled Treasury to invest in systemically significant institutions to prevent
     financial institutions.
                                                         them from failing.58 Only one firm received SSFI assistance: American
                                                         International Group, Inc. (“AIG”), which remained in SSFI as of September
                                                         30, 2012. The Government’s rescue of AIG involved several different funding
                                                         facilities provided by the Federal Reserve Bank of New York (“FRBNY”) and
                                                         Treasury, with various changes to the transactions over time. The rescue of AIG
                                                         was led by FRBNY and the Board of Governors of the Federal Reserve System
                                                         (“Federal Reserve”). With the passage of EESA in October 2008, Treasury
                                                         took on a greater role in the AIG rescue as the Government expanded and
                                                         restructured its aid.
                                                              There were two TARP investments in AIG. On November 25, 2008,
                                                          Treasury bought $40 billion of AIG’s preferred stock, the proceeds of which
                                                          were used to repay a portion of AIG’s debt to FRBNY. Then, on April 17, 2009,
                                                          Treasury obligated approximately $29.8 billion to an equity capital facility that
                                                          AIG was allowed to draw on as needed.59
                                                              On January 14, 2011, AIG executed its Recapitalization Plan with the
                                                          Government. According to Treasury, the intent of the restructuring was to facili-
                                                          tate the repayment of AIG’s government loans and investments and to promote
                                                          AIG’s transition from a majority government owned and supported entity to a
                                                          financially sound and independent entity.60 Under the Recapitalization Plan,
                                                          AIG fully repaid FRBNY’s revolving credit facility, purchased the remainder of
                                                          FRBNY’s preferred equity interests in two AIG subsidiaries (which it then trans-
                                                          ferred to Treasury), and Treasury converted its preferred stock holdings (along
                                                                        quarterly report to congress I October 25, 2012            47




with the preferred stock holdings held by the AIG Trust) into an approximately
92.1% common equity ownership stake in AIG. The three main steps of the
Recapitalization Plan are briefly described below.
çç AIG repaid and terminated its revolving credit facility with FRBNY with
    cash proceeds that it had received from sales of equity interests in two
    companies: American International Assurance Co., Ltd. (“AIA”) and
    American Life Insurance Company (“ALICO”).61
çç AIG applied cash proceeds from the AIA IPO and ALICO sale to retire
    a portion of FRBNY’s preferred interests in the special purpose vehicle              Special Purpose Vehicle (“SPV”):
    (“SPV”) that held ALICO.62 AIG next drew down an additional $20.3 billion            A legal entity, often off-balance-
    in available TARP funds from the equity capital facility to repurchase the           sheet, that holds transferred assets
    remainder of FRBNY’s preferred interests in the ALICO SPV and all of                 presumptively beyond the reach of the
    FRBNY’s preferred interests in the AIA SPV. AIG then transferred the                 entities providing the assets, and that
    preferred interests to Treasury. AIG designated its remaining $2 billion             is legally isolated from its sponsor or
    TARP equity capital facility to a new Series G standby equity commitment             parent company.
    available for general corporate purposes, which has been subsequently
    terminated without drawdown.
çç AIG issued common stock in exchange for the preferred shares held by
    Treasury and the AIG Trust. The conversion resulted in Treasury holding a
    common equity ownership in AIG of approximately 92.1%.63
    On May 27, 2011, Treasury sold 200 million shares of AIG’s common stock
for $5.8 billion in proceeds, which decreased Treasury’s equity ownership to
77%. On March 8, 2012, Treasury sold approximately 206.9 million shares of
AIG’s common stock for $6 billion in proceeds, which decreased Treasury’s
equity ownership to 70%. On May 6, 2012, Treasury sold approximately 188.5
million shares of AIG’s common stock for $5.8 billion in proceeds, which
decreased Treasury’s equity ownership to 61%. On August 3, 2012, Treasury
sold approximately 188.5 million shares of AIG’s common stock for $5.8 bil-
lion in proceeds. This sale decreased Treasury’s equity ownership to 53%.64 On
September 10, 2012, Treasury sold approximately 636.9 million shares of AIG’s
common stock for $32.50 per share, for approximately $20.7 billion in pro-
ceeds. This sale further decreased Treasury’s equity ownership to 16%.65
    Through two payments in February 2011 and March 2011, AIG fully repaid
the Government’s preferred interests in the ALICO SPV. Through a series of
repayments between February 2011 and March 2012, AIG fully repaid the
Government’s preferred interests in the AIA SPV.
    As of September 30, 2012, as reflected on Treasury’s books and records, tax-
payers have recouped $49.3 billion of the $67.8 billion in TARP funds and have
realized losses from an accounting standpoint of $11.8 billion on Treasury’s
sale of AIG stock, leaving $6.7 billion outstanding.66 However, due to the
January 2011 restructuring of the FRBNY and Treasury investments, Treasury
held common stock from the TARP and FRBNY assistance, and, according to
Treasury, the Government overall has made a gain thus far on the stock sales.67
In return for the Government’s investment, Treasury holds 16% of AIG’s com-
mon stock (234.2 million shares).68
48             special inspector general I troubled asset relief program




                                                          For more detailed information on the Recapitalization Plan, the sale of AIG
                                                      common stock, and other AIG transactions, see the “Systemically Significant
                                                      Failing Institutions Program” discussion in this section.
                                                      •	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
                                                         financial institutions it deemed critical to the financial system.69 There were two
                                                         expenditures under this program, totaling $40 billion — the purchases of $20
                                                         billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and Bank
                                                         of America Corp. (“Bank of America”).70 Treasury also accepted common stock
                                                         warrants from each, as required by EESA. Both banks fully repaid Treasury
     Senior Preferred Stock: Shares that                 for its TIP investments.71 Treasury auctioned its Bank of America warrants on
     give the stockholder priority dividend              March 3, 2010, and auctioned its Citigroup warrants on January 25, 2011.72
     and liquidation claims over junior                  For more information on these two transactions, see the “Targeted Investment
     preferred and common stockholders.                  Program and Asset Guarantee Program” discussion in this section.
                                                      •	 Asset Guarantee Program (“AGP”) — AGP was designed to provide
     Illiquid Assets: Assets that cannot be              insurance-like protection for a select pool of mortgage-related or similar assets
     quickly converted to cash.                          held by participants whose portfolios of distressed or illiquid assets threatened
                                                         market confidence.73 Treasury, the Federal Deposit Insurance Corporation
     Trust Preferred Securities (“TRUPS”):               (“FDIC”), and the Federal Reserve offered certain loss protections in connection
     Securities that have both equity and                with $301 billion in troubled Citigroup assets.74 In exchange for providing
     debt characteristics, created by                    the loss protection, Treasury received $4 billion of preferred stock that was
     establishing a trust and issuing debt               later converted to trust preferred securities (“TRUPS”), and FDIC received
     to it.                                              $3 billion.75 On December 23, 2009, in connection with Citigroup’s TIP
                                                         repayment, Citigroup and the Government terminated the AGP agreement
     Asset-Backed Securities (“ABS”): Bonds              and the Government suffered no loss. For more information on this program,
     backed by a portfolio of consumer                   including more detailed information on the agreements between Treasury,
     or corporate loans, e.g., credit card,              Citigroup, and FDIC regarding these TRUPS, see the “Targeted Investment
     auto, or small-business loans. Financial            Program and Asset Guarantee Program” discussion in this section.
     companies typically issue ABS backed
     by existing loans in order to fund new           Asset Support Programs
     loans for their customers.                       The stated purpose of these programs was to support the liquidity and market value
                                                      of assets owned by financial institutions. These assets included various classes of
     Commercial Mortgage-Backed                       asset-backed securities (“ABS”) and several types of loans. Treasury’s asset support
     Securities (“CMBS”): Bonds backed by             programs sought to bolster the balance sheets of financial firms and help free
     one or more mortgages on commercial              capital so that these firms could extend more credit to support the economy.
     real estate (e.g., office buildings, rental
     apartments, hotels).                             •	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was
                                                         originally designed to increase credit availability for consumers and small
                                                         businesses through a $200 billion Federal Reserve loan program. TALF provided
                                                         investors with non-recourse loans secured by certain types of ABS, including
                                                         credit card receivables, auto loans, equipment loans, student loans, floor
                                                         plan loans, insurance-premium finance loans, loans guaranteed by the Small
                                                         Business Administration (“SBA”), residential mortgage servicing advances,
                                                         and commercial mortgage-backed securities (“CMBS”).76 TALF closed to
                                                         new loans in June 2010.77 TALF ultimately provided $71.1 billion in Federal
                                                         Reserve financing. Of that amount, $1.5 billion remained outstanding as of
                                                                            quarterly report to congress I October 25, 2012              49




   September 30, 2012.78 FRBNY made 13 rounds of TALF loans with non-
   mortgage-related ABS as collateral, totaling approximately $59 billion, with
   $1.1 billion of TALF borrowings outstanding as of September 30, 2012.79
   FRBNY also made 13 rounds of TALF loans with CMBS as collateral, totaling
   $12.1 billion, with $364.2 million in loans outstanding as of September 30,
   2012.80 Treasury originally obligated $20 billion of TARP funds to support this
   program by providing loss protection to the loans extended by FRBNY in the
   event that a borrower surrendered the ABS collateral and walked away from
   the loan.81 Treasury has since reduced its obligation for TALF to $1.4 billion.82
   As of September 30, 2012, there had been no surrender of collateral.83 As of
   September 30, 2012, $2.5 million in TARP funds had been allocated under
   TALF for administrative expenses.84 For more information on these activities,
   see the “TALF” discussion in this section.
•	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
   credit markets by using a combination of private equity, matching Government
   equity, and Government debt to purchase legacy securities, i.e., CMBS and                Legacy Securities: Real estate-related
   non-agency residential mortgage-backed securities (“non-agency RMBS”).85                 securities originally issued before
   Under the program, nine Public-Private Investment Funds (“PPIFs”) managed                2009 that remained on the balance
   by private asset managers invested in non-agency RMBS and CMBS.                          sheets of financial institutions because
   Treasury originally obligated $22.4 billion in TARP funds to the program. As             of pricing difficulties that resulted from
   of September 30, 2012, Treasury has obligated $21.7 billion in TARP funds                market disruption.
   to the program. One PPIP manager withdrew from the program soon after it
   began. Two other PPIP managers, Invesco Legacy Securities Master Fund,                   Non-Agency Residential Mortgage-
   L.P. (“Invesco”) and AllianceBernstein Legacy Securities Master Fund, L.P.               Backed Securities (“non-agency
   (“AllianceBernstein”), sold all remaining securities and repaid Treasury’s debt          RMBS”): Financial instrument backed
   and equity. Another PPIP manager, RLJ Western Asset Public/Private Master                by a group of residential real estate
   Fund, L.P. (“RLJ Western”), terminated its investment period almost four                 mortgages (i.e., home mortgages for
   months early, on July 15, 2012.86 As of September 30, 2012, five PPIFs were              residences with up to four dwelling
   actively investing in the days or weeks left before their investment periods             units) not guaranteed or owned by
   were scheduled to terminate and RLJ Western was managing its portfolio.                  a Government-sponsored enterprise
   As of September 30, 2012, the PPIFs had drawn down $18.6 billion in debt                 (“GSE”) or a Government agency.
   and equity financing from Treasury funding out of the total obligation, which
   includes $9.8 billion that has been repaid.87 As the PPIFs continue to make
   purchases, they will continue to have access to draw down the remaining
   funding through the end of their investment periods, the last of which will
   expire in December 2012.88 Following the expiration of the investment period,
   the fund managers will have five years to manage and sell the investment
   portfolio in the PPIF and return proceeds to private investors and taxpayers.
   This period may be extended up to a maximum of two years. For details about
   the program structure and fund-manager terms, see the “Public-Private
   Investment Program” discussion in this section.
•	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business
   Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury
   officials announced that Treasury would buy up to $15 billion in securities
   backed by SBA loans under UCSB.89 Treasury obligated a total of $400 million
50   special inspector general I troubled asset relief program




                                               for UCSB and made purchases of $368.1 million in 31 securities under the
                                               program. Treasury sold the last of its UCSB securities on January 24, 2012,
                                               ending the program with a net investment gain of about $9 million.90 For more
                                               information on the program, see the discussion of “Unlocking Credit for Small
                                               Businesses/Small Business Administration Loan Support” in this section.

                                            Automotive Industry Financing Program (“AIFP”)
                                            TARP’s automotive industry support through AIFP aimed to “prevent a significant
                                            disruption of the American automotive industry, which would pose a systemic
                                            risk to financial market stability and have a negative effect on the economy of the
                                            United States.”91 As of September 30, 2012, General Motors Company (“GM”)
                                            and Ally Financial Inc. (“Ally Financial”), formerly GMAC Inc., remain in TARP.
                                            Taxpayers are still owed $44.5 billion. This includes about $27 billion for the TARP
                                            investment in GM and $14.7 billion for the TARP investment in Ally Financial, for
                                            which Treasury holds common stock in GM and common stock and mandatorily
                                            convertible preferred shares (“MCP”) in Ally Financial. This amount also includes
                                            a $2.9 billion loss taxpayers suffered on the TARP investment in Chrysler. Chrysler
                                            Financial fully repaid the TARP investment.92
                                                 Through AIFP, Treasury made emergency loans to Chrysler Holding LLC
                                            (“Chrysler”), Chrysler Financial Services Americas LLC (“Chrysler Financial”), and
                                            GM. Additionally, Treasury bought senior preferred stock from Ally Financial and
                                            assisted Chrysler and GM during their bankruptcy restructurings. Treasury obligat-
                                            ed $84.8 billion to AIFP, then reduced the total obligation to $81.8 billion (includ-
                                            ing approximately $2.1 billion in loan commitments to New Chrysler that were
                                            never drawn down).93 As of September 30, 2012, $79.7 billion had been disbursed
                                            through AIFP and Treasury had received $35.2 billion in principal repayments,
                                            preferred stock redemption proceeds, and stock sale proceeds. As of September 30,
                                            2012, Treasury had received approximately $22.5 billion related to its GM invest-
                                            ment, $7.6 billion related to its Chrysler investment, $2.5 billion related to its Ally
                                            Financial/GMAC investment, and $1.5 billion related to its Chrysler Financial
                                            investment.94 As of September 30, 2012, Treasury had also received approximately
                                            $5 billion in dividends and interest under AIFP and its two subprograms, ASSP and
                                            AWCP.95
                                                 In return for a total of $49.5 billion in loans to GM, Treasury received $6.7
                                            billion in debt in GM (which was subsequently repaid), in addition to $2.1 billion
                                            in preferred stock and a 60.8% common equity stake.96 As of September 30, 2012,
                                            Treasury has an $849.2 million claim against Old GM’s bankruptcy, a bankruptcy
                                            that has terminated.97 Treasury does not expect any significant additional proceeds
                                            from this claim.98 On December 2, 2010, GM closed an initial public offering
                                            (“IPO”) in which Treasury sold a portion of its ownership stake for $18.1 billion
                                            in gross proceeds, reducing its ownership percentage to 33.3%.99 On December
                                            15, 2010, GM repurchased the $2.1 billion in preferred stock from Treasury. On
                                            January 31, 2011, Treasury’s ownership in GM was diluted from 33.3% to 32% as
                                            a result of GM contributing 61 million of its common shares to fund GM’s hourly
                                            and salaried pension plans.100 As of September 30, 2012, Treasury had received
                                                                              quarterly report to congress I October 25, 2012   51




$22.5 billion in principal repayments, proceeds from preferred stock redemptions,
and proceeds from the sale of common stock from GM, including approximately
$136.6 million in repayments related to its right to recover proceeds from Old
GM.101
     Treasury provided approximately $12.5 billion in loan commitments to Chrysler,
Inc. (“Old Chrysler”), and Chrysler Group LLC (“New Chrysler”), of which $2.1
billion was never drawn down.102 Treasury also received a 9.9% equity stake, which
was diluted to 8.6% in April 2011 after Fiat increased its ownership interest by
meeting certain performance metrics. Upon full repayment of New Chrysler’s
TARP debt obligations on May 24, 2011, Fiat simultaneously exercised an equity
call option, which increased its stake in New Chrysler to 46% from 30%. As a
result, Treasury’s equity stake in New Chrysler was diluted and further decreased to
6.6%.103 On July 21, 2011, Treasury sold to Fiat for $500 million Treasury’s remain-
ing equity ownership interest in New Chrysler.104 Treasury also sold to Fiat for $60
million Treasury’s rights to receive proceeds under an agreement with the United
Auto Workers (“UAW”) retiree trust pertaining to the trust’s shares in New Chrysler
on a fully diluted basis.105 Treasury retains the right to recover certain proceeds
from Old Chrysler’s bankruptcy but according to Treasury, it is unlikely to recover
its full investment.
     Treasury invested a total of $17.2 billion in Ally Financial. On December 30,
2010, Treasury’s investment was restructured to provide for a 73.8% common
equity stake, $2.7 billion in TRUPS (including amounts received in warrants that
were immediately converted into additional securities), and $5.9 billion in manda-
torily convertible preferred shares.106 Treasury sold the $2.7 billion in TRUPS on
March 2, 2011.107 On March 31, 2011, Ally Financial announced that it had filed
a registration statement with the Securities and Exchange Commission (“SEC”) for
a proposed IPO of common stock owned by Treasury. On a number of subsequent
occasions, Ally Financial disclosed additional details about its proposed IPO in
amended registration statements filed with the SEC. Concurrent with the proposed
IPO, Treasury plans to convert $2.9 billion of its existing $5.9 billion of manda-
torily convertible preferred shares (“MCP”) into common stock.108 Treasury will
exchange the remaining $3 billion of its MCP into so-called tangible equity units, a
type of preferred stock, and will offer a portion of these tangible equity units along-
side the proposed common equity offering.109 On May 14, 2012, Ally Financial
announced that its mortgage subsidiary, Residential Capital, LLC, and certain
of its subsidiaries filed for bankruptcy court relief under Chapter 11 of the U.S.
Bankruptcy Code, and that it was exploring strategic alternatives for its interna-
tional operations, which include auto finance, insurance, and banking and deposit
operations in Canada, Mexico, Europe, the United Kingdom, and South America.
     Treasury provided a $1.5 billion loan to Chrysler Financial, which was fully
repaid with interest in July 2009.110
     For details on assistance to these companies, see the “Automotive Industry
Support Programs” discussion in this section.
52   special inspector general I troubled asset relief program




                                                AIFP also included two subprograms:

                                            •	 Auto Supplier Support Program (“ASSP”) — According to Treasury, this
                                               program was intended to provide auto suppliers “with the confidence they need
                                               to continue shipping their parts and the support they need to help access loans
                                               to pay their employees and continue their operations.”111 Under the program,
                                               which ended in April 2010, Treasury made loans for GM ($290 million) and
                                               Chrysler ($123.1 million) that were fully repaid with $115.9 million in interest,
                                               fees and other income.112 For more information, see the “Auto Supplier Support
                                               Program” discussion in this section.
                                            •	 Auto Warranty Commitment Program (“AWCP”) — This program was
                                               designed to bolster consumer confidence by guaranteeing Chrysler and GM
                                               vehicle warranties during the companies’ restructuring through bankruptcy. It
                                               ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 million
                                               with interest and GM repaid just the principal — $360.6 million — of its
                                               loan.113 For more information, see the “Auto Warranty Commitment Program”
                                               discussion in this section.

                                                The following tables and figures summarize the status of TARP and TARP-
                                            related initiatives:

                                            •	 Table 2.6 — total funds subject to SIGTARP oversight as of September 30,
                                               2012
                                            •	 Table 2.7 — obligations/expenditures by program as of September 30, 2012
                                            •	 Table 2.8 and Table 2.9 — summary of TARP terms and agreements
                                            •	 Table 2.10 — summary of largest warrant positions held by Treasury, by
                                               program, as of September 30, 2012
                                            •	 Table 2.11 — summary of dividends, interest payments, and fees received, by
                                               program, as of September 30, 2012

                                               For a report of all TARP purchases, obligations, expenditures, and revenues, see
                                            Appendix C: “Reporting Requirements.”
                                                                                                                            quarterly report to congress I October 25, 2012                                         53




TABLE 2.6
TOTAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF 9/30/2012                                                             ($ Billions)
Numbers in parentheses represent repayments and reductions in exposure

                                                                                                                                                                    TARP Funding                    TARP
                                                                                                                                                       Total          after Dodd-            Funding as of
Program                                                  Brief Description or Participant                                                           Funding                 Frank              9/30/2012
Housing Support Programs                                 Modification of mortgage loans                                                                $70.6a                   $45.6b                  $45.6

Capital Purchase Program (“CPP”)                         Investments in 707 banks; received $193.1 billion in                                          204.9                    204.9                   204.9
                                                         principal repayments; including $363.3 million in non-
CLOSED                                                   cash conversions from CPP to CDCI                                                            (193.1)                  (193.1)                 (193.1)

Community Development Capital                            Investments in Community Development Financial
Initiative (“CDCI”)                                      Institutions (“CDFIs”), received $2.9 million in principal                                        0.6                      0.6                     0.6
CLOSED                                                   repayment

Systemically Significant Failing
                                                         AIG investment; received $51.3 billion in repayments and                                        69.8                     69.8                    67.8
Institutions (“SSFI”)
                                                         reductions in exposure                                                                         (51.3)c                  (51.3)c                 (49.3)c
CLOSED
Targeted Investment Program (“TIP”)                                                                                                                      40.0                     40.0                    40.0
                                                         Citigroup, Bank of America Investments
CLOSED                                                                                                                                                  (40.0)                   (40.0)                  (40.0)
Asset Guarantee Program (“AGP”)                                                                                                                        301.0                        5.0                     5.0
                                                         Citigroup, ring-fence asset guarantee
CLOSED                                                                                                                                                (301.0)                      (5.0)                   (5.0)

Term Asset-Backed Securities                             FRBNY non-recourse loans for purchase of asset-backed                                           71.1                       4.3d                    1.4d
Loan Facility (“TALF”)                                   securities                                                                                       (0.0)                    (0.0)                   (0.0)
                                                         Investments in legacy mortgage-backed securities using                                          29.8   e
                                                                                                                                                                                  22.4  f
                                                                                                                                                                                                          21.7
Public-Private Investment Program
                                                         private and Government equity, along with Government
(“PPIP”)                                                                                                                                                  (9.8)                    (9.8)                   (9.8)
                                                         debt
Unlocking Credit for Small Businesses
                                                                                                                                                           0.4g                     0.4g                    0.4g
(“UCSB”)                                                 Purchase of securities backed by SBA loans
                                                                                                                                                          (0.4)                    (0.4)                   (0.4)
CLOSED
                                                         GM, Chrysler, Ally Financial Inc. (formerly GMAC),
Automotive Industry Financing Program                    Chrysler Financial; received $34.2 billion in loan                                              80.7                     80.7                    78.7
(“AIFP”)                                                 repayments, preferred stock redemptions and proceeds
                                                         from the sale of common stock; terminated Chrysler’s                                           (36.2)                   (36.2)                  (36.2)
CLOSED
                                                         $2.1 billion in undrawn loan commitments
Auto Suppliers Support Program
                                                         Government-backed protection for auto parts suppliers;                                            0.4h                     0.4h                    0.4
(“ASSP”)
                                                         received $0.4 billion in loan repayments                                                         (0.4)                    (0.4)                   (0.4)
CLOSED
Auto Warranty Commitment Program                         Government-backed protection for warranties of cars                                               0.6                      0.6                     0.6
(“AWCP”)                                                 sold during the GM and Chrysler bankruptcy restructuring
                                                         periods                                                                                          (0.6)                    (0.6)                   (0.6)
CLOSED
Total Obligations                                                                                                                                    $869.9                  $474.8                   $467.0
Notes: Numbers may not total due to rounding. “CLOSED” denotes a program where no further expenditures are permitted.
a
  Program was initially announced as a $75 billion initiative with $50 billion funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including the
  $25 billion estimated to be spent by the GSEs, the total program amount is $70.6 billion.
b
   Treasury reduced its commitment from $50 billion to an obligation of $45.6 billion.
c
  The $51.3 billion in reduced exposure and repayment for SSFI includes the cancellation of the series G capital facility. Does not include AIG investment proceeds from the sale of AIG stock that Treasury
  received from the AIG credit facility trust in the January 2011 recapitalization.
d
   Treasury reduced obligation from $20 billion to $4.3 billion in 2010, then further reduced obligation from $4.3 billion to $1.4 billion in 2012.
e
  PPIP funding includes $7.4 billion of private-sector equity capital. Includes $0.4 billion of initial obligations to The TCW Group, Inc., which has been repaid.
f
  Treasury reduced its commitment from $30 billion to approximately $22.4 billion in debt and equity obligations to the Public-Private Investment Funds. Invesco terminated its investment period on
  September 26, 2011, without fully drawing down all committed equity and debt.
g
   Treasury reduced commitment from $15 billion to an obligation of $400 million.
h
  Treasury’s original commitment under this program was $5 billion, which was reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.

Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Daily TARP Update, 10/1/2012; Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,”
1/16/2009, www.treasury.gov/press-center/press-releases/Pages/hp1358.aspx, accessed 9/28/2012; FRBNY, response to SIGTARP data call, 10/4/2012; Treasury, “Making Home Affordable
Updated Detailed Program Description,” 3/4/2009, www.treasury.gov/press-center/press-releases/Documents/housing_fact_sheet.pdf, accessed 9/28/2012; Treasury, “Legacy Securities Public-Private
Investment Program, Program Update – Quarter Ended June 30, 2012,” www.treasury.gov/initiatives/financial-stability/reports/Documents/PPIP%20Report%20-%20Q2%202012.pdf, 7/19/2012, p. 4,
accessed 10/9/2012.
54             special inspector general I troubled asset relief program




     TABLE 2.7
      OBLIGATION/EXPENDITURE LEVELS BY PROGRAM, AS OF 9/30/2012                                ($ Billions)

                                                                     Amount          Percent (%)

     Authorized Under EESA	                            $700.0

     Released Immediately                                                250.0               52.6%

     Released Under Presidential Certificate of Need                     100.0               21.1%
     Released Under Presidential Certificate of Need &
     Resolution to Disapprove Failed                                     350.0               73.7%

     Helping Families Save Their Home Act of 2009                         (1.2)              -0.3%

     The Dodd-Frank Act                                              (223.8)               -47.1%

     Total Released                                                 $475.0              100.0%


                                     Obligations             Current               Current            Repaid/
     Less: Obligations by            after Dodd-       Obligations as      Obligation as %           Reduced       Obligation
     Treasury under TARPa              Frank Act       of 9/30/2012            of Released           Exposure    Outstandingb           Section Reference
      Making Home Affordable
                                           $29.9                 $29.9              6.4%
      (“MHA”)
      Housing Finance Agency:
                                             $7.6                 $7.6              1.6%                                        “Housing Support Programs”
      Hardest Hit Fund (“HHF”)
      FHA Short Refinance
                                             $8.1                 $8.1              1.7%
      Program
      Housing Support
                                           $45.6                 $45.6              9.8%                  —            $45.6
      Programs Total
      Capital Purchase                                                                                                              “Financial Institution Support
                                          $204.9                $204.9             43.9%             ($193.1)c
      Program (“CPP”)                                                                                                                        Programs”
      CPP Total                          $204.9                 $204.9             43.9%             ($193.1)c         $11.8
      Community Development                                                                                                         “Financial Institution Support
                                             $0.6                 $0.6              0.1%
      Capital Initiative (“CDCI”)                                                                                                            Programs”
      CDCI Total                            $0.6                  $0.6              0.1%                $0.0            $0.6                       
      Systemically Significant
      Failing Institutions
      (“SSFI”) Program:                                                                                                             “Financial Institution Support
                                                                                                                                             Programs”
         American International
                                           $69.8                 $67.8             14.5%              ($51.3)              
         Group, Inc. (“AIG”)d
      SSFI Total                           $69.8                 $67.8             14.5%              ($51.3)          $18.5
      Targeted Investment
      Program (“TIP”):
                                                                                                                                    “Financial Institution Support
         Bank of America
                                           $20.0                 $20.0              4.3%              ($20.0)                                Programs”
         Corporation
         Citigroup, Inc.                   $20.0                 $20.0              4.3%              ($20.0)
      TIP Total                           $40 .0                 $40.0              8.6%              ($40.0)             —      
                                                                                                                                         Continued on next page
                                                                               quarterly report to congress I October 25, 2012                   55




OBLIGATION/EXPENDITURE LEVELS BY PROGRAM, AS OF 9/30/2012                    ($ Billions) (CONTINUED)
                            Obligations         Current            Current        Repaid/
Less: Obligations by        after Dodd-   Obligations as   Obligation as %       Reduced        Obligation
Treasury under TARPa          Frank Act   of 9/30/2012         of Released       Exposure     Outstandingb          Section Reference
Asset Guarantee
Program (“AGP”)                                                                                                 “Financial Institution Support
                                                                                                                         Programs”
   Citigroup, Inc.e               $5.0             $5.0             1.1%            ($5.0)
AGP Total                         $5.0             $5.0             1.1%           ($5.0)                  —
Term Asset-Backed
Securities Loan Facility
(“TALF”):                                                                                                        “Asset Support Programs”

   TALF LLC                       $4.3             $1.4             0.3%            ($0.0)
TALF Total                        $4.3             $1.4             0.3%           ($0.0)                $1.4
Legacy Securities
Public-Private Investment
Program (“PPIP”)
   AG GECC PPIF Master
                                  $3.7             $3.7             0.8%            ($1.4)
   Fund, L.P.
   AllianceBernstein
   Legacy Securities              $3.5             $3.3             0.7%            ($3.2)
   Master Fund, L.P.
   BlackRock PPIF, L.P.           $2.1             $2.1             0.4%            ($0.3)
   Invesco Legacy
   Securities Master              $2.6             $2.0             0.4%            ($1.7)
   Fund, L.P.
   Marathon Legacy
   Securities Public-                                                                                            “Asset Support Programs”
                                  $1.4             $1.4             0.3%            ($0.2)
   Private Investment
   Partnership, L.P.
   Oaktree PPIP Fund,
                                  $3.5             $3.5             0.7%            ($0.3)
   L.P.
   RLJ Western Asset
   Public/Private Master          $1.9             $1.9             0.4%            ($1.6)
   Fund, L.P.
   UST/TCW Senior
   Mortgage Securities            $0.4             $0.4             0.1%            ($0.4)
   Fund, L.P.
   Wellington
   Management Legacy
                                  $3.4             $3.4             0.7%            ($0.6)
   Securities PPIF
   Master Fund, L.P.
PPIP Totalf                      $22.4           $21.7              4.6%           ($9.8)               $11.9
Unlocking Credit for
Small Businesses                  $0.4             $0.4             0.1%            ($0.4)                       “Asset Support Programs”
(“UCSB”)
UCSB Total                        $0.4             $0.4             0.1%           ($0.4)                  *
                                                                                                                     Continued on next page
56               special inspector general I troubled asset relief program




     OBLIGATION/EXPENDITURE LEVELS BY PROGRAM, AS OF 9/30/2012                                                               ($ Billions) (CONTINUED)
                                                 Obligations                 Current                     Current                    Repaid/
     Less: Obligations by                        after Dodd-           Obligations as            Obligation as %                   Reduced              Obligation
     Treasury under TARPa                          Frank Act           of 9/30/2012                  of Released                   Exposure           Outstandingb                 Section Reference
     Automotive Industry
     Financing Program
     (“AIFP”):
         General Motors
                                                         $49.5                     $49.5                       10.6%                 ($22.5)
         Corporation (“GM”)
                                                                                                                                                                             “Automotive Industry Support
         Ally Financial
                                                         $17.2                     $17.2                         3.7%                  ($2.7)                                        Programs”
         (formerly GMAC)
         Chrysler Holding LLCg                           $12.5                     $10.5                         2.2%                  ($9.7)
         Chrysler Financial
         Services Americas                                 $1.5                      $1.5                        0.3%                  ($1.5)
         LLC
     AIFP Total                                          $80.7                     $78.7                       16.9%                 ($36.2)                    $42.5                            
     Automotive Supplier
     Support Program
     (“ASSP”):
                                                                                                                                                                             “Automotive Industry Support
         GM Suppliers                                                                                                                                                                Programs”
                                                           $0.3                      $0.3                        0.1%                  ($0.3)
         Receivables LLCh
         Chrysler Holding LLC                              $0.1                      $0.1                        0.0%                  ($0.1)
     ASSP Totalh                                           $0.4                      $0.4                        0.1%                  ($0.4)                         —                          
     Automotive Warranty
     Commitment Program
     (“AWCP”):
                                                                                                                                                                             “Automotive Industry Support
         General Motors                                                                                                                                                              Programs”
                                                           $0.4                      $0.4                        0.1%                  ($0.4)
         Corporation (“GM”)
         Chrysler Holding LLC                              $0.3                      $0.3                        0.1%                  ($0.3)
     AWCP Total                                            $0.6                      $0.6                        0.2%                  ($0.6)                         —                          
     TARP Obligations
     Subtotal                                          $474.8                    $467.0                         100%                                                                             
     TARP Repayments/
     Reductions in
     Exposure Subtotal                                                                                                             ($337.3)                                                      
     TARP Obligations
     Outstanding Subtotal                                                                                                                                     $132.6          
     Notes: Numbers may not total due to rounding.
     a
       From a budgetary perspective, what Treasury has obligated to spend (e.g., signed agreements with TARP fund recipients).
     b
        Figure does not subtract write-offs and realized losses.
     c
        Does include $363.3 million non-cash conversion from CPP to CDCI.
     d
        The $51.3 billion in reduced exposure and repayment for SSFI includes the cancellation of the series G capital facility. Does not include AIG investment proceeds from the sale of AIG stock that Treasury
        received from the AIG credit facility trust in the January 2011 recapitalization.
     e
        Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This amount was not
        an actual outlay of cash.
     f
       Treasury selected nine fund management firms to establish PPIFs. One PPIP manager, TCW, subsequently withdrew. According to Treasury, the current PPIP obligation is $21.7 billion, and includes
       $365.25 million of an initial obligation to TCW that was funded. TCW repaid the funds.
     g
         The $9.7 billion in repayments and reductions in exposure includes (i) loan repayments from New Chrysler, (ii) proceeds related to the liquidation of Old Chrysler, (iii) a settlement payment for a loan to
         Chrysler Holding, (iv) termination of New Chrysler’s ability to draw the remaining $2.1 billion under a loan facility made available in May 2009, and (v) proceeds related to the sale to Fiat of Treasury’s
         remaining equity ownership stake in New Chrysler and the sale to Fiat of Treasury’s rights to receive proceeds under an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the
         trust’s shares in New Chrysler.
       Represents an SPV created by the manufacturer. Balance represents the maximum loan amount, which will be funded incrementally. Treasury’s original commitment under this program was $5 billion, but
     h 

       subsequently reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.

     *Amount less than $50 million.

     Sources: Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008; Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization
     Act of 2008,” 1/15/2009, http://thomas.loc.gov/cgi-bin/bdquery/D?d111:5:./list/bss/d111SJ.lst::, accessed 9/28/2012; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009;
     Treasury, Transactions Report, 9/28/2012; Treasury, Transactions Report-Housing Programs, 9/27/2012; Treasury, response to SIGTARP data call, 10/4/2012; Treasury, Section 105(a) Report,
     10/10/2012.
                                                                                                                      quarterly report to congress I October 25, 2012                                 57




TABLE 2.8
 Debt Agreements, as of 9/30/2012
 TARP                              Date of               Cost                Description of                                                           Interest/                     Term of
 Program        Company            Agreement             Assigned            Investment                 Investment Information                        Dividends                     Agreement
                                                                                                        Each QFI may issue senior
                                                                             Senior                     securities with an aggregate                  7.7% for first 5
                                                                             Subordinated               principal amount of 1% - 3% of                years; 13.8%                  30 years
                                                                             Securities                 its risk-weighted assets, but not             thereafter
 CPP –          Originally                                                                              to exceed $25 billion.
                                   1/14/2009a            $0.5 billion
 S-Corps        52 QFIs                                                      Senior                     Treasury will receive warrants
                                                                             Subordinated               to purchase an amount equal
                                                                             Security Warrants          to 5% of the senior securities                13.8%                         30 years
                                                                             that are exercised         purchased on the date of
                                                                             immediately                investment.
                                                                                                        Each QCU may issue CDCI
                                                                                                        Senior Securities with an
 CDCI –                                                                      Subordinated               aggregate principal amount equal
                                                                                                                                           2% for first 8 years,                    CDCI – Credit
 Credit         All                                                          Debt for Credit            to not more than 3.5% of its total
                                                                                                                                           9% thereafter                            Unions
 Unions                                                                      Unions                     assets and not more than 50%
                                                                                                        of the capital and surplus of the
                                                                                                        QCU.
                                                                                                        Each QFI may issue CDCI Senior
                                                                                                        Securities with an aggregate
                                                                                                        principal amount equal to not
                                                                                                        more than 5% of (i), if the QFI is a
                                                                                                        Certified Entity the risk-weighted
                                                                                                        assets of the QFI, or (ii), if the            3.1% for first 8
 CDCI –                                                                      Subordinated                                                                                           CDCI –
                                                                                                        QFI is not a Certified Entity, the            years, 13.8%
 S-Corps                                                                     Debt for S-Corps                                                                                       S-Corps
                                                                                                        sum of the RWAs of each of the                thereafter
                                                                                                        Certified Entities, in each case
                                                                                                        less the aggregate capital or,
                                                                                                        as the case may be, principal
                                                                                                        amount of any outstanding TARP
                                                                                                        assistance of the QFI.
                                                                                                                                                                                    The debt
                                                                                                                                                                                    obligation for
                                                                                                                                                                                    each fund
                                                                             Debt Obligation
                                                                                                        Each of the loans will be funded                                            matures at
                                   9/30/2009                                 with Contingent
 PPIP           All                                      $20 billion                                    incrementally, upon demand by                 LIBOR + 1%                    the earlier
                                   and later                                 Interest
                                                                                                        the fund manager.                                                           of the
                                                                             Promissory Note
                                                                                                                                                                                    dissolution of
                                                                                                                                                                                    the fund or
                                                                                                                                                                                    10 years.
 Notes: Numbers may be affected due to rounding.
 a
   Announcement date of CPP S-Corporation Term Sheet.

 Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008,”
 12/31/2008; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community
 Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury’s “TARP Community Development Capital
 Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation
 Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indictive Terms and Conditions,” 7/8/2009.
58              special inspector general I troubled asset relief program




     TABLE 2.9
      Equity Agreements, as of 9/30/2012
      TARP                           Date of          Cost         Description                                                            Term of
      Program       Company          Agreement        Assigned     of Investment    Investment Information            Dividends           Agreement
                                                                   Senior           1-3% of risk-weighted assets,     5% for first
                                                                   Preferred        not to exceed $25 billion for     5 years, 9%         Perpetual
                                                                   Equity           each QFI                          thereafter
      CPP –         Originally 286   10/14/2008   a
                                                      $200.1
      Public        QFIs             and later        billion      Common
                                                                   Stock            15% of senior preferred
                                                                                                                      —                   Up to 10 years
                                                                   Purchase         amount
                                                                   Warrants
                                                                                    1-3% of risk-weighted assets,     5% for first
                                                                   Preferred
                                                                                    not to exceed $25 billion for     5 years, 9%         Perpetual
                                                                   Equity
                                                                                    each QFI                          thereafter

      CPP –         Originally 369   11/17/2008b                   Preferred
                                                      $4 billion   Stock
      Private       QFIs             and later
                                                                   Purchase
                                                                                    5% of preferred amount            9%                  Perpetual
                                                                   Warrants that
                                                                   are exercised
                                                                   immediately
                                                                   Preferred
                                                                                    5% of risk-weighted assets        2% for first
                                                      $780.2       Equity for
      CDCI          All                                                             for banks and bank holding        eight years, 9%     Perpetual
                                                      million      banks & thrift
                                                                                    companies.                        thereafter
                                                                   institutions
                                                                   Non-
                                                                   Cumulative       $41.6 billion aggregate
                                                                                                                      10%                 Perpetual
                                                                   Preferred        liquidation preference
                                                                   Equity
                                                                                    2% of issued and outstanding
                    American                                                        common stock on investment
                                                      $41.6
      SSFI          International    4/17/2009                                      date of 11/25/08; the warrant
                                                      billionc     Common
                    Group, Inc.                                                     was originally for 53,798,766
                                                                   Stock
                                                                                    shares and had a $2.50            —                   Up to 10 years
                                                                   Purchase
                                                                                    exercise price, but after
                                                                   Warrants
                                                                                    the 6/30/09 split, it is for
                                                                                    2,689,938.30 shares and has
                                                                                    an exercise price of $50.
                                                                                    Up to $29.8 billion aggregate
                                                                   Non-
                                                                                    liquidation preference. As                            Perpetual (life of
                                                                   Cumulative
                                                                                    of 9/30/09, the aggregate         10%                 the facility is 5
                                                                   Preferred
                    American                                                        liquidation preference was $3.2                       years)
                                                      $29.8        Equity
      SSFI          International    4/17/2009                                      billion.
                                                      billiond
                    Group, Inc.                                    Common
                                                                                    150 common stock warrants
                                                                   Stock
                                                                                    outstanding; $0.0002 exercise     —                   Up to 10 years
                                                                   Purchase
                                                                                    price
                                                                   Warrants
                                                                                                                                     Continued on next page
                                                                                     quarterly report to congress I October 25, 2012                 59




Equity Agreements, as of 9/30/2012             (CONTINUED)

TARP                       Date of         Cost             Description                                                          Term of
Program   Company          Agreement       Assigned         of Investment   Investment Information              Dividends        Agreement
                                                                            Exchanged preferred Series F
                                                                            shares for $16.9 billion of AIA
                                                                            Preferred Units, $3.4 billion
                                                                            in ALICO Junior Preferred
                                                                            Interests, and 167.6 million
                                                            AIA Preferred   shares of Common stock at
                                                            units, ALICO    an exercise price of $43.53.
                                                            Junior          Following the repayments to
                                           $29.8
                                                            Preferred       Treasury on March 8, 2012,          —                Up to 10 years
                                           billione
                                                            Interests,      for $6 billion, March 15,
                                                            Common          2012, for $1.5 billion, March
                                                            Stock           22, 2012, for $1.5 billion,
                                                                            and May 6, 2012, for $5.8
                                                                            billion, AIG successfully retired
          American                                                          the remainder if Treasury’s
SSFI      International    1/14/2011                                        preferred equity interests in the
          Group, Inc.                                                       AIA SPV.
                                                                            Exchanged preferred Series
                                                                            D shares for 924.5 million
                                                                            shares of common stock at
                                                                            an exercise price of $45. On
                                                                            August 3, 2012, Treasury sold
                                                                            approximately 188.5 million
                                                            Common
                                           $41.6 billionf                   shares of AIG’s common stock        —                Perpetual
                                                            Stock
                                                                            for $5.8 billion in proceeds. On
                                                                            September 10, 2012, Treasury
                                                                            sold approximately 636.9
                                                                            million shares of AIG’s common
                                                                            stock for approximately $20.7
                                                                            billion in proceeds.
                                                                                                                                 8 years with the
                                                            Membership      Each membership interest will
                           9/30/2009 and                                                                                         possibility of
PPIP      All                              $10 billion      interest in a   be funded upon demand from          —
                           later                                                                                                 extension for 2
                                                            partnership     the fund manager.
                                                                                                                                 additional years
                                                            Mandatorily                                                          Converts to
                                                            Convertible                                                          common equity
                                                                            $5 billion                          9%
                                                            Preferred                                                            interest after 7
                                                            Stock                                                                years
          Ally Financial
AIFP      Inc. (formerly   12/29/2008      $5 billion       Preferred
          GMAC)                                             Stock                                                                Converts to
                                                            Purchase                                                             common equity
                                                                            5% of original preferred amount     9%
                                                            Warrants that                                                        interest after 7
                                                            are exercised                                                        years
                                                            immediately
                                                                                                                            Continued on next page
60               special inspector general I troubled asset relief program




     Equity Agreements, as of 9/30/2012                                     (CONTINUED)

     TARP                                     Date of                  Cost                Description                                                                                    Term of
     Program           Company                Agreement                Assigned            of Investment           Investment Information                        Dividends                Agreement
                                                                                           Mandatorily                                                                                    Converts to
                                                                                           Convertible                                                                                    common equity
                                                                                                                   $4.5 billion                                  9%
                                                                                           Preferred                                                                                      interest after 7
                                                                                           Stockg                                                                                         years
                                                                                           Preferred
                       Ally Financial
                                                                                           Stock                                                                                          Converts to
     AIFP              Inc. (formerly         5/21/2009                $7.5 billion
                                                                                           Purchase                                                                                       common equity
                       GMAC)                                                                                       5% of original preferred amount               9%
                                                                                           Warrants that                                                                                  interest after 7
                                                                                           are exercised                                                                                  years
                                                                                           immediately
                                                                                           Common
                                                                                                                   $3 billion                                    —                        Perpetual
                                                                                           Equity Interesth
                                                                                                                   This equity interest was
                                                                                                                   obtained by exchanging a
                       Ally Financial
                                                                                           Common                  prior debt obligation with
     AIFP              Inc. (formerly         5/29/2009                $0.9 billion                                                                              —                        Perpetual
                                                                                           Equity Interest         General Motors. See “Debt
                       GMAC)
                                                                                                                   Agreements” table for more
                                                                                                                   information.
                                                                                           Trust Preferred
                                                                                                                   $2.5 billion                                  8%
                                                                                           Securities
                       Ally Financial                                                      Trust Preferred                                                                                Redeemable upon
     AIFP              Inc. (formerly         12/30/2009               $2.5 billion        purchase                                                                                       the repayment of
                       GMAC)                                                               warrants that           5% of trust preferred amount                  —                        the debenture
                                                                                           are exercised
                                                                                           immediately
                                                                                           Mandatorily
                                                                                           Convertible
                                                                                                                   $1.3 billion                                  9%
                                                                                           Preferred
                                                                                           Stock                                                                                          Converts to
                       Ally Financial
                                                                                           Preferred                                                                                      common equity
     AIFP              Inc. (formerly         12/30/2009               $1.3 billion
                                                                                           Stock                                                                                          interest after 7
                       GMAC)
                                                                                           Purchase                                                                                       years
                                                                                                                   5% of preferred amount                        —
                                                                                           Warrants that
                                                                                           are exercised
                                                                                           immediately
                       Ally Financial
                                                                                           Common
     AIFP              Inc. (formerly         12/30/2009               $5.5 billion                                $5.5 billion                                  —                        Perpetual
                                                                                           Equity Interesth
                       GMAC)
     Notes: Numbers may be affected due to rounding.
     a
       Announcement date of CPP Public Term Sheet.
     b
       Announcement date of CPP Private Term Sheet.
     c
       AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
     d
       The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
     e
       On 1/14/2011, (A) Treasury exchanged $27.84 billion of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including
     amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2 billion
     of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to $2
     billion. The Series G equity capital facility was subsequently terminated without drawdown.
     f
       On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative
     Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
     g
       On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
     h
       On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased
     from 56% to 74% due to this conversion.

     Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program
     Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of
     November 25, 2008 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock and Warrant,
     Summary of Senior Preferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,”
     1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation
     and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing
     Program, Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury,
     “TARP Community Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community
     Development Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter
     S Corporation Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010; Ally
     Financial Inc. (GOM), 8−K, 12/30/2010; Treasury, Transactions Report, 9/28/2012; Treasury, “Master Transaction Agreement for American International Group. INC, ALICO Holdings LLC, AIA Aurora LLC,
     Federal Reserve Bank of New York, United States Treasury, and AIG Credit Facility Trust,” 12/8/2010; Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indictive Terms and
     Conditions,” 7/8/2009.
                                                                                                                          quarterly report to congress I October 25, 2012                                      61



TABLE 2.10
 LARGEST POSITIONS IN WARRANTS HELD BY TREASURY, BY PROGRAM, AS OF 9/30/2012
                                                                                                                 Current Number
                                                                                                                     of Warrants                                                   Stock Price as of
Participant                                                                     Investment Date                      Outstanding                         Strike Price                   9/28/2012
Capital Purchase Program (“CPP”)
      Synovus Financial Corp.                                                         12/19/2008                         15,510,737                               $9.36                             $2.37
      Anchor Bancorp Wisconsin, Inc.                                                    1/30/2009                          7,399,103                              $2.23                             $0.39
      Flagstar Bancorp, Inc.                                                            1/16/2009                          6,451,379                              $6.20                             $1.10
      Popular, Inc.                                                                     12/5/2008                          2,093,284                             $67.00                           $17.45
      Cathay General Bancorp                                                            12/5/2008                          1,846,378                             $20.96                           $17.26
      Citizens Republic Bancorp, Inc.                                                 12/12/2008                           1,757,813                             $25.60                           $19.33
      International Bancshares Corporation                                            12/23/2008                           1,326,238                             $24.43                           $19.07
      Old Second Bancorp, Inc.                                                          1/16/2009                            815,339                             $13.43                             $1.44
      Private Bancorp, Inc.                                                             2/27/2009                            645,013                             $28.35                           $15.99
      United Community Banks, Inc.                                                      12/5/2008                            219,908                             $61.39                             $8.39
Systemically Significant Failing Institutions
(“SSFI”) Program
      AIGa                                                                            11/25/2008                           2,689,938                             $50.00                           $32.97
      AIGa                                                                              4/17/2009                                   150                          $0.00b                           $32.97
Notes: Numbers may be affected by rounding.
a
  All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 20 for 1.
b
  Strike price is $0.00002.

Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Dividends and Interest Report, 10/10/2012; Treasury, response to SIGTARP data call, 10/12/2012; Market Data, Bloomberg L.P., accessed
10/5/2012.


TABLE 2.11
 DIVIDENDS, INTEREST, DISTRIBUTIONS, AND OTHER INCOME PAYMENTS, AS OF 9/30/2012
                                                 Dividends                             Interest                   Distributionsa                   Other Incomeb                                     Total
CPP   c
                                       $11,650,585,118                        $112,161,359                                      $—              $14,585,122,522                    $26,347,868,999
CDCI                                           14,902,888                           7,115,405                                     —                                  —                      22,018,293
SSFI  d
                                                            —                                  —                                  —                   457,105,652                         457,105,652
TIP                                       3,004,444,444                                        —                                  —                 1,427,190,941                      4,431,635,385
AGP                                          442,964,764                                       —                                  —                 2,589,197,045                      3,032,161,809
PPIP                                                        —                   302,656,675                        826,067,492                        342,236,191                      1,470,960,358
UCSB                                                        —                     13,347,352                                      —                     29,201,848                          42,549,200
AIFPe                                     3,274,550,801                      1,665,336,675                                        —                   530,000,000                      5,469,887,476
ASSP                                                        —                     31,949,931                                      —                     84,000,000                        115,949,931
Total                                $18,387,448,015                      $2,132,567,397                        $826,067,492                  $20,044,054,198                    $41,390,137,102
Notes: Numbers may not total due to rounding.
a
  Distributions are gross income from PPIF trading activity and do not include return of equity capital to Treasury.
b
  Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending
  Initiative/SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with capital gains and warrant proceeds in PPIP as PPIFs are liquidated.
c
  Includes $13 million fee received as part of the Popular exchange.
d
  Pursuant to the recapitalization plan on 1/14/2011, AIG had an additional obligation to Treasury of $641,275,676 to reflect the cumulative unpaid interest which further converted into AIG common stock.
  Other income from SSFI includes $165 million in fees and approximately $292.1 million representing return on securities held in the AIA and ALICO SPVs.
e
  Includes AWCP.

Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Section 105(a) Report, 10/10/2012; Treasury, Dividends and Interest Report, 10/10/2012; Treasury, response to SIGTARP data call,
10/4/2012.
62            special inspector general I troubled asset relief program




                                                     Housing Support Programs
                                                     On February 18, 2009, the Administration announced a foreclosure prevention
     Government-Sponsored Enterprises                plan that became the Making Home Affordable (“MHA”) program, an umbrella
     (“GSEs”): Private corporations created          program for the Administration’s homeowner assistance and foreclosure prevention
     and chartered by the Government to              efforts.114 MHA initially consisted of the Home Affordable Modification Program
     reduce borrowing costs and provide              (“HAMP”), a Treasury program that uses TARP funds to provide incentives for
     liquidity in the market, the liabilities        mortgage servicers to modify eligible first mortgages, and two initiatives at the
     of which are not officially considered          Government-sponsored enterprises (“GSEs”) that use non-TARP funds.115 HAMP
     direct taxpayer obligations. On                 was originally intended “to help as many as three to four million financially
     September 7, 2008, the two largest              struggling homeowners avoid foreclosure by modifying loans to a level that is
     GSEs, the Federal National Mortgage             affordable for borrowers now and sustainable over the long term.”116 On June 1,
     Association (“Fannie Mae”) and                  2012, HAMP expanded the pool of homeowners potentially eligible to be assisted
     the Federal Home Loan Mortgage                  through the launch of HAMP Tier 2; however, Treasury has not estimated the
     Corporation (“Freddie Mac”), were               number of homeowners that HAMP Tier 2 is intended to assist.117
     placed into Federal conservatorship.                Treasury over time expanded MHA to include sub-programs designed to
     They are currently being financially            overcome obstacles to sustainable HAMP modifications. Treasury also allocated
     supported by the Government.                    TARP funds to support two additional housing support efforts: a Federal Housing
                                                     Administration (“FHA”) refinancing program and TARP funding for 19 state
     Loan Servicers: Companies that                  housing finance agencies, called the Housing Finance Agency Hardest Hit Fund
     perform administrative tasks on                 (“Hardest Hit Fund” or “HHF”).
     monthly mortgage payments until the                 Not all housing support programs are funded, or completely funded, by TARP.
     loan is repaid. These tasks include             Of the originally anticipated $75 billion cost for MHA, $50 billion was to be
     billing, tracking, and collecting monthly       funded by TARP, with the remainder funded by the GSEs.118 Treasury has obligated
     payments; maintaining records of                TARP funds of $45.6 billion, which includes $29.9 billion for MHA incentive pay-
     payments and balances; allocating               ments, $8.1 billion for FHA Short Refinance, and $7.6 billion for the Hardest Hit
     and distributing payment collections            Fund.119
     to investors in accordance with                     Under EESA and the SIGTARP Act, SIGTARP is required to report quarterly to
     each mortgage loan’s governing                  Congress to provide certain information about TARP over that preceding quarter.
     documentation; following up                     This quarter, Treasury failed to provide certain end-of-quarter data on the follow-
     on delinquencies; and initiating                ing MHA programs: Principal Reduction Alternative, Home Affordable Foreclosure
     foreclosures.                                   Alternatives, Second-Lien Modification Program, and two agency-insured pro-
                                                     grams. Accordingly, SIGTARP is unable to provide or analyze this data as noted
     Investors: Owners of mortgage loans             below and thus is not able to fully report on the status of these programs.
     or bonds backed by mortgage loans                   Housing support programs include the following initiatives:
     who receive interest and principal
     payments from monthly mortgage                  •	 Home Affordable Modification Program (“HAMP”) — HAMP is intended
     payments. Servicers manage the                     to use incentive payments to encourage loan servicers (“servicers”) and
     cash flow from borrowers’ monthly                  investors to modify eligible first-lien mortgages so that the monthly payments
     payments and distribute them to                    of homeowners who are currently in default or generally at imminent risk of
     investors according to Pooling and                 default will be reduced to affordable and sustainable levels. Incentive payments
     Servicing Agreements (“PSAs”).                     for modifications to loans owned or guaranteed by the GSEs are paid by the
                                                        GSEs, not TARP.120 As of September 30, 2012, there were 834,635 active
                                                        permanent HAMP modifications, 405,689 of which were under TARP, with the
                                                        remainder under the GSE portion of the program.121 While HAMP generally
                                                                              quarterly report to congress I October 25, 2012          63




     refers to the first-lien mortgage modification program, it also includes the
     following subprograms:
     çç Home Price Decline Protection (“HPDP”) — HPDP is intended to
          encourage additional investor participation and HAMP modifications in
          areas with recent price declines by providing TARP-funded incentives to
          offset potential losses in home values.122 As of September 30, 2012, there
          were 154,383 loan modifications under HPDP.123
     çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage
          the use of principal reduction in modifications for eligible borrowers whose
          homes are worth significantly less than the remaining outstanding balances
          of their first-lien mortgage loans. It provides TARP-funded incentives
          to offset a portion of the principal reduction provided by the investor.124
          Treasury failed to provide end-of-quarter data on several aspects of PRA to
          SIGTARP before publication.
     çç Home Affordable Unemployment Program (“UP”) — UP is intended to
          offer assistance to unemployed homeowners through temporary forbearance
          of all or a portion of their payments.125 As of August 31, 2012, which
          according to Treasury is the most recent data available, 7,522 borrowers
          were participating in UP.126
•	   Home Affordable Modification Program Tier 2 (“HAMP Tier 2”) — HAMP
     Tier 2 is an expansion of HAMP to permit HAMP modifications on non-
     owner-occupied “rental” properties, and to allow borrowers with a wider range
     of debt-to-income ratios to receive modifications.127 The expanded program
     became effective on June 1, 2012. While the first Tier 2 trials became eligible
     for permanent modifications beginning in September 2012, Treasury had not
     started reporting data on Tier 2 trials as of the end of the quarter.
•	   Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended                      Short Sale: Sale of a home for less
     to provide incentives to servicers, investors, and borrowers to pursue short sales        than the unpaid mortgage balance.
     and deeds-in-lieu of foreclosure for borrowers in cases in which the borrower             A borrower sells the home and the
     is unable or unwilling to enter or sustain a modification. Under this program,            investor accepts the proceeds as full
     the servicer releases the lien against the property and the investor waives all           or partial satisfaction of the unpaid
     rights to seek a deficiency judgment against a borrower who uses a short sale             mortgage balance, thus avoiding the
     or deed-in-lieu when the property is worth less than the outstanding amount of            foreclosure process.
     the mortgage.128 Treasury failed to provide end-of-quarter data on the number of
     short sales and deeds-in-lieu under HAFA to SIGTARP before publication.                   Deed-in-Lieu of Foreclosure: Instead
•	   Second-Lien Modification Program (“2MP”) — 2MP is intended to modify                      of going through foreclosure, the
     second-lien mortgages when a corresponding first lien is modified under                   borrower voluntarily surrenders the
     HAMP by a participating servicer.129 As of September 30, 2012, 16 servicers               deed to the home to the investor, as
     are participating in 2MP.130 These servicers represent approximately 55-60% of            satisfaction of the unpaid mortgage
     the second-lien servicing market.131 Treasury failed to provide end-of-quarter            balance.
     data on the number of active permanently modified second liens in 2MP to
     SIGTARP before publication.
•	   Agency-Insured Programs — These programs are similar in structure to
     HAMP, but apply to eligible first-lien mortgages insured by FHA or guaranteed
     by the Department of Agriculture’s Office of Rural Development (“RD”) and
64            special inspector general I troubled asset relief program




                                                        the Department of Veterans Affairs (“VA”).132 Treasury provides TARP-funded
                                                        incentives to encourage modifications under the FHA and RD modification
                                                        programs. Treasury failed to provide end-of-quarter data on the number of
                                                        permanent modifications under RD-HAMP and FHA-HAMP to SIGTARP
                                                        before publication.
                                                     •	 Treasury/FHA Second-Lien Program (“FHA2LP”) — In FHA2LP, Treasury
                                                        uses TARP funds to provide incentives to servicers and investors who agree to
                                                        principal reduction or extinguishment of second liens associated with an FHA
                                                        refinance.133 As of September 30, 2012, no second liens had been partially
                                                        written down or extinguished under the program.134
                                                     •	 FHA Short Refinance Program — This program, which is partially supported
                                                        by TARP funds, is intended to provide borrowers who are current on their
     Underwater Mortgage: Mortgage loan                 mortgage an opportunity to refinance existing underwater mortgage loans that
     on which a homeowner owes more                     are not currently insured by FHA into FHA-insured mortgages with lower
     than the home is worth, typically as               principal balances. Treasury has provided a TARP-funded letter of credit for
     a result of a decline in the home’s                up to $8 billion in loss coverage on these newly originated FHA loans. As of
     value. Underwater mortgages are also               September 30, 2012, 1,772 loans had been refinanced under FHA Short
     referred to as having negative equity.             Refinance.135
                                                     •	 Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
                                                        program, HHF is intended to fund foreclosure prevention programs run by state
                                                        housing finance agencies in states hit hardest by the decrease in home prices
                                                        and in states with high unemployment rates. Eighteen states and Washington,
                                                        DC, received approval for aid through the program.136 As of June 30, 2012, the
                                                        latest data available, 58,519 borrowers had received assistance under HHF.137

                                                     Status of TARP Funds Obligated to Housing Support
                                                     Programs
                                                     Treasury obligated $45.6 billion to housing support programs, of which $5.5
                                                     billion, or 12%, has been expended as of September 30, 2012.138 However,
                                                     some of the expended funds remain as cash on hand or paid for administrative
                                                     expenses at state housing finance agencies (“HFAs”) participating in the Hardest
                                                     Hit Fund program. Treasury has capped the aggregate amount available to pay
                                                     servicer, borrower, and investor incentives under MHA programs at $29.9 billion,
                                                     of which $4 billion, or 13%, has been spent.139 Treasury allocated $8.1 billion for
                                                     FHA Short Refinance, of which $7.2 million has been spent on administrative
                                                     expenses. Treasury allocated $7.6 billion to the Hardest Hit Fund. As of June 30,
                                                     2012, the latest data available, only 6.7% of those funds have gone to help 58,519
                                                     homeowners. HFAs have drawn down $1.5 billion, as of September 30, 2012, but
                                                     not all of that has gone to assist homeowners.140
                                                          Table 2.12 shows the breakdown in expenditures and estimated funding alloca-
                                                     tions for these housing support programs.
                                                                                                                              quarterly report to congress I October 25, 2012   65




TABLE 2.12
 TARP Allocations and Expenditures by housing Support programs,
 AS OF 9/30/2012 ($ BILLIONS)
                                                                           ALLOCATIONS                            EXPENDITURES

                                               MHA

     HAMP
          First Lien Modification                                          $19.1                                     $3.0
          PRA Modification                                                    2.0                                      0.1
          HPDP                                                                1.6                                      0.3
          UP                                                                    —   a
                                                                                                                         —
                                    HAMP Total                            $22.7                                     $3.4
     HAFA                                                                         4.2                                     0.3
     2MP                                                                          0.1                                     0.2
     Treasury FHA-HAMP                                                            0.2                                        —b
     RD-HAMP                                                                        —c                                       —
     FHA2LP                                                                       2.7                                        —
                                      MHA Total                                         $29.9                                     $4.0
                      FHA Short Refinance                                                $8.1d                                    $0.1
            HHF (Drawdown by States)                 e
                                                                                         $7.6                                     $1.5
                                              Total                                     $45.6                                     $5.5
 Notes: Numbers may not total due to rounding. According to Treasury, these numbers are “approximate.”
 a
   Treasury does not allocate TARP funds to UP.
 b
   Treasury has expended $0.01 billion for the Treasury FHA-HAMP program.
 c
   Treasury has allocated $0.02 billion to the RD-HAMP program. As of September 30, 2012, $5,500 has been expended for RD-
   HAMP.
 d
   This amount includes up to $117 million in fees Treasury will incur for the availability and usage of the $8 billion letter of credit.
 e
   Not all of the funds drawn down by HFAs have been used to assist homeowners. As of June 30, 2012, the latest data available, only
   $507 million was spent to assist homeowners.

 Source: Treasury, response to SIGTARP data call, 10/11/2012.
66   special inspector general I troubled asset relief program




                                                 As of September 30, 2012, Treasury had active agreements with 96 servicers.
                                            That compares with 145 servicers that had agreed to participate in MHA as of
                                            October 3, 2010.141 According to Treasury, of the $29.9 billion obligated to par-
                                            ticipating servicers under their Servicer Participation Agreements (“SPAs”), as
                                            of September 30, 2012, only $4 billion (13.3%) has been spent, broken down as
                                            follows: $3.4 billion had been spent on completing permanent modifications of first
                                            liens (405,689 of which remain active); $238.5 million under 2MP; and $333.3
                                            million on incentives for short sales or deeds-in-lieu of foreclosure under HAFA.142
                                            Treasury provided the above spending data under MHA as of September 30, 2012,
                                            but failed to provide end-of-quarter data on the number of full and partial extin-
                                            guishments under 2MP, the number of permanent modifications under 2MP, and
                                            the number of short sales or deeds-in-lieu under HAFA to SIGTARP before pub-
                                            lication. Of the combined amount of incentive payments, according to Treasury,
                                            approximately $1.3 billion went to pay servicer incentives, $1.9 billion went to
                                            pay investor incentives, and $785 million went to pay borrower incentives.143 As of
                                            September 30, 2012, Treasury had disbursed approximately $1.5 billion of the $7.6
                                            billion allocated to HFAs participating in HHF.144 According to the most recent
                                            data, as of June 30, 2012, more than half of expended HHF funding is held as cash
                                            on hand with HFAs or is used for administrative expenses.145 The remaining $8.1
                                            billion has been obligated under FHA Short Refinance to purchase a letter of credit
                                            to provide up to $8 billion in first loss coverage and to pay $117 million in fees for
                                            the letter of credit. According to Treasury, it has not paid any claims for defaults on
                                            the 1,772 loans refinanced under the program. However, Treasury has pre-funded
                                            a reserve account with $50 million to pay future claims and spent $7.2 million on
                                            administrative expenses.146 The breakdown of TARP-funded expenditures related to
                                            housing support programs (not including the GSE-funded portion of HAMP) are
                                            shown in Table 2.13.
                                                                                                                     quarterly report to congress I October 25, 2012   67




Table 2.13
Breakdown of TARP Expenditures, As of 9/30/2012                                                ($ MILLIONs)

MHA                                                                             TARP Expenditures
    HAMP
         HAMP First Lien Modification Incentives
            Servicer Incentive Payment                                            $531.4
            Servicer Current Borrower Incentive Payment                               16.4
            Annual Servicer Incentive Payment                                       624.0
            Investor Current Borrower Incentive Payment                               53.8
            Investor Monthly Reduction Cost Share                                 1,225.0
            Annual Borrower Incentive Payment                                       572.5
         HAMP First Lien Modification Incentives Total                                    $3,023.1
         PRA                                                                                   $92.6
         HPDP                                                                                $269.3
         UP                                                                                          —a
         HAMP Program Incentives Total                                                                  $3,385.0
    HAFA Incentives
       Servicer Incentive Payment                                                                     $99.0
       Investor Reimbursement                                                                          36.3
       Borrower Relocation                                                                            198.0
   HAFA Incentives Total                                                                                  $333.3
   Second-Lien Modification Program Incentives
       2MP Servicer Incentive Payment                                                                 $46.1
       2MP Annual Servicer Incentive Payment                                                              9.4
       2MP Annual Borrower Incentive Payment                                                              8.6
       2MP Investor Cost Share                                                                         65.7
       2MP Investor Incentive                                                                         108.7
   Second-Lien Modification Program Incentives Total                                                      $238.5
   Treasury/FHA-HAMP Incentives
       Annual Servicer Incentive Payment                                                               $6.5
       Annual Borrower Incentive Payment                                                                  5.9
   Treasury/FHA-HAMP Incentives Total                                                                       $12.4
   RD-HAMP                                                                                                        —b
   FHA2LP                                                                                                         —
MHA Incentives Total                                                                                               $3,969.2
FHA Short Refinance (Loss-Coverage)                                                                                     $57.2
HHF Disbursements (Drawdowns by State HFAs)                                                                        $1,516.1
Total Expenditures                                                                                                 $5,542.5
Notes: Numbers may not total due to rounding.
a
  TARP funds are not used to support the UP program, which provides forbearance of a portion of the homeowner’s mortgage
  payment.
b
  RD-HAMP expenditures equal $5,500 as of September 30, 2012.

Source: Treasury, response to SIGTARP data call, 10/10/2012.
68           special inspector general I troubled asset relief program




                                                    HAMP
                                                    According to Treasury, HAMP was intended “to help as many as three to four
                                                    million financially struggling homeowners avoid foreclosure by modifying loans to
                                                    a level that is affordable for borrowers now and sustainable over the long term.”147
                                                    Although HAMP contains several subprograms, the term “HAMP” is most often
                                                    used to refer to the HAMP First-Lien Modification Program, described below.

                                                    HAMP First-Lien Modification Program
                                                    The HAMP First-Lien Modification Program, which went into effect on April 6,
                                                    2009, modifies the terms of first-lien mortgages to provide borrowers with
                                                    lower monthly payments. A HAMP modification consists of two phases: a trial
     Trial Modification: Under HAMP, a              modification that was originally designed to last three months, followed by a
     period of at least three months in             permanent modification. Treasury continues to pay incentives for five years.148 In
     which a borrower is given a chance             designing HAMP, the Administration envisioned a “shared partnership” between
     to establish that he or she can make           the Government and investors to bring distressed borrowers’ first lien monthly
     lower monthly mortgage payments and            payments down to an “affordable” and sustainable level — defined by Treasury in
     qualify for a permanent modification.          the case of HAMP Tier 1 as 31% of the borrower’s monthly gross income.149 The
                                                    program description immediately below refers only to the original HAMP program,
                                                    which after the launch of HAMP Tier 2 has been renamed “HAMP Tier 1.”

                                                    HAMP Modification Statistics
                                                    As of September 30, 2012, a total of 834,635 mortgages were in active permanent
                                                    modifications under both TARP (non-GSE) and GSE HAMP. Some 64,342 were
                                                    in active trial modifications. Treasury failed to provide end-of-quarter data on the
                                                    percentages of permanent modifications that received interest rate reduction,
                                                    term extension, or principal forbearance to SIGTARP before publication. HAMP
                                                    modification activity, broken out by TARP and GSE loans, is shown in Table 2.14.

                                                    TABLE 2.14
                                                     Cumulative HAMP modification activity by TARP/GSE, as of 9/30/2012
                                                                                                                           Trials
                                                                         Trials          Trials           Trials    Converted to    Permanents    Permanents
                                                                       Started       Cancelled           Active      Permanent        Cancelled       Active
                                                     TARP             925,967           349,372         36,910          539,685        133,996       405,689
                                                     GSE            1,001,658           423,315         27,432          550,911        121,965       428,946
                                                     Total        1,927,625            772,687         64,342         1,090,596        255,961      834,635
                                                     Notes: Numbers may not total due to rounding.

                                                     Source: Treasury, response to SIGTARP data call, 10/19/2012.



                                                    Starting a HAMP Modification
                                                    Borrowers may request participation in HAMP.150 Borrowers who have missed two
                                                    or more payments must be solicited for participation by their servicers.151 Before
                                                    offering the borrower a trial modification, also known as a trial period plan (“TPP”),
                                                    the servicer must verify the accuracy of the borrower’s income and other eligibility
                                                    criteria. In order to verify the borrower’s eligibility for a modification under the
                                                                                quarterly report to congress I October 25, 2012             69




program, borrowers must submit the following documents as part of an “initial
package.”152

•	 an MHA “request for mortgage assistance” (“RMA”) form, which provides the
                                                                                                 For more information on the RMA
   servicer with the borrower’s financial information, including the cause of the
                                                                                                 form and what constitutes hardship,
   borrower’s hardship;                                                                          see SIGTARP’s April 2011 Quarterly
•	 signed and completed requests for Federal tax return transcripts or the most                  Report, page 62.
   recent Federal income tax return, including all schedules and forms;
•	 income verification documentation, such as recent pay stubs or evidence of                    For more information on the Verification
   other sources of income; and                                                                  Policy, see SIGTARP’s April 2011
•	 Dodd-Frank certification (either as part of the RMA form or as a standalone                   Quarterly Report, page 63.
   document) that the borrower has not been convicted in the past 10 years of any
   of the following in connection with a mortgage or real estate transaction: felony
   larceny, theft, fraud, or forgery; money laundering, or tax evasion.

     In order for a loan to be eligible for a HAMP modification, the borrower’s initial
package, consisting of the four documents described above, must be submitted by
the borrower on or before December 31, 2013. Additionally, in order to be eligible
for incentive payments, the permanent modification must be effective on or before
September 30, 2014.153
     Participating servicers verify monthly gross income for the borrower and the
borrower’s household, as well as other eligibility criteria.154 Then, in the case of
HAMP Tier 1, the servicer follows the “waterfall” of modification steps prescribed
by HAMP guidelines to calculate the reduction in the borrower’s monthly mortgage
payment needed to achieve a 31% debt-to-income (“DTI”) ratio, that is, a payment
equal to 31% of his or her monthly gross income.155
     In the first step, the servicer capitalizes any unpaid interest and fees (i.e., adds
them to the outstanding principal balance). Second, the servicer reduces the inter-
est rate in incremental steps to as low as 2%. If the 31% DTI ratio threshold has
still not been reached, in the third step the servicer extends the term of the mort-
gage to a maximum of 40 years from the modification date. If these steps are still
insufficient to reach the 31% threshold, the servicer may forbear principal (defer its
                                                                                                 Net Present Value (“NPV”) Test:
due date), subject to certain limits.156 The forbearance amount is not interest bear-
                                                                                                 Compares the money generated by
ing and results in a lump-sum payment due upon the earliest of the sale date of the
                                                                                                 modifying the terms of the mortgage
property, the payoff date of the interest-bearing mortgage balance, or the maturity
                                                                                                 with the amount an investor can
date of the mortgage.157
                                                                                                 reasonably expect to recover in a
     Servicers are not required to forgive principal under HAMP. However, servicers
                                                                                                 foreclosure sale.
may forgive principal in order to lower the borrower’s monthly payment to achieve
the HAMP Tier 1 DTI ratio goal of 31% on a stand-alone basis, at any point in the
HAMP waterfall described above, or as part of PRA.158
     After completing these modification calculations, all loans that meet HAMP                  For more about the HAMP NPV test,
eligibility criteria and are either deemed generally to be in imminent default or                see the June 18, 2012, SIGTARP audit
delinquent by two or more payments must be evaluated using a standardized net                    report “The NPV Test’s Impact on
present value (“NPV”) test that compares the NPV result for a modification to                    HAMP.”
the NPV result for no modification.159 The NPV test compares the expected cash
70            special inspector general I troubled asset relief program




                                                     flow from a modified loan with the expected cash flow from the same loan with
                                                     no modifications to determine which option will be more valuable to the mortgage
                                                     investor. A positive NPV test result indicates that a modified loan is more valuable
                                                     to the investor than the existing loan. In that case, under HAMP rules, the servicer
                                                     must offer the borrower a mortgage modification. If the test generates a negative
                                                     result, modification is optional.160 Servicers cannot refuse to evaluate a borrower
                                                     for a modification simply because the outstanding loan currently has a low loan-to-
     Loan-to-Value (“LTV”) Ratio: Lending            value (“LTV”) ratio, meaning the borrower owes less than the value of the home.
     risk assessment ratio that mortgage             The lower the LTV ratio is, the higher the probability that a foreclosure will be
     lenders examine before approving a              more profitable to an investor than a modification.
     mortgage; calculated by dividing the                Since September 1, 2011, 16 of the 17 largest mortgage servicers participating
     outstanding amount of the loan by               in MHA (i.e., those servicers that had Program Participation Caps of $75 million
     the value of the collateral backing the         or more as of May 18, 2011) have been required to assign a single point of contact
     loan. Loans with high LTV ratios are            to borrowers potentially eligible for evaluation under HAMP, HAFA, or UP.161 The
     generally seen as higher risk because           single point of contact has the primary responsibility for communicating with the
     the borrower has less of an equity              borrower about options to avoid foreclosure, his/her status in the process, coordi-
     stake in the property.                          nation of receipt of documents, and coordination with other servicer personnel to
                                                     promote compliance with MHA timelines and requirements throughout the entire
                                                     delinquency, imminent default resolution process, or foreclosure.162

                                                     How HAMP First-Lien Modifications Work
                                                     Treasury originally intended that HAMP trial modifications would last three
                                                     months. Historically, many trial modifications have lasted longer. According to
                                                     Treasury, as of September 30, 2012, of a combined total of 64,342 active trials
                                                     under both GSE and TARP (non-GSE) HAMP, 10,302, or 16%, had lasted more
                                                     than six months.163
                                                          Borrowers in trial modifications may qualify for conversion to a permanent
                                                     modification as long as they make the required modified payments on time and
                                                     provide proper documentation, including a signed modification agreement.164 The
                                                     terms of permanent modifications under HAMP Tier 1 remain fixed for at least five
                                                     years.165 After five years, the loan’s interest rate can increase if the modified interest
                                                     rate had been reduced below the 30-year conforming fixed interest rate on the date
                                                     of the initial modification. The interest rate can rise incrementally by up to 1%
                                                     per year until it reaches that rate.166 Otherwise, the modified interest rate remains
                                                     permanent.
                                                          If the borrower misses a payment during the trial or is denied a permanent
                                                     modification for any other reason, the borrower is, in effect, left with the original
                                                     terms of the mortgage. The borrower is responsible for the difference between
                                                     the original mortgage payment amount and the reduced trial payments that were
                                                     made during the trial. In addition, the borrower may be liable for late fees that were
                                                     generated during the trial. In other words, a borrower can be assessed late fees for
                                                     failing to make the original pre-modification scheduled payments during the trial
                                                     period, even though under the trial modification the borrower is not required to
                                                     make these payments. Late fees are waived only for borrowers who receive a per-
                                                     manent modification.167
                                                                            quarterly report to congress I October 25, 2012              71




    Since May 1, 2011, if a borrower is denied a HAMP Tier 1 permanent modifi-
cation because of missed trial payments, the servicer must re-calculate the bor-
rower’s income using the original income documentation to ensure that the trial
payment was correctly calculated. The servicer is not required to re-run the calcula-
tion if the borrower missed a trial payment because of a significant change in cir-
cumstances resulting in a reduction in income. If the re-calculation shows that the
borrower’s trial payment exceeded the proper payment by 10% or more, the servicer
must offer the borrower a new trial period with the correct payment.168

What Happens When a HAMP Modification Is Denied: Servicer Obligations and
Borrower Rights
Treasury has issued a series of guidance governing both the obligations of servicers
and the rights of borrowers in connection with the denial of loan modification
requests. Borrowers must receive a Non-Approval Notice if they are rejected
for a HAMP modification. A borrower who is not approved for HAMP Tier 1 is
automatically considered for HAMP Tier 2. If the servicer offers the borrower
a HAMP Tier 2 trial, no Non-Approval notice would be issued on the HAMP
Tier 1. The Non-Approval Notice is sent only if the HAMP Tier 2 is not offered.
Borrowers can request reconsideration or re-evaluation if they believe one or more
NPV analysis inputs is incorrect or if they experience a change in circumstance.
Servicers are obligated to have written procedures and personnel in place to
respond to borrower inquiries and disputes that constitute “escalated cases” in a
timely manner.169
    Treasury’s web-based NPV calculator at www.CheckMyNPV.com can be                         For more information on HAMP
used by borrowers prior to applying for a HAMP modification or after a denial                servicer obligations and borrower rights,
of a HAMP modification. Borrowers can enter the NPV input values listed in                   see SIGTARP’s April 2011 Quarterly
the HAMP Non-Approval Notice received from their servicer, or substitute with                Report, pages 67-76.
estimated NPV input values, to compare the estimated outcome provided by
CheckMyNPV.com against that on the Non-Approval Notice.

Modification Incentives
Originally, servicers received a one-time incentive fee payment of $1,000 for each
permanent modification completed under HAMP, and additional compensation of
$500 if the borrower was current but at imminent risk of default before enrolling in
the trial plan. Effective for new HAMP trials on or after October 1, 2011, Treasury
changed the flat $1,000 incentive to a sliding scale based on the length of time
the loan was delinquent as of the effective date of the TPP. For loans less than or
equal to 120 days delinquent, servicers receive $1,600.170 For loans 121-210 days
delinquent, servicers receive $1,200. For loans more than 210 days delinquent,
servicers receive only $400. Additionally, under this system, the $500 incentive to
servicers for a loan that was current before trial is no longer paid.
    For borrowers whose monthly mortgage payment was reduced through HAMP
by 6% or more, servicers also receive incentive payments of up to $1,000 annually
for three years if the borrower remains in good standing (defined as less than three
full monthly payments delinquent).171
72    special inspector general I troubled asset relief program




                                                                 For HAMP Tier 1, borrowers whose monthly mortgage payment is reduced
                                                             through HAMP by 6% or more and who make monthly payments on time earn
                                                             an annual principal reduction of up to $1,000.172 The principal reduction accrues
                                                             monthly and is payable for each of the first five years as long as the borrower re-
                                                             mains in good standing.173
                                                                 An investor is entitled to compensation under HAMP Tier 1, for up to five
                                                             years, equal to one-half of the dollar difference between the borrower’s monthly
                                                             payment (principal and interest) under the modification, based on 31% of monthly
                                                             gross income, and the lesser of (1) the borrower’s monthly principal and interest at
                                                             38% or (2) the borrower’s pre-modification monthly principal and interest pay-
                                                             ment.174 Under HAMP Tier 2, investors are entitled to compensation equal to one-
                                                             half of the dollar difference between the borrower’s post-modification principal and
                                                             interest payment under HAMP Tier 2 and the borrower’s pre-modification principal
                                                             and interest payment, or 15% of the borrower’s pre-modification principal and in-
                                                             terest payment, whichever is lower. Under HAMP modifications of owner-occupied
                                                             properties, investors also earn an extra one-time, up-front payment of $1,500 for
                                                             modifying a loan that was current before the trial period (i.e., at risk of imminent
                                                             default) and whose monthly payment was reduced by at least 6%.175
                                                                 As of September 30, 2012, of the $29.9 billion in TARP funds allocated to the
                                                             96 servicers participating in MHA, approximately 90% was allocated to the 10 larg-
                                                             est servicers.176 Table 2.15 outlines these servicers’ relative progress in implement-
                                                             ing the HAMP modification programs.
     TABLE 2.15
      TARP INCENTIVE PAYMENTS BY 10 LARGEST SERVICERS, AS OF 9/30/2012
                                                                                          Incentive                     Incentive         Incentive
                                                                                         Payments                      Payments          Payments      Total Incentive
                                                       SPA Cap Limit                  to Borrowers                   to Investors      to Servicers         Payments
      Bank of America, N.A.a                         $8,096,266,616                  $158,766,658                 $349,759,954        $242,299,929      $750,826,542
      Wells Fargo Bank, N.A.       b
                                                       5,121,211,914                   111,431,012                  270,956,464        189,714,986       572,102,462
      JPMorgan Chase Bank, NA           c
                                                       3,767,662,850                   178,887,474                  332,437,570        266,998,429       778,323,473
      Ocwen Loan Servicing, LLC             d
                                                       2,681,154,237                    65,687,653                  171,269,182        128,799,795       365,756,630
      OneWest Bank                                     1,836,173,178                    30,404,188                  102,819,075         52,967,116       186,190,379
      GMAC Mortgage, LLC                               1,500,150,251                    34,378,351                   90,025,792         62,698,455       187,102,598
      Homeward Residential                             1,305,784,180                    36,981,901                  111,142,407         76,605,349       224,729,657
      CitiMortgage Inc                                 1,014,948,121                    41,841,665                  131,661,645         78,346,675       251,849,985
      Select Portfolio Servicing                          856,010,468                   40,129,557                   82,250,254         65,556,339       187,936,150
      Nationstar Mortgage LLC                             696,815,036                   13,752,860                   30,876,388         23,479,835        68,109,083
      Total                                      $26,876,176,850                   $712,261,320               $1,673,198,732        $1,187,466,908    $3,572,926,960
      Notes: Numbers may not total due to rounding.
      a
        Bank of America, N.A. includes the former Countrywide Home Loans Servicing, Wilshire Credit Corp. and Home Loan Services.
      b
        Wells Fargo Bank, N.A. includes Wachovia Mortgage, FSB.
      c
        JPMorgan Chase Bank, NA includes EMC Mortgage.
      d
        Ocwen Loan Servicing, LLC includes the former Litton Loan Servicing, LP.

      Source: Treasury, Transactions Report-Housing, 9/27/2012.
                                                                              quarterly report to congress I October 25, 2012       73




HAMP Tier 2
On June 1, 2012, Treasury launched an expansion of HAMP, “HAMP Tier 2,”
which permits HAMP modifications on non-owner-occupied “rental” properties,
and allows borrowers with a wider range of debt-to-income situations to receive
modifications.177 Before this, only owner-occupied homes were eligible for HAMP
— rental properties had been expressly excluded.178 Treasury’s stated policy
objectives for HAMP Tier 2 are that it “will provide critical relief to both renters
and those who rent their homes, while further stabilizing communities from the
blight of vacant and foreclosed properties.”179 A borrower may have up to five loans
with HAMP Tier 2 modifications, as well as a single HAMP Tier 1 modification on
the mortgage for his or her primary residence.180
    Even though Treasury announced the HAMP Tier 2 expansion in January, on                    For SIGTARP’s recommendations for
June 1, 2012, the program’s launch date, only three of the 10 largest servicers had            the improvement of HAMP Tier 2,
fully implemented HAMP Tier 2.181 According to Treasury, as of September 30,                   see SIGTARP’s April 2012 Quarterly
2012, a total of 57 of the 96 servicers with active MHA servicer agreements had                Report, pages 185-189.
fully implemented HAMP Tier 2. An additional 27 of those servicers will not imple-
ment HAMP Tier 2 because they are in the process of terminating their servicer
participation agreement, they have gone out of business, their servicer participation
agreement was signed to participate only in FHA-HAMP, RD-HAMP, or FHA-
2LP, or they are winding down their non-GSE servicing operations.182 All 10 of
the largest servicers have reported that they had implemented HAMP Tier 2 as of
September 30, 2012.183

HAMP Tier 2 Eligibility
HAMP Tier 2 expands the eligibility criteria related to a borrower’s debt-to-income
ratio and also allows modifications on loans secured by “rental” properties. Owner-
occupied loans that are ineligible for a HAMP Tier 1 modification due to excessive
forbearance or negative NPV are also eligible for Tier 2. Vacant rental properties
are permitted in the program, as are those occupied by legal dependents, parents,
or grandparents, even if no rent is charged. The program is not, however, according
to Treasury, intended for vacation homes, second homes, or properties that are
rented only seasonally. Additionally, loans on rental properties must be at least two
payments delinquent – those in imminent default are not eligible.184
    However, Treasury does not require that the property be rented. Treasury
requires only that a borrower certify intent to rent the property to a tenant on a
year-round basis for at least five years, or make “reasonable efforts” to do so; and
does not intend to use the property as a second residence for at least five years.185
According to Treasury, servicers are not typically required to obtain third-party veri-
fications of the borrower’s rental property certification when evaluating a borrower
for HAMP.186
    To be considered for HAMP Tier 2, borrowers must satisfy several basic HAMP
requirements: the loan origination date must be on or before January 1, 2009;
the borrower must have a documented hardship; the property must conform to
the MHA definition of a “single-family residence” (1-4 dwelling units, including
condominiums, co-ops, and manufactured housing); the property must not be
74   special inspector general I troubled asset relief program




                                            condemned; and the loan must fall within HAMP’s unpaid principal balance limita-
                                            tions.187 If a borrower satisfies these requirements, and in addition, the loan has
                                            never been previously modified under HAMP, the servicer is required to solicit the
                                            borrower for HAMP Tier 2. In certain other cases, the borrower may still be eligible
                                            for HAMP Tier 2, but the servicer is not required to solicit the borrower.188

                                            How HAMP Tier 2 Modifications Work
                                            As with HAMP Tier 1, HAMP Tier 2 evaluates borrowers using an NPV test that
                                            considers the value of the loan to the investor before and after a modification.
                                            Owner-occupant borrowers are evaluated for both HAMP Tier 1 and Tier 2 in a
                                            single process. If a borrower is eligible for both modifications, he or she will receive
                                            a HAMP Tier 1 modification.189
                                                 As discussed above, HAMP Tier 1 modifications are structured using a waterfall
                                            of incremental steps that may stop as soon as the 31% post-modification DTI ratio
                                            target is reached. In HAMP Tier 2, the proposed permanent modification must
                                            meet two affordability requirements: (1) a post-modification DTI ratio of not less
                                            than 25% or greater than 42% and (2) a reduction of the monthly principal and
                                            interest payment by at least 10%. If the borrower was previously in a HAMP Tier
                                            1 modification (either trial or permanent), then the new payment must be at least
                                            10% below the previously modified payment. Because HAMP Tier 2 does not target
                                            a specific DTI ratio, the HAMP Tier 2 waterfall is not a series of incremental steps,
                                            but a consistent set of actions that are applied to the loan. After these actions are
                                            applied, if the result of the NPV test is positive and the modification also achieves
                                            the DTI and payment reduction goals, the servicer must offer the borrower a
                                            HAMP Tier 2 modification. If the result of the HAMP Tier 2 NPV test is negative,
                                            modification is optional.190
                                                 As in the HAMP Tier 1 waterfall, the first step in structuring a HAMP Tier 2
                                            modification is to capitalize any unpaid interest and fees. The second step changes
                                            the interest rate to the “Tier 2 rate,” which is the current Freddie Mac Primary
                                            Mortgage Market Survey rate plus a 0.5% risk adjustment. The third step extends
                                            the term of the loan by up to 40 years from the modification effective date. Finally,
                                            if the loan’s pre-modification mark-to-market LTV ratio is greater than 115%, the
                                            servicer forbears principal in an amount equal to the lesser of (1) an amount that
                                            would create a post-modification LTV ratio of 115%, or (2) an amount equal to
                                            30% of the post-modification principal balance. Unlike HAMP Tier 1, there is no
                                            excessive forbearance limit in HAMP Tier 2. The HAMP Tier 2 guidelines also in-
                                            clude several exceptions to this waterfall to allow for investor restrictions on certain
                                            types of modification.191
                                                 The HAMP Tier 2 NPV model also evaluates the loan using an “alternative
                                            modification waterfall” in addition to the one described here. This waterfall uses
                                            principal reduction instead of forbearance. However, as in HAMP Tier 1, principal
                                            reduction is optional. Servicers may also reduce principal on HAMP Tier 2 modifi-
                                            cations using PRA.192
                                                                             quarterly report to congress I October 25, 2012   75




    HAMP Tier 2 incentives are the same as those for HAMP Tier 1, with some
exceptions, notably that HAMP Tier 2 modifications do not pay annual borrower or
servicer incentives.193

Home Price Decline Protection (“HPDP”)
HPDP provides investors with incentives for modifications of loans on properties
located in areas where home prices have recently declined and where investors are
concerned that price declines may persist. HPDP incentive payments are linked
to the rate of recent home price decline in a local housing market, as well as the
unpaid principal balance and mark-to-market LTV ratio of the mortgage loan.194
     HPDP is intended to address the fears of investors who may withhold their
consent to loan modifications because of potential future declines in the value of
the homes that secure the mortgages, should the modification fail and the loan go
into foreclosure.
     Under HPDP, Treasury has published a standard formula, based on the princi-
pal balance of the mortgage, the recent decline in area home prices during the six
months before the start of the HAMP modification, and the LTV ratio, that will
determine the size of the incentive payment.195 The HPDP incentive payments
accrue monthly over a 24-month period and are paid annually on the first and
second anniversaries of the initial HAMP trial period. Accruals are discontinued
if the borrower loses good standing under HAMP because he or she is delinquent
by three mortgage payments. As of September 30, 2012, according to Treasury, ap-
proximately $269.3 million in TARP funds had been paid for incentives on 154,383
loan modifications under HPDP.196

Principal Reduction Alternative (“PRA”)
PRA is intended to encourage principal reduction in HAMP loan modifications for
underwater borrowers by providing mortgage investors with incentive payments
in exchange for lowering the borrower’s principal balance. PRA is an alternative
method to the standard HAMP modification waterfall for structuring a HAMP
modification. Although servicers are required to evaluate every non-GSE HAMP-
eligible borrower with an LTV of 115% or greater for PRA, whether to actually offer
principal reduction or not is up to the servicer.197
    Because the GSEs, Fannie Mae and Freddie Mac, have refused to participate
in PRA, the program applies only to loans modified under TARP-funded HAMP.198
On January 27, 2012, Treasury offered to pay PRA incentives for the GSEs from
TARP by tripling the incentives it pays to investors, subsidizing up to 63% of princi-
pal reductions.199
    Treasury failed to provide end-of-quarter data on the PRA program to SIGTARP
before publication. Specifically, Treasury failed to provide the number of active
permanent modifications in PRA, the percentage of borrowers who received PRA
modifications that were seriously delinquent on their mortgages at the start of the
trial modification, pre-modifcation and post-modification median LTV ratios, the
amount by which principal balances under PRA were reduced, and the number of
PRA trials that had redefaulted or were paid off.
76                 special inspector general I troubled asset relief program




                                                                      Who Is Eligible
                                                                      Borrowers who meet all HAMP eligibility requirements and who owe more than
                                                                      115% of their home’s market value (LTV >115%) are eligible for PRA.200 The
                                                                      principal balance used in this LTV calculation includes any amounts that would
                                                                      be capitalized under a HAMP modification.201 Eligible borrowers are evaluated by
                                                                      running NPV tests. There are standard and alternative NPV tests for HAMP Tier
                                                                      1 and HAMP Tier 2. If the standard waterfall produces a positive NPV result, the
                                                                      servicer must offer a HAMP modification (with or without principal reduction).
                                                                      If the PRA waterfall using principal reduction produces a positive NPV result,
                                                                      the servicer may, but is not required to, offer a modification using principal
                                                                      reduction.202

                                                                      How PRA Works
                                                                      For HAMP Tier 1, the PRA waterfall uses principal forbearance (which later
                                                                      becomes principal reduction) prior to interest rate reduction as the second step
                                                                      in structuring the modification. Under PRA, the servicer determines the modified
                                                                      mortgage payment by first capitalizing unpaid interest and fees as in a standard
                                                                      HAMP modification. After capitalization, the servicer reduces the loan balance
                                                                      through principal forbearance until either a DTI ratio of 31% or an LTV ratio of
                                                                      115% is achieved. No interest will be collected on the forborne amount. If an LTV
                                                                      ratio of 105% to 115% is achieved first, the servicer then applies the remaining
                                                                      HAMP waterfall steps (interest rate reduction, term extension, forbearance) until
                                                                      the 31% DTI ratio is reached. If the principal balance has been reduced by more
                                                                      than 5%, the servicer is allowed additional flexibility in implementing the remaining
                                                                      waterfall steps. Principal reduction is not immediate; it is earned over three years.
TABLE 2.16                                                            On each of the first three anniversaries of the modification, one-third of the
 PRA incentives to investors per                                      PRA forborne principal is forgiven. Therefore, after three years the borrower’s
 dollar of First Lien principal                                       principal balance is permanently reduced by the amount that was placed in PRA
 reduced                                                              forbearance.203
 Mark-to-Market
                             105%          115%
 Loan-to-Value                                                        Who Gets Paid
                             to            to           > 140%
 Ratio (“LTV”)
                             115%          140%                       For PRA trials effective on or after March 1, 2012, Treasury will triple the amount
 Rangea
 Incentive
                                                                      of these incentives paid to investors. Under PRA, the mortgage investors now
 Amounts                      $0.63        $0.45         $0.30        earn an incentive of $0.18 to $0.63 per dollar of principal reduced, depending on
 Notes: This incentive structure applies to loans less than or        delinquency status of the loan and the level to which the outstanding LTV ratio was
 equal to six months past due. For loans that were more than
 six months delinquent within the previous year, investors            reduced.204 For loans that are more than six months delinquent, investors receive
 receive $0.18 per dollar of principal reduced in compensation,
 regardless of the LTV ratio. These incentives are effective for
                                                                      only $0.18 per dollar of principal reduction, regardless of LTV.205 The incentive
 trials beginning on or after 3/1/2012.                               schedule in Table 2.16 applies only to loans that have been six months delinquent
 a
   The mark-to-market LTV is based on the pre-modified principal
   balance of the first-lien mortgage plus capitalized interest and   or less within the previous year.
   fees divided by the market value of the property.
                                                                          Under certain conditions an investor may enter into an agreement with the bor-
 Source: Treasury, “Supplemental Directive 12-01: Making
 Home Affordable Program – Principal Reduction Alternative and        rower to share any future increase in the value of the property.206
 Second Lien Modification Program Investor Incentives Update,”
 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/
                                                                          According to Treasury, as of September 30, 2012, Treasury had paid a total of
 hampupdate021612.pdf, accessed 9/28/2012.                            $92.6 million in PRA incentives.207
                                                                             quarterly report to congress I October 25, 2012              77




Home Affordable Unemployment Program (“UP”)
UP, which was announced on March 26, 2010, provides temporary assistance to
unemployed borrowers.208 Under the program, unemployed borrowers who meet
certain qualifications can receive forbearance for a portion of their mortgage
payments. Originally, the forbearance period was a minimum of three months,
unless the borrower found work during this time. However, on July 7, 2011, after a
SIGTARP recommendation to extend the term, Treasury announced that it would
increase the minimum UP forbearance period from three months to 12 months. As
of August 31, 2012, which according to Treasury is the latest data available, 7,522
borrowers were actively participating in UP.

Who Is Eligible
Borrowers who are approved to receive unemployment benefits and who also
request assistance under HAMP must be evaluated by servicers for an UP
forbearance plan and, if eligible, offered one. As of June 1, 2012, a servicer may
consider a borrower for UP whose loan is secured by a vacant or tenant-occupied
property and still must consider owner-occupied properties. The servicer must
consider a borrower for UP regardless of the borrower’s monthly mortgage payment
ratio and regardless of whether the borrower had a payment default on a HAMP
trial plan or lost good standing under a permanent HAMP modification. Servicers
are not required to offer an UP forbearance plan to borrowers who are more than
12 months delinquent at the time of the UP request.209 Alternatively, the servicers
may evaluate unemployed borrowers for HAMP and offer a HAMP trial period plan
instead of an UP forbearance plan if, in the servicer’s business judgment, HAMP is
the better loss mitigation option. If an unemployed borrower is offered a trial period
plan but requests UP forbearance instead, the servicer may then offer UP, but is
not required to do so.210
    Eligible borrowers may request a HAMP trial period plan after the UP forbear-
ance plan is completed. If an unemployed borrower in bankruptcy proceedings
requests consideration for HAMP, the servicer must first evaluate the borrower
for UP, subject to any required bankruptcy court approvals.211 A borrower who has
been determined to be ineligible for HAMP may request assessment for an UP
forbearance plan if he or she meets all the eligibility criteria.212 If a borrower who
is eligible for UP declines an offer for an UP forbearance plan, the servicer is not
required to offer the borrower a modification under HAMP or 2MP while the bor-                For more information on additional UP
rower remains eligible for an UP forbearance plan.213                                         eligibility criteria, see SIGTARP’s April
                                                                                              2011 Quarterly Report, pages 80-81.
How UP Works
For qualifying homeowners, the mortgage payments during the forbearance
period are lowered to no more than 31% of monthly gross income, which includes
unemployment benefits.214 If the borrower regains employment, but because of
reduced income still has a hardship, the borrower must be considered for HAMP.
If the borrower is eligible, any payments missed prior to and during the period of
the UP forbearance plan are capitalized as part of the normal HAMP modification
78            special inspector general I troubled asset relief program




                                                     process.215 If the UP forbearance period expires and the borrower is ineligible for
                                                     HAMP, the borrower may be eligible for MHA foreclosure alternatives, such as
                                                     HAFA.216

                                                     Home Affordable Foreclosure Alternatives (“HAFA”)
                                                     HAFA provides $4.2 billion in incentives to servicers, borrowers, and subordinate
                                                     lien holders to encourage a short sale or deed-in-lieu of foreclosure as an
                                                     alternative to foreclosure.217 Under HAFA, the servicer forfeits the ability to pursue
     Deficiency Judgment: Court order                a deficiency judgment against a borrower when the proceeds from the short sale
     authorizing a lender to collect all or          or deed-in-lieu are less than the outstanding amount on the mortgage.218 HAFA
     part of an unpaid and outstanding debt          incentives include a $3,000 relocation incentive payment to borrowers or tenants,
     resulting from the borrower’s default           a $1,500 incentive payment to servicers, and incentive payments to subordinate
     on the mortgage note securing a debt.           mortgage lien holders of up to $2,000 in exchange for a release of the lien and the
     A deficiency judgment is rendered               borrower’s liability.219 The program was announced on November 30, 2009.220
     after the foreclosed or repossessed                 Treasury allows each servicer participating in HAFA to determine its own poli-
     property is sold when the proceeds are          cies for borrower eligibility and many other aspects of how it operates the program,
     insufficient to repay the full mortgage         but requires the servicers to post criteria and program rules on their websites.
     debt.                                           According to Treasury, as of September 30, 2012, all but one have complied with
                                                     this requirement. Servicers must notify eligible borrowers in writing about the
                                                     availability of the HAFA program and allow the borrower a minimum of 14 calen-
                                                     dar days to apply.221 Servicers are not required by Treasury to verify a borrower’s
                                                     financial information or determine whether the borrower’s total monthly payment
                                                     exceeds 31% of his or her monthly gross income.222
                                                         Effective March 9, 2012, Treasury no longer required properties in HAFA to
                                                     be occupied, allowing vacant properties to enter the program. However, relocation
                                                     incentives will be paid only on occupied properties.223
                                                         As of September 30, 2012, approximately $333.3 million from TARP had been
                                                     paid to investors, borrowers, and servicers under HAFA.224 Treasury failed to pro-
     For more information about relocation           vide end-of-quarter data on the number of short sales or deeds-in-lieu completed
     incentives and borrower requirements            under HAFA to SIGTARP before publication. As of August 31, 2012, the latest
     related to primary residences in HAFA,          data available, Treasury reported that the nine largest servicers alone had com-
     see SIGTARP’s January 2012 Quarterly            pleted 260,271 short sales and deeds-in-lieu outside HAMP for borrowers whose
     Report, pages 70-71.                            HAMP trial modifications had failed, borrowers who had chosen not to participate,
                                                     or were ineligible for the program.225 The greater volume of activity outside HAFA
                                                     may be explained, in part, by the fees and deficiency judgments that servicers are
                                                     able to collect from the borrower in non-HAFA transactions, which are not avail-
                                                     able within HAFA.

                                                     Second-Lien Modification Program (“2MP”)
                                                     According to Treasury, 2MP, which was announced on August 13, 2009, is
                                                     designed to provide modifications to the loans of borrowers with second mortgages
                                                     of at least $5,000 with monthly payments of at least $100 that are serviced by
                                                     a participating 2MP servicer, or full extinguishment of second mortgages below
                                                     those thresholds. When a borrower’s first lien is modified under HAMP and the
                                                     servicer of the second lien is a 2MP participant, that servicer must offer to modify
                                                                              quarterly report to congress I October 25, 2012                               79




or may extinguish the borrower’s second lien. Treasury pays the servicer a lump
sum for full extinguishment of the second-lien principal or in exchange for a partial
extinguishment (principal reduction) and modification of the remainder of the
second lien.226 Second-lien servicers are not required to verify any of the borrower’s
financial information and do not perform a separate NPV analysis.227
    There is no minimum principal balance for a full extinguishment of a second
lien under 2MP. For a second-lien modification under 2MP, the servicer first capi-
talizes any accrued interest and servicing advances, then reduces the interest rate            Servicing Advances: If borrowers’
to 1% to 2% for the first five years. After the five-year period, the rate increases to        payments are not made promptly
match the rate on the HAMP-modified first lien. When modifying the second lien,                and in full, servicers are contractually
the servicer must, at a minimum, extend the term to match the term of the first                obligated to advance the required
lien, but can also extend the term up to a maximum of 40 years. To the extent that             monthly payment amount in full to the
there is forbearance or principal reduction for the modified first lien, the second-           investor. Once a borrower becomes
lien holder must forbear or forgive at least the same percentage on the second                 current or the property is sold or
lien.228                                                                                       acquired through foreclosure, the
    The servicer receives a $500 incentive payment upon modification of a second               servicer is repaid all advanced funds.
lien. If the loan is in good standing and a borrower’s monthly second-lien payment
is reduced by 6% or more, the servicer is eligible for an annual incentive payment
of $250 per year for up to three years, and the borrower is eligible for an annual
principal reduction payment of up to $250 per year for up to five years.229 Investors
receive modification incentive payments equal to an annualized amount of 1.6% of
the unmodified principal balance, paid on a monthly basis for up to five years.230
In addition, investors also receive incentives for fully or partially extinguishing the      TABLE 2.17

second lien on 2MP modifications. On February 16, 2012, Treasury doubled the                  2mp compensation per dollar of
amount of these incentives on 2MP modifications effective on or after June 1,                 Second-Lien principal Reduced
                                                                                              (for 2MP modifications with
2012. The current incentive schedule for loans six months delinquent or less is
                                                                                              an effective date on or after
shown in Table 2.17. For loans that have been more than six months delinquent                 6/1/2012)
within the previous 12 months, investors are paid $0.12 for each dollar of principal          Combined Loan-                           115%
reduced, regardless of the combined LTV ratio.231                                             to-Value (“CLTV”)          < 115%        to           > 140%
    According to Treasury, as of September 30, 2012, 126,070 HAMP modifica-                   Ratio Rangea                             140%
tions had second liens that were eligible for 2MP. Treasury failed to provide end-            Incentive
                                                                                              Amounts                      $0.42       $0.30         $0.20
of-quarter data on the number of active permanent modifications of second liens
                                                                                              Notes: This incentive structure applies to loans less than or
to SIGTARP before publication. New 2MP modifications sharply peaked in March                  equal to six months past due. For loans that were more than
                                                                                              six months delinquent within the previous year, investors
2011 and have been generally declining since then. Most of the activity under the             receive $0.12 per dollar of principal reduced in compensation,
program has been modifications to the terms of the second liens. Treasury failed              regardless of the CLTV ratio.
                                                                                              a
                                                                                                Combined Loan-to-Value is the ratio of the sum of the
to provide end-of-quarter data on the median principal reductions for partial and                outstanding principal balance of the HAMP-modified first
                                                                                                 lien and the outstanding principal balance of the unmodified
full extinguishments of second liens under 2MP to SIGTARP before publication.                    second lien divided by the property value determined in
                                                                                                 connection with the permanent HAMP modification.
According to Treasury, as of September 30, 2012, approximately $229.9 million in
                                                                                              Source: Treasury, “Supplemental Directive 12-03: Making Home
TARP funds had been paid to servicers and investors under 2MP.232 Treasury failed             Affordable Program – Handbook Mapping for MHA Extension
to provide end-of-quarter data on the number of full and partial extinguishments              and Expansion and Administrative Clarifications on Tier 2,”
                                                                                              4/17/2012, www.hmpadmin.com//portal/programs/docs/
and modifications under 2MP to SIGTARP before publication.                                    hamp_servicer/sd1203.pdf, accessed 9/28/2012.
80            special inspector general I troubled asset relief program




                                                     Agency-Insured Loan Programs (FHA-HAMP, RD-HAMP, and
                                                     VA-HAMP)
                                                     Some mortgage loans insured or guaranteed by the Federal Housing Administration
                                                     (“FHA”), Department of Veterans Affairs (“VA”), or the U.S. Department of
                                                     Agriculture Rural Development (“RD”) are eligible for modification under programs
                                                     similar to HAMP Tier 1 that reduce borrowers’ monthly mortgage payments to 31%
                                                     of their monthly gross income. Borrowers are eligible to receive a maximum $1,000
                                                     annual incentive for five years and servicers are eligible to receive a maximum
                                                     $1,000 annual incentive from Treasury for three years on mortgages in which
                                                     the monthly payment was reduced by at least 6%.233 As of September 30, 2012,
                                                     according to Treasury, approximately $12.3 million in TARP funds had been paid to
                                                     servicers and borrowers in connection with FHA-HAMP modifications. According
                                                     to Treasury, only $5,500 of TARP funds has been spent on the modifications under
                                                     RD-HAMP.234 Treasury failed to provide end-of-quarter data on the number of
                                                     permanent modifications under FHA-HAMP and RD-HAMP to SIGTARP before
                                                     publication. Treasury does not provide incentive compensation related to VA-
                                                     HAMP.235

                                                     Treasury/FHA Second-Lien Program (“FHA2LP”)
                                                     FHA2LP, which was launched on September 27, 2010, provides incentives for
                                                     partial or full extinguishment of non-GSE second liens of at least $2,500 originated
                                                     on or before January 1, 2009, associated with an FHA refinance.236 Borrowers must
                                                     also meet the eligibility requirements of FHA Short Refinance. TARP has allocated
     For more information concerning                 $2.7 billion for incentive payments to (1) investors ranging from $0.10 to $0.21
     FHA2LP eligibility, see SIGTARP’s April         based on the LTV of pre-existing second-lien balances that are partially or fully
     2011 Quarterly Report, pages 85-87.             extinguished under FHA2LP, or they may negotiate with the first-lien holder for a
                                                     portion of the new loan, and (2) servicers, in the amount of $500 for each second-
                                                     lien mortgage in the program.237 According to Treasury, as of September 30, 2012,
                                                     it had not made any incentive payments under FHA2LP, and no second liens had
                                                     been partially written down or extinguished.238

                                                     MHA Servicer Assessments
                                                     Beginning in June 2011, Treasury published quarterly Servicer Assessments
                                                     of the 10 largest mortgage servicers participating in MHA. The most recent
                                                     assessment covering the second quarter of 2012 was published on September 13,
                                                     2012. During the fourth quarter of 2011, Ocwen Loan Servicing, LLC acquired
                                                     the servicing portfolio of Litton Loan Servicing, LP (“Litton”), another top 10
                                                     servicer.239 Treasury stopped assessing the 10 largest MHA servicers, and now
                                                     assesses only the largest nine servicers.240
                                                         Servicer Assessments focus on compliance with the requirements of the MHA
                                                     program and on program results. The compliance assessment portion is based on
                                                     the findings of servicer compliance reviews conducted by Treasury’s compliance
                                                     agent. These findings are divided into three performance categories: Identifying and
                                                     Contacting Homeowners; Homeowner Evaluation and Assistance; and Program
                                                                              quarterly report to congress I October 25, 2012         81




Management, Reporting, and Governance. These categories in turn contain several
quantitative and qualitative metrics, which Treasury scores using benchmarks set
by Treasury.241 The servicers are also rated on the effectiveness of their internal
controls in each of the three categories.242
    Program results are reported for Aged Trials as a Percentage of Active Trials;
Conversion Rate for Trials Started On or After June 1, 2010; Average Calendar
Days to Resolve Escalated Cases; and Percentage of Missing Modification Status
Reports. The servicer’s performance in each of the four metrics is not scored and
Treasury has not set benchmarks. Treasury compares servicer performance to the
best and worst performances among the other servicers.243
    Treasury issues overall servicer ratings indicating whether the servicer requires
minor improvement, moderate improvement, or substantial improvement. In the
second quarter 2012 MHA servicer assessment, Treasury determined that two ser-
vicers needed minor improvement (OneWest Bank and Select Portfolio Servicing)
and that seven servicers needed moderate improvement: Homeward Residential
(formerly known as American Home Mortgage Servicing, Inc.); Bank of America,
N.A.; CitiMortgage, Inc; GMAC Mortgage, LLC; JPMorgan Chase Bank, NA;
Wells Fargo Bank, N.A.; and Ocwen Loan Servicing, LLC.244
    In the prior quarter assessment, Treasury determined that Wells Fargo Bank,
N.A. (“Wells Fargo”) needed minor improvement, but in the second quarter as-
sessment, Treasury determined that Wells Fargo needed moderate improvement.245
According to Treasury, this change in rating was not due to a “degradation in
performance,” but as a result of cyclical testing.246 Treasury tests different controls        For more information on MHA Servicer
at different servicers each period. According to Treasury, a smaller platform with             Assessments, see Section 4: “SIGTARP
different controls was tested in the first quarter, compared with a larger platform            Recommendations” of this report.
in the second quarter that included five on-site reviews.247 Also, the second quar-
ter servicer assessment report found that all but two of the nine servicers missed
at least one benchmark in the categories reviewed.248 As of September 30, 2012,
there were no incentives withheld from any MHA servicer as a result of servicer
assessments.249

FHA Short Refinance Program
On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
program, which gives borrowers the option of refinancing an underwater, non-
FHA-insured mortgage into an FHA-insured mortgage at 97.75% of the home’s
value. Treasury has allocated TARP funds of (1) up to $8 billion to provide loss
protection to FHA through a letter of credit; and (2) up to $117 million in fees for
the letter of credit.250 FHA Short Refinance is voluntary for servicers. Therefore,
not all underwater borrowers who qualify may be able to participate in the
program.251 As of September 30, 2012, according to Treasury, 1,772 loans had been
refinanced under the program.252 As of September 30, 2012, Treasury has not paid
any claims for defaults under the program. According to Treasury, to its knowledge,
no FHA Short Refinance Loans have defaulted; however, it is possible that one or
more loans have defaulted but FHA has not yet evaluated the claims.253 Treasury
82            special inspector general I troubled asset relief program




                                                     has deposited $50 million into a reserve account for future claims.254 It has also
                                                     spent approximately $7.2 million on administrative expenses associated with the
                                                     letter of credit.255

                                                     Who Is Eligible
                                                     To be eligible for FHA Short Refinance, a homeowner must be current on the
     For more information concerning                 existing first-lien mortgage or have made three successful trial period payments; be
     FHA Short Refinance eligibility, see            in a negative equity position; occupy the home as a primary residence; qualify for
     SIGTARP’s April 2011 Quarterly                  the new loan under standard FHA underwriting and credit score requirements and
     Report, pages 85-87.                            have an existing loan that is not insured by FHA.256 According to the Department
                                                     of Housing and Urban Development (“HUD”), it evaluates the credit risk of the
                                                     loans.257

                                                     How FHA Short Refinance Works
                                                     Servicers must first determine the current value of the home using a third-party
                                                     appraisal by a HUD-approved appraiser. The borrower is then reviewed for credit
                                                     risk and, if necessary, referred for a review to confirm that the borrower’s total
                                                     monthly mortgage payments on all liens after the refinance is not greater than
                                                     31% of the borrower’s monthly gross income and the borrower’s total household
                                                     debt is not greater than 50%.258 Next, the lien holders must forgive principal that is
                                                     more than 115% of the value of the home. In addition, the original first-lien lender
                                                     must forgive at least 10% of the unpaid principal balance of the first-lien loan,
                                                     in exchange for a cash payment for 97.75% of the current home value from the
                                                     proceeds of the refinance. The lender may maintain a subordinate second lien for
                                                     up to 17.25% of that value (for a total balance of 115% of the home’s value).259
                                                         If a borrower defaults, the letter of credit purchased by Treasury compensates
                                                     the investor for a first percentage of losses, up to specified amounts.260 For mort-
                                                     gages originated between April 9, 2012, and September 30, 2012, the letter of
                                                     credit would cover approximately 11.5% of the unpaid principal balance at de-
                                                     fault.261 FHA is responsible for the remaining losses on each mortgage. Funds may
                                                     be paid from the FHA Short Refinance letter of credit until the earlier of either (1)
                                                     the time that the $8 billion letter of credit is exhausted, or (2) 10 years from the
                                                     issuance of the letter of credit (October 2020), at which point FHA will bear all of
                                                     the remaining losses.262

                                                     Housing Finance Agency Hardest Hit Fund (“HHF”)
                                                     On February 19, 2010, the Administration announced a housing support program
                                                     known as the Hardest Hit Fund. Under HHF, TARP dollars would fund “innovative
                                                     measures” developed by 19 state housing finance agencies (“HFAs”) and approved
                                                     by Treasury to help families in the states that have been hit the hardest by the
                                                     aftermath of the housing bubble.263 The first round of HHF allocated $1.5 billion
                                                     of the amount initially allocated for MHA initiatives. According to Treasury, these
                                                     funds were designated for five states where the average home price had decreased
                                                     more than 20% from its peak. The five states were Arizona, California, Florida,
                                                                               quarterly report to congress I October 25, 2012   83




Michigan, and Nevada.264 Plans to use these funds were approved by Treasury on
June 23, 2010.265
     On March 29, 2010, Treasury expanded HHF to include five additional states
and increased the program’s potential funding by $600 million, bringing total
funding to $2.1 billion. The additional $600 million was designated for North
Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated that
these states were selected because of their high concentrations of people living in
economically distressed areas, defined as counties in which the unemployment rate
exceeded 12%, on average, in 2009.266 Plans to use these funds were approved by
Treasury on August 3, 2010.267
     On August 11, 2010, Treasury pledged a third round of HHF funding of $2
billion to states with unemployment rates at or above the national average.268
The states designated to receive funding were Alabama, California, Florida,
Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
North Carolina, Ohio, Oregon, Rhode Island, South Carolina, Tennessee, and
Washington, DC.269 Treasury approved third round proposals on September 23,
2010.270 On September 29, 2010, a fourth round of HHF funding of an additional
$3.5 billion was made available to existing HHF participants.271
     Treasury approved state programs and allocated the $7.6 billion in TARP funds
in five categories of assistance:272

•	   $4.4 billion for unemployment assistance
•	   $1.4 billion for principal reduction
•	   $817 million for reinstatement of past-due amounts
•	   $83 million for second-lien reduction
•	   $45 million for transition assistance, including short sales and deed-in-lieu of
     foreclosure

    Each state’s HFA reports program results (i.e., number of applications approved
or denied and assistance provided) on a quarterly basis on its own state website.
Treasury does not publish the data either by individual HFA or in the aggregate.
Treasury indicated that states can reallocate funds between programs and modify
existing programs as needed, with Treasury approval, until funds are expended or
returned to Treasury after December 31, 2017. According to Treasury, since June
30, 2012, nine states have reallocated funds, modified or eliminated existing pro-
grams, or established new HHF programs with Treasury approval, bringing the total
number of HHF programs in 18 states and Washington, DC, as of September 30,
2012, to 57.273
    Table 2.18 shows the obligation of funds and funds drawn for states participat-
ing in the four rounds of HHF as of September 30, 2012. As of that date, according
to Treasury, the states had drawn down $1.5 billion under the program. According
to Treasury, the states had spent only a limited portion of the amount drawn on
assisting borrowers; see Table 2.19. According to the most recent data available, as
of June 30, 2012, more than half of the amount drawn is held as unspent cash-on-
hand with HFAs or is used for administrative expenses.274
84            special inspector general I troubled asset relief program




                                                     TABLE 2.18
                                                      HHF Funding Obligated and drawdowns by State, as of 9/30/2012
                                                      Recipient                                                       Amount Obligated                         Amount Drawn*
                                                      Alabama                                                               $162,521,345                             $28,000,000
                                                      Arizona                                                                 267,766,006                              47,755,000
                                                      California                                                           1,975,334,096                             467,490,000
                                                      Florida                                                              1,057,839,136                               89,800,000
                                                      Georgia                                                                 339,255,819                              38,200,000
                                                      Illinois                                                                445,603,557                              96,500,000
                                                      Indiana                                                                 221,694,139                              22,000,000
                                                      Kentucky                                                                148,901,875                              44,000,000
                                                      Michigan                                                                498,605,738                              66,586,311
                                                      Mississippi                                                             101,888,323                              10,188,832
                                                      Nevada                                                                  194,026,240                              32,092,000
                                                      New Jersey                                                              300,548,144                              22,513,704
                                                      North Carolina                                                          482,781,786                            173,000,000
                                                      Ohio                                                                    570,395,099                            130,100,000
                                                      Oregon                                                                  220,042,786                            107,501,070
                                                      Rhode Island                                                             79,351,573                              39,000,000
                                                      South Carolina                                                          295,431,547                              60,000,000
                                                      Tennessee                                                               217,315,593                              31,315,593
                                                      Washington, DC                                                           20,697,198                              10,034,860
                                                      Total                                                            $7,600,000,000                         $1,516,077,370
                                                      Notes: Numbers may not total due to rounding.

                                                      *Amount drawn includes funds for program expenses (direct assistance to borrowers), administrative expenses, and cash-on-hand.

                                                      Sources: Treasury, Transactions Report-Housing, 9/27/2012; Treasury, response to SIGTARP data call, 10/4/2012.



                                                         As of June 30, 2012, the latest data available, HHF had provided $506.6 mil-
                                                     lion in assistance to 58,519 homeowners.275 Each state estimates the number of
                                                     borrowers to be helped in its programs. Treasury allows the HFAs to change this
                                                     estimate. The aggregate of these estimated ranges has decreased in the last year.
     For more information on HHF, see                This is true even from last quarter. In SIGTARP’s July 2012 Quarterly Report,
     SIGTARP’s April 12, 2012, audit report,         SIGTARP reported that as of March 31, 2012, the 19 HFAs collectively estimated
     “Factors Affecting Implementation of the        helping between 452,034 and 476,672 homeowners over the life of the program.
     Hardest Hit Fund Program.”                      By June 30, 2012, the collective estimate had decreased by approximately 40,000
                                                     homeowners, or 8.2%, to 414,233 to 437,963 estimated number of homeowners to
                                                     be helped over the life of the program.276 Table 2.19 provides this estimate as well
                                                     as the actual number of borrowers helped by states using data as of June 30, 2012.
                                                                                                                      quarterly report to congress I October 25, 2012   85




TABLE 2.19
 HHF Estimated and Actual Number of Borrowers Assisted and
 assistance provided, by state, as of 6/30/2012
                                 Estimated Number
                                    of Participating
                                      Households to                 Actual Borrowers
                                     be Assisted by             Receiving Assistance                 Assistance Provided
 Recipient                           12/31/2017*                 as of 6/30/2012**                   as of 6/30/2012**
 Alabama                                           8,500                               1,886                    $12,862,891
 Arizona                                           7,303                                 703                        4,967,940
 California                                       77,670                             10,501                       92,690,430
 Florida                                          90,000                               5,559                      27,888,029
 Georgia                                          18,300                               1,243                        8,482,324
 Illinois                           17,000 to 29,000                                   2,814                      32,379,911
 Indiana                                          13,392                                 867                        6,357,775
 Kentucky                            6,250 to 13,000                                   1,953                      16,861,090
 Michigan                                         22,570                               5,728                      22,613,167
 Mississippi                                       3,800                                 557                        4,931,289
 Nevada                                           10,787                               1,263                        8,230,502
 New Jersey                                        6,900                                 498                        3,354,599
 North Carolina                                   22,290                               6,815                      69,578,687
 Ohio                                             57,300                               6,486                      68,601,386
 Oregon                                           13,630                               4,846                      60,019,005
 Rhode Island                                      2,921                               1,678                      16,139,060
 South Carolina                     21,600 to 26,100                                   3,008                      29,198,046
 Tennessee                                        13,500                               1,763                      16,624,549
 Washington, DC                           520 to 1,000                                   351                        4,867,245
 Total:                       414,233 to 437,963                                    58,519                   $506,647,925
 Notes: Numbers may not total due to rounding.

 *Source: Estimates are from the latest HFA Participation Agreements as of 6/30/2012. Later amendments are not included for
 consistency with Quarterly Performance reporting.

 States report the Estimated Number of Participating Households individually for each HHF program they operate. This column shows
 the totals of the individual program estimates for each state. Therefore, according to Treasury, these totals do not necessarily
 translate into the number of unique households that the states expect to assist because some households may participate in more
 than one HHF program.

 **Sources: Second quarter 2012 HFA Performance Data quarterly reports and Second Quarter 2012 HFA Aggregate Quarterly
 Report. Both sources are as of 6/30/2012.



    As of June 30, 2012, 75% of the HHF assistance received by homeowners was
for unemployment assistance. The remaining assistance can be broken down to
19% for reinstatement of past due amounts, 5% for principal reduction, 1% for
second-lien reduction, and 0.1% for transition assistance.277
86           special inspector general I troubled asset relief program




                                                    Financial Institution Support Programs
                                                    Treasury created six TARP programs through which it made capital investments
                                                    or asset guarantees in exchange for equity in participating financial institutions.
                                                    Three of the programs, the Capital Purchase Program (“CPP”), the Community
                                                    Development Capital Initiative (“CDCI”), and the Capital Assistance Program
                                                    (“CAP”), were open to all qualifying financial institutions (“QFIs”). The other
                                                    three, the Systemically Significant Failing Institutions (“SSFI”) program, the
                                                    Targeted Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”),
                                                    were available on a case-by-case basis to institutions that needed assistance beyond
                                                    that available through CPP. With the expiration of TARP funding authorization, no
                                                    new investments can be made through these six programs.
                                                        To help improve the capital structure of some struggling TARP recipients,
                                                    Treasury has agreed to modify its investment in certain cases by converting the pre-
                                                    ferred stock it originally received into other forms of equity, such as common stock
     Mandatorily Convertible Preferred              or mandatorily convertible preferred stock (“MCP”).278
     Stock (“MCP”): A type of preferred
     share (ownership in a company that             Capital Purchase Program
     generally entitles the owner of the            Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a
     shares to collect dividend payments)           way to promote financial stability, maintain confidence in the financial system, and
     that can be converted to common                enable lenders to meet the nation’s credit needs.279 CPP was a voluntary program
     stock under certain parameters at the          open to all QFIs through an application process. QFIs included U.S.-controlled
     discretion of the company – and must           banks, savings associations, and certain bank and savings and loan holding
     be converted to common stock by a              companies.280
     certain time.                                      Under CPP, Treasury used TARP funds predominantly to purchase preferred
                                                    equity interests in QFIs. The QFIs issued Treasury senior preferred shares that pay
                                                    a 5% annual dividend for the first five years and a 9% annual dividend thereafter. In
                                                    addition to the senior preferred shares, publicly traded QFIs issued Treasury war-
                                                    rants to purchase common stock with an aggregate market price equal to 15% of
                                                    the senior preferred share investment. Privately held QFIs issued Treasury warrants
                                                    to purchase additional senior preferred stock worth 5% of Treasury’s initial pre-
                                                    ferred stock investment.281 In total, Treasury invested $204.9 billion of TARP funds
     For discussion of SIGTARP’s                    in 707 QFIs through CPP.282
     recommendations on TARP exit paths                 As of September 30, 2012, 290 of those 707 institutions remained in CPP,
     for community banks, see SIGTARP’s
                                                    according to Treasury.283 Of the 417 that have exited CPP, 165, or 39.6%, did so
     October 2011 Quarterly Report, pages
                                                    by refinancing into other government programs — 28 of them into TARP’s CDCI
     167-169.
                                                    and 137 into the Small Business Lending Fund (“SBLF”), a non-TARP program.284
     For discussion of SIGTARP’s                    Only 175 of the banks that exited, or 42%, fully repaid CPP otherwise.285 Of the
     recommendations issued on October 9,           other banks that have exited CPP, three CPP banks merged with other CPP banks;
     2012, regarding CPP preferred stock            Treasury sold its investments in 56 institutions at a loss; and 18 institutions or
     auctions, see Section 4, “SIGTARP              their subsidiary banks failed, meaning Treasury lost its entire investment in those
     Recommendations,” of this report.              banks.286
                                                                                                                            quarterly report to congress I October 25, 2012        87




Status of Funds
According to Treasury, through CPP, Treasury purchased $204.9 billion in                                                                    Subordinated Debentures: Form of
preferred stock and subordinated debentures from 707 QFIs in 48 states, the                                                                 debt security that ranks below other
District of Columbia, and Puerto Rico. Although the 10 largest investments                                                                  loans or securities with regard to
accounted for $142.6 billion of the program, CPP made many smaller investments:                                                             claims on assets or earnings.
331 of 707 recipients received $10 million or less.287 Table 2.20 shows the
distribution of investments by amount.

TABLE 2.20
 CPP INVESTMENT SIZE BY INSTITUTION, AS OF 9/30/2012
                                                                                            Originala                Outstandingb
$10 billion or more                                                                                    6                              0
$1 billion to $10 billion                                                                            19                               0
$100 million to $1 billion                                                                           57                              14
Less than $100 million                                                                              625                            276
Total                                                                                              707                            290
Notes: Data based on the institutions’ total CPP investments. There are more than 30 institutions that have received multiple
transactions through CPP.
a
  These numbers are based on total Treasury CPP investment since 10/28/2008.
b
  Amount does not include those investments that have already been repaid, sold to a third party at a discount, merged out of the
  CPP portfolio, exchanged their CPP investments for an investment under CDCI, or are related to institutions that filed for bankruptcy
  protection or had a subsidiary bank fail. Figures are based on total investments outstanding. Included in those figures are the six
  banks that were converted to common shares at a discount. The outstanding amount represented is the original par value of the
  investment. Treasury does not include in the number of banks with outstanding CPP investments those institutions that have repaid
  their CPP principal but still have warrants outstanding.

Source: Treasury, response to SIGTARP data call, 10/4/2012.



    As of September 30, 2012, 290 banks remained in CPP and taxpayers were still
owed $11.8 billion related to CPP. According to Treasury, it had write-offs and real-
ized losses of $3.1 billion in the program, leaving $8.7 billion in TARP funds out-
standing. According to Treasury, $193.1 billion of the CPP principal (or 94.2%) had
been repaid as of September 30, 2012. The repayment amount includes $363.3
million in preferred stock that was converted from CPP investments into CDCI
and therefore still represents outstanding obligations to TARP, and $2.2 billion that
was refinanced in 2011 into SBLF, a non-TARP Government program.288 As of
September 30, 2012, Treasury had received approximately $11.8 billion in interest
and dividends from CPP recipients. Treasury also had received $7.7 billion through
the sale of CPP warrants that were obtained from TARP recipients.289 Figure 2.2
provides a snapshot of CPP funds outstanding and associated repayments. For a
complete list of CPP share repurchases, see Appendix D: “Transaction Detail.”
88   special inspector general I troubled asset relief program




                                            FIGURE 2.2

                                            SNAPSHOT OF CPP FUNDS REPAID AND OWED TO TAXPAYERS,
                                            BY QUARTER ($ BILLIONS)

                                                                  198.8 203.2 204.6 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9
                                            200                    0.4 70.1 70.7 121.9 135.8 146.9 152.8 167.9 179.1 180.6
                                                                                                                              184.9 185.5 186.9 191.1 193.1
                                                                  198.4
                                                          177.5
                                                          177.5

                                            150

                                                                        133.1 133.9
                                                  115.0
                                                  115.0
                                            100

                                                                                       83.0
                                                                                              69.1
                                             50                                                      58.0
                                                                                                             52.1
                                                                                                                    37.0
                                                                                                                            25.9 24.3
                                                                                                                                      20.0 19.5
                                                                                                                                                18.0
                                                                                                                                                       13.8 11.8
                                              0
                                                  Q308 Q408 Q109 Q209 Q309 Q409 Q110 Q210 Q310 Q410 Q111 Q211 Q311 Q411 Q112 Q212 Q312

                                                      CPP Funds Outstanding at Quarter’s End
                                                      CPP Funds Repaid at Quarter’s End

                                                   Notes: Numbers may not total due to rounding. Data presented for calendar quarters.

                                                   Source: Treasury, Transactions Report, 9/28/2012.




                                            CPP Banks Exiting TARP by Refinancing into SBLF
                                            On September 27, 2010, the President signed into law the Small Business Jobs
                                            Act of 2010 (“Jobs Act”), which created the non-TARP program SBLF for Treasury
                                            capital investments in institutions with less than $10 billion in total assets.290
                                                The Jobs Act specifically contemplated that some CPP institutions could apply
                                            to exit TARP by refinancing into SBLF. According to Treasury, it received a total of
                                            935 SBLF applications, of which 320 were TARP recipients under CPP (315) or
                                            CDCI (5).291
                                                Treasury approved the exit of 137 CPP participants from TARP, which included
                                            refinancing Treasury’s TARP preferred stock into $2.7 billion in SBLF preferred
                                            stock.292
                                                An institution was not eligible for the program if at the time of application it
                                            was on the FDIC’s problem bank list or if it had been removed from that list in the
                                            90 days preceding its application to SBLF.293 Treasury consulted with Federal and,
                                            where applicable, state regulators about the bank’s financial condition and whether
                                            it was eligible to receive funding from SBLF.294
                                                                            quarterly report to congress I October 25, 2012            89




   In order for these 137 banks to exit TARP, the following conditions had to be             For SIGTARP’s recommendations to
met:295                                                                                      Treasury about applying SBLF to TARP
                                                                                             recipients, see SIGTARP’s January 2011
•	 Banks that refinanced into SBLF were required to end participation in CPP or              Quarterly Report, pages 185-192.
   CDCI.
                                                                                             For further discussion of Treasury
•	 Banks that used SBLF to refinance their CPP or CDCI investments were
                                                                                             policies regarding missed dividend
   required to redeem all outstanding preferred stock issued under those programs
                                                                                             payments and of how Treasury adjusts
   on or before the date of Treasury’s SBLF investment. Banks could use the SBLF             dividend rates of SBLF banks, see
   funding to meet this requirement.                                                         SIGTARP’s April 2011 Quarterly
•	 Banks were required to be in material compliance with all the terms, conditions,          Report, pages 128-129.
   and covenants of CPP or CDCI in order to refinance through SBLF.
•	 Banks were required to be current in their dividend payments and to pay any               For a discussion of the impact of TARP
   accrued and unpaid dividends due to Treasury under CPP or CDCI. In addition,              and SBLF on community banks, see
   banks could not have missed more than one previous dividend payment under                 SIGTARP’s April 2012 Quarterly report,
   CPP or CDCI (defined as a payment submitted more than 60 days late).                      pages 145-167.


    Table 2.21 is a list of the 137 banks that exited TARP by refinancing into SBLF.

Table 2.21
 CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF
                                               CPP Principal           CPP Warrant                                  SBLF Principal
 Institution                                     Investment    Disposition Proceeds        TARP Exit Date              Investment
 1st Enterprise Banka                           $10,400,000               $220,000               9/1/2011              $16,400,000
 Adbanc, Inc.                                    12,720,000                636,000              7/21/2011               21,905,000
 AMB Financial Corp.                              3,674,000                184,000              9/22/2011                3,858,000
 AmeriBank Holding Company                        2,492,000                125,000              9/15/2011                5,347,000
 AmeriServ Financial, Inc.                       21,000,000                825,000              8/11/2011               21,000,000
 Avenue Financial Holdings, Inc.                  7,400,000                370,000              9/15/2011               18,950,000
 BancIndependent, Inc.                           21,100,000              1,055,000              7/14/2011               30,000,000
 Bancorp Financial, Inc.                         13,669,000                410,000              8/18/2011               14,643,000
 Bank of Commerce Holdings                       17,000,000                125,000              9/27/2011               20,000,000
 BankFirst Capital Corporation                   15,500,000                775,000               9/8/2011               20,000,000
 Banner County Bank Corporation                     795,000                 40,000              7/28/2011                2,427,000
 Bern Bancshares, Inc.                              985,000                 50,000               9/1/2011                1,500,000
 Birmingham Bloomfield Bancshares, Inc.a          3,379,000                 82,000              7/28/2011                4,621,000
 BNC Financial Group, Inc.                        4,797,000                240,000               8/4/2011               10,980,000
 BOH Holdings, Inc.                              10,000,000                500,000              7/14/2011               23,938,350
 Brotherhood Bancshares, Inc.                    11,000,000                550,000              9/15/2011               16,000,000
 Cache Valley Banking Companya                    9,407,000                238,000              7/14/2011               11,670,000
 California Bank of Commerce                      4,000,000                200,000              9/15/2011               11,000,000
 Cardinal Bancorp II, Inc.                        6,251,000                313,000               9/8/2011                6,251,000
 Catskill Hudson Bancorp, Inc.   a
                                                  6,500,000                263,000              7/21/2011                9,681,000
                                                                                                              Continued on next page
90            special inspector general I troubled asset relief program




     CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF                   (Continued)

                                                        CPP Principal             CPP Warrant                             SBLF Principal
     Institution                                          Investment      Disposition Proceeds     TARP Exit Date            Investment
     Center Bancorp, Inc.                                 $10,000,000                $245,000          9/15/2011             $11,250,000
     Central Bancorp, Inc.                                 10,000,000               2,525,000          8/25/2011              10,000,000
     Central Valley Community Bancorp                       7,000,000                    185,017       8/18/2011               7,000,000
     Centric Financial Corporation                          6,056,000                    182,000       7/14/2011               7,492,000
     Centrix Bank & Trust                                   7,500,000                    375,000       7/28/2011              24,500,000
     Citizens Community Bank                                3,000,000                    150,000       7/28/2011               4,000,000
     Citizens South Banking Corporation                    20,500,000                    225,157       9/22/2011              20,500,000
     CoBiz Financial Inc.                                  64,450,000                    143,677        9/8/2011              57,366,000
     Codorus Valley Bancorp, Inc.                          16,500,000                    526,604       8/18/2011              25,000,000
     Columbine Capital Corp.                                2,260,000                    113,000       9/22/2011               6,050,000
     Community Bank Shares of Indiana, Inc.                19,468,000               1,100,870          9/15/2011              28,000,000
     Community First Bancshares Inc.                       20,000,000               1,000,000          8/18/2011              30,852,000
     Community Partners Bancorp                             9,000,000                    460,000       8/11/2011              12,000,000
     Community Trust Financial Corporation                 24,000,000               1,200,000           7/6/2011              48,260,000
     D. L. Evans Bancorp                                   19,891,000                    995,000       9/27/2011              29,891,000
     Deerfield Financial Corporation                        2,639,000                    132,000        9/8/2011               3,650,000
     DNB Financial Corporation                             11,750,000                    458,000        8/4/2011              13,000,000
     Eagle Bancorp, Inc.                                   38,235,000               2,794,422          7/14/2011              56,600,000
     Emclaire Financial Corp.                               7,500,000                     51,113       8/18/2011              10,000,000
     Encore Bancshares, Inc.                               34,000,000                    637,071       9/27/2011              32,914,000
     Enterprise Financial Services Group, Inc.              4,000,000                    200,000       8/25/2011               5,000,000
     Equity Bancshares, Inc.                                8,750,000                    438,000       8/11/2011              16,372,000
     Farmers State Bankshares, Inc.                           700,000                     40,000       7/21/2011                 700,000
     FCB Bancorp, Inc.                                      9,294,000                    465,000       9/22/2011               9,759,000
     Financial Security Corporation                         5,000,000                    250,000       7/21/2011               5,000,000
     Financial Services of Winger, Inc.                     3,742,000                    112,000        9/1/2011               4,069,000
     First Bancorp                                         65,000,000                    924,462        9/1/2011              63,500,000
     First Bank of Charleston, Inc.                         3,345,000                    167,000       7/21/2011               3,345,000
     First Bankers Trustshares, Inc.                       10,000,000                    500,000        9/8/2011              10,000,000
     First BuseyCorporation                               100,000,000                     63,677       8/25/2011              72,664,000
     First California Financial Group, Inc                 25,000,000                    599,042       7/14/2011              25,000,000
     First Colebrook Bancorp, Inc.                          4,500,000                    225,000       9/22/2011               8,623,000
     First Financial Bancshares, Inc.                       3,756,000                    113,000       9/22/2011               3,905,000
     First Guaranty Bancshares, Inc.                       20,699,000               1,030,000          9/22/2011              39,435,000
     First Menasha Bancshares, Inc.                         4,797,000                    240,000       9/15/2011              10,000,000
     First Merchants Corporation                          116,000,000                    367,500       9/22/2011              90,782,940
     First NBC Bank Holding Company                        17,836,000                    892,000        8/4/2011              37,935,000
     First Northern Community Bancorp                      17,390,000                    375,000       9/15/2011              22,847,000
     First Resource Bank    a
                                                            5,017,000                    130,000       9/15/2011               5,083,000
     First Texas BHC, Inc.                                 13,533,000                    677,000       9/15/2011              29,822,000
                                                                                                                    Continued on next page
                                                                          quarterly report to congress I October 25, 2012            91




CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF        (Continued)

                                          CPP Principal           CPP Warrant                                     SBLF Principal
Institution                                 Investment    Disposition Proceeds           TARP Exit Date              Investment
Florida Business BancGroup, Inc.            $9,495,000               $475,000                 9/22/2011              $15,360,000
FNB Bancorp                                 12,000,000                   600,000              9/15/2011               12,600,000
Fortune Financial Corporation                3,100,000                   155,000              9/15/2011                3,255,000
Grand Capital Corporation                    4,000,000                   200,000               9/8/2011                5,200,000
GrandSouthBancorporation          a
                                            15,319,000                   450,000               9/8/2011               15,422,000
Great Southern Bancorp                      58,000,000              6,436,364                 8/18/2011               57,943,000
Guaranty Bancorp, Inc.                       6,920,000                   346,000              9/15/2011                7,000,000
Gulfstream Bancshares, Inc.                  7,500,000                   375,000              8/18/2011                7,500,000
Heartland Financial USA, Inc.               81,698,000              1,800,000                 9/15/2011               81,698,000
Heritage Bankshares, Inc.                   10,103,000                   303,000              8/11/2011                7,800,000
Highlands Bancorp, Inc.a                     5,450,000                   155,000              9/22/2011                6,853,000
Horizon Bancorp                             25,000,000              1,750,551                 8/25/2011               12,500,000
Howard Bancorp, Inc.                         5,983,000                   299,000              9/22/2011               12,562,000
Illinois State Bancorp, Inc.  a
                                            10,272,000                   406,000              9/22/2011               13,368,000
Katahdin Bankshares Corp.                   10,449,000                   522,000              8/18/2011               11,000,000
Liberty Bancshares, Inc. (AR)               57,500,000              2,875,000                 7/21/2011               52,500,000
Liberty Bancshares, Inc. (MO)               21,900,000              1,095,000                 8/18/2011               22,995,000
Magna Bank                                  13,795,000                   690,000              8/18/2011               18,350,000
McLeod Bancshares, Inc.                      6,000,000                   300,000              8/18/2011                6,000,000
Medallion Banka                             21,498,000                   645,000              7/21/2011               26,303,000
Mercantile Capital Corp.                     3,500,000                   175,000               8/4/2011                7,000,000
Merchants and Manufacturers Bank
                                             3,510,000                   176,000               9/8/2011                6,800,000
Corporation
Merchants and Planters Bancshares, Inc.      1,881,000                    94,000               9/8/2011                2,000,000
MidSouth Bancorp, Inc.                      20,000,000                   206,557              8/25/2011               32,000,000
Moneytree Corporation                        9,516,000                   476,000              9/15/2011                9,992,000
Monument Bank                                4,734,000                   237,000              8/11/2011               11,355,000
MutualFirst Financial, Inc.                 32,382,000                   900,194              8/25/2011               28,923,000
New Hampshire Thrift Bancshares, Inc.       10,000,000                   737,100              8/25/2011               20,000,000
Nicolet Bankshares, Inc.                    14,964,000                   748,000               9/1/2011               24,400,000
Northway Financial, Inc.                    10,000,000                   500,000              9/15/2011               23,593,000
Oak Valley Bancorp                          13,500,000                   560,000              8/11/2011               13,500,000
Pacific Coast Bankers’ Bancshares           11,600,000                   580,000              7/28/2011               11,960,000
Pathfinder Bancorp, Inc.                     6,771,000                   537,633               9/1/2011               13,000,000
Penn Liberty Financial Corp.                 9,960,000                   498,000               9/1/2011               20,000,000
Peoples Bancorp                             18,000,000                   900,000               8/4/2011               18,000,000
PFSB Bancorporation, Inc.                    1,500,000                    71,000              8/25/2011                1,500,000
PlainsCapital Corporation                   87,631,000              4,382,000                 9/27/2011              114,068,000
Providence Bank                              4,000,000                   175,000              9/15/2011                4,250,000
Puget Sound Bank                             4,500,000                   225,000              8/11/2011                9,886,000
                                                                                                            Continued on next page
92              special inspector general I troubled asset relief program




     CPP BANKS THAT EXITED TARP BY REFINANCING INTO SBLF                                                  (Continued)

                                                                              CPP Principal                    CPP Warrant                                                  SBLF Principal
     Institution                                                                Investment             Disposition Proceeds               TARP Exit Date                       Investment
     QCR Holdings, Inc.                                                        $38,237,000                           $1,100,000                 9/15/2011                      $40,090,000
     Redwood Capital Bancorp                                                       3,800,000                              190,000               7/21/2011                         7,310,000
     Redwood Financial, Inc.                                                       2,995,000                              150,000               8/18/2011                         6,425,000
     Regent Capital Corporation                                                    2,655,000                              133,000               7/21/2011                         3,350,000
     Salisbury Bancorp, Inc.                                                       8,816,000                              205,000               8/25/2011                        16,000,000
     SBT Bancorp, Inc.                                                             4,000,000                              200,000               8/11/2011                         9,000,000
     Seacoast Commerce Bank                                                        1,800,000                                90,000                9/1/2011                        4,000,000
     Security Business Bancorp                                                     5,803,000                              290,000               7/14/2011                         8,944,500
     Security California Bancorp                                                   6,815,000                              341,000               9/15/2011                         7,200,000
     Security State Bancshares, Inc.                                             12,500,000                               625,000               9/22/2011                        22,000,000
     Southern Heritage Bancshares, Inc.                                            4,862,000                              243,000                 9/8/2011                        5,105,000
     Southern Illinois Bancorp, Inc.                                               5,000,000                              250,000               8/25/2011                         9,000,000
     Southern Missouri Bancorp, Inc.b                                              9,550,000                                                    7/21/2011                        20,000,000
     Sovereign Bancshares, Inc.                                                  18,215,000                               911,000               9/22/2011                        24,500,000
     Steele Street Bank Corporation                                              11,019,000                               331,000                 9/1/2011                       11,350,000
     Stewardship Financial Corporation                                           10,000,000                               107,398                 9/1/2011                       15,000,000
     Summit State Bank                                                             8,500,000                              315,000                 8/4/2011                       13,750,000
     Sword Financial Corporation                                                 13,644,000                               682,000               9/15/2011                        17,000,000
     TCB Corporation                                                               9,720,000                              292,000                 9/8/2011                        8,640,000
     The ANB Corporation                                                         20,000,000                            1,000,000                8/25/2011                        37,000,000
     The Elmira Savings Bank, FSBb                                                 9,090,000                                                    8/25/2011                        14,063,000
     The Landrum Company                                                         15,000,000                               750,000               8/18/2011                        20,000,000
     The Private Bank of California                                                5,450,000                              273,000                 9/1/2011                       10,000,000
     The State Bank of Bartley                                                     1,697,000                                51,000              9/22/2011                         2,380,000
     The Victory Bancorp, Inc.a                                                    2,046,000                                61,000              9/22/2011                         3,431,000
     TowneBank     b
                                                                                 76,458,000                                                     9/22/2011                        76,458,000
     Triad Bancorp, Inc.                                                           3,700,000                              185,000               9/22/2011                         5,000,000
     Tri-County Financial Corporation                                            15,540,000                               777,000               9/22/2011                        20,000,000
     Two Rivers Financial Group, Inc.                                            12,000,000                               600,000                 9/1/2011                       23,240,000
     UBT Bancshares, Inc.                                                          8,950,000                              450,000               8/11/2011                        16,500,000
     Union Bank & Trust Company            a
                                                                                   6,191,000                              160,000               9/22/2011                         6,200,000
     United Financial Banking Companies, Inc.                                      5,658,000                              283,000               9/15/2011                         3,000,000
     Valley Financial Group, Ltd.                                                  1,300,000                                65,000              9/22/2011                         2,000,000
     Veritex Holdings, Inc.(Fidelity Resources
                                                                                   3,000,000                              150,000               8/25/2011                         8,000,000
     Company)
     W.T.B. Financial Corporation                                              110,000,000                             5,500,000                9/15/2011                        89,142,000
     WashingtonFirst Bankshares, Inc.           a
                                                                                 13,475,000                               332,000                 8/4/2011                       17,796,000
     Western Alliance Bancorporation                                           140,000,000                                415,000               9/27/2011                      141,000,000
     York Traditions Bank                                                          4,871,000                              244,000               7/14/2011                         5,115,000
     Total                                                               $2,240,465,000                           $77,321,409                                            $2,689,763,790
     Notes: Banks are not required to repurchase warrants from Treasury that were provided as a condition of receiving funds under CPP.
     a
       Institution received multiple investments under CPP.
     b
       As of 9/30/2012, Treasury still held warrants to purchase common stock in this institution.

     Sources: Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.
     pdf, accessed 10/3/2012; Treasury, SBLF Transactions Report, 9/28/2011, www.treasury.gov/resource-center/sb-programs/DocumentsSBLFTransactions/SBLF_Bi-Weekly_Transactions_Report_
     THRU_09272011.pdf, accessed 9/28/2012.
                                                                                quarterly report to congress I October 25, 2012                                 93




Program Administration                                                                         Table 2.22
Although Treasury’s investment authority for CPP has ended, Treasury still has                  Missed dividend/interest
significant responsibilities for managing the existing CPP portfolio, including the             payments by QFIS,
following:                                                                                      9/30/2009 to 9/30/2012
                                                                                                ($ millions)

                                                                                                                                            Value of
•	 collecting dividends and interest payments on outstanding investments                        Quarter                  Number              Unpaid
•	 monitoring the performance of outstanding investments                                        End                       of QFIs         Amountsa,b,c
•	 disposing of warrants as investments are repaid                                              9/30/2009                         38               $75.7
•	 selling or restructuring Treasury’s investments in some troubled financial                   12/31/2009                        43               137.4
   institutions                                                                                 3/31/2010                         67               182.0
•	 selecting observers for recipients that have missed five quarterly dividend                  6/30/2010        d
                                                                                                                                109                209.7
   payments                                                                                     9/30/2010                       137                211.3
•	 potentially selecting directors for recipients that have missed six or more
                                                                                                12/31/2010                      155                276.4
   quarterly dividend payments
                                                                                                3/31/2011                       173                277.3
                                                                                                6/30/2011                       188                320.8
Dividends and Interest
As of September 30, 2012, Treasury had received $11.8 billion in dividends                      9/30/2011                       193                356.9

on its CPP investments.296 However, as of that date, missed payments by 199                     12/31/2011                      197                377.0
institutions totaled approximately $480.1 million, an increase from last quarter’s              3/31/2012                       200                416.0
$455 million in missed payments from 203 institutions, as of June 30, 2012. The                 6/30/2012                       203                455.0
number of institutions with missed payments decreased for the first time this                   9/30/2012                       199                480.1
quarter. The decrease is attributable to a number of institutions that exited CPP               Notes: Numbers may be affected due to rounding.
                                                                                                a
                                                                                                  Includes unpaid cumulative dividends, non-cumulative
via restructuring or failure. Approximately $22.8 million of the unpaid amounts                   dividends, and Subchapter S interest payments
                                                                                                  but does not include interest accrued on unpaid
are non-cumulative, meaning that the institution has no legal obligation to pay                   cumulative dividends.
Treasury unless the institution declares a dividend.297 Table 2.22 shows the number             b
                                                                                                  Excludes institutions that missed payments but (i) had
                                                                                                   fully caught up on missed payments at the end of the
of QFIs and total unpaid amount of dividend and interest payments by quarter                       quarter reported in column 1 or (ii) had repaid their
                                                                                                   investment amounts and exited CPP.
from September 30, 2009, to September 30, 2012.                                                 c
                                                                                                  Includes institutions that missed payments and
                                                                                                  (i) entered into a recapitalization or restructuring
                                                                                                  with Treasury, (ii) for which Treasury sold the CPP
Treasury’s Policy on Missed Dividend and Interest Payments                                        investment to a third party or otherwise disposed of
                                                                                                  the investment to facilitate the sale of the institution to
According to Treasury, it “evaluates its CPP investments on an ongoing basis with                 a third party without receiving full repayment of unpaid
                                                                                                  dividends, (iii) filed for bankruptcy relief, or (iv) had a
the help of outside advisors, including external asset managers. The external asset               subsidiary bank fail.
                                                                                                d
                                                                                                  Includes four QFIs and their missed payments not
managers provide a valuation for each CPP investment” that results in Treasury                    reported in Treasury’s Capital Purchase Program
                                                                                                  Missed Dividends and Interest Payments Report as of
assigning the institution a credit score.298 For those that have unfavorable credit               6/30/2010 but reported in Treasury’s Dividends and
                                                                                                  Interest Report as of the same date. The four QFIs are
scores, including any institution that has missed more than three dividend (or                    CIT, Pacific Coast National Bancorp, UCBH Holdings,
interest) payments, Treasury has stated that the “asset manager dedicates more                    Inc., and Midwest Banc Holdings, Inc.

resources to monitoring the institution and may talk to the institution on a more               Sources: Treasury, Dividends and Interest Report,
                                                                                                10/10/2012; Treasury, responses to SIGTARP
frequent basis.”299                                                                             data calls, 10/7/2009, 1/12/2010, 4/8/2010,
                                                                                                6/30/2010, 10/11/2011,1/5/2012, 4/5/2012,
    Under the terms of the preferred shares or subordinated debentures held by                  7/10/2012, and 10/10/2012; SIGTARP Quarterly
                                                                                                Report to Congress, 1/30/2010, 4/20/2010,
Treasury as a result of its CPP investments, in certain circumstances, such as when             7/21/2010, and 10/26/2010.
a participant misses six dividend (or interest) payments, Treasury has the right to ap-
point up to two additional members to the institution’s board of directors.300 Treasury
has stated that it will prioritize the institutions for which it appoints directors based
on “the size of its investment, Treasury’s assessment of the extent to which new
directors may make a contribution and Treasury’s ability to find appropriate direc-
tors for a given institution.”301 These directors will not represent Treasury, but rather
94   special inspector general I troubled asset relief program




                                            will have the same fiduciary duties to shareholders as all other directors. They will be
                                            compensated by the institution in a manner similar to other directors.302 Treasury has
                                            engaged an executive search firm to identify suitable candidates for board of directors’
                                            positions and has begun interviewing such candidates.303
                                                According to Treasury, it continues to prioritize institutions for nominating
                                            directors in part based on whether its investment exceeds $25 million.304 When
                                            Treasury’s right to nominate a new board member becomes effective, it evaluates
                                            the institution’s condition and health and the functioning of its board to determine
                                            whether additional directors are necessary.305 As of September 30, 2012, Treasury
                                            had made director appointments to the boards of directors of 13 CPP banks.306
                                                According to Treasury, on August 6, 2012, it appointed Paul O’Connor to the
                                            board of First Trust Corporation, New Orleans, Louisiana, (“First Trust”).307 First
                                            Trust received $18 million under CPP and had missed nine quarterly dividend pay-
                                            ments prior to the director appointment.308 According to Treasury, on September
                                            12, 2012, it appointed James Gegg to the boards of both Blue Valley Ban Corp,
                                            Overland Park, Kansas, (“Blue Valley”) and Citizens Bancshares Co., Chillicothe,
                                            Missouri, (“Citizens Bancshares”).309 Blue Valley received $21.8 million under
                                            CPP and had missed 14 quarterly payments prior to the director appointment.310
                                            Citizens Bancshares received $25 million under CPP and had missed 11 quarterly
                                            payments prior to the director appointment.311
                                                For institutions that miss five or more dividend (or interest) payments, Treasury
                                            has stated that it would seek consent from such institutions to send observers to
                                            the institutions’ board meetings.312 According to Treasury, the observers would be
                                            selected from the Office of Financial Stability (“OFS”) and assigned to “gain a better
                                            understanding of the institution’s condition and challenges and to observe how the
                                            board is addressing the situation.”313 Their participation would be “limited to inquir-
                                            ing about distributed materials, presentations, and actions proposed or taken during
                                            the meetings, as well as addressing any questions concerning” their role.314 The
                                            findings of the observers are taken into account when Treasury evaluates whether
                                            to appoint individuals to an institution’s board of directors.315 As of September 30,
                                            2012, Treasury had assigned observers to 54 current CPP recipients.316
                                                Twelve banks have rejected Treasury’s requests to send an observer to the
                                            institutions’ board meetings.317 The banks had initial CPP investments of as
                                            much as $27 million, have missed as many as 15 quarterly dividend payments to
                                            Treasury, and are overdue in dividend payments by as much as $3.7 million.318
                                            Two of these banks have subsequently repaid their missed dividends.319 Treasury
                                            is currently owed $13.3 million in missed payments from the other 10 banks that
                                            have missed from five to 15 payments.320 Saigon National Bank, Westminster,
                                            California, initially received $1.5 million under CPP and has missed 15 dividend
                                            payments; it currently owes $0.3 million in missed payments.321 Omega Capital
                                            Corp., Lakewood, Colorado, initially received $2.8 million under CPP and has
                                            missed 12 dividend payments; it currently owes $0.5 million in missed payments.322
                                            Rising Sun Bancorp, Rising Sun, Maryland, initially received $6 million under CPP
                                            and has missed 12 dividend payments; it currently owes $1 million in missed pay-
                                            ments.323 Central Virginia Bankshares, Inc., Powhatan, Virginia, initially received
                                                                                  quarterly report to congress I October 25, 2012   95




$11.4 million under CPP and has missed 11 dividend payments; it currently
owes $1.6 million in missed payments.324 Intermountain Community Bancorp,
Sandpoint, Idaho, initially received $27 million under CPP and has missed 11
dividend payments; it currently owes $3.7 million in missed payments.325 Alliance
Financial Services Inc., Saint Paul, Minnesota, initially received $12 million
under CPP and has missed 11 dividend payments; it currently owes $2.8 million
in missed payments.326 Commonwealth Business Bank, Los Angeles, California,
initially received $7.7 million under CPP and has missed 10 dividend payments;
it currently owes $1 million in missed payments.327 Pacific International Bancorp,
Seattle, Washington, initially received $6.5 million under CPP and has missed nine
dividend payments; it currently owes $0.7 million in missed payments.328 White
River Bancshares Company, Fayetteville, Arkansas, initially received $16.8 million
under CPP and has missed seven dividend payments; it currently owes $1.6 million
in missed payments.329 Citizens Bank & Trust Company, Covington, Louisiana,
initially received $2.4 million under CPP and has missed five dividend payments;
it currently owes $0.2 million in missed payments.330 Timberland Bancorp, Inc.,
Hoquiam, Washington, (“Timberland”) initially received $16.6 million under CPP
and has since repaid its missed dividends, but still owes accrued interest on prior
missed dividends; prior to repayment, Timberland had eight missed payments
totally $1.7 million.331 Community Bankers Trust Corporation, Glen Allen, Virginia,
(“Community Bankers”) initially received $17.7 million under CPP and has since
repaid its missed dividends; prior to repayment, Community Bankers had seven
missed payments totaling $1.5 million.332
    SIGTARP and Treasury do not use the same methodology to report unpaid
dividend and interest payments. For example, Treasury generally excludes institu-
tions from its “non-current” reporting: (i) that have completed a recapitalization,
restructuring, or exchange with Treasury (though Treasury does report such institu-
tions as non-current during the pendency of negotiations); (ii) for which Treasury
sold the CPP investment to a third party, or otherwise disposed of the investment
to facilitate the sale of the institution to a third party; (iii) that filed for bankruptcy
relief; or (iv) that had a subsidiary bank fail.333 SIGTARP generally includes such
activity in Table 2.23 under “Value of Unpaid Amounts” with the value set as of
the date of the bankruptcy, restructuring, or other event that relieves the institu-
tion of the legal obligation to continue to make dividend and interest payments. If
a completed transaction resulted in payment to Treasury for all unpaid dividends
and interest, SIGTARP does not include the institution’s obligations under unpaid
amounts. SIGTARP, unlike Treasury, does not include in its table institutions that
have “caught up” by making previously missed dividend and interest payments.334
According to Treasury, as of September 30, 2012, 131 QFIs had missed at least
six dividend (or interest) payments (up from 117 last quarter) and 12 banks had
missed five dividend (or interest) payments totaling $8.7 million.335 Table 2.23 lists
CPP recipients that had unpaid dividend (or interest) payments as of September
30, 2012. For a complete list of CPP recipients and institutions making dividend or
interest payments, see Appendix D: “Transaction Detail.”
96             special inspector general I troubled asset relief program




     Table 2.23
      CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2012
                                                                                       Observer
                                                                            Number     Assigned
                                               Dividend or                 of Missed to Board of   Value of Missed        Value of Unpaid
      Company                                  Payment type                Payments   Directors1        Payments2              Amounts2,3
      Saigon National Bank                     Non-Cumulative                    15                      $307,518                $307,518
      Anchor BanCorp Wisconsin, Inc.           Cumulative                        14                   19,479,167              19,479,167
      Blue Valley Ban Corp                     Cumulative                        14                    3,806,250               3,806,250
      Lone Star Bank                           Non-Cumulative                    14       ü               590,297                 590,297
      OneUnited Bank                           Non-Cumulative                    14       ü             2,111,025               2,111,025
      United American Bank                     Non-Cumulative                    14                     1,652,940               1,652,940
      Centrue Financial Corporation            Cumulative                        13                    5,308,550               5,308,550
      Dickinson Financial Corporation II       Cumulative                        13       ü            25,869,740              25,869,740
      First Banks, Inc.                        Cumulative                        13                   52,322,725              52,322,725
      Grand Mountain Bancshares, Inc.          Cumulative                        13       ü               538,375                 538,375
      Idaho Bancorp                            Cumulative                        13       ü             1,222,163               1,222,163
      Pacific City Financial Corporation       Cumulative                        13                     2,869,425               2,869,425
      Royal Bancshares of Pennsylvania, Inc.   Cumulative                        13                     4,941,138               4,941,138
      Georgia Primary Bank                     Non-Cumulative                    13       ü               806,600                 806,600
      Premier Service Bank                     Non-Cumulative                    13                       705,472                 705,472
      Citizens Commerce Bancshares, Inc.       Cumulative                        12                     1,030,050               1,030,050
      FC Holdings, Inc.                        Cumulative                        12       ü             3,440,340               3,440,340
      Northern States Financial Corporation    Cumulative                        12       ü             2,581,650               2,581,650
      Omega Capital Corp.                      Cumulative                        12                       460,470                 460,470
      Pathway Bancorp                          Cumulative                        12                       609,270                 609,270
      Premierwest Bancorp                      Cumulative                        12                    6,210,000               6,210,000
      Ridgestone Financial Services, Inc.      Cumulative                        12       ü             1,782,150               1,782,150
      Rising Sun Bancorp                       Cumulative                        12                       978,180                 978,180
      Rogers Bancshares, Inc.                  Cumulative                        12                    4,087,500               4,087,500
      Syringa Bancorp                          Cumulative                        12       ü             1,308,000               1,308,000
      BNCCORP, Inc.                            Cumulative                        11       ü             3,011,525               3,011,525
      Cecil Bancorp, Inc.                      Cumulative                        11       ü             1,589,500               1,589,500
      Central Virginia Bankshares, Inc.        Cumulative                        11                     1,565,438               1,565,438
      Citizens Bancshares Co. (MO)             Cumulative                        11                    3,745,500               3,745,500
      Citizens Republic Bancorp, Inc.          Cumulative                        11                   41,250,000              41,250,000
      City National Bancshares Corporation     Cumulative                        11                     1,297,863               1,297,863
      Fidelity Federal Bancorp                 Cumulative                        11                       966,787                 966,787
      First Security Group, Inc.               Cumulative                        11                    4,537,500               4,537,500
      First Southwest Bancorporation, Inc.     Cumulative                        11                       824,313                 824,313
      Intermountain Community Bancorp          Cumulative                        11                     3,712,500               3,712,500
      Intervest Bancshares Corporation         Cumulative                        11                    3,437,500               3,437,500
      Monarch Community Bancorp, Inc.          Cumulative                        11                       932,938                 932,938
      Tennessee Valley Financial Holdings,
                                               Cumulative                        11                       449,625                 449,625
      Inc.
                                                                                                                     Continued on next page
                                                                       quarterly report to congress I October 25, 2012              97




CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2012              (Continued)

                                                                    Observer
                                                         Number     Assigned
                                       Dividend or      of Missed to Board of         Value of Missed           Value of Unpaid
Company                                Payment type     Payments   Directors1              Payments2                 Amounts2,3
First Sound Bank                       Non-Cumulative         11                              $1,017,500             $1,017,500
U.S. Century Bank                      Non-Cumulative         11       ü                       7,529,170              7,529,170
Alliance Financial Services, Inc.
                                *
                                       Interest               11                               2,768,700              2,768,700
Investors Financial Corporation of
                                       Interest               11                                922,900                 922,900
Pettis County, Inc.*
Bridgeview Bancorp, Inc.               Cumulative             10                              5,177,500              5,177,500
First Community Bancshares, Inc (KS)   Cumulative             10       ü                       2,016,500              2,016,500
Madison Financial Corporation          Cumulative             10                                459,275                 459,275
Northwest Bancorporation, Inc.         Cumulative             10       ü                       1,430,625              1,430,625
Patapsco Bancorp, Inc.                 Cumulative             10                                817,500                 817,500
Plumas Bancorp                         Cumulative             10       ü                       1,493,625              1,493,625
Prairie Star Bancshares, Inc.          Cumulative             10                                381,500                 381,500
Premier Bank Holding Company           Cumulative             10       ü                       1,294,375              1,294,375
Stonebridge Financial Corp.            Cumulative             10       ü                       1,495,150              1,495,150
TCB Holding Company                    Cumulative             10       ü                       1,598,325              1,598,325
Commonwealth Business Bank             Non-Cumulative         10                               1,049,250              1,049,250
Community 1st Bank                     Non-Cumulative         10                                323,994                 323,994
Gold Canyon Bank                       Non-Cumulative         10                                211,675                 211,675
Goldwater Bank, N.A.  **
                                       Non-Cumulative         10                                419,760                 349,800
Midtown Bank & Trust Company**         Non-Cumulative         10                                782,623                 711,475
Santa Clara Valley Bank, N.A.          Non-Cumulative         10                                395,125                 395,125
First Trust Corporation*               Interest               10                              3,768,843              3,768,843
1st FS Corporation                     Cumulative              9       ü                       1,841,513              1,841,513
Bankers' Bank of the West Bancorp,
                                       Cumulative              9       ü                       1,549,868              1,205,453
Inc.
BNB Financial Services Corporation     Cumulative              9                                919,688                 919,688
Capital Commerce Bancorp, Inc.         Cumulative              9                                625,388                 625,388
Harbor Bankshares Corporation**        Cumulative              9                                935,000                 765,000
Market Bancorporation, Inc.            Cumulative              9                                252,608                 252,608
Pacific International Bancorp Inc      Cumulative              9                                731,250                 731,250
Pinnacle Bank Holding Company          Cumulative              9                                538,110                 538,110
Provident Community Bancshares, Inc.   Cumulative              9                               1,042,425              1,042,425
The Queensborough Company              Cumulative              9       ü                       1,471,500              1,471,500
Western Community Bancshares, Inc.     Cumulative              9                                894,038                 894,038
Boscobel Bancorp, Inc*                 Interest                9                               1,054,404              1,054,404
Premier Financial Corp*                Interest                9                               1,198,393              1,198,393
CalWest Bancorp                        Cumulative              8                                507,540                 507,540
CSRA Bank Corp.                        Cumulative              8                                261,600                 261,600
First Financial Service Corporation    Cumulative              8       ü                       2,000,000              2,000,000
                                                                                                           Continued on next page
98            special inspector general I troubled asset relief program




     CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2012                           (Continued)

                                                                                      Observer
                                                                           Number     Assigned
                                                  Dividend or             of Missed to Board of         Value of Missed           Value of Unpaid
     Company                                      Payment type            Payments   Directors1              Payments2                 Amounts2,3
     First United Corporation                     Cumulative                     8       ü                      $3,000,000             $3,000,000
     Florida Bank Group, Inc.                     Cumulative                     8       ü                       2,231,420              2,231,420
     Liberty Shares, Inc.                         Cumulative                     8       ü                       1,883,520              1,883,520
     Old Second Bancorp, Inc.                     Cumulative                     8       ü                       7,300,000              7,300,000
     Private Bancorporation, Inc.                 Cumulative                     8                                866,840                 866,840
     Regent Bancorp, Inc**                        Cumulative                     8                               1,224,023              1,088,020
     Spirit BankCorp, Inc.                        Cumulative                     8       ü                       3,270,000              3,270,000
     Tidelands Bancshares, Inc                    Cumulative                     8       ü                       1,444,800              1,444,800
     Marine Bank & Trust Company                  Non-Cumulative                 8                                327,000                 327,000
     Pacific Commerce Bank**                      Non-Cumulative                 8                                474,501                 419,184
     Great River Holding Company*                 Interest                       8                               1,409,520              1,409,520
     Bank of the Carolinas Corporation            Cumulative                     7       ü                       1,153,163              1,153,163
     Coastal Banking Company, Inc.                Cumulative                     7                                870,625                 870,625
     Community Financial Shares, Inc.             Cumulative                     7                                664,843                 664,843
     Eastern Virginia Bankshares, Inc.            Cumulative                     7       ü                       2,100,000              2,100,000
     Greer Bancshares Incorporated                Cumulative                     7                                953,138                 953,138
     HCSB Financial Corporation                   Cumulative                     7       ü                       1,128,313              1,128,313
     Highlands Independent Bancshares,
                                                  Cumulative                     7                                639,013                 639,013
     Inc.
     HMN Financial, Inc.                          Cumulative                     7                               2,275,000              2,275,000
     Monadnock Bancorp, Inc.                      Cumulative                     7                                174,965                 174,965
     National Bancshares, Inc.                    Cumulative                     7       ü                       2,352,298              2,352,298
     Patriot Bancshares, Inc.                     Cumulative                     7       ü                       2,483,390              2,483,390
     Princeton National Bancorp, Inc.             Cumulative                     7       ü                       2,194,763              2,194,763
     Reliance Bancshares, Inc.                    Cumulative                     7       ü                       3,815,000              3,815,000
     SouthCrest Financial Group, Inc.             Cumulative                     7       ü                       1,230,338              1,230,338
     Southern Community Financial Corp.           Cumulative                     7                               3,740,625              3,740,625
     White River Bancshares Company               Cumulative                     7                               1,602,300              1,602,300
     Security State Bank Holding-Company      *
                                                  Interest                       7       ü                       2,254,985              1,578,490
     AB&T Financial Corporation                   Cumulative                     6                                262,500                 262,500
     Atlantic Bancshares, Inc.                    Cumulative                     6                                163,230                 163,230
     BCB Holding Company, Inc.                    Cumulative                     6                                139,425                 139,425
     Carrollton Bancorp                           Cumulative                     6                                690,075                 690,075
     Central Bancorp, Inc.                        Cumulative                     6       ü                       1,839,375              1,839,375
     CoastalSouth Bancshares, Inc.                Cumulative                     6       ü                       1,265,925              1,265,925
     Community First, Inc.                        Cumulative                     6       ü                       1,455,600              1,455,600
     First Place Financial Corp.                  Cumulative                     6       ü                       5,469,525              5,469,525
     Mid-Wisconsin Financial Services, Inc.       Cumulative                     6       ü                        817,500                 817,500
     Village Bank and Trust Financial Corp.       Cumulative                     6       ü                       1,105,350              1,105,350
                                                                                                                             Continued on next page
                                                                       quarterly report to congress I October 25, 2012             99




CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2012              (Continued)

                                                                    Observer
                                                         Number     Assigned
                                       Dividend or      of Missed to Board of         Value of Missed          Value of Unpaid
Company                                Payment type     Payments   Directors1              Payments2                Amounts2,3
Bank of George                         Non-Cumulative          6                              $218,490                $218,490
Valley Community Bank                  Non-Cumulative          6                               449,625                 449,625
Community Pride Bank Corporation*      Interest                6                               535,524                 535,524
Suburban Illinois Bancorp, Inc.*       Interest                6       ü                      1,887,750              1,887,750
Allied First Bancorp, Inc.             Cumulative              5                               248,838                 248,838
Coloeast Bankshares, Inc.              Cumulative              5       ü                       681,250                 681,250
NCAL Bancorp                           Cumulative              5       ü                       681,250                 681,250
RCB Financial Corporation              Cumulative              5                               586,400                 586,400
Standard Bancshares, Inc.              Cumulative              5       ü                      4,087,500              4,087,500
Citizens Bank & Trust Company          Non-Cumulative          5                               163,500                 163,500
First Intercontinental Bank            Non-Cumulative          5                               435,875                 435,875
GulfSouth Private Bank                 Non-Cumulative          5                               494,063                 494,063
Brogan Bankshares, Inc.      *
                                       Interest                5                               251,700                 251,700
Delmar Bancorp                         Cumulative              4                               490,500                 490,500
First Reliance Bancshares, Inc.        Cumulative              4                               836,480                 836,480
Indiana Bank Corp.                     Cumulative              4                                71,540                   71,540
Porter Bancorp, Inc.                   Cumulative              4                              1,750,000              1,750,000
Maryland Financial Bank                Non-Cumulative          4                                92,650                   92,650
Northwest Commercial Bank              Non-Cumulative          4                               108,600                 108,600
Randolph Bank & Trust Company          Non-Cumulative          4                               339,440                 339,440
Alarion Financial Services, Inc.       Cumulative              3                               266,280                 266,280
Carolina Bank Holdings, Inc.     **
                                       Cumulative              3                              1,000,000                600,000
Colony Bankcorp, Inc.                  Cumulative              3                              1,050,000              1,050,000
Flagstar Bancorp, Inc.                 Cumulative              3                              9,999,638              9,999,638
SouthFirst Bancshares, Inc.            Cumulative              3                               112,815                 112,815
Worthington Financial Holdings, Inc.   Cumulative              3                               111,180                 111,180
Bank of Commerce                       Non-Cumulative          3                               122,625                 122,625
Carolina Trust Bank                    Non-Cumulative          3                               150,000                 150,000
US Metro Bank  **
                                       Non-Cumulative          3                               198,798                 116,940
BancTrust Financial Group, Inc.        Cumulative              2                              1,250,000              1,250,000
Blue Ridge Bancshares, Inc.            Cumulative              2                               327,000                 327,000
Community West Bancshares              Cumulative              2                               390,000                 390,000
Severn Bancorp, Inc.                   Cumulative              2                               584,825                 584,825
Fresno First Bank                      Non-Cumulative          2                                33,357                   33,357
Ojai Community Bank                    Non-Cumulative          2                                56,680                   56,680
OneFinancial Corporation     *
                                       Interest                2                               701,999                 701,999
Plato Holdings Inc.*                   Interest                2                               103,633                 103,633
Farmers & Merchants Bancshares,
                                       Cumulative              1                               299,750                 149,875
Inc.**
                                                                                                          Continued on next page
100            special inspector general I troubled asset relief program




      CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2012                              (Continued)

                                                                                          Observer
                                                                               Number     Assigned
                                                             Dividend or      of Missed to Board of         Value of Missed           Value of Unpaid
      Company                                                Payment type     Payments   Directors1              Payments2                 Amounts2,3
      First Alliance Bancshares, Inc.                        Cumulative              1                                $46,623                 $46,623
      The Baraboo Bancorporation, Inc.                       Cumulative              1                                282,695                 282,695
      Riverside Bancshares, Inc.*                            Interest                1                                 23,073                  23,073
      Exchanges, Sales,
      Recapitalizations, and Failed
      Banks with Missing Payments4
      Independent Bank Corporation***,9                      Cumulative             10       ü                      10,472,696              8,672,696
      Broadway Financial Corporation           ***
                                                             Cumulative              9       ü                       1,687,500              1,687,500
      Citizens Bancorp  ****
                                                             Cumulative              9                               1,275,300              1,275,300
      Gregg Bancshares, Inc.****                             Cumulative              9                                101,115                 101,115
      Central Federal Corporation      *****
                                                             Cumulative              8                                722,500                 722,500
      One Georgia Bank****                                   Non-Cumulative          8                                605,328                 605,328
      Cascade Financial Corporation         *****
                                                             Cumulative              7                               3,409,875              3,409,875
      Integra Bank Corporation****                           Cumulative              7                               7,313,775              7,313,775
      Metropolitan Bank Group, Inc.        ***
                                                             Cumulative              6       ü                       9,078,133              9,078,133
      Naples Bancorp, Inc.*****                              Cumulative              6                                327,000                 327,000
      FPB Bancorp, Inc. (FL)    ****
                                                             Cumulative              6                                435,000                 435,000
      Fort Lee Federal Savings Bank         ****
                                                             Non-Cumulative          6                                106,275                 106,275
      Central Pacific Financial Corp.***,9                   Cumulative              6                              11,812,500                      —
      FNB United Corp.   ***
                                                             Cumulative              6                               3,862,500                      —
      First Federal Bancshares of Arkansas,
                                                             Cumulative              5                               1,031,250              1,031,250
      Inc.*****
      Pacific Capital Bancorp***,9                           Cumulative              5       ü                      13,547,550                      —
      First BanCorp (PR)  ***
                                                             Cumulative              5       ü                      42,681,526                      —
      First Community Bank Corporation of
                                                             Cumulative              4                                534,250                 534,250
      America*****
      Green Bankshares, Inc.*****                            Cumulative              4                               3,613,900              3,613,900
      Community Bank of the Bay        6
                                                             Non-Cumulative          4                                 72,549                  72,549
      Santa Lucia Bancorp*****                               Cumulative              4                                200,000                 200,000
      TIB Financial Corp*****,7                              Cumulative              4                               1,850,000              1,850,000
      The Bank of Currituck*****                             Non-Cumulative          4                                219,140                 219,140
      The Connecticut Bank and Trust
                                                             Non-Cumulative          4                                246,673                 246,673
      Company*****
      CB Holding Corp.****                                   Cumulative              4                                224,240                 224,240
      Pierce County Bancorp****                              Cumulative              4                                370,600                 370,600
      Hampton Roads Bankshares, Inc.             ***,9
                                                             Cumulative              4                               4,017,350              4,017,350
      Sterling Financial Corporation (WA)            ***,9
                                                             Cumulative              4                              18,937,500             18,937,500
      Midwest Banc Holdings, Inc.5                           Cumulative              4                               4,239,200              4,239,200
      Treaty Oak Bancorp, Inc.     *****
                                                             Cumulative              3                                135,340                 135,340
      Blue River Bancshares, Inc.****                        Cumulative              3                                204,375                 204,375
                                                                                                                                 Continued on next page
                                                                                                                          quarterly report to congress I October 25, 2012                                   101




CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2012                                                                     (Continued)

                                                                                                             Observer
                                                                                                  Number     Assigned
                                                        Dividend or                              of Missed to Board of                          Value of Missed                     Value of Unpaid
Company                                                 Payment type                             Payments   Directors1                               Payments2                           Amounts2,3
Legacy Bancorp, Inc.****                                Cumulative                                            3                                           $206,175                            $206,175
Sonoma Valley Bancorp            ****
                                                        Cumulative                                            3                                             353,715                             353,715
Superior Bancorp Inc.****                               Cumulative                                            3                                          2,587,500                           2,587,500
Commerce National Bank*****                             Non-Cumulative                                        3                                             150,000                             150,000
Tennessee Commerce Bancorp,
                                                        Cumulative                                            3                                          1,125,000                           1,125,000
Inc.****
The South Financial Group, Inc.*****,7                  Cumulative                                            3                                        13,012,500                          13,012,500
FBHC Holding Company*,*****                             Interest                                              2                                             123,127                             123,127
CIT Group Inc.      ****,8
                                                        Cumulative                                            2                                        29,125,000                          29,125,000
Colonial American Bank*****                             Non-Cumulative                                        2                                              15,655                              15,655
Pacific Coast National Bancorp            ****
                                                        Cumulative                                            2                                             112,270                             112,270
Gateway Bancshares, Inc.*****                           Cumulative                                            2                                             163,500                             163,500
Cadence Financial Corporation             *****
                                                        Cumulative                                            2                                             550,000                             550,000
UCBH Holdings, Inc.****                                 Cumulative                                            1                                          3,734,213                           3,734,213
Tifton Banking Company****                              Non-Cumulative                                        1                                              51,775                              51,775
Total                                                                                                                                             $555,957,413                        $480,098,266
Notes: Numbers may not total due to rounding. Approximately $22.8 million of the $480.1 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no legal right to missed
dividends that are non-cumulative.

* Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
** Partial payments made after the due date.
*** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For an exchange of
mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
**** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For bank failures,
Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the contrary.

n
    Treasury has appointed one or more directors to the Board of Directors.

1
  F or First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from the institution to
       assign an observer to the board of directors.
2
   Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
3
   Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the Capital Purchase
  Program.
4
    Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party purchase its CPP
       investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
5
    For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing; missed payment
     amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
6
     Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed payments to zero.
7
     For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
8
      For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing; missed payment
       amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
9
       Completed exchanges:
       - The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed payments and unpaid
  amounts reflect the figures Treasury reported prior to the exchange.
  - The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby eliminating any unpaid
  amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

Sources: Treasury, Dividends and Interest Report, 10/10/2012; Treasury, responses to SIGTARP data call, 1/7/2011, 4/6/2011, 7/8/2011, 10/11/2011, 1/10/2012, 4/5/2012, 7/10/2012,
10/10/2012; SIGTARP Quarterly Report to Congress, 1/30/2010, 4/20/2010, 4/28/2011, 7/28/2011, 10/27/2011, 1/25/2012, 4/25/2012, 7/25/2012, and 10/25/2012.
102            special inspector general I troubled asset relief program




                                                      Warrant Disposition
      For more information on warrant                 As required by EESA, Treasury received warrants when it invested in troubled
      disposition, see SIGTARP’s audit report         assets from financial institutions, with an exception for certain small institutions.
      of May 10, 2010, “Assessing Treasury’s          With respect to financial institutions with publicly traded securities, these warrants
      Process to Sell Warrants Received from          gave Treasury the right, but not the obligation, to purchase a certain number of
      TARP Recipients.”                               shares of common stock at a predetermined price.336 Because the warrants rise in
                                                      value as a company’s share price rises, they permit Treasury (and the taxpayer) to
                                                      benefit from a firm’s potential recovery.337
                                                          For publicly traded institutions, the warrants received by Treasury under CPP
                                                      allowed Treasury to purchase additional shares of common stock in a number
                                                      equal to 15% of the value of the original CPP investment at a specified exercise
      Exercise Price: Preset price at which           price.338 Treasury’s warrants constitute assets with a fair market value that Treasury
      a warrant holder may purchase each              estimates using relevant market quotes, financial models, and/or third-party valu-
      share. For warrants in publicly traded          ations.339 As of September 30, 2012, Treasury had not exercised any of these war-
      institutions issued through CPP, this           rants.340 For privately held institutions, Treasury received warrants to purchase ad-
      was based on the average stock price            ditional preferred stock or debt in an amount equal to 5% of the CPP investment.
      during the 20 days before the date              Treasury exercised these warrants immediately.341 Unsold and unexercised warrants
      that Treasury granted preliminary CPP           expire 10 years from the date of the CPP investment.342
      participation approval.
                                                      Repurchase of Warrants by Financial Institutions
                                                      Upon repaying its CPP investment, a recipient may seek to negotiate with
                                                      Treasury to buy back its warrants. As of September 30, 2012, 127 publicly traded
                                                      institutions had bought back $3.8 billion worth of warrants, of which $35.6 million
                                                      was purchased this quarter. As of that same date, 130 privately held institutions,
                                                      the warrants of which had been immediately exercised, bought back the resulting
                                                      additional preferred shares for a total of $70.2 million, of which $25.1 million was
                                                      bought back this quarter.343 Table 2.24 lists publicly traded institutions that repaid
                                                      TARP and repurchased warrants in the quarter ended September 30, 2012. Table
                                                      2.25 lists privately held institutions that had done so in the same quarter.344
                                                                                                                       quarterly report to congress I October 25, 2012   103




Table 2.24
 CPP WARRANT SALES AND REPURCHASES (PUBLIC) FOR THE QUARTER ENDING 9/30/2012
                                                                                                                Number of                 Amount of
                                                                                                                 Warrants                Repurchase
 Repurchase Date            Company                                                                           Repurchased              ($Thousands)
 7/18/2012                  Taylor Capital Group                                                                   1,462,647                  $9,839.2
 7/3/2012                   Mercantile Bank Corporation                                                              616,438                    7,465.1
 8/22/2012                  Ameris Bancorp, Inc.                                                                     698,554                    2,670.0
 8/8/2012                   BBCN Bancorp, Inc.                                                                       521,266                    2,189.3
 7/18/2012                  Firstbank Corporation                                                                    578,947                    1,946.7
 9/12/2012                  Indiana Community Bancorp                                                                188,707                    1,800.0
 9/12/2012                  WSFS Financial Corporation                                                               175,105                    1,800.0
 8/1/2012                   VIST Financial Corp.                                                                     367,984                    1,189.8
 7/25/2012                  Southern First Bancshares, Inc.                                                          399,970                    1,100.0
 8/8/2012                   Pulaski Financial Corp.                                                                  778,421                    1,100.0
 9/19/2012                  BNC Bancorp                                                                              543,337                      939.9
 7/18/2012                  LNB Bancorp Inc.                                                                         561,343                      860.3
 9/19/2012                  Sterling Financial Corporation                                                             97,540                     825.0
 7/18/2012                  Pinnacle Financial Partners, Inc.                                                        267,455                      755.0
 9/5/2012                   First Citizens Banc Corp                                                                 469,321                      563.2
 8/8/2012                   Peoples Bancorp of North Carolina, Inc.                                                  357,234                      425.0
 7/18/2012                  Farmers Capital Bank Corporation                                                         223,992                        75.0
 7/18/2012                  United Bancorp, Inc.                                                                     311,492                        38.0
 9/26/2012                  Central Federal Corporation                                                                67,313                           0.0
 Total                                                                                                            8,687,068                $35,581.6
 Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly traded TARP recipients.
 Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.

 Sources: Treasury, Transactions Report, 9/28/2012; Treasury, responses to SIGTARP data call, 1/4/2011, 1/7/2011, 4/6/2011, 7/8/2011, 10/7/2011,
 10/11/2011, 1/11/2012, 4/5/2012, 7/9/2012, and 10/12/2012.
104   special inspector general I troubled asset relief program




                            Table 2.25
                             CPP WARRANT SALES AND REPURCHASES (PRIVATE) FOR THE QUARTER ENDING 9/30/2012
                                                                                                                                              Number of                 Amount of
                                                                                                                                               Warrants                Repurchase
                             Repurchase Date             Company                                                                            Repurchased              ($Thousands)
                             9/12/2012                   Alpine Banks of Colorado                                                                3,500,000                  $3,500.0
                             8/13/2012                   Exchange Bank                                                                           2,150,000                    2,150.0
                             8/9/2012                    Fidelity Financial Corporation                                                          1,814,000                    1,814.0
                             8/10/2012                   Trinity Capital Corporation                                                             1,777,000                    1,777.0
                             8/10/2012                   Marquette National Corporation                                                          1,775,000                    1,775.0
                             7/25/2012                   Fremont Bancorporationa                                                                 1,750,000                    1,750.0
                             8/10/2012                   CBS Banc-Corp                                                                           1,215,000                    1,215.0
                             8/10/2012                   Park Bancorporation, Inc                                                                1,160,000                    1,160.0
                             9/26/2012                   TriState Capital Holdings                                                               1,150,000                    1,150.0
                             8/10/2012                   First Community Financial Partners, Inc.                                                1,100,000                    1,100.0
                             8/9/2012                    Diamond Bancorp, Inc.a                                                                  1,022,000                    1,022.0
                             8/9/2012                    Commonwealth Bancshares, Inc.a                                                          1,020,000                    1,020.0
                             8/9/2012                    Market Street Bancshares, Inc.a                                                         1,015,000                    1,015.0
                             9/21/2012                   F&M Financial Corporation                                                                  862,000                      862.0
                             9/20/2012                   F & M Financial Corporation                                                                850,000                      850.0
                             7/3/2012                    United Bank Corporation         a
                                                                                                                                                    720,000                      720.0
                             8/29/2012                   First National Corporation                                                                 695,000                      695.0
                             8/9/2012                    First Western Financial, Inc.                                                              428,000                      428.0
                             8/14/2012                   Millennium Bancorp, Inc.                                                                   363,000                      363.0
                             9/12/2012                   Blackridge Financial, Inc.                                                                 250,000                      250.0
                             7/17/2012                   Heartland Bancshares, Inc.                                                                 248,000                      248.0
                             7/12/2012                   Naples Bancorp Inc.                                                                        200,000                      200.0
                             7/18/2012                   Community Bancshares of Kansas, Inc.                                                        25,000                        25.0
                             7/19/2012                   Community Holding Company of Florida, Inc.                                                    5,000                         5.0
                             Total                                                                                                            25,094,000                 $25,094.0
                             Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise of warrants issued by
                             non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date. Treasury may hold one warrant for millions of
                             underlying shares rather than millions of warrants of an individual financial institution.
                             a
                               S-Corporation Institution: issued subordinated debt instead of preferred stock.

                             Sources: Treasury, Transactions Report, 9/28/2012; Treasury, response to SIGTARP data call, 10/12/2012.
                                                                           quarterly report to congress I October 25, 2012               105




Treasury Warrant Auctions
If Treasury and the repaying QFI cannot agree upon the price for the institution            Dutch Auction: A type of auction in
to repurchase its warrants, Treasury may conduct a public or private offering to            which multiple bidders bid for different
auction the warrants.345 As of September 30, 2012, the combined proceeds from               quantities of the asset; the price the
Treasury’s public and private warrant auctions totaled $5.4 billion.346                     seller accepts is set at the lowest bid
                                                                                            of the group of high bidders whose
Public Warrant Auctions                                                                     collective bids fulfill the amount of
In November 2009, Treasury began using a modified Dutch auction to sell the                 shares offered. As an example, three
warrants publicly.347 On the announced auction date, potential investors (which             investors place bids to own a portion
may include the CPP recipient) submit bids to the auction agent that manages                of 100 shares offered by the issuer:
the sale (for CPP-related warrants, Deutsche Bank) at specified increments above
a minimum price set by Treasury.348 Once the auction agent receives all bids, it            • Bidder A wants 50 shares at
determines the final price and distributes the warrants to the winning bidders.349             $4/share.
Treasury did not conduct any public warrant auctions this quarter.350 Through               • Bidder B wants 50 shares at
September 30, 2012, Treasury had held 24 public auctions for warrants it received              $3/share.
under CPP, TIP, and AGP, raising a total of approximately $5.4 billion.351 Final            • Bidder C wants 50 shares at
closing information for all public auctions is shown in Table 2.26.                            $2/share.

                                                                                            The seller selects Bidders A and B
                                                                                            as the two highest bidders, and their
                                                                                            collective bids consume the 100
                                                                                            shares offered. The winning price is
                                                                                            $3, which is what both bidders pay
                                                                                            per share. Bidder C’s bid is not filled.
                                                                                            Treasury uses a modified version of a
                                                                                            Dutch Auction in the dispensation of
                                                                                            its warrants and in some sales of CPP
                                                                                            preferred stock.

                                                                                            Auction Agent: Firm (such as an
                                                                                            investment bank) that buys a series of
                                                                                            securities from an institution for resale.
106               special inspector general I troubled asset relief program



      TABLE 2.26
       PUBLIC TREASURY WARRANT AUCTIONS, AS OF 9/30/2012
                                                                                                               Number of             Minimum                Selling      Proceeds to Treasury
      Auction Date                   Company                                                              Warrants Offered           Bid Price               Price                ($ Millions)
                                     Bank of America A Auction (TIP)a                                           150,375,940               $7.00              $8.35                         $1,255.6
      3/3/2010
                                     Bank of America B Auction (CPP)             a
                                                                                                                121,792,790                 1.50               2.55                            310.6
      12/10/2009                     JPMorgan Chase                                                               88,401,697                8.00             10.75                             950.3
      5/20/2010                      Wells Fargo and Company                                                    110,261,688                 6.50               7.70                            849.0
      9/21/2010                      Hartford Financial Service Group, Inc.                                       52,093,973              10.50              13.70                             713.7
      4/29/2010                      PNC Financial Services Group, Inc.                                           16,885,192              15.00              19.20                             324.2
                                     Citigroup A Auction (TIP & AGP)         a
                                                                                                                255,033,142                 0.60               1.01                            257.6
      1/25/2011
                                     Citigroup B Auction (CPP)a                                                 210,084,034                 0.15               0.26                              54.6
      9/16/2010                      Lincoln National Corporation                                                 13,049,451              13.50              16.60                             216.6
      5/6/2010                       Comerica Inc.                                                                11,479,592              15.00              16.00                             183.7
      12/3/2009                      Capital One                                                                  12,657,960                7.50             11.75                             148.7
      2/8/2011                       Wintrust Financial Corporation                                                 1,643,295             13.50              15.80                               26.0
      6/2/2011                       Webster Financial Corporation                                                  3,282,276               5.50               6.30                              20.4
                                     SunTrust A Auction      b
                                                                                                                    6,008,902               2.00               2.70                              16.2
      9/22/2011
                                     SunTrust B Auctionb                                                          11,891,280                1.05               1.20                              14.2
      3/9/2010                       Washington Federal, Inc.                                                       1,707,456               5.00               5.00                              15.6
      3/10/2010                      Signature Bank                                                                    595,829            16.00              19.00                               11.3
      12/15/2009                     TCF Financial                                                                  3,199,988               1.50               3.00                               9.6
      3/11/2010                      Texas Capital Bancshares, Inc.                                                    758,086              6.50               6.50                               6.7
      2/1/2011                       Boston Private Financial Holdings, Inc.                                        2,887,500               1.40               2.20                               6.4
      5/18/2010                      Valley National Bancorp                                                        2,532,542               1.70               2.20                               5.6
      11/30/2011                     Associated Banc-Corpc                                                          3,983,308               0.50               0.90                               3.6
      6/2/2010                       First Financial Bancorp                                                           465,117              4.00               6.70                               3.1
      6/9/2010                       Sterling Bancshares Inc.                                                       2,615,557               0.85               1.15                               3.0
      Total                                                                                                 1,083,686,595                                                                 $5,406.3
      Notes: Numbers may not total due to rounding.
      a
        Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
      b
        Treasury held two auctions for SunTrust’s two CPP investments dated 11/14/2008 (B auction) and 12/31/2008 (A auction).
      c
        According to Treasury, the auction grossed $3.6 million and netted $3.4 million.

      Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed
      9/28/2012; Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 9/28/2012; Comerica
      Incorporated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 9/28/2012; Wells Fargo and Company, “Definitive
      Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 9/28/2012; First Financial Bancorp, “Prospectus Supplement,”
      6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 9/28/2012; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010,
      www.sec.gov/Archives/edgar/data/891098/000119312510136584/dfwp.htm, accessed 9/28/2012; Signature Bank, “Prospectus Supplement,” 3/10/2010, files.shareholder.com/downloads/
      SBNY/1456015611x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 9/28/2012; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
      3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 9/28/2012; Bank of America, “Form 8-K,” 3/3/2010, www.sec.gov/Archives/edgar/
      data/70858/000119312510051260/d8k.htm, accessed 9/28/2012; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/
      d424b2.htm, accessed 9/28/2012; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed
      9/28/2012; TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 9/28/2012; JPMorgan
      Chase, “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 9/28/2012; Capital One Financial, “Prospectus Supplement,”
      12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 9/28/2012; Treasury, Transactions Report, 9/28/2012; Hartford Financial Services Group,
      Prospectus Supplement to Prospectus filed with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 9/28/2012; Hartford
      Financial Agreement, 8/21/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 9/28/2012; Treasury, “Treasury Announces Pricing of Public
      Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.aspx, accessed 9/28/2012; Lincoln
      National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/d424b5.htm, accessed 9/28/2012; Lincoln
      National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 9/28/2012; Treasury, Section 105(a) Report, 1/31/2011; Treasury,
      “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 9/28/2012;
      Citigroup, Prospectus, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 9/28/2012; Citigroup, Prospectus, 1/24/2011, www.sec.
      gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 9/28/2012; Boston Private Financial Holdings, Inc., Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/
      data/821127/000119312511021392/d424b5.htm, accessed 9/28/2012; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.sec.gov/Archives/edgar/data/821127/000144530511000189/
      tarpwarrant020711.htm, accessed 9/28/2012; Wintrust Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/data/1015328/000095012311011007/c62806b5e424b5.htm,
      accessed 9/28/2012; Wintrust Financial Corporation, 8-K, 2/8/2011, www.sec.gov/Archives/edgar/data/1015328/000095012311013436/c62955e8vk.htm, accessed 9/28/2012; Treasury, Section
      105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/
      tg1033.aspx, accessed 9/28/2012; Treasury, Citigroup Preliminary Prospectus – CPP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.
      htm, accessed 9/28/2012; Citigroup, Preliminary Prospectus – TIP & AGP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed
      9/28/2012; Treasury, responses to SIGTARP data call, 4/6/2011, 7/14/2011, 10/5/2011, 10/11/2011, and 1/11/2012; Treasury Press Release, “Treasury Department Announces Public Offerings of
      Warrants to Purchase Common Stock of Suntrust Banks, Inc.,” 9/21/2011, www.treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 9/28/2012; “Treasury Department Announces
      Public Offering of Warrants to Purchase Common Stock of Associated Banc-Corp,” 11/29/2011, www.treasury.gov/press-center/press-releases/Pages/tg1372.aspx, accessed 9/28/2012.
                                                                                                                     quarterly report to congress I October 25, 2012           107




Private Warrant Auctions
In late 2011, Treasury devised a new method for selling warrants. On November                                                        Qualified Institutional Buyers (“QIB”):
17, 2011, Treasury conducted its first private auction to sell warrants of CPP                                                       Institutions that under U.S. securities
participants. In the auction, Treasury sold its warrant positions in a group of 17                                                   law are permitted to buy securities
financial institutions listed in Table 2.27 for $12.7 million.352 Treasury stated that                                               that are exempt from registration
a private auction was necessary because the warrants did not meet the listing                                                        under investor protection laws and
requirements for the major exchanges, it would be more cost-effective for these                                                      to resell those securities to other
smaller institutions, and that grouping the warrants of the 17 institutions in a                                                     QIBs. Generally these institutions own
single auction would raise investor interest in the warrants.353 The private auction                                                 and invest at least $100 million in
was a discrete, or winner-takes-all, auction. The warrants were not registered under                                                 securities, or are registered broker-
the Securities Act of 1933 (the “Act”). As a result, Treasury stated that the warrants                                               dealers that own or invest at least $10
were offered only in private transactions to “(1) ‘qualified institutional buyers’ as                                                million in securities.
defined in Rule 144A under the Act, (2) the issuer, and (3) a limited number of
‘accredited investors’ affiliated with the issuer.”354 Treasury has not conducted any                                                Accredited Investors: Individuals or
private warrant auctions since then.                                                                                                 institutions that by law are considered
                                                                                                                                     financially sophisticated enough so
Table 2.27
                                                                                                                                     that they can invest in ventures that
 PRIVATE TREASURY WARRANT AUCTIONS ON 11/17/2011                                                                                     are exempt from investor protection
                                                                 Number of                                      Proceeds to          laws. Under U.S. securities laws, these
 Company                                                    Warrants Offered                                       Treasury
                                                                                                                                     include many financial companies,
 Eagle Bancorp, Inc.                                                     385,434                                 $2,794,422
                                                                                                                                     pension plans, wealthy individuals,
 Horizon Bancorp                                                         212,188                                   1,750,551         and top executives or directors of the
 Bank of Marin Bancorp                                                   154,908                                   1,703,984         issuing companies.
 First Bancorp (of North Carolina)                                       616,308                                     924,462
 Westamerica Bancorporation                                              246,698                                     878,256
 Lakeland Financial Corp                                                 198,269                                     877,557
 F.N.B. Corporation                                                      651,042                                     690,100
 Encore Bancshares                                                       364,026                                     637,071
 LCNB Corporation                                                        217,063                                     602,557
 Western Alliance Bancorporation                                         787,107                                     415,000
 First Merchants Corporation                                             991,453                                     367,500
 1st Constitution Bancorp                                                231,782                                     326,576
 Middleburg Financial Corporation                                        104,101                                     301,001
 MidSouth Bancorp, Inc.                                                  104,384                                     206,557
 CoBiz Financial Inc.                                                    895,968                                     143,677
 First Busey Corporation                                                 573,833                                       63,677
 First Community Bancshares, Inc.                                          88,273                                      30,600
 Total                                                               6,822,837                                $12,713,548
 Source: “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/
 press-releases/Pages/tg1365.aspx, accessed 9/28/2012.
108            special inspector general I troubled asset relief program




                                                      Restructurings, Recapitalizations, Exchanges, and Sales of
                                                      CPP Investments
                                                      Certain CPP institutions continue to experience high losses and financial
                                                      difficulties, resulting in inadequate capital or liquidity. To avoid insolvency or
                                                      improve the quality of their capital, these institutions may ask Treasury to convert
                                                      its CPP preferred shares into a more junior form of equity or accept a lower
                                                      valuation, resulting in Treasury taking a discount or loss. If a CPP institution
      Undercapitalized: Condition in which a          is undercapitalized and/or in danger of becoming insolvent, it may propose to
      financial institution does not meet its         Treasury a restructuring (or recapitalization) plan to avoid failure (or to attract
      regulator’s requirements for sufficient         private capital) and to “attempt to preserve value” for Treasury’s investment.355
      capital to operate under a defined level        Treasury may also sell its investment in a troubled institution to a third party at
      of adverse conditions.                          a discount in order to facilitate that party’s acquisition of a troubled institution.
                                                      Treasury has explained to SIGTARP that although it may incur partial losses on its
      Due Diligence: Appropriate level of             investment in the course of these transactions, such an outcome may be deemed
      attention or care a reasonable person           necessary to avoid the total loss of Treasury’s investment that would occur if the
      should take before entering into an             institution failed.356
      agreement or a transaction with                     Under these circumstances, the CPP participant asks Treasury for a formal
      another party. In finance, it often refers      review of its proposal. The proposal details the institution’s recapitalization plan
      to the process of conducting an audit           and may estimate how much capital the institution plans to raise from private
      or review of the institution before             investors and whether Treasury and other preferred shareholders will convert
      initiating a transaction.                       their preferred stock to common stock. The proposal may also involve a proposed
                                                      discount on the conversion to common stock, although Treasury would not realize
                                                      any loss until it disposes of the stock.357 In other words, Treasury would not know
                                                      whether a loss will occur, or the extent of such a loss, until it sells the common
                                                      stock it receives as part of such an exchange. According to Treasury, when it
                                                      receives such a request, it asks one of the external asset managers that it has
                                                      hired to analyze the proposal and perform due diligence on the institution.358 The
                                                      external asset manager interviews the institution’s managers, gathers non-public
                                                      information, and conducts loan-loss estimates and capital structure analysis. The
                                                      manager submits its evaluation to Treasury, which then decides whether to restruc-
                                                      ture its CPP investment.359
                                                          Table 2.28 shows all realized losses and write-offs recorded by Treasury on CPP
                                                      investments through September 30, 2012. Table 2.30 shows all restructurings,
                                                      recapitalizations, exchanges, and sales of CPP investments through September 30,
                                                      2012.
                                                                                   quarterly report to congress I October 25, 2012   109




TABLE 2.28
 REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 9/30/2012                 ($ MILLIONS)

                                          TARP   Realized Loss
 Institution                        Investment     or Write-Off          Date   Description
 Realized Losses
                                                                                Sale of subordinated
 FBHC Holding Company                      $3               $2      3/9/2010
                                                                                debentures at a loss
 First Federal Bancshares of
                                           17               11      5/3/2010    Sale of preferred stock at a loss
 Arkansas, Inc.
 The Bank of Currituck                      4                2     12/3/2010 Sale of preferred stock at a loss
 Treaty Oak Bancorp, Inc.                   3                3     2/15/2011    Sale of preferred stock at a loss
                                                                                Exchange of preferred stock at
 Central Pacific Financial Corp.          135               32     2/18/2011
                                                                                a loss
 Cadence Financial Corporation             44                6      3/4/2011    Sale of preferred stock at a loss
 First Community Bank Corporation
                                           11                3     5/31/2011 Sale of preferred stock at a loss
 of America
 Cascade Financial Corporation             39               23     6/30/2011 Sale of preferred stock at a loss
 Green Bankshares, Inc.                    72                4      9/7/2011    Sale of preferred stock at a loss
 Santa Lucia Bancorp                        4                1    10/21/2011    Sale of preferred stock at a loss
 Banner Corporation/Banner Bank           124               14      4/3/2012    Sale of preferred stock at a loss 
 First Financial Holdings Inc.             65                8      4/3/2012    Sale of preferred stock at a loss 
 MainSource Financial Group, Inc.          57                4      4/3/2012    Sale of preferred stock at a loss
 Seacoast Banking Corporation of
                                           50                9      4/3/2012    Sale of preferred stock at a loss
 Florida
 Wilshire Bancorp, Inc.                    62                4      4/3/2012    Sale of preferred stock at a loss
 WSFS Financial Corporation                53                4      4/3/2012    Sale of preferred stock at a loss
 Central Pacific Financial Corp.          135               30      4/4/2012    Sale of common stock at a loss
 Ameris Bancorp                            52                4     6/19/2012 Sale of preferred stock at a loss
 Farmers Capital Corporation               30                8     6/19/2012 Sale of preferred stock at a loss
 First Capital Bancorp, Inc.               11                1     6/19/2012 Sale of preferred stock at a loss
 First Defiance Financial Corp.            37                1     6/19/2012 Sale of preferred stock at a loss
 LNB Bancorp, Inc.                         25                3     6/19/2012 Sale of preferred stock at a loss
 Taylor Capital Group, Inc.               105               11     6/19/2012 Sale of preferred stock at a loss
 United Bancorp, Inc.                      21                4     6/19/2012 Sale of preferred stock at a loss
 Fidelity Southern Corporation             48                5      7/3/2012    Sale of preferred stock at a loss
 First Citizens Banc Corp                  21                2      7/3/2012    Sale of preferred stock at a loss
 Firstbank Corporation                     33                2      7/3/2012    Sale of preferred stock at a loss
 Metrocorp Bancshares, Inc.                45                1      7/3/2012    Sale of preferred stock at a loss
 Peoples Bancorp Of North
                                           25                2      7/3/2012    Sale of preferred stock at a loss
 Carolina, Inc.
 Pulaski Financial Corp.                   33                4      7/3/2012    Sale of preferred stock at a loss
 Southern First Bancshares, Inc.           17                2      7/3/2012    Sale of preferred stock at a loss
                                                                                        Continued on next page
110   special inspector general I troubled asset relief program




                           REALIZED LOSSES AND WRITE-OFFS IN CPP, AS OF 9/30/2012                                                        ($ MILLIONS) (Continued)

                                                                                      TARP          Realized Loss
                           Institution                                          Investment            or Write-Off                       Date       Description
                           Naples Bancorp, Inc.                                              $4                       $3        7/12/2012           Sale of preferred stock at a loss
                           Commonwealth Bancshares, Inc.                                     20                         5         8/9/2012          Sale of preferred stock at a loss
                           Diamond Bancorp, Inc.                                             20                         6         8/9/2012          Sale of preferred stock at a loss
                           Fidelity Financial Corporation                                    36                         4         8/9/2012          Sale of preferred stock at a loss
                           First Western Financial, Inc.        2
                                                                                             12                         2         8/9/2012 Sale of preferred stock at a loss
                           Market Street Bancshares, Inc.                                    20                         2         8/9/2012 Sale of preferred stock at a loss
                           CBS Banc-Corp.                                                    24                         2       8/10/2012           Sale of preferred stock at a loss
                           Marquette National Corporation                                    36                       10        8/10/2012           Sale of preferred stock at a loss
                           Park Bancorporation, Inc.                                         23                         6       8/10/2012           Sale of preferred stock at a loss
                           Premier Financial Bancorp, Inc.                                     7                        2       8/10/2012           Sale of preferred stock at a loss
                           Trinity Capital Corporation                                       36                         9       8/10/2012           Sale of preferred stock at a loss
                           Exchange Bank                                                     43                         5       8/13/2012           Sale of preferred stock at a loss
                           Millennium Bancorp, Inc.                                            7                        4       8/14/2012           Sale of preferred stock at a loss
                           Sterling Financial Corporation                                  303                      188         8/20/2012           Sale of preferred stock at a loss
                           BNC Bancorp                                                       31                         2       8/29/2012           Sale of preferred stock at a loss
                           First Community Corporation                                       11                      0.2        8/29/2012           Sale of preferred stock at a loss
                           First National Corporation                                        14                         2       8/29/2012           Sale of preferred stock at a loss
                           Mackinac Financial Corporation                                    11                      0.5        8/29/2012           Sale of preferred stock at a loss
                           Yadkin Valley Financial Corporation                               13                         5       9/18/2012           Sale of preferred stock at a loss
                           Alpine Banks Of Colorado                                          70                       13        9/20/2012           Sale of preferred stock at a loss
                           F & M Financial Corporation (NC)                                  17                         1       9/20/2012           Sale of preferred stock at a loss
                           F&M Financial Corporation (TN)                                    17                         4       9/21/2012           Sale of preferred stock at a loss
                           First Community Financial
                                                                                             22                         8       9/21/2012           Sale of preferred stock at a loss
                           Partners, Inc.
                           Central Federal Corporation                                         7                        4       9/26/2012           Sale of preferred stock at a loss
                           Total CPP Realized Losses                                                             $498
                           Write-Offs
                           CIT Group Inc.                                              $2,330                  $2,330         12/10/2009 Bankruptcy
                           Pacific Coast National Bancorp                                      4                        4       2/11/2010           Bankruptcy
                           South Financial Group, Inc.         1
                                                                                           347                      217         9/30/2010           Sale of preferred stock at a loss
                           TIB Financial Corp1                                               37                       25        9/30/2010           Sale of preferred stock at a loss

                           Total CPP Write-Offs                                                               $2,576
                           Total of CPP Realized Losses
                           and Write-Offs                                                                     $3,074
                           Notes: Numbers may not total due to rounding. Losses from the second lien auction have not been realized.
                           1
                             In the time since these transactions were classified as write-offs, Treasury has changed its practices and now classifies sales of preferred stock at a loss as
                             realized losses.
                           2
                             Treasury still has an outstanding investment in this institution and it remains in TARP.

                           Sources: Treasury, Transactions Report, 9/28/2012; Treasury, response to SIGTARP data call, 10/4/2012.
                                                                               quarterly report to congress I October 25, 2012   111




Recent Exchanges and Sales
Naples Bancorp, Inc.
On March 27, 2009, Treasury invested $4 million in Naples Bancorp, Inc.,
Naples, Florida, (“Naples Bancorp”) through CPP in return for preferred stock and
warrants.360 On July 12, 2012, Treasury sold all of its preferred stock investment
back to Naples Bancorp for $600,000.361 This sale resulted in a loss to Treasury of
approximately $3.4 million.362

Community Holding Company of Florida, Inc.
On February 6, 2009, Treasury invested $1.1 million in Community Holding
Company of Florida, Inc., Miramar Beach, Florida, (“Community Holding”).363
On July 19, 2012, Community Bancshares of Mississippi, Brandon, Mississippi,
(“Community Bancshares of Mississippi”) acquired Community Holding.364
Pursuant to the terms of the transaction, Community Holding and Community
Bancshares of Mississippi entered into an agreement with Treasury, whereby
Community Bancshares of Mississippi assumed the entirety of Community
Holding’s TARP obligations. As part of the transaction, Community Bancshares of
Mississippi issued an equivalent amount of its own preferred equity to Treasury in
exchange for Treasury’s preferred stock investment in Community Holding.365

Pinnacle Bank Holding Company, Inc.
On March 6, 2009, Treasury invested $4.4 million in Pinnacle Bank Holding
Company, Inc., Orange City, Florida, (“Pinnacle”) through CPP in return for
preferred stock and warrants.366 On July 27, 2012, Treasury entered into an
agreement with Pinnacle to sell all of Treasury’s preferred stock investment back
to Pinnacle for $2.3 million plus an amount equal to 50% of the amount of the
accrued and unpaid dividends on the preferred stock as of the closing date.367 The
closing of the sale is subject to certain conditions specified in the agreement. If the
sale is finalized, it will result in the loss of $2.1 million.

Sterling Financial Corporation
On December 5, 2008, Treasury invested $303 million in Sterling Financial
Corporation, Spokane, Washington, (“Sterling Financial”).368 On August 26, 2010,
Treasury exchanged its preferred stock in Sterling Financial for a like amount of
MCPs, and this was subsequently converted to common stock.369 On August 20,
2012, Treasury sold all of its investment in Sterling Financial for $113.3 million.
This resulted in a loss to Treasury of $189.7 million.370

Central Federal Corporation
On December 5, 2008, Treasury invested $7.2 million in Central Federal
Corporation, Fairlawn, Ohio, (“Central Federal”) through CPP in return for
preferred stock and warrants.371 On September 26, 2012, Central Federal
repurchased its shares for $3 million.372 The sale resulted in a loss to Treasury of
approximately $4.2 million.
112   special inspector general I troubled asset relief program




                                             Update on Previously Announced Exchanges and Sales
                                             Millennium Bancorp, Inc.
                                             On April 3, 2009, Treasury invested $7.3 million in Millennium Bancorp, Inc.,
                                             Edwards, Colorado, (“Millennium”) through CPP in return for preferred stock
                                             and warrants.373 On April 20, 2012, Treasury entered into an agreement with CIC
                                             Bancshares, Inc. (“CIC”) to sell to CIC all of Treasury’s preferred stock investment
                                             in Millennium for $2.9 million plus accrued and unpaid dividends as of the closing
                                             date.374 Treasury completed the sale on August 14, 2012, resulting in a loss of $4.4
                                             million.375

                                             Treasury’s Sale of TARP Preferred Stock Investments at Auction
                                             Overview of CPP Preferred Stock Auctions
                                             In October 2011, SIGTARP recommended to Treasury that it develop a clear exit
                                             path for the remaining community banks in TARP. In its efforts to dispose of CPP
                                             investments, in late March of this year, Treasury held a pilot auction in which it
                                             sold its preferred shares for six banks in a modified Dutch auction.376 Since then,
                                             Treasury has held five additional sets of auctions.377 In the six auction sets, Treasury
                                             sold all of its preferred stock investments in 39 banks and some of its preferred
                                             stock in an additional bank.378 The preferred stock for all of the banks sold at a
                                             discounted price and resulted in losses to Treasury.379 In the six auction sets, the
                                             average discount on the investments was 15.3%.380 Treasury lost a total of $206.2
                                             million in the auctions.381 Ten of the banks bought back some of their shares at the
                                             discounted price.382 On October 9, 2012, SIGTARP made three recommendations
                                             regarding CPP preferred stock auctions, which are discussed in Section 4,
                                             “SIGTARP Recommendations,” of this report. Table 2.29 shows details for the
                                             auctions of preferred stock in CPP banks through September 30, 2012.
                                                                        quarterly report to congress I October 25, 2012   113




TABLE 2.29
 Investments in CPP Banks Sold at a Loss at Auction, as of 9/30/2012
                                                                                              Percentage
                                                                                                of Shares
                                                                            Discount      Repurchased by
 Institution                 Investment   Net Proceeds   Auction Loss     Percentage           Institution
 Auctions Closed on 3/28/2012
 Seacoast Banking
                            $50,000,000    $40,404,700    $9,595,300             19%
 Corporation of Florida
 First Financial Holdings
                             65,000,000     55,926,478     9,073,522             14%
 Inc.
 Banner Corporation         124,000,000    108,071,915    15,928,085             13%
 WSFS Financial
                             52,625,000     47,435,299     5,189,701             10%
 Corporation
 MainSource Financial
                             57,000,000     52,277,171     4,722,829               8%                 37%
 Group, Inc.
 Wilshire Bancorp, Inc.      62,158,000     57,766,994     4,391,006               7%                 97%
 Total Loss                                              $48,900,444
 Average Discount                                                                12%
 Auctions Closed on 6/13/2012
 Farmers Capital Bank
                            $30,000,000    $21,594,229    $8,405,771             28%
 Corporation
 United Bancorp, Inc.        20,600,000     16,750,221     3,849,780             19%
 LNB Bancorp Inc.            25,223,000     21,863,750     3,359,251             13%
 Taylor Capital Group       104,823,000     92,254,460    12,568,540             12%
 First Capital Bancorp,
                             10,958,000      9,931,327     1,026,673               9%                 50%
 Inc.
 Ameris Bancorp              52,000,000     47,665,332     4,334,668               8%
 First Defiance Financial
                             37,000,000     35,084,144     1,915,856               5%                 45%
 Corp.
 Total Loss                                              $35,460,538
 Average Discount                                                                14%
 Auctions Closed on 6/27/2012
 Pulaski Financial Corp     $32,538,000    $28,460,338    $4,077,662             13%
 Fidelity Southern
                             48,200,000     42,757,786     5,442,214             11%
 Corporation
 Southern First
                             17,299,000     15,403,722     1,895,278             11%                    6%
 Bancshares, Inc.
 First Citizens Banc Corp    23,184,000     20,689,633     2,494,367             11%
 Peoples Bancorp of
                             25,054,000     23,033,635     2,020,365               8%                 50%
 North Carolina, Inc.
 Firstbank Corporation       33,000,000     30,587,530     2,412,470               7%                 48%
 MetroCorp Bancshares,
                             45,000,000     43,490,360     1,509,640               3%                 97%
 Inc.
 Total Loss                                              $19,851,995
 Average Discount                                                                 9%
                                                                                     Continued on next page
114   special inspector general I troubled asset relief program



                   Investments in CPP Banks Sold at a Loss at Auction, as of 9/30/2012 (Continued)
                                                                                                                                                                                 Percentage
                                                                                                                                                                                   of Shares
                                                                                                                                                      Discount               Repurchased by
                   Institution                                   Investment                Net Proceeds                   Auction Loss              Percentage                    Institution
                   Auctions Closed on 7/27/20121
                   Marquette National
                                                               $35,500,000                  $25,313,186                   $10,186,814                           29%
                   Corporation
                   Park Bancorporation,
                                                                 23,200,000                   16,772,382                      6,427,618                         28%
                   Inc.
                   Diamond Bancorp, Inc.                         20,445,000                   14,780,662                      5,664,338                         28%
                   Commonwealth
                                                                 20,400,000                   15,147,000                      5,253,000                         26%
                   Bancshares, Inc.
                   Trinity Capital
                                                                 35,539,000                   26,396,503                      9,142,497                         26%
                   Corporation
                   First Western Financial,
                                                                 20,440,000                     6,138,000                   10,421,000                          63%
                   Inc.2
                   Exchange Bank                                 43,000,000                   37,259,393                      5,740,608                         13%
                   Fidelity Financial
                                                                 36,282,000                   32,013,328                      4,268,672                         12%
                   Corporation
                   Market Street
                                                                 20,300,000                   18,069,213                      2,230,787                         11%
                   Bancshares, Inc.
                   Premier Financial
                                                                 22,252,000                   19,849,222                      2,402,778                         11%                             46%
                   Bancorp, Inc.
                   CBS Banc-Corp.                                24,300,000                   21,776,396                      2,523,604                         10%
                   Total Loss                                                                                            $64,261,714
                   Average Discount                                                                                                                            23%
                   Auctions Closed on 8/23/2012
                   First National
                                                               $13,900,000                  $12,082,749                     $1,817,251                          13%
                   Corporation
                   BNC Bancorp                                   31,260,000                   28,365,685                      2,894,315                           9%
                   Mackinac Financial
                                                                 11,000,000                   10,380,905                         619,095                          6%
                   Corporation
                   First Community
                                                                 11,350,000                   10,987,794                         362,206                          3%                            33%
                   Corporation
                   Total Loss                                                                                              $5,692,867
                   Average Discount                                                                                                                              8%
                   Auctions Closed on 9/12/2012
                   First Community
                                                               $22,000,000                  $14,211,450                     $7,788,550                          35%
                   Financial Partners, Inc.
                   F&M Financial
                                                                 17,243,000                   13,443,074                      3,799,926                         22%
                   Corporation (TN)
                   Alpine Banks of
                                                                 70,000,000                   56,430,297                    13,569,703                          19%
                   Colorado
                   F & M Financial
                                                                 17,000,000                   15,988,500                      1,011,500                           6%
                   Corporation (NC)
                   Yadkin Valley Financial
                                                                 49,312,000                   43,486,820                      5,825,180                         12%
                   Corporation3
                   Total Loss                                                                                            $31,994,859
                   Average Discount                                                                                                                            19%
                   Total Auction Losses                                                                                $206,162,418
                   Average Discount                                                                                                                            15%
                   Notes: Numbers may not total due to rounding.
                   1
                     Treasury additionally sold 1,100 shares of its Series C stock in First Community Financial Partners, Inc. in this auction, but its largest investment in the bank was sold in the
                     auction that closed on 9/12/2012, and the data for the disposition of its investment is listed under the 9/12/2012 auction in this table.
                   2
                     Treasury did not sell all of its shares of First Western Financial, Inc. in this auction. The bank remains in TARP and Treasury records its remaining investment as $3,881,000.
                   3
                    This institution was auctioned separately from the other set that closed on the same date because it is a publicly traded company.

                   Sources: Treasury, Transactions Report, 9/28/2012; SNL Financial LLC data.
                                                                             quarterly report to congress I October 25, 2012   115




Recent Auctions of CPP Preferred Stock
In three sets of auctions this quarter, Treasury sold all of its TARP preferred
investment in 19 banks and some of its preferred stock in an additional bank.383
The first set of auctions closed on July 27, 2012, for 12 banks.384 Treasury sold all
of its preferred stock in 10 banks and some of its investment in two banks in this
auction set.385 Treasury sold $297.8 million of its investments in the auction set,
but netted only $233 million, resulting in a $64.3 million loss.386 Treasury was
unsuccessful in selling the bulk of its investment in First Community Financial
Partners, Inc., Joliet, Illinois, (“First Community Financial”) because it did not
receive sufficient bids above the set minimum price. Treasury did sell 1,100 shares
of its First Community Financial Series C stock, which it received in exchange for
warrants when the bank entered CPP.387 Treasury sold only approximately 67% of
its investment in First Western Financial, Inc., Denver, Colorado, (“First Western”)
because it did not receive sufficient bids above the set minimum price.388 Treasury
initially invested $20.4 million in First Western in two investments on February
6, 2009, and December 11, 2009.389 Treasury records its remaining investment in
First Western after the auction as $3.9 million.390 First Western’s shares netted $6.1
million at auction, resulting in a $10.4 million loss.391 On December 19, 2008,
Treasury invested $35.5 million in Marquette National Corporation, Chicago,
Illinois; its shares netted $25.3 million at auction, resulting in a $10.2 million
loss.392 On March 6, 2009, Treasury invested $23.2 million in Park Bancorporation,
Inc., Madison, Wisconsin; its shares netted $16.8 million at auction, resulting
in a $6.4 million loss.393 On May 22, 2009, Treasury invested $20.4 million in
Diamond Bancorp, Inc., Washington, Missouri; its shares netted $14.8 million at
auction, resulting in a $5.7 million loss.394 On May 22, 2009, Treasury invested
$20.4 million in Commonwealth Bancshares, Inc., Louisville, Kentucky; its shares
netted $15.1 million at auction, resulting in a $5.3 million loss.395 On March 27,
2009, Treasury invested $35.5 million in Trinity Capital Corporation, Los Alamos,
New Mexico; its shares netted $26.4 million at auction, resulting in a $9.1 million
loss.396 On December 19, 2008, Treasury invested $43 million in Exchange Bank,
Santa Rosa, California; its shares netted $37.3 million at auction, resulting in a
$5.7 million loss.397 On December 19, 2008, Treasury invested $36.3 million in
Fidelity Financial Corporation, Wichita, Kansas; its shares netted $32 million at
auction, resulting in a $4.3 million loss.398 On May 15, 2009, Treasury invested
$20.3 million in Market Street Bancshares, Inc., Mt. Vernon, Illinois; its shares
netted $18.1 million, resulting in a $2.2 million loss.399 On October 2, 2009,
Treasury invested $22.3 million in Premier Financial Bancorp, Inc., Huntington,
West Virginia, (“Premier Financial Bancorp”); its shares netted $19.8 million at
auction, resulting in a $2.4 million loss.400 Premier Financial Bancorp repurchased
46% of its shares that were offered at auction at a discounted price.401 On March
27, 2009, Treasury invested $24.3 million in CBS Banc-Corp., Russellville,
Alabama; its shares netted $21.8 million at auction, resulting in a $2.5 million
loss.402
     The second set of auctions closed on August 23, 2012, for four banks.403
Treasury initially invested $67.5 million in the four banks, but only netted $61.8
116   special inspector general I troubled asset relief program




                                             million, resulting in a $5.7 million loss.404 On March 13, 2009, Treasury invested
                                             $13.9 million in First National Corporation, Strasburg, Virginia; its shares netted
                                             $12.1 million, resulting in a $1.8 million loss.405 On December 5, 2008, Treasury
                                             invested $31.3 million in BNC Bancorp, Thomasville, North Carolina; its shares
                                             netted $28.4 million, resulting in a $2.9 million loss.406 On April 24, 2009, Treasury
                                             invested $11 million in Mackinac Financial Corporation, Manistique, Michigan; its
                                             shares netted $10.4 million, resulting in a $0.6 million loss.407 On November 21,
                                             2008, Treasury invested $11.4 million in First Community Corporation, Lexington,
                                             South Carolina (“First Community Corporation”); its shares netted $11 million at
                                             auction, resulting in a $0.4 million loss.408 First Community Corporation repur-
                                             chased 33% of its shares that were offered at auction at a discounted price.409
                                                  The third set of auctions closed on September 12, 2012, for five banks.410
                                             Treasury initially invested $175.6 million in the five banks, but only netted $143.6
                                             million, resulting in a $32 million loss.411 On December 11, 2009, Treasury
                                             invested $22 million in First Community Financial Partners, Inc., Joliet, Illinois;
                                             its shares netted $14.2 million at auction, resulting in a $7.8 million loss.412 On
                                             February 13, 2009, Treasury invested $17.2 million in F&M Financial Corporation,
                                             Clarksville, Tennessee; its shares netted $13.4 million, resulting in a $3.8 million
                                             loss.413 On February 6, 2009, Treasury invested $17 million in F & M Financial
                                             Corporation, Salisbury, North Carolina; its shares netted $16 million at auction,
                                             resulting in a $1 million loss.414 On March 27, 2009, Treasury invested $70 mil-
                                             lion in Alpine Banks of Colorado, Glenwood Springs, Colorado; its shares netted
                                             $56.4 million at auction, resulting in a $13.6 million loss.415 On January 16, 2009,
                                             Treasury invested $36 million, and on July 24, 2009, Treasury invested $13.3 mil-
                                             lion in Yadkin Valley Financial Corporation, Elkin, North Carolina (“Yadkin Valley”);
                                             its shares netted $43.5 million at auction, resulting in a $5.8 million loss.416
                                                  Table 2.30 shows all restructurings, recapitalizations, exchanges, and sales of
                                             CPP investments through September 30, 2012.
                                                                                quarterly report to congress I October 25, 2012                117




TABLE 2.30

 TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2012                             ($ MILLIONS)

                                    Investment       Original     Combined
 Company                                  Date   Investments    Investments                                            Investment Status
 Citigroup Inc.                     10/28/2008      $2,500.0                              Exchanged for common stock/warrants and sold
 Provident Bankshares               11/14/2008         151.5
                                                                                   Provident preferred stock exchanged for new M&T Bank
 M&T Bank Corporation               12/23/2008         600.0       1,081.5a   Corporation preferred stock; Wilmington Trust preferred stock
                                                                                                 redeemed by M&T Bank Corporation; Sold
 Wilmington Trust Corporation       12/12/2008         330.0
 Popular, Inc.                       12/5/2008         935.0                                       Exchanged for trust preferred securities
 First BanCorp                        1/6/2009         400.0                         Exchanged for mandatorily convertible preferred stock
 South Financial Group, Inc.         12/5/2008         347.0                                                                           Sold
 Sterling Financial Corporation      12/5/2008         303.0                                           Exchanged for common stock, Sold
 Whitney Holding Corporation          6/3/2011         300.0                                                                           Sold
 Pacific Capital Bancorp            11/21/2008         180.6                                                 Exchanged for common stock
 Wilmington Trust Corporation        5/13/2011         151.5                                                                           Sold
 Central Pacific Financial Corp.      1/9/2009         135.0                                                 Exchanged for common stock
 Banner Corporation                 11/21/2008         124.0                                                         Sold at loss in auction
 BBCN Bancorp, Inc.                 11/21/2008          67.0                                   Exchanged for a like amount of securities of
                                                                     122.0d
 Center Financial Corporation       12/12/2008          55.0                                                          BBCN Bancorp, Inc.

 First Merchants                     2/20/2009         116.0                   Exchanged for trust preferred securities and preferred stock
 Taylor Capital Group               11/21/2008         104.8                                                         Sold at loss in auction
 Metropolitan Bank Group Inc.        6/26/2009          71.5                                         Exchanged for new preferred stock in
                                                                      81.9b
NC Bancorp, Inc.                     6/26/2009           6.9                                                Metropolitan Bank Group, Inc.

Hampton Roads Bankshares            12/31/2008          80.3                                                 Exchanged for common stock
Green Bankshares                    12/23/2008          72.3                                                                           Sold
Independent Bank Corporation        12/12/2008          72.0                         Exchanged for mandatorily convertible preferred stock
Alpine Banks of Colorado             3/27/2009          70.0                                                         Sold at loss in auction
Superior Bancorp, Inc.c              12/5/2008          69.0                                       Exchanged for trust preferred securities
 First Financial Holdings Inc.       12/5/2008          65.0                                                         Sold at loss in auction
 Wilshire Bancorp, Inc.             12/12/2008          62.2                                                         Sold at loss in auction
 MainSource Financial Group, Inc.    1/16/2009          57.0                                                         Sold at loss in auction
 WSFS Financial Corporation          1/23/2009          52.6                                                         Sold at loss in auction
 Ameris Bancorp                     11/21/2008          52.0                                                         Sold at loss in auction
 Seacoast Banking Corporation of
                                    12/19/2008          50.0                                                         Sold at loss in auction
 Florida
 Fidelity Southern Corporation      12/19/2008          48.2                                                         Sold at loss in auction
 MetroCorp Bancshares, Inc.          1/16/2009          45.0                                                         Sold at loss in auction
 Cadence Financial Corporation        1/9/2009          44.0                                                         Sold at loss in auction
 Exchange Bank                      12/19/2008          43.0                                                         Sold at loss in auction
 Capital Bank Corporation           12/12/2008          41.3                                                                           Sold
                                                                                                                   Continued on next page
118            special inspector general I troubled asset relief program




      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2012    ($ MILLIONS) (Continued)

                                            Investment       Original        Combined
      Company                                     Date   Investments       Investments            Investment Status
      Cascade Financial Corporation          6/30/2011         $39.0                            Sold at loss in auction
      TIB Financial Corp.                    12/5/2008           37.0                                               Sold
      First Defiance Financial Corp.         12/5/2008           37.0                           Sold at loss in auction
      Fidelity Financial Corporation        12/19/2008           36.3                           Sold at loss in auction
      Marquette National Corporation        12/19/2008           35.5                           Sold at loss in auction
      Trinity Capital Corporation            3/27/2009           35.5                           Sold at loss in auction
      Firstbank Corporation                  1/30/2009           33.0                           Sold at loss in auction
      Pulaski Financial Corp                 1/16/2009           32.5                           Sold at loss in auction
      BNC Bancorp                            12/5/2008           31.3                           Sold at loss in auction
      Farmers Capital Bank Corporation        1/9/2009           30.0                           Sold at loss in auction
      LNB Bancorp Inc.                      12/12/2008           25.2                           Sold at loss in auction
      Peoples Bancorp of North Carolina,
                                            12/23/2008           25.1                           Sold at loss in auction
      Inc.
      CBS Banc-Corp                          3/27/2009           24.3                           Sold at loss in auction
      First Citizens Banc Corp               1/23/2009           23.2                           Sold at loss in auction
      Park Bancorporation, Inc.               3/6/2009           23.2                           Sold at loss in auction
      Premier Financial Bancorp, Inc.        10/2/2009           22.3                           Sold at loss in auction
      First Community Financial Partners,
                                            12/11/2009           22.0                           Sold at loss in auction
      Inc.
      United Bancorp, Inc.                   1/16/2009           20.6                           Sold at loss in auction
      Diamond Bancorp, Inc.                  5/22/2009           20.4                           Sold at loss in auction
      Commonwealth Bancshares, Inc.          5/22/2009           20.4                           Sold at loss in auction
      Market Street Bancshares, Inc.         5/15/2009           20.3                           Sold at loss in auction
      Southern First Bancshares, Inc.        2/27/2009           17.3                           Sold at loss in auction
      F&M Financial Corporation (TN)         2/13/2009           17.2                           Sold at loss in auction
      F&M Financial Corporation (NC)          2/6/2009           17.0                           Sold at loss in auction
      First Federal Bankshares of
                                              5/3/2011           16.5                                               Sold
      Arkansas, Inc.
      Broadway Financial Corporation        11/14/2008           15.0                    Exchanged for common stock
      First National Corporation             3/13/2009           13.9                           Sold at loss in auction
                                                                                               Continued on next page
                                                                                                                         quarterly report to congress I October 25, 2012                                  119




TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2012                                                                                 ($ MILLIONS) (Continued)

                                                      Investment             Original            Combined
Company                                                     Date         Investments           Investments                                                                    Investment Status
Yadkin Valley Financial Corporation                    7/24/2009                   $13.3                                                                                   Sold at loss in auction
First Community Corporation                          11/21/2008                      11.4                                                                                  Sold at loss in auction
First Capital Bancorp, Inc.                             4/3/2009                     11.0                                                                                  Sold at loss in auction
Mackinac Financial Corporation                         4/24/2009                     11.0                                                                                  Sold at loss in auction
First Community Bank Corporation
                                                     12/23/2008                      10.7                                                                                                         Sold
of America
First Western Financial, Inc.                           2/6/2009                       8.6                                                                                 Sold at loss in auction
Millennium Bancorp, Inc                                 4/3/2009                       7.3                                                                                                        Sold
Central Federal Corporation                            12/5/2008                       7.2                                                                                                        Sold
Pinnacle Bank Holding Company, Inc.                     3/6/2009                       4.4                                                                                 Sold at loss in auction
Bank of Currituck                                       2/6/2009                       4.0                                                                                                        Sold
Santa Lucia Bancorp                                  12/19/2008                        4.0                                                                                                        Sold
Naples Bancorp, Inc.                                   3/27/2009                       4.0                                                                                                        Sold
Treaty Oak Bancorp, Inc.                               1/16/2009                       3.3                                                                                                        Sold
FBHC Holding Company                                 12/29/2009                        3.0                                                                                                        Sold
Fidelity Resources Company                             6/26/2009                       3.0                                             Exchanged for preferred stock in Veritex Holding
Berkshire Bancorp                                      6/12/2009                       2.9                                       Exchanged for preferred stock in Customers Bancorp
Notes: Numbers may be affected due to rounding.
a
  M&T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid $370 million of
  Treasury’s original $600 million investment. On August 21, 2012, Treasury sold all of its remaining investment in M&T at par.
b
  The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. or $71.5 million plus the original investment amount in NC Bank Group, Inc. or
  $6.9 million plus unpaid dividends of $3.5 million.
c
  The subsidiary bank of Superior Bancorp, Inc. failed on April 15, 2011. All of Treasury’s TARP investment in Superior Bancorp is expected to be lost.
d
  The new investment amount of $122 million includes the original investment amount in BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.) of $67 million and the original investment of Center Financial
  Corporation of $55 million.

Sources: Treasury, Transactions Report, 9/28/2012; Treasury responses to SIGTARP data call, 10/11/2011, 4/5/2012, 7/5/2012, 10/4/2012; SIGTARP, October Quarterly Report,
10/26/2010; Treasury, Section 105(a) Report, 9/30/2010; Treasury Press Release, “Taxpayers Receive $10.5 Billion in Proceeds Today from Final Sale of Treasury Department Citigroup
Common Stock,” 12/10/2010; Treasury Press Release, “Treasury Announces Pricing of Citigroup Common Stock Offering,” 12/7/2010; Treasury, Section 105(a) Report, 10/10/2012; Treasury
Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 1/14/2011; Broadway Financial Corporation, 8-K, 2/17/2011, www.sec.gov/Archives/edgar/
data/1001171/000119312511039152/d8k.htm, accessed 9/28/2012; FDIC and Texas Department of Banking, In the Matter of Treaty Oak Bank, Consent Order, 2/5/2010, www.fdic.gov/
bank/individual/enforcement/2010-02-34.pdf, accessed 9/28/2012; Fort Worth Business Press, “Shareholders Approve Sale of Treaty Bank to Fort Worth Investors,” www.timesleader.com/FwBp/
news/breaking/Shareholders-approve-sale-of-Treaty-Oak-bank-to-Fort-Worth-investors.html, accessed 9/28/2012; Central Pacific Financial Corp., 8-K, 11/4/2010, www.sec.gov/Archives/edgar/
data/701347/000070134710000055/form8-k.htm, accessed 9/28/2012; Central Pacific Financial Corp., 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/
a11-6350_18k.htm, accessed 9/28/2012; Central Pacific Financial Corp., 8-K, 2/22/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed
9/28/2012; Scottrade, Central Pacific Financial Corp., 2/18/2011, http://research.scottrade.com/qnr/Public/Stocks/Snapshot?symbol=cpf, accessed 9/28/2012; Cadence Financial Corporation,
8-K, 3/4/2011, www.sec.gov/Archives/edgar/data/742054/000089882211000148/kbody.htm, accessed 9/28/2012; M&T Bank Corporation, 10-K, 2/19/2010, www.sec.gov/Archives/edgar/
data/36270/000095012310014582/l38289e10vk.htm, accessed 9/28/2012; Green Bankshares Inc., 9/8/2011, www.sec.gov/Archives/edgar/data/764402/000089882211000784/grnb-
nafhmerger8k.htm, accessed 9/28/2012; Customers Bancorp, Inc., 8-K, 9/22/2011, www.sec.gov/Archives/edgar/data/1488813/000095015911000609/form8k.htm, accessed 9/28/2012;
Santa Lucia Bancorp, 8-K, 10/6/2011, www.sec.gov/Archives/edgar/data/1355607/000114420411057585/v237144_8k.htm, accessed 9/28/2012; BBCN Bancorp, Inc., 8-K, 11/30/2011, www.
sec.gov/Archives/edgar/data/1128361/000119312511330628/d265748d8k.htm, accessed 9/28/2012; Treasury Press Release, “Treasury Department Announces $248.5 Million in Proceeds
from Pricing of Auctions of Preferred Stock and Subordinated Debt Positions of Twelve Financial Institutions,” 7/27/2012, www.treasury.gov/press-center/press-releases/Pages/tg1656.aspx,
accessed 10/5/2012.
120   special inspector general I troubled asset relief program




                                             CPP Recipients: Bankrupt or with Failed Subsidiary Banks
                                             Despite Treasury’s stated goal of limiting CPP investments to “healthy, viable
                                             institutions,” a number of CPP participants went bankrupt or had a subsidiary bank
                                             fail, as indicated in Table 2.31.417

                                             Closure of Glasgow Savings Bank
                                             On February 13, 2009, Treasury invested $825,000 in Gregg Bancshares, Inc.,
                                             Ozark, Missouri, (“Gregg Bancshares”) through CPP in return for preferred stock
                                             and warrants.418 On July 13, 2012, the Missouri Division of Finance closed the
                                             subsidiary bank of Gregg Bancshares, Glasgow Savings Bank, Glasgow, Missouri,
                                             (“Glasgow Savings Bank”), and named the Federal Deposit Insurance Corporation
                                             (“FDIC”) as receiver.419 FDIC entered into a purchase and assumption agreement
                                             with Regional Missouri Bank, Marceline, Missouri, to assume all of Glasgow
                                             Savings Bank’s deposits. FDIC estimates that the cost of Glasgow Savings Bank’s
                                             failure to the deposit insurance fund will be $0.1 million.420 All of Treasury’s
                                             investment in Gregg Bancshares is expected to be lost.421
                                                                                                                      quarterly report to congress I October 25, 2012                                    121



Table 2.31
 CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS, AS OF 9/30/2012                                                                   ($ MILLIONS)
                                                        Initial
                                                     Invested         Investment                                                                 Bankruptcy/
 Company                                              Amount                Date                                         Status                  Failure Datea                 Subsidiary Bank
                                                                                             Bankruptcy proceedings completed
                                                                                                  with no recovery of Treasury’s                                             CIT Bank, Salt Lake
 CIT Group Inc., New York, NY                       $2,330.0        12/31/2008                                                                      11/1/2009
                                                                                            investment; subsidiary bank remains                                                         City, UT
                                                                                                                          active
 UCBH Holdings Inc., San Francisco,                                                                                                                                        United Commercial
                                                         298.7      11/14/2008              In bankruptcy; subsidiary bank failed                   11/6/2009
 CA                                                                                                                                                                   Bank, San Francisco, CA
                                                                                             Bankruptcy proceedings completed
 Pacific Coast National Bancorp, San                                                                                                                                     Pacific Coast National
                                                            4.1       1/16/2009                   with no recovery of Treasury’s                  11/13/2009
 Clemente, CA                                                                                                                                                          Bank, San Clemente, CA
                                                                                              investment; subsidiary bank failed
                                                                                                                                                                       Midwest Bank and Trust
 Midwest Banc Holdings, Inc.,
                                                         89.4b        12/5/2008             In bankruptcy; subsidiary bank failed                   5/14/2010              Company, Elmwood
 Melrose Park, IL
                                                                                                                                                                                      Park, IL
 Sonoma Valley Bancorp, Sonoma,                                                                                                                                           Sonoma Valley Bank,
                                                            8.7       2/20/2009                                Subsidiary bank failed               8/20/2010
 CA                                                                                                                                                                               Sonoma, CA
                                                                                                                                                                            Pierce Commercial
 Pierce County Bancorp, Tacoma, WA                          6.8       1/23/2009                                Subsidiary bank failed               11/5/2010
                                                                                                                                                                            Bank, Tacoma, WA
 Tifton Banking Company, Tifton, GA                         3.8       4/17/2009                                                    Failed         11/12/2010                                     N/A
                                                                                                                                                                                  Legacy Bank,
 Legacy Bancorp, Inc., Milwaukee, WI                        5.5       1/30/2009                                Subsidiary bank failed               3/11/2011
                                                                                                                                                                                  Milwaukee, WI
 Superior Bancorp, Inc., Birmingham,                                                                                                                                             Superior Bank,
                                                          69.0        12/5/2008                                Subsidiary bank failed               4/15/2011
 AL                                                                                                                                                                             Birmingham, AL
 Integra Bank Corporation,                                                                                                                                             Integra Bank, Evansville,
                                                          83.6        2/27/2009                                Subsidiary bank failed               7/29/2011
 Evansville, IN                                                                                                                                                                               IN
 One Georgia Bank, Atlanta, GA                              5.5         5/8/2009                                                   Failed           7/15/2011                                    N/A
                                                                                                                                                                       First Peoples Bank, Port
 FPB Bancorp, Port Saint Lucie, FL                          5.8       12/5/2008                                Subsidiary bank failed               7/15/2011
                                                                                                                                                                                 Saint Lucie, FL
                                                                                                                                                                                Citizens Bank of
 Citizens Bancorp, Nevada City, CA                        10.4      12/23/2008                                 Subsidiary bank failed               9/23/2011                Northern California,
                                                                                                                                                                                Nevada City, CA
 CB Holding Corp., Aledo, IL                                4.1       5/29/2009                                Subsidiary bank failed             10/14/2011            Country Bank, Aledo, IL
 Tennessee Commerce Bancorp, Inc.,                                                                                                                                       Tennessee Commerce
                                                          30.0      12/19/2008                                 Subsidiary bank failed               1/27/2012
 Franklin, TN                                                                                                                                                                Bank, Franklin, TN
 Blue River Bancshares, Inc.,                                                                                                                                            SCB Bank, Shelbyville,
                                                            5.0         3/6/2009                               Subsidiary bank failed               2/10/2012
 Shelbyville, IN                                                                                                                                                                              IN
 Fort Lee Federal Savings Bank                              1.3       5/22/2009                                                    Failed           4/20/2012                                    N/A
                                                                                                                                                                        Glasgow Savings Bank,
 Gregg Bancshares, Inc.                                       .9      2/13/2009                                Subsidiary bank failed               7/13/2012
                                                                                                                                                                                 Glasgow, MO
 Total                                             $2,962.6
 Notes: Numbers may not total due to rounding.
 a
   Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
 b
   The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for
   $89,388,000 of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.

 Sources: Treasury, Transactions Report, 9/28/2012; Treasury, response to SIGTARP data call, 10/4/2012; FDIC, “Failed Bank List,” no date, www.fdic.gov/bank/individual/failed/banklist.html, accessed
 9/28/2012; FDIC, “Institution Directory,” no date, www2.fdic.gov/idasp/main.asp, accessed 9/28/2012; CIT, “CIT Board of Directors Approves Proceeding with Prepackaged Plan of Reorganization with
 Overwhelming Support of Debt holders,” 11/1/2009, news.cit.com/portal/site/cit/index.jsp?ndmViewId=news_view&newsId=20091101005053&newsLang=en, accessed 9/28/2012; Pacific Coast
 National Bancorp, 8-K, 12/17/2009, www.sec.gov/Archives/edgar/data/1302502/000092708909000240/pcnb-8k122209.htm, accessed 9/28/2012; Sonoma Valley Bancorp, 8-K, 8/20/2010,
 www.sec.gov/Archives/edgar/data/1120427/000112042710000040/form8k_receivership.htm, accessed 9/28/2012; Midwest Banc Holdings, Inc., 8-K, 8/20/2010, www.sec.gov/Archives/edgar/
 data/1051379/000095012310081020/c60029e8vk.htm, accessed 9/28/2012; UCBH Holdings, Inc., 8-K, 11/6/2009, www.sec.gov/Archives/edgar/data/1061580/000095012309062531/
 f54084e8vk.htm, accessed 9/28/2012; FDIC Press Release, “Heritage Bank, Olympia, Washington, Assumes All of the Deposits of Pierce Commercial Bank, Tacoma, Washington,” 11/5/2010, www. fdic.
 gov/news/news/press/2010/pr10244.html, accessed 9/28/2012; FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All of the Deposits of Two Georgia Institutions,” 11/12/2010, www.
 fdic.gov/news/news/press/2010/pr10249.html, accessed 9/28/2012; Federal Reserve Board Press Release, 5/10/2010, www.federalreserve.gov/newsevents/press/enforcement/20100510b.htm,
 accessed 9/28/2012; Board of Governors of the Federal Reserve System, Written Agreement by and among Legacy Bancorp, Inc., Legacy Bank, Federal Reserve Bank of Chicago, and State of Wisconsin
 Department of Financial Institutions, Madison, Wisconsin, www.federalreserve.gov/newsevents/press/enforcement/enf20100505b1.pdf, accessed 9/28/2012; FDIC Press Release, “Seaway Bank and
 Trust Company, Chicago, Illinois Assumes All of the Deposits of Legacy Bank, Milwaukee, Wisconsin,” 3/11/2011, www.fdic.gov/news/news/press/2011/pr11055.html, accessed 9/28/2012; FDIC Press
 Release, “Superior Bank, N.A., Birmingham, Alabama, Assumes All of the Deposits of Superior Bank, Birmingham, Alabama,” 4/15/2011, www.fdic.gov/news/news/press/2011/pr11073.html, accessed
 9/28/2012; FDIC Press Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits of Integra Bank, National Association, Evansville, Indiana,” 7/29/2011, www.fdic.gov/news/news/
 press/2011/pr11128.html, accessed 9/28/2012; FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All the Deposits of Two Georgia Institutions,” 7/15/2011, www.fdic.gov/news/news/
 press/2011/pr11120.html, accessed 9/28/2012; FDIC Press Release, “Premier American Bank, National Association, Miami, Florida, Assumes All of the Deposits of First Peoples Bank, Port Saint Lucie,
 Florida,” 7/15/2011, www.fdic.gov/news/news/press/2011/pr11121.html, accessed 9/28/2012; FDIC Press Release, “Tri Counties Bank, Chico, California, Assumes All of the Deposits of Citizens
 Bank of Northern California, Nevada City, California,” 9/23/2011, www.fdic.gov/news/news/press/2011/pr11154.html, accessed 9/28/2012; FDIC Press Release, “Tri Counties Bank, Chico, California,
 Assumes All of the Deposits of Citizens Bank of Northern California, Nevada City, California,” 9/23/2011, www.fdic.gov/news/news/press/2011/pr11154.html, accessed 9/28/2012; FDIC, In the Matter
 of First Peoples Bank, Docket No. FDIC-09-717b, Consent Order, 3/18/2010, www.fdic.gov/bank/individual/enforcement/2010-03-09.pdf, accessed 9/28/2012; FDIC, In the Matter of Citizens Bank
 of Northern California, Nevada City, California, Order No. FDIC-11-358PCAS, Supervisory Prompt Corrective Action Directive, 6/28/2011, www.fdic.gov/bank/individual/enforcement/2011-06-029.pdf,
 accessed 9/28/2012; “Blackhawk Bank & Trust, Milan, Illinois, Assumes All of the Deposits of Country Bank, Aledo, Illinois,” 10/14/2011, www.fdic.gov/news/news/press/2011/pr11167.html, accessed
 9/28/2012; FDIC Press Release, “Republic Bank & Trust Company, Assumes all of the Deposits of Tennessee Commerce Bank, Franklin, Tennessee,” 1/27/2012, www.fdic.gov/news/news/press/2012/
 pr12011.html, accessed 9/28/2012; FDIC Press Release,“First Merchants Bank, National Association, Muncie, Indiana, Assumes All of the Deposits of SCB Bank, Shelbyville, Indiana,” 2/10/2012, www.
 fdic.gov/news/news/press/2012/pr12018.html, accessed 9/28/2012; FDIC Press Release, “Alma Bank, Astoria, New York, Assumes All of the Deposits of Fort Lee Federal Savings Bank, FSB, Fort Lee,
 New Jersey,” www.fdic.gov/news/news/press/2012/pr12043.html, accessed 9/28/2012; FDIC Press Release, “Regional Missouri Bank, Marceline, Missouri, Assumes All of the Deposits of Glasgow
 Savings Bank, Glasgow, Missouri,” 7/13/2012, www.fdic.gov/news/news/press/2012/pr12081.html, accessed 10/4/2012.
122            special inspector general I troubled asset relief program




                                                      Community Development Capital Initiative
                                                      The Administration announced the Community Development Capital Initiative
                                                      (“CDCI”) on October 21, 2009. According to Treasury, it was intended to help
      Community Development Financial                 small businesses obtain credit.422 Under CDCI, TARP made $570.1 million in
      Institutions (“CDFIs”): Financial               investments in the preferred stock or subordinated debt of 84 eligible banks, bank
      institutions eligible for Treasury funding      holding companies, thrifts, and credit unions certified as Community Development
      to serve urban and rural low-income             Financial Institutions (“CDFIs”) by Treasury. According to Treasury, these lower-
      communities through the CDFI Fund.              cost capital investments were intended to strengthen the capital base of CDFIs
      CDFIs were created in 1994 by the               and enable them to make more loans in low and moderate-income communities.423
      Riegle Community Development and                CDCI was open to certified, qualifying CDFIs or financial institutions that applied
      Regulatory Improvement Act. These               for CDFI status by April 30, 2010.424
      entities must be certified by Treasury;             According to Treasury, CPP-participating CDFIs that were in good standing
      certification confirms that they target         could exchange their CPP investments for CDCI investments.425 CDCI closed to
      at least 60% of their lending and other         new investments on September 30, 2010.426
      economic development activities                     As of September 30, 2012, 81 institutions remain in CDCI. Two institutions
      to areas underserved by traditional             repaid the Government, including one that repaid this quarter, and one institution
      financial institutions.                         previously had its subsidiary bank fail.427

      Risk-Weighted Assets: Risk-based                Terms for Senior Securities and Dividends
      measure of total assets held by                 An eligible bank, bank holding company, or thrift could apply to receive capital in
      a financial institution. Assets are             an amount up to 5% of its risk-weighted assets. A credit union (which is a member-
      assigned broad risk categories. The             owned, nonprofit financial institution with a capital and governance structure
      amount in each risk category is then            different from that of for-profit banks) could apply for Government funding of
      multiplied by a risk factor associated          up to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted
      with that category. The sum of the              assets for banks.428 Participating credit unions and Subchapter S corporations
      resulting weighted values from each of          (“S corporations”) issued subordinated debt to Treasury in lieu of the preferred
      the risk categories is the bank’s total         stock issued by other CDFI participants.429 Many CDFI investments have an
      risk-weighted assets.                           initial dividend rate of 2%, which increases to 9% after eight years. Participating
                                                      S corporations pay an initial rate of 3.1%, which increases to 13.8% after eight
      Subchapter S Corporations (“S                   years.430 A CDFI participating in CPP had the opportunity to request to convert
      corporations”): Corporate form that             those shares into CDCI shares, thereby reducing the annual dividend rate it pays
      passes corporate income, losses,                the Government from 5% to as low as 2%.431 According to Treasury, CDFIs were
      deductions, and credit through to               not required to issue warrants because of the de minimis exception in EESA, which
      shareholders for Federal tax purposes.          grants Treasury the authority to waive the warrant requirement for qualifying
      Shareholders of S corporations report           institutions in which Treasury invested $100 million or less.
      the flow-through of income and losses               If during the application process a CDFI’s primary regulator deemed it to be un-
      on their personal tax returns and are           dercapitalized or to have “quality of capital issues,” the CDFI had the opportunity
      taxed at their individual income tax            to raise private capital to achieve adequate capital levels. Treasury would match the
      rates.                                          private capital raised on a dollar-for-dollar basis, up to a total of 5% of the financial
                                                      institution’s risk-weighted assets. In such cases, private investors had to agree to
                                                      assume any losses before Treasury.432
                                                                           quarterly report to congress I October 25, 2012   123




CDCI Investment Update
Treasury invested $570.1 million in 84 institutions under the program — 36 banks
or bank holding companies and 48 credit unions.433 Of the 36 investments in banks
and bank holding companies, 28 were conversions from CPP (representing $363.3
million of the total $570.1 million); the remaining eight were not CPP participants.
Treasury provided an additional $100.7 million in CDCI funds to 10 of the banks
converting CPP investments. Only $106 million of the total CDCI funds went to
institutions that were not in CPP. As of September 30, 2012, Treasury had received
approximately $22 million in dividends and interest from CDCI recipients.434 Only
two CDCI participants had repaid TARP as of September 30, 2012, including one
that repaid in this quarter. On September 26, 2012, Atlantic City Federal Credit
Union, Lander, Wyoming repurchased its shares at par for $2.5 million.435 As of
September 30, 2012, five institutions (Community Bank of the Bay, First American
International Corporation, First Vernon Bancshares, Inc., Neighborhood Trust
Federal Credit Union, and PGB Holdings, Inc.) had unpaid dividend or interest
payments to Treasury totaling $840,290.436 A list of all CDCI investments is
included in Appendix D: “Transaction Detail.”
124            special inspector general I troubled asset relief program




                                                      Systemically Significant Failing Institutions Program
                                                      According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
                                                      program was established to “provide stability and prevent disruptions to financial
                                                      markets from the failure of a systemically significant institution.”437 Through
                                                      SSFI, between November 2008 and April 2009, Treasury invested $67.8 billion
                                                      in TARP funds in American International Group, Inc. (“AIG”), the program’s sole
                                                      participant.438 In addition to the TARP funds, AIG also received funding from the
                                                      Federal Reserve Bank of New York (“FRBNY”). As reflected on Treasury’s TARP
                                                      books and records, taxpayers have recouped $49.3 billion of the $67.8 billion and
                                                      realized losses from an accounting standpoint of $11.8 billion on Treasury’s sale
                                                      of AIG stock, leaving $6.7 billion outstanding.439 However, due to the January
      For more information on AIG and how             2011 restructuring of the FRBNY and Treasury investments, Treasury held AIG
      the company has changed under TARP,             common stock from the TARP and FRBNY assistance, and according to Treasury,
      see SIGTARP’s July 2012 Quarterly               the Government overall has made a gain thus far on the stock sales.440 In return for
      Report, pages 151-167.                          the Government’s investment, Treasury holds 16% of AIG’s common stock (234.2
                                                      million shares).441
                                                          The Government’s rescue of AIG involved several different funding facilities
                                                      provided by FRBNY and Treasury, with various changes to the transactions over
                                                      time. The rescue of AIG was initially led by FRBNY and the Board of Governors of
                                                      the Federal Reserve System (“Federal Reserve”). Prior to Treasury’s investment in
      Revolving Credit Facility: Line of              AIG, FRBNY extended an $85 billion revolving credit facility to AIG in September
      credit for which borrowers pay a                2008. With the passage of EESA on October 3, 2008, Treasury, through SSFI, took
      commitment fee, allowing them to                on a greater role in AIG’s bailout as the Government expanded and later restruc-
      repeatedly draw down funds up to a              tured its aid.
      guaranteed maximum amount. The                      The amount and types of Treasury’s outstanding AIG investments have changed
      amount of available credit decreases            over time as a result of the execution of AIG’s January 2011 Recapitalization Plan
      and increases as funds are borrowed             (discussed in greater detail in this section, which resulted in the termination of
      and then repaid.                                FRBNY’s revolving credit facility, the transfer of FRBNY’s preferred SPV interests
                                                      to Treasury, and the conversion of preferred shares into common stock), preferred
      Credit Default Swap (“CDS”): A contract         equity interest repayments, and Treasury’s sale of common stock. These various in-
      where the seller receives payments              vestments, as well as their stages and restructurings, are described below. Treasury’s
      from the buyer in return for agreeing to        preferred equity interests have been fully retired.442
      pay the buyer when a particular credit
      event occurs, such as when the credit           FRBNY Revolving Credit Facility
      rating on a bond is downgraded or a             In September 2008, FRBNY extended an $85 billion revolving credit facility to
      loan goes into default. The buyer does          AIG, which was secured by AIG’s assets, in an effort to stabilize the company. In
      not need to own the asset covered by            return, AIG committed 79.8% of its voting equity to a trust for the sole benefit of
      the contract, meaning the swap can              the United States Treasury (the “AIG Trust”).443 While the $85 billion revolving
      serve essentially as a bet against the          credit facility was necessary to address the company’s severe liquidity shortage
      underlying bond or loan.                        resulting from collateral calls related to the company’s credit default swap (“CDS”)
                                                      business and securities lending activities, because the entire facility was drawn
                                                      upon, AIG’s leverage ratios increased significantly. The rapid deterioration in
                                                      AIG’s CDS and securities lending businesses, combined with this increased
                                                      leverage, put downward pressure on its credit rating.444 Federal officials feared
                                                      that future downgrades in AIG’s credit rating could have “catastrophic” effects on
                                                                            quarterly report to congress I October 25, 2012             125




the company, forcing it into bankruptcy.445 FRBNY and Treasury determined that
this possibility posed a threat to the nation’s financial system and decided that
additional transactions were necessary to modify the revolving credit facility.446

Restructurings of AIG Assistance
In November 2008 and March 2009, FRBNY and Treasury took several actions to
stabilize AIG’s operations.447

Initial TARP Investment                                                                      Cumulative Preferred Stock: Stock
First, on November 25, 2008, Treasury purchased $40 billion in AIG preferred                 requiring a defined dividend payment. If
shares under TARP, the proceeds of which went directly to FRBNY to pay down                  the company does not pay the dividend
a portion of the outstanding balance of the existing revolving credit facility. In           on schedule, it still owes the missed
return, Treasury received AIG Series D cumulative preferred stock and warrants to            dividend to the stock’s owner.
purchase AIG common stock.448 After that payment, the total amount available to
AIG under FRBNY’s revolving credit facility was reduced from $85 billion to $60              Special Purpose Vehicle (“SPV”):
billion.                                                                                     A legal entity, often off-balance-
                                                                                             sheet, that holds transferred assets
Creation of Maiden Lane II & III                                                             presumptively beyond the reach of the
Second, also in November 2008, FRBNY created Maiden Lane II, a special                       entities providing the assets, and that
purpose vehicle (“SPV”), to take significant mortgage-backed securities off AIG’s            is legally isolated from its sponsor or
books. FRBNY lent $19.5 billion to Maiden Lane II to fund the purchase of                    parent company.
residential mortgage-backed securities (“RMBS”) associated with AIG’s securities
lending program. This RMBS was in the securities-lending portfolios of several of            Collateralized Debt Obligation (“CDO”):
AIG’s U.S.-regulated insurance subsidiaries.                                                 A security that entitles the purchaser
    Finally, also in November 2008, FRBNY created Maiden Lane III, another SPV,              to some part of the cash flows from a
to which FRBNY lent $24.3 billion to buy from AIG’s counterparties some of the               portfolio of assets such as mortgage-
collateralized debt obligations (“CDOs”) underlying the CDS contracts written by             backed securities, bonds, loans, or
AIG.                                                                                         other CDOs.

Second TARP Investment                                                                       Non-Cumulative Preferred Stock:
On March 2, 2009, Treasury and FRBNY announced a restructuring of                            Preferred stock with a defined
Government assistance to AIG that, according to Treasury, was designed to                    dividend, without the obligation to pay
strengthen the company’s capital position.449 These measures included the                    missed dividends.
conversion of Treasury’s first TARP investment and Treasury’s commitment to fund
a second TARP investment in AIG.                                                             Equity Capital Facility: Commitment
    On April 17, 2009, AIG and Treasury signed a securities exchange agreement               to invest equity capital in a firm
under which Treasury exchanged the Series D cumulative preferred stock, which                under certain future conditions. An
required AIG to make quarterly dividend and interest payments, for $41.6 bil-                equity facility when drawn down is
lion (including $1.6 billion in missed dividend payments) of less valuable Series E          an investment that increases the
non-cumulative preferred stock, which required AIG to make dividend and inter-               provider’s ownership stake in the
est payments only if AIG’s board of directors declared a dividend. Additionally, on          company. The investor may be able to
April 17, 2009, Treasury committed to fund an equity capital facility under which            recover the amount invested by selling
AIG could draw down up to $29.8 billion in exchange for Series F non-cumulative              its ownership stake to other investors
preferred stock (that had similar terms to the Series E) and additional warrants, of         at a later date.
which AIG drew down $27.8 billion.450
126            special inspector general I troubled asset relief program




                                                      Creation of Additional Special Purpose Vehicles and Sale of Assets Under SPVs
                                                      The March 2009 restructuring measures also included an authorization for FRBNY
                                                      to acquire up to $26 billion of preferred equity interests in two SPVs, AIA Aurora
                                                      LLC (“AIA SPV”) and ALICO Holdings LLC (“ALICO SPV”). The creation of the
                                                      SPVs also facilitated the independence of these two subsidiaries in anticipation of a
                                                      sale or initial public offering (“IPO”).451 Treasury received payments for its interest
                                                      in the SPVs and no longer holds an investment in the two SPVs.
                                                          Under the transaction’s original terms, with limited exceptions, all proceeds
                                                      from the voluntary sale, public offering, or other liquidation of the assets or busi-
                                                      nesses held by the SPVs had to be used first to fully redeem FRBNY’s interests in
                                                      the SPVs and then to reduce the outstanding principal balance of AIG’s revolving
                                                      credit facility. On December 1, 2009, FRBNY received $16 billion in preferred
                                                      equity interests in the AIA SPV and $9 billion in the ALICO SPV.452 AIG later com-
                                                      pleted an IPO of 8.1 billion shares of AIA Group Limited and a sale of 1.72 billion
                                                      shares of AIA and applied the $26.5 billion in total proceeds to amounts owed to
                                                      FRBNY and Treasury.453
                                                          On November 1, 2010, AIG sold ALICO to MetLife, Inc., for $16.2 billion,
                                                      $7.2 billion of which was paid in cash and $9 billion in equity interests in MetLife.
                                                      These equity interests were initially held in the ALICO SPV and were sold on
      For a more detailed description of the          March 8, 2011, for $9.6 billion.454
      disposition of Treasury’s interest in
      the SPVs, see SIGTARP’s April 2012              TARP Dividend Payments
      Quarterly Report, pages 112-113.                When AIG failed to pay dividends for four consecutive quarters on the Series E
                                                      preferred stock, this gave Treasury the right to appoint to AIG’s board the greater
                                                      of either two directors or a number (rounded upward) of directors equal to 20% of
                                                      all AIG directors.455 On April 1, 2010, Treasury appointed Donald H. Layton and
                                                      Ronald A. Rittenmeyer as directors of AIG.456 On May 10, 2012, AIG announced
                                                      that, due to his appointment as chief executive officer of the Federal Home Loan
                                                      Mortgage Corporation (“Freddie Mac”), Layton had submitted his resignation as an
                                                      AIG director.457

                                                      AIG Recapitalization Plan
                                                      On January 14, 2011, AIG executed its Recapitalization Plan with the Government,
                                                      which resulted in extinguishing FRBNY’s revolving credit facility, retiring FRBNY’s
                                                      remaining interests in the SPVs and transferring those interests to Treasury, and
      For a more detailed description of              increasing Treasury’s TARP investment in AIG. AIG repaid $20.7 billion owed
      the AIG Recapitalization Plan, see              to FRBNY’s revolving credit facility with proceeds from the AIA IPO and ALICO
      SIGTARP’s January 2011 Quarterly                sale. AIG drew down $20.3 billion in TARP funds under a Series F equity capital
      Report, pages 135-139.                          facility to purchase certain of FRBNY’s interests in the ALICO SPV and AIA SPV
                                                      and transferred those interests to Treasury. AIG exchanged all prior outstanding
                                                      preferred shares held by the Government and issued new common stock to
                                                      Treasury representing a 92.1% interest in AIG. Treasury also created a new $2
                                                      billion Series G equity capital facility, which was never drawn down.458
                                                                              quarterly report to congress I October 25, 2012   127




    For the period November 25, 2008, to January 14, 2011, AIG had failed to pay
a total of $7.9 billion in dividend payments.459 After the Recapitalization Plan was
executed, AIG no longer had an obligation to pay dividends.

Treasury’s Equity Ownership Interest in AIG
As part of the Recapitalization Plan, AIG extinguished all prior outstanding
preferred shares held by the Government, comprising $41.6 billion of Series E
preferred shares and $7.5 billion drawn from the Series F equity capital facility.
In exchange, it issued 1.655 billion shares of common stock (which included 563
million Series C shares held by the AIG Trust for the benefit of the U.S. Treasury),
representing 92.1% of the common stock of AIG.460 The AIG Trust was then
terminated. AIG issued 10-year warrants to its existing non-Government common
shareholders to purchase up to a cumulative total of 75 million shares of common
stock at a strike price of $45 per share.461
    On May 27, 2011, Treasury sold 200 million shares of AIG common stock for
$29.00 per share.462 The total proceeds to Treasury from the sale were $5.8 billion.
In addition, the undrawn Series G equity capital facility was terminated and AIG
cancelled all Series G preferred stock.463 On March 8, 2012, Treasury sold approxi-
mately 206.9 million shares of AIG common stock for $29.00 per share.464 The
total proceeds to Treasury from the sale were $6 billion. On May 6, 2012, Treasury
sold approximately 188.5 million shares of AIG’s common stock for $30.50 per
share, for $5.8 billion in proceeds (including 24.6 million shares sold pursuant
to the exercise in full of the underwriters’ over-allotment option).465 On August 3,
2012, Treasury sold approximately 188.5 million shares of AIG’s common stock for
$30.50 per share, for $5.8 billion in proceeds (including approximately 24.6 million
shares sold pursuant to the exercise in full of the underwriters’ over-allotment op-
tion).466 On September 10, 2012, Treasury sold approximately 636.9 million shares
of AIG’s common stock for $32.50 per share, for approximately $20.7 billion in
proceeds (including approximately 83.1 million shares sold pursuant to the exer-
cise in full of the underwriters’ over-allotment option).467 As reflected on Treasury’s
TARP books and records, taxpayers have recouped $49.3 billion of the $67.8 billion
in TARP funds invested in AIG and realized losses from an accounting standpoint
of $11.8 billion on Treasury’s sale of AIG stock, leaving $6.7 billion outstanding.468
However, due to the January 2011 restructuring of the FRBNY and Treasury invest-
ments, Treasury held AIG common stock from the TARP and FRBNY assistance,
and according to Treasury, the Government overall has made a gain thus far on the
stock sales.469 In return for the Government’s investment, Treasury holds 16% of
AIG’s common stock (234.2 million shares).470
    Table 2.32 provides details of Treasury’s sales of AIG common stock and AIG’s
buybacks of its stock.
128            special inspector general I troubled asset relief program




                                            Table 2.32
                                                                                                                                                                     AIG’S OWN
                                             TREASURY SALES OF AIG COMMON SHARES
                                                                                                                                                                     BUYBACKS
                                                                  # Shares            Share          Proceeds                Remaining             UST          # Shares           Amount
                                             Date*                (Millions)          Price          (Millions)                 Shares        Equity %          (Millions)        (Millions)
                                             5/24/2011                 200.0         $29.00             $5,800         1,455,037,962                77%                  —                 —
                                             3/8/2012                  206.9         $29.00             $6,000         1,248,141,410                70%             103.4            $3,000
                                             5/6 and
                                                                       188.5         $30.50             $5,750         1,059,616,821                61%               65.6           $2,000
                                             5/7/2012
                                             8/3 and
                                                                       188.5         $30.50             $5,750            871,092,231               53%               98.4           $3,000
                                             8/6/2012
                                             9/10 and
                                                                       636.9         $32.50           $20,700             234,169,156               16%             153.8            $5,000
                                             9/11/2012
                                             Notes: Numbers may be affected by rounding.

                                             *Sales with two dates means that an overallotment was also sold and is included in data.

                                             Sources: Treasury, Transactions Report, 9/28/2012; AIG, Press Release, “AIG Announces U.S. Department of the Treasury Pricing of Offering to Sell
                                             Shares of AIG Common Stock,” 3/8/2012, www.aigcorporate.com/newsroom/default.html, accessed 10/5/2012; AIG, Press Release, “AIG Announces
                                             the U.S. Department of Treasury Completes Offering of AIG Common Stock,” 5/10/2012, www.aigcorporate.com/newsroom/default.html, accessed
                                             10/5/2012; AIG, Press Release, “AIG Announces Completion of the U.S. Department of the Treasury Offering of AIG Common Stock,” 8/8/2012, www.
                                             aigcorporate.com/newsroom/default.html, accessed 10/5/2012; AIG, Press Release, “AIG Announces U.S. Department of the Treasury Pricing of
                                             Offering to Sell AIG Common Stock,” 9/10/2012, www.aigcorporate.com/newsroom/default.html, accessed 10/5/2012.


                                                                  Under an agreement with Treasury, because Treasury’s ownership of AIG’s vot-
                                                              ing securities has fallen below 33%, AIG no longer must obtain Treasury’s consent
                                                              to the terms, conditions, and pricing of any equity offering. AIG is required to pay
                                                              Treasury’s expenses for the registration of shares and underwriting fees, up to 1% of
                                                              the amount offered by Treasury.471

                                                              FRBNY’s Sales of Maiden Lane II Securities
                                                              On February 28, 2012, FRBNY completed the final sale of securities in the Maiden
      CUSIP number (“CUSIP”): Unique                          Lane II portfolio.472 FRBNY completed 12 sales of a total of 773 CUSIP numbers
      identifying number assigned to all                      (“CUSIPs”) from the Maiden Lane II portfolio, with a face amount totaling $29
      registered securities in the United                     billion.473
      States and Canada; the name                                  According to FRBNY, its management of the Maiden Lane II portfolio resulted
      originated with the Committee on                        in full repayment of the $19.5 billion loan extended by FRBNY to Maiden Lane II
      Uniform Securities Identification                       and generated a net gain for the benefit of the public of approximately $2.8 billion,
      Procedures.                                             including $580 million in accrued interest on the loan.474 After the FRBNY loan
                                                              was repaid in full with interest, AIG was entitled to one-sixth of profits from sales
                                                              of the remaining Maiden Lane II securities, and it received about $453 million.475
                                                              Bidders that purchased the most securities in Maiden Lane II auctions, in terms of
                                                              total cash proceeds, were Credit Suisse Securities (USA), which spent $7.2 billion,
                                                              followed by Goldman Sachs & Co., which purchased $3.9 billion, according to
                                                              FRBNY auction data.
                                                                   Table 2.33 details the sales of securities in the Maiden Lane II portfolio.
                                                                                                                              quarterly report to congress I October 25, 2012   129




Table 2.33
 FRBNY Maiden LANE II Securities Sales
                                                                              Number of                  Current Face Amount
 Trade Date                                                                   Bonds Sold                       of Bonds Solda
 4/6/2011                                                                                  42                     $1,326,856,873
 4/13/2011                                                                                 37                          626,080,072
 4/14/2011                                                                                   8                         534,127,946
 4/28/2011                                                                                   8                      1,122,794,209
 5/4/2011                                                                                  38                       1,773,371,055
 5/10/2011                                                                                 74                          427,486,898
 5/12/2011                                                                                 34                       1,373,506,029
 5/19/2011                                                                                 29                          878,641,682
 6/9/2011                                                                                  36                       1,898,594,878
 1/19/2012                                                                               161                       7,005,379,336b
 2/8/2012                                                                                154                        6,223,369,695
 2/28/2012                                                                               152                        6,024,826,284
 Total                                                                                   773                  $29,215,034,957
 Notes: Numbers may not total due to rounding.
 a
   The current face amount represents the most recent balance of principal outstanding on the securities at the time of the offering. It
    does not reflect the market value of the bonds nor the price originally paid by Maiden Lane II LLC for the bonds.
 b
    According to FRBNY, the total face amount sold on the January 19, 2012, trade date differs slightly from the figure published in the
     FRBNY press release due to factor adjustments that reduced the face amount sold prior to the actual settlement date.

 Sources: FRBNY, “Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm?showMore=1,
 accessed 10/1/2012; FRBNY, response to SIGTARP data call, 4/12/2012; FRBNY, response to SIGTARP vetting draft, 10/11/2012.



FRBNY’s Sales of Maiden Lane III Securities
On August 23, 2012, FRBNY completed the final sale of securities in the Maiden
Lane III portfolio.476 Beginning in April 2012, FRBNY held 15 auctions to sell
a total of 371 CUSIPs from the Maiden Lane III portfolio, with a face amount
totaling $45.6 billion.477
     According to FRBNY, its management of the Maiden Lane III portfolio resulted
in full repayment of the $24.3 billion loan extended by FRBNY to Maiden Lane III
and generated a net gain for the benefit of the public of approximately $6.6 billion,
including $737 million in accrued interest on the loan.478 AIG was fully repaid
for its equity contribution to Maiden Lane III plus accrued interest on July 16,
2012.479 In FRBNY auctions held after that repayment, AIG was entitled to receive
one-third of the proceeds from sales of the remaining Maiden Lane III securities.480
Bidders that purchased the most securities in Maiden Lane III auctions, in terms
of total cash proceeds, were Bank of America’s Merrill Lynch, Pierce, Fenner &
Smith Inc. and Credit Suisse Securities (USA), which paid $4.8 billion and $7.7
billion, respectively, according to FRBNY.481 A consortium of Barclays Capital Inc.
and Deutsche Bank Securities paid $4.9 billion for auctioned securities, while
Citigroup Global Markets, Inc. spent about $2.4 billion in the auctions. FRBNY
130   special inspector general I troubled asset relief program




                                             said it would release transaction level details from all the auctions, including how
                                             much AIG received from sales in the final auctions, on or around November 23,
                                             2012.482
                                                 Table 2.34 details the sales of securities in the Maiden Lane III portfolio.

                                             Table 2.34
                                              FRBNY Maiden LANE III Securities Sales
                                                                                                                         Number of                  Current Face Amount
                                              Trade Date                                                                 Bonds Sold                       of Bonds Solda
                                              4/26/2012                                                                                 2                    $7,500,000,000
                                              5/10/2012                                                                                 4                     2,427,879,306
                                              5/22/2012                                                                                 6                        688,370,750
                                              5/24/2012                                                                                 2                     1,672,896,114
                                              6/13/2012                                                                                 3                     1,914,433,034
                                              6/15/2012                                                                               10                      5,130,623,916
                                              6/25/2012                                                                               11                      4,236,210,320
                                              6/28/2012                                                                                 8                     3,319,442,656
                                              7/12/2012                                                                             181                          827,744,567
                                              7/19/2012                                                                                 9                     3,911,051,671
                                              7/24/2012                                                                               11                      3,536,517,495
                                              7/31/2012                                                                               14                      4,443,869,387
                                              8/16/2012                                                                               20                      2,703,378,611
                                              8/21/2012                                                                               65                             3,272,290
                                              8/23/2012                                                                               25                      3,428,462,266
                                              Total                                                                                 371                  $45,564,152,383
                                              Notes: Numbers may not total due to rounding.
                                               The current face amount represents the most recent balance of principal outstanding on the securities at the time of the offering. It
                                              a

                                               does not reflect the market value of the bonds nor the price originally paid by Maiden Lane III LLC for the bonds. Some variance may
                                               exist between these figures and those published in Table 2.32 in SIGTARP’s July 2012 Quarterly Report due to a change in source
                                               from the FRBNY “Maiden Lane III LLC: Security Offerings” website to the FRBNY Maiden Lane III Monthly Review reports.

                                              Sources: FRBNY, Maiden Lane III Monthly Review reports for April, May, June, July, and August 2012, no date, www.newyorkfed.org/
                                              markets/maidenlane.html, accessed 10/11/2012; FRBNY, “Maiden Lane III LLC: Security Offerings,” no date, www.newyorkfed.org/
                                              markets/ml3_sec_offerings.html, accessed 10/1/2012; FRBNY, response to SIGTARP data call, 10/4/2012.
                                                                            quarterly report to congress I October 25, 2012              131




Targeted Investment Program
Treasury invested a total of $40 billion in two financial institutions, Citigroup
Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
in return for preferred shares paying quarterly dividends at an annual rate of 8%
and warrants from each institution.483 According to Treasury, TIP’s goal was to
“strengthen the economy and protect American jobs, savings, and retirement
security [where] the loss of confidence in a financial institution could result in
significant market disruptions that threaten the financial strength of similarly
situated financial institutions.”484 Both banks repaid TIP in December 2009.485 On
March 3, 2010, Treasury auctioned the Bank of America warrants it received under
TIP for $1.24 billion.486 On January 25, 2011, Treasury auctioned the Citigroup
warrants it had received under TIP for $190.4 million.487

Asset Guarantee Program
Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
provide loss protection on a pool of Citigroup assets valued at approximately $301
billion. In return, as a premium, the Government received warrants to purchase
Citigroup common stock and $7 billion in preferred stock. The preferred stock was
subsequently exchanged for trust preferred securities (“TRUPS”).488                          Trust Preferred Securities (“TRUPS”):
     Treasury received $4 billion of the TRUPS and FDIC received $3 billion.489              Securities that have both equity
Although Treasury’s asset guarantee was not a direct cash investment, it exposed             and debt characteristics created by
taxpayers to a potential TARP loss of $5 billion. On December 23, 2009, in con-              establishing a trust and issuing debt
nection with Citigroup’s TIP repayment, Citigroup and Treasury terminated the                to it.
AGP agreement. Although at the time of termination the asset pool suffered a
$10.2 billion loss, this number was below the agreed-upon deductible and the
Government suffered no loss.490
     Treasury agreed to cancel $1.8 billion of the TRUPS issued by Citigroup,                For a discussion of the basis of the
reducing the premium it received from $4 billion to $2.2 billion, in exchange for            decision to provide Federal assistance to
the early termination of the loss protection. FDIC retained all of its $3 billion in         Citigroup, see SIGTARP’s audit report,
securities.491 Under the termination agreement, however, FDIC will transfer up to            “Extraordinary Financial Assistance
$800 million of those securities to Treasury if Citigroup’s participation in FDIC’s          Provided to Citigroup, Inc.,” dated
Temporary Liquidity Guarantee Program closes without a loss.492                              January 13, 2011.
     On September 29, 2010, Treasury entered into an agreement with Citigroup
to exchange the entire $2.2 billion in Citigroup TRUPS that it held under AGP for
new TRUPS. Because the interest rate necessary to receive par value was below
the interest rate paid by Citigroup to Treasury, Citigroup increased the principal
amount of the securities sold by Treasury by an additional $12 million, thereby
enabling Treasury to receive an additional $12 million in proceeds from the $2.2
billion sale of the Citigroup TRUPS, which occurred on September 30, 2010.493
On January 25, 2011, Treasury auctioned the Citigroup warrants it had received
under AGP for $67.2 million.494 According to Treasury, it has realized a gain of
132   special inspector general I troubled asset relief program




                                             approximately $12.3 billion over the course of Citigroup’s participation in AGP,
                                             TIP, and CPP, including dividends, other income, and warrant sales.495
                                                 Bank of America announced a similar asset guarantee agreement with respect
                                             to approximately $118 billion in Bank of America assets, but the final agreement
                                             was never executed. Bank of America paid $425 million to the Government as a
                                             termination fee.496 Of this $425 million, $276 million was paid to Treasury, $92
                                             million was paid to FDIC, and $57 million was paid to the Federal Reserve.497
                                                                            quarterly report to congress I October 25, 2012              133




Asset Support Programs
Three TARP programs have focused on supporting markets for specific asset
classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
Private Investment Program (“PPIP”), and the Unlocking Credit for Small
Businesses (“UCSB”) program.
    TALF was designed to support asset-backed securities (“ABS”) transactions
                                                                                             Non-Recourse Loan: Secured loan
by providing eligible borrowers $71.1 billion in non-recourse loans through the
                                                                                             in which the borrower is relieved of
Federal Reserve Bank of New York (“FRBNY”) to purchase non-mortgage-backed
                                                                                             the obligation to repay the loan upon
ABS and commercial mortgage-backed securities (“CMBS”). On June 28, 2012,
                                                                                             surrendering the collateral.
Treasury reduced its obligation in TALF from $4.3 billion to $1.4 billion, the
amount of TARP funds available to manage collateral for the TALF loans in the
                                                                                             Collateral: Asset pledged by a
event that borrowers surrender collateral and walk away from the loans or if the
                                                                                             borrower to a lender until a loan is
collateral is seized in the event of default.498 Of the $71.1 billion in TALF loans,
                                                                                             repaid. Generally, if the borrower
$1.5 billion remains outstanding as of September 30, 2012.499
                                                                                             defaults on the loan, the lender gains
    PPIP uses a combination of private equity and Government equity and debt
                                                                                             ownership of the pledged asset and
through TARP to facilitate purchases of legacy mortgage-backed securities
                                                                                             may sell it to satisfy the debt. In TALF,
(“MBS”) held by financial institutions. In July 2009, Treasury announced the
                                                                                             the ABS or CMBS purchased with
selection of nine Public-Private Investment Fund (“PPIF”) managers. Treasury
                                                                                             the TALF loan is the collateral that is
originally obligated $22.4 billion in TARP funds to the program. As of September
                                                                                             posted with FRBNY.
30, 2012, Treasury has obligated $21.7 billion in TARP funds to the program.
One PPIP manager, The TCW Group Inc. (“TCW”) subsequently withdrew. Two
other PPIP managers, Invesco Legacy Securities Master Fund, L.P. (“Invesco”)
and AllianceBernstein Legacy Securities Master Fund, L.P. (“AllianceBernstein”),
sold all remaining securities this year and repaid Treasury’s debt and equity.500
Another PPIP manager, RLJ Western Asset Public/Private Master Fund, L.P. (“RLJ
Western”), terminated its investment period almost four months early, on July 15,
2012, and is continuing to manage its existing investments.501 As of September 30,
2012, the remaining five PPIP managers are managing their portfolios.
    Through the UCSB loan support initiative, Treasury purchased $368.1 million
in 31 SBA 7(a) securities, which are securitized small-business loans.502 According
to Treasury, on January 24, 2012, Treasury sold its remaining securities and ended
the program with a total investment gain of about $9 million for all the securities,
including sale proceeds and payments of principal, interest, and debt.503

TALF
TALF, which was announced in November 2008, issued loans collateralized by
eligible ABS.504 According to FRBNY, TALF was “designed to increase credit
availability and support economic activity by facilitating renewed issuance of
consumer and business ABS.”505
    TALF is divided into two parts:506
134            special inspector general I troubled asset relief program




                                                      •	 a lending program, TALF, in which FRBNY originated and managed non-
                                                         recourse loans to eligible borrowers using eligible ABS and CMBS as collateral.
                                                         TALF’s lending program closed in 2010
                                                      •	 an asset disposition facility, TALF LLC, that purchases the collateral from
                                                         FRBNY if borrowers choose to surrender it and walk away from their loans or if
                                                         the collateral is seized in the event of default

                                                          The asset disposition facility, TALF LLC, is managed by FRBNY and remains in
                                                      operation.507 TALF loans are non-recourse (unless the borrower has made any mis-
                                                      representations or breaches warranties or covenants), which means that FRBNY
                                                      cannot hold the borrower liable for any losses beyond the surrender of collateral for
                                                      the TALF loan.508
                                                          TALF LLC’s funding first comes from a fee charged to FRBNY for the commit-
      Nationally Recognized Statistical Rating
                                                      ment to purchase any collateral surrendered by the borrowers. This fee is derived
      Organization (“NRSRO”): Credit rating
                                                      from the principal balance of each outstanding TALF program loan.509 TARP is
      agency registered with the SEC. Credit
                                                      obligated to lend to TALF LLC up to $1.4 billion to cover losses on TALF loans.510
      rating agencies provide their opinion
                                                      TALF LLC may use TARP funds to purchase surrendered assets from FRBNY and
      of the creditworthiness of companies
                                                      to offset losses associated with disposing of the surrendered assets. As of September
      and the financial obligations issued
                                                      30, 2012, $1.5 billion in TALF loans was outstanding.511 According to FRBNY, no
      by companies. The ratings distinguish
                                                      TALF borrowers have surrendered collateral in lieu of repayment and consequently
      between investment grade and non–
                                                      no collateral has been purchased by TALF LLC since its inception.512
      investment grade equity and debt
      obligations.
                                                      Lending Program
                                                      TALF’s lending program made secured loans to eligible borrowers.513 The loans
                                                      were issued with terms of three or five years and were available for non-mortgage-
      For a discussion of the credit rating           backed ABS, newly issued CMBS, and legacy CMBS.514 The final maturity date of
      agency industry and an analysis of the          loans in the TALF portfolio is March 30, 2015.515
      impact of NRSROs on TARP and the                     To qualify as TALF collateral, the non-mortgage-backed ABS had to have un-
      overall financial market, see SIGTARP’s         derlying loans for automobile, student, credit card, or equipment debt; insurance
      October 2009 Quarterly Report, pages            premium finance; SBA-guaranteed small business loans; or receivables for residen-
      113–148.                                        tial mortgage servicing advances (“servicing advance receivables”). Collateral was
                                                      also required to hold the highest investment grade credit ratings from at least two
                                                      nationally recognized statistical rating organizations (“NRSROs”).516
      TALF Agent: Financial institution that               To qualify as TALF collateral, newly issued CMBS and legacy CMBS had to
      is party to the TALF Master Loan                have been issued by an institution other than a Government-sponsored enterprise
      and Security Agreement and that                 (“GSE”) or an agency or instrumentality of the U.S. Government, offer principal
      occasionally acts as an agent for the           and interest payments, not be junior to other securities with claims on the same
      borrower. TALF agents include primary           pool of loans, and possess the highest long-term investment grade credit rating
      and nonprimary broker-dealers.                  from at least two rating agencies.517 Newly issued CMBS had to be issued on or
                                                      after January 1, 2009, while legacy CMBS were issued before that date.518
      Haircut: Difference between the value
      of the collateral and the value of the          Loan Terms
      loan (the loan value is less than the           TALF participants were required to use a TALF agent to apply for a TALF loan.519
      collateral value).                              After the collateral (the particular asset-backed security financed by the TALF loan)
                                                      was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,
                                                                                                                     quarterly report to congress I October 25, 2012           135




which represents the amount of money put up by the borrower (the borrower’s
“skin in the game”), was required for each TALF loan.520 Haircuts for non-                                                            “Skin in the Game”: Equity stake in an
mortgage-backed ABS varied based on the riskiness and maturity of the collateral,                                                     investment; down payment; the amount
and generally ranged between 5% and 16% for non-mortgage-backed ABS with                                                              an investor can lose.
average lives of five years or less.521 The haircut for legacy and newly issued CMBS
was generally 15% but increased above that amount if the average life of the CMBS                                                     Custodian Bank: Bank holding the
was greater than five years.522                                                                                                       collateral and managing accounts for
    FRBNY lent each borrower the amount of the market price of the pledged col-                                                       FRBNY; for TALF the custodian is Bank
lateral minus the haircut, subject to certain limitations.523 The borrower delivered                                                  of New York Mellon.
the collateral to the custodian bank, which collects payments generated by the
collateral and distributes them to FRBNY (representing the borrower’s payment of
interest on the TALF loan).524 Any excess payments from the collateral above the
interest due and payable to FRBNY on the loan go to the TALF borrower.525

TALF Loans
TALF provided $59 billion of loans to purchase non-mortgage-backed ABS
during the lending phase of the program, which ended on March 11, 2010. As
of September 30, 2012, $1.1 billion was outstanding.526 Table 2.35 lists all TALF
loans collateralized by non-mortgage-backed ABS, by ABS sector.

Table 2.35
 TALF LOANS BACKED BY ABS (NON-MORTGAGE-BACKED COLLATERAL)
 ($ Billions)

 ABS Sector
 Auto Loans                                                                                                  $12.8
 Credit Card Receivables                                                                                       26.3
 Equipment Loans                                                                                                 1.6
 Floor Plan Loans                                                                                                3.9
 Premium Finance                                                                                                 2.0
 Servicing Advance Receivables                                                                                   1.3
 Small-Business Loans                                                                                            2.2
 Student Loans                                                                                                   8.9
 Total                                                                                                       $59.0
 Notes: Numbers may not total due to rounding. Data as of 9/30/2012.

 Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_
 operations.html, accessed 9/30/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.
 newyorkfed.org/markets/TALF_recent_operations.html, accessed 9/30/2012.



    TALF provided $12.1 billion of loans to purchase CMBS during the lending
phase of the program, which ended on June 28, 2010. Approximately 99% of the
loan amount was used to purchase legacy CMBS, with 1% newly issued CMBS.527
As of September 30, 2012, $364.2 million was outstanding.528 Table 2.36 includes
all TALF CMBS loans.
136   special inspector general I troubled asset relief program




                                             Table 2.36
                                              TALF LOANS BACKED BY CMBS                         ($ Billions)

                                              Type of Collateral
                                              Assets
                                              Newly Issued CMBS                                                                                                    $ 0.1
                                              Legacy CMBS                                                                                                           12.0
                                              Total                                                                                                               $12.1
                                              Notes: Numbers may not total due to rounding. Data as of 9/30/2012.

                                              Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.
                                              html, accessed 9/30/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/
                                              CMBS_recent_operations.html, accessed 9/30/2012.



                                                 TALF loans were issued with terms of three years or five years. The final matu-
                                             rity date of the last of the five-year loans is March 30, 2015.529 Table 2.37 shows
                                             the amount of outstanding TALF loans by maturity dates.

                                             Table 2.37
                                              OUTSTANDING TALF LOANS, AS OF 9/30/2012                                   ($ Millions)

                                                                                                                   Remaining Maturity
                                                                                                         Within 90      90 days to        Over 1 year
                                             Loan Collateral                                                  days          1 year         to 4 years               Total
                                             CMBS
                                             Legacy                                                        $77.3            $76.2              $210.6          $364.2
                                             Newly Issued                                                      0.0              0.0                 0.0             0.0
                                             Total CMBS                                                   $77.3             $76.2             $210.6          $364.2
                                             Non-Mortgage
                                             Auto Loans                                                      $0.0             $0.0                $0.0            $0.0
                                             Credit Card Receivables                                           0.0              0.0                 0.0             0.0
                                             Equipment Loans                                                   0.0              0.0                 0.0             0.0
                                             Floor Plan Loans                                                87.0           240.0                   0.0          327.0
                                             Premium Finance                                                   0.0            46.5                  0.0           46.5
                                             Servicing Advance Receivables                                     0.0              0.0                 0.0             0.0
                                             Small-Business Loans                                              0.0              0.0               14.4            14.4
                                             Student Loans                                                     0.0              0.0             714.2            714.2
                                             Total Non-Mortgage                                           $87.0           $286.5              $728.6        $1,102.1
                                             All Outstanding TALF Loan Collateral                        $164.3           $362.7              $939.2        $1,466.3
                                             Notes: Numbers may not total due to rounding. Data as of 9/30/2012.

                                             Sources: FRBNY, response to SIGTARP data call, 10/9/2012.
                                                                            quarterly report to congress I October 25, 2012   137




  The Federal Reserve posted on its website detailed information on the 177
TALF borrowers, including:530

•	 the names of all the borrowers from TALF (some of which share a parent
   company)
•	 each borrower’s city, state, and country
•	 the name of any material investor in the borrower (defined as a 10% or greater
   beneficial ownership interest in any class of security of a borrower)
•	 the amount of the loan and maturity date
•	 the loan’s fixed or floating interest rate
•	 the market value of the collateral at the time the loan was extended
•	 the name of the issuer of the ABS collateral associated with the loan
•	 the collateral asset and subclass

   As of September 30, 2012, $69.6 billion in TALF loans had been repaid.
According to FRBNY, the outstanding collateral on the remaining $1.5 billion in
TALF loans was performing as expected.531

Asset Disposition Facility
When FRBNY created TALF LLC, TARP loaned the facility $100 million. Of this
initial funding, $15.8 million was allocated to cover administrative costs.532 TARP
will continue to fund TALF LLC, as needed to cover losses, until TARP’s entire
$1.4 billion obligation has been disbursed, all TALF loans are retired, or the loan
commitment term expires. The last loan matures in 2015. Any additional funds, if
needed, will be provided by a loan from FRBNY that will be collateralized by the
assets of TALF LLC and will be senior to the TARP loan.533 Payments by TALF
LLC from the proceeds of its holdings will be made in the following order:534

•	   operating expenses of TALF LLC
•	   principal due to FRBNY and funding of FRBNY’s senior loan commitment
•	   principal due to Treasury
•	   interest due to FRBNY
•	   interest due to Treasury
•	   other secured obligations

     Any remaining money will be shared by Treasury (90%) and FRBNY (10%).535

Current Status
As of September 30, 2012, TALF LLC had assets of $853 million, which
included the $100 million in initial TARP funding.536 The remainder consisted of
interest and other income and fees earned from permitted investments. From its
February 4, 2009, formation through September 30, 2012, TALF LLC had spent
approximately $2.5 million on administration.537
138           special inspector general I troubled asset relief program




                                                         When TALF closed for new loans in June 2010, FRBNY’s responsibilities under
                                                     the program shifted primarily to portfolio management, which includes the follow-
                                                     ing duties:538

      Excess Spread: Funds left over                 •	 maintaining documentation
      after required payments and other              •	 overseeing the custodian that is responsible for holding ABS collateral
      contractual obligations have been met.         •	 calculating and collecting principal and interest on TALF loans
      In TALF it is the difference between           •	 disbursing excess spread to TALF borrowers in accordance with the governing
      the periodic amount of interest paid              documents
      out by the collateral and the amount           •	 monitoring the TALF portfolio
      of interest charged by FRBNY on the            •	 collecting and managing collateral assets if a borrower defaults or surrenders the
      nonrecourse loan provided to the                  collateral in lieu of repayment
      borrower to purchase the collateral.           •	 paying TALF LLC interest that borrowers pay FRBNY on TALF loans, in excess
                                                        of FRBNY’s cost of funding
                                                                               quarterly report to congress I October 25, 2012               139




Public-Private Investment Program
According to Treasury, the purpose of the Public-Private Investment Program                     Legacy Securities: Real estate-related
(“PPIP”) is to purchase legacy securities from banks, insurance companies, mutual               securities originally issued before
funds, pension funds, and other eligible financial institutions as defined in EESA,             2009 that remained on the balance
through Public-Private Investment Funds (“PPIFs”).539 PPIFs are partnerships,                   sheets of financial institutions because
formed specifically for this program, that invest in mortgage-backed securities using           of pricing difficulties that resulted from
equity capital from private-sector investors combined with TARP equity and debt.                market disruption.
A private-sector fund management firm oversees each PPIF on behalf of these
investors. According to Treasury, the aim of PPIP was to “restart the market for                Equity: Investment that represents an
legacy securities, allowing banks and other financial institutions to free up capital           ownership interest in a business.
and stimulate the extension of new credit.”540 PPIP originally included a Legacy
Loans subprogram that would have involved purchases of troubled legacy loans
with private and Treasury equity capital, as well as an FDIC guarantee for debt
financing. TARP funds were never disbursed for this subprogram.
    Treasury selected nine fund management firms to establish PPIFs. One PPIP
manager, TCW, subsequently withdrew. Two other PPIP managers, Invesco and
AllianceBernstein, sold all remaining securities this year and repaid Treasury’s debt
and equity. Another PPIP manager, RLJ Western, terminated its investment period
almost four months early, on July 15, 2012, and is continuing to manage its exist-
                                                                                                For more information on the selection of
ing investments.541 The remaining five funds are scheduled to end their three-year
                                                                                                PPIP managers, see SIGTARP’s October
investment periods by the end of 2012. Private investors and Treasury co-invested               7, 2010, audit report entitled “Selecting
in the PPIFs to purchase legacy securities from financial institutions. The fund                Fund Managers for the Legacy
managers raised private-sector capital. Treasury matched the private-sector equity              Securities Public-Private Investment
dollar-for-dollar and provided debt financing in the amount of the total combined               Program.”
equity. Each PPIP manager was also required to invest at least $20 million of its
own money in the PPIF.542 Each PPIF is approximately 75% TARP funded. PPIP                      For more information on the withdrawal
was designed as an eight-year program giving PPIP managers until 2017 to sell the               of TCW as a PPIP manager, see
assets in their portfolio. Under certain circumstances, Treasury can terminate the              SIGTARP’s January 2010 Quarterly
program early or extend it for up to two additional years.543                                   Report, page 88.
    Treasury, the PPIP managers, and the private investors share PPIF profits and
losses on a pro rata basis based on their limited partnership interests. Treasury also
received warrants in each PPIF that give Treasury the right to receive a portion of
the fund’s profits that would otherwise be distributed to the private investors along
with its pro rata share of program proceeds.544




 Debt: Investment in a business that is       Pro Rata: Refers to dividing something        Limited Partnership: Partnership in which
 required to be paid back to the investor,    among a group of participants according       there is at least one partner whose
 usually with interest.                       to the proportionate share that each          liability is limited to the amount invested
                                              participant holds as a part of the whole.     (limited partner) and at least one partner
                                                                                            whose liability extends beyond monetary
                                                                                            investment (general partner).
140            special inspector general I troubled asset relief program




                                                           The PPIP portfolio was valued at $14 billion as of September 30, 2012, ac-
      Non-Agency Residential Mortgage-                cording to a process administered by Bank of New York Mellon, acting as valuation
      Backed Securities (“non-agency                  agent.545 That was $5.8 billion or 29% lower than the portfolio value at the end of
      RMBS”): Financial instrument backed             the previous quarter, reflecting fund managers’ sales of investments.546 The PPIP
      by a group of residential real estate           portfolio consists of eligible securities and cash assets to be used to purchase secu-
      mortgages (i.e., home mortgages for             rities. The securities eligible for purchase by PPIFs (“eligible assets”) are non-agen-
      residences with up to four dwelling             cy residential mortgage-backed securities (“non-agency RMBS”) and commercial
      units) not guaranteed or owned by               mortgage-backed securities (“CMBS”) that meet the following criteria:547
      a Government-sponsored enterprise
      (“GSE”), or a Government agency.                •	 issued before January 1, 2009 (legacy)
                                                      •	 rated when issued AAA or equivalent by two or more credit rating agencies
                                                         designated as nationally recognized statistical rating organizations (“NRSROs”)
                                                      •	 secured directly by actual mortgages, leases, or other assets, not other securities
                                                         (other than certain swap positions, as determined by Treasury)
                                                      •	 located primarily in the United States (the loans and other assets that secure the
                                                         non-agency RMBS and CMBS)
                                                      •	 purchased from financial institutions that are eligible for TARP participation

                                                      PPIP Process
                                                      The following steps describe the process by which funds participate in PPIP:548

                                                      1.	 Fund managers applied to Treasury to participate in the program.
                                                      2.	 Pre-qualified fund managers raised the necessary private capital for the PPIFs.
                                                      3.	 Treasury matched the capital raised, dollar-for-dollar, up to a preset maximum.
                                                          Treasury also received warrants so that it could benefit further if the PPIFs turn
                                                          a profit.
                                                      4.	 Fund managers may borrow additional funds from Treasury up to 100% of the
                                                          total equity investment (including the amount invested by Treasury).
                                                      5.	 Each fund manager purchases and manages the legacy securities and provides
                                                          monthly reports to its investors, including Treasury.

                                                         Obligated funds are not given immediately to PPIP managers. Instead, PPIP
                                                      managers send a notice to Treasury and the private investors requesting a “draw
                                                      down” of portions of obligated contributions in order to purchase specific invest-
                                                      ments or to pay certain expenses and debts of the partnerships.549

                                                      PPIF Purchasing Power
                                                      During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
                                                      of private-sector equity capital, which Treasury matched with a dollar-for-dollar
                                                      obligation, for a total of $14.7 billion in equity capital. Treasury also obligated
                                                      $14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing
                                                      power. The fund-raising stage for PPIFs was completed in December 2009.
                                                           After the capital-raising stage, Treasury obligated $22.4 billion in a combination
                                                      of matching equity funds and debt financing for PPIP; that was reduced to $21.9
                                                      billion after PPIP manager Invesco terminated its investment period in September
                                                                                                                                      quarterly report to congress I October 25, 2012   141




2011.550 The amount was reduced again, to $21.7 billion, when Treasury in August
2012 deobligated nearly $173 million in available debt financing that was not used
by AllianceBernstein.551 As of September 30, 2012, the program had $28.7 billion
in PPIF purchasing power from private and TARP capital, not including $365 mil-
lion used by TCW before it left the program in early 2010. Table 2.38 shows equity
and debt committed by Treasury for the eight PPIFs that actively participated in
the program.

TABLE 2.38
 Public-private investment program PURCHASING POWER, AS OF
 9/30/2012 ($ Billions)
                                                             Private-                                                                Total
                                                        Sector Equity                Treasury               Treasury            Purchasing
 Manager                                                      Capital                  Equity                   Debt                Power
 Investment Periods Open
      AG GECC PPIF Master Fund,
                                                                      $1.2                  $1.2                    $2.5                  $5.0
      L.P.
      BlackRock PPIF, L.P.                                              0.7                   0.7                     1.4                   2.8
      Marathon Legacy Securities
      Public-Private Investment                                         0.5                   0.5                     0.9                   1.9
      Partnership, L.P.
      Oaktree PPIP Fund, L.P.                                           1.2                   1.2                     2.3                   4.6
      Wellington Management
      Legacy Securities PPIF Master                                     1.1                   1.1                     2.3                   4.6
      Fund, LP
 Subtotals                                                            $4.7                 $4.7                    $9.4                $18.9
 Funds No Longer Investing                  a


      AllianceBernstein Legacy
                                                                      $1.2                  $1.2                    $2.1                  $4.4
      Securities Master Fund, L.P.b
      Invesco Legacy Securities
                                                                        0.9                   0.9                     1.2                   2.9
      Master Fund, L.P.c
      RLJ Western Asset Public/
                                                                        0.6                   0.6                     1.2                   2.5
      Private Master Fund, L.P.
 Subtotals                                                            $2.6                 $2.6                    $4.5                   $9.8
 Totals for All Funds                                                 $7.4                 $7.4                  $14.0                 $28.7d
 Notes: Numbers may not total due to rounding.
 a
   Purchasing power figures show how much debt and equity was available to these PPIFs when they were actively investing.
 b
      AllianceBernstein in August 2012 finished repaying all Treasury equity and debt that it drew down. Treasury has deobligated about
       $173 million in available debt financing that the fund did not use.
 c
    Invesco did not draw down all committed equity and debt available before terminating its investment period. Treasury has reduced
     its debt obligation to the fund, but will not reduce its equity obligation until the fund is formally dissolved. Just after the latest quarter
     ended, Invesco on October 3, 2012, filed a certificate with the state of Delaware declaring that the PPIF partnership was dissolved.
 d
     Treasury initially funded $356 million to TCW, which TCW repaid in full in early 2010. The amount is not included in the total
      purchasing power.

 Sources: Treasury, Transactions Report, 9/28/2012; Treasury, response to SIGTARP data call, 10/4/2012.
142   special inspector general I troubled asset relief program




                                                 Each current PPIP manager has up to three years (the “PPIF investment
                                             period”) from closing its first private-sector equity contribution to draw upon the
                                             TARP funds obligated for the PPIF and buy legacy securities on behalf of private
                                             and Government investors.552 During this period, the program will strive to main-
                                             tain “predominantly a long-term buy and hold strategy.”553 The investment period
                                             expires in October 2012 for three funds: AG GECC PPIF Master Fund, L.P. (“AG
                                             GECC”); BlackRock PPIF, L.P. (“BlackRock”); and Wellington Management
                                             Legacy Securities PPIF Master Fund, LP (“Wellington”). The investment period
                                             ends in November 2012 for Marathon Legacy Securities Public-Private Investment
                                             Partnership, L.P. (“Marathon”), followed by Oaktree PPIP Fund, L.P. (“Oaktree”)
                                             in December 2012.554
                                                 At the end of the PPIF investment period, fund managers have five years ending
                                             in 2017 to manage and sell off the fund’s investment portfolio and return proceeds
                                             to taxpayers and investors. This period may be extended up to two years.555

                                             Amounts Drawn Down
                                             The eight PPIP managers had drawn down approximately $24.4 billion to buy
                                             legacy securities and cash assets through September 30, 2012, spending $6.1
                                             billion in private-sector equity capital and $18.3 billion in TARP equity and debt
                                             funding.556 Wellington was the only PPIP fund that drew additional money in the
                                             quarter ended September 30, 2012 and it drew down the remaining $133 million
                                             in debt financing available to it.557 Treasury also disbursed $356.3 million to TCW,
                                             which TCW fully repaid in early 2010 when it withdrew from the program.558
                                                  Among PPIP managers still investing or holding legacy securities, four have
                                             drawn down at least 90% of their available PPIP capital as of September 30,
                                             2012.559 Oaktree, the only fund limited solely to purchasing CMBS, had drawn
                                             down the smallest amount, 48%, of its available capital. Table 2.39 shows how
                                             much each PPIF has drawn down from the private and Government money avail-
                                             able to it to buy real-estate backed securities.
                                                                                                                                quarterly report to congress I October 25, 2012                     143




Table 2.39
 PPIP CAPITAL DRAWN DOWN, AS OF 9/30/2012                                              ($ BILLIONS)

                                                    Purchasing                Private-                Treasury                 Treasury
                                                        Power            Sector Equity            Equity Drawn               Debt Drawn              Total Drawn              Purchasing
 Manager                                              Available           Drawn Down                      Down                     Down                     Down              Power Used
Investment Periods Open
      AG GECC PPIF Master Fund,
                                                                $5.0                     $1.1                    $1.1                    $2.2                    $4.5                       90%
      L.P.
      BlackRock PPIF, L.P.                                        2.8                     0.5                      0.5                     1.1                     2.1                      76%
     Marathon Legacy Securities
     Public-Private Investment                                    1.9                     0.5                      0.5                     0.9                     1.9                    100%
     Partnership, L.P.
     Oaktree PPIP Fund, L.P.                                      4.6                     0.6                      0.6                     1.1                     2.2                      48%
     Wellington Management
     Legacy Securities PPIF                                       4.6                     1.1                      1.1                     2.3                     4.6                    100%
     Master Fund, LP
Subtotals                                                     $18.9                     $3.8                    $3.8                     $7.6                  $15.3                       81%
Funds No Longer Investinga
      AllianceBernstein Legacy
                                                                $4.4                     $1.1                    $1.1                    $2.1                    $4.3                       96%
      Securities Master Fund, L.P.b
      Invesco Legacy Securities
                                                                  2.9                     0.6                      0.6                     1.2                     2.3                      81%
      Master Fund, L.P.c
      RLJ Western Asset Public/
                                                                  2.5                     0.6                      0.6                     1.2                     2.5                    100%
      Private Master Fund, L.P.
Subtotals                                                       $9.8                    $2.3                    $2.3                     $4.5                    $9.1                      93%
Totals for All Fundsd                                         $28.7                     $6.1                    $6.1                   $12.2                   $24.4                       85%
 Notes: Numbers may not total due to rounding.
 a
   Table shows how much these PPIFs drew down from available capital before they stopped investing.
 b
    After AllianceBernstein finished repaying in August 2012 all Treasury equity and debt that it drew down, about $173 million in available debt financing that it did not use was
     deobligated.
 c
   Invesco did not fully draw down all committed equity and debt available to it. Treasury has reduced its debt obligation to the fund, but will not reduce its equity obligation until the fund
    is formally dissolved. Just after the latest quarter ended, Invesco on October 3, 2012, filed a certificate with the state of Delaware declaring that the PPIF partnership was dissolved.
 d
    Treasury initially funded $356 million to TCW, which TCW repaid in full in early 2010. This amount is not included in the total purchasing power.

 Sources: Treasury, Transactions Report, 9/28/2012; Treasury, response to SIGTARP data call, 10/4/2012.




Amounts Paid to Treasury
PPIP managers make TARP payments to Treasury for debt principal, debt interest,
equity capital, and equity distributions. Through September 30, 2012, the nine
PPIFs had repaid $6.7 billion in TARP debt and $3.1 billion in TARP equity,
including payments in full by TCW and Invesco. In the quarter ended September
30, 2012, AllianceBernstein finished repaying all Treasury debt and equity capital
that it had drawn down. Two other funds – BlackRock and Marathon – began
repaying their TARP debt and equity during the quarter ended September 30,
2012.560
    PPIP managers also paid a total of $4.3 billion to the Government through
September 30, 2012, in total equity distributions, which Treasury said includes
profits from sales of PPIF securities.561 Table 2.40 shows each fund’s payments to
Treasury through September 30, 2012.
144   special inspector general I troubled asset relief program




                            Table 2.40
                             PPIP MANAGERS’ PAYMENTS TO TREASURY, AS OF 9/30/2012                                                         ($ MILLIONS)

                                                                                              Debt                 Debt              Equity                   Equity             Equity
                                                                                          Principal             Interest            Capital             Distribution            Warrant
                             Manager                                                     Payments             Payments           Paymentsa               Paymentsb            Paymentsc
                             Investment Periods Open
                                 AG GECC PPIF Master Fund, L.P.                                 $947                   $62                $474                    $652                  $—
                                 BlackRock PPIF, L.P.                                             233                    33                  99                     137                   —
                                 Marathon Legacy Securities Public-
                                                                                                  149                    25                  74                     121                   —
                                 Private Investment Partnership, L.P.
                                 Oaktree PPIP Fund, L.P.                                          202                    13                101                      131                   —
                                 Wellington Management Legacy
                                                                                                  430                    55                215                      349                   —
                                 Securities PPIF Master Fund, LP
                             Subtotals                                                       $1,962                 $188                 $963                 $1,391                    $—
                             Funds No Longer Investingd
                                 AllianceBernstein Legacy Securities
                                                                                             $2,128                    $58             $1,064                  $1,518                   $—
                                 Master Fund, L.P.
                                 Invesco Legacy Securities Master
                                                                                               1,162                     18                581                      720                     3
                                 Fund, L.P.
                                 RLJ Western Asset Public/Private
                                                                                               1,241                     37                363                      487                   —
                                 Master Fund, L.P.
                                 UST/TCW Senior Mortgage
                                                                                                  200                   0.3                156                      176                  0.5
                                 Securities Fund, L.P.
                             Subtotals                                                       $4,731                 $114              $2,165                  $2,902                     $4
                             Totals for All Funds                                            $6,693                 $303              $3,128                  $4,292                     $4
                             Notes: Numbers may not total due to rounding. Excludes management fees and expenses.
                             a
                               In April 2012, Treasury reclassified about $1 billion in combined payments from five PPIFs as equity capital payments instead of equity distributions.
                             b
                                 Treasury’s equity distributions include gross income distributions, capital gains, and return of capital.
                             c
                               Treasury received equity warrants from the PPIFs, which give Treasury the right to receive a percentage of any profits that would otherwise be distributed to
                                the private partners in excess of their contributed capital.
                             d
                                AllianceBernstein, Invesco, and TCW have fully repaid all equity capital, debt, and debt interest, and have liquidated their investments. RLJ Western is
                                 continuing to repay its equity capital and will sell its existing investments over time, as market conditions permit.

                             Sources: Treasury, response to SIGTARP data call, 10/4/2012; Treasury, Dividends and Interest Report, 10/10/2012.




                                                    PPIP Manager RLJ Western
                                                    RLJ Western Terminates Investment Period
                                                    In July 2012, RLJ Western notified Treasury that it terminated its PPIF’s
                                                    investment period four months ahead of the three-year expiration period.562 RLJ
                                                    Western is now in the process of selling its investments over time as market
                                                    conditions permit, according to a July 13, 2012, amendment to Treasury’s Limited
                                                    Partnership Agreement with the PPIF.563 When it terminated its investment
                                                    period, RLJ Western had used virtually all of the $2.5 billion in total purchasing
                                                    power available to it. About $156,516 in unused debt was deobligated by Treasury
                                                    to reflect the actual amount RLJ Western had borrowed before terminating its
                                                    investment period.564
                                                                              quarterly report to congress I October 25, 2012          145




Departure of RLJ Western Key Person
On June 15, 2012, Ronald Mass, the head portfolio manager for RLJ Western’s                    Key Person: Individual recognized
PPIF, ceased to be involved in managing the PPIF.565 Mr. Mass was listed as a key              as being important to the ongoing
person in RLJ Western’s PPIF Agreement with Treasury. Under the specific terms                 operation and investment decisions of
of the agreement, Treasury can freeze RLJ Western’s PPIF if a specified number of              an investment fund.
key persons cease to be actively involved in the PPIF or in RLJ Western’s fixed-
income business.566

PPIP Manager AllianceBernstein Sells Holdings
AllianceBernstein sold the remainder of its portfolio during the quarter ending
on September 30, 2012.567 According to Treasury, “AllianceBernstein has fully
liquidated its holdings of eligible assets during the month of September 2012, and
is expected to distribute substantially all of its remaining cash proceeds in early
October 2012.”568 The fund fully repaid Treasury’s $1.1 billion equity investment
and its $2.1 billion debt financing, with interest. AllianceBernstein also paid
Treasury $12 million in warrant proceeds.569 Treasury deobligated about $173
million in available debt financing that the AllianceBernstein fund did not use.570
The PPIF continues to hold approximately $1.7 million to pay for a final audit,
wind up costs, and the formal dissolution of the fund, according to Treasury.571

PPIP Manager Invesco Sells Portfolio
Invesco was the first of the PPIP funds to sell its portfolio, announcing the
liquidation on April 3, 2012.572 Over the life of the fund, which invested solely in
RMBS, according to Treasury, it received approximately $18 million in interest,
$3 million in equity warrant proceeds, and $135 million in cumulative realized
gains, net of fees and expenses, on Treasury’s equity investment of $581 million.573
Treasury also loaned $1.2 billion to the Invesco fund, which was repaid with
interest.574 In September 2012, Invesco distributed to Treasury and other investors
the final proceeds left after audit and wind up costs were paid.575 On October 3,
2012, Invesco filed a formal certificate with the state of Delaware declaring that its
PPIF had been dissolved. Treasury responded by deobligating about $275 million
in Invesco’s unused equity funding.576

Fund Performance
Since inception, each fund has reported rates of return for its portfolio of
investments based on a methodology requested by Treasury. Each PPIF’s
performance — its gross and net returns since inception — as reported by PPIP
managers, is listed in Table 2.41.
   The data in Table 2.41 constitutes a snapshot of the funds’ performance during
the quarter ended September 30, 2012, and may not predict the funds’ perfor-
mance over the long term. According to some PPIP managers, it would be pre-
mature to draw any long-term conclusions because, among other reasons, some
managers have not fully executed their investment strategies or fully drawn down
Treasury’s capital or debt obligations.
146   special inspector general I troubled asset relief program




                                             TABLE 2.41

                                              PPIF investment status, AS OF 9/30/2012
                                                                                                                                                                 Internal Rate
                                                                                                                          1-Month             3-Month                of Return
                                                                                                                           Return              Return          Since Inception
                                              Manager                                                                    (percent)          (percent)a              (percent)b
                                              Investment Periods Open
                                                                                                          Gross                  5.69              17.16                      23.78
                                                  AG GECC PPIF Master Fund, L.P.
                                                                                                          Net                    5.68              17.14                      23.32
                                                                                                          Gross                  8.23              22.53                      23.91
                                                  BlackRock PPIF, L.P.
                                                                                                          Net                    8.41              22.95                      22.74

                                                                                                          Gross                  7.58              23.69                      23.60
                                                  Marathon Legacy Securities Public-
                                                  Private Investment Partnership, L.P.
                                                                                                          Net                    7.70              24.02                      22.35

                                                                                                          Gross                  3.89              10.45                      26.90
                                                  Oaktree PPIP Fund, Inc.
                                                                                                          Net                    3.84              10.23                      25.49

                                                  Wellington Management Legacy                            Gross                11.12               28.85                      19.03
                                                  Securities PPIF Master Fund, LP                         Net                  11.34               29.35                      17.82
                                              Funds No Longer Investingc
                                                  AllianceBernstein Legacy Securities
                                                                                                          Net                     N/A                 N/A
                                                  Master Fund, L.P.
                                                  Invesco Legacy Securities Master
                                                                                                          Net                     N/A                 N/A
                                                  Fund, L.P.
                                                  RLJ Western Asset Public/Private
                                                                                                          Net                    8.24              25.38
                                                  Master Fund, L.P.
                                                  UST/TCW Senior Mortgage Securities
                                                                                                          Net                     N/A                 N/A
                                                  Fund, L.P.d
                                              Notes: The performance indicators are listed as reported by the PPIP managers without further analysis by SIGTARP. The net returns
                                              include the deduction of management fees and partnership expenses attributable to Treasury.
                                              a
                                                Time-weighted, geometrically linked returns.
                                              b
                                                  Dollar-weighted rate of return.
                                              c
                                                AllianceBernstein, Invesco, and TCW have fully repaid all equity capital, debt, and debt interest, and have liquidated their
                                                 investments. RLJ Western is continuing to repay its equity capital and will sell its existing investments over time, as market
                                                 conditions permit.
                                              d
                                                 According to Treasury, rates of return are not available for TCW because it operated for only three months before withdrawing from
                                                  the program.

                                              Sources: PPIF Monthly Performance Reports submitted by each PPIP manager, September 2012, received 10/15/2012; Treasury
                                              response to SIGTARP data call, 10/4/2012.



                                             Securities Purchased by PPIFs
                                             According to their agreements with Treasury, PPIP managers may trade in both
                                             RMBS and CMBS, except for Oaktree, which may purchase only CMBS.577 Figure
                                             2.3 shows the collective value of securities held by all PPIFs on September 30,
                                             2012, broken down by RMBS and CMBS.
                                                 PPIF investments can be classified by underlying asset type. All non-agency
                                             RMBS investments are considered residential. The underlying assets are mortgages
                                             for residences with up to four dwelling units. For CMBS, the assets are com-
                                             mercial real estate mortgages: office, retail, multi-family, hotel, industrial (such as
                                                                            quarterly report to congress I October 25, 2012                             147




warehouses), mobile home parks, mixed-use (combination of commercial and/or                Figure 2.3
residential uses), and self-storage. Figure 2.4 breaks down CMBS investment dis-           AGGREGATE COMPOSITION OF PPIP
tribution by sector. As of September 30, 2012, the aggregate CMBS portfolio had            PORTFOLIOS, AS OF 9/30/2012
                                                                                           Percentage of $14 Billion
large concentrations in office (34%) and retail (30%) loans.
    Non-agency RMBS and CMBS can be classified by the degree of estimated
default risk (sometimes referred to as “quality”). Investors are most concerned                   CMBS
about whether borrowers will default and the underlying collateral will be sold at a
                                                                                                              26%
loss. Estimated risk, or quality, attempts to measure the likelihood of that outcome.
There are no universal standards for ranking mortgage quality, and the designations                                            74%          RMBS
vary depending on context. In general, the highest-quality rankings are granted to
mortgages that have the strictest requirements regarding borrower credit, complete-
ness of documentation, and underwriting standards. Treasury characterizes these
investment-quality levels of risk for the types of mortgage loans that support non-        Notes: Numbers may be affected due to rounding.
agency RMBS as follows:578                                                                 Calculated based on monthly data supplied by the PPIF
                                                                                           managers. Does not include AllianceBernstein, Invesco, and
                                                                                           TCW, which have sold all investments.

•	 Prime — mortgage loan made to a borrower with good credit that generally                Source: PPIF Monthly Performance Reports, September 2012.

   meets the lender’s strictest underwriting criteria. Non-agency prime loans
   generally exceed the dollar amount eligible for purchase by GSEs (jumbo loans)
   but may include lower-balance loans as well.                                            Figure 2.4
•	 Alt-A — mortgage loan made to a borrower with good credit but with limited              AGGREGATE CMBS BY SECTOR IN
   documentation or other characteristics that do not meet the standards for prime         PPIP PORTFOLIOS, AS OF 9/30/2012
                                                                                           Percentage of $3.7 Billion
   loans. An Alt-A loan may have a borrower with a lower credit rating, a higher
   loan-to-value ratio, or limited or no documentation, compared with a prime                                Other

   loan.                                                                                                         7%
•	 Subprime — mortgage loan made to a borrower with a poor credit rating.                  Lodging/                           34%
                                                                                              Hotel       11%
•	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
   gives the borrower a set of choices about how much interest and principal to             Industrial 6%
   pay each month. This may result in negative amortization (an increasing loan
                                                                                                             12%           30%
   principal balance over time).                                                              Multi-family

•	 Other (RMBS) — RMBS that do not meet the definitions for prime, Alt-A,                                                          Retail

   subprime, or option ARM but meet the definition of “eligible assets” above.
                                                                                           Notes: Numbers may be affected due to rounding.
                                                                                           Calculated based on monthly data supplied by the PPIF
   Treasury characterizes CMBS according to the degree of “credit enhancement”             managers. Does not include AllianceBernstein, Invesco, and
                                                                                           TCW, which have sold all investments.
supporting them:579
                                                                                           Source: PPIF Monthly Performance Reports, September 2012.


•	 Super Senior — most senior originally rated AAA bonds in a CMBS
   securitization with the highest level of credit enhancement. Credit enhancement
   refers to the percentage of the underlying mortgage pool by balance that
   must be written down before the bond suffers any losses. Super senior bonds
   often compose approximately 70% of a securitization and, therefore, have
   approximately 30% credit enhancement at issuance.
•	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
   receive interest and principal payments after super senior creditors but before
   junior creditors.580 AM bonds often compose approximately 10% of a CMBS
   securitization.
148   special inspector general I troubled asset relief program




                                             •	 AJ (Junior) — the most junior bond in a CMBS securitization that attained a
                                                AAA rating at issuance.
                                             •	 Other (CMBS) — CMBS that do not meet the definitions for super senior,
                                                AM, or AJ but meet the definition of “eligible assets” above.

                                               Figure 2.5 and Figure 2.6 show the distribution of non-agency RMBS and
                                             CMBS investments held in PPIP by respective risk levels, as reported by PPIP
                                             managers.

                                             Figure 2.5	                                                   Figure 2.6
                                             AGGREGATE RMBS BY QUALITY IN                                  AGGREGATE CMBS BY QUALITY IN
                                             PPIP PORTFOLIOS, AS OF 9/30/2012                              PPIP PORTFOLIOS, AS OF 9/30/2012
                                             Percentage of $10.3 Billion                                   Percentage of $3.7 Billion


                                                     Other - RMBS a 0%                                                                1% Super Senior
                                                          Option ARM                                              Other - CMBS 2%
                                                                                   Prime
                                                                      4%
                                                                             28%

                                              Subprime     15%
                                                                                                           AJ (Junior) 40%                      58% AM (Mezzanine)

                                                                           52%

                                                                                   Alt-A



                                             Notes: Numbers may be affected due to rounding. Calculated    Notes: Numbers may be affected due to rounding. Calculated
                                             based on monthly data supplied by the PPIF managers. Does     based on monthly data supplied by the PPIF managers. Does
                                             not include AllianceBernstein, Invesco, and TCW, which have   not include AllianceBernstein, Invesco, and TCW, which have
                                             sold all investments.                                         sold all investments.
                                             a
                                               The actual percentage for “Other RMBS” is 0.67%.

                                             Source: PPIF Monthly Performance Reports, September 2012.     Source: PPIF Monthly Performance Reports, September 2012.


                                                Non-agency RMBS and CMBS can be classified geographically, according to
                                             the states where the underlying mortgages are held. Figure 2.7 and Figure 2.8 show
                                             the states with the greatest representation in the underlying non-agency RMBS and
                                             CMBS investments in PPIFs, as reported by PPIP managers.
                                                                                                                    quarterly report to congress I October 25, 2012   149




Figure 2.7	                                                      Figure 2.8
AGGREGATE GEOGRAPHICAL                                           AGGREGATE GEOGRAPHICAL
DISTRIBUTION — PERCENT OF                                        DISTRIBUTION — PERCENT OF
TOTAL RMBS, AS OF 9/30/2012                                      TOTAL CMBS, AS OF 9/30/2012

     40%                                                              15%
                                                                               15%
                                                                                           14%
              35%
      30
                                                                      10

      20                                                                                                8%

                                                                        5
                                                                                                                     6%
      10
                           11%
                                                   4%
                                       7%
       0                                                                0
               CA          FL           NY         NJ                           CA          NY           TX          FL

Notes: Numbers may be affected due to rounding. Only states      Notes: Numbers may be affected due to rounding. Only states
with largest representation shown. Calculated based on monthly   with largest representation shown. Calculated based on monthly
data supplied by the PPIF managers. Does not include             data supplied by the PPIF managers. Does not include
AllianceBernstein, Invesco, and TCW, which have sold all         AllianceBernstein, Invesco, and TCW, which have sold all
investments.                                                     investments.

Source: PPIF Monthly Performance Reports, September 2012.        Source: PPIF Monthly Performance Reports, September 2012.


   Non-agency RMBS and CMBS can also be classified by the delinquency of
the underlying mortgages. Figure 2.9 and Figure 2.10 show the distribution of
non-agency RMBS and CMBS investments held in PPIP by delinquency levels, as
reported by PPIP managers.

Figure 2.9	                                                      Figure 2.10
AGGREGATE AVERAGE RMBS                                           AGGREGATE AVERAGE CMBS
DELINQUENCIES BY MARKET VALUE IN                                 DELINQUENCIES BY MARKET VALUE IN
PPIP PORTFOLIOS, AS OF 9/30/2012                                 PPIP PORTFOLIOS, AS OF 9/30/2012
Percentage of $10.3 Billion                                      Percentage of $3.7 Billion


                                                                 2% 30−59 Days          60+ Days

                                                                                       11%
  60+ Days      28%



   30−59 3%                            69% Current
   Days

                                                                                                   87%
                                                                                                           Current


Notes: Numbers may be affected due to rounding. Calculated       Notes: Numbers may be affected due to rounding. Calculated
based on monthly data supplied by the PPIF managers. Does        based on monthly data supplied by the PPIF managers. Does
not include AllianceBernstein, Invesco, and TCW, which have      not include AllianceBernstein, Invesco, and TCW, which have
sold all investments.                                            sold all investments.

Source: PPIF Monthly Performance Reports, September 2012.        Source: PPIF Monthly Performance Reports, September 2012.
150            special inspector general I troubled asset relief program




                                                      Unlocking Credit for Small Businesses (“UCSB”)/Small
      7(a) Loan Program: SBA loan program
                                                      Business Administration (“SBA”) Loan Support Initiative
      guaranteeing a percentage of loans for
                                                      On March 16, 2009, Treasury announced the Unlocking Credit for Small
      small businesses that cannot otherwise
                                                      Businesses (“UCSB”) program, which according to Treasury was designed to
      obtain conventional loans at reasonable
                                                      encourage banks to increase lending to small businesses. Through UCSB, Treasury
      terms.
                                                      purchased $368.1 million in securities backed by pools of loans from the Small
                                                      Business Administration’s (“SBA”) 7(a) Loan Program.581
      Pool Assemblers: Firms authorized
                                                          Treasury signed contracts with two pool assemblers, Coastal Securities, Inc.
      to create and market pools of SBA-
                                                      (“Coastal Securities”), and Shay Financial Services, Inc. (“Shay Financial”), on
      guaranteed loans.
                                                      March 2, 2010, and August 27, 2010, respectively.582 Under the governing agree-
                                                      ment, EARNEST Partners, on behalf of Treasury, purchased SBA pool certificates
      SBA Pool Certificates: Ownership
                                                      from Coastal Securities and Shay Financial without confirming to the counterpar-
      interest in a bond backed by SBA-
                                                      ties that Treasury was the buyer.583 From March 19, 2010, to September 28, 2010,
      guaranteed loans.
                                                      Treasury purchased 31 floating-rate 7(a) securities from Coastal Securities and
                                                      Shay Financial for a total of approximately $368.1 million.584
                                                          In a series of sales from June 2011 through January 2012, Treasury sold all its
                                                      SBA 7(a) securities, for total proceeds of $334.9 million, ending the program.585
      For more information on SBA 7(a) Loan
                                                      According to Treasury, over the life of the program Treasury also had received
      Program mechanics and TARP support
      for the program, see SIGTARP’s April            $29 million and $13.3 million in amortizing principal and interest payments,
      2010 Quarterly Report, pages 105-106.           respectively.586

      For a full listing of the SBA 7(a)
      securities Treasury purchased through
      UCSB, including investment amounts,
      sales proceeds, and other proceeds
      received by Treasury, see SIGTARP’s
      April 2012 Quarterly Report, page 134.
                                                                            quarterly report to congress I October 25, 2012   151




Automotive Industry Support Programs
During the financial crisis, Treasury, through TARP, launched three automotive
industry support programs: the Automotive Industry Financing Program (“AIFP”),
the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
Program (“AWCP”). According to Treasury, these programs were established “to
prevent a significant disruption of the American automotive industry that poses
a systemic risk to financial market stability and will have a negative effect on the
economy of the United States.”587 As of September 30, 2012, General Motors
Company (“New GM” or “GM”) and GMAC Inc. (“GMAC”), now Ally Financial
Inc. (“Ally Financial”), remain in TARP.
     AIFP has not expended any TARP funds for the automotive industry since
December 30, 2009.588 ASSP, designed to “ensure that automotive suppliers receive
compensation for their services and products,” was terminated in April 2010 after
all $413.1 million in loans made through it were fully repaid.589 AWCP, a $640.7
million program, was designed to assure car buyers that the warranties on any
vehicles purchased during the bankruptcies of General Motors Corp. (“Old GM”)
and Chrysler LLC (“Old Chrysler”) would be guaranteed by the Government. It
was terminated in July 2009 after all loans under the program were fully repaid
upon the companies’ emergence from bankruptcy.590
     Treasury obligated approximately $84.8 billion through these three programs
to Old GM and GM, Ally Financial, the Chrysler entities (Chrysler Holding LLC
[now called CGI Holding LLC], Chrysler LLC [collectively, with CGI Holding
LLC, “Old Chrysler”], Chrysler Group LLC [“New Chrysler”]), and Chrysler
Financial Services Americas LLC (“Chrysler Financial”).591 Treasury originally
obligated $5 billion under ASSP but adjusted this amount to $413.1 million to
reflect actual borrowings, thereby reducing at that time the total obligation for all
automotive industry support programs to approximately $81.8 billion. Treasury
spent $79.7 billion in TARP funds on the auto bailout because $2.1 billion in loan
commitments to New Chrysler were never drawn down.592 As of September 30,
2012, Treasury had received approximately $35.2 billion in principal repayments,
proceeds from preferred stock redemptions, and stock sale proceeds in addition to
$4.9 billion in dividends and interest.593 Taxpayers are owed $44.5 billion in TARP
auto funds. This includes the $2.9 billion loss on Chrysler. The amount and types
of Treasury’s outstanding AIFP investments have changed over time as a result
of principal repayments, preferred stock redemptions by the issuer, Treasury’s
sale of common stock, old loan conversions (into equity), and post-bankruptcy
restructurings.
     Treasury now holds 32% of the common stock outstanding in New GM.594
Treasury also holds an administrative claim in Old GM’s bankruptcy with an
outstanding principal amount of approximately $849.2 million based on loans
made to Old GM. However, according to Treasury, it does not expect to recover any
significant additional proceeds from this claim.595 Additionally, Treasury holds $5.9
billion in mandatorily convertible preferred shares (“MCP”) and approximately 74%
of the common equity in Ally Financial.596 On July 21, 2011, Treasury sold to Fiat
152   special inspector general I troubled asset relief program




                                             North America LLC (“Fiat”) Treasury’s remaining equity ownership interest in New
                                             Chrysler and Treasury’s rights to receive proceeds under an agreement with the
                                             United Auto Workers (“UAW”) retiree trust pertaining to the trust’s shares in New
                                             Chrysler. Treasury retains the right to recover certain proceeds from Old Chrysler’s
                                             bankruptcy but, according to Treasury, it is unlikely to fully recover this claim.597
                                                 Treasury’s investments in these three programs and the companies’ payments
                                             of principal are summarized in Table 2.42 and, for Chrysler and GM, categorized
                                             by the timing of the investment in relation to the companies’ progressions through
                                             bankruptcy.

                                             Table 2.42
                                              TARP Automotive programs expenditures and payments,
                                              AS OF 9/30/2012 ($ BILLIONS)
                                                                                                                        Chrysler            Ally Financial Inc.
                                                                                  Chryslera                GMb          Financial           (formerly GMAC)d                  Total
                                              Pre-Bankruptcy
                                                 AIFP                                   $4.0            $19.4                 $1.5                         $17.2             $42.1
                                                 ASSPc                                    0.1               0.3                                                                  0.4
                                                 AWCP                                     0.3               0.4                                                                  0.6
                                                 Subtotal                               $4.4           $20.1                  $1.5                         $17.2             $43.1
                                              In-Bankruptcy
                                              (DIP Financing)
                                                 AIFP                                   $1.9            $30.1                                                                $32.0
                                                 Subtotal                               $1.9           $30.1                                                                 $32.0
                                              Post-Bankruptcy
                                              (Working Capital)
                                                 AIFP                                   $4.6                                                                                   $4.6
                                                 Subtotal                               $4.6                                                                                   $4.6
                                              Subtotals by Program:
                                                 AIFP                                                                                                                        $78.7
                                                 ASSP                                                                                                                            0.4
                                                 AWCP                                                                                                                            0.6
                                              Total Expenditures                      $10.9            $50.2                  $1.5                         $17.2             $79.7
                                              Principal Repaid to
                                                                                       ($8.0)          ($23.2)               ($1.5)                         ($2.5)e          ($35.2)
                                              Treasury
                                              Net Expenditures                          $2.9           $27.0                  $0.0                         $14.7             $44.5
                                              Total Loss on
                                                                                        $2.9                                                                                   $2.9
                                              Investment
                                              Notes: Numbers may not total due to rounding.
                                              a
                                                Total repayments including Treasury’s sale to Fiat of its equity ownership interest in New Chrysler and Treasury’s rights to receive
                                                proceeds under an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the trust’s shares in New Chrysler for
                                                $560 million on July 21, 2011.
                                              b
                                                Including GM’s debt payments of $50 million on March 31, 2011, $45 million on April 5, 2011, approximately $15.9 million on
                                                May 3, 2011, approximately $0.1 million on December 16, 2011, approximately $18.9 million on December 23, 2011, and
                                                approximately $6.7 million on January 11, 2012.
                                              c
                                                The final commitment and repayment amounts reflect the total funds expended under the ASSP loans. Treasury initially obligated $5
                                                billion under ASSP. Treasury adjusted its obligation to $0.4 billion.
                                              d
                                                Total expenditures include $884 million loan to Old GM, which Old GM invested in GMAC in January 2009.
                                              e
                                                On March 2, 2011, Treasury entered into an underwriting offering of its Ally Financial TRUPS, which resulted in approximately $2.5
                                                billion in principal repayment to Treasury.

                                              Source: Treasury, Transactions Report, 9/28/2012.
                                                                            quarterly report to congress I October 25, 2012   153




Automotive Industry Financing Program
Treasury provided $79.7 billion through AIFP to support automakers and
their financing arms in order to “avoid a disorderly bankruptcy of one or
more auto[motive] companies.”598 As of September 30, 2012, Treasury had
received approximately $4.9 billion in dividends and interest from participating
companies.599 Of AIFP-related loan principal repayments and share sale proceeds,
Treasury has received approximately $22.5 billion related to its GM investment,
$7.6 billion related to its Chrysler investment, $2.5 billion related to its Ally
Financial/GMAC investment, and $1.5 billion related to its Chrysler Financial
investment.600 As discussed below, additional payments of $640.7 million and
$413.1 million, respectively, were received under AWCP and ASSP.601
     Taxpayers are still owed $27 billion for the TARP investment in GM and $14.7
billion for the TARP investment in Ally Financial.602 Taxpayers suffered a $2.9 bil-
lion loss on the TARP investment in Chrysler. Chrysler Financial fully repaid the
TARP investment.

GM
GM is still in TARP and taxpayers are owed $27 billion for the investment in
GM. In return for its investment, as of September 30, 2012, Treasury holds 32%
of GM’s outstanding common stock. Through September 30, 2012, Treasury
had provided approximately $49.5 billion to GM through AIFP. Of that amount,
$19.4 billion was provided before bankruptcy and $30.1 billion was provided as
financing during bankruptcy. During bankruptcy proceedings, Treasury’s loans were
converted into common or preferred stock in New GM or debt assumed by New
GM. As a result of Old GM’s bankruptcy, Treasury’s investment in Old GM was
converted to a 60.8% common equity stake in New GM, $2.1 billion in preferred
stock in New GM, and a $7.1 billion loan to New GM ($6.7 billion through AIFP
and $360.6 million through AWCP). As part of a credit agreement with Treasury,
$16.4 billion in TARP funds were placed in an escrow account that GM could
access only with Treasury’s permission.603 In addition, Treasury has a claim in Old
GM’s bankruptcy but does not expect to recover any significant additional proceeds
from this claim.604

Debt Repayments
As of September 30, 2012, the GM entities had made approximately $756.7
million in dividend and interest payments to Treasury under AIFP.605 New GM
repaid the $6.7 billion loan provided through AIFP with interest, using a portion
of the escrow account that had been funded with TARP funds. What remained in
escrow was released to New GM with the final debt payment by New GM.606

Sale of GM Common Stock and GM’s Repurchase of Preferred Shares
From Treasury
In November and December 2010, New GM successfully completed an initial
public offering (“IPO”) in which New GM’s shareholders sold 549.7 million shares
154           special inspector general I troubled asset relief program




                                                     of common stock and 100 million shares of Series B mandatorily convertible
                                                     preferred shares (“MCP”) for total gross proceeds of $23.1 billion.607 As part of the
                                                     IPO, Treasury sold 412.3 million common shares for $13.5 billion in net proceeds
                                                     (after taking into account underwriting fees associated with the IPO), reducing its
                                                     number of common shares to 500.1 million and its ownership in New GM from
                                                     60.8% to 33.3%.608 On December 15, 2010, GM repurchased Treasury’s Series A
                                                     preferred stock (83.9 million shares) for total proceeds of $2.1 billion and a capital
                                                     gain to Treasury of approximately $41.9 million.609 On January 13, 2011, Treasury’s
                                                     ownership in GM was diluted from 33.3% to 32% as a result of GM contributing
                                                     61 million of its common shares to fund GM’s hourly and salaried pension plans.610
                                                          In order to recoup its total investment in GM, Treasury will need to recover an
                                                     additional $27 billion in proceeds. This translates to an average of $53.98 per share
                                                     on its remaining common shares in New GM, not taking into account dividend
      For more on the results of GM’s                and interest payments received from the GM entities.611 The break-even price
      November 2010 IPO, see SIGTARP’s               — $53.98 per share — is calculated by dividing the $27 billion (the amount that
      January 2011 Quarterly Report, page            remains outstanding to Treasury) by the 500.1 million remaining common shares
      163.                                           owned by Treasury. If the $756.7 million in dividends and interest received by
                                                     Treasury is included in this computation, then Treasury will need to recover $26.2
                                                     billion in proceeds, which translates into a break-even price of $52.39 per share,
                                                     not taking into account other fees or costs associated with selling the shares.

                                                     Chrysler
                                                     Chrysler is no longer in TARP and taxpayers suffered a $2.9 billion loss on
                                                     the TARP investment in Chrysler. Through October 3, 2010, Treasury made
                                                     approximately $12.5 billion available to Chrysler directly through AIFP in three
                                                     stages to three corporate entities: $4 billion before bankruptcy to CGI Holding
                                                     LLC — the parent company of Old Chrysler (the bankrupt entity) — and Chrysler
                                                     Financial; $1.9 billion in financing to Old Chrysler during bankruptcy; and $6.6
                                                     billion to New Chrysler.612 In consideration for its assistance to Chrysler, Treasury
                                                     received 9.9% of the common equity in New Chrysler.
                                                          On April 30, 2010, following the bankruptcy court’s approval of the plan of
                                                     liquidation for Old Chrysler, the $1.9 billion loan was extinguished without repay-
                                                     ment. In return, Treasury retained the right to recover proceeds from the sale of as-
                                                     sets that were collateral for the loan from the liquidation of Old Chrysler assets.613
                                                     According to Treasury, it is unlikely to fully recover its initial investment of ap-
                                                     proximately $1.9 billion related to the loan.614 As of September 30, 2012, Treasury
                                                     had recovered approximately $57.4 million from asset sales by Old Chrysler.615 Of
                                                     the $4 billion lent to Old Chrysler’s parent company, CGI Holding LLC, before
                                                     bankruptcy, $500 million of the debt was assumed by New Chrysler while the
                                                     remaining $3.5 billion was held by CGI Holding LLC.616 Under the terms of this
                                                     loan agreement, as amended on July 23, 2009, Treasury was entitled to the greater
                                                     of approximately $1.4 billion or 40% of any proceeds that Chrysler Financial paid
                                                     to its parent company, CGI Holding LLC, after certain other distributions were
                                                     made.617 On May 14, 2010, Treasury accepted $1.9 billion in full satisfaction of its
                                                     $3.5 billion loan to CGI Holding LLC.618
                                                                            quarterly report to congress I October 25, 2012   155




     On May 24, 2011, New Chrysler used the proceeds from a series of refinanc-
ing transactions and an equity call option exercised by Fiat to repay the loans from
Treasury and the Canadian government.619 The repaid loans were made up of $6.6
billion in post-bankruptcy financing (of which $2.1 billion was never drawn down),
and the $500 million in debt assumed by New Chrysler.620 Treasury terminated
New Chrysler’s ability to draw the remaining $2.1 billion TARP loan.621
     Over time, Fiat increased its ownership of New Chrysler. On July 21, 2011,
Treasury sold to Fiat for $500 million Treasury’s remaining equity ownership inter-
est in New Chrysler. Treasury also sold to Fiat for $60 million Treasury’s rights to
receive proceeds under an agreement with the United Auto Workers retiree trust
pertaining to the trust’s shares in New Chrysler.622
     As of July 21, 2011, the Chrysler entities made approximately $1.2 billion in
interest payments to Treasury under AIFP.623

Automotive Financing Companies
Ally Financial, formerly known as GMAC
Ally Financial is still in TARP and taxpayers are owed $14.7 billion for the TARP
investment in Ally Financial. In return for its investment, as of September 30,
2012, Treasury holds approximately 74% of Ally Financial’s common stock and $5.9
billion worth of mandatorily convertible preferred shares (“MCP”). On December
29, 2008, Treasury purchased $5 billion in senior preferred equity from GMAC
and received an additional $250 million in preferred shares through warrants that
Treasury exercised immediately at a cost of $2,500.624 In January 2009, Treasury
loaned Old GM $884 million, which it invested in GMAC.625 In May 2009,
Treasury exchanged this $884 million debt for a 35.4% common equity ownership
in GMAC.626
     On May 21, 2009, Treasury made an additional investment in GMAC when it
purchased $7.5 billion of MCP and received warrants that Treasury immediately
exercised for an additional $375 million in MCP at an additional cost of ap-
proximately $75,000.627 On December 30, 2009, Treasury invested another $3.8
billion in GMAC, and Treasury received $2.5 billion in trust preferred securities
(“TRUPS”) and $1.3 billion in MCP. Treasury also received warrants, which were
immediately exercised, to purchase an additional $127 million in TRUPS and
$62.5 million in MCP at an additional cost of approximately $1,270 and $12,500,
respectively.628 Additionally, Treasury converted $3 billion of its MCP into GMAC
common stock, increasing its common equity ownership from 35.4% to 56.3%.629
On May 10, 2010, GMAC changed its name to Ally Financial Inc.630
     On December 30, 2010, Treasury announced the conversion of $5.5 billion of
its MCP in Ally Financial to common equity, increasing Treasury’s ownership stake
in Ally Financial’s common equity from 56.3% to 74%.631 As a result, Treasury will
no longer receive the quarterly dividend payments that Ally Financial was required
to pay on the $5.5 billion of MCP. On March 7, 2011, Treasury sold its $2.7 billion
in TRUPS in Ally Financial in a public offering, resulting in $2.7 billion in total
proceeds to Treasury.632
156               special inspector general I troubled asset relief program




 Figure 2.11                                                              As a result of its conversion of MCP to common stock in Ally Financial, and
                                                                      for as long as Treasury maintains common equity ownership at or above 70.8%,
 OWNERSHIP IN ALLY FINANCIAL/GMAC                                     Treasury can appoint six of the 11 directors on Ally Financial’s board.633 On August
                                                                      15, 2012, Treasury appointed Gerald Greenwald and Henry S. Miller as directors
                GM Trust                                              of Ally Financial, bringing to six the number of directors it has appointed.634 The
  Third-Party
                          10%
                                                                      conversion of $5.5 billion of Treasury’s MCP diluted the shares of other existing
  Investors
                   8%                                                 shareholders in Ally Financial. Following the conversion, the private equity firm
  Cerberus 9%                                       United States
                                                                      Cerberus Capital Management, L.P. (“Cerberus”) held 8.7%, third-party investors
                                           74%      Department        collectively held 7.6%, an independently managed trust owned by New GM held
                                                    of the
                                                    Treasury          5.9%, and New GM directly held a 4% stake in Ally Financial’s common equity.635
                                                                      New GM’s interests have since been consolidated in the trust. Figure 2.11 shows
                                                                      the breakdown of common equity ownership in Ally Financial as of September 30,
                                                                      2012.
 Notes: Numbers may be affected due to rounding.

 Source: Ally Financial, Inc.: “Ownership Structure,” http://media.   Proposed Ally Financial IPO
 ally.com/index.php?s=51, accessed 10/5/2012.
                                                                      On March 31, 2011, Ally Financial filed a Form S-1 Registration statement for
                                                                      an IPO with the Securities and Exchange Commission (“SEC”).636 The document
                                                                      includes a prospectus relating to the issuance of Ally Financial common stock.637
                                                                      The prospectus also outlines certain aspects of Ally Financial’s business operations
                                                                      and risks facing the company.638
                                                                          Ally Financial stated that the proposed IPO would consist of “common stock
                                                                      to be sold by the U.S. Department of the Treasury.”639 Ally Financial has disclosed
                                                                      additional details about its proposed IPO in several amended Form S-1 Registration
                                                                      statements filed over time with the SEC, the most recent on October 5, 2012.640
                                                                      Concurrent with the proposed IPO, Treasury plans to convert $2.9 billion of its
                                                                      existing $5.9 billion of MCP into common stock.641 Treasury will exchange the
                                                                      remaining $3 billion of its MCP into so-called tangible equity units, a type of
                                                                      preferred stock, and will offer a portion of these tangible equity units alongside
                                                                      the proposed common equity offering.642 Treasury agreed to be named as a seller
                                                                      but retained the right to decide whether to sell any of its 74% ownership of Ally
                                                                      Financial’s common stock and in what amounts.643
                                                                          As of September 30, 2012, taxpayers are owed $14.7 billion for the TARP
                                                                      investment in Ally Financial. In return for the TARP investment Treasury holds
                                                                      74% of Ally Financial’s common stock and $5.9 billion in MCP.644 Treasury also
                                                                      exercised warrants at a cost of $90,015 to purchase securities with a par value of
                                                                      approximately $688 million: $250 million in preferred shares (which were later
                                                                      converted to MCP) and $438 million in additional MCP.645
                                                                          As of September 30, 2012, Ally Financial had made approximately $3 billion in
                                                                      dividend and interest payments to Treasury.646

                                                                      Ally Financial Subsidiary Files for Chapter 11 Bankruptcy Relief
                                                                      On May 14, 2012, Ally Financial announced that its mortgage subsidiary,
                                                                      Residential Capital, LLC, and certain of its subsidiaries (“ResCap”) filed for
                                                                      bankruptcy court relief under Chapter 11 of the U.S. Bankruptcy Code, and that it
                                                                      was exploring strategic alternatives for its international operations, which include
                                                                           quarterly report to congress I October 25, 2012   157




auto finance, insurance, and banking and deposit operations in Canada, Mexico,
Europe, the United Kingdom, and South America.647 Ally Financial also announced
that as a result of the Chapter 11 filing, ResCap was deconsolidated from Ally
Financial’s financial statements and Ally Financial’s equity interest in ResCap was
written down to zero.648

Chrysler Financial
Chrysler Financial is no longer in TARP, having fully repaid the TARP investment.
In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
support Chrysler Financial’s retail lending. On July 14, 2009, Chrysler Financial
fully repaid the loan in addition to approximately $7.4 million in interest
payments.649 In connection with the $3.5 billion pre-bankruptcy loan remaining
with CGI Holding LLC, the parent company of Old Chrysler (the bankrupt entity)
and Chrysler Financial, Treasury was entitled to the greater of approximately $1.4
billion or 40% of any proceeds that Chrysler Financial paid to its parent company,
CGI Holding LLC, after certain other distributions were made.650 On May 14,
2010, Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion loan
to CGI Holding LLC, thereby relinquishing any interest in or claim on Chrysler
Financial.651 Seven months later, on December 21, 2010, TD Bank Group
announced it had agreed to purchase Chrysler Financial from Cerberus, the owner
of CGI Holding LLC, for approximately $6.3 billion.652 TD Bank Group completed
its acquisition of Chrysler Financial on April 1, 2011, and has rebranded Chrysler
Financial under the TD Auto Finance brand.653

Auto Supplier Support Program (“ASSP”)
On March 19, 2009, Treasury announced a commitment of $5 billion to
ASSP to “help stabilize the automotive supply base and restore credit flows in a
critical sector of the American economy.”654 Because of concerns about the auto
manufacturers’ ability to pay their invoices, suppliers had not been able to borrow
from banks by using their receivables as collateral. ASSP enabled automotive parts
suppliers to access Government-backed protection for money owed to them for the
products they shipped to manufacturers. Under the program, Treasury made loans
for GM ($290 million) and Chrysler ($123.1 million) that were fully repaid in April
2010.655

Auto Warranty Commitment Program (“AWCP”)
AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
and GM vehicle warranties during the companies’ restructuring in bankruptcy.656
Treasury obligated $640.7 million to this program — $360.6 million for GM
and $280.1 million for Chrysler.657 On July 10, 2009, the companies fully repaid
Treasury upon their exit from bankruptcy.658
158   special inspector general I troubled asset relief program
sect io n 3
              TARP Operations and
              Administration
160   special inspector general I troubled asset relief program
                                                                             quarterly report to congress I October 25, 2012   161




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.659 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.660 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.




TARP Administrative and Program
Expenditures
As of September 30, 2012, Treasury has obligated $321.5 million for TARP
administrative costs and $797.9 million in programmatic expenditures for a total of
$1.1 billion since the beginning of TARP. Of that, $252 million has been obligated
in the year since September 30, 2011. According to Treasury, as of September
30, 2012, it had spent $283.2 million on TARP administrative costs and $757.5
million on programmatic expenditures, for a total of $1 billion since the beginning
of TARP.661 Of that, $266.6 million has been spent in the year since September
30, 2011. Treasury reported that it employs 69 career civil servants, 94 term
appointees, and 23 reimbursable detailees, for a total of 186 full-time employees.662
Table 3.1 provides a summary of the expenditures and obligations for TARP
administrative costs through September 30, 2012. These costs are categorized as
“personnel services” and “non-personnel services.”
162   special inspector general I troubled asset relief program




                                             TABLE 3.1
                                              TARP ADMINISTRATIVE OBLIGATIONS AND EXPENDITURES
                                                                                                            Obligations for Period Expenditures for Period
                                             Budget Object Class Title                                        Ending 9/30/2012         Ending 9/30/2012
                                             Personnel Services
                                                Personnel Compensation & Benefits                                       $100,016,001                          $99,951,213
                                             Total Personnel Services                                                 $100,016,001                           $99,951,213


                                             Non-Personnel Services
                                                Travel & Transportation of Persons                                         $2,042,767                           $2,014,955
                                                Transportation of Things                                                         11,960                               11,960
                                                Rents, Communications, Utilities & Misc.
                                                Charges                                                                         764,665                             689,902
                                                Printing & Reproduction                                                               402                                  402
                                                Other Services                                                           216,848,921                          178,928,587
                                                Supplies & Materials                                                         1,569,141                            1,381,707
                                                Equipment                                                                       253,286                             243,907
                                                Land & Structures                                                                       —                                    —
                                                Dividends and Interest                                                                634                                  634
                                             Total Non-Personnel Services                                             $221,491,776                         $183,272,055
                                             Grand Total                                                              $321,507,777                         $283,223,267
                                             Notes: Numbers may not total due to rounding. The cost associated with “Other Services” under TARP Administrative Expenditures and
                                             Obligations are composed of administrative services including financial, administrative, IT and legal (non-programmatic) support.

                                             Source: Treasury, response to SIGTARP data call, 10/4/2012.




                                             Current Contractors and Financial
                                             Agents
                                             As of September 30, 2012, Treasury had retained 142 private vendors: 18 financial
                                             agents and 124 contractors, to help administer TARP.663 That is an increase of
                                             22 vendors since September 30, 2011, including one financial agent and 21
                                             contractors. Table 3.2 provides a summary of the programmatic expenditures,
                                             which include costs to hire financial agents and contractors, and obligations
                                             through September 30, 2012, excluding costs and obligations related to personnel
                                             services and travel and transportation. Although Treasury has informed SIGTARP
                                             that it “does not track” the number of individuals who provide services under
                                             its agreements, the number likely dwarfs the 186 that Treasury has identified
                                             as working for OFS.664 For example, on October 14, 2010, the Congressional
                                             Oversight Panel (“COP”) reported that “Fannie Mae alone currently has 600
                                             employees working to fulfill its TARP commitments.”665
                                                                                      quarterly report to congress I October 25, 2012              163




TABLE 3.2
 OFS SERVICE CONTRACTS
                                                                                      Type of
 Date         Vendor                             Purpose                              Transaction       Obligated Value        Expended Value
              Simpson Thacher & Bartlett MNP     Legal services for the
 10/10/2008                                                                           Contract                $931,090                $931,090
              LLP                                implementation of TARP
 10/11/2008   Ennis Knupp & Associates Inc.1     Investment and Advisory Services     Contract                2,635,827              2,635,827
              The Bank of New York Mellon                                             Financial
 10/14/2008                                      Custodian                                                  47,797,435              47,577,986
              Corporation                                                             Agent
 10/16/2008   PricewaterhouseCoopers             Internal control services            Contract              34,921,161              33,144,582
                                                 For process mapping consultant       Interagency
 10/17/2008   Turner Consulting Group, Inc.2                                                                      9,000                      —
                                                 services                             Agreement
 10/18/2008   Ernst & Young LLP                  Accounting Services                  Contract              14,550,519              13,640,626
                                                 Legal services for the Capital
 10/29/2008   Hughes Hubbard & Reed LLP                                               Contract                3,060,921              2,835,357
                                                 Purchase Program
                                                 Legal services for the Capital
 10/29/2008   Squire, Sanders & Dempsey LLP                                           Contract                2,687,999              2,687,999
                                                 Purchase Program
 10/31/2008   Lindholm & Associates, Inc.        Human resources services             Contract                 614,963                  614,963
              Sonnenschein Nath & Rosenthal      Legal services related to auto
 11/7/2008                                                                            Contract                2,702,441              2,702,441
              LLP4                               industry loans
                                                                                      Interagency
 11/9/2008    Internal Revenue Service           Detailees                                                       97,239                  97,239
                                                                                      Agreement
                                                                                      Interagency
 11/17/2008   Internal Revenue Service           CSC Systems & Solutions LLC2                                     8,095                   8,095
                                                                                      Agreement
              Department of the Treasury —                                            Interagency
 11/25/2008                                      Administrative Support                                     16,512,820              16,131,121
              Departmental Offices                                                    Agreement
              Alcohol and Tobacco Tax and        IAA — TTB Development, Mgmt &        Interagency
 12/3/2008                                                                                                       67,489                  67,489
              Trade Bureau                       Operation of SharePoint              Agreement
                                                                                      Interagency
 12/5/2008    Washington Post3                   Subscription                                                       395                      —
                                                                                      Agreement
              Sonnenschein Nath & Rosenthal      Legal services for the purchase of
 12/10/2008                                                                           Contract                 102,769                  102,769
              LLP4                               assets-backed securities
                                                 Admin action to correct system
 12/10/2008   Thacher Proffitt & Wood4                                                Contract                       —                       —
                                                 issue
                                                                                      Interagency
 12/15/2008   Office of Thrift Supervision       Detailees                                                     225,547                  164,823
                                                                                      Agreement
              Department of Housing and                                               Interagency
 12/16/2008                                      Detailees                                                           —                       —
              Urban Development                                                       Agreement
                                                                                      Interagency
 12/22/2008   Office of Thrift Supervision       Detailees                                                           —                       —
                                                                                      Agreement
 12/24/2008   Cushman and Wakefield of VA Inc.   Painting Services for TARP Offices   Contract                    8,750                   8,750
              Securities and Exchange                                                 Interagency
 1/6/2009                                        Detailees                                                       30,416                  30,416
              Commission                                                              Agreement
 1/7/2009     Colonial Parking Inc.              Lease of parking spaces              Contract                 338,050                  224,033
              Cadwalader Wickersham & Taft
 1/27/2009                                       Bankruptcy Legal Services            Contract                 409,955                  409,955
              LLP
                                                                                                                          Continued on next page
164          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                           Type of
      Date         Vendor                             Purpose                              Transaction   Obligated Value        Expended Value
                   Whitaker Brothers Bus Machines
      1/27/2009                                       Paper Shredder                       Contract              $3,213                  $3,213
                   Inc.
                                                                                           Interagency
      1/30/2009    Comptroller of the Currency        Detailees                                                 501,118                 501,118
                                                                                           Agreement
                                                      IAA — GAO required by P.L. 110-
                   US Government Accountability                                            Interagency
      2/2/2009                                        343 to conduct certain activities                       7,459,049               7,459,049
                   Office                                                                  Agreement
                                                      related to TARP IAA
                                                                                           Interagency
      2/3/2009     Internal Revenue Service           Detailees                                                 242,499                 242,499
                                                                                           Agreement
                                                      Temporary Services for Document
      2/9/2009     Pat Taylor & Associates, Inc.      Production, FOIA assistance, and     Contract             692,108                 692,108
                                                      Program Support
                                                      Initiate Interim Legal Services in
      2/12/2009    Locke Lord Bissell & Liddell LLP   support of Treasury Investments      Contract             272,243                 272,243
                                                      under EESA
                                                      Homeownership Preservation           Financial
      2/18/2009    Fannie Mae                                                                               316,156,252             309,240,202
                                                      Program                              Agent
                                                      Homeownership Preservation           Financial
      2/18/2009    Freddie Mac                                                                              209,158,529             204,691,365
                                                      Program                              Agent
                                                                                           Interagency
      2/20/2009    Financial Clerk U.S. Senate        Congressional Oversight Panel                           3,394,348               3,394,348
                                                                                           Agreement
                                                                                           Interagency
      2/20/2009    Office of Thrift Supervision       Detailees                                                 203,390                 189,533
                                                                                           Agreement
                   Simpson Thacher & Bartlett MNP
      2/20/2009                                       Capital Assistance Program (I)       Contract           1,530,023               1,530,023
                   LLP
                                                      Capital Assistance Program (II)
      2/20/2009    Venable LLP                                                             Contract           1,394,724               1,394,724
                                                      Legal Services
                   Securities and Exchange                                                 Interagency
      2/26/2009                                       Detailees                                                  18,531                  18,531
                   Commission                                                              Agreement
                   Pension Benefit Guaranty                                                Interagency
      2/27/2009                                       Rothschild, Inc.                                        7,750,000               7,750,000
                   Corporation                                                             Agreement
                                                      Management Consulting relating to
      3/6/2009     The Boston Consulting Group                                             Contract             991,169                 991,169
                                                      the Auto industry
                                                      Small Business Assistance            Financial
      3/16/2009    Earnest Partners                                                                           2,947,780               2,947,780
                                                      Program                              Agent
                                                      SBA Initiative Legal Services —
      3/30/2009    Bingham McCutchen LLP5             Contract Novated from TOFS-          Contract             273,006                 143,893
                                                      09-D-0005 with McKee Nelson
                   Cadwalader Wickersham & Taft
      3/30/2009                                       Auto Investment Legal Services       Contract          17,392,786              17,392,786
                   LLP
      3/30/2009    Haynes and Boone, LLP              Auto Investment Legal Services       Contract             345,746                 345,746
                                                      SBA Initiative Legal Services
                                                      — Contract Novated to TOFS-
      3/30/2009    McKee Nelson   5
                                                                                           Contract             149,349                 126,631
                                                      10-D-0001 with Bingham
                                                      McCutchen LLP
                                                                                                                           Continued on next page
                                                                                      quarterly report to congress I October 25, 2012              165




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                      Type of
Date        Vendor                             Purpose                                Transaction       Obligated Value        Expended Value
            Sonnenschein Nath & Rosenthal
3/30/2009                                      Auto Investment Legal Services         Contract              $1,834,193              $1,834,193
            LLP4
                                               Credit Reform Modeling and
3/31/2009   FI Consulting Inc.                                                        Contract                4,124,750              3,232,552
                                               Analysis
                                                                                      Interagency
4/3/2009    American Furniture Rentals Inc.3   Furniture Rental 1801                                             35,187                  25,808
                                                                                      Agreement
                                               Management Consulting relating to
4/3/2009    The Boston Consulting Group                                               Contract                4,100,195              4,099,923
                                               the Auto industry
                                                                                      Interagency
4/17/2009   Bureau of Engraving and Printing   Detailee for PTR Support                                          45,822                  45,822
                                                                                      Agreement
4/17/2009   Herman Miller, Inc.                Aeron Chairs                           Contract                   53,799                  53,799
                                                                                      Financial
4/21/2009   AllianceBernstein LP               Asset Management Services                                    43,372,479              41,479,874
                                                                                      Agent
                                                                                      Financial
4/21/2009   FSI Group, LLC                     Asset Management Services                                    23,633,383              23,280,593
                                                                                      Agent
            Piedmont Investment Advisors,                                             Financial
4/21/2009                                      Asset Management Services                                    11,561,031              11,209,185
            LLC                                                                       Agent
                                                                                      Interagency
4/30/2009   Department of State                Detailees                                                             —                       —
                                                                                      Agreement
                                                                                      Interagency
5/5/2009    Federal Reserve Board              Detailees                                                         48,422                  48,422
                                                                                      Agreement
            Department of the Treasury —       “Making Home Affordable” Logo          Interagency
5/13/2009                                                                                                           325                     325
            U.S. Mint                          search                                 Agreement
                                               Executive Search and recruiting
5/14/2009   Knowledgebank Inc.2                Services — Chief Homeownership         Contract                 124,340                  124,340
                                               Officer
                                               Freedom of Information Act (FOIA)
                                               Analysts to support the Disclosure
5/15/2009   Phacil, Inc.                                                              Contract                   90,301                  90,301
                                               Services, Privacy and Treasury
                                               Records
            Securities and Exchange                                                   Interagency
5/20/2009                                      Detailees                                                       430,000                  430,000
            Commission                                                                Agreement
                                                                                      Interagency
5/22/2009   Department of Justice — ATF        Detailees                                                       243,778                  243,778
                                                                                      Agreement
                                               Legal services for work under
5/26/2009   Anderson, McCoy & Orta             Treasury’s Public Private Investment   Contract                2,286,996              2,286,996
                                               Funds (PPIF) program
                                               Legal services for work under
            Simpson Thacher & Bartlett MNP
5/26/2009                                      Treasury’s Public Private Investment   Contract                7,849,026              3,526,454
            LLP
                                               Funds (PPIF) program
                                                                                      Interagency
6/9/2009    Gartner, Inc.                      Financial Management Services                                     89,436                  89,436
                                                                                      Agreement
                                                                                      Interagency
6/29/2009   Department of the Interior         Federal Consulting Group (Foresee)                                49,000                  49,000
                                                                                      Agreement
                                                                                                                          Continued on next page
166          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                       Type of
      Date         Vendor                           Purpose                            Transaction   Obligated Value        Expended Value
                                                    Executive search services for
      7/17/2009    Korn/Ferry International         the OFS Chief Investment Officer   Contract             $74,023                 $74,023
                                                    position
                   Cadwalader Wickersham & Taft
      7/30/2009                                     Restructuring Legal Services       Contract           1,278,696               1,278,696
                   LLP
      7/30/2009    Debevoise & Plimpton LLP         Restructuring Legal Services       Contract               1,650                    1,650
                   Fox, Hefter, Swibel, Levin &
      7/30/2009                                     Restructuring Legal Services       Contract              26,493                  26,493
                   Carol, LLP
                                                                                       Interagency
      8/10/2009    Department of Justice — ATF      Detailees                                                63,109                  63,109
                                                                                       Agreement
                   National Aeronautics and Space                                      Interagency
      8/10/2009                                     Detailees                                               140,889                 140,889
                   Administration (NASA)                                               Agreement
                                                    Executive Compensation Data
      8/18/2009    Mercer (US) Inc.                                                    Contract               3,000                    3,000
                                                    Subscription
                                                                                       Interagency
      8/25/2009    Department of Justice — ATF      Detailees                                                63,248                  63,248
                                                                                       Agreement
      9/2/2009     Knowledge Mosaic Inc.            SEC filings subscription service   Contract               5,000                    5,000
                                                    Executive Compensation Data
      9/10/2009    Equilar, Inc.                                                       Contract              59,990                  59,990
                                                    Subscription
      9/11/2009    PricewaterhouseCoopers           PPIP compliance                    Contract           3,440,113               3,175,286
                                                                                       Interagency
      9/18/2009    Treasury Franchise Fund          BPD                                                     436,054                 436,054
                                                                                       Agreement
                                                                                       Interagency
      9/30/2009    Immixtechnology Inc.3            EnCase eDiscovery ProSuite                              210,184                       —
                                                                                       Agreement
                                                                                       Interagency
      9/30/2009    Immixtechnology Inc.3            Guidance Inc.                                           108,000                       —
                                                                                       Agreement
      9/30/2009    NNA INC.                         Newspaper delivery                 Contract               8,220                    8,220
                                                    SNL Unlimited, a web-based
      9/30/2009    SNL Financial LC                                                    Contract             460,000                 460,000
                                                    financial analytics service
                   Department of the Treasury —                                        Interagency
      11/9/2009                                     Administrative Support                               23,682,061              18,056,064
                   Departmental Offices                                                Agreement
                                                                                       Interagency
      12/16/2009   Internal Revenue Service         Detailees                                                    —                        —
                                                                                       Agreement
                                                                                       Financial
      12/22/2009   Avondale Investments LLC         Asset Management Services                               772,657                 772,657
                                                                                       Agent
                                                                                       Financial
      12/22/2009   Bell Rock Capital, LLC           Asset Management Services                             2,175,615               2,035,789
                                                                                       Agent
                   Howe Barnes Hoefer & Arnett,                                        Financial
      12/22/2009                                    Asset Management Services                             3,284,195               3,148,733
                   Inc.                                                                Agent
                                                    Document Production services and
      12/22/2009   Hughes Hubbard & Reed LLP                                           Contract           1,456,803                 868,544
                                                    Litigation Support
                                                                                       Financial
      12/22/2009   KBW Asset Management, Inc.       Asset Management Services                             4,937,433               4,937,433
                                                                                       Agent
                                                                                                                       Continued on next page
                                                                                      quarterly report to congress I October 25, 2012              167




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                      Type of
Date         Vendor                               Purpose                             Transaction       Obligated Value        Expended Value
                                                                                      Financial
12/22/2009   Lombardia Capital Partners, LLC      Asset Management Services                                 $3,242,419              $2,979,305
                                                                                      Agent
             Paradigm Asset Management                                                Financial
12/22/2009                                        Asset Management Services                                   3,298,978              3,223,246
             Co., LLC                                                                 Agent
                                                  IAA — GAO required by P.L.110-
             US Government Accountability                                             Interagency
1/14/2010                                         343 to conduct certain activities                           7,304,722              7,304,722
             Office                                                                   Agreement
                                                  related to TARP
             Association of Government
1/15/2010                                         CEAR Program Application            Contract                    5,000                   5,000
             Accountants
                                                                                      Interagency
2/16/2010    Internal Revenue Service             Detailees                                                      52,742                  52,742
                                                                                      Agreement
                                                  FNMA IR2 assessment — OFS task
2/16/2010    The MITRE Corporation                                                    Contract                 730,192                  730,192
                                                  order on Treasury MITRE Contract
                                                                                      Interagency
2/18/2010    Treasury Franchise Fund              BPD                                                         1,221,140              1,221,140
                                                                                      Agreement
3/8/2010     Qualx Corporation                    FOIA Support Services               Contract                 549,518                  549,518
             Department of the Treasury —                                             Interagency
3/12/2010                                         Administrative Support                                       671,731                  671,731
             Departmental Offices                                                     Agreement
                                                                                      Interagency
3/22/2010    Gartner, Inc.                        Financial Management Services                                  73,750                  73,750
                                                                                      Agreement
                                                                                      Interagency
3/26/2010    Federal Maritime Commission          Detailees                                                    158,600                  158,600
                                                                                      Agreement
                                                                                      Financial
3/29/2010    Morgan Stanley                       Disposition Agent Services                                16,685,290              16,685,290
                                                                                      Agent
                                                                                      Interagency
4/2/2010     Financial Clerk U.S. Senate          Congressional Oversight Panel                               4,797,556              4,797,556
                                                                                      Agreement
4/8/2010     Squire, Sanders & Dempsey LLP        Housing Legal Services              Contract                1,229,350                 918,224
4/12/2010    Hewitt EnnisKnupp, Inc. 1
                                                  Investment Consulting Services      Contract                5,543,750              3,411,581
                                                  Data and Document Management
4/22/2010    Digital Management Inc.                                                  Contract                       —                       —
                                                  Consulting Services
                                                  Data and Document Management
4/22/2010    MicroLink, LLC                                                           Contract              11,221,691               9,188,301
                                                  Consulting Services
                                                  Data and Document Management
4/23/2010    RDA Corporation                                                          Contract                6,626,280              4,867,546
                                                  Consulting Services
                                                                                      Interagency
5/4/2010     Internal Revenue Service             Training — Bulux CON 120                                        1,320                   1,320
                                                                                      Agreement
                                                                                      Financial
5/17/2010    Lazard Fréres & Co. LLC              Transaction Structuring Services                          15,032,527              12,844,086
                                                                                      Agent
                                                  Accurint subscription service for
6/24/2010    Reed Elsevier Inc (dba LexisNexis)                                       Contract                    8,208                   8,208
                                                  one year — 4 users
                                                  Financial Institution Management
             The George Washington
6/30/2010                                         & Modeling — Training course        Contract                    5,000                   5,000
             University
                                                  (J.Talley)
                                                                                                                          Continued on next page
168          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                          Type of
      Date         Vendor                            Purpose                              Transaction   Obligated Value        Expended Value
                                                     Program Compliance Support
      7/21/2010    Navigant Consulting                                                    Contract          $2,132,427                $393,059
                                                     Services
                                                     Program Compliance Support
      7/21/2010    Regis and Associates PC                                                Contract           1,406,297                 398,513
                                                     Services
                                                     Program Compliance Support
      7/22/2010    Ernst & Young LLP                                                      Contract           5,406,175               2,622,804
                                                     Services
                                                     Program Compliance Support
      7/22/2010    PricewaterhouseCoopers                                                 Contract                  —                        —
                                                     Services
      7/22/2010    Schiff Hardin LLP                 Housing Legal Services               Contract              97,526                  97,526
      7/27/2010    West Publishing Corporation       Subscription Service for 4 users     Contract               6,664                    6,664
                                                     Omnibus procurement for legal
      8/6/2010     Alston & Bird LLP                                                      Contract           1,357,061                 228,005
                                                     services
                   Cadwalader Wickersham & Taft      Omnibus procurement for legal
      8/6/2010                                                                            Contract           5,971,742               2,926,214
                   LLP                               services
                   Fox, Hefter, Swibel, Levin &      Omnibus procurement for legal
      8/6/2010                                                                            Contract             227,415                 151,522
                   Carol, LLP                        services
                                                     Omnibus procurement for legal
      8/6/2010     Haynes and Boone, LLP                                                  Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Hughes Hubbard & Reed LLP                                              Contract           1,975,498                 920,401
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Love & Long LLP                                                        Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Orrick Herrington Sutcliffe LLP                                        Contract                  —                        —
                                                     services
                   Paul, Weiss, Rifkind, Wharton &   Omnibus procurement for legal
      8/6/2010                                                                            Contract           6,504,194               3,680,228
                   Garrison LLP                      services
                                                     Omnibus procurement for legal
      8/6/2010     Perkins Coie LLP                                                       Contract                  —                        —
                                                     services
                                                     Omnibus procurement for legal
      8/6/2010     Seyfarth Shaw LLP                                                      Contract                  —                        —
                                                     services
                   Shulman, Rogers, Gandal, Pordy    Omnibus procurement for legal
      8/6/2010                                                                            Contract             367,641                 202,721
                   & Ecker, PA                       services
                   Sullivan Cove Reign Enterprises   Omnibus procurement for legal
      8/6/2010                                                                            Contract                  —                        —
                   JV                                services
                                                     Omnibus procurement for legal
      8/6/2010     Venable LLP                                                            Contract             498,100                      960
                                                     services
      8/12/2010    Knowledge Mosaic Inc.             SEC filings subscription service     Contract               5,000                    5,000
                   Department of Housing and                                              Interagency
      8/30/2010                                      Detailees                                                  29,915                  29,915
                   Urban Development                                                      Agreement
                                                     One-year subscription (3 users) to
                                                     the CQ Today Breaking News &
      9/1/2010     CQ-Roll Call Inc.                 Schedules, CQ Congressional &        Contract               7,500                    7,500
                                                     Financial Transcripts, CQ Custom
                                                     Email Alerts
                                                                                                                          Continued on next page
                                                                                     quarterly report to congress I October 25, 2012              169




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                     Type of
Date         Vendor                             Purpose                              Transaction       Obligated Value        Expended Value
                                                SBA 7(a) Security Purchase
9/17/2010    Bingham McCutchen LLP5                                                  Contract                 $19,975                  $11,177
                                                Program
                                                Program Operations Support
                                                Services to include project
9/27/2010    Davis Audrey Robinette             management, scanning and             Contract                2,390,222              2,173,154
                                                document management and
                                                correspondence
                                                GSA Task Order for procurement
                                                books — FAR, T&M, Government
9/30/2010    CCH Incorporated                                                        Contract                    2,430                   2,430
                                                Contracts Reference, World Class
                                                Contracting
                                                                                     Interagency
10/1/2010    Financial Clerk U.S. Senate        Congressional Oversight Panel                                5,200,000              2,777,752
                                                                                     Agreement
10/8/2010    Management Concepts Inc.           Training Course — CON 217            Contract                    1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 216            Contract                    1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                    2,214                   2,214
10/8/2010    Management Concepts Inc.           Training Course — 11107705           Contract                      995                     995
10/8/2010    Management Concepts Inc.           Training Course — Analytic Boot      Contract                    1,500                   1,500
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                    2,214                   2,214
10/8/2010    Management Concepts Inc.           Training Course — CON 217            Contract                    1,025                   1,025
10/8/2010    Management Concepts Inc.           Training Course — CON 218            Contract                    2,214                   2,214
             Hispanic Association of Colleges
10/14/2010                                      Detailees                            Contract                   12,975                  12,975
             & Universities
                                                IAA — GAO required by P.L. 110-
             US Government Accountability                                            Interagency
10/26/2010                                      343 to conduct certain activities                            5,600,000              3,738,195
             Office                                                                  Agreement
                                                related to TARP
                                                FNMA IR2 assessment — OFS task
                                                order on Treasury MITRE Contract
11/8/2010    The MITRE Corporation                                                   Contract                2,288,166              1,771,586
                                                for cost and data validation
                                                services related to HAMP FA
                                                Structuring and Disposition          Financial
11/18/2010   Greenhill & Co., Inc.                                                                           6,139,167              6,139,167
                                                Services                             Agent
                                                Acquisition Support Services —
12/2/2010    Addx Corporation                   PSD TARP (action is an order         Contract                1,311,314              1,235,530
                                                against BPA)
             Reed Elsevier Inc. (dba            Accurint subscription services one
12/29/2010                                                                           Contract                      684                     684
             LexisNexis)                        user
                                                                                     Interagency
1/5/2011     Canon U.S.A. Inc.                  Administrative Support                                          12,937                  12,013
                                                                                     Agreement
                                                Structuring and Disposition          Financial
1/18/2011    Perella Weinberg Partners & Co.                                                                 5,542,473              5,542,473
                                                Services                             Agent
                                                                                     Interagency
1/24/2011    Treasury Franchise Fund            BPD                                                          1,090,860              1,090,860
                                                                                     Agreement
             Association of Government
1/26/2011                                       CEAR Program Application             Contract                    5,000                   5,000
             Accountants
                                                                                                                         Continued on next page
170          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS              (CONTINUED)

                                                                                           Type of
      Date         Vendor                               Purpose                            Transaction   Obligated Value        Expended Value
                                                        Mentor Program Training (call
      2/24/2011    ESI International Inc.                                                  Contract             $20,758                 $20,758
                                                        against IRS BPA)
                   Department of the Treasury —                                            Interagency
      2/28/2011                                         Administrative Support                               17,805,529              13,371,061
                   Departmental Offices                                                    Agreement
                                                        Executive Compensation Data
      3/3/2011     Equilar, Inc.                                                           Contract              59,995                  59,995
                                                        Subscription
                                                        Executive Compensation Data
      3/10/2011    Mercer (US) Inc.                                                        Contract               7,425                    3,600
                                                        Subscription
      3/22/2011    Harrison Scott Publications, Inc.    Subscription Service               Contract               5,894                    5,894
                                                                                           Interagency
      3/28/2011    Fox News Network LLC6                Litigation Settlement                                   121,000                 121,000
                                                                                           Agreement
                   Federal Reserve Bank of New                                             Interagency
      4/20/2011                                         Oversight Services                                    1,300,000                 875,415
                   York (FRBNY) HR                                                         Agreement
      4/26/2011    PricewaterhouseCoopers LLP           Financial Services Omnibus         Contract           2,509,632               2,006,548
      4/27/2011    ASR Analytics, LLC                   Financial Services Omnibus         Contract                  —                        —
      4/27/2011    Ernst & Young, LLP                   Financial Services Omnibus         Contract           1,414,262                 406,203
      4/27/2011    FI Consulting, Inc.                  Financial Services Omnibus         Contract           1,703,711               1,464,538
      4/27/2011    Lani Eko & Company CPAs LLC          Financial Services Omnibus         Contract              50,000                       —
      4/27/2011    MorganFranklin, Corporation          Financial Services Omnibus         Contract              50,000                       —
      4/27/2011    Oculus Group, Inc.                   Financial Services Omnibus         Contract           2,284,646                 790,321
      4/28/2011    Booz Allen Hamilton, Inc.            Financial Services Omnibus         Contract              50,000                       —
      4/28/2011    KPMG, LLP                            Financial Services Omnibus         Contract              50,000                       —
                   Office of Personnel Management
                                                                                           Interagency
      4/28/2011    (OPM) — Western Management           Leadership Training                                      21,300                       —
                                                                                           Agreement
                   Development Center
                                                        Accurint subscriptions by
      5/31/2011    Reed Elsevier Inc (dba LexisNexis)                                      Contract              10,260                    6,840
                                                        LexisNexis for 5 users
                                                        Five (5) user subscriptions to
      5/31/2011    West Publishing Corporation          CLEAR by West Government           Contract               7,515                    7,515
                                                        Solutions
                                                        One year subscription to the CQ
                                                        Today Breaking News & Schedules,
      6/9/2011     CQ-Roll Call Inc.                    CQ Congressional & Financial       Contract               7,750                    7,750
                                                        Transcripts, CQ Custom Email
                                                        Alerts
                                                        Anti-Fraud Protection and
      6/17/2011    Winvale Group LLC                                                       Contract             504,232                 462,972
                                                        Monitoring Subscription Services
                                                                                           Interagency
      9/9/2011     Financial Management Service         FMS – NAFEO                                              22,755                       —
                                                                                           Agreement
                                                        MHA Felony Certification
      9/12/2011    ADC LTD NM                                                              Contract             447,799                 296,618
                                                        Background Checks (BPA)
                                                        4 Level 4 Security Shredders and
      9/15/2011    ABMI – All Business Machines, Inc                                       Contract               4,392                    4,392
                                                        Supplies
                                                                                                                           Continued on next page
                                                                                      quarterly report to congress I October 25, 2012              171




OFS SERVICE CONTRACTS            (CONTINUED)

                                                                                      Type of
Date         Vendor                               Purpose                             Transaction       Obligated Value        Expended Value
                                                  National Business Center, Federal   Interagency
9/29/2011    Department of Interior                                                                            $25,000                  $25,000
                                                  Consulting Group                    Agreement
                                                  Renewing TD010-F-249 SEC filings
9/29/2011    Knowledge Mosaic Inc.                                                    Contract                    4,200                   4,200
                                                  Subscription Service
                                                                                      Interagency
10/4/2011    Internal Revenue Service             Detailees                                                    168,578                   84,289
                                                                                      Agreement
             ABMI – All Business Machines,        4 Level 4 Security Shredders and
10/20/2011                                                                            Contract                    4,827                   4,827
             Inc.                                 Supplies
11/18/2011   Qualx Corporation                    FOIA Support Services               Contract                   68,006                  68,006
                                                                                      Financial
11/29/2011   Houlihan Lokey, Inc.                 Transaction Structuring Services                            4,675,000              3,961,290
                                                                                      Agent
                                                  Pre-Program and Discovery
12/20/2011   Allison Group LLC                                                        Contract                   19,980                  19,065
                                                  Process Team Building
             Department of the Treasury —                                             Interagency
12/30/2011                                        Administrative Support                                    15,098,746               9,813,231
             Departmental Offices                                                     Agreement
                                                                                      Interagency
12/30/2011   Department of the Treasury           ARC                                                          901,433                  899,268
                                                                                      Agreement
                                                  IAA — GAO required by P.L. 110-
             US Government Accountability                                             Interagency
1/4/2012                                          343 to conduct certain activities                           2,500,000              2,464,659
             Office                                                                   Agreement
                                                  related to TARP IAA
             Office of Personnel Management       Office of Personnel Management
                                                                                      Interagency
1/5/2012     (OPM) — Western Management           (OPM) — Western Management                                     31,088                      —
                                                                                      Agreement
             Development Center                   Development Center
                                                  ABS/MBS Data Subscription
2/2/2012     Moody’s Analytics Inc.                                                   Contract                1,804,000              1,369,333
                                                  Services
                                                  Structuring and Disposition
2/7/2012     Greenhill & Co., LLC                                                     FAA Listing             2,100,000              1,225,000
                                                  Services
2/14/2012    Association of Govt Accountants      CEAR Program Application            Contract                    5,000                   5,000
2/27/2012    Diversified Search LLC               CPP Board Placement Services        Contract                1,502,000                 147,585
3/6/2012     Integrated Federal Solutions, Inc.   TARP Acquisition Support (BPA)      Contract                 230,673                  159,261
                                                  National Business Center, Federal   Interagency
3/14/2012    Department of Interior                                                                              26,000                  26,000
                                                  Consulting Group                    Agreement
             Department of the Treasury —                                             Interagency
3/30/2012                                         Administrative Support                                      1,137,451                 425,118
             Departmental Offices WCF                                                 Agreement
3/30/2012    E-Launch Multimedia, Inc.            Subscription Service                Contract                       —                       —
4/12/2012    Integrated Federal Solutions, Inc.   TARP Acquisition Support (BPA)      Contract                 568,798                  124,564
                                                  Maintenance Agreement for Canon
5/2/2012     Cartridge Technology, Inc.                                               Contract                    7,846                   1,961
                                                  ImageRunner
                                                  Executive Compensation Data
5/10/2012    Equilar Inc.                                                             Contract                   44,995                  44,995
                                                  Subscription
                                                                                      Interagency
6/12/2012    Department of Justice                Detailees                                                   1,737,884                      —
                                                                                      Agreement
6/15/2012    Qualx Corporation                    FOIA Support Services               Contract                   34,704                   8,769
                                                                                                                          Continued on next page
172              special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS                       (CONTINUED)

                                                                                                                            Type of
      Date                 Vendor                                         Purpose                                           Transaction                 Obligated Value                Expended Value
                                                                          Subscription for Anti Fraud Unit to
      6/30/2012            West Publishing Corporation                                                                      Contract                                 $8,660                          $8,660
                                                                          Perform Background Research
      7/26/2012            Knowledge Mosaic Inc.                          SEC filings subscription service                  Contract                                   4,750                           4,750
                                                                                                                            Interagency
      8/1/2012             Internal Revenue Service                       Treasury Acquisition Institute (TAI)                                                         4,303                           4,303
                                                                                                                            Agreement
                                                                          Subscription to Commercial
      8/3/2012             Harrison Scott Publications Inc.                                                                 Contract                                   3,897                           3,897
                                                                          Mortgage Alert Online Service
                                                                          Administrative Resource Center                    Interagency
      9/19/2012            Bureau of Public Debt                                                                                                                            —                               —
                                                                          (ARC)                                             Agreement
                                                                          Data Subscription Services for
      9/28/2012            SNL Financial LC                               Financial, Regulatory, and Market                 Contract                               180,000                                  —
                                                                          Data and Services
                           Department of the Treasury —                                                                     Interagency
                                                                          Administrative Support                                                                   660,601                         660,601
                           Departmental Offices                                                                             Agreement
                           Judicial Watch7                                Litigation related                                Other Listing                              1,500                           1,500
                           Judicial Watch    7
                                                                          Litigation related                                Other Listing                              2,146                           2,146
      Total                                                                                                                                            $1,037,350,892                    $958,480,196
      Notes: Numbers may not total due to rounding. At year-end, OFS validated the matrix against source documents resulting in modification of award date. At year-end, a matrix entry that included several
      Interagency Agreements bundled together was split up to show the individual IAAs. For IDIQ contracts, $0 is obligated if no task orders have been awarded. Table 3.2 includes all vendor contracts
      administered under Federal Acquisition Regulations, inter-agency agreements and financial agency agreements entered into support of OFS since the beginning of the program. The table does not include
      salary, benefits, travel, and other non-contract related expenses.
      1
        EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D-0004).
      2
        Awarded by other agencies on behalf of OFS and are not administered by PSD.
      3
        Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
      4
        Thacher Proffitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
      5
        McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
      6
        Fox News Network LLC is a payment in response to a litigation claim. No contract or agreement was issued to Fox News Network LLC.
      7
        Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.

      Source: Treasury, response to SIGTARP data call, 10/9/2012.
S ect i o n 4   SIGTARP Recommendations
174   special inspector general I troubled asset relief program
                                                                           quarterly report to congress I october 25, 2012   175




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
related to the Troubled Asset Relief Program (“TARP”) to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has made
110 recommendations in its quarterly reports to Congress and audit reports. This
section discusses developments with respect to SIGTARP’s prior recommendations,
including recommendations made since SIGTARP’s Quarterly Report to Congress
dated July 25, 2012 (the “July 2012 Quarterly Report”), and, in the table at the end
of this section, summarizes SIGTARP’s recommendations from past quarters and
notes the extent of implementation.




Recommendation Regarding LIBOR
SIGTARP is concerned that American taxpayers who funded TARP may have been
at risk and continue to be at risk from the manipulation of the London Interbank
Offered Rate (“LIBOR”), a global benchmark interest rate used in several TARP
programs. LIBOR has historically been a benchmark of the average cost to banks
of unsecured borrowing. Commodity Futures Trading Commission (“CFTC”)
Chairman Gary Gensler described LIBOR in plain English, stating that the rate
is calculated on the basis of certain banks’ answers to the question “at what rate
the bank thinks it can borrow.” In June 2012, the LIBOR scandal came to light
with enforcement actions by the CFTC, the U.S. Department of Justice and the
United Kingdom’s Financial Services Authority (“FSA”) against Barclays Bank
PLC for manipulating LIBOR in which Barclays paid record fines of $450 million.
Martin Wheatley, managing director of the FSA in charge of conducting a review
of LIBOR, publicly reported that the FSA, and regulators and public authorities
in a number of different jurisdictions, including the United States, Canada, Japan,
Switzerland, and the European Union, have been investigating a number of
institutions for alleged misconduct relating to LIBOR and other benchmarks. He
reported that, “it is already clear that at least some serious misconduct has taken
place relating to LIBOR submissions in recent years.”
     LIBOR was used as the interest rate in several TARP programs and continues to
be used in TARP programs today. When asked by Congress in July 2012 if LIBOR
is still reliable and free of manipulation, Federal Reserve Chairman Ben Bernanke
testified, “I can’t give that assurance with full confidence.” Treasury Secretary
Timothy Geithner testified before Congress on July 25, 2012, that LIBOR “was a
rate that was structured in a way that was vulnerable to misreporting.” Secretary
Geithner testified that he did not know if the taxpayers who funded TARP were
disadvantaged by the manipulation of LIBOR, but that Treasury was looking into it.
It is imperative that Treasury determine whether taxpayers who funded TARP were
harmed by LIBOR manipulation and publish the results of its analysis. Equally
important, Treasury and the Federal Reserve must protect taxpayers against any
176   special inspector general I troubled asset relief program




                                             risk of future harm from LIBOR manipulation. LIBOR continues to be used in two
                                             TARP programs that will exist for years – the Public-Private Investment Program
                                             (“PPIP”) and the Term Asset-Backed Securities Loan Facilities (“TALF”), a TARP
                                             loan program by the Federal Reserve where TARP funds are used in the event of
                                             loan defaults. SIGTARP issued the following recommendation to Treasury and the
                                             Federal Reserve:

                                             In order to protect taxpayers who funded TARP against any future threat that
                                             might result from LIBOR manipulation, Treasury and the Federal Reserve
                                             should immediately change any ongoing TARP programs including, without
                                             limitation, PPIP and TALF, to cease reliance on LIBOR.
                                                 Neither the Federal Reserve nor Treasury have agreed to implement SIGTARP’s
                                             recommendation despite the fact that in response to SIGTARP’s recommendation,
                                             the Federal Reserve agreed that “recent information regarding the way the LIBOR
                                             has been calculated has created some uncertainty about the reliability of the rate,”
                                             and Treasury stated that they “share your concerns about the integrity of LIBOR.”
                                                 Despite its own concerns over the reliability of LIBOR, the Federal Reserve,
                                             which has contracts with TALF borrowers, is unwilling to use its considerable
                                             leverage to tell TALF borrowers that in light of the LIBOR scandal and LIBOR’s
                                             lack of reliability, the Government needs to amend the contract. The Federal
                                             Reserve responded to SIGTARP’s recommendation by stating that the choice of
                                             the interest rate for TALF loans was driven by the nature and terms of the under-
                                             lying collateral such that if the interest rate on the securities is based on LIBOR,
                                             the TALF loan rate is based on LIBOR. As a further basis for not implementing
                                             SIGTARP’s recommendation, the Federal Reserve stated that half of all TALF loans
                                             had interest rates based on LIBOR and 98% of those loans have been repaid.
                                                 While ordinarily the interest rate of a TALF loan may carry the same indexed
                                             rate as the underlying collateral, the global LIBOR manipulation scandal and lack
                                             of reliability is no ordinary situation and calls for an extraordinary fix to protect
                                             taxpayers. Although many TALF loans indexed to LIBOR have been repaid, there
                                             is still $598.6 million in outstanding TALF loans whose interest rate is tied to
                                             LIBOR, and the program continues until as late as 2015. This is a substantial
                                             amount of money owed to taxpayers for a continuing number of years. Given the
                                             LIBOR manipulation and the unreliability of LIBOR that has come to light, the
                                             Federal Reserve has a solid basis to reach out to TALF borrowers and express its
                                             need to amend the TALF contracts given the enormously serious concerns over
                                             LIBOR. TALF contracts already provided for alternative interest rates, including
                                             the prime rate and the Federal funds rate, which presumably the Federal Reserve
                                             already determined were appropriate before including them in the contract.
                                             Taxpayers are entitled to interest on TALF debt and protection against any manipu-
                                             lation in that interest payment.
                                                  Despite sharing SIGTARP’s concerns about the lack of integrity of LIBOR,
                                             Treasury rejected SIGTARP’s recommendation to change the interest rate from
                                             LIBOR in PPIP, saying that under PPIP contracts, Treasury would need evidence
                                             that LIBOR is currently misstated in order to have the right to change the
                                                                            quarterly report to congress I october 25, 2012   177




benchmark. First, given the LIBOR manipulation and its current lack of reliability,
Treasury can also use its considerable leverage to reach out to the six PPIP man-
agers to express the need to amend the PPIP contracts. In addition, interestingly,
Treasury foresaw the potential need for Treasury unilaterally to change the interest
rate away from LIBOR as a contingency in the PPIP contracts. The PPIP contracts
specifically state that Treasury can change the interest rate from LIBOR to the
prime rate under one of three scenarios: (a) Treasury determines that quotations of
interest rates for the relevant deposits referred to in LIBOR are not being provided;
(b) Treasury reasonably determines that LIBOR would not adequately and fairly
reflect the cost to a commercial bank funding the loans on a matched basis in the
London interbank market of making or maintaining the loans; or (c) it becomes un-
lawful for Treasury to make or maintain loans using LIBOR. Treasury stated that it
would continue to assess whether any changes to PPIP are necessary and appropri-
ate to protect taxpayers’ interests. Treasury stated that it would need evidence that
LIBOR is currently misstated to change the rate, but that enforcement agencies
have not released findings that the rate is currently misstated.
    The PPIP contracts do not require that law enforcement agencies release find-
ings that LIBOR is currently misstated, but only require that Treasury make a
“reasonable determination” that LIBOR would not adequately and fairly reflect the
true cost of lending – a broad standard that gives Treasury discretion to act. Public
findings made by the FSA and the CFTC form a significant basis for Treasury to
arrive at that “reasonable determination.” Treasury should also contact these enti-
ties for further analysis and information that may not have been released and these
agencies may be willing to share. This is not law enforcement sensitive information,
but rather information derived from the FSA and the CFTC’s reviews.
    After conducting a LIBOR review, Martin Wheatley of the FSA came to the
conclusion that, “Retaining LIBOR unchanged in its current state is not a viable
option, given the scale of identified weaknesses and the loss of credibility that it
has suffered.” Upon the release of his September 28, 2012, report, Mr. Wheatley
referred to LIBOR, stating, “The system is broken and needs a complete overhaul.”
His report suggests “reforms to put a stop to what is a broken system built on
flawed incentives, incompetence and the pursuit of narrow interests that are to the
detriment of markets, investors and ordinary people.”
    CFTC Chairman Gary Gensler, who oversaw the Barclays investigation, testi-
fied on September 24, 2012, before the European Parliament that the Barclays
case highlights the broader issue that the underlying interbank market to which
LIBOR refers has significantly diminished and that market data raises questions
about the integrity of LIBOR today. Chairman Gensler testified that for a bench-
mark to be reliable and have integrity, “it’s best to be anchored to real, observable
transactions.” However, according to Chairman Gensler, there is little to no activity
for more than half of the quoted LIBOR maturities. Therefore, Chairman Gensler
testified, “If benchmark rates don’t have transactions to rely on, the credibility
and reliability of the benchmark is limited. When market participants submit for
a benchmark rate lacking observable transactions, even if operating in good faith,
they may stray from what real transactions would reflect.” This testimony and the
178   special inspector general I troubled asset relief program




                                             findings by Mr. Wheatley and the CFTC form a solid basis for Treasury to reason-
                                             ably determine that LIBOR would not adequately and fairly reflect the true cost
                                             of lending. To fulfill its duty to protect taxpayers, Treasury should reach out to
                                             the CFTC and the FSA for more detailed analysis and findings before rejecting
                                             SIGTARP’s recommendation.
                                                 Taxpayers, who are owed $5.685 billion in outstanding PPIP debt indexed
                                             to LIBOR, must be protected, particularly because the PPIP program continues
                                             until as late as 2017. Treasury also responded that Treasury believes it is possible
                                             that changing the benchmark may harm rather than benefit taxpayers. Treasury
                                             does not suggest that it has any analysis to support its statement that changing the
                                             interest rate may harm taxpayers, but instead focuses on its belief that it would be
                                             difficult to make these changes. Treasury stated that the securities purchased by
                                             the fund managers in PPIP often carry interest rates indexed off LIBOR and the
                                             fund managers developed their investment strategies and structured their portfolios
                                             including hedges on the basis that Treasury’s debt would be indexed to LIBOR.
                                             Treasury stated that altering the benchmark could have significant adverse conse-
                                             quences on the performance of funds in PPIP, which could reduce returns in the
                                             program. The fact that Treasury foresaw that it could change the LIBOR interest
                                             rate and provided for that contingency in PPIP contracts (a fact well known to
                                             PPIP fund managers before they developed their strategies and hedging) evidences
                                             that Treasury has always believed that it is possible to change the interest rate from
                                             LIBOR without harm to taxpayers.
                                                 Continued use of LIBOR for TARP while it is not reliable and remains po-
                                             tentially subject to manipulation could harm taxpayers and undermines public
                                             confidence in financial markets and TARP. Chairman Bernanke testified before
                                             Congress that the actions that have been disclosed related to LIBOR manipulation
                                             have the effect of undermining public confidence in financial markets. In assess-
                                             ing “Current Threats to Financial Stability” in its 2012 Annual Report, Treasury’s
                                             Office of Financial Research stated, “This type of manipulation – resulting from an
                                             opaque and closed process that allows a small number of firms to have significant
                                             influence – poses significant risks to market integrity and investor trust, and will
                                             require continuing regulatory focus.” Chairman Gensler testified that it is time
                                             to restore confidence that the rates at which people borrow and lend money and
                                             hedge interest rates are set honestly and transparently. SIGTARP understands that
                                             it will take some time for PPIP managers to transition to an alternative rate, and for
                                             Treasury and the Federal Reserve to use their considerable leverage to work with
                                             TALF borrowers and PPIP managers to transition to an alternative rate, which is
                                             why the time for Treasury and the Federal Reserve to act is now, rather than wait
                                             for global LIBOR reform. For Treasury and the Federal Reserve to cling to the
                                             status quo of keeping in TARP a rate that is broken, unreliable, and subject to ma-
                                             nipulation, is contrary to TARP’s historical goal of using unprecedented solutions to
                                             promote confidence in the financial system.
                                                                              quarterly report to congress I october 25, 2012   179




Recommendation Regarding AIG
SIGTARP reported in July that for more than two years, one of the largest TARP
recipients still in TARP, American International Group (“AIG”), has had no
consolidated banking regulator of its non-insurance financial business. SIGTARP
reported that the Federal Reserve under two scenarios could regulate AIG. The
Federal Reserve could regulate AIG as a savings and loan holding company based
on AIG’s ownership of a small bank if Treasury decreased its TARP ownership
interest under 50%. The Federal Reserve could also regulate AIG if the Financial
Stability Oversight Council (“FSOC”) designated AIG as a systemically important
financial institution. The Dodd-Frank Wall Street Reform and Consumer
Protection Act recognized that the largest and most interconnected institutions
whose financial distress could pose a risk to United States financial stability should
be subject to enhanced regulation, presumably the strongest level of regulation
available. The day SIGTARP issued its report, Treasury Secretary Geithner
testified before Congress that, “Dodd-Frank gave authority to designate a non-bank
financial institution that could cause systemic – could cause broader damage to the
system, like AIG, to give the council the authority to designate those firms and give
the Fed the ability to provide broad, comprehensive oversight.”
    On September 10, 2012, Treasury sold some of its AIG TARP stock, dropping
its ownership of AIG below 50% and triggering AIG’s regulation by the Federal
Reserve as a savings and loan holding company. However, it appears that this regu-
lation may be short-lived, as the next day, AIG’s CEO Robert Benmosche said in a
television interview about AIG Federal Savings Bank that AIG is planning “to prob-
ably close it or sell it now.” He said this plan was based on AIG’s concerns about
the application of additional regulation under Dodd-Frank known as the Volcker
Rule to this small part of AIG and “that’s why we’ve chosen to sell the bank.” If AIG
sells or closes its bank, it would escape Federal Reserve regulation, unless it is des-
ignated by FSOC as systemically important. Even if AIG keeps its bank, it may not
be subject to the strongest level of regulation for institutions deemed systemically
important. Therefore, SIGTARP recommended:

In order to protect taxpayers who invested TARP funds into AIG to the fullest
extent possible, Treasury and the Federal Reserve should recommend to the
Financial Stability Oversight Council that AIG be designated as a systemically
important financial institution so that it receives the strongest level of Federal
regulation.
    Treasury responded by saying that Treasury will consider information provided
by SIGTARP as they continue to evaluate nonbank financial companies for
potential designation. Treasury stated that council members are in the process of
analyzing an initial set of companies based on certain quantitative thresholds and
that the designation determinations must be made based upon the statutory criteria
set forth in Dodd-Frank.
    As SIGTARP wrote to Treasury, AIG meets the criteria required for a systemi-
cally important designation. AIG has $552.4 billion in assets, 10 times the $50
180   special inspector general I troubled asset relief program




                                             billion criteria. The criteria also include meeting one of five thresholds. AIG
                                             exceeds at least three of these thresholds, with $44 billion in gross notional credit
                                             default swaps according to the Depository Trust and Clearing Corporation (exceed-
                                             ing the $30 billion threshold), $4.7 billion in derivatives exposure, according to
                                             AIG’s most recent quarterly report (exceeding the $3 billion threshold), and $75.25
                                             billion in long-term debt outstanding (exceeding the $20 billion threshold). AIG
                                             also demonstrates the qualitative criteria that its resolution could pose a threat
                                             to the financial stability of the United States. AIG continues to have a derivatives
                                             portfolio of $168 billion in net notional value, including $19 billion in stable value
                                             wraps, $23 billion in credit default swaps, and $126 billion in market derivatives.
                                             AIG remains one of the world’s largest insurance companies, still has more than
                                             200 subsidiaries, and continues to operate in more than 130 countries. Indeed,
                                             AIG continues to be the sole participant in TARP’s Systemically Significant Failing
                                             Institutions program. Additionally, if AIG sells or closes its bank, it would again
                                             have no Federal banking regulator, a factor in favor of designating AIG as systemi-
                                             cally important.
                                                  American taxpayers who are still on the hook for billions of dollars for their
                                             TARP investment in AIG must be protected with the strongest Federal regulation of
                                             AIG. Following SIGTARP’s recommendation, on September 28, 2012, FSOC voted
                                             to advance certain nonbank financial companies to the final stage of a three-stage
                                             review process to designate companies as systemically important. On October 2,
                                             2012, AIG disclosed that it had received notice that it is under consideration by the
                                             FSOC for a proposed determination that AIG is a systemically important financial
                                             institution, which is a positive step towards implementation of SIGTARP’s recom-
                                             mendation. The designation of AIG as a systemically important financial institution
                                             is necessary to ensure strong Federal regulation of the company so that taxpayer
                                             dollars are not put at risk.




                                             Recommendations Regarding CPP
                                             Preferred Stock Auctions
                                             As Treasury has accelerated its exit from investments in the 290 banks remaining
                                             in TARP’s Capital Purchase Program, it is critical that Treasury conduct analysis
                                             and document its considerations to ensure it exits these TARP investments in a way
                                             that protects taxpayers and promotes financial stability. Treasury began auctioning
                                             preferred TARP shares in individual banks—in some instances to the bank itself
                                             at a discount—and announced that it will sell shares in multiple banks in pooled
                                             auctions.
                                                 Treasury officials have told SIGTARP that they approach these auctions as a
                                             private investor. Treasury has publicly stated that it has already estimated that the
                                             value of the majority of these investments is less than par, and therefore Treasury
                                             will sell above a pre-set reserve price. Indeed, in every auction conducted, Treasury
                                                                                 quarterly report to congress I october 25, 2012   181




has sold the taxpayers’ TARP investment in specific banks at a loss. This is a signifi-
cant change from Treasury’s previous approach of waiting for banks to repay in full
and only agreeing to transactions that were likely to result in a partial loss when the
bank was at risk of failure. The remaining CPP banks and markets may be inter-
preting Treasury’s public statements, and the results of the auctions, as a signal
that Treasury is willing to routinely sell its investment in banks at a discount to the
original TARP investment. Such a signal could discourage those banks that have
the ability to pay in full from making taxpayers whole if they believe that they could
exit TARP at a discount.
    SIGTARP is concerned that TARP banks that may have the ability to repay
TARP in full, either on their own or by raising new capital, may try to buy back
their own shares in auctions at a significant discount. The result is a loss to the
taxpayers who bailed them out. SIGTARP recommended:

In order to fulfill Treasury’s responsibility to wind down its TARP Capital
Purchase Program investments in a way that protects taxpayer interests,
before allowing a TARP bank to purchase Treasury’s TARP shares at a
discount to the TARP investment (for example as the successful bidder at
auction), Treasury should undertake an analysis, in consultation with Federal
banking regulators, to determine that allowing the bank to redeem its TARP
shares at a discount to the TARP investment outweighs the risk that the bank
will not repay the full TARP investment. Treasury should document that
analysis and consultation.
    Treasury has told SIGTARP that it does not consult with Federal banking
regulators in determining a bank’s ability to repay in full, preferring to act as a
private investor. However, taxpayers’ TARP investments are unique because they
were part of an unprecedented Government bailout of private institutions. Treasury
has greater responsibilities to protect taxpayers and promote financial stability.
Throughout the existence of TARP, Treasury and the Federal banking regulators
have shared non-public information about specific banks. Therefore, to the extent
that any Federal banking regulator is concerned about its abilities to share confi-
dential non-public information with Treasury, Treasury and the regulator should
develop a solution similar to past TARP arrangements.
    Additionally, Treasury’s view that it acts like a private investor risks that Treasury
is not considering its greater Governmental responsibility to promote financial sta-
bility. Treasury’s decisions to make investments in these banks were made with the
goals of TARP’s Capital Purchase Program in mind — promoting financial stability,
maintaining confidence in the financial system, and enabling lenders to meet the
nation’s credit needs. These goals did not end when banks entered TARP and can-
not be viewed in the past tense, but must be met now and in the future to protect
taxpayers. SIGTARP made the following recommendation:

In order to fulfill Treasury’s responsibility to wind down its TARP investments
in a way that promotes financial stability and preserves the strength of
our nation’s community banks, Treasury should undertake an analysis in
182   special inspector general I troubled asset relief program




                                             consultation with Federal banking regulators that ensures that it is exiting
                                             its Capital Purchase Program investments in a way that satisfies the goals
                                             of CPP, which are to promote financial stability, maintain confidence in the
                                             financial system and enable lending. This financial stability analysis of a
                                             bank’s exit from TARP should determine at a minimum: (1) that the bank will
                                             remain healthy and viable in the event of an auction of Treasury’s preferred
                                             shares; and (2) that the bank’s exit from TARP does not have a negative impact
                                             on the banking industry at a community, state, regional, and national level.
                                             Treasury should document that analysis and consultation.
                                                  SIGTARP is concerned that Treasury is not analyzing the potential impact of
                                             these auctions on the financial stability of the bank or the industry, at a community,
                                             state, or regional level. Based on conversations with Treasury officials, SIGTARP
                                             understands that Treasury does not conduct any analysis to determine whether the
                                             individual or pooled auctions promote financial stability or preserve the strength of
                                             community banks or the banking industry.
                                                  Securing financial stability for the community banking industry and preserv-
                                             ing the strength of the community banks remaining in TARP is critical to aiding
                                             economic recovery and helping to ensure that history does not repeat itself. While
                                             community banks may not have the same nationwide impact on financial stabil-
                                             ity as large banks, they play important roles in local economies. Treasury should
                                             be cautious about quickly exiting from TARP banks that may be struggling, may
                                             require subsequent Government assistance, or may later fail. Community banks are
                                             still feeling the effects of the crisis and have just begun their recovery. Any TARP
                                             exit plan should ensure that the industry does not lose ground on that recovery.
                                                  A clear and workable TARP exit strategy would need to strike the appropriate
                                             balance between maximizing returns to taxpayers and limiting any potential risk to
                                             financial stability that may result from Treasury exiting its investments in hundreds
                                             of community banks close in time. Without conducting any analysis, Treasury does
                                             not know the impact of a swift exit of so many TARP investments, particularly
                                             when the remaining banks are weaker than those that already exited TARP, with
                                             less capital, missed dividends, and some being subject to enforcement orders by
                                             their regulators. As these smaller banks remain weak, their lending in their com-
                                             munities may continue to be constrained, which could impact economic recovery
                                             in these communities. While an en masse exit of these banks from TARP could
                                             provide a partial return for taxpayers, care must be taken in that exit to ensure that
                                             these banks and the banking industry stay healthy.
                                                  Because Treasury is treating its decision like a private investor, it does not
                                             consult with the Federal banking regulators on financial stability even though
                                             the regulators have important information about these banks and the banking
                                             industry. Without analysis or consultation with banking regulators, it is unclear
                                             how Treasury can be assured that this exit strategy promotes financial stability or
                                             preserves the strength of community banks. This analysis should include, for ex-
                                             ample, the impact of a pooled auction of the TARP interests in many banks in the
                                             same community, state, and region. It should also include whether Treasury’s swift
                                             exit of its investments in hundreds of banks could have the effect of accelerating
                                                                            quarterly report to congress I october 25, 2012   183




an already existing trend towards greater consolidation in the community bank-
ing industry, and if so, the impact of such consolidation, particularly in light of
the fact that Treasury’s shares carry the right to appoint up to two members to the
institution’s board of directors if six dividend payments are missed. Treasury should
not rush to exit these banks from TARP, especially at a loss, without assessing, in
consultation with Federal banking regulators, whether the exit meets CPP’s goals to
promote financial stability, maintain confidence, and enable lending, and that those
goals are enduring to protect taxpayers.
    Treasury should also improve how it documents its decisions to auction its
TARP interests in certain banks to adequately reflect the rationale for its decision-
making in detail, which should include the considerations regarding each bank.
Clear documentation of decision-making promotes consistency and accountability,
and is necessary to permit effective oversight.
    SIGTARP made the following recommendation:

Treasury should better document its decision whether or not to auction its
preferred shares in a TARP bank to adequately reflect the considerations
made for each bank and detailed rationale.




Update on Recommendations on the
Hardest Hit Fund
On April 12, 2012, SIGTARP released an audit report entitled, “Factors Affecting
Implementation of the Hardest Hit Fund Program” (“April 2012 audit report”). The
report raised SIGTARP’s concerns the Hardest Hit Fund (“HHF”) Program has
experienced significant delay in providing help to homeowners and SIGTARP made
five recommendations to Treasury, including the following two recommendations:

• Treasury should instruct state housing finance agencies in the Hardest
   Hit Fund to set meaningful and measurable overarching and interim
   performance goals with appropriate metrics to measure progress for their
   individual state programs.
• Treasury should set milestones at which the state housing finance agencies
   in the Hardest Hit Fund must review the progress of individual state
   programs and make program adjustments from this review.

    Since SIGTARP issued these recommendations, there has been some prog-
ress made in the HHF program; however, SIGTARP remains very concerned by
the overall lack of homeowners assisted under the program. Around the time
of the April 2012 audit report, Treasury issued letters to the Housing Finance
Agencies (“HFAs”) for Arizona, Georgia, and New Jersey stating that those states
had not demonstrated sufficient progress towards meeting the goals of their HHF
programs. Treasury required those three states to provide an action plan with
184   special inspector general I troubled asset relief program




                                             measurable interim and overall goals, including benchmarks, to improve the level
                                             of homeowner assistance under the HHF program. Treasury also set milestones
                                             to review the progress of individual state programs. This includes goals for the
                                             number of homeowners to be assisted per month, and timelines for streamlin-
                                             ing application processes and addressing high denial rates. Treasury required that
                                             the three states report on obstacles to those goals and methods to address those
                                             obstacles. These three HFAs responded to Treasury’s formal requests by providing
                                             their action plans to reassess weaknesses in their programs and address Treasury’s
                                             and SIGTARP’s concerns, including establishing detailed goals and developing the
                                             means to increase assistance to homeowners.
                                                 Treasury has made some progress in addressing SIGTARP’s recommendations
                                             to oversee the HFAs in these three states and the result has been an improvement
                                             in the number of homeowners assisted, although more improvement is needed. For
                                             example, SIGTARP reported in its April audit that New Jersey’s HHF program had
                                             assisted only 54 homeowners as of December 31, 2011, by far the lowest number
                                             of any of the 19 participating states. As a direct result of Treasury implementing
                                             SIGTARP’s recommendation and forcing New Jersey to identify measureable
                                             targets and set goals for the HHF program, New Jersey’s HHF program has now
                                             assisted 498 homeowners. While this is still one of the lowest numbers of the
                                             19 states and needs dramatic improvement, it is progress from the previous low
                                             number of 54 homeowners helped. Arizona has improved from 325 homeowners
                                             helped at the time of SIGTARP’s audit to 703 homeowners as of June 30, 2012.
                                             Georgia improved from 524 homeowners helped at the time of SIGTARP’s audit to
                                             1,243 homeowners as of June 30, 2012. The recent progress following SIGTARP’s
                                             audit report and recommendations demonstrates that meaningful and measurable
                                             overarching and interim performance goals (with appropriate metrics to measure
                                             progress) and setting milestones to assess performance can increase the number of
                                             homeowners that can be helped under HHF. It is therefore unclear why Treasury
                                             has not taken a similar approach with the other 16 HFAs in the HHF program.
                                             While Treasury’s efforts are a step in the right direction, Treasury should imple-
                                             ment SIGTARP’s five recommendations concerning the HHF program in full, or
                                             risk wasting an opportunity to make a difference in the effectiveness of the Hardest
                                             Hit Fund program. SIGTARP will continue to monitor Treasury’s efforts in this
                                             area.
SIGTARP Recommendations Table
                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
1    *    Treasury should include language in the automobile industry
          transaction term sheet acknowledging SIGTARP’s oversight
                                                                                X
          role and expressly giving SIGTARP access to relevant
          documents and personnel.
2    *    Treasury should include language in new TARP agreements                                                                            Although Treasury has made
          to facilitate compliance and oversight. Specifically, SIGTARP                                                                      substantial efforts to comply with
          recommends that each program participant should (1)                                                                                this recommendation in many of its
          acknowledge explicitly the jurisdiction and authority of                                                                           agreements, there have been exceptions,
          SIGTARP and other oversight bodies, as relevant, to oversee                                                                        including in its agreements with servicers
          compliance of the conditions contained in the agreement                                                                            in MHA.
          in question, (2) establish internal controls with respect to                            X
          that condition, (3) report periodically to the Compliance
          department of the Office of Financial Stability (“OFS-
          Compliance”) regarding the implementation of those controls
          and its compliance with the condition, and (4) provide a
          signed certification from an appropriate senior official to
          OFS-Compliance that such report is accurate.
3    *    All existing TARP agreements, as well as those governing
          new transactions, should be posted on the Treasury website            X
          as soon as possible.
4    *    Treasury should require all TARP recipients to report on the
                                                                                X
          actual use of TARP funds.
5    *    Treasury quickly determines its going-forward valuation
                                                                                X
          methodology.
6    *    Treasury begins to develop an overall investment strategy to
          address its portfolio of stocks and decide whether it intends         X
          to exercise warrants of common stock.
7    *    In formulating the structure of TALF, Treasury should                                                                              The Federal Reserve adopted
          consider requiring, before committing TARP funds to the                                                                            mechanisms that address this
          program, that certain minimum underwriting standards and/                                                                          recommendation.
                                                                                X
          or other fraud prevention mechanisms be put in place with
          respect to the ABS and/or the assets underlying the ABS
          used for collateral.
8    *    Agreements with TALF participants should include an
          acknowledgment that: (1) they are subject to the oversight
          of OFS-Compliance and SIGTARP, (2) with respect to any
          condition imposed as part of TALF, that the party on which
                                                                                                                           X
          the condition is imposed is required to establish internal
          controls with respect to each condition, report periodically
          on such compliance, and provide a certification with respect
          to such compliance.
9    *    Treasury should give careful consideration before agreeing                                                                         This recommendation was implemented
                                                                                                                                                                                          quarterly report to congress I October 25, 2012




          to the expansion of TALF to include MBS without a full review                                                                      with respect to CMBS, and the Federal
                                                                                X
          of risks that may be involved and without considering certain                                                                      Reserve did not expand TALF to RMBS.
          minimum fraud protections.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          185
SIGTARP Recommendations Table                   (Continued)                                                                                                                              186
                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
10   *    Treasury should oppose any expansion of TALF to legacy                                                                             This recommendation was implemented
          MBS without significant modifications to the program to                                                                            with respect to CMBS, and the Federal
                                                                                X
          ensure a full assessment of risks associated with such an                                                                          Reserve did not expand TALF to RMBS.
          expansion.
11        Treasury should formalize its valuation strategy and begin                                                                         Treasury has formalized its valuation
          providing values of the TARP investments to the public.               X                                                            strategy and regularly publishes its
                                                                                                                                             estimates.
12   *    Treasury and the Federal Reserve should provide to                                                                                 On December 1, 2010, the Federal
          SIGTARP, for public disclosure, the identity of the borrowers                                                                      Reserve publicly disclosed the identities
          who surrender collateral in TALF.                                                                                                  of all TALF borrowers and that there had
                                                                                                                                      X
                                                                                                                                             been no surrender of collateral. SIGTARP
                                                                                                                                             will continue to monitor disclosures if a
                                                                                                                                             collateral surrender takes place.
13   *    In TALF, Treasury should dispense with rating agency                                                                               The Federal Reserve announced that
          determinations and require a security-by-security screening                                                                        RMBS were ineligible for TALF loans,
          for each legacy RMBS. Treasury should refuse to participate                                                                        rendering this recommendation moot.
          if the program is not designed so that RMBS, whether new
          or legacy, will be rejected as collateral if the loans backing                                                              X
          particular RMBS do not meet certain baseline underwriting
                                                                                                                                                                                         special inspector general I troubled asset relief program




          criteria or are in categories that have been proven to be
          riddled with fraud, including certain undocumented subprime
          residential mortgages.
14   *    In TALF, Treasury should require significantly higher haircuts                                                                     This recommendation was implemented
          for all MBS, with particularly high haircuts for legacy RMBS,         X                                                            with respect to CMBS, and the Federal
          or other equally effective mitigation efforts.                                                                                     Reserve did not expand TALF to RMBS.
15   *    Treasury should require additional anti-fraud and credit                                                                           The Federal Reserve adopted
          protection provisions, specific to all MBS, before                                                                                 mechanisms that address this
          participating in an expanded TALF, including minimum                  X                                                            recommendation with respect to CMBS,
          underwriting standards and other fraud prevention                                                                                  and did not expand TALF to RMBS.
          measures.
16   *    Treasury should design a robust compliance protocol with
          complete access rights to all TALF transaction participants                                                      X
          for itself, SIGTARP, and other relevant oversight bodies.
17   *    Treasury should not allow Legacy Securities PPIFs to invest
          in TALF unless significant mitigating measures are included           X
          to address these dangers.
18   *    All TALF modeling and decisions, whether on haircuts or any
          other credit or fraud loss mechanisms, should account for
          potential losses to Government interests broadly, including           X
          TARP funds, and not just potential losses to the Federal
          Reserve.
19   *    Treasury should address the confusion and uncertainty on
          executive compensation by immediately issuing the required            X
          regulations.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP Recommendations Table                    (Continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
20   *    Treasury should significantly increase the staffing levels of                                                                      According to Treasury, OFS-Compliance
          OFS-Compliance and ensure the timely development and                                                                               has increased its staffing level and has
          implementation of an integrated risk management and                                     X                                          contracted with four private firms to
          compliance program.                                                                                                                provide additional assistance to OFS-
                                                                                                                                             Compliance.
21   *    Treasury should require CAP participants to (1) establish an                                                                       Treasury closed the program with no
          internal control to monitor their actual use of TARP funds, (2)                                                                    investments having been made, rendering
          provide periodic reporting on their actual use of TARP funds,                                                                      this recommendation moot.
          (3) certify to OFS-Compliance, under the penalty of criminal
          sanction, that the report is accurate, that the same criteria
                                                                                                                                      X
          of internal controls and regular certified reports should be
          applied to all conditions imposed on CAP participants, and
          (4) acknowledge explicitly the jurisdiction and authority of
          SIGTARP and other oversight bodies, as appropriate, to
          oversee conditions contained in the agreement.
22   *    Treasury should impose strict conflict-of-interest rules upon                                                                      Treasury has adopted some significant
          PPIF managers across all programs that specifically address                                                                        conflict-of-interest rules related to this
          whether and to what extent the managers can (1) invest                                                                             recommendation, but has failed to
          PPIF funds in legacy assets that they hold or manage on                                 X                                          impose other significant safeguards.
          behalf of themselves or their clients or (2) conduct PPIF
          transactions with entities in which they have invested on
          behalf of themselves or others.
23   *    Treasury should require that all PPIF fund managers (1)                                                                            Treasury’s agreements with PPIF
          have stringent investor-screening procedures, including                                                                            managers include investor-screening
          comprehensive “Know Your Customer” requirements at least                                                                           procedures such as “Know Your
          as rigorous as that of a commercial bank or retail brokerage                                                                       Customer” requirements. Treasury
          operation to prevent money laundering and the participation                                                                        has agreed that it will have access to
          of actors prone to abusing the system, and (2) be required                              X                                          any information in a fund manager’s
          to provide Treasury with the identities of all the beneficial                                                                      possession relating to beneficial owners.
          owners of the private interests in the fund so that Treasury                                                                       However, Treasury did not impose an
          can do appropriate diligence to ensure that investors in the                                                                       affirmative requirement that managers
          funds are legitimate.                                                                                                              obtain and maintain beneficial owner
                                                                                                                                             information.
24   *    Treasury should require PPIP managers to provide most
          favored nation clauses to PPIF equity stakeholders, to
                                                                                 X
          acknowledge that they owe Treasury a fiduciary duty, and to
          adopt a robust ethics policy and compliance apparatus.
25        Treasury should require servicers in MHA to submit third-                                                                          Treasury has decided to adopt this
          party verified evidence that the applicant is residing in the                                                                      important SIGTARP recommendation. 
                                                                                                             X
          subject property before funding a mortgage modification.                                                                           SIGTARP will monitor Treasury’s
                                                                                                                                             implementation of the recommendation.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                          quarterly report to congress I October 25, 2012
                                                                                                                                                                                          187
SIGTARP Recommendations Table                    (Continued)                                                                                                                              188
                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
26   *    In MHA, Treasury should require a closing-like procedure                                                                           Treasury rejected SIGTARP’s
          be conducted that would include (1) a closing warning                                                                              recommendation for a closing-like
          sheet that would warn the applicant of the consequences                                                                            procedure. However, since this
          of fraud; (2) the notarized signature and thumbprint of each                                                                       recommendation was issued, Treasury
          participant; (3) mandatory collection, copying, and retention                                                                      has taken several actions to prevent
          of copies of identification documents of all participants in                                                                       fraud on the part of either MHA servicers
          the transaction; (4) verbal and written warnings regarding                              X                                          or applicants.
          hidden fees and payments so that applicants are made fully
          aware of them; (5) the benefits to which they are entitled
          under the program (to prevent a corrupt servicer from
          collecting payments from the Government and not passing
          the full amount of the subsidies to the homeowners); and (6)
          the fact that no fee should be charged for the modification.
27        Additional anti-fraud protections should be adopted in MHA                                                                         Treasury has said it will adopt this
          to verify the identity of the participants in the transaction                                                                      recommendation. SIGTARP will monitor
          and to address the potential for servicers to steal from                                           X                               Treasury’s implementation of the
          individuals receiving Government subsidies without applying                                                                        recommendation.
          them for the benefit of the homeowner.
28   *    In MHA, Treasury should require the servicer to compare                                                                            Treasury has rejected SIGTARP’s
          the income reported on a mortgage modification application                                                                         recommendation and does not require
                                                                                                                                                                                          special inspector general I troubled asset relief program




          with the income reported on the original loan applications.                                                      X                 income reported on the modification
                                                                                                                                             application to be compared to income
                                                                                                                                             reported on the original loan application.
29   *    In MHA, Treasury should require that verifiable, third-party
          information be obtained to confirm an applicant’s income              X
          before any modification payments are made.
30   *    In MHA, Treasury should defer payment of the $1,000                                                                                Rather than deferring payment of the
          incentive to the servicer until after the homeowner has                                                                            incentive until after the homeowner has
          verifiably made a minimum number of payments under the                                                                             verifiably made a minimum number of
          mortgage modification program.                                                                                                     payments on its permanent modification,
                                                                                                                           X
                                                                                                                                             Treasury will pay the incentive after the
                                                                                                                                             servicer represents that the homeowner
                                                                                                                                             has made three payments during the trial
                                                                                                                                             period.
31   *    In MHA, Treasury should proactively educate homeowners
          about the nature of the program, warn them about
                                                                                X
          modification rescue fraudsters, and publicize that no fee is
          necessary to participate in the program.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP Recommendations Table                    (Continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
32   *    In MHA, Treasury should require its agents to keep track of                                                                        While Treasury’s program administrator,
          the names and identifying information for each participant in                                                                      Fannie Mae, has developed a HAMP
          each mortgage modification transaction and to maintain a                                                                           system of record that maintains
          database of such information.                                                                                                      servicers’ names, investor group
                                                                                                                                             (private, portfolio, GSE), and
                                                                                                  X                                          participating borrowers’ personally
                                                                                                                                             identifiable information, such as names
                                                                                                                                             and addresses, the database is not
                                                                                                                                             constructed to maintain other information
                                                                                                                                             that may assist in detecting insiders who
                                                                                                                                             are committing large-scale fraud.
33   *    Treasury should require the imposition of strict information                                                                       Treasury has refused to adopt this
          barriers or “walls” between the PPIF managers making                                                                               significant anti-fraud measure designed
          investment decisions on behalf of the PPIF and those                                                             X                 to prevent conflicts of interest. This
          employees of the fund management company who manage                                                                                represents a material deficiency in the
          non-PPIF funds.                                                                                                                    program.
34   *    Treasury should periodically disclose PPIF trading activity                                                                        Treasury has committed to publish
          and require PPIF managers to disclose to SIGTARP, within                                                                           on a quarterly basis certain high-level
          seven days of the close of the quarter, all trading activity,                                                                      information about aggregated purchases
          holdings, and valuations so that SIGTARP may disclose                                                                              by the PPIFs, but not within seven days of
          such information, subject to reasonable protections, in its                                                      X                 the close of the quarter. Treasury has not
          quarterly reports.                                                                                                                 committed to providing full transparency
                                                                                                                                             to show where public dollars are invested
                                                                                                                                             by requiring periodic disclosure of every
                                                                                                                                             trade in the PPIFs.
35   *    Treasury should define appropriate metrics and an                                                                                  After more than two years, Treasury
          evaluation system should be put in place to monitor the                                                                            now states that it has developed risk
          effectiveness of the PPIF managers, both to ensure they                                                                            and performance metrics. However, it
          are fulfilling the terms of their agreements and to measure                             X                                          is still not clear how Treasury will use
          performance.                                                                                                                       these metrics to evaluate the PPIP
                                                                                                                                             managers and take appropriate action as
                                                                                                                                             recommended by SIGTARP.
36   *    The conditions that give Treasury “cause” to remove a                                                                              Treasury has refused to adopt this
          PPIF manager should be expanded to include a manager’s                                                                             recommendation, relying solely on
          performance below a certain standard benchmark, or if                                                                              Treasury’s right to end the investment
          Treasury concludes that the manager has materially violated                                                      X                 period after 12 months. That timeframe
          compliance or ethical rules.                                                                                                       has already expired. Treasury’s failure to
                                                                                                                                             adopt this recommendation potentially
                                                                                                                                             puts significant Government funds at risk.
37   *    Treasury should require PPIF managers to disclose to
          Treasury, as part of the Watch List process, not only
                                                                                 X
          information about holdings in eligible assets but also
          holdings in related assets or exposures to related liabilities.
                                                                                                                                                                                          quarterly report to congress I October 25, 2012




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          189
SIGTARP Recommendations Table                   (Continued)                                                                                                                                190
                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
38        Treasury should require PPIF managers to obtain and                                                                                Treasury has agreed that it can have
          maintain information about the beneficial ownership of all of                                                                      access to any information in a fund
          the private equity interests, and Treasury should have the                                                                         manager’s possession relating to
          unilateral ability to prohibit participation of private equity                                                                     beneficial owners. However, Treasury is
          investors.                                                                                                                         not making an affirmative requirement
                                                                                                                           X                 that managers obtain and maintain
                                                                                                                                             beneficial owner information. Treasury will
                                                                                                                                             not adopt the recommendation to give
                                                                                                                                             itself unilateral ability to deny access to
                                                                                                                                             or remove an investor, stating that such a
                                                                                                                                             right would deter participation.
39   *    Treasury and FRBNY should (1) examine Moody’s assertions                                                                           Treasury and the Federal Reserve have
          that some credit rating agencies are using lower standards                                                                         discussed concerns about potential
          to give a potential TALF security the necessary AAA rating                                                                         overrating or rating shopping with the
          and (2) develop mechanisms to ensure that acceptance of               X                                                            rating agencies, and have agreed to
          collateral in TALF is not unduly influenced by the improper                                                                        continue to develop and enhance risk
          incentives to overrate that exist among the credit agencies.                                                                       management tools and processes, where
                                                                                                                                             appropriate.
40   *    Treasury should more explicitly document the vote of each
          Investment Committee member for all decisions related to              X
                                                                                                                                                                                           special inspector general I troubled asset relief program




          the investment of TARP funds.
41   *    Treasury should improve existing control systems to
          document the occurrence and nature of external phone calls
          and in-person meetings about actual and potential recipients          X
          of funding under the CPP and other similar TARP-assistance
          programs to which they may be part of the decision making.
42   *    The Secretary of the Treasury should direct the Special
          Master to work with FRBNY officials in understanding AIG
          compensation programs and retention challenges before
                                                                                X
          developing future compensation decisions that may affect
          both institutions’ ability to get repaid by AIG for Federal
          assistance provided.
43   *    Treasury should establish policies to guide any similar                                                                            Treasury stated that it does not
          future decisions to take a substantial ownership position in                                                                       anticipate taking a substantial percentage
          financial institutions that would require an advance review                                                                 X      ownership position in any other financial
          so that Treasury can be reasonably aware of the obligations                                                                        institution pursuant to EESA.
          and challenges facing such institutions.
44   *    Treasury should establish policies to guide decision making                                                                        Treasury has agreed to work closely with
          in determining whether it is appropriate to defer to another                                                                       other Federal agencies that are involved
                                                                                                  X
          agency when making TARP programming decisions where                                                                                in TARP.
          more than one Federal agency is involved.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP Recommendations Table                   (Continued)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
45        Treasury should rectify the confusion that its own                                                                                 Despite SIGTARP’s repeated highlighting
          statements have caused for HAMP by prominently disclosing                                                                          of this essential transparency and
          its goals and estimates (updated over time, as necessary)                                                                          effectiveness measure, Treasury has
                                                                                                                           X
          of how many homeowners the program will help through                                                                               refused to disclose clear and relevant
          permanent modifications and report monthly on its progress                                                                         goals and estimates for the program.
          toward meeting that goal.
46        Treasury should develop other performance metrics                                                                                  Although Treasury has increased its
          and publicly report against them to measure over time                                                                              reporting of servicer performance, it has
          the implementation and success of HAMP. For example,                                                                               not identified goals for each metric and
          Treasury could set goals and publicly report against those                                                                         measured performance against those
          goals for servicer processing times, modifications as a                                 X                                          goals.
          proportion of a servicer’s loans in default, modifications
          as a proportion of foreclosures generally, rates of how
          many borrowers fall out of the program prior to permanent
          modification, and re-default rates.
47        Treasury should undertake a sustained public service
          campaign as soon as possible, both to reach additional
          borrowers who could benefit from the program and to arm
                                                                                X
          the public with complete, accurate information — this will
          help to avoid confusion and delay, and prevent fraud and
          abuse.
48        Treasury should reconsider its position that allows servicers
          to substitute alternative forms of income verification based                                                     X
          on subjective determinations by the servicer.
49        Treasury should re-examine HAMP’s structure to ensure that                                                                         Treasury has adopted some programs to
          it is adequately minimizing the risk of re-default stemming                                                                        assist underwater mortgages to address
          from non-mortgage debt, second liens, partial interest rate                             X                                          concerns of negative equity but has not
          resets after the five-year modifications end, and from many                                                                        addressed other factors contained in this
          borrowers being underwater.                                                                                                        recommendation.
50        Treasury should institute careful screening before putting
          additional capital through CDCI into an institution with
          insufficient capital to ensure that the TARP matching funds           X
          are not flowing into an institution that is on the verge of
          failure.
51        Treasury should develop a robust procedure to audit and
          verify the bona fides of any purported capital raise in CDCI
                                                                                X
          and to establish adequate controls to verify the source,
          amount and closing of all claimed private investments.
52        Treasury should revise CDCI terms to clarify that Treasury
          inspection and copy rights continue until the entire CDCI
          investment is terminated. Additionally, consistent with
          recommendations made in connection with other TARP                    X
          programs, the terms should be revised to provide expressly
                                                                                                                                                                                         quarterly report to congress I October 25, 2012




          that SIGTARP shall have access to the CDFI’s records equal
          to that of Treasury.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                         191
SIGTARP Recommendations Table                    (Continued)                                                                                                                                192
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
53        Treasury should consider more frequent surveys of a CDCI
          participant’s use of TARP funds than annually as currently
                                                                                                                           X
          contemplated. Quarterly surveys would more effectively
          emphasize the purpose of CDCI.
54        Treasury should ensure that more detail is captured by                                                                             Treasury has indicated that it has
          the Warrant Committee meeting minutes. At a minimum,                                                                               implemented this recommendation.
          the minutes should include the members’ qualitative                                                                                Although the detail of the minutes has
                                                                                 X
          considerations regarding the reasons bids were accepted or                                                                         improved, Treasury is still not identifying
          rejected within fair market value ranges.                                                                                          how each member of the committee
                                                                                                                                             casts his or her vote.
55        Treasury should document in detail the substance of                                                                                Treasury has agreed to document the
          all communications with recipients concerning warrant                                                                              dates, participants, and subject line of
                                                                                                                           X
          repurchases.                                                                                                                       calls. It has refused to document the
                                                                                                                                             substance of such conversations.
56   *    Treasury should develop and follow guidelines and internal                                                                         Treasury has adopted procedures
          controls concerning how warrant repurchase negotiations                                                                            designed to address this
          will be pursued, including the degree and nature of                                                                                recommendation, including a policy to
          information to be shared with repurchasing institutions                                                                            discuss only warrant valuation inputs and
          concerning Treasury’s valuation of the warrants.                                                                                   methodologies prior to receiving a bid,
                                                                                                                                                                                            special inspector general I troubled asset relief program




                                                                                                                                             generally to limit discussion to valuation
                                                                                                  X                                          ranges after receiving approval from
                                                                                                                                             the Warrant Committee, and to note
                                                                                                                                             the provision of any added information
                                                                                                                                             in the Committee minutes. However,
                                                                                                                                             Treasury believes that its existing internal
                                                                                                                                             controls are sufficient to ensure adequate
                                                                                                                                             consistency in the negotiation process.
57   *    Treasury should promptly take steps to verify TARP                                                                                 Although Treasury largely continues
          participants’ conformance to their obligations, not only by                                                                        to rely on self-reporting, stating that
          ensuring that they have adequate compliance procedures                                                                             it only plans to conduct testing where
          but also by independently testing participants’ compliance.                                                                        they have particular concerns as to a
                                                                                                  X                                          TARP recipient’s compliance procedures
                                                                                                                                             or testing results, it has conducted
                                                                                                                                             independent testing of compliance
                                                                                                                                             obligations during some compliance
                                                                                                                                             reviews.
58   *    Treasury should develop guidelines that apply consistently                                                                         Treasury states that it has developed
          across TARP participants for when a violation is sufficiently                                                                      guidance and provided that guidance to
          material to merit reporting, or in the alternative require that                                                                    the exceptional assistance participants
          all violations be reported.                                                                                                        that were remaining in TARP as of
                                                                                                  X                                          June 30, 2011. Treasury has not
                                                                                                                                             addressed other factors contained in this
                                                                                                                                             recommendation, citing its belief that
                                                                                                                                             materiality should be subject to a fact
                                                                                                                                             and circumstances review.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP Recommendations Table                   (Continued)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
59        For each HAMP-related program and subprogram, Treasury                                                                             Treasury has provided anticipated costs,
          should publish the anticipated costs and expected                                                                                  but not expected participation.
          participation in each and that, after each program is                                   X
          launched, it report monthly as to the program’s performance
          against these expectations.
60   *    Treasury should re-evaluate the voluntary nature of its                                                                            Treasury plans to maintain the voluntary
          principal reduction program and, irrespective of whether it                                                                        nature of the program, providing an
          is discretionary or mandatory, consider changes to better                                                                          explanation that on its face seems
                                                                                                                                      X
          maximize its effectiveness, ensure to the greatest extent                                                                          unpersuasive to SIGTARP. SIGTARP will
          possible the consistent treatment of similarly situated                                                                            continue to monitor performance.
          borrowers, and address potential conflict of interest issues.
61        Treasury should adopt a uniform appraisal process across
          all HAMP and HAMP-related short-sale and principal                                                               X
          reduction programs consistent with FHA’s procedures.
62   *    Treasury should reconsider the length of the minimum term                                                                          For more than a year, Treasury refused to
          of HAMP’s unemployment forbearance program.                                                                                        adopt this recommendation, even though
                                                                                                                                             average U.S. terms of unemployment
                                                                                                                                             were lengthening. However, in July 2011,
                                                                                X                                                            the Administration announced a policy
                                                                                                                                             change, and Treasury has extended the
                                                                                                                                             minimum term of the unemployment
                                                                                                                                             program from three months to 12
                                                                                                                                             months, effective October 1, 2011.
63        Treasury should launch a broad-based information
          campaign, including public service announcements in target
          markets that focus on warnings about potential fraud, and             X
          include conspicuous fraud warnings whenever it makes
          broad public announcements about the HAMP program.
64        When Treasury considers whether to accept an existing CPP
          participant into SBLF, because conditions for many of the
          relevant institutions have changed dramatically since they
          were approved for CPP, Treasury and the bank regulators               X
          should conduct a new analysis of whether the applying
          institution is sufficiently healthy and viable to warrant
          participation in SBLF.
65        When Treasury conducts the new analysis of an institution’s                                                                        Treasury refused to adopt this
          health and viability, the existing CPP preferred shares should                                                                     recommendation, citing its belief that
          not be counted as part of the institution’s capital base.                                                                          current CPP participants may be unfairly
                                                                                                                                             disadvantaged in their SBLF applications
                                                                                                                                             if their existing CPP investments are
                                                                                                                           X
                                                                                                                                             not counted as part of their capital
                                                                                                                                             base, and that SBLF “already provides
                                                                                                                                             substantial hurdles that CPP recipients
                                                                                                                                                                                         quarterly report to congress I October 25, 2012




                                                                                                                                             must overcome” that don’t apply to other
                                                                                                                                             applicants.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                         193
SIGTARP Recommendations Table                   (Continued)                                                                                                                               194
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
66        Treasury should take steps to prevent institutions that are                                                                        Treasury refused to adopt this
          refinancing into the SBLF from CPP from securing windfall                                                                          recommendation, suggesting that
          dividend reductions without any relevant increase in lending.                                                                      its adoption would subvert the will
                                                                                                                                             of Congress and that SIGTARP’s
                                                                                                                           X
                                                                                                                                             recommendation “may not be helpful”
                                                                                                                                             because “it is unclear that using this
                                                                                                                                             statutorily mandated baseline will lead to
                                                                                                                                             anomalies.”
67   *    Treasury, as part of its due diligence concerning any
          proposed restructuring, recapitalization, or sale of its CPP
          investment to a third party, should provide to SIGTARP the
          identity of the CPP institution and the details of the proposed        X
          transaction.



68   *    When a CPP participant refinances into SBLF and seeks
          additional taxpayer funds, Treasury should provide to
                                                                                 X
          SIGTARP the identity of the institution and details of the
          proposed additional SBLF investment.
                                                                                                                                                                                          special inspector general I troubled asset relief program




69   *    OFS should adopt the legal fee bill submission standards                                                                           Treasury told SIGTARP that OFS has
          contained in the FDIC’s Outside Counsel Deskbook, or                                                                               created new guidance using the FDIC’s
          establish similarly detailed requirements for how law                                                                              Outside Counsel Deskbook and other
                                                                                 X
          firms should prepare legal fee bills and describe specific                                                                         resources.
          work performed in the bills, and which costs and fees are
          allowable and unallowable.
70   *    OFS should include in its open legal service contracts                                                                             Treasury told SIGTARP that OFS has
          detailed requirements for law firms on the preparation and                                                                         distributed its new guidance to all
          submission of legal fee bills, or separately provide the                                                                           law firms currently under contract to
          instructions to law firms and modify its open contracts,                                                                           OFS. Treasury further stated that OFS
                                                                                                             X
          making application of the instructions mandatory.                                                                                  will work with Treasury’s Procurement
                                                                                                                                             Services Division to begin modifying
                                                                                                                                             base contracts for OFS legal services to
                                                                                                                                             include those standards as well.
71   *    OFS should adopt the legal fee bill review standards                                                                               Treasury told SIGTARP that OFS has held
          and procedures contained in the FDIC’s Outside Counsel                                                                             training on its newly adopted guidance
          Deskbook, or establish similarly specific instructions and                                                                         prescribing how legal fee bills should
          guidance for OFS COTRs to use when reviewing legal fee                                                                             be prepared with OFS COTRs and other
          bills, and incorporate those instructions and guidance into                                                                        staff involved in the review of legal fee
          OFS written policies.                                                                                                              bills, and that the OFS COTRs will begin
                                                                                 X
                                                                                                                                             reviewing invoices in accordance with
                                                                                                                                             its new guidance for periods starting
                                                                                                                                             with March 2011. OFS also stated that
                                                                                                                                             it incorporated relevant portions of its
                                                                                                                                             training on the new legal fee bill review
                                                                                                                                             standards into written procedures.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP Recommendations Table                  (Continued)

                                                                                             Partially                    Not
          Recommendation                                                  Implemented      Implemented   In Process   Implemented   TBD/NA   Comments
72   *    OFS should review previously paid legal fee bills to                                                                               In April 2011, Treasury agreed to
          identify unreasonable or unallowable charges, and seek                                                                             implement this recommendation. Now,
          reimbursement for those charges, as appropriate.                                                                                   one and a half years later, Treasury
                                                                                                                                             told SIGTARP that it does not have the
                                                                                                                           X
                                                                                                                                             authority to seek reimbursement for
                                                                                                                                             previously paid legal bills. Treasury
                                                                                                                                             did not provide any legal authority to
                                                                                                                                             SIGTARP to support its position.
73   *    Treasury should establish detailed guidance and internal                                                                           Treasury made important changes to
          controls governing how the MHA Servicer Compliance                                                                                 its servicer assessments by including
          Assessment will be conducted and how each compliance                                                                               metrics for the ratings, including several
          area will be weighted.                                                                                                             quantitative metrics. However, qualitative
                                                                                                                                             metrics to assess the servicer’s internal
                                                                                                  X                                          controls in the three ratings categories
                                                                                                                                             remain, and guidelines or criteria for
                                                                                                                                             rating the effectiveness of internal
                                                                                                                                             controls are still necessary. SIGTARP
                                                                                                                                             will continue to monitor Treasury’s
                                                                                                                                             implementation of this recommendation.
74   *    Treasury should ensure that more detail is captured by                                                                             Minutes of recent MHA Compliance
          the MHA Compliance Committee meeting minutes. At a                                                                                 Committee meetings contain brief
          minimum, the minutes should include MHA-C’s proposed                                                                               explanations of servicer assessment
          rating for each servicer, the committee members’ qualitative                                                                       rating decisions. However, these
          and quantitative considerations regarding each servicer’s                                                                          minutes do not explain the Committee’s
          ratings, the votes of each committee member, the final                                  X                                          deliberations in detail, do not indicate
          rating for each servicer, justification for any difference in                                                                      how members voted beyond a tally of
          that rating with MHA-C’s proposed rating, and any follow-                                                                          the votes, and do not discuss follow-
          up including escalation to Treasury’s Office of General                                                                            up actions or escalation. SIGTARP
          Counsel or the Assistant Secretary and the outcomes of that                                                                        will continue to monitor Treasury’s
          escalation.                                                                                                                        implementation of the recommendation.
75   *    Treasury should require that MHA servicer communications                                                                           Treasury has refused to adopt this
          with homeowners relating to changes in the status or                                                                               recommendation, saying it already
          terms of a homeowner’s modification application, trial or                                                                          requires a loan servicer to communicate
          permanent modification, HAFA agreement, or any other                                                                               in writing with a borrower an average
          significant change affecting the homeowner’s participation in                                                                      of 10 times. However, most written
                                                                                                                           X
          the MHA program, be in writing.                                                                                                    requirements apply to a HAMP
                                                                                                                                             application and Treasury’s response fails
                                                                                                                                             to address homeowners who receive
                                                                                                                                             miscommunication from servicers on
                                                                                                                                             important milestones or changes.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                          quarterly report to congress I October 25, 2012
                                                                                                                                                                                          195
SIGTARP Recommendations Table                     (Continued)                                                                                                                           196
                                                                                             Partially                    Not
          Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
76   *    Treasury should establish benchmarks and goals for                                                                                 Treasury told SIGTARP that it already
          acceptable program performance for all MHA servicers,                                                                              established benchmarks in this area,
          including the length of time it takes for trial modifications to                                                                   including that trial periods should last
          be converted into permanent modifications, the conversion                                                                          three to four months, and escalated
          rate for trial modifications into permanent modifications,                                                                         cases should be resolved in 30 days. If
          the length of time it takes to resolve escalated homeowner                                                       X                 these are the benchmarks for acceptable
          complaints, and the percentage of required modification                                                                            performance, many servicers have
          status reports that are missing.                                                                                                   missed the mark. Also, Treasury has yet
                                                                                                                                             to establish a benchmark for conversion
                                                                                                                                             rates from trial modifications to
                                                                                                                                             permanent modifications.
77        Treasury should publicly assess the top 10 MHA servicers’                                                                          Treasury has rejected this
          program performance against acceptable performance                                                                                 recommendation, saying only that it
          benchmarks in the areas of: the length of time it takes                                                                            would “continue to develop and improve
          for trial modifications to be converted into permanent                                                                             the process where appropriate.”
          modifications, the conversion rate for trial modifications                                                       X
          into permanent modifications, the length of time it takes
          to resolve escalated homeowner complaints, and the
          percentage of required modification status reports that are
          missing.
                                                                                                                                                                                        special inspector general I troubled asset relief program




78   *    Treasury must ensure that all servicers participating in MHA                                                                       Treasury has rejected this important
          comply with program requirements by vigorously enforcing                                                                           recommendation, stating that it believes
          the terms of the servicer participation agreements, including                                                                      that the remedies enacted have been
          using all financial remedies such as withholding, permanently                                                                      appropriate and that appropriate
                                                                                                                           X
          reducing, and clawing back incentives for servicers who                                                                            transparency exists.
          fail to perform at an acceptable level. Treasury should be
          transparent and make public all remedial actions taken
          against any servicer.
79        Treasury should specifically determine the allowability of                                                                         Treasury neither agreed nor disagreed
          $7,980,215 in questioned, unsupported legal fees and                                                                               with the recommendation.
          expenses paid to the following law firms: Simpson Thacher
          & Bartlett LLP ($5,791,724); Cadwalader Wickersham &                                                             X
          Taft LLP ($1,983,685); Locke Lord Bissell & Liddell LLP
          ($146,867); and Bingham McCutchen LLP (novated from
          McKee Nelson LLP, $57,939).
80        The Treasury contracting officer should disallow and seek                                                                          Treasury neither agreed nor disagreed
          recovery from Simpson Thacher & Bartlett LLP for $96,482                                                                           with the recommendation.
          in questioned, ineligible fees and expenses paid that were
          not allowed under the OFS contract. Specifically, those are
                                                                                                                           X
          $68,936 for labor hours billed at rates in excess of the
          allowable maximums set in contract TOFS-09-0001, task
          order 1, and $22,546 in other direct costs not allowed
          under contract TOFS-09-007, task order 1.
81        Treasury should promptly review all previously paid legal fee                                                                      Treasury neither agreed nor disagreed
          bills from all law firms with which it has a closed or open                                                                        with the recommendation.
                                                                                                                           X
          contract to identify unreasonable or unallowable charges
          and seek reimbursement for those charges, as appropriate.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
SIGTARP Recommendations Table                   (Continued)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
82        Treasury should require in any future solicitation for legal                                                                       Treasury neither agreed nor disagreed
          services multiple rate categories within the various partner,                                                                      with the recommendation.
          counsel, and associate labor categories. The additional                                                          X
          labor rate categories should be based on the number of
          years the attorneys have practiced law.
83        Treasury should pre-approve specified labor categories and                                                                         Treasury neither agreed nor disagreed
          rates of all contracted legal staff before they are allowed to                                                   X                 with the recommendation.
          work on and charge time to OFS projects.
84   *    Treasury, in consultation with Federal banking regulators,                                                                         Treasury responded to this
          should develop a clear TARP exit path to ensure that                                                                               recommendation by saying that it
          as many community banks as possible repay the TARP                                                                                 continues its efforts to wind down CPP
          investment and prepare to deal with the banks that cannot.                                                                         through repayments, restructuring, and
          Treasury should develop criteria pertaining to restructurings,                                     X                               sales, all of which it was doing prior to
          exchanges, and sales of its TARP investments (including any                                                                        this recommendation.  Treasury intends
          discount of the TARP investment, the treatment of unpaid                                                                           to auction off a pool of TARP securities. 
          TARP dividend and interest payments, and warrants).                                                                                Treasury has not addressed the criteria
                                                                                                                                             for these divestment strategies.
85   *    Treasury should assess whether it should renegotiate the                                                                           Treasury rejected this recommendation
          terms of its Capital Purchase Program contracts for those                                                                          without ever addressing why.
          community banks that will not be able to exit TARP prior                                                         X
          to the dividend rate increase in order to help preserve the
          value of taxpayers’ investments.
86        Treasury should protect borrower personally identifiable                                                                           Treasury has said it will adopt this
          information (“PII”) and other sensitive borrower information                                                                       recommendation in part. Treasury did
          compiled for the Hardest Hit Fund (“HHF”) by: (1) requiring                                                                        not agree to review each HFA’s policies
          that within 90 days, all Housing Finance Agencies (and                                                                             and procedures to determine if they
          their contractors) (“HFAs”) participating in HHF develop                                                                           are effective. Also, Treasury did not
          and implement effective policies and procedures to ensure                                                                          require notification within 24 hours or
          protection against unauthorized access, use, and disposition                                                                       notification to SIGTARP. SIGTARP will
          of PII and other sensitive borrower information; (2) Treasury                                                                      monitor Treasury’s efforts to implement
          reviewing each HFA’s policies and procedures to determine                                                                          the recommendation.
          if they are effective, and taking such action as is required to                                    X
          ensure effectiveness; (3) requiring that all parties granted
          access to borrower information should be made aware
          of restrictions on copying and disclosing this information;
          (4) requiring annual certification by HFAs to Treasury that
          they are in compliance with all applicable laws, policies
          and procedures pertaining to borrower information; and (5)
          requiring that HFAs promptly notify Treasury and SIGTARP
          within 24 hours, when a breach of security has occurred
          involving borrower information.
87   *    To ensure that the Office of the Special Master consistently                                                                       OSM began memorializing in its records
          grants exceptions to the $500,000 cash salary cap, the                                                                             justifications for exceptions. SIGTARP
          Office of the Special Master should substantiate each                                                                              will continue to monitor whether those
                                                                                                                                                                                          quarterly report to congress I October 25, 2012




          exception requested and whether the requests demonstrate                                           X                               records substantiate each exception
          or fail to demonstrate “good cause.”                                                                                               requested and whether the requests
                                                                                                                                             demonstrate or fail to demonstrate “good
                                                                                                                                             cause.”
                                                                                                                                                                                          197




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP Recommendations Table                   (Continued)                                                                                                                                 198
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
88   *    The Office of the Special Master should better document
          its use of market data in its calculations. At a minimum, the
          Office of the Special Master should prospectively document
          which companies and employees are used as comparisons
                                                                                 X
          in its analysis of the 50th percentile of the market, and
          it should also maintain records and data so that the
          relationship between its determinations and benchmarks are
          clearly understood.
89        The Office of the Special Master should develop more                                                                               OSM defended the adequacy of its
          robust policies, procedures, or guidelines to help ensure                                                                          policies and procedures. OSM stated it
          that its pay determination process and its decisions are                                                                           will carefully focus on how it can further
          evenhanded. These measures will improve transparency                                                                               develop and articulate its policies,
                                                                                                                           X
          and help the Office of the Special Master consistently apply                                                                       procedures, and guidelines.
          the Interim Final Rule principles of “appropriate allocation,”
          “performance-based compensation,” and “comparable
          structures and payments.”
90        In order to allow for effective compliance and enforcement                                                                         Treasury responded to this
          in HAMP Tier 2, Treasury should require that the borrower                                                                          recommendation by requiring that
          prove that the property has been rented and is occupied                                                                            borrowers certify that they intend to rent
          by a tenant at the time the borrower applies for a loan                                                                            the property for at least five years and
                                                                                                                                                                                            special inspector general I troubled asset relief program




          modification, as opposed to requiring only a certification                                                                         that they will make reasonable efforts
          that the borrower intends to rent the property. As part of                                                                         to rent. This does not go far enough.
          the Request for Mortgage Assistance (“RMA”) application                                                                            Requiring only a self-certification, under
          for HAMP Tier 2, the borrower should provide the servicer                                                                          penalty of perjury, without a strong
          with a signed lease and third-party verified evidence of                                                         X                 compliance and enforcement regime to
          occupancy in the form of documents showing that a renter                                                                           ensure that the intent is carried out and
          lives at the property address, such as a utility bill, driver’s                                                                    the property is actually rented, leaves the
          license, or proof of renter’s insurance. In the case of                                                                            program vulnerable to risks that TARP
          multiple-unit properties under one mortgage Treasury should                                                                        funds will pay investors for modifications
          require that the borrower provide the servicer with evidence                                                                       for mortgages on vacation homes
          that at least one unit is occupied by a tenant as part of the                                                                      that are not rented, and may delay, as
          RMA.                                                                                                                               opposed to prevent, foreclosures and
                                                                                                                                             increase HAMP redefault rates.
91        To continue to allow for effective compliance and                                                                                  Treasury rejected this recommendation,
          enforcement in HAMP Tier 2 after the trial modification has                                                                        stating that eligibility is not retested
          started, Treasury should require that, prior to conversion                                                                         prior to conversion. This does not go far
          of a trial modification to a permanent modification, the                                                                           enough. Requiring only a self-certification,
          borrower certify under penalty of perjury that none of the                                                                         without a strong compliance and
          occupancy circumstances stated in the RMA have changed.                                                                            enforcement regime to ensure that the
                                                                                                                                             intent is carried out and the property
                                                                                                                           X
                                                                                                                                             is actually rented, leaves the program
                                                                                                                                             vulnerable to risks that TARP funds
                                                                                                                                             will pay investors for modifications for
                                                                                                                                             mortgages on vacation homes that are
                                                                                                                                             not rented, and may delay, as opposed to
                                                                                                                                             prevent, foreclosures and increase HAMP
                                                                                                                                             redefault rates.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP Recommendations Table                   (Continued)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
92        To prevent a property that has received a HAMP Tier 2                                                                              Treasury told SIGTARP that implementing
          modification from remaining vacant for an extended period                                                                          this recommendation would create
          of time after a lease expires or a tenant vacates,                                                                                 significant additional procedures and
                                                                                                                                             documentation requirements. With no
          (a) Treasury should require that borrowers immediately notify
                                                                                                                                             compliance regime to determine that a
          their servicer if the property has remained vacant for more
                                                                                                                                             renter is in place, the program remains
          than three months.
                                                                                                                                             vulnerable to TARP funds being paid to
          (b) Treasury should require servicers to provide monthly                                                                           modify mortgages that do not fit within
          reports to Treasury of any properties that have remained                                                         X                 the intended expansion of the program.
          vacant for more than three months.
          (c) Treasury should bar payment of TARP-funded incentives
          to any participant for a loan modification on a property that
          has been reported vacant for more than three months, until
          such time as the property has been re-occupied by a tenant
          and the borrower has provided third-party verification of
          occupancy.
93        In order to protect against the possibility that the extension                                                                     Treasury has not implemented this
          and expansion of HAMP will lead to an increase in mortgage                                                                         recommendation. It is important that
          modification fraud,                                                                                                                Treasury educate as many homeowners
          (a) Treasury should require that servicers provide the                                                                             as possible with accurate information
          SIGTARP/CFPB/Treasury Joint Task Force Consumer Fraud                                                                              about HAMP in an effort to prevent
                                                                                                                                             mortgage modification fraud.
          Alert to all HAMP-eligible borrowers as part of their monthly
          mortgage statement until the expiration of the application
                                                                                                                           X
          period for HAMP Tier 1 and 2.
          (b) Treasury should undertake a sustained public service
          campaign as soon as possible both to reach additional
          borrowers who could potentially be helped by HAMP Tier 2
          and to arm the public with complete, accurate information
          about the program to avoid confusion and delay, and to
          prevent fraud and abuse.
94        Given the expected increase in the volume of HAMP                                                                                  Treasury has not implemented this
          applications due to the implementation of HAMP Tier 2,                                                                             recommendation. Treasury has not held
          Treasury should convene a summit of key stakeholders to                                                                            a summit of all key stakeholders to
                                                                                                                           X
          discuss program implementation and servicer ramp-up and                                                                            make the program roll-out efficient and
          performance requirements so that the program roll-out is                                                                           effective.
          efficient and effective.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                         Continued on next page
                                                                                                                                                                                       quarterly report to congress I October 25, 2012
                                                                                                                                                                                       199
SIGTARP Recommendations Table                    (Continued)                                                                                                                               200
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
95        To ensure servicer compliance with HAMP Tier 2 guidelines                                                                          Treasury said that it will include metrics
          and assess servicer performance,                                                                                                   in the future. SIGTARP will continue to
                                                                                                                                             monitor Treasury’s implementation of this
          (a) Treasury should include additional criteria in its servicer
                                                                                                                                             recommendation.
          compliance assessments that measure compliance with the
          program guidelines and requirements of HAMP Tier 2.
                                                                                                             X
          (b) Treasury should develop and publish separate metrics
          related to HAMP Tier 2 in the compliance results and
          program results sections of the quarterly Making Home
          Affordable (“MHA”) servicer assessments of the Top 10 MHA
          servicers.
96        To allow for assessment of the progress and success                                                                                Treasury has rejected this
          of HAMP Tier 2, Treasury should set meaningful and                                                                                 recommendation. Treasury’s refusal to
          measurable goals, including at a minimum the number of                                                                             provide meaningful and measurable goals
          borrowers Treasury estimates will be helped by HAMP Tier                                                         X                 leaves it vulnerable to accusations that it
          2. Treasury should unambiguously and prominently disclose                                                                          is trying to avoid accountability.
          its goals and report monthly on its progress in meeting
          these goals.
97        Treasury should set meaningful and measurable                                                                                      Treasury has not implemented this
          performance goals for the Hardest Hit Fund program                                                                                 recommendation. It is important that
                                                                                                                                                                                           special inspector general I troubled asset relief program




          including, at a minimum, the number of homeowners                                                                                  Treasury sets meaningful goals and
          Treasury estimates will be helped by the program, and                                                            X                 metrics to identify program successes
          measure the program’s progress against those goals.                                                                                and set-backs, in order to change the
                                                                                                                                             program as necessary, and to provide
                                                                                                                                             transparency and accountability.
98        Treasury should instruct state housing finance agencies                                                                            See discussion in this section
          in the Hardest Hit Fund to set meaningful and measurable
          overarching and interim performance goals with appropriate                              X
          metrics to measure progress for their individual state
          programs.
99        Treasury should set milestones at which the state housing                                                                          See discussion in this section
          finance agencies in the Hardest Hit Fund must review the
                                                                                                  X
          progress of individual state programs and make program
          adjustments from this review.
100       Treasury should publish on its website and in the Housing                                                                          Treasury has rejected this
          Scorecard on a quarterly basis the total number of                                                                                 recommendation. HHF is a TARP
          homeowners assisted, funds drawn down by states, and                                                                               program, the source of the funds is
          dollars expended for assistance to homeowners, assistance                                                                          TARP, and Treasury is steward over
                                                                                                                           X
          committed to homeowners, and cash on hand, aggregated                                                                              TARP. Treasury has the responsibility to
          by all state Hardest Hit Fund programs.                                                                                            increase transparency and accountability
                                                                                                                                             of how TARP funds are used by publishing
                                                                                                                                             this information.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                          Continued on next page
SIGTARP Recommendations Table                  (Continued)

                                                                                             Partially                    Not
          Recommendation                                                 Implemented       Implemented   In Process   Implemented   TBD/NA   Comments
101       Treasury should develop an action plan for the Hardest                                                                             Treasury has rejected this
          Hit Fund that includes steps to increase the numbers of                                                                            recommendation. It is important that
          homeowners assisted and to gain industry support for                                                                               Treasury change the status quo and fulfill
          Treasury-approved HHF programs. Treasury should set                                                                                its role as steward over TARP programs,
          interim metrics for how many homeowners it intends to                                                                              make determinations of which programs
          assist in a Treasury-defined time period in each particular                                                                        are successful and which programs
          program (such as principal reduction, second lien reduction,                                                     X                 are not working, and ensure that HHF
          or reinstatement). If Treasury cannot achieve the desired                                                                          funds are reaching homeowners. This
          level of homeowners assisted in any one program area in                                                                            may include putting the funds toward
          the defined time period, Treasury should put the funds to                                                                          programs that are more successful at
          better use toward programs that are reaching homeowners.                                                                           reaching homeowners. It is unacceptable
                                                                                                                                             to delegate all of this responsibility to the
                                                                                                                                             states.
102       Treasury should stop allowing servicers to add a risk                                                                              Treasury has not implemented this
          premium to Freddie Mac’s discount rate in HAMP’s net                                                                               recommendation. The addition of a
          present value test.                                                                                                                risk premium reduces the number
                                                                                                                                             of otherwise qualified homeowners
                                                                                                                           X
                                                                                                                                             Treasury helps through HAMP. Treasury
                                                                                                                                             should implement this recommendation
                                                                                                                                             to increase assistance to struggling
                                                                                                                                             homeowners.
103       Treasury should ensure that servicers use accurate                                                                                 Treasury has not implemented this
          information when evaluating net present value test results                                                                         recommendation. Servicer errors using
          for homeowners applying to HAMP and should ensure that                                                                             NPV inputs and the lack of properly
          servicers maintain documentation of all net present value                                                                          maintained records on NPV inputs have
                                                                                                                           X
          test inputs. To the extent that a servicer does not follow                                                                         diminished compliance and placed the
          Treasury’s guidelines on input accuracy and documentation                                                                          protection of homeowner’s rights to
          maintenance, Treasury should permanently withhold                                                                                  challenge servicer error at risk.
          incentives from that servicer.
104       Treasury should require servicers to improve their                                                                                 Treasury has not implemented this
          communication with homeowners regarding denial of a                                                                                recommendation. Servicers’ failure to
          HAMP modification so that homeowners can move forward                                                                              communicate denial in a timely manner
          with other foreclosure alternatives in a timely and fully                                                                          can have serious consequences because
                                                                                                                           X
          informed manner. To the extent that a servicer does not                                                                            a delay may prevent homeowners from
          follow Treasury’s guidelines on these communications,                                                                              finding other foreclosure alternatives
          Treasury should permanently withhold incentives from that                                                                          sooner.
          servicer.
105       Treasury should ensure that more detail is captured by the                                                                         Treasury has not implemented this
          Making Home Affordable Compliance Committee meeting                                                                                recommendation. SIGTARP found a lack
          minutes regarding the substance of discussions related to                                                                          of detail in Treasury’s meeting minutes
          compliance efforts on servicers in HAMP. Treasury should                                                                           and because Treasury failed to document
                                                                                                                           X
          make sure that minutes clearly outline the specific problems                                                                       its oversight, SIGTARP was unable to
          encountered by servicers, remedial options discussed, and                                                                          verify Treasury’s role in the oversight of
          any requisite actions taken to remedy the situation.                                                                               servicers or its compliance agent Freddie
                                                                                                                                                                                             quarterly report to congress I October 25, 2012




                                                                                                                                             Mac.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	                                                           Continued on next page
                                                                                                                                                                                             201
SIGTARP Recommendations Table                   (Continued)                                                                                                                   202
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
106       In order to protect taxpayers who funded TARP against any                                                                          See discussion in this section
          future threat that might result from LIBOR manipulation,
          Treasury and the Federal Reserve should immediately                                                              X
          change any ongoing TARP programs including, without
          limitation, PPIP and TALF, to cease reliance on LIBOR.
107       In order to protect taxpayers who invested TARP funds                                                                              See discussion in this section
          into AIG to the fullest extent possible, Treasury and the
          Federal Reserve should recommend to the Financial Stability
                                                                                                                           X
          Oversight Council that AIG be designated as a systemically
          important financial institution so that it receives the
          strongest level of Federal regulation.
108       In order to fulfill Treasury’s responsibility to wind down its                                                                     See discussion in this section
          TARP Capital Purchase Program investments in a way that
          protects taxpayer interests, before allowing a TARP bank
          to purchase Treasury’s TARP shares at a discount to the
          TARP investment (for example as the successful bidder
          at auction), Treasury should undertake an analysis, in                                                           X
          consultation with Federal banking regulators, to determine
          that allowing the bank to redeem its TARP shares at a
          discount to the TARP investment outweighs the risk that the
                                                                                                                                                                              special inspector general I troubled asset relief program




          bank will not repay the full TARP investment. Treasury should
          document that analysis and consultation.
109       In order to fulfill Treasury’s responsibility to wind down its                                                                     See discussion in this section
          TARP investments in a way that promotes financial stability
          and preserves the strength of our nation’s community
          banks, Treasury should undertake an analysis in consultation
          with Federal banking regulators that ensures that it is exiting
          its Capital Purchase Program investments in a way that
          satisfies the goals of CPP, which are to promote financial
          stability, maintain confidence in the financial system and                                                       X
          enable lending. This financial stability analysis of a bank’s
          exit from TARP should determine at a minimum: (1) that the
          bank will remain healthy and viable in the event of an auction
          of Treasury’s preferred shares; and (2) that the bank’s exit
          from TARP does not have a negative impact on the banking
          industry at a community, state, regional, and national level.
          Treasury should document that analysis and consultation.
110       Treasury should better document its decision whether or not                                                                        See discussion in this section
          to auction its preferred shares in a TARP bank to adequately
                                                                                                                           X
          reflect the considerations made for each bank and detailed
          rationale.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.	
               Endnotes
                                                                                        quarterly report to congress I October 25, 2012                 203


1.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
2.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2,16.
3.	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
       Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 9/28/2012.
4.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
5.	    Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
6.	    Treasury, Daily TARP Update, 10/1/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
       10.01.2012.pdf, accessed 10/2/2012.
7.	    Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
       Monthly%20Report.pdf, accessed 10/11/2012.
8.	    Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
       Monthly%20Report.pdf, accessed 10/11/2012.
9.	    Treasury, response to SIGTARP data call, 10/4/2012; Treasury, Daily TARP Update, 10/1/2012, www.treasury.gov/initiatives/financial-stability/
       reports/Documents/Daily%20TARP%20Update%20-%2010.01.2012.pdf, accessed 10/2/2012.
10.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2013,” 2/13/2012, www.whitehouse.gov/sites/default/
       files/omb/budget/fy2013/assets/econ_analyses.pdf, accessed 9/28/2012; Treasury, “Office of Financial Stability – Troubled Asset Relief Program
       Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/
       Documents/2011_OFS_AFR_11-11-11.pdf, accessed 9/28/2012.
11.	   Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
       Monthly%20Report.pdf, accessed 10/11/2012.
12.	   CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, www.cbo.gov/publication/24884, accessed 9/28/2012; OMB, “Analytical
       Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/pdf/spec.pdf, accessed
       9/28/2012.
13.	   OMB, “OMB Report Under the Emergency Economic Stabilization Act, Section 202,” 8/31/2012, www.whitehouse.gov/sites/default/files/omb/
       reports/tarp_report_august_2012.pdf, accessed 10/5/2012.
14.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2013,” 2/13/2012, www.whitehouse.gov/sites/default/files/
       omb/budget/fy2013/assets/econ_analyses.pdf, accessed 10/5/2012.
15.	   OMB, “OMB Report Under the Emergency Economic Stabilization Act, Section 202,” 8/31/2012, www.whitehouse.gov/sites/default/files/omb/
       reports/tarp_report_august_2012.pdf, accessed 10/5/2012.
16.	   CBO, “Report on the Troubled Asset Relief Program—October 2012,” www.cbo.gov/sites/default/files/cbofiles/attachments/TARP10-2012_0.pdf,
       accessed 10/12/2012.
17.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.
       gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 9/28/2012.
18.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.
       gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 9/28/2012.
19.	   Treasury, “Office of Financial Stability – Troubled Asset Relief Program Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.
       gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 9/28/2012.
20.	   Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
       Monthly%20Report.pdf, accessed 10/11/2012.
21.	   Treasury, Daily TARP Update, 10/1/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
       10.01.2012.pdf, accessed 10/2/2012; Treasury, response to SIGTARP data call, 10/4/2012.
22.	   Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
       Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, Daily TARP Update, 10/1/2012, www.treasury.gov/
       initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%2010.01.2012.pdf, accessed 10/2/2012.
23.	   Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
       Monthly%20Report.pdf, accessed 10/11/2012.
24.	   Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
       Monthly%20Report.pdf, accessed 10/11/2012; Treasury, response to SIGTARP data call, 10/4/2012.
25.	   Treasury, response to SIGTARP data call, 10/4/2012.
26.	   Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
       Monthly%20Report.pdf, accessed 10/11/2012.
27.	   Treasury, response to SIGTARP data call, 10/4/2012.
28.	   OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2013,” 2/13/2012, www.whitehouse.gov/sites/default/
       files/omb/budget/fy2013/assets/econ_analyses.pdf, accessed 9/28/2012; Treasury, “Office of Financial Stability – Troubled Asset Relief Program
       Agency Financial Report Fiscal Year 2011,” 11/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/
       Documents/2011_OFS_AFR_11-11-11.pdf, accessed 9/28/2012.
29.	   Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
       Monthly%20Report.pdf, accessed 10/11/2012; Treasury, response to SIGTARP vetting draft, 10/3/2012.
30.	   Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
       Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, Daily TARP Update, 10/1/2012, www.treasury.gov/
       initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%2010.01.2012.pdf, accessed 10/2/2012; Treasury, response to
       SIGTARP data call, 10/10/2012.
31.	   Treasury, response to SIGTARP data call, 10/4/2012.
32.	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
       press-center/press-releases/Pages/tg48.aspx, accessed 9/28/2012.
204             special inspector general I troubled asset relief program



      33.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
             briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 9/28/2012.
      34.	   Treasury, “Home Affordable Modification Program — Programs,” no date, www.hmpadmin.com/portal/programs/index.jsp, accessed 9/28/2012.
      35.	   Treasury, response to SIGTARP data call, 10/4/2012.
      36.	   Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
             Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 9/28/2012.
      37.	   Treasury, response to SIGTARP data call, 10/4/2012.
      38.	   Treasury, response to SIGTARP data call, 10/19/2012.
      39.	   Treasury, response to SIGTARP data call, 10/4/2012.
      40.	   Treasury, response to SIGTARP data call, 10/12/2012.
      41.	   The White House, “President Obama Announces Help for Hardest Hit Housing Markets,” 2/19/2010, www.whitehouse.gov/the-press-office/
             president-obama-announces-help-hardest-hit-housing-markets, accessed 9/28/2012.
      42.	   Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
             Monthly%20Report.pdf, accessed 10/11/2012.
      43.	   Treasury, response to SIGTARP data call, 10/4/2012.
      44.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
      45.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cpp/Pages/capitalpurchaseprogram.aspx, accessed 9/28/2012.
      46.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cpp/Pages/capitalpurchaseprogram.aspx, accessed 9/28/2012.
      47.	   Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
             Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 9/28/2012.
      48.	   Treasury, response to SIGTARP data call, 10/4/2012.
      49.	   Treasury, response to SIGTARP data call, 10/4/2012; Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      50.	   Treasury, response to SIGTARP data call, 10/4/2012; Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      51.	   Treasury, response to SIGTARP data call, 10/4/2012; Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/
             reports/Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      52.	   Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
             Monthly%20Report.pdf, accessed 10/11/2012; Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/
             Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      53.	   Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
             Monthly%20Report.pdf, accessed 10/11/2012; Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/
             Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, response to
             SIGTARP data call, 10/4/2012.
      54.	   Treasury, response to SIGTARP draft report, 10/8/2010.
      55.	   Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-
             investment-programs/cdci/Pages/Overview.aspx, accessed 9/28/2012.
      56.	   Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
             Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      57.	   Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
             Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      58.	   Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
             9/28/2012.
      59.	   Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
             Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      60.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 9/28/2012; Treasury Press
             Release, “Treasury Department Statement on AIG’s Transaction Agreement,” 12/8/2010, www.treasury.gov/press-center/press-releases/Pages/
             tg996.aspx, accessed 9/28/2012.
      61.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 9/28/2012.
      62.	   AIG, 10-Q, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 9/28/2012; FRBNY,
             response to SIGTARP draft report, 1/12/2011; FRBNY, response to SIGTARP draft report, 4/12/2011.
      63.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 9/28/2012; Treasury,
             Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20Report%20
             as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      64.	   Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
             Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      65.	   Treasury Press Release, “Overall Positive Return on $182 Billion Commitment to AIG during Financial Crisis Reaches $15.1 Billion after
             Treasury Announces $2.7 Billion in Additional Expected Proceeds from AIG Common Stock Sale,” 9/11/2012, www.treasury.gov/press-center/
             press-releases/Pages/tg1704.aspx, accessed 9/28/2012.
      66.	   Treasury, Daily TARP Update, 10/1/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
             10.01.2012.pdf, accessed 10/2/2012.
      67.	   Treasury, response to SIGTARP vetting draft, 10/11/2012.
      68.	   Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
             Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
                                                                                       quarterly report to congress I October 25, 2012                205


69.	  Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
      OFS%20AFR%2009_24.pdf, accessed 9/28/2012.
70.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
71.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
72.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
73.	 Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
      OFS%20AFR%2009_24.pdf, accessed 9/28/2012.
74.	 Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 12/16/2009, www.treasury.gov/press-
      center/press-releases/Pages/hp1358.aspx, accessed 9/28/2012.
75.	 U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
      Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
      pdf, accessed 9/28/2012.
76.	 Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 9/28/2012.
77.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
      9/28/2012.
78.	 FRBNY, response to SIGTARP data call, 10/4/2012.
79.	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
      9/28/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/
      TALF_recent_operations.html, accessed 9/28/2012; FRBNY, response to SIGTARP data call, 10/4/2012.
80.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
      9/28/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/CMBS_
      recent_operations.html, accessed 9/28/2012; FRBNY, response to SIGTARP data call, 10/4/2012.
81.	 Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 9/28/2012.
82.	 Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
      Monthly%20Report.pdf, accessed 10/11/2012.
83.	 FRBNY, response to SIGTARP data call, 10/4/2012.
84.	 FRBNY, response to SIGTARP data call, 10/4/2012.
85.	 Treasury Press Release, “Treasury Department Releases Details on Public Private Partnership Investment Program,” 3/23/2009, www.treasury.
      gov/press-center/press-releases/Pages/tg65.aspx, accessed 9/28/2012.
86.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended June 30, 2012,” www.treasury.gov/initiatives/
      financial-stability/reports/Documents/PPIP%20Report%20-%20Q2%202012.pdf, 7/19/2012, p. 4, accessed 10/9/2012.
87.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, response to SIGTARP data call, 10/10/2012.
88.	 Treasury, response to SIGTARP draft report, 10/8/2010.
89.	 Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
      tg58.aspx, accessed 9/28/2012.
90.	 Treasury Press Release, “Treasury Completes Wind Down of TARP Small Business Program, Realizes $8 Million Gain for Taxpayers,”
      1/25/2012, www.treasury.gov/press-center/press-releases/Pages/tg1398.aspx, accessed 9/28/2012.
91.	 Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
      Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 9/28/2012.
92.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, Daily TARP Update, 10/1/2012, www.treasury.gov/
      initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%2010.01.2012.pdf, accessed 10/2/2012.
93.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
94.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
95.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
      Dividends%20Interest%20Report.pdf, accessed 10/11/2012; Daily TARP Update, 10/1/2012, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/Daily%20TARP%20Update%20-%2010.01.2012.pdf, accessed 10/2/2012.
96.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
97.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
98.	 Department of Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, 11/30/2011,
      www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed
      9/28/2012.
99.	 Treasury, Transactions Report, 1/4/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/1-4-11%20Transactions%20Report%20as%20of%201-3-11.pdf, accessed 9/28/2012.
100.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 9/28/2012.
101.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, response to SIGTARP data call, 10/4/2012.
206             special inspector general I troubled asset relief program



      102.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, response to SIGTARP data call, 10/4/2012.
      103.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/
            Pages/tg1253.aspx, accessed 9/28/2012; Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/
            Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      104.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1253.aspx, accessed 9/28/2012.
      105.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1253.aspx, accessed 9/28/2012.
      106.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, response to SIGTARP data call, 10/4/2012.
      107.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, response to SIGTARP data call, 10/4/2012.
      108.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
            data/40729/000119312511142459/ds1a.htm, accessed 9/28/2012.
      109.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
            data/40729/000119312511142459/ds1a.htm, accessed 9/28/2012.
      110.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, response to SIGTARP data call, 10/4/2012.
      111.	 Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/Other%20Programs/aifp/Documents/supplier_support_program_3_18.pdf, accessed 10/15/2012.
      112.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, response to SIGTARP data call, 10/4/2012.
      113.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, response to SIGTARP data call, 10/4/2012.
      114.	 Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
            President-on-the-mortgage-crisis/, accessed 9/28/2012.
      115.	 Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/press-
            releases/Pages/tg33.aspx, accessed 9/28/2012.
      116.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
      117.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program - MHA Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 9/28/2012.
      118.	 Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/sites/default/files/cbofiles/ftpdocs/112xx/
            doc11227/03-17-tarp.pdf, accessed 9/28/2012.
      119.	 Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Monthly%20Report.pdf, accessed 10/11/2012; Treasury, Transactions Report-Housing, 9/27/2012, www.treasury.gov/initiatives/financial-stability/
            reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2012.pdf, accessed 10/3/2012.
      120.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 9/28/2012.
      121.	 Treasury, response to SIGTARP data call, 10/19/2012.
      122.	 Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
            5/14/2009, www.treasury.gov/press-center/press-releases/Pages/tg131.aspx, accessed 9/28/2012.
      123.	 Treasury, response to SIGTARP data call, 10/12/2012.
      124.	 Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
      125.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
      126.	 Treasury, response to SIGTARP data call, 10/19/2012.
      127.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program - MHA Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 9/28/2012.
      128.	 Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
            alternatives.jsp, accessed 9/28/2012.
      129.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
      130.	 Treasury, response to SIGTARP data call, 10/12/2012.
      131.	 Treasury, response to SIGTARP data call, 10/19/2012.
      132.	 Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal Housing
            Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 9/28/2012; Treasury,
            “Supplemental Directive 10-10: Home Affordable Modification Program-Modifications of Loans Guaranteed by the Rural Housing Service,”
            9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 9/28/2012; Department of Veterans Affairs, “Revised VA
            Making Home Affordable Program, Circular 26-10-6,” 7/5/2012, www.benefits.va.gov/HOMELOANS/circulars/26_10_6_change1.pdf, accessed
            10/11/2012.
      133.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 9/28/2012.
      134.	 Treasury, response to SIGTARP data call, 10/12/2012.
      135.	 Treasury, response to SIGTARP data call, 10/12/2012.
                                                                                           quarterly report to congress I October 25, 2012                  207


136.	 Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 9/28/2012.
137.	 Treasury, response to SIGTARP data call, 10/4/2012.
138.	 Treasury, Daily TARP Update, 10/1/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      10.01.2012.pdf, accessed 10/2/2012.
139.	 Treasury, Daily TARP Update, 10/1/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
      10.01.2012.pdf, accessed 10/2/2012.
140.	 Treasury, response to SIGTARP data call, 10/4/2012; Treasury, Transactions Report-Housing, 9/27/2012, www.treasury.gov/initiatives/financial-
      stability/reports/Documents/Housing%20Transactions%20Report%20as%20of%2009.27.2012.pdf, accessed 10/3/2012.
141.	 SIGTARP, “Quarterly Report to Congress,” 10/26/2011, www.sigtarp.gov/Quarterly%20Reports/October2010_Quarterly_Report_to_Congress.
      pdf, accessed 9/28/2012; Treasury, response to SIGTARP data call, 10/4/2012.
142.	 Treasury, response to SIGTARP data call, 10/4/2012.
143.	 Treasury, response to SIGTARP data call, 10/12/2012.
144.	 Treasury, response to SIGTARP data call, 10/4/2012.
145.	 Treasury, response to SIGTARP data call, 10/4/2012.
146.	 Treasury, response to SIGTARP data call, 10/12/2012.
147.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 8/20/2010.
148.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
149.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
150.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
151.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
152.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
153.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 9/28/2012.
154.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
155.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
156.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
157.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
158.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
159.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
      Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 9/28/2012.
160.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 9/28/2012.
161.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 9/28/2012.
162.	 Treasury, “Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 9/28/2012.
163.	 Treasury, response to SIGTARP data call, 10/19/2012.
164.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
165.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 9/28/2012.
166.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/Audit%20Reports/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 9/28/2012.
167.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
168.	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
      Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 9/28/2012.
169.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
      Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 9/28/2012.
170.	 Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 9/28/2012.
171.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
172.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
208            special inspector general I troubled asset relief program



      173.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
      174.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
      175.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
      176.	 Treasury, Transactions Report-Housing, 9/27/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2012.pdf, accessed 10/3/2012.
      177.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
            Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 9/28/2012.
      178.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
      179.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
            Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 9/28/2012.
      180.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 9/28/2012.
      181.	 Treasury, “April 2012 Making Home Affordable Report and Servicer Assessments for First Quarter 2012,” 6/6/2012, www.treasury.gov/initiatives/
            financial-stability/results/MHA-Reports/Pages/default.aspx, accessed 9/28/2012; Treasury, response to SIGTARP data call, 10/12/2012.
      182.	 Treasury, response to SIGTARP vetting draft, 10/12/2012.
      183.	 Treasury, response to SIGTARP vetting draft, 10/12/2012.
      184.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 9/28/2012.
      185.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 9/28/2012.
      186.	 Treasury, response to SIGTARP vetting draft, 10/12/2012.
      187.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 9/28/2012.
      188.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 9/28/2012.
      189.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 9/28/2012.
      190.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 9/28/2012.
      191.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 9/28/2012.
      192.	 Treasury, “Supplemental Directive 12-03: Making Home Affordable Program –Handbook Mapping for MHA Extension and Expansion and
            Administrative Clarifications on Tier 2,” 4/17/2012, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1203.pdf, accessed 9/28/2012.
      193.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 9/28/2012.
      194.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
      195.	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
            www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 9/28/2012.
      196.	 Treasury, response to SIGTARP data call, 10/12/2012.
      197.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 9/28/2012.
      198.	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/hamp_
            servicer/praoverviewnongse.pdf, accessed 9/28/2012.
      199.	 Treasury, “Expanding our efforts to help more homeowners and strengthen hard-hit communities,” 1/27/2012, www.treasury.gov/connect/blog/
            Pages/Expanding-our-efforts-to-help-more-homeowners-and-strengthen-hard-hit-communities.aspx, accessed 9/28/2012.
      200.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 9/28/2012.
      201.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
      202.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 9/28/2012.
      203.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
      204.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
            Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/hampupdate021612.pdf, accessed 9/28/2012.
      205.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
            Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/hampupdate021612.pdf, accessed 9/28/2012.
      206.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
      207.	 Treasury, response to SIGTARP data call, 10/12/2012.
                                                                                       quarterly report to congress I October 25, 2012                209


208.	 Treasury Press Release, “Housing Program Enhancements Offer Additional Options for Struggling Homeowners,” 3/26/2010, www.treasury.gov/
      press-center/press-releases/Pages/tg614.aspx, accessed 9/28/2012.
209.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1107.pdf, accessed 9/28/2012.
210.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
211.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 9/28/2012.
212.	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1004.pdf, accessed 9/28/2012.
213.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1107.pdf, accessed 9/28/2012.
214.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1107.pdf, accessed 9/28/2012.
215.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 9/28/2012.
216.	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, www.makinghomeaffordable.
      gov/programs/Documents/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 9/28/2012.
217.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
218.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
      docs/hafa/sd0909r.pdf, accessed 9/28/2012.
219.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
      docs/hafa/sd0909r.pdf, accessed 9/28/2012.
220.	 Treasury, “HAMP Update-New Program Offers Borrowers Foreclosure Alternatives,” 11/30/2010, www.hmpadmin.com/portal/news/docs/2009/
      hampupdate113009.pdf, accessed 9/28/2012; Treasury, “HAMP Update — New Program Offers Borrowers Foreclosure Alternatives,”
      11/30/2009, www.hmpadmin.com/portal/news/docs/2009/hampupdate113009.pdf, accessed 9/28/2012.
221.	 Treasury, “Supplemental Directive 11-08: Home Affordable Foreclosure Alternatives Program — Policy Update,” 8/9/2011, www.hmpadmin.
      com/portal/programs/docs/hamp_servicer/sd1108.pdf, accessed 9/28/2012; Treasury, response to SIGTARP data call, 10/4/2012.
222.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
      com/portal/programs/docs/hafa/sd1018.pdf, accessed 9/28/2012.
223.	 Treasury, “Supplemental Directive 12-02: Making Home Affordable Program – Extension and Expansion,” 3/9/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1202.pdf, accessed 9/28/2012.
224.	 Treasury, response to SIGTARP data call, 10/12/2012.
225.	 Treasury, response to SIGTARP data call, 10/19/2012.
226.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 4.0,” 8/17/2012, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_40.pdf, accessed 10/12/2012.
227.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 9/28/2012.
228.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 9/28/2012.
229.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 9/28/2012.
230.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 9/28/2012.
231.	 Treasury, “Supplemental Directive 12-01: Making Home Affordable Program – Principal Reduction Alternative and Second Lien Modification
      Program Investor Incentives Update,” 2/16/2012, www.hmpadmin.com/portal/news/docs/2012/hampupdate021612.pdf, accessed 9/28/2012.
232.	 Treasury, response to SIGTARP data call, 10/12/2012.
233.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
      Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 9/28/2012.
234.	 Treasury, response to SIGTARP data call, 10/12/2012.
235.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 7/5/2012, www.benefits.va.gov/
      HOMELOANS/circulars/26_10_6_change1.pdf, accessed 10/11/2012.
236.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 9/28/2012;
      Treasury, “Supplemental Directive 10-08: Making Home Affordable Program – Treasury/FHA Second Lien Program (FHA2LP) to Support
      FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com//portal/programs/docs/hamp_servicer/sd1008.pdf,
      accessed 9/28/2012.
237.	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support
      FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf,
      accessed 9/28/2012.
238.	 Treasury, response to SIGTARP data call, 10/12/2012.
239.	 Treasury, “April 2012 Making Home Affordable Report and Servicer Assessments for First Quarter 2012,” 6/6/2012, www.treasury.gov/initiatives/
      financial-stability/results/MHA-Reports/Pages/default.aspx, accessed 9/28/2012.
240.	 Treasury, “April 2012 Making Home Affordable Report and Servicer Assessments for First Quarter 2012,” 6/6/2012, www.treasury.gov/initiatives/
      financial-stability/results/MHA-Reports/Pages/default.aspx, accessed 9/28/2012.
210            special inspector general I troubled asset relief program



      241.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 9/28/2012.
      242.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 9/28/2012.
      243.	 Treasury, “July 2012 Making Home Affordable Report and Servicer Assessments for Second Quarter 2012,” 9/13/2012, www.treasury.gov/
            initiatives/financial-stability/reports/Documents/July%202012%20MHA%20Report_SERVICER%20ASSESSMENTS_Final.pdf, accessed
            9/28/2012.
      244.	 Treasury, “July 2012 Making Home Affordable Report and Servicer Assessments for Second Quarter 2012,” 9/13/2012, www.treasury.gov/
            initiatives/financial-stability/reports/Documents/July%202012%20MHA%20Report_SERVICER%20ASSESSMENTS_Final.pdf, accessed
            9/28/2012.
      245.	 Treasury, “July 2012 Making Home Affordable Report and Servicer Assessments for Second Quarter 2012,” 9/13/2012, www.treasury.gov/
            initiatives/financial-stability/reports/Documents/July%202012%20MHA%20Report_SERVICER%20ASSESSMENTS_Final.pdf, accessed
            9/28/2012.
      246.	 Treasury, telephone briefing to SIGTARP staff, 9/16/2012.
      247.	 Treasury, telephone briefing to SIGTARP staff, 9/16/2012.
      248.	 Treasury, “July 2012 Making Home Affordable Report and Servicer Assessments for Second Quarter 2012,” 9/13/2012, www.treasury.gov/
            initiatives/financial-stability/reports/Documents/July%202012%20MHA%20Report_SERVICER%20ASSESSMENTS_Final.pdf, accessed
            9/28/2012.
      249.	 Treasury, response to SIGTARP data call, 10/12/2012.
      250.	 Treasury, response to SIGTARP data call, 10/12/2012.
      251.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/25/2010, www.makinghomeaffordable.gov/news/
            latest/Documents/FHA_Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 9/28/2012.
      252.	 Treasury, response to SIGTARP data call, 10/12/2012.
      253.	 Treasury, response to SIGTARP data call, 10/12/2012.
      254.	 Treasury, response to SIGTARP data call, 10/12/2012.
      255.	 Treasury, response to SIGTARP data call, 10/12/2012.
      256.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 9/28/2012;
            HUD, response to SIGTARP draft, 1/10/2011.
      257.	 HUD, response to SIGTARP vetting draft, 1/19/2011.
      258.	 HUD, response to SIGTARP draft report, 1/10/2011.
      259.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
            letters/mortgagee/files/10-23ml.pdf, accessed 9/28/2012.
      260.	 HUD, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hud.gov/offices/adm/hudclips/
            letters/mortgagee/files/10-23ml.pdf, accessed 9/28/2012; HUD, response to SIGTARP draft report, 3/31/2011.
      261.	 HUD, response to SIGTARP draft report, 1/12/2011.
      262.	 Treasury, response to SIGTARP data call, 10/19/2012.
      263.	 SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund Program,” 4/12/2012, www.sigtarp.gov/Audit%20Reports/SIGTARP_
            HHF_Audit.pdf, accessed 9/28/2012.
      264.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
            6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 9/28/2012.
      265.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” www.
            treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 9/28/2012.
      266.	 Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-
            center/press-releases/Pages/tg618.aspx, accessed 9/28/2012.
      267.	 National Council of State Housing Agencies, “Hardest Hit Foreclosure Initiative,” no date, www.ncsha.org/advocacy-issues/hardest-hit-
            foreclosure-initiative, accessed 9/28/2012.
      268.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
            with Unemployment,” 8/11/2010, http://portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176,
            accessed 9/28/2012.
      269.	 Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Monthly%20Report.pdf, accessed 10/11/2012.
      270.	 Treasury, Transactions Report-Housing, 9/27/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Housing%20
            Transactions%20Report%20as%20of%2009.27.2012.pdf, accessed 10/3/2012.
      271.	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, pp. 76, 98, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_
            reports/Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 9/28/2012.
      272.	 SIGTARP analysis of HFA participation agreements and amendments; SIGTARP, “Factors Affecting Implementation of the Hardest Hit Fund
            Program,” 4/12/2012, www.sigtarp.gov/Audit%20Reports/SIGTARP_HHF_Audit.pdf, accessed 9/28/2012.
      273.	 Treasury, response to SIGTARP data call, 10/4/2012.
      274.	 Treasury, response to SIGTARP data call, 10/4/2012; Hardest Hit Alabama, “Hardest Hit Alabama,” no date, www.hardesthitalabama.com/,
            accessed 9/28/2012; Arizona Department of Housing, “Save our Home AZ,” no date, www.azhousing.gov/, accessed 9/28/2012; CALHFA
            Mortgage Assistance Corporation, “Keep Your Home California,” no date, www.keepyourhomecalifornia.org/, accessed 9/28/2012; Florida
            Hardest-Hit, “Florida Hardest-Hit,” no date, www.flhardesthithelp.org/, accessed 9/28/2012; Georgia Department of Community Affairs,
            “Hardest Hit Fund,” no date, www.dca.state.ga.us/housing/homeownership/programs/hardesthitfund.asp, accessed 9/28/2012; Illinois Housing
            Development Authority, “Illinois Housing Development Authority,” no date, www.ihda.org/, accessed 9/28/2012; Indiana Foreclosure Prevention
            Network, “Indiana Foreclosure Prevention Network,” no date, www.877gethope.org/, accessed 9/28/2012; Kentucky Housing Corporation,
                                                                                          quarterly report to congress I October 25, 2012                  211


        “Kentucky Housing Corporation,” no date, www.kyhousing.org/, accessed 9/28/2012; Michigan State Housing Development Authority, “Helping
        Michigan’s Hardest Hit Homeowners,” no date, www.michigan.gov/mshda/0,1607,7-141--235359--,00.html, accessed 9/28/2012; Mississippi
        Home Corporation, “Mississippi Home Corporation,” no date, www.mshomecorp.com/firstpage.htm, accessed 9/28/2012; Nevada’s Hardest
        Hit Funds, “Nevada’s Hardest Hit Funds,” no date, www.nahac.org/, accessed 9/28/2012; State of New Jersey Housing and Mortgage Finance
        Agency, “State of New Jersey Housing and Mortgage Finance Agency,” no date, www.state.nj.us/dca/hmfa/, accessed 9/28/2012; NC Foreclosure
        Prevention Fund, “Help for the Hardest Hit Homeowners,” no date, www.ncforeclosureprevention.gov/, accessed 9/28/2012; Ohio.gov, “Ohio’s
        Foreclosure Prevention Effort,” no date, www.savethedream.ohio.gov/, accessed 9/28/2012; Oregon Homeownership Stabilization Initiative,
        “OHSI,” no date, www.oregonhomeownerhelp.org/, accessed 9/28/2012; Hardest Hit Fund-Rhode Island, “HHFRI,” no date, www.hhfri.org/,
        accessed 9/28/2012; SC Help, “South Carolina Homeownership and Employment Lending Program,” no date, www.scmortgagehelp.com/,
        accessed 9/28/2012; Tennessee Housing Development Agency, “THDA,” no date, www.thda.org/, accessed 9/28/2012; District of Columbia
        Housing Finance Agency, “District of Columbia Housing Finance Agency,” no date, www.dchfa.org/, accessed 9/28/2012.
275.	   Treasury, response to SIGTARP data call, 10/4/2012.
276.	   SIGTARP analysis of HFA quarterly performance reports; Treasury, response to SIGTARP data call, 10/12/2012.
277.	   SIGTARP analysis of HFA quarterly performance reports; Treasury, response to SIGTARP data call, 10/12/2012.
278.	   Treasury conference call, 3/19/2009.
279.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 7/24/2012, www.treasury.gov/initiatives/financial-stability/TARP-
        Programs/bank-investment-programs/cap/Pages/default.aspx, accessed 9/28/2012.
280.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 7/24/2012, www.treasury.gov/initiatives/financial-stability/TARP-
        Programs/bank-investment-programs/cap/Pages/default.aspx, accessed 9/28/2012.
281.	   Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 7/24/2012, www.treasury.gov/initiatives/financial-stability/TARP-
        Programs/bank-investment-programs/cap/Pages/default.aspx, accessed 9/28/2012.
282.	   Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
        Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
283.	   Treasury, response to SIGTARP data call, 10/4/2012.
284.	   Treasury, response to SIGTARP data call, 10/4/2012; Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/
        reports/Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
285.	   Treasury, response to SIGTARP data call, 10/4/2012; Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/
        reports/Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
286.	   Treasury, response to SIGTARP data call, 10/4/2012; Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/
        reports/Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
287.	   Treasury, response to SIGTARP data call, 10/4/2012; Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/
        reports/Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
288.	   Treasury, Section 105(a) Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
        Monthly%20Report.pdf, accessed 10/11/2012; Treasury, Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/
        reports/Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, response
        to SIGTARP data call, 10/4/2012.
289.	   Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
        Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
290.	   Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
291.	   Treasury, response to SIGTARP data call, 10/5/2011.
292.	   Treasury, response to SIGTARP data call, 10/5/2011.
293.	   Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
        Getting_Started_Guide_Final.pdf, accessed 9/28/2012.
294.	   Treasury, “Resource Center – Overview for Banks,” 6/8/2011, www.treasury.gov/resource-center/sb-programs/Pages/Overview-for-Banks.aspx,
        accessed 9/28/2012; Treasury, “Resource Center – Overview for Subchapter S Corporations and Mutual Institutions,” 6/8/2011, www.treasury.
        gov/resource-center/sb-programs/Pages/Overview-for-S-Corporation-Banks-and-Mutual-Institutions.aspx, accessed 9/28/2012.
295.	   Treasury, “Small Business Lending Fund, Senior Preferred Stock — Summary of Terms for Current CPP and CDCI Participants,” no date,
        www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Refinancing_Term_Sheet_Final.pdf, accessed 9/28/2012; Treasury, “SBLF—
        Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_Started_
        Guide_Final.pdf, accessed 9/28/2012.
296.	   Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
        Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
297.	   Treasury, response to SIGTARP data call 10/4/2012; Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-
        stability/reports/Documents/September%202012%20Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
298.	   Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
        stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 9/28/2012.
299.	   Treasury, response to SIGTARP data call, 10/4/2012; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
        no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
        Fact%20Sheet.pdf, accessed 9/28/2012.
300.	   Treasury, response to SIGTARP data call, 10/4/2012; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
        no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
        Fact%20Sheet.pdf, accessed 9/28/2012.
301.	   Treasury, “Frequently Asked Questions: Capital Purchase Program (CPP) – Related to Missed Dividend (or Interest) Payments and Director
        Nomination,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20
        FAQs.pdf, accessed 9/28/2012.
212            special inspector general I troubled asset relief program



      302.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 9/28/2012.
      303.	 Treasury, responses to SIGTARP data call, 1/10/2011, 4/6/2011, 7/11/2011, 10/5/2011, 1/17/2012, 4/5/2012, 7/5/2012, and 10/4/2012.
      304.	 Treasury, response to SIGTARP data call, 10/4/2012.
      305.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 9/28/2012.
      306.	 Treasury, response to SIGTARP data call, 10/4/2012.
      307.	 Treasury, response to SIGTARP data call, 10/4/2012.
      308.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      309.	 Treasury, response to SIGTARP data call, 10/4/2012.
      310.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      311.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      312.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 9/28/2012.
      313.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 9/28/2012.
      314.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 9/28/2012.
      315.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 9/28/2012.
      316.	 Treasury, response to SIGTARP data call, 10/4/2012.
      317.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      318.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      319.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      320.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      321.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      322.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      323.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      324.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      325.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      326.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      327.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      328.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      329.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      330.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      331.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      332.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      333.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      334.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      335.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
            Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      336.	 Treasury, “Glossary,” no date, www.treasury.gov/initiatives/financial-stability/glossary/Pages/default.aspx, accessed 9/28/2012.
      337.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
            TARP%20Warrants%20Report%20Aug2011.pdf, accessed 9/28/2012.
                                                                                          quarterly report to congress I October 25, 2012                213


338.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 9/28/2012.
339.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 9/28/2012.
340.	 Treasury, response to SIGTARP data call, 10/12/2012.
341.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 9/28/2012.
342.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
      TARP%20Warrants%20Report%20Aug2011.pdf, accessed 9/28/2012; Treasury, response to SIGTARP data call, 10/12/2012.
343.	 Treasury, response to SIGTARP data call, 10/12/2012.
344.	 Treasury, response to SIGTARP data call, 10/12/2012.
345.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 9/28/2012.
346.	 Treasury, response to SIGTARP data call, 10/12/2012.
347.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
      www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 9/28/2012.
348.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
      www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 9/28/2012.
349.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
      www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 9/28/2012.
350.	 Treasury, response to SIGTARP data call, 10/12/2012.
351.	 Treasury, response to SIGTARP data call, 10/12/2012; Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/
      reports/Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
352.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1365.aspx, accessed 9/28/2012.
353.	 Treasury conference call, 11/10/2011.
354.	 Treasury, “Treasury Announces Completion of Private Auction to Sell Warrant Positions,” 11/18/2011, www.treasury.gov/press-center/press-
      releases/Pages/tg1365.aspx, accessed 9/28/2012.
355.	 Treasury conference call, 3/19/2010; Treasury, response to SIGTARP data call, 10/4/2012.
356.	 Treasury conference call, 3/19/2010.
357.	 Treasury, response to SIGTARP draft report, 1/14/2012.
358.	 Treasury conference call, 3/19/2010.
359.	 Treasury conference call, 3/19/2010.
360.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
361.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
362.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
363.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
364.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
365.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
366.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
367.	 Treasury, response to SIGTARP data call, 10/12/2012.
368.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
369.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
370.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
371.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
372.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
373.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
374.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
375.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
214            special inspector general I troubled asset relief program



      376.	 Treasury, “Treasury Department Announces Pricing of Public Offerings of Preferred Stock in Six Financial Institutions,” 3/29/2012, www.
            treasury.gov/press-center/press-releases/Pages/tg1513.aspx, accessed 10/5/2012.
      377.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      378.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      379.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      380.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      381.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      382.	 SNL Financial LLC data.
      383.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      384.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      385.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      386.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      387.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      388.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      389.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      390.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      391.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      392.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      393.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      394.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      395.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      396.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      397.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      398.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      399.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      400.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      401.	 SNL Financial LLC data.
      402.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      403.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      404.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      405.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      406.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      407.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      408.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
      409.	 SNL Financial LLC data.
                                                                                       quarterly report to congress I October 25, 2012                215


410.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
411.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
412.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
413.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
414.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
415.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
416.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
417.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 7/24/2012, www.treasury.gov/initiatives/financial-stability/TARP-
      Programs/bank-investment-programs/cap/Pages/default.aspx, accessed 9/28/2012.
418.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
419.	 FDIC, “Regional Missouri Bank, Marceline, Missouri, Assumes All of the Deposits of Glasgow Savings Bank, Glasgow, Missouri,” 7/13/2012,
      www.fdic.gov/news/news/press/2012/pr12081.html, accessed 9/21/2012.
420.	 FDIC, “Regional Missouri Bank, Marceline, Missouri, Assumes All of the Deposits of Glasgow Savings Bank, Glasgow, Missouri,” 7/13/2012,
      www.fdic.gov/news/news/press/2012/pr12081.html, accessed 9/21/2012.
421.	 Treasury, response to SIGTARP data call 10/4/2012.
422.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2010, www.whitehouse.gov/the-press-office/
      remarks-president-small-business-initiatives-landover-md, accessed 9/28/2012.
423.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Pages/
      comdev.aspx, accessed 10/2/2012; Treasury, “Community Development Capital Initiative,” 6/4/2010, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cdci/Pages/comdev.aspx, accessed 10/2/2012; Treasury, Section 105(a) Report, 3/10/2010, www.
      treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed 10/2/2012;
      Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in Community Development
      Financial Institutions in Underserved Areas,” 9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed 9/28/2012.
424.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
      2010%20105(a)%20report_final.pdf, accessed 10/2/2012.
425.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
      cdci/Pages/comdev.aspx, accessed 9/28/2012.
426.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
      Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
      Release%209-30-10.pdf, accessed 9/28/2012.
427.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
428.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 9/28/2012.
429.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-
      programs/cdci/Pages/comdev.aspx, accessed 10/2/2012; Treasury, “Application Guidelines for TARP Community Development
      Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/
      Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 9/28/2012.
430.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities - Term Sheet,” no date, www.treasury.gov/
      initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
      9/28/2012; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities - Term Sheet,” no date,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
      9/28/2012.
431.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 9/28/2012.
432.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 9/28/2012.
433.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
434.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
      Dividends%20Interest%20Report.pdf, accessed 10/16/2012.
435.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
436.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/September%202012%20
      Dividends%20Interest%20Report.pdf, accessed 10/16/2012.
437.	 Department of Treasury Budget in Brief FY 2010, no date, p. 72, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/
      FY2010BIB-Complete.pdf, accessed 10/1/2012.
216            special inspector general I troubled asset relief program



      438.	 Treasury, response to SIGTARP data call, 10/8/2010.
      439.	 Treasury, Daily TARP Update, 10/1/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
            10.01.2012.pdf, accessed 10/3/2012.
      440.	 Treasury, comments to SIGTARP vetting draft, 10/11/2012.
      441.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      442.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf accessed 10/3/2012.
      443.	 FRBNY, “CREDIT AGREEMENT dated as of September 22, 2008, between AMERICAN INTERNATIONAL GROUP, INC., as Borrower and
            FEDERAL RESERVE BANK OF NEW YORK, as Lender,” 9/22/2008, www.newyorkfed.org/aboutthefed/aig/pdf/original_credit_agreement.
            pdf, accessed 10/1/2012; AIG, 10-K, 2/26/2010, www.sec.gov/Archives/edgar/data/5272/000104746910001465/a2196553z10-k.htm, accessed
            10/1/2012.
      444.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_
            Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 10/1/2012.
      445.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
            Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 10/1/2012.
      446.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/Audit%20Reports/Factors_
            Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 10/1/2012.
      447.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 10/1/2012.
      448.	 Treasury, Section 105(a) Report, 12/5/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-
            105report.pdf, accessed 10/3/2012.
      449.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 10/3/2012.
      450.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, “Securities Exchange Agreement,” 4/17/2009, www.
            treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Documents/Series.E.Securities.Exchange.Agreement.pdf, accessed
            10/1/2012; Treasury, “Securities Purchase Agreement,” 4/17/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/
            AIG/Documents/Series.F.Securities.Purchase.Agreement.pdf, accessed 10/1/2012.
      451.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 10/1/2012.
      452.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 10/1/2012.
      453.	 AIG Press Release, “AIG Announces Pricing of Sale of Ordinary Shares of AIA Group Limited,” 3/5/2012, http://phx.corporate-ir.net/External.Fi
            le?item=UGFyZW50SUQ9MTI5ODQ3fENoaWxkSUQ9LTF8VHlwZT0z&t=1, accessed 10/1/2012.
      454.	 Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 10/1/2012; AIG, 8-K 3/1/2011, www.sec.gov/Archives/edgar/
            data/5272/000095012311021398/y90008ae8vk.htm, accessed 10/1/2012.
      455.	 AIG, “Certificate of Designations of Series E Fixed Rate Non-Cumulative Perpetual Preferred Stock of American International Group, Inc.,”
            4/17/2009, www.sec.gov/Archives/edgar/data/5272/000095012309006777/y76448exv3w1.htm, accessed 10/1/2012.
      456.	 Treasury Press Release, “Treasury Names Two Appointees to AIG’s Board of Directors,” 4/1/2010, www.treasury.gov/press-center/press-releases/
            Pages/tg623.aspx, accessed 10/1/2012.
      457.	 AIG, 8-K, 5/11/2012, www.sec.gov/Archives/edgar/data/5272/000119312512225958/d350972d8k.htm, accessed 10/1/2012.
      458.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 10/1/2012.
      459.	 Treasury, response to SIGTARP data call, 4/5/2012.
      460.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 10/1/2012; AIG, 8-K,
            12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 10/1/2012; AIG, 10-Q, 11/5/2010, www.
            sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 10/1/2012.
      461.	 AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 10/1/2012.
      462.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      463.	 AIG, 424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 10/1/2012; Treasury,
            Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20Report%20
            as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      464.	 Treasury Press Release, “Treasury Announces Pricing of Public Offering of AIG Common Stock,” 3/8/2012, www.treasury.gov/press-center/press-
            releases/Pages/tg1446.aspx, accessed 10/1/2012.
      465.	 Treasury Press Release, “Treasury Announces $750 in Additional Expected Proceeds from AIG Common Stock,” 5/7/2012, www.treasury.gov/
            press-center/press-releases/Pages/tg1572.aspx, accessed 10/1/2012; Treasury Press Release, “Treasury Announces Pricing of $5.0 Billion of AIG
            Common Stock,” 5/6/2012, www.treasury.gov/press-center/press-releases/Pages/tg1571.aspx, accessed 10/1/2012.
      466.	 Treasury Press Release, “Treasury Announces $750 Million in Additional Expected Proceeds from AIG Common Stock Sale,” 8/6/2012, www.
            treasury.gov/press-center/press-releases/Pages/tg1673.aspx, accessed 10/9/2012.
      467.	 Treasury Press Release, “Overall Positive Return on $182 Billion Commitment to AIG during Financial Crisis Reaches $15.1 Billion after
            Treasury Announces $2.7 Billion in Additional Expected Proceeds from AIG Common Stock Sale,” 9/11/2012, www.treasury.gov/press-center/
            press-releases/Pages/tg1704.aspx, accessed 10/1/2012.
      468.	 Treasury, Daily TARP Update, 10/1/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/Daily%20TARP%20Update%20-%20
            10.01.2012.pdf, accessed 10/3/2012.
      469.	 Treasury, comments to SIGTARP vetting draft, 10/11/2012.
      470.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      471.	 AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 10/1/2012.
                                                                                      quarterly report to congress I October 25, 2012                217


472.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
      From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 10/1/2012.
473.	 FRBNY, “Maiden Lane II Bid List Offering (FRBNY),” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm, accessed 10/1/2012;
      FRBNY, response to SIGTARP data call, 4/12/2012.
474.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane II LLC Securities; Approximately $2.8 Billion Net Gain Generated for U.S. Public
      From the Portfolio,” 2/28/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120228.html, accessed 10/1/2012.
475.	 FRBNY, response to SIGTARP data call, 10/4/2012.
476.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane III LLC Securities; Marks End of AIG-Related Assistance; Approximately $6.6 Billion
      Net Gain Generated for U.S. Public from the Portfolio,” 8/23/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120823.html,
      accessed 10/1/2012.
477.	 FRBNY, “Maiden Lane III LLC Securities Offerings,” no date, www.newyorkfed.org/markets/sec_offerings_recent.html, accessed 10/1/2012;
      FRBNY, response to SIGTARP data call 10/4/2012.
478.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane III LLC Securities; Marks End of AIG-Related Assistance; Approximately $6.6 Billion
      Net Gain Generated for U.S. Public from the Portfolio,” 8/23/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120823.html,
      accessed 10/1/2012.
479.	 FRBNY, “New York Fed Sells Remainder of Maiden Lane III LLC Securities; Marks End of AIG-Related Assistance; Approximately $6.6 Billion
      Net Gain Generated for U.S. Public from the Portfolio,” 8/23/2012, www.newyorkfed.org/newsevents/news/markets/2012/an120823.html,
      accessed 10/1/2012.
480.	 FRBNY, response to SIGTARP data call, 10/4/2012.
481.	 FRBNY, Asset Sales - Quarterly Review, 9/30/2012, http://newyorkfed.org/markets/maidenlane.html#periodicreleases, accessed 10/18/2012;
      FRBNY, Asset Sales - Quarterly Review, 6/30/2012, http://newyorkfed.org/markets/maidenlane.html#periodicreleases, accessed 10/18/2012.
482.	 FRBNY, response to SIGTARP data call, 10/4/2012.
483.	 Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
      Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 9/28/2012; Treasury, “Securities Purchase Agreement,” 1/15/2009, www.
      treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/Documents_Contracts_Agreements/BAC%20III%20Binder.pdf,
      accessed 9/28/2012.
484.	 Treasury, “Guidelines for Targeted Investment Program,” 1/20/2009, www.treasury.gov/press-center/press-releases/Pages/hp1338.aspx, accessed
      9/28/2012.
485.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
      December%20105(a)_final_1-11-10.pdf, accessed 10/2/2012.
486.	 Treasury, Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20
      Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed, accessed 10/3/2012.
487.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
488.	 Treasury, “Exchange Agreement,” 6/9/2011, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/Documents/
      Citigroup%20Exchange%20Agreement.pdf, accessed 9/28/2012; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
      data/831001/000095012311004665/y89177b7e424b7.htm, accessed 9/28/2012.
489.	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 9/28/2012.
490.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 9/28/2012.
491.	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 9/28/2012.
492.	 Treasury, “Treasury Announces Public Offering of Citigroup AGP Trups,” 9/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg876.
      aspx, accessed 9/28/2012.
493.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/Audit%20Reports/Extraordinary%20
      Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 9/28/2012.
494.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
495.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
      December%20105(a)_final_1-11-10.pdf, accessed 10/2/2012.
496.	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 9/28/2012.
497.	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
      Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 9/28/2012.
498.	 Federal Reserve, Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 9/28/2012.
499.	 FRBNY, response to SIGTARP data call, 10/4/2012.
500.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates; 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
      com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 9/28/2012; Treasury, response to SIGTARP Data Call, 10/4/2012.
501.	 Treasury, Section 105(a) Report, 8/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/July%202012%20Monthly%20
      Report.pdf, accessed 9/28/2012.
502.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
503.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
504.	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”
      11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 9/28/2012.
218            special inspector general I troubled asset relief program



      505.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 9/28/2012.
      506.	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” March 2010, www.federalreserve.gov/monetarypolicy/clbs_
            lendingfacilities_201003.htm, accessed 9/28/2012.
      507.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      508.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 9/28/2012.
      509.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 9/28/2012.
      510.	 Federal Reserve Press Release, 6/28/2012, www.federalreserve.gov/newsevents/press/monetary/20120628a.htm, accessed 9/28/2012.
      511.	 FRBNY, response to SIGTARP data call, 10/4/2012.
      512.	 FRBNY, response to SIGTARP data call, 10/4/2012.
      513.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 9/28/2012.
      514.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 9/28/2012.
      515.	 FRBNY, response to SIGTARP data call, 10/4/2012.
      516.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 9/28/2012.
      517.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 9/28/2012.
      518.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 9/28/2012.
      519.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 9/28/2012.
      520.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
            html, accessed 9/28/2012; Federal Reserve, Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,
            December 2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 9/28/2012.
      521.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 9/28/2012.
      522.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 9/28/2012.
      523.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 9/28/2012.
      524.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
            html, accessed 9/28/2012.
      525.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      526.	 FRBNY, response to SIGTARP data call, 10/4/2012.
      527.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
            9/28/2012; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.
            html, accessed 9/28/2012.
      528.	 FRBNY, response to SIGTARP data call, 10/4/2012.
      529.	 FRBNY, response to SIGTARP data call, 10/4/2012.
      530.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm,
            accessed 9/28/2012.
      531.	 FRBNY, response to SIGTARP data call, 10/4/2012.
      532.	 OFS, FRBNY, response to SIGTARP draft report, 4/9/2009; Federal Reserve, response to SIGTARP draft report, 4/7/2011.
      533.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009 among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
            States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
            Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents_Contracts_Agreements/SPV-
            Sec-Agt.pdf, accessed 9/28/2012; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
      534.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 7/1/2010, www.federalreserve.gov/releases/h41/20100701, note 8, accessed
            9/28/2012.
      535.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
            States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
            Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents_Contracts_Agreements/SPV-
            Sec-Agt.pdf, accessed 9/28/2012.
      536.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 10/4/2012, www.federalreserve.gov/releases/h41/Current/, accessed 10/4/2012;
            Federal Reserve, response to SIGTARP draft report, 4/8/2010; Treasury, response to SIGTARP data call, 10/4/2012.
      537.	 FRBNY, response to SIGTARP data call, 10/4/2012.
      538.	 Federal Reserve, response to SIGTARP draft report, 4/8/2010.
      539.	 Treasury, “Public-Private Investment Program,” 3/23/2009, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.
            pdf, accessed 9/28/2012.
      540.	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
            aspx, accessed 9/28/2012.
                                                                                       quarterly report to congress I October 25, 2012                219


541.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended June 30, 2012,” 7/19/2012, p. 4, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/PPIP%20Report%20-%20Q2%202012.pdf, accessed 10/9/2012.
542.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 9/28/2012.
543.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 9/28/2012.
544.	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/ppip/
      Pages/Program-Status.aspx, accessed 9/28/2012.
545.	 PPIP fund managers’ monthly reports for September 2012 submitted to Treasury and SIGTARP 10/15/2012.
546.	 PPIP fund managers’ monthly reports for September 2012 submitted to Treasury and SIGTARP 10/15/2012.
547.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 9/28/2012.
548.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 9/28/2012; Treasury, “Amended and Restated
      Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/
      Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 9/28/2012.
549.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 10/2/2012.
550.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended December 31, 2011,” 1/30/2012, p.4,
      www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/External%20Report%20-%20
      12-11%20vFinal.pdf, accessed 9/28/2012; Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/
      Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
551.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
552.	 Treasury, “Legacy Securities Program,” no date, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/ppip/
      Pages/Program-Status.aspx, accessed 9/28/2012.
553.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009, www.treasury.
      gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 9/28/2012.
554.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
555.	 Treasury, “Legacy Securities Public-Private Investment Partnership Summary of Indicative Terms and Conditions,” no date, www.treasury.
      gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/S-PPIP_LOI_Term-Sheets.pdf, accessed
      9/12/2012.
556.	 Treasury, response to SIGTARP data call, 10/4/2012.
557.	 Treasury, response to SIGTARP data call, 10/4/2012.
558.	 Treasury, Transactions Report, 10/2/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/9/2012.
559.	 Treasury, response to SIGTARP data call, 10/4/2012.
560.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
561.	 Treasury, response to SIGTARP data call, 10/4/2012.
562.	 Treasury, “Amended Agreement”, July 13, 2012, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/ppip/
      Documents/RLJ%20-%20Western%20Redacted%20Agreement%20July%2013%202012.pdf, accessed 10/11/2012.
563.	 Treasury, “Amended Agreement”, July 13, 2012, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-programs/ppip/
      Documents/RLJ%20-%20Western%20Redacted%20Agreement%20July%2013%202012.pdf, accessed 10/11/2012.
564.	 Treasury, response to SIGTARP data call, 10/4/2012.
565.	 SIGTARP, email with Western Asset Management Company and discussion with Treasury, June 2012.
566.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AG%20GECC%20Complete%20LPA%20(redacted).pdf, accessed 9/28/2012.
567.	 Treasury, response to SIGTARP data call, 10/4/2012.
568.	 Treasury, response to SIGTARP data call, 10/4/2012.
569.	 AllianceBernstein L.P. Press Release, “AllianceBernstein Liquidates Public-Private Investment Partnership at an 18.7% Internal Rate of Return
      for Treasury,” 10/9/2012, www.alliancebernstein.com/abcom/Our_Firm/Investor_Media/news/releases.htm, accessed 10/9/2012.
570.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/5/2012.
571.	 Treasury, response to SIGTARP data call, 10/10/2012.
572.	 Invesco Press Release, “Public-Private Investment Partnership Liquidates, 18.3% Internal Rate of Return to Treasury,” 4/3/2012, www.invesco.
      com/site/global/pdf/invest/media/press_releases/2012_04_03.pdf, accessed 9/28/2012.
573.	 Treasury, “Public-Private Investment Fund,” updated 8/22/2012, www.treasury.gov/initiatives/financial-stability/TARP-Programs/credit-market-
      programs/ppip/Pages/Program-Status.aspx, accessed 10/11/2012.
574.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
575.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
220            special inspector general I troubled asset relief program



      576.	 Treasury, Transactions Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-10-12%20Transactions%20
            Report%20as%20of%2010-08-12_INVESTMENT.pdf, accessed 10/22/2012.
      577.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.pdf,
            accessed 10/1/2012.
      578.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended March 31, 2012,” 4/19/2012, p. 9, www.
            treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/PPIP%20Report%20-%20Q1-12.pdf,
            accessed 10/1/2012.
      579.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended March 31, 2012,” 4/19/2012, p. 9, www.
            treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Documents/PPIP%20Report%20-%20Q1-12.pdf,
            accessed 10/1/2012.
      580.	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, www.gpo.gov/fdsys/pkg/CPRT-
            111JPRT51601/pdf/CPRT-111JPRT51601.pdf, accessed 10/2/2012.
      581.	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/tg58.aspx,
            accessed 9/27/2012; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
            recovery_act_faqs.pdf, accessed 9/27/2012.
      582.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
            www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20Purchase%20Agreement%20
            (Execution%20Version).pdf, accessed 9/27/2012; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities
            Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-
            Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).
            pdf, accessed 9/27/2012.
      583.	 Treasury Press Release, “Treasury Announces Sale of Six SBA 7(a) Securities,” 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1203.aspx, accessed 9/27/2012; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
            Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents/Master%20
            Purchase%20Agreement%20(Execution%20Version).pdf, accessed 9/27/2012; Treasury, “Master Purchase Agreement for SBA Pooled
            Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/
            investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20
            Inc.%20MPA%20(73485877_2).pdf, accessed 9/27/2012.
      584.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      585.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      586.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      587.	 Treasury, “Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
            Pages/autoprogram.aspx, accessed 9/28/2012.
      588.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      589.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
            2010%20105(a)%20Report_final.pdf, accessed 10/3/2012.
      590.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      591.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      592.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, “Office of Financial Stability: Agency Financial Report
            - Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2010%20
            OFS%20AFR%20Nov%2015.pdf, accessed 10/3/2012.
      593.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.
            gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/DocumentsDividendsInterest/June%202012%20Dividends%20
            Interest%20Report.pdf, accessed 10/11/2012.
      594.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      595.	 Treasury, “Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011,” 11/30/2011, www.
            treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed 10/2/2012.
      596.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      597.	 Treasury, “Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011,” 11/30/2011, www.
            treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, p. 76, accessed
            9/28/2012.
      598.	 Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
            Pages/autoprogram.aspx, accessed 9/28/2012; Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/
            Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      599.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
                                                                                        quarterly report to congress I October 25, 2012                 221


600.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
601.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
602.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
603.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 9/28/2012.
604.	 Department of Treasury, Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011, 11/30/2011,
      www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, accessed
      9/28/2012.
605.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
606.	 General Motors Company, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 9/28/2012.
607.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 9/28/2012.
608.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 9/28/2012;
      Treasury Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings
      Total Taxpayer Proceeds from GM IPO to $13.5 Billion,” 12/2/2010, www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, accessed
      9/28/2012.
609.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
      www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 9/28/2012.
610.	 General Motors Company, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 9/28/2012.
611.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
612.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
613.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 10/3/2012.
614.	 Treasury, “Office of Financial Stability – Troubled Asset Relief Program, Agency Financial Report – Fiscal Year 2011,” 11/30/2011, www.
      treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/Documents/2011_OFS_AFR_11-11-11.pdf, p. 76, accessed
      9/28/2012.
615.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
616.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
617.	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.
      gpo.gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 9/28/2012; Treasury, Transactions Report, 9/28/2012, www.
      treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.
      pdf, accessed 10/3/2012.
618.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
619.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
      http://media.chrysler.com/newsrelease.do;jsessionid=4FB3EE642102E222D6CEAC20ADF7C090?&id=10922&mid=1, accessed 9/28/2012;
      Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 9/28/2012.
620.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 9/28/2012.
621.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
      aspx, accessed 9/28/2012.
622.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” www.treasury.gov/press-center/press-releases/Pages/tg1253.aspx,
      7/21/2011, accessed 9/28/2012.
623.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/March%202012%20Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
624.	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 9/28/2012.
625.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 10/3/2012.
626.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 10/3/2012.
627.	 Ally Financial, 8-K, 5/22/2010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 9/28/2012; Treasury, Section
      105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20
      Report_final.pdf, accessed 10/3/2012.
628.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 9/28/2012.
629.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/May%20
      2010%20105(a)%20Report_final.pdf, accessed 10/3/2012.
630.	 Ally Financial, 8-K, 5/3/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 10/2/2012.
631.	 Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
      center/press-releases/Pages/tg1014.aspx, accessed 10/2/2012.
222            special inspector general I troubled asset relief program



      632.	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TruPs,” 3/1/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1081.aspx, accessed 10/2/2012.
      633.	 Ally Financial, 8-K, 12/30/2010, www.sec.gov/Archives/edgar/data/40729/000119312510291571/d8k.htm, accessed 10/2/2012; Ally Financial,
            Amended and Restated Governance Agreement, 5/21/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/dex102.htm,
            accessed 9/21/2012.
      634.	 Treasury Press Release, “Treasury Names Appointees to Ally Board of Directors,” 8/15/2012, www.treasury.gov/press-center/press-releases/Pages/
            tg1682.aspx, accessed 10/2/2012.
      635.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
            htm, accessed 10/2/2012.
      636.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 10/3/2012.
      637.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
            htm, accessed 10/2/2012.
      638.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
            htm, accessed 10/2/2012.
      639.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
            Public Offering,” 3/31/2011, http://media.ally.com/index.php?s=43&item=453, accessed 10/2/2012.
      640.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, http://edgar.brand.edgar-online.com/
            EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID=u1r1FjMCVRNlLm7, accessed 10/2/2012; SEC, “Ally Financial,
            Inc.: Amendment No. 2 to Form S-1 Registration Statement,” 6/3/2011, http://edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll
            ?FetchFilingHTML1?ID=7978010&SessionID=yWV1FqvBONn9GA7, accessed 10/2/2012; SEC, “Ally Financial, Inc.: Amendment
            No. 3 to Form S-1 Registration Statement,” 6/28/2011, www.sec.gov/Archives/edgar/data/40729/000119312511175943/ds1a.htm,
            accessed 10/2/2012; SEC, “Ally Financial, Inc.: Amendment No. 4 to Form S-1 Registration Statement,” 8/18/2011, www.sec.gov/
            Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 10/2/2012; SEC, “Ally Financial Inc.: Amendment No. 5 to Form
            S-1 Registration Statement,” 12/2/2011, www.sec.gov/Archives/edgar/data/40729/000119312511328749/d167661ds1a.htm, accessed
            10/2/2012; SEC, “Ally Financial Inc.: Amendment No. 6 to Form S-1 Registration Statement,” 4/12/2012, www.sec.gov/Archives/edgar/
            data/40729/000119312512159940/d167661ds1a.htm, accessed 10/2/2012; SEC, “Ally Financial, Inc.: Amendment No. 7 to Form S-1
            Registration Statement,” 10/5/2012, www.sec.gov/Archives/edgar/data/40729/000119312512416511/d388008ds1a.htm, accessed 10/9/2012.
      641.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, http://edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchF
            ilingHTML1?ID=7830546&SessionID=mUY1FWvvg9OIf77, accessed 10/2/2012; SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1
            Registration Statement,” 5/17/2011, http://edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID
            =u1r1FjMCVRNlLm7, accessed 10/2/2012.
      642.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, http://edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchF
            ilingHTML1?ID=7830546&SessionID=mUY1FWvvg9OIf77, accessed 10/2/2012.; SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1
            Registration Statement,” 5/17/2011, http://edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHTML1?ID=7940925&SessionID
            =u1r1FjMCVRNlLm7, accessed 10/2/2012.
      643.	 Treasury Press Release, “Treasury Department Agrees to Be Named as a Selling Shareholder in Ally Financial Inc.’s Registration Statement
            for its Initial Public Offering,” 3/31/2011, www.treasury.gov/press-center/press-releases/Pages/tg1124.aspx, accessed 10/2/2012; Treasury,
            Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20Report%20
            as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      644.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      645.	 Ally Financial, 8-K, 5/22/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 10/2/2012.
      646.	 Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/June%202012%20Dividends%20Interest%20Report.pdf, accessed 10/11/2012.
      647.	 Ally Financial Press Release, “Ally Financial Announces Key Strategic Actions to Strengthen Company and Accelerate Ability to Repay U.S.
            Treasury,” 5/14/2012, http://media.ally.com/index.php?s=43&item=543, accessed 9/28/2012.
      648.	 Ally Financial, 10-Q, 8/3/2012, www.sec.gov/Archives/edgar/data/40729/000004072912000020/gjm2012063010q.htm, accessed 9/20/2012.
      649.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, Dividends and Interest Report, 10/10/2012, www.treasury.
            gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/DocumentsDividendsInterest/March%202012%20Dividends%20
            Interest%20Report.pdf, accessed 10/11/2012.
      650.	 Amendment Number Four to Loan and Security Agreement dated as of January 2, 2009 between CGI Holding LLC and the United States
            Department of the Treasury, 7/23/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/Documents_
            Contracts_Agreements/Chrysler%20LSA%20as%20of%2005-26-10.pdf, accessed 9/28/2012; Treasury, Transactions Report, 9/28/2012, www.
            treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20Report%20as%20of%2009-28-12_INVESTMENT.
            pdf, accessed 10/3/2012.
      651.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
            Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
      652.	 TD Bank Press Release, “TD Bank Group to acquire Chrysler Financial,” 12/21/2010, http://td.mediaroom.com/index.php?s=43&item=1120,
            accessed 9/28/2012.
      653.	 TD Bank Group Press Release, “TD Completes Chrysler Financial Acquisition,” 4/1/2011, http://td.mediaroom.com/index.
            php?s=43&item=1210, accessed 9/28/2012; TD Auto Finance LLC, 8-K, 4/5/2011, http://google.brand.edgar-online.com/displayfilinginfo.
            aspx?FilingID=7845191-1054-9050&type=sect&TabIndex=2&companyid=684228&ppu=%252fdefault.aspx%253fcompanyid%253d684228,
            accessed 9/28/2012.
                                                                                           quarterly report to congress I October 25, 2012                   223


654.	 Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/
      tg64.aspx, accessed 9/28/2012.
655.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012; Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/
      initiatives/financial-stability/briefing-room/reports/105/Documents105/May%202010%20105(a)%20Report_final.pdf, accessed 10/3/2012.
656.	 Treasury, “Office of Financial Stability: Agency Financial Report - Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/2/2012.
657.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
658.	 Treasury, Transactions Report, 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/10-02-12%20Transactions%20
      Report%20as%20of%2009-28-12_INVESTMENT.pdf, accessed 10/3/2012.
659.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
660.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
661.	 Treasury, response to SIGTARP data call, 10/9/2012.
662.	 Treasury, response to SIGTARP data call, 10/4/2012.
663.	 Treasury, response to SIGTARP data call, 10/9/2012.
664.	 Treasury, response to SIGTARP data call, 10/4/2012.
665.	 Congressional Oversight Panel, “Examining Treasury’s Use of Financial Crisis Contracting Authority,” 10/14/2010, http://cybercemetery.unt.edu/
      archive/cop/20110402010440/http://cop.senate.gov/documents/cop-101410-report.pdf, accessed 10/3/2012.
224           Appendix a I glossary I October 25, 2012




      Glossary
      This appendix provides a glossary of terms that are used in the context of this report.

      7(a) Loan Program: SBA loan program guaranteeing                   Credit Default Swap (“CDS”): A contract where the seller
      a percentage of loans for small businesses that cannot             receives payments from the buyer in return for agreeing to
      otherwise obtain conventional loans at reasonable terms.           pay the buyer when a particular credit event occurs, such
                                                                         as when the credit rating on a bond is downgraded or a
      Accredited Investors: Individuals or institutions that
                                                                         loan goes into default. The buyer does not need to own the
      by law are considered financially sophisticated enough
                                                                         asset covered by the contract, meaning the swap can serve
      so that they can invest in ventures that are exempt from
                                                                         essentially as a bet against the underlying bond or loan.
      investor protection laws. Under U.S. securities laws, these
      include many financial companies, pension plans, wealthy           Cumulative Preferred Stock: Stock requiring a defined
      individuals, and top executives or directors of the issuing        dividend payment. If the company does not pay the dividend
      companies.                                                         on schedule, it still owes the missed dividend to the stock’s
                                                                         owner.
      Asset-Backed Securities (“ABS”): Bonds backed by a
      portfolio of consumer or corporate loans, e.g., credit card,       CUSIP number (“CUSIP”): Unique identifying number
      auto, or small-business loans. Financial companies typically       assigned to all registered securities in the United States
      issue ABS backed by existing loans in order to fund new loans      and Canada; the name originated with the Committee on
      for their customers.                                               Uniform Securities Identification Procedures.
      Auction Agent: Firm (such as an investment bank) that buys         Custodian Bank: Bank holding the collateral and managing
      a series of securities from an institution for resale.             accounts for FRBNY; for TALF the custodian is Bank of New
                                                                         York Mellon.
      Collateral: Asset pledged by a borrower to a lender until a
      loan is repaid. Generally, if the borrower defaults on the loan,   Debt: Investment in a business that is required to be paid
      the lender gains ownership of the pledged asset and may sell       back to the investor, usually with interest.
      it to satisfy the debt. In TALF, the ABS or CMBS purchased
                                                                         Deed-in-Lieu of Foreclosure: Instead of going through
      with the TALF loan is the collateral that is posted with
                                                                         foreclosure, the borrower voluntarily surrenders the deed
      FRBNY.
                                                                         to the home to the investor as satisfaction of the unpaid
      Collateralized Debt Obligation (“CDO”): A security that            mortgage balance.
      entitles the purchaser to some part of the cash flows from a
                                                                         Deficiency Judgment: Court order authorizing a lender to
      portfolio of assets such as mortgage-backed securities, bonds,
                                                                         collect all or part of an unpaid and outstanding debt resulting
      loans, or other CDOs.
                                                                         from the borrower’s default on the mortgage note securing a
      Commercial Mortgage-Backed Securities (“CMBS”):                    debt. A deficiency judgment is rendered after the foreclosed
      Bonds backed by one or more mortgages on commercial real           or repossessed property is sold when the proceeds are
      estate (e.g., office buildings, rental apartments, hotels).        insufficient to repay the full mortgage debt.
      Common Stock: Equity ownership entitling an individual to          Deobligations: An agency’s cancellation or downward
      share in corporate earnings and voting rights.                     adjustment of previously incurred obligations.
      Community Development Financial Institutions                       Due Diligence: Appropriate level of attention or care a
      (“CDFIs”): Financial institutions eligible for Treasury            reasonable person should take before entering into an
      funding to serve urban and rural low-income communities            agreement or a transaction with another party. In finance, it
      through the CDFI Fund. CDFIs were created in 1994                  often refers to the process of conducting an audit or review of
      by the Riegle Community Development and Regulatory                 the institution before initiating a transaction.
      Improvement Act. These entities must be certified by
                                                                         Dutch Auction: A type of auction in which multiple bidders
      Treasury; certification confirms that they target at least 60%
                                                                         bid for different quantities of the asset; the price the seller
      of their lending and other economic development activities to
                                                                         accepts is set at the lowest bid of the group of high bidders
      areas underserved by traditional financial institutions.
                                                                         whose collective bids fulfill the amount of shares offered. As
                                                                                        glossary I Appendix A I October 25, 2012        225




an example, three investors place bids to own a portion of          Illiquid Assets: Assets that cannot be quickly converted to cash.
100 shares offered by the issuer:
                                                                    Investors: Owners of mortgage loans or bonds backed by
 • Bidder A wants 50 shares at $4/share.                            mortgage loans who receive interest and principal payments
                                                                    from monthly mortgage payments. Servicers manage the cash
 • Bidder B wants 50 shares at $3/share.
                                                                    flow from borrowers’ monthly payments and distribute them
 • Bidder C wants 50 shares at $2/share.                            to investors according to Pooling and Servicing Agreements
                                                                    (“PSAs”).
The seller selects Bidders A and B as the two highest bidders,
and their collective bids consume the 100 shares offered. The       Key Person: Individual recognized as being important to the
winning price is $3, which is what both bidders pay per share.      ongoing operation and investment decisions of an investment
Bidder C’s bid is not filled. Treasury uses a modified version      fund.
of a Dutch Auction in the dispensation of its warrants and in
                                                                    Legacy Securities: Real estate-related securities originally
some sales of CPP preferred stock.
                                                                    issued before 2009 that remained on the balance sheets
Equity: Investment that represents an ownership interest in a       of financial institutions because of pricing difficulties that
business.                                                           resulted from market disruption.
Equity Capital Facility: Commitment to invest equity                Limited Partnership: Partnership in which there is at least
capital in a firm under certain future conditions. An equity        one partner whose liability is limited to the amount invested
facility when drawn down is an investment that increases            (limited partner) and at least one partner whose liability
the provider’s ownership stake in the company. The investor         extends beyond monetary investment (general partner).
may be able to recover the amount invested by selling its
                                                                    Loan Servicers: Companies that perform administrative tasks
ownership stake to other investors at a later date.
                                                                    on monthly mortgage payments until the loan is repaid. These
Excess Spread: Funds left over after required payments and          tasks include billing, tracking, and collecting monthly payments;
other contractual obligations have been met. In TALF it is          maintaining records of payments and balances; allocating and
the difference between the periodic amount of interest paid         distributing payment collections to investors in accordance with
out by the collateral and the amount of interest charged by         each mortgage loan’s governing documentation; following up on
FRBNY on the nonrecourse loan provided to the borrower to           delinquencies; and initiating foreclosures.
purchase the collateral.
                                                                    Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio
Exercise Price: Preset price at which a warrant holder              that mortgage lenders examine before approving a mortgage;
may purchase each share. For warrants in publicly traded            calculated by dividing the outstanding amount of the loan
institutions issued through CPP, this was based on the              by the value of the collateral backing the loan. Loans with
average stock price during the 20 days before the date that         high LTV ratios are generally seen as higher risk because the
Treasury granted preliminary CPP participation approval.            borrower has less of an equity stake in the property.
Government-Sponsored Enterprises (“GSEs”): Private                  Mandatorily Convertible Preferred Stock (“MCP”): A type
corporations created and chartered by the Government to             of preferred share (ownership in a company that generally
reduce borrowing costs and provide liquidity in the market,         entitles the owner of the shares to collect dividend payments)
the liabilities of which are not officially considered direct       that can be converted to common stock under certain
taxpayer obligations. On September 7, 2008, the two largest         parameters at the discretion of the company — and must be
GSEs, the Federal National Mortgage Association (“Fannie            converted to common stock by a certain time.
Mae”) and the Federal Home Loan Mortgage Corporation
                                                                    Nationally Recognized Statistical Rating Organization
(“Freddie Mac”), were placed into Federal conservatorship.
                                                                    (“NRSRO”): Credit rating agency registered with the
They are currently being financially supported by the
                                                                    SEC. Credit rating agencies provide their opinion of the
Government.
                                                                    creditworthiness of companies and the financial obligations
Haircut: Difference between the value of the collateral and         issued by companies. The ratings distinguish between
the value of the loan (the loan value is less than the collateral   investment grade and non-investment grade equity and debt
value).                                                             obligations.
226           Appendix a I glossary I October 25, 2012




      Net Present Value (“NPV”) Test: Compares the money                 amount of available credit decreases and increases as funds
      generated by modifying the terms of the mortgage with the          are borrowed and then repaid.
      amount an investor can reasonably expect to recover in a
                                                                         Risk-Weighted Assets: Risk-based measure of total assets
      foreclosure sale.
                                                                         held by a financial institution. Assets are assigned broad
      Non-Agency Residential Mortgage-Backed Securities                  risk categories. The amount in each risk category is then
      (“non-agency RMBS”): Financial instrument backed by a              multiplied by a risk factor associated with that category. The
      group of residential real estate mortgages (i.e., home mortgages   sum of the resulting weighted values from each of the risk
      for residences with up to four dwelling units) not guaranteed      categories is the bank’s total risk-weighted assets.
      or owned by a Government-sponsored enterprise (“GSE”) or a
                                                                         SBA Pool Certificates: Ownership interest in a bond backed
      Government Agency.
                                                                         by SBA-guaranteed loans.
      Non-Cumulative Preferred Stock: Preferred stock with
                                                                         Senior Preferred Stock: Shares that give the stockholder
      a defined dividend, without the obligation to pay missed
                                                                         priority dividend and liquidation claims over junior preferred
      dividends.
                                                                         and common stockholders.
      Non-Recourse Loan: Secured loan in which the borrower is
                                                                         Senior Subordinated Debentures: Debt instrument ranking
      relieved of the obligation to repay the loan upon surrendering
                                                                         below senior debt but above equity with regard to investors’
      the collateral.
                                                                         claims on company assets or earnings.
      Obligations: Definite commitments that create a legal
                                                                         Servicing Advances: If borrowers’ payments are not made
      liability for the Government to pay funds.
                                                                         promptly and in full, servicers are contractually obligated to
      Pool Assemblers: Firms authorized to create and market             advance the required monthly payment amount in full to the
      pools of SBA-guaranteed loans.                                     investor. Once a borrower becomes current or the property is
                                                                         sold or acquired through foreclosure, the servicer is repaid all
      Preferred Stock: Equity ownership that usually pays a fixed
                                                                         advanced funds.
      dividend before distributions for common stock owners but
      only after payments due to debt holders. It typically confers      Short Sale: Sale of a home for less than the unpaid mortgage
      no voting rights. Preferred stock also has priority over           balance. A borrower sells the home and the investor accepts
      common stock in the distribution of assets when a bankrupt         the proceeds as full or partial satisfaction of the unpaid
      company is liquidated.                                             mortgage balance, thus avoiding the foreclosure process.
      Pro Rata: Refers to dividing something among a group of            Skin in the Game: Equity stake in an investment; down
      participants according to the proportionate share that each        payment; the amount an investor can lose.
      participant holds as a part of the whole.
                                                                         Special Purpose Vehicle (“SPV”): A legal entity, often off-
      Qualifying Financial Institutions (“QFIs”): Private and            balance-sheet, that holds transferred assets presumptively
      public U.S.-controlled banks, savings associations, bank           beyond the reach of the entities providing the assets, and that
      holding companies, certain savings and loan holding                is legally isolated from its sponsor or parent company.
      companies, and mutual organizations.
                                                                         Subchapter S Corporations (“S corporations”): Corporate
      Qualified Institutional Buyers (“QIB”): Institutions that          form that passes corporate income, losses, deductions, and
      under U.S. securities law are permitted to buy securities that     credit through to shareholders for Federal tax purposes.
      are exempt from registration under investor protection laws        Shareholders of S corporations report the flow-through of
      and to resell those securities to other QIBs. Generally these      income and losses on their personal tax returns and are taxed
      institutions own and invest at least $100 million in securities,   at their individual income tax rates.
      or are registered broker-dealers that own or invest at least $10
                                                                         Subordinated Debentures: Form of debt security that ranks
      million in securities.
                                                                         below other loans or securities with regard to claims on assets
      Revolving Credit Facility: Line of credit for which borrowers      or earnings.
      pay a commitment fee, allowing them to repeatedly draw
                                                                         Systemically Significant Institutions: Term referring to any
      down funds up to a guaranteed maximum amount. The
                                                                         financial institution whose failure would impose significant
                                                                                                 glossary I Appendix A I October 25, 2012                               227




losses on creditors and counterparties, call into question the    Sources:
                                                                  Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date, www.
financial strength of similar institutions, disrupt financial     fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
                                                                  10/1/2012.
markets, raise borrowing costs for households and businesses,
                                                                  Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral, www.frbservices.
and reduce household wealth.                                      org/files/regulations/pdf/operating_circular_8.pdf, accessed 10/1/2012.
                                                                  FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 10/1/2012.
TALF Agent: Financial institution that is party to the TALF       FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
Master Loan and Security Agreement and that occasionally          card_securitization/glossary.html, accessed 10/1/2012.

acts as an agent for the borrower. TALF agents include            FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
                                                                  rules/2000-4600.html, accessed 10/1/2012.
primary and nonprimary broker-dealers.                            FRBNY, “TALF FAQ’s,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html, accessed
                                                                  10/1/2012.
Trial Modification: Under HAMP, a period of at least three        SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
months in which a borrower is given a chance to establish         3/25/2010, www.sigtarp.gov/Audit%20Reports/Factors_Affecting_Implementation_of_the_Home_
                                                                  Affordable_Modification_Program.pdf, accessed 10/1/2012.
that he or she can make lower monthly mortgage payments
                                                                  GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004, www.gao.gov/
and qualify for a permanent modification.                         special.pubs/d06382sp.pdf, p. 7-3, accessed 10/1/2012.
                                                                  GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
Trust Preferred Securities (“TRUPS”): Securities that have        on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.
                                                                  pdf, accessed 10/1/2012; GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of
both equity and debt characteristics, created by establishing a   Government Assistance Provided to AIG and Description of Recent Execution of Recapitalization
trust and issuing debt to it.                                     Plan,” 1/20/2011, www.gao.gov/new.items/d1146.pdf, accessed 10/1/2012.
                                                                  IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/Businesses/Small-Businesses-&-Self-
Undercapitalized: Condition in which a financial institution      Employed/Abusive-Offshore-Tax-Avoidance-Schemes---Glossary-of-Offshore-Terms, accessed
                                                                  10/1/2012.
does not meet its regulator’s requirements for sufficient         Making Home Affordable base NPV model documentation v4.0, updated 10/1/2010. www.
capital to operate under a defined level of adverse conditions.   hmpadmin.com/portal/programs/docs/hamp_servicer/npvmodeldocumentationv4.pdf, pp. 23-24,
                                                                  accessed 10/1/2012.
Underwater Mortgage: Mortgage loan on which a                     SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/idc/
                                                                  groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 10/1/2012.
homeowner owes more than the home is worth, typically as a
                                                                  SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 10/1/2012.
result of a decline in the home’s value. Underwater mortgages     Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
are also referred to as having negative equity.                   10/1/2012.
                                                                  Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” 3/16/2009, www.treasury.gov/press-
                                                                  center/press-releases/Pages/tg58.aspx, accessed 10/1/2012.
                                                                  Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
                                                                  Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/tg334.
                                                                  aspx, accessed 10/1/2012.
                                                                  Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
                                                                  Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
                                                                  sd1014.pdf, accessed 10/1/2012.
                                                                  Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.
                                                                  treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 10/1/2012.
                                                                  U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
                                                                  www.census.gov/hhes/www/rfs/glossary.html#l, accessed 10/1/2012.
                                                                  U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
                                                                  sfh/buying/glossary.cfm, accessed 10/1/2012.
228          Appendix B I Acronyms and abbreviations I October 25, 2012




      Acronyms and Abbreviations

          21st Century 21st Century Real Estate Investment Corp.                              CEO    chief executive officer
                   2MP Second Lien Modification Program                                  Cerberus Cerberus Capital Management, L.P.
                    ABS    asset-backed securities                                           CFPB    Consumer Financial Protection Bureau
                 the Act Securities Act of 1933                                              CFTC    Commodity Futures Trading Commission
              AG GECC AG GECC PPIF Master Fund, L.P.                                      Chrysler   Chrysler Holding LLC
                    AGP Asset Guarantee Program                                 Chrysler Financial   Chrysler Financial Services Americas LLC
                           American International Assurance Co., Ltd.;                         CIC   CIC Bancshares, Inc.
                     AIA
                           AIA Group Limited
                                                                                                     Council of the Inspectors General on Integrity and
                                                                                             CIGIE
                AIA SPV AIA Aurora LLC                                                               Efficiency
                   AIFP Automotive Industry Financing Program                            Citizens
                                                                                                  Citizens Bancshares Co., Chillicothe, Missouri
                                                                                      Bancshares
                     AIG American International Group, Inc.
                                                                                         Citigroup   Citigroup, Inc.
                  AIGFP AIG Financial Products Corporation
                                                                                              CLTV Combined Loan-to-Value
               AIG Trust AIG Credit Facility Trust
                                                                                            CMBS     commercial mortgage-backed securities
                  ALICO    American Life Insurance Company
                                                                                Coastal Securities Coastal Securities, Inc.
             ALICO SPV ALICO Holdings LLC
                                                                                          Colonial   Colonial Bank
      AllianceBernstein AllianceBernstein Legacy Securities Master Fund, L.P.
                                                                                  Commonwealth Commonwealth Bancshares, Inc., Louisville,
          Ally Financial Ally Financial Inc.
                                                                                     Bancshares Kentucky
                           Alpine Banks of Colorado, Glenwood Springs,
                  Alpine                                                              Community
                           Colorado                                                                Community Bancshares of Mississippi,
                                                                                    Bancshares of
                                                                                                   Brandon, Mississippi
           Appalachian Appalachian Community Bank                                      Mississippi
                   ASSP Auto Supplier Support Program                                  Community Community Bankers Trust Corporation, Glen Allen,
                                                                                         Bankers Virginia
                  AWCP Auto Warranty Commitment Program
                                                                                       Community Community Holding of Florida, Inc.,
       Bank of America Bank of America Corporation
                                                                                          Holding Miramar Beach, Florida
             BlackRock     BlackRock PPIF, L.P.
                                                                                              COP Congressional Oversight Panel
            Blue Valley Blue Valley Ban Corp, Overland Park, Kansas
                                                                                              CPP Capital Purchase Program
                    BOC    Bank of Commonwealth
                                                                                                     CUSIP numbers; from Committee on Uniform
                                                                                           CUSIPs
          BNC Bancorp BNC Bancorp, Thomasville, North Carolina                                       Securities Identification Procedures
         California Bar    State Bar Court of California                                             Department of Education Office of Inspector
                                                                                           DE OIG
                    CAP Capital Assistance Program                                                   General

                    CAS Compliance Audit Solutions, Inc.                                 Diamond Diamond Bancorp, Inc., Washington, Missouri

             CAS Group CAS Group, Inc.                                                               Dodd-Frank Wall Street Reform and Consumer
                                                                                  Dodd-Frank Act
                                                                                                     Protection Act
                    CBO    Congressional Budget Office
                                                                                               DTI   debt-to-income ratio
                    CBS    CBS Banc-Corp., Russellville, Alabama
                                                                                             EESA    Emergency Economic Stabilization Act of 2008
                   CDCI    Community Development Capital Initiative
                                                                                    Eligible assets securities eligible for purchase by PPIFs
                   CDFI    Community Development Financial Institution
                                                                                  Exchange Bank Exchange Bank, Santa Rosa, California
                  CDOs     collateralized debt obligations
                                                                                              F&M    F&M Financial Corporation, Clarksville, Tennessee
                    CDS    Credit Default Swap
                                                                                                     F & M Financial Corporation, Salisbury, North
        Central Federal Central Federal Corporation, Fairlawn, Ohio                          F&M
                                                                                                     Carolina
                                                                         Acronyms and abbreviations I Appendix B I October 25, 2012                 229




     Fannie Mae Federal National Mortgage Association                               HUD     Department of Housing and Urban Development
              FBI    Federal Bureau of Investigation                            Intervest Intervest Bancshares Corporation
             FCM     Freedom Companies Marketing                                 Invesco Invesco Legacy Securities Master Fund, L.P.
             FDIC    Federal Deposit Insurance Corporation                           IPO initial public offering
                     Federal Deposit Insurance Corporation Office of                        Internal Revenue Service Criminal
        FDIC OIG                                                                  IRS-CI
                     Inspector General                                                      Investigation Division
Federal Reserve Federal Reserve System                                          Jobs Act    Jobs Act of 2010
              FHA    Federal Housing Administration                           JPMorgan      JPMorgan Chase & Co.
         FHA2LP      Treasury/FHA Second-Lien Program                     Legacy Home
                                                                                       Legacy Home Loans and Real Estate
                                                                                 Loans
                     Federal Housing Finance Agency Office of
        FHFA OIG
                     Inspector General                                            LIBOR     London Interbank Offered Rate
              Fiat   Fiat North America LLC                                        Litton   Litton Loan Servicing, LP
Fidelity Financial Fidelity Financial Corporation, Wichita, Kansas                   LTV    loan-to-value ratio
         FirstCity FirstCity Bank                                                   M&T     M&T Bank Corporation
First Community                                                                             Mackinac Financial Corporation, Manistique,
                First Community Bank of Hammond, Louisiana                     Mackinac
          Bank                                                                              Michigan
First Community First Community Corporation, Lexington, South               MainSource      MainSource Financial Group
     Corporation Carolina
                                                                                            Marathon Legacy Securities Public-Private
                                                                               Marathon
First Community First Community Financial Partners, Inc., Joliet,                           Investment Partnership, L.P.
        Financial Illinois
                                                                          Market Street     Market Street Bancshares, Inc., Mt. Vernon, Illinois
   First National First National Corporation, Strasburg, Virginia
                                                                              Marquette Marquette National Corporation, Chicago, Illinois
   First Security
                  First Security Group, Inc.                                        MBS     mortgage-backed securities
           Group
                                                                                    MCP     mandatorily convertible preferred shares
       First Trust First Trust Corporation, New Orleans, Louisiana
                                                                                    MHA     Making Home Affordable program
   First Western First Western Financial, Inc., Denver, Colorado
                                                                             Millennium     Millennium Bancorp, Inc., Edwards, Colorado
              FLC Flahive Law Corporation
                                                                        Naples Bancorp,
      FNB United FNB United Corp., Asheboro, North Carolina                             Naples Bancorp, Inc., Naples, Florida
                                                                                   Inc.
          FRBNY Federal Reserve Bank of New York
                                                                           New Chrysler Chrysler Group LLC
    Freddie Mac Federal Home Loan Mortgage Corporation
                                                                            Non-Agency      Non-Agency Residential Mortgage-Backed
              FSA    Financial Services Authority                                RMBS       Securities
            FSOC     Financial Stability Oversight Council                          NPV     net present value
              FTC    Federal Trade Commission                                    NRSRO      nationally recognized statistical rating organization
             GAO     Government Accountability Office                           Oaktree Oaktree PPIP Fund, L.P.
Glasgow Savings                                                             Old Chrysler Chrysler Group LLC
                Glasgow Savings Bank, Glasgow, Missouri
          Bank
                                                                                 Old GM     General Motors Corp.
              GM General Motors Company
                                                                                    OFS     Office of Financial Stability
           GMAC GMAC Inc.
                                                                                    OMB     Office of Management and Budget
                 Greater Kinston Credit Union,
 Greater Kinston                                                            Option ARM      Option Adjustable Rate Mortgage
                 Kinston, North Carolina
                                                                             Orion Bank Orion Bank
         Gregg
                Gregg Bancshares, Inc., Ozark, Missouri
     Bancshares                                                                     OTS     Office of Thrift Supervision
             GSE     Government-sponsored enterprise                              Park
                                                                                        Park Bancorporation, Inc., Madison, Wisconsin
                                                                         Bancorporation
            HAFA     Home Affordable Foreclosure Alternatives program
                                                                                      PII personally identifiable information
           HAMP      Home Affordable Modification Program
                                                                                            Pinnacle Bank Holding Company, Inc., Orange City,
              HFA Housing Finance Agency                                        Pinnacle
                                                                                            Florida
             HHF     Hardest Hit Fund
                                                                                Pinnacle Pinnacle National Bank
            HPDP     Home Price Decline Protection program
                                                                                    PPIF Public-Private Investment Fund
230          Appendix B I Acronyms and abbreviations I October 25, 2012




                   PPIP Public-Private Investment Program                                Tivest Tivest Development and Construction LLC
                    PRA Principal Reduction Alternative program                            TPP trial period plan
      Premier Bancorp Premier Bancorp, Inc., Wilmette, Illinois                       Treasury Department of the Treasury
      Premier Financial Premier Financial Bancorp, Inc., Huntington, West        Treasury/FHA     HAMP Loan Modification Option for
              Bancorp Virginia                                                          HAMP      FHA-insured Mortgages
           PremierWest PremierWest Bancorp, Medford, Oregon                           Treasury
                                                                                               Secretary of the Treasury
                                                                                     Secretary
                    PSA    Pooling and Servicing Agreement
                                                                                                  Trinity Capital Corporation, Los Alamos, New
                    QFI    qualifying financial institution                             Trinity
                                                                                                  Mexico
                    QIB    Qualified Institutional Buyers
                                                                                        TRUPS     trust preferred securities
                           Department of Agriculture’s Office of
                     RD                                                                   UAW     United Auto Workers
                           Rural Development
                                                                                         UCBH     UCBH Holdings, Inc.
                           Rural Development Home Affordable
              RD-HAMP
                           Modification Program                                          UCSB     Unlocking Credit for Small Businesses
                ResCap Residential Capital, LLC                                             UP    Home Affordable Unemployment Program
           RLJ Western RLJ Western Asset Public/Private Master Fund, L.P.               USPIS     U.S. Postal Inspection Service
                   RMA request for mortgage assistance                                      VA    Department of Veterans Affairs
                  RMBS     residential mortgage-backed securities               Valley National   Valley National Bancorp, Wayne, New Jersey
                Rogers                                                                            Wellington Management Legacy Securities PPIF
                       Rogers Bancshares, Inc.                                      Wellington
            Bancshares                                                                            Master Fund, LP
                           Railroad Retirement Board Office of Inspector           Wells Fargo    Wells Fargo & Company
               RRB OIG
                           General
                                                                                         WSFS     WSFS Financial Corporation
         S corporations IRS subchapter S corporations
                                                                                                  Yadkin Valley Financial Corporation, Elkin, North
                                                                                 Yadkin Valley
                    SBA Small Business Administration                                             Carolina
                   SBLF    Small Business Lending Fund
              SCB Bank     SCB Bank, Shelbyville, Indiana
                    SEC Securities and Exchange Commission
         Secret Service Secret Service
              Servicers    loan servicers
         Shay Financial Shay Financial Services, Inc.
                           Office of the Special Inspector General for the
               SIGTARP
                           Troubled Asset Relief Program
                           Special Inspector General for the Troubled Asset
           SIGTARP Act
                           Relief Program Act of 2009
                    SNL    SNL Financial, LLC
                    SPA    Servicer Participation Agreement
                    SPV special purpose vehicle
                   SSFI Systemically Significant Failing Institutions program
                Sterling Sterling Mutual LLC
                           Sterling Financial Corporation, Spokane,
      Sterling Financial
                           Washington
                   TALF    Term Asset-Backed Securities Loan Facility
                  TARP     Troubled Asset Relief Program
                   TCW     The TCW Group, Inc.
            Tennessee
                      Tennessee Commerce Bancorp, Inc.
            Commerce
            Timberland     Timberland Bancorp, Inc., Hoquiam, Washington
                     TIP   Targeted Investment Program
                                                                                     Reporting Requirements I Appendix C I October 25, 2012             231




Reporting Requirements
This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.


      EESA        EESA Reporting                                                                                                      SIGTARP
 #    Section     Requirement          Treasury Response to SIGTARP Data Call                                                         Report Section
 1    Section     A description of     Treasury’s authority to make new financial commitments under TARP ended on                     Section 2:
      121(c)(A)   the categories of    October 3, 2010                                                                                “TARP Overview”
                  troubled assets
                  purchased or         Below are program descriptions from Treasury’s www.treasury.gov/initiatives/financial-         Appendix D:
                  otherwise procured   stability/Pages/default.aspx website, as of 9/30/2012:                                         “Transaction
                  by the Treasury                                                                                                     Detail”
                  Secretary.


                                       CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize
                                       the financial system by providing capital to viable financial institutions of all sizes
                                       throughout the nation. With a strengthened capital base, financial institutions have an
                                       increased capacity to lend to U.S. businesses and consumers and to support the U.S.
                                       economy.

                                       AIG: In September of 2008, panic in the financial system was deep and widespread
                                       Amidst these events, on Friday, September 12, American International Group (AIG)
                                       officials informed the Federal Reserve and Treasury that the company was facing
                                       potentially fatal liquidity problems. At the time, AIG was the largest provider of
                                       conventional insurance in the world, with approximately 75 million individual and corporate
                                       customers in over 130 countries.a

                                       AGP: Under the Asset Guarantee Program (AGP), Treasury acted to support the value of
                                       certain assets held by qualifying financial institutions, by agreeing to absorb unexpectedly
                                       large losses on certain assets. The program was designed for financial institutions whose
                                       failure could harm the financial system and was used in conjunction with other forms of
                                       exceptional assistance.

                                       TIP: Under the Targeted Investment Program (TIP), Treasury provided exceptional
                                       assistance on a case-by-case basis in order to stabilize institutions that were considered
                                       systemically significant to prevent broader disruption of financial markets. Treasury
                                       provided this assistance by purchasing preferred stock, and also received warrants to
                                       purchase common stock, in the institutions.

                                       TALF: This joint initiative with the Federal Reserve builds off, broadens and expands the
                                       resources available to support the consumer and business credit markets by providing
                                       the financing to private investors to help unfreeze and lower interest rates for auto,
                                       student loan, small business, credit card and other consumer and business credit. The
                                       U.S. Treasury originally committed $20 billion to provide credit protection for $200 billion
                                       of lending from the Federal Reserve. This commitment was later reduced to $4.3 billion
                                       after the program closed to new lending on June 30, 2010, with $43 billion in loans
                                       outstanding.

                                       PPIP: On March 23, 2009, the U.S. Department of the Treasury (“Treasury”), announced
                                       the Legacy Securities Public-Private Investment Program (“PPIP”) as a key component of
                                       President Obama’s Financial Stability Plan. The Financial Stability Plan outlines a broad
                                       framework to bring capital into the financial system and address the problem of legacy
                                       real estate assets.

                                       CDCI: As part of the Administration’s ongoing commitment to improving access to credit
                                       for small businesses, Treasury announced on February 3 final terms for the Community
                                       Development Capital Initiative (CDCI). This TARP program invested lower-cost capital in
                                       Community Development Financial Institutions (CDFIs) that lend to small businesses in the
                                       country’s hardest-hit communities.
232         Appendix C I Reporting Requirements I October 25, 2012




          EESA        EESA Reporting                                                                                                          SIGTARP
      #   Section     Requirement             Treasury Response to SIGTARP Data Call                                                          Report Section
                                              SBLF: Enacted into law as part of the Small Business Jobs Act of 2010 (the Jobs Act), the
                                              Small Business Lending Fund (SBLF) is a $30 billion fund that encourages lending to small
                                              businesses by providing capital to qualified community banks with assets of less than $10
                                              billion. Through the Small Business Lending Fund, Main Street banks and small businesses
                                              can work together to help create jobs and promote economic growth in local communities
                                              across the nation.

                                              UCSB: The Treasury Department will begin making direct purchases of securities backed
                                              by SBA loans to get the credit market moving again, and it will stand ready to purchase
                                              new securities to ensure that community banks and credit unions feel confident in
                                              extending new loans to local businesses.

                                              AIFP: The objective of the Automotive Industry Financing Program (AIFP) is to prevent a
                                              significant disruption of the American automotive industry, which would pose a systemic
                                              risk to financial market stability and have a negative effect on the economy of the United
                                              States.

                                              ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                              confidence they need to continue shipping parts, pay their employees and continue their
                                              operations.b

                                              AWCP: The Treasury Department announced an innovative new program to give
                                              consumers who are considering new car purchases the confidence that even while
                                              Chrysler and GM were restructuring in bankruptcy, their warrantees will be honored. This
                                              program is part of the Administration’s broader program to stabilize the auto industry and
                                              stand behind a restructuring effort that will result in stronger, more competitive and viable
                                              American car companies.b

                                              HAMP (a program under MHA): The Home Affordable Modification Program has a
                                              simple goal: reduce the amount homeowners owe per month to sustainable levels to
                                              stabilize communities. This program will bring together lenders, investors, servicers,
                                              borrowers and the Government, so that all stakeholders share in the cost of ensuring that
                                              responsible homeowners can afford their monthly mortgage payments -- helping to reach
                                              up to 3 to 4 million at-risk borrowers in all segments of the mortgage market, reducing
                                              foreclosures, and helping to avoid further downward pressures on overall home prices.

      2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on                      Appendix D:
          121(c)(B)   troubled assets         October 3, 2010.                                                                                “Transaction
                      purchased in each                                                                                                       Detail”
                      such category           Information on all transactions as well as additional information about these programs
                      described under         and related purchases is available in the transaction reports and monthly 105(a) reports
                      Section 121(c)(A)       posted at www.treasury.gov/initiatives/financial-stability/reports/Pages/reports.aspx.
                                              Information regarding all transactions through the end of September 2012 is available at
                                              the aforementioned link in a transaction report dated 9/28/2012.

      3   Section     An explanation          Treasury’s authority to make new financial commitments under TARP ended on                      Section 2: “TARP
          121(c)(C)   of the reasons          October 3, 2010.                                                                                Overview”
                      the Treasury
                      Secretary deemed                                                                                                        Appendix C:
                      it necessary to                                                                                                         “Reporting
                      purchase each such                                                                                                      Requirements”
                      troubled asset.                                                                                                         of prior SIGTARP
                                                                                                                                              Quarterly Reports
                                                                                                                                              to Congress

      4   Section     A listing of each       See #2.                                                                                         See #2.
          121(c)(D)   financial institution
                      from which such
                      troubled assets
                      were purchased
                                                                                                                Reporting Requirements I Appendix C I October 25, 2012                            233




        EESA               EESA Reporting                                                                                                                               SIGTARP
#       Section            Requirement                    Treasury Response to SIGTARP Data Call                                                                        Report Section
5        Section           A listing of                    There have been no new PPIP fund managers hired between June 30, 2012, and                                   Section 2:
         121(c)(E)         and detailed                    September 30, 2012.                                                                                          ”Public-Private
                           biographical                                                                                                                                 Investment
                           information on each             On February 7, 2012, the Treasury executed a new Financial Agency Agreement with                             Program“
                           person or entity                Greenhill & Co. LLC (Greenhill) to provide certain services relating to the management
                           hired to manage                 and disposition of American International Group, Inc. (AIG) investments acquired                             Appendix C:
                           such troubled                   pursuant to the Emergency Economic Stability Act of 2008 (EESA). Greenhill is a global                       “Reporting
                           assets.                         financial services firm providing investment banking, advice on mergers, acquisitions,                       Requirements”
                                                           restructurings, financings and capital raisings to corporations, partnerships, institutions                  of prior SIGTARP
                                                           and governments.                                                                                             Quarterly Reports
                                                                                                                                                                        to Congress

6        Section           A current estimate              The transaction reports capture detailed information about troubled asset purchases,                         Table C.1;
         121(c)(F)         of the total amount             price paid, and the amount of troubled assets currently on Treasury’s books. The latest                      Section 2: “TARP
                           of troubled assets              transaction reports are available on Treasury’s website at www.treasury.gov/initiatives/                     Overview”
                           purchased pursuant              financial-stability/reports/Pages/TARP-Investment-Program-Transaction-Reports.aspx.
                           to any program                  Information regarding all transactions through the end of September 2012 is available at                     Appendix D:
                           established under               the aforementioned link in a transaction report dated 9/28/2012.                                             “Transaction
                           Section 101, the                                                                                                                             Detail”
                           amount of troubled              Treasury published its most recent valuation of TARP investments as of September 30,
                           assets on the                   2012, on 10/10/2012, in its September 2012 105(a) report that is available at the
                           books of Treasury,              following link: www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-
                           the amount of                   Report-to-Congress.aspx
                           troubled assets
                           sold, and the profit            Information on the repayments of Treasury’s investments under the CPP and proceeds
                           and loss incurred               from the sale of warrants are available within Treasury’s press releases, transaction
                           on each sale or                 reports and Section 105(a) Monthly Congressional Reports at the following links:
                           disposition of each             www.treasury.gov/initiatives/financial-stability/reports/Pages/TARP-Investment-Program-
                           such troubled                   Transaction-Reports.aspx
                           assets.                         www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-Congress.
                                                           aspx

7        Section           A listing of the                Treasury’s authority to make new financial commitments under TARP ended on                                   Section 2:
         121(c)(G)         insurance contracts             October 3, 2010. As such, Treasury cannot issue any new insurance contracts after                            “TARP Overview”
                           issued under                    this date.
                           Section 102.                                                                                                                                 Section 2:
                                                                                                                                                                        “Targeted
                                                                                                                                                                        Investment
                                                                                                                                                                        Program and
                                                                                                                                                                        Asset Guarantee
                                                                                                                                                                        Program”

8        Section           A detailed statement            Treasury’s authority to make new financial commitments under TARP ended on                                   Table C.1;
         121(f)            of all purchases,               October 3, 2010.                                                                                             Section 2:
                           obligations,                                                                                                                                 “TARP Overview”
                           expenditures, and               Treasury provides information about TARP obligations, expenditures and revenues in
                           revenues associated             separate transaction reports available on Treasury’s public website at www.treasury.gov/                     Section 3:
                           with any program                initiatives/financial-stability/reports/Pages/TARP-Investment-Program-Transaction-Reports.                   “TARP Operations
                           established by the              aspx. Information regarding all transactions through the end of September 2012 is                            and Administration”
                           Secretary of the                available at the aforementioned link in a transaction reports dated 9/28/2012.
                           Treasury under                                                                                                                               Appendix D:
                           Sections 101 and                Information on obligations and expenditures is also available in the Daily TARP Update                       “Transaction Detail”
                           102.                            reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-
                                                           stability/reports/Pages/Daily-TARP-Reports.aspx, accessed 10/2/2012.
Notes:
a
  Otherwise known as Systemically Significant Failing Institutions (“SSFI”).
b
  Description is as of 3/31/2011.

Sources: Program Descriptions: Treasury, “Programs,” www.treasury.gov/initiatives/financial-stability/programs/Pages/default.aspx, accessed 10/1/2012; ASSP: “Treasury Announces Auto Suppliers
Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 10/1/2012; AWCP: “Obama Administration’s New Warrantee Commitment Program,” no
date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 10/1/2012; TALF: Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF) Frequently Asked
Questions,” no date, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 10/1/2012; SBLF: Small Business Lending Act, P.L. 111-240, 9/27/2010; MHA “Making
Home Affordable Updated Detailed Description Update,” 3/26/2010, www.treasury.gov/initiatives/financial-stability/programs/housing-programs/mha/Pages/default.aspx, accessed 10/1/2012.
234               Appendix C I Reporting Requirements I October 25, 2012




      Table C.1

       TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKs                                                                             ($ BILLIONS)

                                                                                   Obligations After
                                                                                         Dodd-Frank              Current Obligations                                                On Treasury’s
                                                                                 (As of 10/3/2010)               (As of 9/30/2012)                               Expended                 Booksa

       Housing Support Programs                                                                      $45.6                            $45.6                              $5.5                $—


       Capital Purchase Program (“CPP”)                                                              204.9                            204.9                            204.9                11.7


       Community Development Capital Initiative (“CDCI”)                                                0.6                              0.6                              0.2                 0.6


       Systemically Significant Failing Institutions (“SSFI”)                                         69.8                             67.8c                             67.8               18.5


       Targeted Investment Program (“TIP”)                                                            40.0                             40.0                              40.0                 0.0


       Asset Guarantee Program (“AGP”)                                                                  5.0                              5.0                              0.0                 0.0


       Term Asset-Backed Securities Loan Facility (“TALF”)                                              4.3                              1.4                              0.1                 0.1


       Public-Private Investment Program (“PPIP”)                                                     22.4                             21.7                              18.6                 8.8


       Unlocking Credit for Small Businesses (“UCSB”)                                                   0.4                              0.4                              0.4                 0.0


       Automotive Industry Support Programs (“AIFP”)b                                                 81.8                             79.7d                             79.7               44.5


                                                                     Total                        $474.8                           $467.0                           $417.3                 $84.2

       Notes: Numbers may not total due to rounding.
       a
         “On Treasury’s Books” calculated as the amount of TARP funds remaining outstanding, including losses and write-offs.
       b
         Includes amounts for AIFP, ASSP, and AWCP.
       c
         Treasury deobligated $2 billion in equity facility for AIG that was never drawn down.
       d
         Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4 billion for Auto Supplier Support Program.

       Sources: Repayments data: Treasury, Transactions Report, 9/28/2012; Treasury, Daily TARP Update, 10/1/2012.
Transaction Detail
Table D.1
CPP TRANSACTION DETAIL, AS OF 9/30/2012
                                                                                                                                Capital                                           Final                                            Stock        Current
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
12/23/2008   1st Constitution Bancorp, Cranbury, NJ                 Preferred Stock w/ Warrants                   $12,000,000   10/27/2010        $12,000,000              $­—    11/18/2011      P             $326,576           $8.95                        $1,106,667
2/13/2009    1st Enterprise Bank, Los Angeles, CA2,49               Preferred Stock w/ Exercised Warrants          $4,400,000   9/1/2011            $4,400,000             $­—    9/1/2011        R             $220,000
                                                                                                                                                                                                                                 $14.46                         $1,128,156
12/11/2009   1st Enterprise Bank, Los Angeles, CA2,10a,49           Preferred Stock                                $6,000,000   9/1/2011            $6,000,000             $­—    N/A                                 N/A
11/14/2008   1st FS Corporation, Hendersonville, NC                 Preferred Stock w/ Warrants                   $16,369,000                                                                                                                                   $1,229,949
1/23/2009    1st Source Corporation, South Bend, IN                 Preferred Stock w/ Warrants                 $111,000,000    12/29/2010       $111,000,000              $­—    3/9/2011        R           $3,750,000         $22.27                        $10,730,000
3/13/2009    1st United Bancorp, Inc., Boca Raton, FL2              Preferred Stock w/ Exercised Warrants         $10,000,000   11/18/2009        $10,000,000              $­—    11/18/2009      R             $500,000           $6.45                          $370,903
1/23/2009    AB&T Financial Corporation, Gastonia, NC               Preferred Stock w/ Warrants                    $3,500,000                                                                                                      $0.65                          $360,694
1/30/2009    Adbanc, Inc, Ogallala, NE2,49                          Preferred Stock w/ Exercised Warrants         $12,720,000   7/21/2011         $12,720,000              $­—    7/21/2011       R             $636,000                                        $1,715,769
1/23/2009    Alarion Financial Services, Inc., Ocala, FL2           Preferred Stock w/ Exercised Warrants          $6,514,000                                                                                                                                     $998,057
2/6/2009     Alaska Pacific Bancshares, Inc., Juneau, AK            Preferred Stock w/ Warrants                    $4,781,000                                                                                                      $7.55                          $844,367
6/26/2009    Alliance Bancshares, Inc., Dalton, GA2                 Preferred Stock w/ Exercised Warrants          $2,986,000                                                                                                                                     $510,277
12/19/2008   Alliance Financial Corporation, Syracuse, NY           Preferred Stock w/ Warrants                   $26,918,000   5/13/2009         $26,918,000              $­—    6/17/2009       R             $900,000         $40.21                           $538,360
                                                                    Subordinated Debentures w/
6/26/2009    Alliance Financial Services Inc., Saint Paul, MN8                                                    $12,000,000                                                                                                                                     $388,742
                                                                    Exercised Warrants
4/24/2009    Allied First Bancorp, Inc., Oswego, IL2                Preferred Stock w/ Exercised Warrants          $3,652,000                                                                                                      $0.60                          $409,753
3/27/2009    Alpine Banks of Colorado, Glenwood Springs, CO2,128    Preferred Stock w/ Exercised Warrants         $70,000,000   9/12/2012         $56,430,297              $­—    9/12/2012       P           $3,291,750                                       $13,407,114
1/30/2009    AMB Financial Corp., Munster, IN2,50                   Preferred Stock w/ Exercised Warrants          $3,674,000   9/22/2011           $3,674,000             $­—    9/22/2011       R             $184,000           $6.00                          $529,576
3/6/2009     AmeriBank Holding Company, Collinsville, OK2,49        Preferred Stock w/ Exercised Warrants          $2,492,000   9/15/2011           $2,492,000             $­—    9/15/2011       R             $125,000                                          $343,021
1/9/2009     American Express Company, New York, NY                 Preferred Stock w/ Warrants                $3,388,890,000   6/17/2009       $3,388,890,000             $­—    7/29/2009       R        $340,000,000          $56.86                        $74,367,308
5/29/2009    American Premier Bancorp, Arcadia, CA2                 Preferred Stock w/ Exercised Warrants          $1,800,000   1/26/2011           $1,800,000             $­—    1/26/2011       R              $90,000                                          $162,682
1/9/2009     American State Bancshares, Inc., Great Bend, KS2       Preferred Stock w/ Exercised Warrants          $6,000,000   11/2/2011           $6,000,000             $­—    11/2/2011       R             $300,000                                          $920,142
11/21/2008   Ameris Bancorp, Moultrie, GA85                         Preferred Stock w/ Warrants                   $52,000,000   6/13/2012         $47,665,332              $­—    8/22/2012       R           $2,670,000         $12.59                         $9,302,107
12/19/2008   AmeriServ Financial, Inc, Johnstown, PA50              Preferred Stock w/ Warrants                   $21,000,000   8/11/2011         $21,000,000              $­—    11/2/2011       R             $825,000           $2.97                        $2,776,667
                                                                    Subordinated Debentures w/
8/21/2009    AmFirst Financial Services, Inc., McCook, NE8                                                         $5,000,000                                                                                                                                   $1,251,510
                                                                    Exercised Warrants
1/30/2009    Anchor BanCorp Wisconsin Inc., Madison, WI             Preferred Stock w/ Warrants                 $110,000,000                                                                                                       $0.39     7,399,103
1/30/2009    Annapolis Bancorp, Inc., Annapolis, MD                 Preferred Stock w/ Warrants                    $8,152,000   4/18/2012           $4,076,000      $4,076,000                                                     $7.05       299,706          $1,377,348
                                                                                                                                4/6/2011         $262,500,000     $262,500,000
11/21/2008   Associated Banc-Corp, Green Bay, WI                    Preferred Stock w/ Warrants                 $525,000,000                                                      11/30/2011      A           $3,435,006         $13.16                        $68,104,167
                                                                                                                                9/14/2011        $262,500,000              $­—
12/29/2009   Atlantic Bancshares, Inc., Bluffton, SC2,10            Preferred Stock w/ Exercised Warrants          $2,000,000                                                                                                      $1.05                          $122,725
2/27/2009    Avenue Financial Holdings, Inc., Nashville, TN2,49     Preferred Stock w/ Exercised Warrants          $7,400,000   9/15/2011           $7,400,000             $­—    9/15/2011       R             $370,000                                        $1,028,415
3/13/2009    BancIndependent, Inc., Sheffield, AL2,49               Preferred Stock w/ Exercised Warrants         $21,100,000   7/14/2011         $21,100,000              $­—    7/14/2011       R           $1,055,000                                        $2,686,411
7/10/2009    Bancorp Financial, Inc., Oak Brook, IL2,10,49          Preferred Stock w/ Exercised Warrants         $13,669,000   8/18/2011         $13,669,000              $­—    8/18/2011       R             $410,000                                        $1,516,737
12/19/2008   Bancorp Rhode Island, Inc., Providence, RI             Preferred Stock w/ Warrants                   $30,000,000   8/5/2009          $30,000,000              $­—    9/30/2009       R           $1,400,000                                          $941,667
2/20/2009    BancPlus Corporation, Ridgeland, MS2,30                Preferred Stock w/ Exercised Warrants         $48,000,000   9/29/2010         $48,000,000              $­—    9/29/2010       R           $2,400,000                                        $4,207,399
4/3/2009     BancStar, Inc., Festus, MO2                            Preferred Stock w/ Exercised Warrants          $8,600,000                                                                                                                                   $1,577,957
12/19/2008   BancTrust Financial Group, Inc., Mobile, AL            Preferred Stock w/ Warrants                   $50,000,000                                                                                                      $2.98       730,994          $7,888,889
8/14/2009    Bank Financial Services, Inc., Eden Prairie, MN2       Preferred Stock w/ Exercised Warrants          $1,004,000                                                                                                                                     $164,252
10/28/2008   Bank of America Corporation, Charlotte, NC1b           Preferred Stock w/ Warrants               $15,000,000,000   12/9/2009      $15,000,000,000             $­—    3/3/2010        A        $183,547,824            $8.83                     $835,416,667
1/9/2009     Bank of America Corporation, Charlotte, NC1a,1b        Preferred Stock w/ Warrants               $10,000,000,000   12/9/2009      $10,000,000,000             $­—    3/3/2010        A        $122,365,216                                      $458,333,333
1/16/2009    Bank of Commerce, Charlotte, NC2                       Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $462,796
11/14/2008   Bank of Commerce Holdings, Redding, CA49               Preferred Stock w/ Warrants                   $17,000,000   9/27/2011         $17,000,000              $­—    10/26/2011      R             $125,000           $2.26                        $2,439,028
3/13/2009    Bank of George, Las Vegas, NV2                         Preferred Stock w/ Exercised Warrants          $2,672,000                                                                                                                                     $279,991
12/5/2008    Bank of Marin Bancorp, Novato, CA                      Preferred Stock w/ Warrants                   $28,000,000   3/31/2009         $28,000,000              $­—    11/18/2011      P           $1,703,984         $42.51                           $451,111
4/17/2009    Bank of the Carolinas Corporation, Mocksville, NC      Preferred Stock w/ Warrants                   $13,179,000                                                                                                      $0.22       475,204          $1,039,677
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I October 25, 2012




12/12/2008   Bank of the Ozarks, Inc., Little Rock, AR              Preferred Stock w/ Warrants                   $75,000,000   11/4/2009         $75,000,000              $­—    11/24/2009      R           $2,650,000         $34.47                         $3,354,167
1/30/2009    Bankers’ Bank of the West Bancorp, Inc., Denver, CO2   Preferred Stock w/ Exercised Warrants         $12,639,000                                                                                                                                   $1,234,154
1/23/2009    BankFirst Capital Corporation, Macon, MS2,49           Preferred Stock w/ Exercised Warrants         $15,500,000   9/8/2011          $15,500,000              $­—    9/8/2011        R             $775,000                                        $2,217,469
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               235
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                     (CONTINUED)                                                                                                                                                                        236
                                                                                                                                Capital                                           Final                                            Stock        Current
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
2/13/2009    BankGreenville, Greenville, SC2                        Preferred Stock w/ Exercised Warrants          $1,000,000                                                                                                                                     $191,053
11/21/2008   Banner Corporation, Walla Walla, WA74                  Preferred Stock w/ Warrants                 $124,000,000    3/28/2012        $108,071,915              $­—                                                   $27.15        243,998         $20,873,747
2/6/2009     Banner County Ban Corporation, Harrisburg, NE2,49      Preferred Stock w/ Exercised Warrants           $795,000    7/28/2011            $795,000              $­—    7/28/2011       R              $40,000                                          $107,411
1/16/2009    Bar Harbor Bankshares, Bar Harbor, ME                  Preferred Stock w/ Warrants                   $18,751,000   2/24/2010         $18,751,000              $­—    7/28/2010       R             $250,000         $35.74                         $1,036,514
11/14/2008   BB&T Corp., Winston-Salem, NC                          Preferred Stock w/ Warrants                $3,133,640,000   6/17/2009       $3,133,640,000             $­—    7/22/2009       R          $67,010,402         $33.16                        $92,703,517
             BBCN Bancorp, Inc. (Center Financial Corporation),
12/12/2008                                                          Preferred Stock w/ Warrants                   $55,000,000   6/27/2012         $55,000,000              $­—                                                                                  $9,739,583
             Los Angeles, CA66
                                                                                                                                                                                                                                 $12.61
             BBCN Bancorp, Inc. (Nara Bancorp, Inc.),
11/21/2008                                                          Preferred Stock w/ Warrants                   $67,000,000   6/27/2012         $67,000,000              $­—    8/8/2012        R           $2,189,317                                       $12,060,000
             Los Angeles, CA66
4/3/2009     BCB Holding Company, Inc., Theodore, AL2               Preferred Stock w/ Exercised Warrants          $1,706,000                                                                                                                                     $173,508
12/23/2008   BCSB Bancorp, Inc., Baltimore, MD                      Preferred Stock w/ Warrants                   $10,800,000   1/26/2011         $10,800,000              $­—                                                   $13.70        183,465          $1,129,500
                                                                                                                                7/6/2011            $1,500,000      $4,500,000
                                                                                                                                10/19/2011          $1,500,000      $3,000,000
1/30/2009    Beach Business Bank, Manhattan Beach, CA2              Preferred Stock w/ Exercised Warrants          $6,000,000   3/7/2012            $1,500,000      $1,500,000    6/27/2012       R             $300,000           $9.18                          $963,317
                                                                                                                                6/6/2012            $1,200,000        $300,000
                                                                                                                                6/27/2012            $300,000              $­—
12/19/2008   Berkshire Hills Bancorp, Inc., Pittsfield, MA          Preferred Stock w/ Warrants                   $40,000,000   5/27/2009         $40,000,000              $­—    6/24/2009       R           $1,040,000         $22.88                           $877,778
2/13/2009    Bern Bancshares, Inc., Bern, KS2,49                    Preferred Stock w/ Exercised Warrants           $985,000    9/1/2011             $985,000              $­—    9/1/2011        R              $50,000           $8.23                          $137,063
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I October 25, 2012




             Birmingham Bloomfield Bancshares, Inc,
4/24/2009                                                           Preferred Stock w/ Exercised Warrants          $1,635,000   7/28/2011           $1,635,000             $­—    7/28/2011       R              $82,000
             Birmingham, MI2,49
                                                                                                                                                                                                                                   $4.55                          $342,023
             Birmingham Bloomfield Bancshares, Inc,
12/18/2009                                                          Preferred Stock                                $1,744,000   7/28/2011           $1,744,000             $­—    N/A                                 N/A
             Birmingham, MI2,10a,49
                                                                    Subordinated Debentures w/
6/19/2009    Biscayne Bancshares, Inc., Coconut Grove, FL8,10                                                      $6,400,000                                                                                                                                   $1,646,509
                                                                    Exercised Warrants
3/13/2009    Blackhawk Bancorp, Inc., Beloit, WI2                   Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                      $6.55                        $1,865,111
                                                                                                                                6/27/2012           $2,250,000      $2,750,000
5/22/2009    Blackridge Financial, Inc., Fargo, ND2                 Preferred Stock w/ Exercised Warrants          $5,000,000                                                     9/12/2012       R             $250,000                                          $877,326
                                                                                                                                9/12/2012           $2,750,000             $­—
                                                                2
3/6/2009     Blue Ridge Bancshares, Inc., Independence, MO          Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                   $1,923,850
3/6/2009     Blue River Bancshares, Inc., Shelbyville, IN2,71       Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                      $0.01                          $529,105
12/5/2008    Blue Valley Ban Corp, Overland Park, KS                Preferred Stock w/ Warrants                   $21,750,000                                                                                                      $4.00       111,083            $211,458
4/17/2009    BNB Financial Services Corporation, New York, NY2      Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                     $440,542
12/5/2008    BNC Bancorp, Thomasville, NC120                        Preferred Stock w/ Warrants                   $31,260,000   8/23/2012         $28,365,685              $­—    9/19/2012       R             $939,920           $8.31                        $5,835,061
2/27/2009    BNC Financial Group, Inc., New Canaan, CT2,49          Preferred Stock w/ Exercised Warrants          $4,797,000   8/4/2011            $4,797,000             $­—    8/4/2011        R             $240,000         $13.80                           $636,921
1/16/2009    BNCCORP, Inc., Bismarck, ND2                           Preferred Stock w/ Exercised Warrants         $20,093,000                                                                                                      $6.25                          $909,542
3/6/2009     BOH Holdings, Inc., Houston, TX2,49                    Preferred Stock w/ Exercised Warrants         $10,000,000   7/14/2011         $10,000,000              $­—    7/14/2011       R             $500,000                                        $1,283,777
                                                                    Subordinated Debentures w/ Exercised
5/15/2009    Boscobel Bancorp, Inc, Boscobel, WI8                                                                  $5,586,000                                                                                                                                     $468,624
                                                                    Warrants
                                                                                                                                1/13/2010         $50,000,000     $104,000,000
11/21/2008   Boston Private Financial Holdings, Inc., Boston, MA    Preferred Stock w/ Warrants                 $154,000,000                                                      2/1/2011        A           $6,202,523           $9.59                       $11,022,222
                                                                                                                                6/16/2010        $104,000,000              $­—
                                                                                                                                2/23/2011         $15,000,000       $8,864,000
12/23/2008   Bridge Capital Holdings, San Jose, CA                  Preferred Stock w/ Warrants                   $23,864,000                                                     4/20/2011       R           $1,395,000         $15.46                         $2,613,582
                                                                                                                                3/16/2011           $8,864,000             $­—
                                                       2
12/19/2008   Bridgeview Bancorp, Inc., Bridgeview, IL               Preferred Stock w/ Exercised Warrants         $38,000,000                                                                                                                                   $2,393,156
             Broadway Financial Corporation,
11/14/2008                                                          Preferred Stock                                $9,000,000
             Los Angeles, CA3a,72
                                                                                                                                                                                                                                   $2.35                          $810,417
             Broadway Financial Corporation,
12/4/2009                                                           Preferred Stock                                $6,000,000
             Los Angeles, CA3,10a,72
                                                                    Subordinated Debentures w/ Exercised
5/15/2009    Brogan Bankshares, Inc., Kaukauna, WI8                                                                $2,400,000                                                                                                                                     $402,720
                                                                    Warrants
7/17/2009    Brotherhood Bancshares, Inc., Kansas City, KS2,49      Preferred Stock w/ Exercised Warrants         $11,000,000   9/15/2011         $11,000,000              $­—    9/15/2011       R             $550,000                                        $1,295,586
4/24/2009    Business Bancshares, Inc., Clayton, MO2                Preferred Stock w/ Exercised Warrants         $15,000,000   5/23/2012           $6,000,000      $9,000,000                                                                                  $2,636,230
3/13/2009    Butler Point, Inc., Catlin, IL2                        Preferred Stock w/ Exercised Warrants           $607,000    11/2/2011            $607,000              $­—    11/2/2011       R              $30,000                                           $87,124
                                                                                                                                7/27/2011         $10,000,000      $10,000,000
1/9/2009     C&F Financial Corporation, West Point, VA              Preferred Stock w/ Warrants                   $20,000,000                                                                                                    $39.35        167,504          $2,902,778
                                                                                                                                4/11/2012         $10,000,000              $­—
                                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                     (CONTINUED)
                                                                                                                                Capital                                           Final                                            Stock        Current
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
12/23/2008   Cache Valley Banking Company , Logan, UT2,49           Preferred Stock w/ Exercised Warrants          $4,767,000   7/14/2011           $4,767,000             $­—    7/14/2011       R             $238,000
                                                                                                                                                                                                                                                                $1,029,334
12/18/2009   Cache Valley Banking Company, Logan, UT2,10a,49        Preferred Stock                                $4,640,000   7/14/2011           $4,640,000             $­—    N/A                                 N/A
1/9/2009     Cadence Financial Corporation, Starkville, MS33        Preferred Stock w/ Warrants                   $44,000,000   3/4/2011          $38,000,000              $­—    N/A                                 N/A                                       $3,984,063
2/27/2009    California Bank of Commerce, Lafayette, CA2,49         Preferred Stock w/ Exercised Warrants          $4,000,000   9/15/2011           $4,000,000             $­—    9/15/2011       R             $200,000                                          $555,900
1/23/2009    California Oaks State Bank, Thousand Oaks, CA2         Preferred Stock w/ Exercised Warrants          $3,300,000   12/8/2010           $3,300,000             $­—    12/8/2010       R             $165,000                                          $337,219
1/23/2009    Calvert Financial Corporation, Ashland, MO2            Preferred Stock w/ Exercised Warrants          $1,037,000                                                                                                                                     $201,310
1/23/2009    CalWest Bancorp, Rancho Santa Margarita, CA2           Preferred Stock w/ Exercised Warrants          $4,656,000                                                                                                      $0.45                          $396,164
12/23/2008   Capital Bancorp, Inc., Rockville, MD2                  Preferred Stock w/ Exercised Warrants          $4,700,000   12/30/2010          $4,700,000             $­—    12/30/2010      R             $235,000                                          $517,281
12/12/2008   Capital Bank Corporation, Raleigh, NC35                Preferred Stock w/ Warrants                   $41,279,000   1/28/2011         $41,279,000              $­—    N/A                                 N/A          $2.45       749,619          $3,973,104
4/10/2009    Capital Commerce Bancorp, Inc., Milwaukee, WI2         Preferred Stock w/ Exercised Warrants          $5,100,000                                                                                                                                     $304,973
11/14/2008   Capital One Financial Corporation, McLean, VA          Preferred Stock w/ Warrants                $3,555,199,000   6/17/2009       $3,555,199,000             $­—    12/3/2009       A        $146,500,065          $57.01                      $105,174,638
12/23/2008   Capital Pacific Bancorp, Portland, OR2                 Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                     $794,489

                                                         8,50       Subordinated Debentures w/
10/23/2009   Cardinal Bancorp II, Inc., Washington, MO                                                             $6,251,000   9/8/2011            $6,251,000             $­—    9/8/2011        R             $313,000                                          $983,480
                                                                    Exercised Warrants
1/9/2009     Carolina Bank Holdings, Inc., Greensboro, NC           Preferred Stock w/ Warrants                   $16,000,000                                                                                                      $6.62       357,675          $2,297,625
2/6/2009     Carolina Trust Bank, Lincolnton, NC                    Preferred Stock w/ Warrants                    $4,000,000                                                                                                      $2.73        86,957            $555,000
2/13/2009    Carrollton Bancorp, Baltimore, MD                      Preferred Stock w/ Warrants                    $9,201,000                                                                                                      $5.86       205,379            $922,656
1/16/2009    Carver Bancorp, Inc, New York, NY3,30,48               Preferred Stock                               $18,980,000   8/27/2010         $18,980,000              $­—    N/A                                 N/A          $3.74                        $1,531,581
11/21/2008   Cascade Financial Corporation, Everett, WA47           Preferred Stock w/ Warrants                   $38,970,000   6/30/2011         $16,250,000              $­—    N/A                                 N/A                                       $1,428,900
12/5/2008    Cathay General Bancorp, Los Angeles, CA                Preferred Stock w/ Warrants                 $258,000,000                                                                                                     $17.26      1,846,374         $47,658,333
2/27/2009    Catskill Hudson Bancorp, Inc, Rock Hill, NY2,49        Preferred Stock w/ Exercised Warrants          $3,000,000   7/21/2011           $3,000,000             $­—    7/21/2011       R             $150,000
                                                                                                                                                                                                                                 $17.00                           $685,071
12/22/2009   Catskill Hudson Bancorp, Inc, Rock Hill, NY2,10a,49    Preferred Stock w/ Exercised Warrants          $3,500,000   7/21/2011           $3,500,000             $­—    7/21/2011       R             $113,000
                                          2,63
5/29/2009    CB Holding Corp., Aledo, IL                            Preferred Stock w/ Exercised Warrants          $4,114,000                                                                                                                                     $271,580
2/20/2009    CBB Bancorp, Cartersville, GA2                         Preferred Stock w/ Exercised Warrants          $2,644,000
                                                                                                                                                                                                                                                                  $732,604
12/29/2009   CBB Bancorp, Cartersville, GA2,10a                     Preferred Stock                                $1,753,000
3/27/2009    CBS Banc-Corp., Russellville, AL2,108                  Preferred Stock w/ Exercised Warrants         $24,300,000   7/27/2012         $21,776,396              $­—    7/27/2012       P           $1,107,825                       523,076          $4,548,137
12/23/2008   Cecil Bancorp, Inc., Elkton, MD                        Preferred Stock w/ Warrants                   $11,560,000                                                                                                      $0.65       261,538            $516,989
2/6/2009     CedarStone Bank, Lebanon, TN2                          Preferred Stock w/ Exercised Warrants          $3,564,000                                                                                                                                     $684,626
1/9/2009     Center Bancorp, Inc., Union, NJ49                      Preferred Stock w/ Warrants                   $10,000,000   9/15/2011         $10,000,000              $­—    12/7/2011       R             $245,000         $11.92                         $1,341,667
5/1/2009     CenterBank, Milford, OH2                               Preferred Stock w/ Exercised Warrants          $2,250,000                                                                                                                                     $403,448
11/21/2008   Centerstate Banks of Florida Inc., Davenport, FL       Preferred Stock w/ Warrants                   $27,875,000   9/30/2009         $27,875,000              $­—    10/28/2009      R             $212,000                                        $1,196,303
1/16/2009    Centra Financial Holdings, Inc., Morgantown, WV2       Preferred Stock w/ Exercised Warrants         $15,000,000   3/31/2009         $15,000,000              $­—    4/15/2009       R             $750,000           $8.92                          $172,938
12/5/2008    Central Bancorp, Inc., Garland, TX50                   Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $­—    10/19/2011      R           $2,525,000                                        $2,411,625
2/27/2009    Central Bancorp, Inc., Somerville, MA2                 Preferred Stock w/ Exercised Warrants         $22,500,000                                                                                                    $32.40                         $1,361,111
1/30/2009    Central Bancshares, Inc., Houston, TX2                 Preferred Stock w/ Exercised Warrants          $5,800,000   7/6/2011            $5,800,000             $­—    7/6/2011        R             $290,000                                          $769,177
2/20/2009    Central Community Corporation, Temple, TX2             Preferred Stock w/ Exercised Warrants         $22,000,000                                                                                                                                   $4,179,847
12/5/2008    Central Federal Corporation, Fairlawn, OH130           Preferred Stock w/ Warrants                    $7,225,000   9/26/2012           $3,000,000             $­—    N/A                                 N/A                                         $612,118
12/23/2008   Central Jersey Bancorp, Oakhurst, NJ                   Preferred Stock w/ Warrants                   $11,300,000   11/24/2010        $11,300,000              $­—    12/1/2010       R             $319,659           $1.46                        $1,084,486
                                                                                                                                6/17/2011         $35,883,281      $99,116,719
1/9/2009     Central Pacific Financial Corp., Honolulu, HI37,46     Common Stock w/ Warrants                    $135,000,000                                                                                                     $14.30         79,288          $2,362,500
                                                                                                                                3/29/2012         $36,039,222              $­—
1/30/2009    Central Valley Community Bancorp, Fresno, CA50         Preferred Stock w/ Warrants                    $7,000,000   8/18/2011           $7,000,000             $­—    9/28/2011       R             $185,017           $8.13                          $892,500
1/30/2009    Central Virginia Bankshares, Inc., Powhatan, VA        Preferred Stock w/ Warrants                   $11,385,000                                                                                                      $0.75       263,542            $450,656
12/18/2009   Centric Financial Corporation, Harrisburg, PA2,10,49   Preferred Stock w/ Exercised Warrants          $6,056,000   7/14/2011           $6,056,000             $­—    7/14/2011       R             $182,000                                          $501,822
2/6/2009     Centrix Bank & Trust, Bedford, NH2,49                  Preferred Stock w/ Exercised Warrants          $7,500,000   7/28/2011           $7,500,000             $­—    7/28/2011       R             $375,000         $19.95                         $1,012,791
1/9/2009     Centrue Financial Corporation, St. Louis, MO           Preferred Stock w/ Warrants                   $32,668,000                                                                                                                  508,320            $571,690
             Century Financial Services Corporation,                Subordinated Debentures w/
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I October 25, 2012




6/19/2009                                                                                                         $10,000,000                                                                                                                                   $2,647,511
             Santa Fe, NM8                                          Exercised Warrants
                                                                    Subordinated Debentures w/
5/29/2009    Chambers Bancshares, Inc., Danville, AR8                                                             $19,817,000                                                                                                                                   $5,339,008
                                                                    Exercised Warrants
7/31/2009    Chicago Shore Corporation , Chicago, IL2               Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                                                   $1,160,396
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               237
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                         (CONTINUED)                                                                                                                                                                      238
                                                                                                                                  Capital                                           Final                                            Stock        Current
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                              Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
12/31/2008   CIT Group Inc., New York, NY16                           Contingent Value Rights                    $2,330,000,000   2/8/2010                  $­—              $­—    N/A                                 N/A        $39.39                        $43,687,500
10/28/2008   Citigroup Inc., New York, NY11,23                        Common Stock w/ Warrants                  $25,000,000,000   **             $25,000,000,000             $­—    1/25/2011       A          $54,621,849         $32.72                      $932,291,667
1/16/2009    Citizens & Northern Corporation, Wellsboro, PA           Preferred Stock w/ Warrants                   $26,440,000   8/4/2010          $26,440,000              $­—    9/1/2010        R             $400,000         $19.61                         $2,049,100
12/23/2008   Citizens Bancorp, Nevada City, CA2,61                    Preferred Stock w/ Exercised Warrants         $10,400,000                                                                                                      $0.01                          $223,571
5/29/2009    Citizens Bancshares Co., Chillicothe, MO2                Preferred Stock w/ Exercised Warrants         $24,990,000                                                                                                                                     $628,033
3/6/2009     Citizens Bancshares Corporation, Atlanta, GA3,30         Preferred Stock                                $7,462,000   8/13/2010           $7,462,000             $­—    N/A                                 N/A          $4.03                          $535,813
3/20/2009    Citizens Bank & Trust Company, Covington, LA2            Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                     $281,583
2/6/2009     Citizens Commerce Bancshares, Inc., Versailles, KY2      Preferred Stock w/ Exercised Warrants          $6,300,000                                                                                                                                     $180,259
12/23/2008   Citizens Community Bank, South Hill, VA2,49              Preferred Stock w/ Exercised Warrants          $3,000,000   7/28/2011           $3,000,000             $­—    7/28/2011       R             $150,000                                          $424,646
12/19/2008   Citizens First Corporation, Bowling Green, KY            Preferred Stock w/ Warrants                    $8,779,000   2/16/2011           $2,212,308      $6,566,692                                                     $8.15       254,218          $1,438,991
12/12/2008   Citizens Republic Bancorp, Inc., Flint, MI               Preferred Stock w/ Warrants                 $300,000,000                                                                                                     $19.35      1,757,813         $13,875,000
12/12/2008   Citizens South Banking Corporation, Gastonia, NC50       Preferred Stock w/ Warrants                   $20,500,000   9/22/2011         $20,500,000              $­—    11/9/2011       R             $225,157           $7.00                        $2,847,222
4/10/2009    City National Bancshares Corporation, Newark, NJ2,3      Preferred Stock                                $9,439,000                                                                                                                                     $281,859
                                                                                                                                  12/30/2009       $200,000,000     $200,000,000
11/21/2008   City National Corporation, Beverly Hills, CA             Preferred Stock w/ Warrants                 $400,000,000                                                      4/7/2010        R          $18,500,000         $51.51                        $23,916,667
                                                                                                                                  3/3/2010         $200,000,000              $­—
3/27/2009    Clover Community Bankshares, Inc., Clover, SC2           Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $563,644
             Coastal Banking Company, Inc.,
12/5/2008                                                             Preferred Stock w/ Warrants                    $9,950,000                                                                                                      $4.75       205,579            $967,361
                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I October 25, 2012




             Fernandina Beach, FL
             CoastalSouth Bancshares, Inc.,
8/28/2009                                                             Preferred Stock w/ Exercised Warrants         $16,015,000                                                                                                                                   $1,235,449
             Hilton Head Island, SC2,10
                                                 50
12/19/2008   CoBiz Financial Inc., Denver, CO                         Preferred Stock w/ Warrants                   $64,450,000   9/8/2011          $64,450,000              $­—    11/18/2011      P             $143,677           $7.00                        $8,763,410
1/9/2009     Codorus Valley Bancorp, Inc., York, PA49                 Preferred Stock w/ Warrants                   $16,500,000   8/18/2011         $16,500,000              $­—    9/28/2011       R             $526,604         $14.34                         $2,151,875
2/13/2009    ColoEast Bankshares, Inc., Lamar, CO2                    Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                                                   $1,229,278
3/27/2009    Colonial American Bank, West Conshohocken, PA2           Preferred Stock w/ Exercised Warrants           $574,000    10/26/2011           $574,000              $­—    10/26/2011      R              $29,000                                           $65,143
1/9/2009     Colony Bankcorp, Inc., Fitzgerald, GA                    Preferred Stock w/ Warrants                   $28,000,000                                                                                                      $3.68       500,000          $3,990,000
11/21/2008   Columbia Banking System, Inc., Tacoma, WA                Preferred Stock w/ Warrants                   $76,898,000   8/11/2010         $76,898,000              $­—    9/1/2010        R           $3,301,647         $18.54                         $6,621,772
2/27/2009    Columbine Capital Corp., Buena Vista, CO2,49             Preferred Stock w/ Exercised Warrants          $2,260,000   9/22/2011           $2,260,000             $­—    9/22/2011       R             $113,000                                          $316,479
11/14/2008   Comerica Inc., Dallas, TX                                Preferred Stock w/ Warrants                $2,250,000,000   3/17/2010       $2,250,000,000             $­—    5/6/2010        A        $181,102,043          $31.05                      $150,937,500
1/9/2009     Commerce National Bank, Newport Beach, CA                Preferred Stock w/ Warrants                    $5,000,000   10/7/2009           $5,000,000             $­—                                                     $9.75        87,209             $36,111

                                                              8,110   Subordinated Debentures w/
5/22/2009    Commonwealth Bancshares, Inc., Louisville, KY                                                          $20,400,000   7/27/2012         $15,147,000              $­—    7/27/2012       P             $898,722                                        $5,529,295
                                                                      Exercised Warrants
1/23/2009    Commonwealth Business Bank, Los Angeles, CA2             Preferred Stock w/ Exercised Warrants          $7,701,000                                                                                                    $11.00                           $445,348
1/16/2009    Community 1st Bank, Roseville, CA2                       Preferred Stock w/ Exercised Warrants          $2,550,000                                                                                                                                     $173,775
3/6/2009     Community Bancshares of Kansas, Inc., Goff, KS2          Preferred Stock w/ Exercised Warrants           $500,000    7/18/2012            $500,000              $­—    7/18/2012       R              $25,000                                           $91,742
             Community Bancshares of Mississippi, Inc.,
9/11/2009                                                             Preferred Stock w/ Exercised Warrants         $52,000,000   9/29/2010         $52,000,000              $­—    9/29/2010       R           $2,600,000                                        $2,975,700
             Brandon, MS2,30
             Community Bancshares of Mississippi, Inc.2,101
2/6/2009                                                              Preferred Stock w/ Exercised Warrants          $1,050,000                                                                                                                                     $200,926
             (Community Holding Company of Florida, Inc.)
7/24/2009    Community Bancshares, Inc., Kingman, AZ2,10              Preferred Stock w/ Exercised Warrants          $3,872,000                                                                                                                                     $624,022
1/16/2009    Community Bank of the Bay, Oakland, CA3,30               Preferred Stock                                $1,747,000   9/29/2010           $1,747,000             $­—    N/A                                 N/A                                          $76,189
             Community Bank Shares of Indiana, Inc.,
5/29/2009                                                             Preferred Stock w/ Warrants                   $19,468,000   9/15/2011         $19,468,000              $­—    10/19/2011      R           $1,100,870         $13.00                         $2,233,412
             New Albany, IN49
             Community Bankers Trust Corporation,
12/19/2008                                                            Preferred Stock w/ Warrants                   $17,680,000                                                                                                      $2.80       780,000          $3,323,458
             Glen Allen, VA
2/27/2009    Community Business Bank, West Sacramento, CA2            Preferred Stock w/ Exercised Warrants          $3,976,000                                                                                                      $6.30                          $751,261
12/19/2008   Community Financial Corporation, Staunton, VA            Preferred Stock w/ Warrants                   $12,643,000                                                                                                      $5.99       351,194          $2,310,860
5/15/2009    Community Financial Shares, Inc., Glen Ellyn, IL2        Preferred Stock w/ Exercised Warrants          $6,970,000                                                                                                      $1.25                          $569,865
3/20/2009    Community First Bancshares Inc., Union City, TN2,49      Preferred Stock w/ Exercised Warrants         $20,000,000   8/18/2011         $20,000,000              $­—    8/18/2011       R           $1,000,000                                        $2,628,111
4/3/2009     Community First Bancshares, Inc., Harrison, AR2          Preferred Stock w/ Exercised Warrants         $12,725,000                                                                                                                                   $2,334,750
2/27/2009    Community First Inc., Columbia, TN2                      Preferred Stock w/ Exercised Warrants         $17,806,000                                                                                                                                   $1,908,453
12/23/2008   Community Investors Bancorp, Inc., Bucyrus, OH2          Preferred Stock w/ Exercised Warrants          $2,600,000                                                                                                                                     $516,418
1/30/2009    Community Partners Bancorp, Middletown, NJ49             Preferred Stock w/ Warrants                    $9,000,000   8/11/2011           $9,000,000             $­—    10/26/2011      R             $460,000           $5.80                        $1,138,750
                                                                                                                                                                                                                                                        Continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                      (CONTINUED)
                                                                                                                                 Capital                                           Final                                            Stock        Current
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
             Community Pride Bank Corporation,                       Subordinated Debentures w/
11/13/2009                                                                                                          $4,400,000                                                                                                                                     $448,253
             Ham Lake, MN8,10                                        Exercised Warrants
1/9/2009     Community Trust Financial Corporation, Ruston, LA2,49   Preferred Stock w/ Exercised Warrants         $24,000,000   7/6/2011          $24,000,000              $­—    7/6/2011        R           $1,200,000                                        $3,259,100
12/19/2008   Community West Bancshares, Goleta, CA                   Preferred Stock w/ Warrants                   $15,600,000                                                                                                      $2.68       521,158          $2,461,333
1/9/2009     Congaree Bancshares, Inc., Cayce, SC2                   Preferred Stock w/ Exercised Warrants          $3,285,000                                                                                                      $2.05                          $653,481
2/13/2009    Corning Savings and Loan Association, Corning, AR2      Preferred Stock w/ Exercised Warrants           $638,000                                                                                                                                      $121,923
1/30/2009    Country Bank Shares, Inc., Milford, NE2                 Preferred Stock w/ Exercised Warrants          $7,525,000                                                                                                                                   $1,452,403
6/5/2009     Covenant Financial Corporation, Clarksdale, MS2         Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                                     $879,114
2/20/2009    Crazy Woman Creek Bancorp, Inc., Buffalo, WY2           Preferred Stock w/ Exercised Warrants          $3,100,000                                                                                                      $7.51                          $588,978
             Crescent Financial Bancshares, Inc.
1/9/2009                                                             Preferred Stock w/ Warrants                   $24,900,000                                                                                                      $4.55                        $4,541,341
             (Crescent Financial Corporation), Cary, NC65
1/23/2009    Crosstown Holding Company, Blaine, MN2                  Preferred Stock w/ Exercised Warrants         $10,650,000                                                                                                                                   $2,067,119
3/27/2009    CSRA Bank Corp., Wrens, GA2                             Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                     $180,940
             Customers Bancorp, Inc. (Berkshire Bancorp, Inc.),
6/12/2009                                                            Preferred Stock w/ Exercised Warrants          $2,892,000   12/28/2011          $2,892,000             $­—    12/28/2011      R             $145,000                                          $407,478
             Phoenixville, PA2,60
                                                                                                                                 8/26/2009         $97,500,000      $32,500,000
12/5/2008    CVB Financial Corp, Ontario, CA                         Preferred Stock w/ Warrants                 $130,000,000                                                      10/28/2009      R           $1,307,000         $11.94                         $4,739,583
                                                                                                                                 9/2/2009          $32,500,000              $­—
2/27/2009    D.L. Evans Bancorp, Burley, ID2,49                      Preferred Stock w/ Exercised Warrants         $19,891,000   9/27/2011         $19,891,000              $­—    9/27/2011       R             $995,000                                        $2,800,592

                                                             8,49    Subordinated Debentures w/
5/15/2009    Deerfield Financial Corporation, Deerfield, WI                                                         $2,639,000   9/8/2011            $2,639,000             $­—    9/8/2011        R             $132,000                                          $512,339
                                                                     Exercised Warrants
12/4/2009    Delmar Bancorp, Delmar, MD2                             Preferred Stock w/ Exercised Warrants          $9,000,000                                                                                                                                     $832,488
2/13/2009    DeSoto County Bank, Horn Lake, MS2                      Preferred Stock w/ Exercised Warrants          $1,173,000
                                                                                                                                                                                                                                                                   $422,349
12/29/2009   DeSoto County Bank, Horn Lake, MS2,10a                  Preferred Stock                                $1,508,000
                                                                     Subordinated Debentures w/
5/22/2009    Diamond Bancorp, Inc., Washington, MO8,111                                                            $20,445,000   7/27/2012         $14,780,662              $­—    7/27/2012       P             $779,576                                        $5,541,380
                                                                     Exercised Warrants

1/16/2009    Dickinson Financial Corporation II, Kansas City, MO2    Preferred Stock w/ Exercised Warrants       $146,053,000                                                                                                                                    $2,631,197

3/13/2009    Discover Financial Services , Riverwoods, IL            Preferred Stock w/ Warrants                $1,224,558,000   4/21/2010       $1,224,558,000             $­—    7/7/2010        R        $172,000,000          $39.73                        $67,690,844
1/30/2009    DNB Financial Corporation, Downingtown, PA49            Preferred Stock w/ Warrants                   $11,750,000   8/4/2011          $11,750,000              $­—    9/21/2011       R             $458,000         $15.90                         $1,475,278
                                                                     Subordinated Debentures w/
6/19/2009    Duke Financial Group, Inc., Minneapolis, MN8                                                          $12,000,000                                                                                                                                   $3,327,873
                                                                     Exercised Warrants
                                                                                                                                 12/23/2009        $15,000,000      $23,235,000
12/5/2008    Eagle Bancorp, Inc., Bethesda, MD49                     Preferred Stock w/ Warrants                   $38,235,000                                                     11/18/2011      P           $2,794,422         $16.72                         $3,817,732
                                                                                                                                 7/14/2011         $23,235,000              $­—
12/5/2008    East West Bancorp, Pasadena, CA                         Preferred Stock w/ Warrants                 $306,546,000    12/29/2010       $306,546,000              $­—    1/26/2011       R          $14,500,000         $21.12                        $31,676,420
1/9/2009     Eastern Virginia Bankshares, Inc., Tappahannock, VA     Preferred Stock w/ Warrants                   $24,000,000                                                                                                      $4.75       373,832          $2,220,000
1/16/2009    ECB Bancorp, Inc., Engelhard, NC                        Preferred Stock w/ Warrants                   $17,949,000                                                                                                    $15.50        144,984          $3,213,370
12/23/2008   Emclaire Financial Corp., Emlenton, PA49                Preferred Stock w/ Warrants                    $7,500,000   8/18/2011           $7,500,000             $­—    12/7/2011       R              $51,113         $23.90                           $994,792
12/5/2008    Encore Bancshares Inc., Houston, TX50                   Preferred Stock w/ Warrants                   $34,000,000   9/27/2011         $34,000,000              $­—    11/18/2011      P             $637,071         $20.63                         $4,778,889
12/19/2008   Enterprise Financial Services Corp., St. Louis, MO      Preferred Stock w/ Warrants                   $35,000,000                                                                                                    $13.60        324,074          $6,397,222
             Enterprise Financial Services Group, Inc.,
6/12/2009                                                            Preferred Stock w/ Exercised Warrants          $4,000,000   8/25/2011           $4,000,000             $­—    8/25/2011       R             $200,000                                          $480,206
             Allison Park, PA2,49
1/30/2009    Equity Bancshares, Inc., Wichita, KS2,49                Preferred Stock w/ Exercised Warrants          $8,750,000   8/11/2011           $8,750,000             $­—    8/11/2011       R             $438,000                                        $1,206,873
12/19/2008   Exchange Bank, Santa Rosa, CA2,103                      Preferred Stock w/ Exercised Warrants         $43,000,000   7/27/2012         $37,259,393              $­—    7/27/2012       P           $2,054,215                                        $7,980,919

                                               8                     Subordinated Debentures w/
5/22/2009    F & C Bancorp, Inc., Holden, MO                                                                        $2,993,000                                                                                                                                     $811,390
                                                                     Exercised Warrants
1/30/2009    F & M Bancshares, Inc., Trezevant, TN2                  Preferred Stock w/ Exercised Warrants          $4,609,000
                                                                                                                                                                                                                                                                 $1,379,971
11/6/2009    F & M Bancshares, Inc., Trezevant, TN2,10a              Preferred Stock                                $3,535,000
                                                          2,126
2/6/2009     F & M Financial Corporation, Salisbury, NC              Preferred Stock w/ Exercised Warrants         $17,000,000   9/12/2012         $15,988,500              $­—    9/12/2012       P             $775,274                                        $3,355,971
2/13/2009    F&M Financial Corporation, Clarksville, TN2,127         Preferred Stock w/ Exercised Warrants         $17,243,000   9/12/2012         $13,443,074              $­—    9/12/2012       P             $742,441                                        $3,388,249
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I October 25, 2012




1/9/2009     F.N.B. Corporation, Hermitage, PA                       Preferred Stock w/ Warrants                 $100,000,000    9/9/2009         $100,000,000              $­—    11/18/2011      P             $690,100         $11.21        819,640          $3,333,333
             F.N.B. Corporation (Parkvale Financial
12/23/2008                                                           Preferred Stock w/ Warrants                   $31,762,000   1/3/2012          $31,762,000              $­—                                                                                  $4,808,414
             Corporation), Monroeville, PA67
3/6/2009     Farmers & Merchants Bancshares, Inc., Houston, TX2      Preferred Stock w/ Exercised Warrants         $11,000,000                                                                                                                                   $1,913,405
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                239
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                      (CONTINUED)                                                                                                                                                                        240
                                                                                                                                 Capital                                           Final                                            Stock        Current
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
             Farmers & Merchants Financial Corporation,
3/20/2009                                                            Preferred Stock w/ Exercised Warrants           $442,000                                                                                                                                       $81,939
             Argonia, KS2
1/23/2009    Farmers Bank , Windsor, VA2                             Preferred Stock w/ Exercised Warrants          $8,752,000                                                                                                                                   $1,698,721
1/9/2009     Farmers Capital Bank Corporation, Frankfort, KY87       Preferred Stock w/ Warrants                   $30,000,000   6/13/2012         $21,594,229              $­—    7/18/2012       R              $75,000         $10.50                         $5,166,600

                                                                 8   Subordinated Debentures w/
6/19/2009    Farmers Enterprises, Inc., Great Bend, KS                                                             $12,000,000                                                                                                                                   $3,177,016
                                                                     Exercised Warrants
3/20/2009    Farmers State Bankshares, Inc., Holton, KS2, 50         Preferred Stock w/ Exercised Warrants           $700,000    7/21/2011            $700,000              $­—    7/21/2011       R              $40,000                                           $90,174
                                                                     Subordinated Debentures w/
12/29/2009   FBHC Holding Company, Boulder, CO8,10,38                                                               $3,035,000   3/9/2011             $650,000              $­—    N/A                                 N/A                                         $154,592
                                                                     Exercised Warrants
6/26/2009    FC Holdings, Inc., Houston, TX2                         Preferred Stock w/ Exercised Warrants         $21,042,000                                                                                                                                     $156,090
12/19/2008   FCB Bancorp, Inc., Louisville, KY2,50                   Preferred Stock w/ Exercised Warrants          $9,294,000   9/22/2011           $9,294,000             $­—    9/22/2011       R             $465,000                                        $1,397,234
12/19/2008   FFW Corporation, Wabash, IN2                            Preferred Stock w/ Exercised Warrants          $7,289,000                                                                                                                                   $1,452,024

                                                        8            Subordinated Debentures w/
5/29/2009    Fidelity Bancorp, Inc, Baton Rouge, LA                                                                 $3,942,000                                                                                                                                   $1,061,980
                                                                     Exercised Warrants
12/12/2008   Fidelity Bancorp, Inc., Pittsburgh, PA                  Preferred Stock w/ Warrants                    $7,000,000                                                                                                    $21.50        121,387          $1,286,250
11/13/2009   Fidelity Federal Bancorp, Evansville, IN2,10            Preferred Stock w/ Exercised Warrants          $6,657,000                                                                                                                                           $­—
12/19/2008   Fidelity Financial Corporation, Wichita, KS2,104        Preferred Stock w/ Exercised Warrants         $36,282,000   7/27/2012         $32,013,328              $­—    7/27/2012       P           $1,725,103                                        $7,228,349
12/19/2008   Fidelity Southern Corporation, Atlanta, GA92            Preferred Stock w/ Warrants                   $48,200,000   6/27/2012         $42,757,786              $­—                                                     $9.46     2,462,439          $8,528,883
12/31/2008   Fifth Third Bancorp, Cincinnati, OH                     Preferred Stock w/ Warrants                $3,408,000,000   2/2/2011        $3,408,000,000             $­—    3/16/2011       R        $280,025,936          $15.51                      $355,946,667
                                                                                                                                                                                                                                                                                Appendix D I Transaction Detail I October 25, 2012




                                                                                                                                 2/23/2011         $12,505,000      $25,010,000
12/23/2008   Financial Institutions, Inc., Warsaw, NY                Preferred Stock w/ Warrants                   $37,515,000                                                     5/11/2011       R           $2,079,963         $18.64                         $4,192,649
                                                                                                                                 3/30/2011         $25,010,000              $­—
2/13/2009    Financial Security Corporation, Basin, WY2,50           Preferred Stock w/ Exercised Warrants          $5,000,000   7/21/2011           $5,000,000             $­—    7/21/2011       R             $250,000                                          $664,597
                                                                     Subordinated Debentures w/
7/31/2009    Financial Services of Winger, Inc., Winger, MN8,10,49                                                  $3,742,000   9/1/2011            $3,742,000             $­—    9/1/2011        R             $112,000                                          $633,322
                                                                     Exercised Warrants
5/22/2009    First Advantage Bancshares Inc., Coon Rapids, MN2       Preferred Stock w/ Exercised Warrants          $1,177,000                                                                                                                                     $207,272
6/26/2009    First Alliance Bancshares, Inc., Cordova, TN2           Preferred Stock w/ Exercised Warrants          $3,422,000                                                                                                                                     $538,231
             First American Bank Corporation,                        Subordinated Debentures w/
7/24/2009                                                                                                          $50,000,000   12/21/2011        $15,000,000      $35,000,000                                                                                 $12,078,975
             Elk Grove Village, IL8                                  Exercised Warrants
3/13/2009    First American International Corp., Brooklyn, NY3,30    Preferred Stock                               $17,000,000   8/13/2010         $17,000,000              $­—    N/A                                 N/A                                       $1,204,167
1/9/2009     First BanCorp, San Juan, PR50                           Preferred Stock w/ Warrants                   $65,000,000   9/1/2011          $65,000,000              $­—    11/18/2011      P             $924,462         $17.55        389,484         $32,999,386
1/16/2009    First Bancorp, Troy, NC28                               Common Stock w/ Warrants                    $424,174,000                                                                                                     $11.53        616,308          $8,594,444
2/20/2009    First BancTrust Corporation, Paris, IL2                 Preferred Stock w/ Exercised Warrants          $7,350,000   1/18/2012           $3,675,000      $3,675,000                                                   $11.01                         $1,290,950
2/6/2009     First Bank of Charleston, Inc., Charleston, WV2,50      Preferred Stock w/ Exercised Warrants          $3,345,000   7/21/2011           $3,345,000             $­—    7/21/2011       R             $167,000                                          $448,105
1/16/2009    First Bankers Trustshares, Inc., Quincy, IL2,50         Preferred Stock w/ Exercised Warrants         $10,000,000   9/8/2011          $10,000,000              $­—    9/8/2011        R             $500,000         $25.25                         $1,441,222
12/31/2008   First Banks, Inc., Clayton, MO2                         Preferred Stock w/ Exercised Warrants       $295,400,000                                                                                                                                    $6,037,238
3/6/2009     First Busey Corporation, Urbana, IL50                   Preferred Stock w/ Warrants                 $100,000,000    8/25/2011        $100,000,000              $­—    11/18/2011      P              $63,677           $4.88                       $12,347,222
4/10/2009    First Business Bank, N.A., San Diego, CA2               Preferred Stock w/ Exercised Warrants          $2,211,000
                                                                                                                                                                                                                                                                   $675,536
12/11/2009   First Business Bank, N.A., San Diego, CA2,10a           Preferred Stock                                $2,032,000
             First California Financial Group, Inc,
12/19/2008                                                           Preferred Stock w/ Warrants                   $25,000,000   7/14/2011         $25,000,000              $­—    8/24/2011       R             $599,042           $6.96                        $3,211,806
             Westlake Village, CA50
4/3/2009     First Capital Bancorp, Inc., Glen Allen, VA90           Preferred Stock w/ Warrants                   $10,958,000   6/13/2012           $9,931,327             $­—                                                     $2.50       250,947          $1,759,344
2/13/2009    First Choice Bank, Cerritos, CA2, 30                    Preferred Stock w/ Exercised Warrants          $2,200,000   9/24/2010           $2,200,000             $­—    9/24/2010       R             $110,000
                                                                                                                                                                                                                                                                   $300,643
12/22/2009   First Choice Bank, Cerritos, CA2,10a,30                 Preferred Stock                                $2,836,000   9/24/2010           $2,836,000             $­—    N/A                                 N/A
                                                            94
1/23/2009    First Citizens Banc Corp, Sandusky, OH                  Preferred Stock w/ Warrants                   $23,184,000   6/27/2012         $20,689,633              $­—    9/5/2012        R             $563,174           $8.15                        $3,992,877
3/20/2009    First Colebrook Bancorp, Inc., Colebrook, NH2,49        Preferred Stock w/ Exercised Warrants          $4,500,000   9/22/2011           $4,500,000             $­—    9/22/2011       R             $225,000                                          $614,488
11/21/2008   First Community Bancshares Inc., Bluefield, VA          Preferred Stock w/ Warrants                   $41,500,000   7/8/2009          $41,500,000              $­—    11/18/2011      P              $30,600         $15.26                         $1,308,403
5/15/2009    First Community Bancshares, Inc, Overland Park, KS2     Preferred Stock w/ Exercised Warrants         $14,800,000                                                                                                                                     $604,950
             First Community Bank Corporation of America,
12/23/2008                                                           Preferred Stock w/ Warrants                   $10,685,000   5/31/2011           $7,754,267             $­—    N/A                                 N/A                                         $744,982
             Pinellas Park, FL39
11/21/2008   First Community Corporation, Lexington, SC              Preferred Stock w/ Warrants                   $11,350,000   8/23/2012         $10,987,794              $­—                                                     $8.43       195,915          $2,140,686
             First Community Financial Partners, Inc.,
12/11/2009                                                           Preferred Stock w/ Exercised Warrants         $22,000,000   9/12/2012         $14,211,450              $­—    7/27/2012       P             $720,374                                        $3,320,656
             Joliet, IL2,113,129
12/5/2008    First Defiance Financial Corp., Defiance, OH89          Preferred Stock w/ Warrants                   $37,000,000   6/13/2012         $35,084,144              $­—                                                   $17.26        550,595          $6,546,862
                                                                                                                                                                                                                                                       Continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                         (CONTINUED)
                                                                                                                                   Capital                                           Final                                            Stock        Current
Purchase                                                                                                                           Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                               Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
                                                                       Subordinated Debentures w/
9/11/2009    First Eagle Bancshares, Inc., Hanover Park, IL8,30                                                       $7,500,000   9/17/2010           $7,500,000             $­—    9/17/2010       R             $375,000                                          $639,738
                                                                       Exercised Warrants
2/6/2009     First Express of Nebraska, Inc., Gering, NE2              Preferred Stock w/ Exercised Warrants          $5,000,000   2/15/2012           $5,000,000             $­—    2/15/2012       R             $250,000                                          $824,313
             First Federal Bancshares of Arkansas, Inc.,
3/6/2009                                                               Preferred Stock w/ Warrants                   $16,500,000   5/3/2011            $6,000,000             $­—    N/A                                 N/A          $9.77                          $570,625
             Harrison, AR42
12/23/2008   First Financial Bancorp, Cincinnati, OH                   Preferred Stock w/ Warrants                   $80,000,000   2/24/2010         $80,000,000              $­—    6/2/2010        A           $2,966,288         $16.91                         $4,677,778
                                                                       Subordinated Debentures w/
6/12/2009    First Financial Bancshares, Inc., Lawrence, KS8,10,49                                                    $3,756,000   9/22/2011           $3,756,000             $­—    9/22/2011       R             $113,000                                          $694,280
                                                                       Exercised Warrants
12/5/2008    First Financial Holdings Inc., Charleston, SC75           Preferred Stock w/ Warrants                   $65,000,000   3/28/2012         $55,926,478              $­—                                                   $12.99        241,696         $10,815,494
             First Financial Service Corporation,
1/9/2009                                                               Preferred Stock w/ Warrants                   $20,000,000                                                                                                      $3.00       215,983          $1,600,000
             Elizabethtown, KY
                                                                2,10
12/22/2009   First Freedom Bancshares, Inc., Lebanon, TN               Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                                   $1,213,725
2/27/2009    First Gothenburg Bancshares, Inc., Gothenburg, NE2        Preferred Stock w/ Exercised Warrants          $7,570,000                                                                                                                                   $1,430,626
8/28/2009    First Guaranty Bancshares, Inc., Hammond, LA2,49          Preferred Stock w/ Exercised Warrants         $20,699,000   9/22/2011         $20,699,000              $­—    9/22/2011       R           $1,030,000                                        $2,330,477
11/14/2008   First Horizon National Corporation, Memphis, TN           Preferred Stock w/ Warrants                 $866,540,000    12/22/2010       $866,540,000              $­—    3/9/2011        R          $79,700,000           $9.63                       $91,227,406
8/28/2009    First Independence Corporation, Detroit, MI2,3            Preferred Stock                                $3,223,000                                                                                                                                     $477,631
3/13/2009    First Intercontinental Bank, Doraville, GA2               Preferred Stock w/ Exercised Warrants          $6,398,000                                                                                                                                     $757,454
12/12/2008   First Litchfield Financial Corporation, Litchfield, CT    Preferred Stock w/ Warrants                   $10,000,000   4/7/2010          $10,000,000              $­—    4/7/2010        R           $1,488,046                                          $659,722
2/27/2009    First M&F Corporation, Kosciusko, MS30                    Preferred Stock w/ Warrants                   $30,000,000   9/29/2010         $30,000,000              $­—                                                     $7.42       513,113          $2,383,333
1/16/2009    First Manitowoc Bancorp, Inc., Manitowoc, WI2             Preferred Stock w/ Exercised Warrants         $12,000,000   5/27/2009         $12,000,000              $­—    5/27/2009       R             $600,000         $15.50                           $237,983
2/13/2009    First Menasha Bancshares, Inc., Neenah, WI2,49            Preferred Stock w/ Exercised Warrants          $4,797,000   9/15/2011           $4,797,000             $­—    9/15/2011       R             $240,000                                          $676,865
                                                                       Preferred Stock w/ Warrants                   $69,600,000   9/22/2011         $69,600,000              $­—                                                                                 $12,167,111
                                                         27,49,50
2/20/2009    First Merchants Corporation, Muncie, IN                                                                                                                                 11/18/2011      P             $367,500         $15.01
                                                                       Trust Preferred Securities                    $46,400,000   9/22/2011         $46,400,000              $­—                                                                                  $2,848,444
12/5/2008    First Midwest Bancorp, Inc., Itasca, IL                   Preferred Stock w/ Warrants                 $193,000,000    11/23/2011       $193,000,000              $­—    12/21/2011      R             $900,000         $12.56                        $28,628,333
3/13/2009    First National Corporation, Strasburg, VA2,123            Preferred Stock w/ Exercised Warrants         $13,900,000   8/23/2012         $12,082,749              $­—    8/23/2012       P             $624,675                                        $2,621,903
             First NBC Bank Holding Company,
3/20/2009                                                              Preferred Stock w/ Exercised Warrants         $17,836,000   8/4/2011          $17,836,000              $­—    8/4/2011        R             $892,000                                        $2,305,990
             New Orleans, LA2,49
11/21/2008   First Niagara Financial Group, Lockport, NY               Preferred Stock w/ Warrants                 $184,011,000    5/27/2009        $184,011,000              $­—    6/24/2009       R           $2,700,000           $8.07                        $4,753,618
3/13/2009    First Northern Community Bancorp, Dixon, CA49             Preferred Stock w/ Warrants                   $17,390,000   9/15/2011         $17,390,000              $­—    11/16/2011      R             $375,000           $5.37                        $2,178,580
11/21/2008   First PacTrust Bancorp, Inc., Chula Vista, CA             Preferred Stock w/ Warrants                   $19,300,000   12/15/2010        $19,300,000              $­—    1/5/2011        R           $1,003,227         $12.51      3,670,822          $1,994,333
3/13/2009    First Place Financial Corp., Warren, OH                   Preferred Stock w/ Warrants                   $72,927,000                                                                                                      $0.71                        $7,009,095
2/20/2009    First Priority Financial Corp., Malvern, PA2              Preferred Stock w/ Exercised Warrants          $4,579,000
                                                                                                                                                                                                                                                                   $1,480,879
12/18/2009   First Priority Financial Corp., Malvern, PA2,10a          Preferred Stock                                $4,596,000
3/6/2009     First Reliance Bancshares, Inc., Florence, SC2            Preferred Stock w/ Exercised Warrants         $15,349,000                                                                                                      $2.50                        $2,042,406
1/30/2009    First Resource Bank, Exton, PA2,50                        Preferred Stock w/ Exercised Warrants          $2,600,000   9/15/2011           $2,600,000             $­—    9/15/2011       R             $130,000
                                                                                                                                                                                                                                                                     $584,794
12/11/2009   First Resource Bank, Exton, PA2,10a,49                    Preferred Stock                                $2,417,000   9/15/2011           $2,417,000             $­—    N/A                                 N/A
1/9/2009     First Security Group, Inc., Chattanooga, TN               Preferred Stock w/ Warrants                   $33,000,000                                                                                                      $2.25       823,627          $1,402,500
12/23/2008   First Sound Bank, Seattle, WA                             Preferred Stock w/ Warrants                    $7,400,000                                                                                                      $0.16       114,080            $330,944
                                                                       Subordinated Debentures w/
7/17/2009    First South Bancorp, Inc., Lexington, TN8                                                               $50,000,000   9/28/2011         $13,125,000      $36,875,000                                                                                 $12,021,366
                                                                       Exercised Warrants
1/30/2009    First Southern Bancorp, Inc., Boca Raton, FL2             Preferred Stock w/ Exercised Warrants         $10,900,000   6/16/2010         $10,900,000              $­—    6/16/2010       R             $545,000                                          $818,468
3/6/2009     First Southwest Bancorporation, Inc., Alamosa, CO2        Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                                     $207,327
2/27/2009    First State Bank of Mobeetie, Mobeetie, TX2               Preferred Stock w/ Exercised Warrants           $731,000    4/14/2010            $731,000              $­—    4/14/2010       R              $37,000                                           $45,087
3/6/2009     First Texas BHC, Inc., Fort Worth, TX2,49                 Preferred Stock w/ Exercised Warrants         $13,533,000   9/15/2011         $13,533,000              $­—    9/15/2011       R             $677,000                                        $1,862,389
                                                                       Subordinated Debentures w/
6/5/2009     First Trust Corporation, New Orleans, LA8                                                               $17,969,000                                                                                                                                   $1,046,896
                                                                       Exercised Warrants
1/23/2009    First ULB Corp., Oakland, CA2                             Preferred Stock w/ Exercised Warrants          $4,900,000   4/22/2009           $4,900,000             $­—    4/22/2009       R             $245,000                                           $66,021
1/30/2009    First United Corporation, Oakland, MD                     Preferred Stock w/ Warrants                   $30,000,000                                                                                                      $6.30       326,323          $2,312,500
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I October 25, 2012




6/12/2009    First Vernon Bancshares, Inc., Vernon, AL2,10,30          Preferred Stock w/ Exercised Warrants          $6,000,000   9/29/2010           $6,000,000             $­—    9/29/2010       R             $245,000                                          $417,770
2/6/2009     First Western Financial, Inc., Denver, CO2,105            Preferred Stock w/ Exercised Warrants          $8,559,000                                                     7/27/2012       P             $351,052
                                                                                                                                                                                                                                                                   $3,235,040
12/11/2009   First Western Financial, Inc., Denver, CO2,10a,114        Preferred Stock                               $11,881,000   7/27/2012           $6,138,000      $3,881,000    N/A                                 N/A
                                               97
1/30/2009    Firstbank Corporation, Alma, MI                           Preferred Stock w/ Warrants                   $33,000,000   6/27/2012         $30,587,530              $­—    7/18/2012       R           $1,946,670         $10.01                         $5,651,360
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  241
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                     (CONTINUED)                                                                                                                                                                      242
                                                                                                                              Capital                                           Final                                            Stock        Current
Purchase                                                                                                                      Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                          Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
1/9/2009     FirstMerit Corporation, Akron, OH                    Preferred Stock w/ Warrants                 $125,000,000    4/22/2009        $125,000,000              $­—    5/27/2009       R           $5,025,000         $14.71                         $1,788,194
1/30/2009    Flagstar Bancorp, Inc., Troy, MI                     Preferred Stock w/ Warrants                 $266,657,000                                                                                                       $1.10     6,451,379         $37,220,872
7/24/2009    Florida Bank Group, Inc., Tampa, FL2                 Preferred Stock w/ Exercised Warrants         $20,471,000                                                                                                                                   $1,180,793
2/20/2009    Florida Business BancGroup, Inc., Tampa, FL2,49      Preferred Stock w/ Exercised Warrants          $9,495,000   9/22/2011           $9,495,000             $­—    9/22/2011       R             $475,000                                        $1,339,751
12/19/2008   Flushing Financial Corporation, Lake Success, NY     Preferred Stock w/ Warrants                   $70,000,000   10/28/2009        $70,000,000              $­—    12/30/2009      R             $900,000         $15.80                         $3,004,167
2/27/2009    FNB Bancorp, South San Francisco, CA2,50             Preferred Stock w/ Exercised Warrants         $12,000,000   9/15/2011         $12,000,000              $­—    9/15/2011       R             $600,000         $17.20                         $1,667,700
2/13/2009    FNB United Corp., Asheboro, NC58                     Common Stock w/ Warrants                      $51,500,000                                                                                                    $11.88         22,071          $2,589,305
5/15/2009    Foresight Financial Group, Inc., Rockford, IL2       Preferred Stock w/ Exercised Warrants         $15,000,000                                                                                                    $12.05                         $2,656,875
5/22/2009    Fort Lee Federal Savings Bank, Fort Lee, NJ2,82      Preferred Stock w/ Exercised Warrants          $1,300,000                                                                                                                                      $87,185
4/3/2009     Fortune Financial Corporation , Arnold, MO2,50       Preferred Stock w/ Exercised Warrants          $3,100,000   9/15/2011           $3,100,000             $­—    9/15/2011       R             $155,000                                          $413,928
12/5/2008    FPB Bancorp, Inc., Port St. Lucie, FL55              Preferred Stock w/ Warrants                    $5,800,000                                                                                                      $0.01       183,158            $273,889
                                                                                                                              12/16/2009          $1,000,000      $2,240,000
1/23/2009    FPB Financial Corp., Hammond, LA2                    Preferred Stock w/ Exercised Warrants          $3,240,000                                                     6/16/2010       R             $162,000                                          $221,722
                                                                                                                              6/16/2010           $2,240,000             $­—
5/22/2009    Franklin Bancorp, Inc., Washington, MO2              Preferred Stock w/ Exercised Warrants          $5,097,000                                                                                                                                     $897,448
                                                                  Subordinated Debentures w/
5/8/2009     Freeport Bancshares, Inc., Freeport, IL8                                                            $3,000,000                                                                                                                                     $822,918
                                                                  Exercised Warrants
                                                                  Subordinated Debentures w/
6/26/2009    Fremont Bancorporation, Fremont, CA8                                                               $35,000,000   7/25/2012         $35,000,000              $­—    7/25/2012       R           $1,750,000                                        $9,046,066
                                                                  Exercised Warrants
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I October 25, 2012




                                            2
1/23/2009    Fresno First Bank, Fresno, CA                        Preferred Stock w/ Exercised Warrants          $1,968,000                                                                                                                                     $348,465

                                                                  Subordinated Debentures w/                                  11/24/2009          $1,600,000      $1,400,000
4/24/2009    Frontier Bancshares, Inc., Austin, TX8                                                              $3,000,000                                                     10/6/2010       R             $150,000                                          $258,192
                                                                  Exercised Warrants                                          10/6/2010           $1,400,000             $­—
12/23/2008   Fulton Financial Corporation, Lancaster, PA          Preferred Stock w/ Warrants                 $376,500,000    7/14/2010        $376,500,000              $­—    9/8/2010        R          $10,800,000           $9.85                       $29,335,625
5/8/2009     Gateway Bancshares, Inc., Ringgold, GA2,80           Preferred Stock w/ Exercised Warrants          $6,000,000   4/13/2012           $6,000,000             $­—    4/13/2012       R             $300,000                                          $960,795
2/6/2009     Georgia Commerce Bancshares, Inc., Atlanta, GA2      Preferred Stock w/ Exercised Warrants          $8,700,000   2/16/2011           $8,700,000             $­—    2/16/2011       R             $435,000                                          $961,471
5/1/2009     Georgia Primary Bank, Atlanta, GA2                   Preferred Stock w/ Exercised Warrants          $4,500,000                                                                                                                                           $­—
             Germantown Capital Corporation, Inc.,
3/6/2009                                                          Preferred Stock w/ Exercised Warrants          $4,967,000                                                                                                                                     $931,726
             Germantown, TN2
6/26/2009    Gold Canyon Bank, Gold Canyon, AZ2,10                Preferred Stock w/ Exercised Warrants          $1,607,000                                                                                                                                      $53,860
1/30/2009    Goldwater Bank, N.A., Scottsdale, AZ2                Preferred Stock w/ Exercised Warrants          $2,568,000                                                                                                                                     $145,750
4/24/2009    Grand Capital Corporation, Tulsa, OK2,49             Preferred Stock w/ Exercised Warrants          $4,000,000   9/8/2011            $4,000,000             $­—    9/8/2011        R             $200,000                                          $517,145
                                                                  Subordinated Debentures w/
9/25/2009    Grand Financial Corporation, Hattiesburg, MS8                                                       $2,443,320                                                                                                                                     $592,139
                                                                  Exercised Warrants
5/29/2009    Grand Mountain Bancshares, Inc., Granby, CO2         Preferred Stock w/ Exercised Warrants          $3,076,000                                                                                                                                           $­—
1/9/2009     GrandSouth Bancorporation, Greenville, SC2,50        Preferred Stock w/ Exercised Warrants          $9,000,000   9/8/2011            $9,000,000             $­—    9/8/2011        R             $450,000
                                                                                                                                                                                                                                 $4.25                        $1,856,917
12/11/2009   GrandSouth Bancorporation, Greenville, SC2,10a,49    Preferred Stock                                $6,319,000   9/8/2011            $6,319,000             $­—    N/A                                 N/A
                                                                  Subordinated Debentures w/
7/17/2009    Great River Holding Company, Baxter, MN8                                                            $8,400,000                                                                                                                                     $759,575
                                                                  Exercised Warrants
                                                          50
12/5/2008    Great Southern Bancorp, Springfield, MO              Preferred Stock w/ Warrants                   $58,000,000   8/18/2011         $58,000,000              $­—    9/21/2011       R           $6,436,364         $30.91                         $7,838,056
12/23/2008   Green Bankshares, Inc., Greeneville, TN59            Preferred Stock w/ Warrants                   $72,278,000   9/7/2011          $68,700,000              $­—    N/A                                 N/A                                       $5,942,858
2/27/2009    Green Circle Investments, Inc., Clive, IA2           Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                                     $453,440
2/27/2009    Green City Bancshares, Inc., Green City, MO2         Preferred Stock w/ Exercised Warrants           $651,000    7/14/2010            $651,000              $­—    7/14/2010       R              $33,000                                           $49,037
1/30/2009    Greer Bancshares Incorporated, Greer, SC2            Preferred Stock w/ Exercised Warrants          $9,993,000                                                                                                      $4.00                          $975,831
2/13/2009    Gregg Bancshares, Inc., Ozark, MO2                   Preferred Stock w/ Exercised Warrants           $825,000                                                                                                                                       $45,190
2/20/2009    Guaranty Bancorp, Inc., Woodsville, NH2,50           Preferred Stock w/ Exercised Warrants          $6,920,000   9/15/2011           $6,920,000             $­—    9/15/2011       R             $346,000                                          $969,040
9/25/2009    Guaranty Capital Corporation, Belzoni, MS3,8,30      Subordinated Debentures                       $14,000,000   7/30/2010         $14,000,000              $­—    N/A                                 N/A                                         $913,299
1/30/2009    Guaranty Federal Bancshares, Inc., Springfield, MO   Preferred Stock w/ Warrants                   $17,000,000   6/13/2012           $5,000,000     $12,000,000                                                     $7.50       459,459          $2,967,361
9/25/2009    GulfSouth Private Bank, Destin, FL10,21              Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                     $757,380
6/26/2009    Gulfstream Bancshares, Inc., Stuart, FL2,50          Preferred Stock w/ Exercised Warrants          $7,500,000   8/18/2011           $7,500,000             $­—    8/18/2011       R             $375,000                                          $876,542
2/20/2009    Hamilton State Bancshares, Hoschton, GA2             Preferred Stock w/ Exercised Warrants          $7,000,000   4/13/2011           $7,000,000             $­—    4/13/2011       R             $350,000                                          $819,166
12/31/2008   Hampton Roads Bankshares, Inc., Norfolk, VA31        Common Stock w/ Warrants                      $80,347,000                                                                                                      $1.50        53,034          $2,510,844
7/17/2009    Harbor Bankshares Corporation, Baltimore, MD2,3      Preferred Stock                                $6,800,000                                                                                                                                     $282,744
                                                                                                                                                                                                                                                    Continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                        (CONTINUED)
                                                                                                                                   Capital                                           Final                                            Stock        Current
Purchase                                                                                                                           Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                             Investment Description                    Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
6/26/2009    Hartford Financial Services Group, Inc., Hartford, CT   Preferred Stock w/ Warrants                  $3,400,000,000   3/31/2010       $3,400,000,000             $­—    9/21/2010       A        $706,264,560          $19.44                      $129,861,111
3/13/2009    Haviland Bancshares, Inc., Haviland, KS2                Preferred Stock w/ Exercised Warrants             $425,000    12/29/2010           $425,000              $­—    12/29/2010      R              $21,000                                           $41,524
12/19/2008   Hawthorne Bancshares, Inc., Lee’s Summit, MO            Preferred Stock w/ Warrants                     $30,255,000   5/9/2012          $12,000,000      $18,255,000                                                     $8.84       287,134          $5,369,942
3/6/2009     HCSB Financial Corporation, Loris, SC                   Preferred Stock w/ Warrants                     $12,895,000                                                                                                      $0.32        91,714          $1,090,702
9/11/2009    Heartland Bancshares, Inc., Franklin, IN2,10            Preferred Stock w/ Exercised Warrants            $7,000,000   7/17/2012           $7,000,000             $­—    7/17/2012                     $248,000         $13.50                         $1,073,471
12/19/2008   Heartland Financial USA, Inc., Dubuque, IA50            Preferred Stock w/ Warrants                     $81,698,000   9/15/2011         $81,698,000              $­—    9/28/2011       R           $1,800,000         $27.27                        $11,188,087
                                                                                                                                   3/16/2011           $2,606,000      $7,497,000
9/25/2009    Heritage Bankshares, Inc., Norfolk, VA2,10,50           Preferred Stock w/ Exercised Warrants           $10,103,000                                                     8/11/2011       R             $303,000         $11.80                           $947,284
                                                                                                                                   8/11/2011           $7,497,000             $­—
11/21/2008   Heritage Commerce Corp., San Jose, CA                   Preferred Stock w/ Warrants                     $40,000,000   3/7/2012          $40,000,000              $­—                                                     $6.94       462,963          $6,761,267
11/21/2008   Heritage Financial Corporation, Olympia, WA             Preferred Stock w/ Warrants                     $24,000,000   12/22/2010        $24,000,000              $­—    8/17/2011       R             $450,000         $15.03                         $2,503,333
3/20/2009    Heritage Oaks Bancorp, Paso Robles, CA                  Preferred Stock w/ Warrants                     $21,000,000                                                                                                      $5.76       611,650          $3,698,002
11/21/2008   HF Financial Corp., Sioux Falls, SD                     Preferred Stock w/ Warrants                     $25,000,000   6/3/2009          $25,000,000              $­—    6/30/2009       R             $650,000         $18.20                           $666,667
             Highlands Bancorp, Inc. (Highlands State Bank),
5/8/2009                                                             Preferred Stock w/ Exercised Warrants            $3,091,000   9/22/2011           $3,091,000             $­—    9/22/2011       R             $155,000
             Vernon, NJ2,13 ,49
                                                                                                                                                                                                                                      $3.99                          $547,251
             Highlands Bancorp, Inc. (Highlands State Bank),
12/22/2009                                                           Preferred Stock                                  $2,359,000   9/22/2011           $2,359,000             $­—    N/A                                 N/A
             Vernon, NJ2,10a,13,49
             Highlands Independent Bancshares, Inc.,
3/6/2009                                                             Preferred Stock w/ Exercised Warrants            $6,700,000                                                                                                                                     $617,712
             Sebring, FL2
1/30/2009    Hilltop Community Bancorp, Inc., Summit, NJ2            Preferred Stock w/ Exercised Warrants            $4,000,000   4/21/2010           $4,000,000             $­—    4/21/2010       R             $200,000           $6.00                          $267,050
12/23/2008   HMN Financial, Inc., Rochester, MN                      Preferred Stock w/ Warrants                     $26,000,000                                                                                                      $3.15       833,333          $2,462,778
1/16/2009    Home Bancshares, Inc., Conway, AR                       Preferred Stock w/ Warrants                     $50,000,000   7/6/2011          $50,000,000              $­—    7/27/2011       R           $1,300,000         $34.09                         $6,180,556
2/20/2009    Hometown Bancorp of Alabama, Inc., Oneonta, AL2         Preferred Stock w/ Exercised Warrants            $3,250,000                                                                                                                                     $617,635
2/13/2009    Hometown Bancshares, Inc., Corbin, KY2                  Preferred Stock w/ Exercised Warrants            $1,900,000                                                                                                                                     $363,000
9/18/2009    HomeTown Bankshares Corporation, Roanoke, VA2,10        Preferred Stock w/ Exercised Warrants           $10,000,000                                                                                                      $4.25                        $1,589,694
12/12/2008   HopFed Bancorp, Hopkinsville, KY                        Preferred Stock w/ Warrants                     $18,400,000                                                                                                      $7.50       253,666          $3,381,000
                                                                                                                                   11/10/2010          $6,250,000     $18,750,000
12/19/2008   Horizon Bancorp, Michigan City, IN50                    Preferred Stock w/ Warrants                     $25,000,000                                                     11/18/2011      P           $1,750,551         $28.58                         $3,106,771
                                                                                                                                   8/25/2011         $18,750,000              $­—
2/27/2009    Howard Bancorp, Inc., Ellicott City, MD2,49             Preferred Stock w/ Exercised Warrants            $5,983,000   9/22/2011           $5,983,000             $­—    9/22/2011       R             $299,000           $6.89                          $837,793
11/13/2009   HPK Financial Corporation, Chicago, IL2,10a             Preferred Stock w/ Exercised Warrants            $5,000,000
                                                                                                                                                                                                                                                                   $1,441,579
5/1/2009     HPK Financial Corporation, Chicago, IL2                 Preferred Stock w/ Exercised Warrants            $4,000,000
11/14/2008   Huntington Bancshares, Columbus, OH                     Preferred Stock w/ Warrants                  $1,398,071,000   12/22/2010      $1,398,071,000             $­—    1/19/2011       R          $49,100,000           $6.90                     $147,185,809
2/6/2009     Hyperion Bank, Philadelphia, PA2                        Preferred Stock w/ Exercised Warrants            $1,552,000                                                                                                                                     $298,286
9/18/2009    IA Bancorp, Inc., Iselin, NJ2,10                        Preferred Stock w/ Exercised Warrants            $5,976,000                                                                                                                                     $916,227
5/15/2009    IBC Bancorp, Inc., Chicago, IL3,8,30                    Subordinated Debentures                          $4,205,000   9/10/2010           $4,205,000             $­—    N/A                                 N/A                                         $427,216
12/5/2008    Iberiabank Corporation, Lafayette, LA                   Preferred Stock w/ Warrants                     $90,000,000   3/31/2009         $90,000,000              $­—    5/20/2009       R           $1,200,000         $45.80                         $1,450,000
3/27/2009    IBT Bancorp, Inc., Irving, TX2                          Preferred Stock w/ Exercised Warrants            $2,295,000                                                                                                                                     $423,255
3/13/2009    IBW Financial Corporation , Washington, DC2,3a,30       Preferred Stock                                  $6,000,000   9/3/2010            $6,000,000             $­—    N/A                                 N/A          $8.00                          $453,067
3/6/2009     ICB Financial, Ontario, CA2                             Preferred Stock w/ Exercised Warrants            $6,000,000                                                                                                      $4.50                        $1,125,425
1/16/2009    Idaho Bancorp, Boise, ID2                               Preferred Stock w/ Exercised Warrants            $6,900,000                                                                                                      $0.01                          $124,306
5/22/2009    Illinois State Bancorp, Inc., Chicago, IL2,49           Preferred Stock w/ Exercised Warrants            $6,272,000   9/22/2011           $6,272,000             $­—    9/22/2011       R             $314,000
                                                                                                                                                                                                                                                                   $1,158,113
12/29/2009   Illinois State Bancorp, Inc., Chicago, IL2,10a,49       Preferred Stock w/ Exercised Warrants            $4,000,000   9/22/2011           $4,000,000             $­—    9/22/2011       R              $92,000
                                                        2
1/9/2009     Independence Bank, East Greenwich, RI                   Preferred Stock w/ Exercised Warrants            $1,065,000                                                                                                                                     $208,872
1/9/2009     Independent Bank Corp., Rockland, MA                    Preferred Stock w/ Warrants                     $78,158,000   4/22/2009         $78,158,000              $­—    5/27/2009       R           $2,200,000         $30.09                         $1,118,094
                                                                     Mandatorily Convertible Preferred Stock
12/12/2008   Independent Bank Corporation, Ionia, MI22                                                               $74,426,000                                                                                                      $2.71       346,154          $2,430,000
                                                                     w/ Warrants
                                              2
4/24/2009    Indiana Bank Corp., Dana, IN                            Preferred Stock w/ Exercised Warrants            $1,312,000                                                                                                                                     $165,139
12/12/2008   Indiana Community Bancorp, Columbus, IN                 Preferred Stock w/ Warrants                     $21,500,000   9/12/2012         $21,500,000              $­—    9/12/2012       R           $1,800,000         $27.15                         $4,031,250
                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I October 25, 2012




2/27/2009    Integra Bank Corporation, Evansville, IN14,57           Preferred Stock w/ Warrants                     $83,586,000                                                                                                                7,418,876          $1,950,340
12/19/2008   Intermountain Community Bancorp, Sandpoint, ID          Preferred Stock w/ Warrants                     $27,000,000                                                                                                      $1.22       653,226          $1,222,500
12/23/2008   International Bancshares Corporation, Laredo, TX        Preferred Stock w/ Warrants                   $216,000,000    7/11/2011         $40,000,000     $176,000,000                                                   $19.07      1,326,238         $39,171,111
12/23/2008   Intervest Bancshares Corporation, New York, NY          Preferred Stock w/ Warrants                     $25,000,000                                                                                                      $3.80       691,882          $1,118,056
                                                                                                                                                                                                                                                         Continued on next page
                                                                                                                                                                                                                                                                                  243
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                        (CONTINUED)                                                                                                                                                                        244
                                                                                                                                   Capital                                           Final                                            Stock        Current
Purchase                                                                                                                           Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                               Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
             Investors Financial Corporation of Pettis County, Inc.,   Subordinated Debentures w/
5/8/2009                                                                                                              $4,000,000                                                                                                                                     $174,325
             Sedalia, MO8                                              Exercised Warrants
10/28/2008   JPMorgan Chase & Co., New York, NY                        Preferred Stock w/ Warrants               $25,000,000,000   6/17/2009      $25,000,000,000             $­—    12/10/2009      A        $936,063,469          $40.48                      $795,138,889
1/30/2009    Katahdin Bankshares Corp., Houlton, ME2,49                Preferred Stock w/ Exercised Warrants         $10,449,000   8/18/2011         $10,449,000              $­—    8/18/2011       R             $522,000         $12.50                         $1,452,047
11/14/2008   KeyCorp, Cleveland, OH                                    Preferred Stock w/ Warrants                $2,500,000,000   3/30/2011       $2,500,000,000             $­—    4/20/2011       R          $70,000,000           $8.74                     $297,222,222
3/20/2009    Kirksville Bancorp, Inc., Kirksville, MO2                 Preferred Stock w/ Exercised Warrants           $470,000                                                                                                                                       $87,315
8/21/2009    KS Bancorp, Inc., Smithfield, NC2                         Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                      $4.05                          $650,367
2/20/2009    Lafayette Bancorp, Inc., Oxford, MS2,30                   Preferred Stock w/ Exercised Warrants          $1,998,000   9/29/2010           $1,998,000             $­—    9/29/2010       R             $100,000
                                                                                                                                                                                                                                                                     $267,134
12/29/2009   Lafayette Bancorp, Inc., Oxford, MS2,10a,30               Preferred Stock                                $2,453,000   9/29/2010           $2,453,000             $­—    N/A                                 N/A
                                                                                                                                   8/4/2010          $20,000,000      $39,000,000
2/6/2009     Lakeland Bancorp, Inc., Oak Ridge, NJ                     Preferred Stock w/ Warrants                   $59,000,000   3/16/2011         $20,000,000      $19,000,000    2/29/2012       R           $2,800,000         $10.35                         $6,460,833
                                                                                                                                   2/8/2012          $19,000,000              $­—
2/27/2009    Lakeland Financial Corporation, Warsaw, IN                Preferred Stock w/ Warrants                   $56,044,000   6/9/2010          $56,044,000              $­—    11/18/2011      P             $877,557         $27.60                         $3,596,156
12/18/2009   Layton Park Financial Group, Milwaukee, WI2               Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $434,638
1/9/2009     LCNB Corp., Lebanon, OH                                   Preferred Stock w/ Warrants                   $13,400,000   10/21/2009        $13,400,000              $­—    11/18/2011      P             $602,557         $13.40                           $524,833
12/23/2008   Leader Bancorp, Inc., Arlington, MA2                      Preferred Stock w/ Exercised Warrants          $5,830,000   11/24/2010          $5,830,000             $­—    11/24/2010      R             $292,000                                          $609,961
1/30/2009    Legacy Bancorp, Inc., Milwaukee, WI3,53                   Preferred Stock                                $5,498,000                                                                                                                                     $355,079
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I October 25, 2012




1/23/2009    Liberty Bancshares, Inc., Jonesboro, AR2,50               Preferred Stock w/ Exercised Warrants         $57,500,000   7/21/2011         $57,500,000              $­—    7/21/2011       R           $2,875,000                                        $7,816,966
2/13/2009    Liberty Bancshares, Inc., Springfield, MO2,50             Preferred Stock w/ Exercised Warrants         $21,900,000   8/18/2011         $21,900,000              $­—    8/18/2011       R           $1,095,000                                        $3,000,452
12/4/2009    Liberty Bancshares, Inc., Fort Worth, TX2,10              Preferred Stock w/ Exercised Warrants          $6,500,000                                                                                                                                     $924,176
2/6/2009     Liberty Financial Services, Inc., New Orleans, LA3,30     Preferred Stock                                $5,645,000   9/24/2010           $5,645,000             $­—    N/A                                 N/A                                         $461,009
2/20/2009    Liberty Shares, Inc., Hinesville, GA2                     Preferred Stock w/ Exercised Warrants         $17,280,000                                                                                                                                   $1,399,560
7/10/2009    Lincoln National Corporation, Radnor, PA                  Preferred Stock w/ Warrants                 $950,000,000    6/30/2010        $950,000,000              $­—    9/16/2010       A        $213,671,319          $24.19                        $46,180,555
12/12/2008   LNB Bancorp Inc., Lorain, OH88                            Preferred Stock w/ Warrants                   $25,223,000   6/13/2012         $21,863,750              $­—    7/18/2012       R             $860,326           $6.09                        $4,438,492
2/6/2009     Lone Star Bank, Houston, TX2                              Preferred Stock w/ Exercised Warrants          $3,072,000                                                                                                                                           $­—
12/12/2008   LSB Corporation, North Andover, MA                        Preferred Stock w/ Warrants                   $15,000,000   11/18/2009        $15,000,000              $­—    12/16/2009      R             $560,000                                          $700,000
6/26/2009    M&F Bancorp, Inc., Durham, NC2,3,10,30                    Preferred Stock                               $11,735,000   8/20/2010         $11,735,000              $­—    N/A                                 N/A                                         $674,763
             M&T Bank Corporation (Provident Bancshares
12/23/2008                                                             Preferred Stock w/ Warrants                 $600,000,000    5/18/2011        $370,000,000     $230,000,000                                                                 407,542         $28,553,037
             Corp.), Baltimore, MD119
                                                                                                                                   8/17/2012        $230,000,000              $­—
11/14/2008   M&T Bank Corporation, Buffalo, NY                         Preferred Stock w/ Warrants                 $151,500,000                                                                                                     $95.16      1,218,522         $86,553,400
                                                                                                                                   8/17/2012        $151,500,000              $­—
             M&T Bank Corporation (Wilmington Trust
12/12/2008                                                             Preferred Stock w/ Warrants                 $330,000,000    5/13/2011        $330,000,000              $­—                                                                  95,383         $39,920,833
             Corporation), Wilmington, DE43
                                                                121
4/24/2009    Mackinac Financial Corporation, Manistique, MI            Preferred Stock w/ Warrants                   $11,000,000   8/23/2012         $10,380,905              $­—                                                     $7.78       379,310          $1,840,923
3/13/2009    Madison Financial Corporation, Richmond, KY2              Preferred Stock w/ Exercised Warrants          $3,370,000                                                                                                                                     $169,422
                                                                                                                                   11/24/2009          $3,455,000     $10,340,000
12/23/2008   Magna Bank, Memphis, TN2,49                               Preferred Stock w/ Exercised Warrants         $13,795,000   6/8/2011            $3,455,000      $6,885,000    8/18/2011       R             $690,000                                        $1,661,468
                                                                                                                                   8/18/2011           $6,885,000             $­—
12/29/2009   Mainline Bancorp, Inc., Ebensburg, PA2,73                 Preferred Stock w/ Exercised Warrants          $4,500,000   3/9/2012            $4,500,000             $­—    3/9/2012        R             $225,000         $69.50                           $538,188
1/16/2009    MainSource Financial Group, Inc., Greensburg, IN78        Preferred Stock w/ Warrants                   $57,000,000   3/28/2012         $52,277,171              $­—                                                   $12.84        571,906          $9,159,773
12/5/2008    Manhattan Bancorp, El Segundo, CA                         Preferred Stock w/ Warrants                    $1,700,000   9/16/2009           $1,700,000             $­—    10/14/2009      R              $63,364           $3.95                           $66,347
                                                                       Subordinated Debentures w/
6/19/2009    Manhattan Bancshares, Inc., Manhattan, IL8                                                               $2,639,000                                                                                                                                     $698,700
                                                                       Exercised Warrants
3/6/2009     Marine Bank & Trust Company, Vero Beach, FL2              Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                                     $235,713
2/20/2009    Market Bancorporation, Inc., New Market, MN2              Preferred Stock w/ Exercised Warrants          $2,060,000                                                                                                                                     $138,778
                                                                       Subordinated Debentures w/
5/15/2009    Market Street Bancshares, Inc., Mt. Vernon, IL8                                                         $20,300,000   7/27/2012         $18,069,213              $­—    7/27/2012       P             $824,731                                        $5,535,303
                                                                       Exercised Warrants
12/19/2008   Marquette National Corporation, Chicago, IL2              Preferred Stock w/ Exercised Warrants         $35,500,000   7/27/2012         $25,313,186              $­—    7/27/2012       P           $1,450,171        $122.00                         $7,072,587
11/14/2008   Marshall & Ilsley Corporation, Milwaukee, WI44            Preferred Stock w/ Warrants                $1,715,000,000   7/5/2011        $1,715,000,000             $­—    7/5/2011        R           $3,250,000                                     $226,522,917
3/27/2009    Maryland Financial Bank, Towson, MD2                      Preferred Stock w/ Exercised Warrants          $1,700,000                                                                                                                                     $220,816
12/5/2008    MB Financial Inc., Chicago, IL                            Preferred Stock w/ Warrants                 $196,000,000    3/14/2012        $196,000,000              $­—    5/2/2012        R           $1,518,072         $19.75                        $32,095,000
                                                                                                                                                                                                                                                         Continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                     (CONTINUED)
                                                                                                                                  Capital                                           Final                                            Stock        Current
Purchase                                                                                                                          Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                            Investment Description                    Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
11/20/2009   McLeod Bancshares, Inc., Shorewood, MN2,50             Preferred Stock w/ Exercised Warrants            $6,000,000   8/18/2011           $6,000,000             $­—    8/18/2011       R             $300,000                                          $570,433
2/27/2009    Medallion Bank, Salt Lake City, UT2,49                 Preferred Stock w/ Exercised Warrants           $11,800,000   7/21/2011         $11,800,000              $­—    7/21/2011       R             $590,000
                                                                                                                                                                                                                                                                  $2,317,675
12/22/2009   Medallion Bank, Salt Lake City, UT2,10a,49             Preferred Stock w/ Exercised Warrants            $9,698,000   7/21/2011           $9,698,000             $­—    7/21/2011       R              $55,000
                                                                                                                                  4/4/2012          $10,500,000      $10,500,000
5/15/2009    Mercantile Bank Corporation, Grand Rapids, MI          Preferred Stock w/ Warrants                     $21,000,000                                                     7/3/2012        R           $7,465,100         $17.14                         $3,166,021
                                                                                                                                  6/6/2012          $10,500,000              $­—
                                                      2,49
2/6/2009     Mercantile Capital Corp., Boston, MA                   Preferred Stock w/ Exercised Warrants            $3,500,000   8/4/2011            $3,500,000             $­—    8/4/2011        R             $175,000                                          $475,815
             Merchants and Manufacturers Bank Corporation,
6/19/2009                                                           Preferred Stock w/ Exercised Warrants            $3,510,000   9/8/2011            $3,510,000             $­—    9/8/2011        R             $176,000                                          $424,668
             Joliet, IL2,49
             Merchants and Planters Bancshares, Inc.,
3/6/2009                                                            Preferred Stock w/ Exercised Warrants            $1,881,000   9/7/2011            $1,881,000             $­—    9/7/2011        R              $94,000                                          $256,560
             Toone, TN2,62
2/13/2009    Meridian Bank, Devon, PA2                              Preferred Stock w/ Exercised Warrants            $6,200,000
                                                                                                                                                                                                                                                                  $2,032,713
12/11/2009   Meridian Bank, Devon, PA2,10a                          Preferred Stock                                  $6,335,000
1/30/2009    Metro City Bank, Doraville, GA2                        Preferred Stock w/ Exercised Warrants            $7,700,000                                                                                                                                   $1,486,261
1/16/2009    MetroCorp Bancshares, Inc., Houston, TX95              Preferred Stock w/ Warrants                     $45,000,000   6/27/2012         $43,490,360              $­—                                                   $10.59        771,429          $7,828,900
             Metropolitan Bank Group, Inc. (NC Bancorp, Inc.),
6/26/2009                                                           Preferred Stock w/ Exercised Warrants           $74,706,000                                                                                                                                     $332,256
             Chicago, IL2,41
6/26/2009    Metropolitan Bank Group, Inc., Chicago, IL2,41         Preferred Stock w/ Exercised Warrants            $7,186,000                                                                                                                                   $3,454,185
4/10/2009    Metropolitan Capital Bancorp, Inc., Chicago, IL2       Preferred Stock w/ Exercised Warrants            $2,040,000
                                                                                                                                                                                                                                                                    $693,364
11/20/2009   Metropolitan Capital Bancorp, Inc., Chicago, IL2,10a   Preferred Stock                                  $2,348,000
12/19/2008   Mid Penn Bancorp, Inc., Millersburg, PA                Preferred Stock w/ Warrants                     $10,000,000                                                                                                    $10.48         73,099          $1,827,778
1/30/2009    Middleburg Financial Corporation, Middleburg, VA       Preferred Stock w/ Warrants                     $22,000,000   12/23/2009        $22,000,000              $­—    11/18/2011      P             $301,001                                          $986,944
1/23/2009    Midland States Bancorp, Inc., Effingham, IL2           Preferred Stock w/ Exercised Warrants           $10,189,000   12/23/2009        $10,189,000              $­—    12/23/2009      R             $509,000                                          $508,989
1/9/2009     MidSouth Bancorp, Inc., Lafayette, LA49                Preferred Stock w/ Warrants                     $20,000,000   8/25/2011         $20,000,000              $­—    11/18/2011      P             $206,557                                        $2,627,778
2/27/2009    Midtown Bank & Trust Company, Atlanta, GA2             Preferred Stock w/ Exercised Warrants            $5,222,000                                                                                                                                     $275,105
                                                                    Mandatorily Convertible Preferred Stock
12/5/2008    Midwest Banc Holdings, Inc., Melrose Park, IL14,20                                                     $89,388,000                                                                                                                4,282,020            $824,289
                                                                    w/ Warrants
                                                             2
2/13/2009    Midwest Regional Bancorp, Inc., Festus, MO             Preferred Stock w/ Exercised Warrants             $700,000    11/10/2009           $700,000              $­—    11/10/2009      R              $35,000                                           $28,294
2/6/2009     MidWestOne Financial Group, Inc., Iowa City, IA        Preferred Stock w/ Warrants                     $16,000,000   7/6/2011          $16,000,000              $­—    7/27/2011       R           $1,000,000         $21.54                         $1,933,333
2/20/2009    Mid-Wisconsin Financial Services, Inc., Medford, WI2   Preferred Stock w/ Exercised Warrants           $10,000,000                                                                                                      $4.80                        $1,082,431
4/3/2009     Millennium Bancorp, Inc., Edwards, CO2,84              Preferred Stock w/ Exercised Warrants            $7,260,000   8/14/2012           $2,904,000             $­—    8/14/2012                           $­—                                       $1,392,562
1/9/2009     Mission Community Bancorp, San Luis Obispo, CA3        Preferred Stock                                  $5,116,000   12/28/2011          $5,116,000             $­—    N/A                                 N/A          $3.15                          $759,584
12/23/2008   Mission Valley Bancorp, Sun Valley, CA3,30             Preferred Stock                                  $5,500,000   8/20/2010           $5,500,000             $­—    N/A                                 N/A                                         $456,042
12/19/2008   Monadnock Bancorp, Inc., Peterborough, NH2             Preferred Stock w/ Exercised Warrants            $1,834,000                                                                                                      $4.98                          $190,517
2/6/2009     Monarch Community Bancorp, Inc., Coldwater, MI         Preferred Stock w/ Warrants                      $6,785,000                                                                                                      $1.15       260,962            $262,919
12/19/2008   Monarch Financial Holdings, Inc., Chesapeake, VA       Preferred Stock w/ Warrants                     $14,700,000   12/23/2009        $14,700,000              $­—    2/10/2010       R             $260,000           $9.75                          $743,167
3/13/2009    Moneytree Corporation, Lenoir City, TN2,50             Preferred Stock w/ Exercised Warrants            $9,516,000   9/15/2011           $9,516,000             $­—    9/15/2011       R             $476,000                                        $1,299,481
1/30/2009    Monument Bank, Bethesda, MD2,49                        Preferred Stock w/ Exercised Warrants            $4,734,000   8/11/2011           $4,734,000             $­—    8/11/2011       R             $237,000                                          $652,959
10/28/2008   Morgan Stanley, New York, NY                           Preferred Stock w/ Warrants                 $10,000,000,000   6/17/2009      $10,000,000,000             $­—    8/12/2009       R        $950,000,000          $16.74                      $318,055,555
1/16/2009    Morrill Bancshares, Inc., Merriam, KS2                 Preferred Stock w/ Exercised Warrants           $13,000,000   7/20/2011         $13,000,000              $­—    7/20/2011       R             $650,000                                        $1,779,122
1/23/2009    Moscow Bancshares, Inc., Moscow, TN2                   Preferred Stock w/ Exercised Warrants            $6,216,000   4/25/2012           $1,100,000      $5,116,000                                                                                  $1,189,664
9/25/2009    Mountain Valley Bancshares, Inc., Cleveland, GA2       Preferred Stock w/ Exercised Warrants            $3,300,000                                                                                                                                     $519,567
3/27/2009    MS Financial, Inc., Kingwood, TX2                      Preferred Stock w/ Exercised Warrants            $7,723,000   10/19/2011          $7,723,000             $­—    10/19/2011      R             $386,000                                        $1,097,290
12/23/2008   MutualFirst Financial, Inc., Muncie, IN50              Preferred Stock w/ Warrants                     $32,382,000   8/25/2011         $32,382,000              $­—    9/28/2011       R             $900,194         $11.44                         $4,326,595
3/27/2009    Naples Bancorp, Inc., Naples, FL2,99                   Preferred Stock w/ Exercised Warrants            $4,000,000   7/12/2012            $600,000              $­—    N/A                                 N/A                                         $356,067
2/27/2009    National Bancshares, Inc., Bettendorf, IA2             Preferred Stock w/ Exercised Warrants           $24,664,000                                                                                                                                   $2,307,492
12/12/2008   National Penn Bancshares, Inc., Boyertown, PA          Preferred Stock w/ Warrants                   $150,000,000    3/16/2011        $150,000,000              $­—    4/13/2011       R           $1,000,000           $9.11                       $16,958,333
                                                                    Subordinated Debentures w/
12/11/2009   Nationwide Bankshares, Inc., West Point, NE8                                                            $2,000,000   12/29/2010          $2,000,000             $­—    12/29/2010      R             $100,000                                          $176,190
                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I October 25, 2012




                                                                    Exercised Warrants
12/19/2008   NCAL Bancorp, Los Angeles, CA2                         Preferred Stock w/ Exercised Warrants           $10,000,000                                                                                                      $1.59                        $1,311,028
                                                                    Subordinated Debentures w/
6/19/2009    NEMO Bancshares Inc., Madison, MO8                                                                      $2,330,000                                                                                                                                     $617,088
                                                                    Exercised Warrants
                                                                                                                                                                                                                                                        Continued on next page
                                                                                                                                                                                                                                                                                 245
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                     (CONTINUED)                                                                                                                                                                        246
                                                                                                                                Capital                                           Final                                            Stock        Current
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
             New Hampshire Thrift Bancshares, Inc.,
1/16/2009                                                           Preferred Stock w/ Warrants                   $10,000,000   8/25/2011         $10,000,000              $­—    2/15/2012       R             $737,100         $12.85                         $1,304,167
             Newport, NH49
             New York Private Bank & Trust Corporation,
1/9/2009                                                            Preferred Stock w/ Exercised Warrants       $267,274,000                                                                                                                                   $52,439,256
             New York, NY2
12/12/2008   NewBridge Bancorp, Greensboro, NC                      Preferred Stock w/ Warrants                   $52,372,000                                                                                                      $4.84     2,567,255          $9,623,355
12/23/2008   Nicolet Bankshares, Inc., Green Bay, WI2,49            Preferred Stock w/ Exercised Warrants         $14,964,000   9/1/2011          $14,964,000              $­—    9/1/2011        R             $748,000                                        $2,192,843
1/9/2009     North Central Bancshares, Inc., Fort Dodge, IA         Preferred Stock w/ Warrants                   $10,200,000   12/14/2011        $10,200,000              $­—    1/11/2012       R             $600,000         $30.55                         $1,494,583
12/12/2008   Northeast Bancorp, Lewiston, ME                        Preferred Stock w/ Warrants                    $4,227,000                                                                                                      $9.50        67,958            $776,712
5/15/2009    Northern State Bank, Closter, NJ2                      Preferred Stock w/ Exercised Warrants          $1,341,000   3/28/2012           $1,341,000             $­—    3/28/2012       R              $67,000
                                                                                                                                                                                                                                                                  $349,782
12/18/2009   Northern State Bank, Closter, NJ2,10a                  Preferred Stock                                $1,230,000   3/28/2012           $1,230,000             $­—    N/A                                 N/A
             Northern States Financial Corporation,
2/20/2009                                                           Preferred Stock w/ Warrants                   $17,211,000                                                                                                      $0.85       584,084            $418,323
             Waukegan, IL
11/14/2008   Northern Trust Corporation, Chicago, IL                Preferred Stock w/ Warrants                $1,576,000,000   6/17/2009       $1,576,000,000             $­—    8/26/2009       R          $87,000,000         $46.42                        $46,623,333
1/30/2009    Northway Financial, Inc., Berlin, NH2,49               Preferred Stock w/ Exercised Warrants         $10,000,000   9/15/2011         $10,000,000              $­—    9/15/2011       R             $500,000         $11.79                         $1,430,625
2/13/2009    Northwest Bancorporation, Inc., Spokane, WA2           Preferred Stock w/ Exercised Warrants         $10,500,000                                                                                                                                     $575,430
2/13/2009    Northwest Commercial Bank, Lakewood, WA2               Preferred Stock w/ Exercised Warrants          $1,992,000                                                                                                                                     $272,103
1/30/2009    Oak Ridge Financial Services, Inc., Oak Ridge, NC      Preferred Stock w/ Warrants                    $7,700,000                                                                                                      $4.81       163,830          $1,363,542
12/5/2008    Oak Valley Bancorp, Oakdale, CA50                      Preferred Stock w/ Warrants                   $13,500,000   8/11/2011         $13,500,000              $­—    9/28/2011       R             $560,000           $7.49                        $1,811,250
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I October 25, 2012




1/16/2009    OceanFirst Financial Corp., Toms River, NJ             Preferred Stock w/ Warrants                   $38,263,000   12/30/2009        $38,263,000              $­—    2/3/2010        R             $430,797         $14.67                         $1,828,122
1/30/2009    Ojai Community Bank, Ojai, CA2                         Preferred Stock w/ Exercised Warrants          $2,080,000                                                                                                      $4.70                          $344,803
12/5/2008    Old Line Bancshares, Inc., Bowie, MD                   Preferred Stock w/ Warrants                    $7,000,000   7/15/2009           $7,000,000             $­—    9/2/2009        R             $225,000         $11.01                           $213,889
12/12/2008   Old National Bancorp, Evansville, IN                   Preferred Stock w/ Warrants                 $100,000,000    3/31/2009        $100,000,000              $­—    5/8/2009        R           $1,200,000         $13.61                         $1,513,889
1/16/2009    Old Second Bancorp, Inc., Aurora, IL                   Preferred Stock w/ Warrants                   $73,000,000                                                                                                      $1.44       815,339          $5,769,028
4/17/2009    Omega Capital Corp., Lakewood, CO2                     Preferred Stock w/ Exercised Warrants          $2,816,000                                                                                                                                      $50,311
5/8/2009     One Georgia Bank, Atlanta, GA2,56                      Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                                           $­—

                                                         8,10       Subordinated Debentures w/
6/5/2009     OneFinancial Corporation, Little Rock, AR                                                            $17,300,000                                                                                                                                   $3,782,991
                                                                    Exercised Warrants
12/19/2008   OneUnited Bank, Boston, MA2,3                          Preferred Stock                               $12,063,000                                                                                                                                      $93,823
4/24/2009    Oregon Bancorp, Inc., Salem, OR2                       Preferred Stock w/ Exercised Warrants          $3,216,000                                                                                                      $9.00                          $579,918
                                                                    Subordinated Debentures w/
5/1/2009     OSB Financial Services, Inc., Orange, TX8                                                             $6,100,000   10/5/2011           $6,100,000             $­—    10/5/2011       R             $305,000                                        $1,257,315
                                                                    Exercised Warrants
                                                           29
11/21/2008   Pacific Capital Bancorp, Santa Barbara, CA             Common Stock w/ Warrants                    $195,045,000                                                                                                     $45.90         15,120          $2,107,397
12/19/2008   Pacific City Financial Corporation, Los Angeles, CA2   Preferred Stock w/ Exercised Warrants         $16,200,000                                                                                                                                     $358,065
             Pacific Coast Bankers’ Bancshares,
12/23/2008                                                          Preferred Stock w/ Exercised Warrants         $11,600,000   7/28/2011         $11,600,000              $­—    7/28/2011       R             $580,000                                        $1,641,964
             San Francisco, CA2,50
1/16/2009    Pacific Coast National Bancorp, San Clemente, CA2,19   Preferred Stock w/ Exercised Warrants          $4,120,000   2/11/2010                 $­—              $­—    N/A                                 N/A          $0.01                           $18,088
12/23/2008   Pacific Commerce Bank, Los Angeles, CA2                Preferred Stock w/ Exercised Warrants          $4,060,000                                                                                                      $2.20                          $387,223
12/12/2008   Pacific International Bancorp, Seattle, WA             Preferred Stock w/ Warrants                    $6,500,000                                                                                                      $0.75                          $463,125
3/6/2009     Park Bancorporation, Inc., Madison, WI2                Preferred Stock w/ Exercised Warrants         $23,200,000   7/27/2012         $16,772,382              $­—    7/27/2012       P             $896,039                                        $4,351,643
12/23/2008   Park National Corporation, Newark, OH                  Preferred Stock w/ Warrants                 $100,000,000    4/25/2012        $100,000,000              $­—    5/2/2012        R           $2,842,400         $70.02                        $16,694,444
1/30/2009    Parke Bancorp, Inc., Sewell, NJ                        Preferred Stock w/ Warrants                   $16,288,000                                                                                                      $5.50       399,006          $2,884,333
             Pascack Bancorp, Inc. (Pascack Community Bank),
2/6/2009                                                            Preferred Stock w/ Exercised Warrants          $3,756,000   10/19/2011          $3,756,000             $­—    10/19/2011      R             $188,000                                          $553,313
             Westwood, NJ2,13
                                                     2
12/19/2008   Patapsco Bancorp, Inc., Dundalk, MD                    Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                      $1.10                          $377,867
9/11/2009    Pathfinder Bancorp, Inc., Oswego, NY49                 Preferred Stock w/ Warrants                    $6,771,000   9/1/2011            $6,771,000             $­—    2/1/2012        R             $537,633         $10.65                           $667,696
3/27/2009    Pathway Bancorp, Cairo, NE2                            Preferred Stock w/ Exercised Warrants          $3,727,000                                                                                                                                      $77,852
12/19/2008   Patriot Bancshares, Inc., Houston, TX2                 Preferred Stock w/ Exercised Warrants         $26,038,000                                                                                                                                   $2,704,136
                                                                                                                                3/7/2012             $250,000       $3,440,000
4/17/2009    Patterson Bancshares, Inc, Patterson, LA2              Preferred Stock w/ Exercised Warrants          $3,690,000                                                                                                                                     $683,249
                                                                                                                                8/22/2012            $250,000       $3,190,000
                                                                                                                                1/6/2010            $7,172,000     $21,513,000
             Peapack-Gladstone Financial Corporation,
1/9/2009                                                            Preferred Stock w/ Warrants                   $28,685,000   3/2/2011            $7,172,000     $14,341,000    4/4/2012        R             $110,000         $16.34                         $3,280,740
             Gladstone, NJ
                                                                                                                                1/11/2012         $14,341,000              $­—
                                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                      (CONTINUED)
                                                                                                                                Capital                                           Final                                            Stock        Current
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                           Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
1/30/2009    Peninsula Bank Holding Co., Palo Alto, CA             Preferred Stock w/ Warrants                     $6,000,000                                                                                                      $9.80        81,670          $1,083,943
4/17/2009    Penn Liberty Financial Corp., Wayne, PA2,49           Preferred Stock w/ Exercised Warrants           $9,960,000   9/1/2011            $9,960,000             $­—    9/1/2011        R             $498,000                                        $1,287,689
2/13/2009    Peoples Bancorp, Lynden, WA2,62                       Preferred Stock w/ Exercised Warrants          $18,000,000   8/3/2011          $18,000,000              $­—    8/3/2011        R             $900,000                                        $2,425,250
                                                                                                                                2/2/2011          $21,000,000      $18,000,000
1/30/2009    Peoples Bancorp Inc., Marietta, OH                    Preferred Stock w/ Warrants                    $39,000,000                                                     2/15/2012       R           $1,200,724         $22.89                         $4,725,833
                                                                                                                                12/28/2011        $18,000,000              $­—
             Peoples Bancorp of North Carolina, Inc.,
12/23/2008                                                         Preferred Stock w/ Warrants                    $25,054,000   6/27/2012         $23,033,635              $­—    8/8/2012        R             $425,000         $10.00                         $4,419,331
             Newton, NC93
                                                          2,83
4/24/2009    Peoples Bancorporation, Inc., Easley, SC              Preferred Stock w/ Exercised Warrants          $12,660,000   4/24/2012         $12,660,000              $­—    4/24/2012       R             $633,000                                        $2,069,910
3/20/2009    Peoples Bancshares of TN, Inc, Madisonville, TN2      Preferred Stock w/ Exercised Warrants           $3,900,000                                                                                                                                     $723,260
3/6/2009     PeoplesSouth Bancshares, Inc., Colquitt, GA2          Preferred Stock w/ Exercised Warrants          $12,325,000                                                                                                                                   $2,311,733
9/11/2009    PFSB Bancorporation, Inc., Pigeon Falls, WI2,10,50    Preferred Stock w/ Exercised Warrants           $1,500,000   8/25/2011           $1,500,000             $­—    8/25/2011       R              $71,000                                          $159,163
2/6/2009     PGB Holdings, Inc., Chicago, IL3,30                   Preferred Stock                                 $3,000,000   8/13/2010           $3,000,000             $­—    N/A                                 N/A                                         $227,917
1/23/2009    Pierce County Bancorp, Tacoma, WA2,51                 Preferred Stock w/ Exercised Warrants           $6,800,000                                                                                                                                     $207,948
             Pinnacle Bank Holding Company, Inc.,
3/6/2009                                                           Preferred Stock w/ Exercised Warrants           $4,389,000                                                                                                                                     $284,999
             Orange City, FL2,116
                                                                                                                                12/28/2011        $23,750,000      $71,250,000
12/12/2008   Pinnacle Financial Partners, Inc., Nashville, TN      Preferred Stock w/ Warrants                    $95,000,000                                                     7/18/2012       R             $755,000         $19.32                        $16,163,194
                                                                                                                                6/20/2012         $71,250,000              $­—
12/19/2008   Plains Capital Corporation, Dallas, TX2,49            Preferred Stock w/ Exercised Warrants          $87,631,000   9/27/2011         $87,631,000              $­—    9/27/2011       R           $4,382,000                                       $13,239,940

                                                   8,10            Subordinated Debentures w/
7/17/2009    Plato Holdings Inc., Saint Paul, MN                                                                   $2,500,000                                                                                                                                     $534,286
                                                                   Exercised Warrants
1/30/2009    Plumas Bancorp, Quincy, CA                            Preferred Stock w/ Warrants                    $11,949,000                                                                                                      $3.54       237,712            $622,344
12/5/2008    Popular, Inc., San Juan, PR12                         Trust Preferred Securities w/ Warrants       $935,000,000                                                                                                     $17.45      2,093,284       $159,859,028
11/21/2008   Porter Bancorp Inc., Louisville, KY                   Preferred Stock w/ Warrants                    $35,000,000                                                                                                      $1.92       330,561          $4,783,333
4/3/2009     Prairie Star Bancshares, Inc., Olathe, KS2            Preferred Stock w/ Exercised Warrants           $2,800,000                                                                                                                                     $132,253
5/8/2009     Premier Bancorp, Inc., Wilmette, IL3,8,30             Subordinated Debentures                         $6,784,000   8/13/2010           $6,784,000             $­—    N/A                                 N/A                                         $660,215
3/20/2009    Premier Bank Holding Company, Tallahassee, FL2        Preferred Stock w/ Exercised Warrants           $9,500,000                                                                                                                                     $467,413
10/2/2009    Premier Financial Bancorp, Inc., Huntington, WV112    Preferred Stock w/ Warrants                    $22,252,000   7/27/2012         $19,849,222              $­—                                                     $9.15       628,588          $3,203,018
                                                                   Subordinated Debentures w/
5/22/2009    Premier Financial Corp, Dubuque, IA8                                                                  $6,349,000                                                                                                                                     $522,263
                                                                   Exercised Warrants
2/20/2009    Premier Service Bank, Riverside, CA2                  Preferred Stock w/ Exercised Warrants           $4,000,000                                                                                                      $1.57                           $54,500
2/13/2009    PremierWest Bancorp, Medford, OR                      Preferred Stock w/ Warrants                    $41,400,000                                                                                                      $1.41       109,039          $1,046,500
11/20/2009   Presidio Bank, San Francisco, CA2,10                  Preferred Stock w/ Exercised Warrants          $10,800,000                                                                                                      $7.25                        $1,557,531
1/23/2009    Princeton National Bancorp, Inc., Princeton, IL       Preferred Stock w/ Warrants                    $25,083,000                                                                                                      $0.22       155,025          $2,271,405
2/27/2009    Private Bancorporation, Inc., Minneapolis, MN2        Preferred Stock w/ Exercised Warrants           $4,960,000
                                                                                                                                                                                                                                                                  $498,860
12/29/2009   Private Bancorporation, Inc., Minneapolis, MN2,10a    Preferred Stock                                 $3,262,000
1/30/2009    PrivateBancorp, Inc., Chicago, IL                     Preferred Stock w/ Warrants                  $243,815,000                                                                                                     $15.99        645,013         $43,175,573
10/2/2009    Providence Bank, Rocky Mount, NC2,10,49               Preferred Stock w/ Exercised Warrants           $4,000,000   9/15/2011           $4,000,000             $­—    9/15/2011       R             $175,000                                          $421,312
3/13/2009    Provident Community Bancshares, Inc., Rock Hill, SC   Preferred Stock w/ Warrants                     $9,266,000                                                                                                      $0.39       178,880            $543,091
2/27/2009    PSB Financial Corporation, Many, LA2,30               Preferred Stock w/ Exercised Warrants           $9,270,000   9/29/2010           $9,270,000             $­—    9/29/2010       R             $464,000                                          $802,802
1/16/2009    Puget Sound Bank, Bellevue, WA2,49                    Preferred Stock w/ Exercised Warrants           $4,500,000   8/11/2011           $4,500,000             $­—    8/11/2011       R             $225,000         $10.85                           $630,157
1/16/2009    Pulaski Financial Corp, Creve Coeur, MO96             Preferred Stock w/ Warrants                    $32,538,000   6/27/2012         $28,460,338              $­—    8/8/2012        R           $1,100,000           $8.25                        $5,635,509
2/13/2009    QCR Holdings, Inc., Moline, IL49                      Preferred Stock w/ Warrants                    $38,237,000   9/15/2011         $38,237,000              $­—    11/16/2011      R           $1,100,000         $14.98                         $4,949,567
10/30/2009   Randolph Bank & Trust Company, Asheboro, NC2          Preferred Stock w/ Exercised Warrants           $6,229,000                                                                                                                                     $608,163
6/19/2009    RCB Financial Corporation, Rome, GA2,10               Preferred Stock w/ Exercised Warrants           $8,900,000                                                                                                                                     $893,934
1/16/2009    Redwood Capital Bancorp, Eureka, CA2,49               Preferred Stock w/ Exercised Warrants           $3,800,000   7/21/2011           $3,800,000             $­—    7/21/2011       R             $190,000           $7.90                          $520,626
1/9/2009     Redwood Financial Inc., Redwood Falls, MN2,49         Preferred Stock w/ Exercised Warrants           $2,995,000   8/18/2011           $2,995,000             $­—    8/18/2011       R             $150,000         $11.60                           $425,811
3/6/2009     Regent Bancorp, Inc., Davie, FL2                      Preferred Stock w/ Exercised Warrants           $9,982,000                                                                                                                                     $784,282
                                                                                                                                                                                                                                                                               Transaction detail I Appendix D I October 25, 2012




2/27/2009    Regent Capital Corporation, Nowata, OK2,49            Preferred Stock w/ Exercised Warrants           $2,655,000   7/21/2011           $2,655,000             $­—    7/21/2011       R             $133,000                                          $347,328
10/23/2009   Regents Bancshares, Inc., Vancouver, WA2,10,69        Preferred Stock w/ Exercised Warrants          $12,700,000   1/27/2012         $12,700,000              $­—    1/27/2012       R             $381,000                                        $1,513,339
2/13/2009    Regional Bankshares, Inc., Hartsville, SC2            Preferred Stock w/ Exercised Warrants           $1,500,000                                                                                                                                     $286,580
11/14/2008   Regions Financial Corporation, Birmingham, AL         Preferred Stock w/ Warrants                 $3,500,000,000   4/4/2012        $3,500,000,000             $­—    5/2/2012        R          $45,000,000           $7.20                     $593,055,556
                                                                                                                                                                                                                                                      Continued on next page
                                                                                                                                                                                                                                                                               247
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                     (CONTINUED)                                                                                                                                                                        248
                                                                                                                                Capital                                           Final                                            Stock        Current
Purchase                                                                                                                        Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                            Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
2/13/2009    Reliance Bancshares, Inc., Frontenac, MO2              Preferred Stock w/ Exercised Warrants         $40,000,000                                                                                                      $0.98                        $3,827,111
2/27/2009    Ridgestone Financial Services, Inc., Brookfield, WI2   Preferred Stock w/ Exercised Warrants         $10,900,000                                                                                                                                     $277,224
1/9/2009     Rising Sun Bancorp, Rising Sun, MD2                    Preferred Stock w/ Exercised Warrants          $5,983,000                                                                                                                                     $195,637
                                                                    Subordinated Debentures w/
6/12/2009    River Valley Bancorporation, Inc., Wausau, WI8                                                       $15,000,000   6/6/2012          $10,500,000       $4,500,000                                                   $16.92                         $3,840,775
                                                                    Exercised Warrants
                                                                    Subordinated Debentures w/
5/15/2009    Riverside Bancshares, Inc., Little Rock, AR8                                                          $1,100,000                                                                                                                                     $276,870
                                                                    Exercised Warrants
1/30/2009    Rogers Bancshares, Inc., Little Rock, AR2              Preferred Stock w/ Exercised Warrants         $25,000,000                                                                                                                                     $738,021
             Royal Bancshares of Pennsylvania, Inc.,
2/20/2009                                                           Preferred Stock w/ Warrants                   $30,407,000                                                                                                      $2.24     1,104,370            $358,971
             Narberth, PA
1/16/2009    S&T Bancorp, Indiana, PA                               Preferred Stock w/ Warrants                 $108,676,000    12/7/2011        $108,676,000              $­—                                                   $17.61        517,012         $15,712,738
12/23/2008   Saigon National Bank, Westminster, CA2                 Preferred Stock w/ Exercised Warrants          $1,549,000                                                                                                      $0.50                                $­—
3/13/2009    Salisbury Bancorp, Inc., Lakeville, CT49               Preferred Stock w/ Warrants                    $8,816,000   8/25/2011           $8,816,000             $­—    11/2/2011       R             $205,000         $25.00                         $1,079,960
                                                                                                                                7/21/2010         $41,547,000      $41,547,000
12/5/2008    Sandy Spring Bancorp, Inc., Olney, MD                  Preferred Stock w/ Warrants                   $83,094,000                                                     2/23/2011       R           $4,450,000         $19.25                         $7,593,868
                                                                                                                                12/15/2010        $41,547,000              $­—
2/13/2009    Santa Clara Valley Bank, N.A., Santa Paula, CA2        Preferred Stock w/ Exercised Warrants          $2,900,000                                                                                                      $5.49                          $158,928
12/19/2008   Santa Lucia Bancorp, Atascadero, CA64                  Preferred Stock w/ Warrants                    $4,000,000   10/21/2011          $2,800,000             $­—    N/A                                 N/A          $0.34                          $331,111
3/27/2009    SBT Bancorp, Inc., Simsbury, CT2,49                    Preferred Stock w/ Exercised Warrants          $4,000,000   8/11/2011           $4,000,000             $­—    8/11/2011       R             $200,000                                          $517,145
                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I October 25, 2012




1/16/2009    SCBT Financial Corporation, Columbia, SC               Preferred Stock w/ Warrants                   $64,779,000   5/20/2009         $64,779,000              $­—    6/24/2009       R           $1,400,000         $40.28                         $1,115,639
             Seacoast Banking Corporation of Florida,
12/19/2008                                                          Preferred Stock w/ Warrants                   $50,000,000   3/28/2012         $40,404,700              $­—    5/30/2012       R              $55,000           $1.59                        $8,585,770
             Stuart, FL77
12/23/2008   Seacoast Commerce Bank, Chula Vista, CA2,49            Preferred Stock w/ Exercised Warrants          $1,800,000   9/1/2011            $1,800,000             $­—    9/1/2011        R              $90,000           $4.60                          $263,780
             Security Bancshares of Pulaski County, Inc.,
2/13/2009                                                           Preferred Stock w/ Exercised Warrants          $2,152,000                                                                                                                                     $411,272
             Waynesville, MO2
1/9/2009     Security Business Bancorp, San Diego, CA2,49           Preferred Stock w/ Exercised Warrants          $5,803,000   7/14/2011           $5,803,000             $­—    7/14/2011       R             $290,000                                          $795,018
1/9/2009     Security California Bancorp, Riverside, CA2,49         Preferred Stock w/ Exercised Warrants          $6,815,000   9/15/2011           $6,815,000             $­—    9/15/2011       R             $341,000           $9.00                          $996,698
6/26/2009    Security Capital Corporation, Batesville, MS2,10,30    Preferred Stock w/ Exercised Warrants         $17,388,000   9/29/2010         $17,388,000              $­—    9/29/2010       R             $522,000                                        $1,153,111
12/19/2008   Security Federal Corporation, Aiken, SC30              Preferred Stock w/ Warrants                   $18,000,000   9/29/2010         $18,000,000              $­—                                                     $8.60       137,966          $1,600,000
2/20/2009    Security State Bancshares, Inc., Charleston, MO2,49    Preferred Stock w/ Exercised Warrants         $12,500,000   9/22/2011         $12,500,000              $­—    9/22/2011       R             $625,000                                        $1,763,680
             Security State Bank Holding-Company,                   Subordinated Debentures w/
5/1/2009                                                                                                          $10,750,000                                                                                                                                   $1,414,005
             Jamestown, ND8                                         Exercised Warrants
11/21/2008   Severn Bancorp, Inc., Annapolis, MD                    Preferred Stock w/ Warrants                   $23,393,000                                                                                                      $3.17       556,976          $3,781,869
1/9/2009     Shore Bancshares, Inc., Easton, MD                     Preferred Stock w/ Warrants                   $25,000,000   4/15/2009         $25,000,000              $­—    11/16/2011      R              $25,000           $6.02       172,970            $333,333

                                                     8              Subordinated Debentures w/
6/26/2009    Signature Bancshares, Inc., Dallas, TX                                                                $1,700,000   12/15/2010          $1,700,000             $­—    12/15/2010      R              $85,000                                          $209,588
                                                                    Exercised Warrants
12/12/2008   Signature Bank, New York, NY                           Preferred Stock w/ Warrants                 $120,000,000    3/31/2009        $120,000,000              $­—    3/10/2010       A          $11,150,940         $67.08                         $1,816,667
1/16/2009    Somerset Hills Bancorp, Bernardsville, NJ              Preferred Stock w/ Warrants                    $7,414,000   5/20/2009           $7,414,000             $­—    6/24/2009       R             $275,000           $8.45                          $127,686
2/20/2009    Sonoma Valley Bancorp, Sonoma, CA2,25                  Preferred Stock w/ Exercised Warrants          $8,653,000                                                                                                                                     $347,164
1/9/2009     Sound Banking Company, Morehead City, NC2              Preferred Stock w/ Exercised Warrants          $3,070,000                                                                                                      $4.75                          $602,496
12/5/2008    South Financial Group, Inc., Greenville, SC26          Preferred Stock w/ Warrants                 $347,000,000    9/30/2010        $130,179,219              $­—    9/30/2010       R             $400,000                                       $16,386,111
7/17/2009    SouthCrest Financial Group, Inc., Fayetteville, GA2    Preferred Stock w/ Exercised Warrants         $12,900,000                                                                                                      $4.75                          $933,494
1/16/2009    Southern Bancorp, Inc., Arkadelphia, AR3,30            Preferred Stock                               $11,000,000   8/6/2010          $11,000,000              $­—    N/A                                 N/A                                         $855,556
             Southern Community Financial Corp.,
12/5/2008                                                           Preferred Stock w/ Warrants                   $42,750,000                                                                                                      $3.37     1,623,418          $4,156,250
             Winston-Salem, NC
2/27/2009    Southern First Bancshares, Inc., Greenville, SC98      Preferred Stock w/ Warrants                   $17,299,000   6/27/2012         $15,403,722              $­—    7/25/2012       R           $1,100,000           $8.96                        $2,897,640
             Southern Heritage Bancshares, Inc.,
5/15/2009                                                           Preferred Stock w/ Exercised Warrants          $4,862,000   9/8/2011            $4,862,000             $­—    9/8/2011        R             $243,000                                          $613,111
             Cleveland, TN2,50
1/23/2009    Southern Illinois Bancorp, Inc., Carmi, IL2,49         Preferred Stock w/ Exercised Warrants          $5,000,000   8/25/2011           $5,000,000             $­—    8/25/2011       R             $250,000                                          $705,472
12/5/2008    Southern Missouri Bancorp, Inc., Poplar Bluff, MO49    Preferred Stock w/ Warrants                    $9,550,000   7/21/2011           $9,550,000             $­—                                                   $24.08        114,326          $1,254,764
6/12/2009    SouthFirst Bancshares, Inc., Sylacauga, AL2            Preferred Stock w/ Exercised Warrants          $2,760,000                                                                                                      $0.67                          $364,796
12/5/2008    Southwest Bancorp, Inc., Stillwater, OK                Preferred Stock w/ Warrants                   $70,000,000   8/8/2012          $70,000,000              $­—                                                   $10.85        703,753         $12,960,373
3/13/2009    Sovereign Bancshares, Inc., Dallas, TX2,49             Preferred Stock w/ Exercised Warrants         $18,215,000   9/22/2011         $18,215,000              $­—    9/22/2011       R             $911,000                                        $2,506,669
3/27/2009    Spirit BankCorp, Inc., Bristow, OK2                    Preferred Stock w/ Exercised Warrants         $30,000,000                                                                                                                                   $2,261,750
                                                                                                                                                                                                                                                      Continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                          (CONTINUED)
                                                                                                                                     Capital                                           Final                                            Stock        Current
Purchase                                                                                                                             Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                                Investment Description                   Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
3/13/2009    St. Johns Bancshares, Inc., St. Louis, MO2                 Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                                     $559,533
4/24/2009    Standard Bancshares, Inc., Hickory Hills, IL2              Preferred Stock w/ Exercised Warrants          $60,000,000                                                                                                                                   $6,730,750
                                                                                                                                     8/12/2009         $12,500,000      $37,500,000
1/16/2009    State Bankshares, Inc., Fargo, ND2                         Preferred Stock w/ Exercised Warrants          $50,000,000                                                     6/29/2011       R           $2,500,000                                        $5,508,472
                                                                                                                                     6/29/2011         $37,500,000              $­—
2/13/2009    State Capital Corporation, Greenwood, MS2,30               Preferred Stock w/ Exercised Warrants          $15,000,000   9/29/2010         $15,000,000              $­—    9/29/2010       R             $750,000                                        $1,330,709
10/28/2008   State Street Corporation, Boston, MA                       Preferred Stock w/ Warrants                 $2,000,000,000   6/17/2009       $2,000,000,000             $­—    7/8/2009        R          $60,000,000         $41.96                        $63,611,111
                                                                        Subordinated Debentures w/
6/26/2009    Stearns Financial Services, Inc., St. Cloud, MN8                                                          $24,900,000   1/18/2012         $24,900,000              $­—    1/18/2012       R           $1,245,000                                        $5,350,442
                                                                        Exercised Warrants

                                                              8,10,50   Subordinated Debentures w/
9/25/2009    Steele Street Bank Corporation, Denver, CO                                                                $11,019,000   9/1/2011          $11,019,000              $­—    9/1/2011        R             $331,000                                        $1,728,673
                                                                        Exercised Warrants
                                                                                                                                     4/13/2011           $7,500,000     $22,500,000
12/19/2008   StellarOne Corporation, Charlottesville, VA                Preferred Stock w/ Warrants                    $30,000,000                                                                                                    $13.16        302,623          $4,271,875
                                                                                                                                     12/28/2011        $22,500,000              $­—
12/23/2008   Sterling Bancorp, New York, NY                             Preferred Stock w/ Warrants                    $42,000,000   4/27/2011         $42,000,000              $­—    5/18/2011       R             $945,775           $9.92                        $4,923,333
12/12/2008   Sterling Bancshares, Inc., Houston, TX                     Preferred Stock w/ Warrants                  $125,198,000    5/5/2009         $125,198,000              $­—    6/9/2010        A           $2,857,915                                        $2,486,571
12/5/2008    Sterling Financial Corporation, Spokane, WA24,118          Common Stock w/ Warrants                     $303,000,000    8/14/2012        $113,338,081              $­—    9/19/2012       R             $825,000         $22.27                         $6,733,333
             Stewardship Financial Corporation,
1/30/2009                                                               Preferred Stock w/ Warrants                    $10,000,000   9/1/2011          $10,000,000              $­—    10/26/2011      R             $107,398           $4.22                        $1,293,055
             Midland Park, NJ49
                                                                                                                                     1/14/2011           $4,000,000     $11,568,000
2/6/2009     Stockmens Financial Corporation, Rapid City, SD2           Preferred Stock w/ Exercised Warrants          $15,568,000                                                     3/16/2011       R             $778,000                                        $1,755,554
                                                                                                                                     3/16/2011         $11,568,000              $­—
1/23/2009    Stonebridge Financial Corp., West Chester, PA2             Preferred Stock w/ Exercised Warrants          $10,973,000                                                                                                                                     $634,609

                                                              8         Subordinated Debentures w/
6/19/2009    Suburban Illinois Bancorp, Inc., Elmhurst, IL                                                             $15,000,000                                                                                                                                   $2,083,520
                                                                        Exercised Warrants
12/19/2008   Summit State Bank, Santa Rosa, CA49                        Preferred Stock w/ Warrants                     $8,500,000   8/4/2011            $8,500,000             $­—    9/14/2011       R             $315,000           $6.20                        $1,115,625
1/9/2009     Sun Bancorp, Inc., Vineland, NJ                            Preferred Stock w/ Warrants                    $89,310,000   4/8/2009          $89,310,000              $­—    5/27/2009       R           $2,100,000           $3.37                        $1,103,971
11/14/2008   SunTrust Banks, Inc., Atlanta, GA                          Preferred Stock w/ Warrants                 $3,500,000,000   3/30/2011       $3,500,000,000             $­—    9/22/2011       A          $14,069,763
                                                                                                                                                                                                                                      $28.27                      $567,986,111
12/31/2008   SunTrust Banks, Inc., Atlanta, GA                          Preferred Stock w/ Warrants                 $1,350,000,000   3/30/2011       $1,350,000,000             $­—    9/22/2011       A          $15,996,899
                                                      17,54
12/5/2008    Superior Bancorp Inc., Birmingham, AL                      Trust Preferred Securities w/ Warrants         $69,000,000                                                                                                                1,923,792          $4,983,333
1/9/2009     Surrey Bancorp, Mount Airy, NC2                            Preferred Stock w/ Exercised Warrants           $2,000,000   12/29/2010          $2,000,000             $­—    12/29/2010      R             $100,000           $8.85                          $214,972
                                                                                                                                     4/21/2010        $200,000,000     $100,000,000
12/12/2008   Susquehanna Bancshares, Inc, Lititz, PA                    Preferred Stock w/ Warrants                  $300,000,000                                                      1/19/2011       R           $5,269,179         $10.45                        $23,722,222
                                                                                                                                     12/22/2010       $100,000,000              $­—
                                            2
4/10/2009    SV Financial, Inc., Sterling, IL                           Preferred Stock w/ Exercised Warrants           $4,000,000   8/31/2011           $4,000,000             $­—    8/31/2011       R             $200,000                                          $521,383
12/12/2008   SVB Financial Group, Santa Clara, CA                       Preferred Stock w/ Warrants                  $235,000,000    12/23/2009       $235,000,000              $­—    6/16/2010       R           $6,820,000         $60.46                        $12,109,028
                                                                        Subordinated Debentures w/
5/8/2009     Sword Financial Corporation , Horicon, WI8,49                                                             $13,644,000   9/15/2011         $13,644,000              $­—    9/15/2011       R             $682,000                                        $2,693,234
                                                                        Exercised Warrants
12/19/2008   Synovus Financial Corp., Columbus, GA                      Preferred Stock w/ Warrants                  $967,870,000                                                                                                       $2.37    15,510,737       $176,905,128
1/16/2009    Syringa Bancorp, Boise, ID2                                Preferred Stock w/ Exercised Warrants           $8,000,000                                                                                                      $0.04                          $253,122
11/21/2008   Taylor Capital Group, Rosemont, IL86                       Preferred Stock w/ Warrants                  $104,823,000    6/13/2012         $92,254,460              $­—    7/18/2012       R           $9,839,273         $17.12                        $18,751,438
                                                                        Subordinated Debentures w/
8/28/2009    TCB Corporation, Greenwood, SC8,10,50                                                                      $9,720,000   9/8/2011            $9,720,000             $­—    9/8/2011        R             $292,000                                        $1,599,381
                                                                        Exercised Warrants
             TCB Holding Company, Texas Community Bank,
1/16/2009                                                               Preferred Stock w/ Exercised Warrants          $11,730,000                                                                                                                                     $690,832
             The Woodlands, TX2
11/14/2008   TCF Financial Corporation, Wayzata, MN                     Preferred Stock w/ Warrants                  $361,172,000    4/22/2009        $361,172,000              $­—    12/15/2009      A           $9,449,981         $11.94                         $7,925,719
12/23/2008   TCNB Financial Corp., Dayton, OH2                          Preferred Stock w/ Exercised Warrants           $2,000,000   8/3/2011            $2,000,000             $­—    8/3/2011        R             $100,000                                          $284,611
12/19/2008   Tennessee Commerce Bancorp, Inc., Franklin, TN70           Preferred Stock w/ Warrants                    $30,000,000                                                                                                                  461,538          $3,233,333
             Tennessee Valley Financial Holdings, Inc.,
12/23/2008                                                              Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                                     $146,242
             Oak Ridge, TN2
1/16/2009    Texas Capital Bancshares, Inc., Dallas, TX                 Preferred Stock w/ Warrants                    $75,000,000   5/13/2009         $75,000,000              $­—    3/11/2010       A           $6,559,066         $49.71                         $1,218,750
1/9/2009     Texas National Bancorporation, Jacksonville, TX2           Preferred Stock w/ Exercised Warrants           $3,981,000   5/19/2010           $3,981,000             $­—    5/19/2010       R             $199,000                                          $295,308
8/7/2009     The ANB Corporation, Terrell, TX2,49                       Preferred Stock w/ Exercised Warrants          $20,000,000   8/25/2011         $20,000,000              $­—    8/25/2011       R           $1,000,000                                        $2,234,500
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I October 25, 2012




12/12/2008   The Bancorp, Inc., Wilmington, DE                          Preferred Stock w/ Warrants                    $45,220,000   3/10/2010         $45,220,000              $­—    9/8/2010        R           $4,753,985         $10.27                         $2,813,689
2/6/2009     The Bank of Currituck, Moyock, NC2,34                      Preferred Stock w/ Exercised Warrants           $4,021,000   12/3/2010           $1,742,850             $­—    N/A                                 N/A                                         $169,834
                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    249
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                    (CONTINUED)                                                                                                                                                                        250
                                                                                                                               Capital                                           Final                                            Stock        Current
Purchase                                                                                                                       Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                           Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury

             The Bank of Kentucky Financial Corporation,                                                                       12/22/2010        $17,000,000      $17,000,000
2/13/2009                                                          Preferred Stock w/ Warrants                   $34,000,000                                                                                                    $27.74        274,784          $3,940,694
             Crestview Hills, KY                                                                                               11/23/2011        $17,000,000              $­—
             The Bank of New York Mellon Corporation,
10/28/2008                                                         Preferred Stock w/ Warrants                $3,000,000,000   6/17/2009       $3,000,000,000             $­—    8/5/2009        R        $136,000,000          $22.62                        $95,416,667
             New York, NY
1/16/2009    The Baraboo Bancorporation, Baraboo, WI2              Preferred Stock w/ Exercised Warrants         $20,749,000                                                                                                      $2.50                        $3,766,127
             The Connecticut Bank and Trust Company,
12/19/2008                                                         Preferred Stock w/ Warrants                    $5,448,000   4/19/2012           $5,448,000             $­—    4/19/2012       R             $792,783           $8.40                          $662,083
             Hartford, CT81
12/19/2008   The Elmira Savings Bank, FSB, Elmira, NY49            Preferred Stock w/ Warrants                    $9,090,000   8/25/2011           $9,090,000             $­—                                                   $19.80        128,192          $1,219,575
1/9/2009     The First Bancorp, Inc., Damariscotta, ME             Preferred Stock w/ Warrants                   $25,000,000   8/24/2011         $12,500,000      $12,500,000                                                   $17.55        225,904          $3,890,625
2/6/2009     The First Bancshares, Inc., Hattiesburg, MS30         Preferred Stock w/ Warrants                    $5,000,000   9/29/2010           $5,000,000             $­—                                                                  54,705            $411,806
2/6/2009     The Freeport State Bank, Harper, KS2                  Preferred Stock w/ Exercised Warrants           $301,000                                                                                                                                       $57,810
10/28/2008   The Goldman Sachs Group, Inc., New York, NY           Preferred Stock w/ Warrants               $10,000,000,000   6/17/2009      $10,000,000,000             $­—    7/22/2009       R      $1,100,000,000         $113.68                      $318,055,555
5/22/2009    The Landrum Company, Columbia, MO2,49                 Preferred Stock w/ Exercised Warrants         $15,000,000   8/18/2011         $15,000,000              $­—    8/18/2011       R             $750,000                                        $1,830,292
12/23/2008   The Little Bank, Incorporated, Kinston, NC2           Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                                   $1,489,667
             The PNC Financial Services Group Inc.,
12/31/2008                                                         Preferred Stock w/ Warrants                $7,579,200,000   2/10/2010       $7,579,200,000             $­—    4/29/2010       A        $320,277,984          $63.10                      $421,066,667
             Pittsburgh, PA
2/20/2009    The Private Bank of California, Los Angeles, CA2,49   Preferred Stock w/ Exercised Warrants          $5,450,000   9/1/2011            $5,450,000             $­—    9/1/2011        R             $273,000                                          $751,752
1/9/2009     The Queensborough Company, Louisville, GA2            Preferred Stock w/ Exercised Warrants         $12,000,000                                                                                                                                     $882,900
                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I October 25, 2012




                                                                   Subordinated Debentures w/
9/4/2009     The State Bank of Bartley, Bartley, NE8,10,49                                                        $1,697,000   9/22/2011           $1,697,000             $­—    9/22/2011       R              $51,000                                          $282,299
                                                                   Exercised Warrants
             The Victory Bancorp, Inc. (The Victory Bank),
12/11/2009                                                         Preferred Stock w/ Exercised Warrants          $1,505,000   9/22/2011           $1,505,000             $­—    9/22/2011       R              $34,000
             Limerick, PA2,10a,49                                                                                                                                                                                                                                $215,183
                                                        2,13,49
2/27/2009    The Victory Bancorp, Inc., Limerick, PA               Preferred Stock w/ Exercised Warrants           $541,000    9/22/2011            $541,000              $­—    9/22/2011       R              $27,000
             Three Shores Bancorporation, Inc. (Seaside
1/23/2009                                                          Preferred Stock w/ Exercised Warrants          $5,677,000                                                                                                                                   $1,101,844
             National Bank & Trust), Orlando, FL2,13
12/5/2008    TIB Financial Corp, Naples, FL32                      Preferred Stock w/ Warrants                   $37,000,000   9/30/2010         $12,119,637              $­—    9/30/2010       R              $40,000         $13.81                         $1,284,722
12/19/2008   Tidelands Bancshares, Inc, Mount Pleasant, SC         Preferred Stock w/ Warrants                   $14,448,000                                                                                                                  571,821          $1,195,973
4/17/2009    Tifton Banking Company, Tifton, GA2,52                Preferred Stock w/ Exercised Warrants          $3,800,000                                                                                                                                     $223,208
12/23/2008   Timberland Bancorp, Inc., Hoquiam, WA                 Preferred Stock w/ Warrants                   $16,641,000                                                                                                      $6.00                        $3,142,223
4/3/2009     Titonka Bancshares, Inc, Titonka, IA2                 Preferred Stock w/ Exercised Warrants          $2,117,000   4/4/2012            $2,117,000             $­—    4/4/2012        R             $106,000                                          $346,491
2/6/2009     Todd Bancshares, Inc., Hopkinsville, KY2              Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                     $768,450
12/12/2008   TowneBank, Portsmouth, VA50                           Preferred Stock w/ Warrants                   $76,458,000   9/22/2011         $76,458,000              $­—                                                   $15.33        554,330         $10,619,167
1/16/2009    Treaty Oak Bancorp, Inc., Austin, TX2,36              Warrants                                       $3,268,000   2/15/2011            $500,000              $­—                                                     $0.25     3,098,341            $192,415
3/27/2009    Triad Bancorp, Inc., Frontenac, MO2,49                Preferred Stock w/ Exercised Warrants          $3,700,000   9/22/2011           $3,700,000             $­—    9/22/2011       R             $185,000                                          $501,325
12/19/2008   Tri-County Financial Corporation, Waldorf, MD2,49     Preferred Stock w/ Exercised Warrants         $15,540,000   9/22/2011         $15,540,000              $­—    9/22/2011       R             $777,000                                        $2,336,116
3/27/2009    Trinity Capital Corporation , Los Alamos, NM2,107     Preferred Stock w/ Exercised Warrants         $35,539,000   7/27/2012         $26,396,503              $­—    7/27/2012       P           $1,655,787                                        $6,592,186
4/3/2009     Tri-State Bank of Memphis, Memphis, TN2,3,30          Preferred Stock                                $2,795,000   8/13/2010           $2,795,000             $­—    N/A                                 N/A                                         $190,215
2/27/2009    TriState Capital Holdings, Inc., Pittsburgh, PA2      Preferred Stock w/ Exercised Warrants         $23,000,000   9/26/2012         $23,000,000              $­—    9/26/2012       R           $1,150,000                                        $4,492,402
4/3/2009     TriSummit Bank, Kingsport, TN2                        Preferred Stock w/ Exercised Warrants          $2,765,000
                                                                                                                                                                                                                                                               $1,068,070
12/22/2009   TriSummit Bank, Kingsport, TN2,10a                    Preferred Stock                                $4,237,000
11/21/2008   Trustmark Corporation, Jackson, MS                    Preferred Stock w/ Warrants                 $215,000,000    12/9/2009        $215,000,000              $­—    12/30/2009      R          $10,000,000         $24.34                        $11,287,500
5/29/2009    Two Rivers Financial Group, Burlington, IA2,49        Preferred Stock w/ Exercised Warrants         $12,000,000   9/1/2011          $12,000,000              $­—    9/1/2011        R             $600,000         $15.10                         $1,475,133
11/14/2008   U.S. Bancorp, Minneapolis, MN                         Preferred Stock w/ Warrants                $6,599,000,000   6/17/2009       $6,599,000,000             $­—    7/15/2009       R        $139,000,000          $34.30                      $195,220,417
8/7/2009     U.S. Century Bank, Miami, FL2                         Preferred Stock w/ Exercised Warrants         $50,236,000                                                                                                                                     $745,312
1/30/2009    UBT Bancshares, Inc., Marysville, KS2,49              Preferred Stock w/ Exercised Warrants          $8,950,000   8/11/2011           $8,950,000             $­—    8/11/2011       R             $450,000                                        $1,234,912
11/14/2008   UCBH Holdings, Inc., San Francisco, CA14              Preferred Stock w/ Warrants                 $298,737,000                                                                                                                 7,847,732          $7,509,920
11/14/2008   Umpqua Holdings Corp., Portland, OR                   Preferred Stock w/ Warrants                 $214,181,000    2/17/2010        $214,181,000              $­—    3/31/2010       R           $4,500,000         $12.90                        $13,475,555
5/1/2009     Union Bank & Trust Company, Oxford, NC2,50            Preferred Stock w/ Exercised Warrants          $3,194,000   9/22/2011           $3,194,000             $­—    9/22/2011       R             $160,000
                                                                                                                                                                                                                                                                 $680,292
12/18/2009   Union Bank & Trust Company, Oxford, NC2,10a,49        Preferred Stock                                $2,997,000   9/22/2011           $2,997,000             $­—    N/A                                 N/A
12/29/2009   Union Financial Corporation, Albuquerque, NM2,10      Preferred Stock w/ Exercised Warrants          $2,179,000   7/25/2012            $600,000       $1,579,000                                                                                    $300,002
                                                                                                                                                                                                                                                     Continued on next page
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                        (CONTINUED)
                                                                                                                                 Capital                                           Final                                            Stock        Current
Purchase                                                                                                                         Repayment    Capital Repayment       Remaining    Disposition            Final Disposition    Price as of   Outstanding   Dividend/Interest
Date         Institution                                             Investment Description                  Investment Amount   Date            Amount (Loss)6   Capital Amount   Date          Note15          Proceeds     9/28/2012        Warrants     Paid to Treasury
             Union First Market Bankshares Corporation
2/6/2009                                                             Preferred Stock                               $33,900,000   12/7/2011         $35,595,000              $­—    N/A                                 N/A                                       $5,239,859
             (First Market Bank, FSB), Bowling Green, VA18
             Union First Market Bankshares Corporation                                                                                                                                                                            $15.56
12/19/2008   (Union Bankshares Corporation), Bowling Green,          Preferred Stock w/ Warrants                   $59,000,000   11/18/2009        $59,000,000              $­—    12/23/2009      R             $450,000                                        $2,695,972
             VA18
                                                      2
2/20/2009    United American Bank, San Mateo, CA                     Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                                           $­—
1/16/2009    United Bancorp, Inc., Tecumseh, MI91                    Preferred Stock w/ Warrants                   $20,600,000   6/13/2012         $16,750,221              $­—    7/18/2012       R              $38,000           $7.10                        $3,527,704
12/23/2008   United Bancorporation of Alabama, Inc., Atmore, AL30    Preferred Stock w/ Warrants                   $10,300,000   9/3/2010          $10,300,000              $­—                                                                 108,264            $872,639
                                                                     Subordinated Debentures w/
5/22/2009    United Bank Corporation, Barnesville, GA8                                                             $14,400,000   7/3/2012          $14,400,000              $­—    7/3/2012        R             $720,000                                        $3,762,079
                                                                     Exercised Warrants
12/5/2008    United Community Banks, Inc., Blairsville, GA           Preferred Stock w/ Warrants                 $180,000,000                                                                                                       $8.39       219,908         $33,268,750
             United Financial Banking Companies, Inc.,
                                                                     Preferred Stock w/ Exercised Warrants          $5,658,000   12/15/2010          $3,000,000      $2,658,000
1/16/2009    Vienna, VA2,49                                                                                                                                                        9/15/2011       R             $283,000         $16.94                           $708,964
             United Financial Banking Companies, Inc., Vienna, VA                                                                9/15/2011           $2,658,000             $­—
12/5/2008    Unity Bancorp, Inc., Clinton, NJ                        Preferred Stock w/ Warrants                   $20,649,000                                                                                                      $6.13                        $3,814,330
5/22/2009    Universal Bancorp, Bloomfield, IN2                      Preferred Stock w/ Exercised Warrants          $9,900,000                                                                                                                                   $1,743,046
6/19/2009    University Financial Corp, Inc., St. Paul, MN3,8,30     Subordinated Debentures                       $11,926,000   7/30/2010         $11,926,000              $­—    N/A                                 N/A                                       $1,022,886
2/6/2009     US Metro Bank, Garden Grove, CA2                        Preferred Stock w/ Exercised Warrants          $2,861,000                                                                                                      $4.40                          $432,678
12/23/2008   Uwharrie Capital Corp, Albemarle, NC2                   Preferred Stock w/ Exercised Warrants         $10,000,000                                                                                                      $3.95                        $1,986,222
1/30/2009    Valley Commerce Bancorp, Visalia, CA2                   Preferred Stock w/ Exercised Warrants          $7,700,000   3/21/2012           $7,700,000             $­—    3/21/2012       R             $385,000         $10.38                         $1,318,401
1/9/2009     Valley Community Bank, Pleasanton, CA2                  Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                      $1.30                          $629,476
12/12/2008   Valley Financial Corporation, Roanoke, VA               Preferred Stock w/ Warrants                   $16,019,000                                                                                                                  344,742          $2,981,668
             Valley Financial Group, Ltd., 1st State Bank,
12/18/2009                                                           Preferred Stock w/ Exercised Warrants          $1,300,000   9/22/2011           $1,300,000             $­—    9/22/2011       R              $65,000                                          $124,775
             Saginaw, MI2,49
                                                                                                                                 6/3/2009          $75,000,000     $225,000,000
11/14/2008   Valley National Bancorp, Wayne, NJ68                    Preferred Stock w/ Warrants                 $300,000,000    9/23/2009        $125,000,000     $100,000,000                                                                 488,847         $12,979,167
                                                                                                                                                                                   5/18/2010       A           $5,421,615         $10.02
                                                                                                                                 12/23/2009       $100,000,000              $­—
12/5/2008    Valley National Bancorp (State Bancorp, Inc.)           Preferred Stock w/ Warrants                   $36,842,000   12/14/2011        $36,842,000              $­—                                                                                  $5,572,353
             Veritex Holdings, Inc. (Fidelity Resources Company),
6/26/2009                                                            Preferred Stock w/ Exercised Warrants          $3,000,000   8/25/2011           $3,000,000             $­—    8/25/2011       R             $150,000                                          $353,796
             Dallas, TX2,40,49
5/1/2009     Village Bank and Trust Financial Corp, Midlothian, VA   Preferred Stock w/ Warrants                   $14,738,000                                                                                                      $1.05       499,029          $1,318,232
12/12/2008   Virginia Commerce Bancorp, Arlington, VA                Preferred Stock w/ Warrants                   $71,000,000                                                                                                      $8.75     2,696,203         $13,046,250
6/12/2009    Virginia Company Bank, Newport News, VA2,10             Preferred Stock w/ Exercised Warrants          $4,700,000                                                                                                                                     $786,987
4/24/2009    Vision Bank - Texas, Richardson, TX2                    Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                                     $270,457
12/19/2008   VIST Financial Corp., Wyomissing, PA117                 Preferred Stock w/ Warrants                   $25,000,000   8/1/2012          $25,000,000              $­—    8/1/2012        R           $1,189,813         $12.16                         $4,520,833
1/30/2009    W.T.B. Financial Corporation, Spokane, WA2,50           Preferred Stock w/ Exercised Warrants       $110,000,000    9/15/2011        $110,000,000              $­—    9/15/2011       R           $5,500,000                                       $15,736,874
12/11/2009   Wachusett Financial Services, Inc., Clinton, MA2,10     Preferred Stock w/ Exercised Warrants         $12,000,000   4/4/2012            $3,000,000      $9,000,000                                                                                  $1,667,281
12/19/2008   Wainwright Bank & Trust Company, Boston, MA             Preferred Stock w/ Warrants                   $22,000,000   11/24/2009        $22,000,000              $­—    12/16/2009      R             $568,700                                        $1,023,611
1/16/2009    Washington Banking Company, Oak Harbor, WA              Preferred Stock w/ Warrants                   $26,380,000   1/12/2011         $26,380,000              $­—    3/2/2011        R           $1,625,000         $14.17                         $2,623,344
11/14/2008   Washington Federal, Inc., Seattle, WA                   Preferred Stock w/ Warrants                 $200,000,000    5/27/2009        $200,000,000              $­—    3/9/2010        A          $15,388,874         $16.66                         $5,361,111
             WashingtonFirst Bankshares, Inc. (WashingtonFirst
10/30/2009                                                           Preferred Stock                                $6,842,000   8/4/2011            $6,842,000             $­—    N/A                                 N/A
             Bank), Reston, VA2,10a,49                                                                                                                                                                                                                           $1,510,318
1/30/2009    WashingtonFirst Bankshares, Inc., Reston, VA2,13,49     Preferred Stock w/ Exercised Warrants          $6,633,000   8/4/2011            $6,633,000             $­—    8/4/2011        R             $332,000
6/26/2009    Waukesha Bankshares, Inc., Waukesha, WI2,10             Preferred Stock w/ Exercised Warrants          $5,625,000                                                                                                                                     $929,731
                                                                                                                                 3/3/2010         $100,000,000     $300,000,000
11/21/2008   Webster Financial Corporation, Waterbury, CT            Preferred Stock w/ Warrants                 $400,000,000    10/13/2010       $100,000,000     $200,000,000    6/2/2011        A          $20,388,842         $23.70                        $36,944,444
                                                                                                                                 12/29/2010       $200,000,000              $­—
10/28/2008   Wells Fargo & Company, San Francisco, CA                Preferred Stock w/ Warrants               $25,000,000,000   12/23/2009     $25,000,000,000             $­—    5/20/2010       A        $840,374,892          $34.53                     $1,440,972,222
12/5/2008    WesBanco, Inc., Wheeling, WV                            Preferred Stock w/ Warrants                   $75,000,000   9/9/2009          $75,000,000              $­—    12/23/2009      R             $950,000         $20.71                         $2,854,167
                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I October 25, 2012




12/31/2008   West Bancorporation, Inc., West Des Moines, IA          Preferred Stock w/ Warrants                   $36,000,000   6/29/2011         $36,000,000              $­—    8/31/2011       R             $700,000         $12.05                         $4,495,000
                                                                                                                                 9/2/2009          $41,863,000      $41,863,000
2/13/2009    Westamerica Bancorporation, San Rafael, CA              Preferred Stock w/ Warrants                   $83,726,000                                                     11/18/2011      P             $878,256         $47.05        246,698          $2,755,981
                                                                                                                                 11/18/2009        $41,863,000              $­—
                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                251
CPP TRANSACTION DETAIL, AS OF 9/30/2012                                                        (CONTINUED)                                                                                                                                                                                                         252
                                                                                                                                         Capital                                                       Final                                                    Stock           Current
Purchase                                                                                                                                 Repayment         Capital Repayment           Remaining       Disposition                  Final Disposition      Price as of      Outstanding      Dividend/Interest
Date           Institution                                             Investment Description                    Investment Amount       Date                 Amount (Loss)6       Capital Amount      Date              Note15            Proceeds       9/28/2012           Warrants        Paid to Treasury
11/21/2008     Western Alliance Bancorporation, Las Vegas, NV49        Preferred Stock w/ Warrants                      $140,000,000     9/27/2011               $140,000,000                   $­—    11/18/2011          P                $415,000            $10.20                             $19,950,000
               Western Community Bancshares, Inc.,
12/23/2008                                                             Preferred Stock w/ Exercised Warrants              $7,290,000                                                                                                                                                                  $554,083
               Palm Desert, CA2
12/23/2008     Western Illinois Bancshares Inc., Monmouth, IL2         Preferred Stock w/ Exercised Warrants              $6,855,000
                                                                                                                                                                                                                                                                                                    $1,961,691
12/29/2009     Western Illinois Bancshares Inc., Monmouth, IL2,10a     Preferred Stock                                    $4,567,000
5/15/2009      Western Reserve Bancorp, Inc, Medina, OH2               Preferred Stock w/ Exercised Warrants              $4,700,000                                                                                                                            $27.20                                $832,488
2/20/2009      White River Bancshares Company, Fayetteville, AR2       Preferred Stock w/ Exercised Warrants             $16,800,000                                                                                                                                                                $1,589,583
12/19/2008     Whitney Holding Corporation, New Orleans, LA45          Preferred Stock w/ Warrants                      $300,000,000     6/3/2011                $300,000,000                   $­—    6/3/2011            R              $6,900,000                                               $36,833,333
12/12/2008     Wilshire Bancorp, Inc., Los Angeles, CA76               Preferred Stock w/ Warrants                       $62,158,000     3/28/2012                $57,766,994                   $­—    6/20/2012           R                $760,000             $6.30                             $10,282,176
12/19/2008     Wintrust Financial Corporation, Lake Forest, IL         Preferred Stock w/ Warrants                      $250,000,000     12/22/2010              $250,000,000                   $­—    2/8/2011            A             $25,600,564            $37.57                             $25,104,167
5/15/2009      Worthington Financial Holdings, Inc., Huntsville, AL2   Preferred Stock w/ Exercised Warrants              $2,720,000                                                                                                                                                                  $370,600
1/23/2009      WSFS Financial Corporation79                            Preferred Stock w/ Warrants                       $52,625,000     3/28/2012                $47,435,299                   $­—    9/12/2012           R              $1,800,000            $41.28                              $8,405,558
1/16/2009      Yadkin Valley Financial Corporation, Elkin, NC124       Preferred Stock w/ Warrants                       $36,000,000     9/12/2012                $31,843,080                   $­—                                                                             273,534
                                                                                                                                                                                                                                                                 $3.32                              $8,820,923
7/24/2009      Yadkin Valley Financial Corporation, Elkin, NC125       Preferred Stock w/ Warrants                       $13,312,000     9/12/2012                $11,643,740                   $­—                                                                             385,990
                                               2,50
4/24/2009      York Traditions Bank , York, PA                         Preferred Stock w/ Exercised Warrants              $4,871,000     7/14/2011                  $4,871,000                  $­—    7/14/2011           R                $244,000                                                  $590,022
                                                                                                                                         3/28/2012               $700,000,000        $700,000,000
11/14/2008     Zions Bancorporation, Salt Lake City, UT                Preferred Stock w/ Warrants                    $1,400,000,000                                                                                                                            $20.66        5,789,909          $253,361,111
                                                                                                                                         9/26/2012               $700,000,000                   $—
                                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I October 25, 2012




                                                                                                                                               Total
                                                                                                                                             Capital
                                                                                   Total Purchase Amount *       $204,943,827,320                          $193,139,752,448
                                                                                                                                          Repayment
                                                                                                                                           Amount**
                                                                                                                                     Total Losses***        ($3,089,736,860)
                                                                                                                                  Total Treasury CPP                                                             Total Warrant
                                                                                                                                                              $8,714,338,012                                                        $7,735,122,522
                                                                                                                             Investment Outstanding                                                             Proceeds****
Notes: Numbers may not total due to rounding. Data as of 9/30/2012. Numeric notes were taken verbatim from Treasury’s 9/28/2012 Transactions Report. All amounts and totals reflect cumulative receipts from inception through 9/30/2012.

* Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.
** Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup Common
    Stock Disposition” on following pages) and (ii) the amount of $355,724,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).
*** Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings (see Notes 16 and 19) and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale (see Notes 26, 32, 33, 34, 38, 39, 42, 46, 47, 59, 64, 74,
     75, 76, 77, 78, 79), but excludes investment amounts for institutions that have pending receivership or bankruptcy proceedings (see Notes 14, 25, 51, 52, 53, 54, 55, 56, 57, 61, 63, 70, and 71).
**** Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a). Beginning with the Transactions Report for the period ending April 20, 2012, disposition amounts for warrant sales by
      Treasury in a registered public offering (“A”) are displayed after underwriting fees (net) as oppose to before underwriting fees and selling expenses (gross).

Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Dividends and Interest Report, 10/10/2012.
                                                                                                                                                                                                                                                                                         Continued on next page
1a
  	This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on
     1/1/2009, and this transaction under the CPP was funded on 1/9/2009.
1b
   	The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total net disposition proceeds from CPP warrants on 3/3/2010 was $305,913,040, consisting of $183,547,824 and
     $122,365,216. Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2
 	 Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3
 	 To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
3a
  	 Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4
 	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5
 	 Redemption pursuant to a qualified equity offering.
6
 	 This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7
 	 The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8
 	 Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9
 	 In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
   	 This institution participated in the expansion of CPP for small banks.
10a
    	This institution received an additional investment through the expansion of CPP for small banks.
11
   	Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in
     Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to
     purchase shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12
   	On 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
13
   	This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14
   	As of the date of this report, this institution is in bankruptcy proceedings.
15
   	For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution in a negotiated sale pursuant to the terms of the related securities purchase agreement, “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered
     public offering of the warrants issued by the financial institution, and “P” represents the proceeds to Treasury, before placement expenses, from a sale by Treasury in a private auction principally involving qualified institutional buyers.
16
   	On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of
     common shares to holders of CVRs were not met.
17
   	 On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18
   	On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended
     dividend rate equivalent to those of Treasury’s original investment.
19
   	 On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20
   	On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid
     dividends. Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21
   	On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
22
   	On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued
     and unpaid dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.
23
   	Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see
     note 11). On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on 6/30/2010 (or on completion of
     the sale). Completion of the sale under this authority occurred on 5/26/2010. On 5/26/2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending
     on 6/30/2010 (or on completion of the sale). Completion of the sale under this authority occurred on 6/30/2010. On 7/23/2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from
     time to time during the period ending on 9/30/2010 (or on completion of the sale). Completion of the sale under this authority occurred on 9/30/2010. On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
     parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale), which plan was terminated on 12/6/2010. All such sales were generally made at the market price. On 12/6/2010, Treasury commenced an underwritten
     public offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share and the total proceeds to Treasury from all such sales during
     those periods.
24
   	On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on
     4/29/2010. Since Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
25
   	 On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
26
   	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the preferred stock and $400,000 for the warrants, pursuant to the terms of the agreement between
     Treasury and TD entered into on 5/18/2010.
27
   	 On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
28
   	On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and
     unpaid dividends. On 10/7/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends on
     the MCP at the time of the conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.
29
   	On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial
     investment amount of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of
     common stock of Pacific Capital. Pacific Capital has agreed to have Treasury observers attend board of directors meetings.
30
   	This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
30a
    	At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
31
   	On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on 8/12/2010.
     Since Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
32
   	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the preferred stock and $40,000 for the warrants, pursuant to the terms of the agreement
     between Treasury and NAFH entered into on 9/24/2010.
33
   	On 3/4/2011, Treasury completed the sale to Community Bancorp LLC (“CBC”) of all preferred stock and warrants issued by Cadence Financial Corporation (“Cadence”) to Treasury for an aggregate purchase price of $39,014,062.50, pursuant to the terms of the agreement between Treasury and CBC
     entered into on 10/29/2010.
34
   	On 12/3/2010, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury and
     Currituck entered into on 11/5/2010.
35
   	Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the
     closing of the sale also occurred on 1/28/2011.
36
   	On 2/15/2011, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by Treaty Oak Bancorp (“Treaty Oak”) to Treasury for (i) a cash payment of $500,000, (ii) the right to receive up to $150,000 in principal payments on a note
     payable by Carlile Bancshares, Inc. in favor of Treaty Oak, and (iii) a newly issued warrant to purchase 3,098,341 shares of Treaty Oak common stock, pursuant to the terms of the agreement between Treasury and Treaty Oak entered into on 2/15/2011.
37
   	On 2/18/2011, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.
38
   	On 3/9/2011, Treasury completed the sale of all subordinated debentures (including the subordinated debentures received upon the exercise of warrants) issued by FBHC Holding Company (“FBHC”) to Treasury for an aggregate purchase price of $650,000, pursuant to the terms of the agreement between
     Treasury and FBHC entered into on 3/9/2011.
39
   	On 5/31/2011, Treasury completed the sale of all preferred stock and warrants issued by First Community Bank Corporation of America (FCBCA) for an aggregate purchase price of (i) $7.20 million plus (ii) 72% of the remaining cash assets after giving effect to the payment of defined acquisition expenses,
     debts, liabilities and distributions to other classes of security holders, pursuant to the terms of the agreement between Treasury and FCBCA entered into on 3/11/2011.
40
   	As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of an
     agreement among Treasury, the acquired company and the acquiror entered into on 3/23/2011.
41
   	As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of
     preferred stock in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered
     into on 3/30/2011. Exercised warrants were also exchanged at the time of the agreement.
42
   	On 5/3/2011, Treasury completed the sale of all First Federal Bancshares of Arkansas, Inc. preferred stock and warrants held by Treasury to Bear State Financial Holdings, LLC (“Bear State”) for an aggregate purchase price of $6,000,000.00, pursuant to the terms of the agreement between Treasury and
     Bear State entered into on 5/3/2011.
43
   	On 5/13/2011, Treasury completed the sale of all Wilmington Trust Corporation preferred stock held by Treasury to M&T Bank Corporation (“M&T”) for an aggregate purchase price of $330,000,000.00 plus accrued dividends and exchanged its Wilmington Trust Corporation warrant for an equivalent warrant
                                                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I October 25, 2012




     issued by M&T Bank Corporation, pursuant to the terms of the agreement between Treasury and M&T entered into on 5/13/2011.
44
   	On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-
     held M&I Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 5/16/2011.
45
   	On 6/3/2011, Treasury completed the sale of all Whitney Holding Corporation preferred stock and the related warrant held by Treasury to Hancock Holding Company (“HHC”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($300,000,000) plus accrued and unpaid dividends
     thereon and (ii) $6,900,000 for the warrant, pursuant to the terms of the agreement between Treasury and HHC entered into on 6/3/2011.

                                                                                                                                                                                                                                                                                                   Continued on next page
                                                                                                                                                                                                                                                                                                                                 253
                                                                                                                                                                                                                                                                                                                            254
46
  	On 6/22/2011, Treasury completed the sale of 2,850,000 shares of common stock at $12.590625 per share (which represents the $12.75 public offering price less underwriting discounts) for net proceeds of $35,883,281.25 pursuant to an underwriting agreement executed on 6/17/2011. On
    4/4/2012, Treasury completed the sale of all of Treasury’s remaining 2,770,117 shares of Central Pacific Financial Corp. common stock at $13.01 per share (which represents the $13.15 public offering price less underwriting discounts) for net proceeds of $36,039,222.17, pursuant to an underwriting
    agreement executed on 3/29/2012.
46 
  	 On 6/22/2011, Treasury completed the sale of 2,850,000 shares of common stock at $12.590625 per share (which represents the $12.75 public offering price less underwriting discounts) for net proceeds of $35,883,281.25 pursuant to an underwriting agreement executed on 6/17/2011. On
    4/4/2012, Treasury completed the sale of all of Treasury’s remaining 2,770,117 shares of Central Pacific Financial Corp. common stock at $13.01 per share (which represents the $13.15 public offering price less underwriting discounts) for net proceeds of $36,039,222.17, pursuant to an underwriting
    agreement executed on 3/29/2012.
47
  	On 6/30/2011, Treasury completed the sale of all Cascade Financial Corporation preferred stock held by Treasury and the related warrant to Opus Acquisition, Inc. (“Opus”) for an aggregate purchase price of $16,250,000.00, pursuant to the terms of the agreement between Treasury and Opus entered into
    on 6/28/2011.
48
  	On 6/29/2011, Treasury entered into an agreement with Carver Bancorp, Inc. to exchange Treasury’s $18,980,000 of preferred stock for an equivalent amount of common stock. The exchange is subject to the fulfillment by Carver Bancorp, Inc. of certain conditions, including the satisfactory completion of
    a capital plan.
49
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
50
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 - part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
51
  	On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
52
  	On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
53
  	On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
54
  	On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
55
  	On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
56
  	On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
57
  	On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
58
  	On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB United
    entered into on 8/12/2011.
59
  	On 9/7/2011, Treasury completed the sale of all Green Bankshares, Inc. preferred stock held by Treasury and the related Warrant to North American Financial Holdings, Inc. (“NAFH”) for an aggregate purchase price of $68,700,000.00, pursuant to the terms of the agreement between Treasury and NAFH
    entered into on 9/6/2011.
60
  	As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously
    unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.
61
  	On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
62
  	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.
63
  	On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
64
  	On 10/21/2011, Treasury completed the sale of all Santa Lucia Bancorp preferred stock and warrants held by Treasury to CCI One Acquisition Corporation (“CCI”) for an aggregate purchase price of $2,800,000.00, pursuant to the terms of the agreement between Treasury and CCI entered into on
    10/20/2011.
65
  	As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement
    among Treasury, CFC and CFB entered into on 11/15/2011.
66
  	As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among
    Treasury, Center Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.
67
                                                                                                                                                                                                                                                                                                                            Appendix D I Transaction Detail I October 25, 2012




  	On 1/3/2012, Treasury completed (i) the sale to F.N.B. Corporation (“F.N.B.”) of all of the preferred stock that had been issued to Treasury by Parkvale Financial Corporation (“Parkvale”) for a purchase price of $31,762,000 plus accrued dividends and (ii) the exchange of the Parkvale warrant held by Treasury
    for a like F.N.B. warrant, pursuant to the terms of the agreement between Treasury and F.N.B. entered into on 12/29/2011 in connection with the merger of Parkvale and F.N.B. effective 1/1/2012.
68
  	As a result of the acquisition of State Bancorp, Inc. (the acquired company) by Valley National Bancorp (the acquiror), the warrant issued by the acquired company on 12/5/2008 was exchanged for a like security of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company
    and the acquiror entered into on 1/1/2012.
69
  	On 1/27/2012, pursuant to the terms of the merger of Regents Bancshares, Inc. (“Regents”) with Grandpoint Capital, Inc., Treasury received $13,214,858.00 (representing the par amount together with accrued and unpaid dividends thereon) in respect of the preferred stock (including that received from the
    exercise of warrants) that had been issued to Treasury by Regents.
70
  	On 1/27/2012, Tennessee Commerce Bank, Franklin, TN, the banking subsidiary of Tennessee Commerce Bancorp, Inc., was closed by the Tennessee Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
71
  	On 2/10/2012, SCB Bank, Shelbyville, Indiana, the banking subsidiary of Blue River Bancshares, Inc., was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
72
  	On 2/10/2012, Treasury entered into an agreement with Broadway Financial Corporation to exchange Treasury’s $15,000,000 of preferred stock for common stock. The exchange is subject to the fulfillment by Broadway Financial Corporation of certain conditions, including the satisfactory completion of a
    capital plan.
73
  	On 3/9/2012, Treasury completed the sale of all Mainline Bancorp, Inc. preferred stock and exercised warrants held by Treasury to 9th Street Holdings, Inc., a subsidiary of S&T Bancorp, Inc., for an aggregate purchase price of $4,725,000 plus accrued and unpaid dividends, pursuant to the terms of an
    agreement among Treasury, 9th Street Holdings, Inc., and S&T Bancorp, Inc. entered into on 3/8/2012.
74
  	On 4/3/2012, Treasury completed the sale of 124,000 shares of Banner Corporation preferred stock at $884.82 per share (less underwriting discounts) for net proceeds of $108,071,914.80 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
75
  	On 4/3/2012, Treasury completed the sale of 65,000 shares of First Financial Holdings, Inc. preferred stock at $873.51 per share (less underwriting discounts) for net proceeds of $55,926,477.75 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
76
  	On 4/3/2012, Treasury completed the sale of 62,158 shares of Wilshire Bancorp, Inc. preferred stock at $943.51 per share (less underwriting discounts) for net proceeds of $57,766,994.16 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
77
  	On 4/3/2012, Treasury completed the sale of 2,000 shares of Seacoast Banking Corporation of Florida preferred stock at $20,510.00 per share (less underwriting discounts) for net proceeds of $40,404,700.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on
    3/28/2012.
78
  	On 4/3/2012, Treasury completed the sale of 57,000 shares of MainSource Financial Group, Inc. preferred stock at $931.11 per share (less underwriting discounts) for net proceeds of $52,277,170.95 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
79
  	On 4/3/2012, Treasury completed the sale of 52,625 shares of WSFS Financial Corporation preferred stock at $915.11 per share (less underwriting discounts) for net proceeds of $47,435,298.79 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 3/28/2012.
80
  	On 4/13/2012, Treasury completed the sale of all Gateway Bancshares, Inc. preferred stock held by Treasury to First Volunteer Corporation (“First Volunteer”) for an aggregate purchase price of $6,300,000.00 plus accrued and unpaid dividends, pursuant to the terms of the agreement between Treasury
    and First Volunteer entered into on 4/13/2012.
81
  	On 4/20/2012, Treasury completed the sale of all The Connecticut Bank and Trust Company preferred stock held by Treasury to Berkshire Bank for an aggregate purchase price of $6,289,966.33 consisting of (a) (i) $5,448,000.00 for the preferred stock plus (ii) all accrued and unpaid dividends and (b)
    $792,783.00 for the Warrant, pursuant to the terms of the agreement by and among Treasury, The Connecticut Bank and Trust Company, and Berkshire Bank entered into on 4/19/2012.
82
  	On 4/20/2012, Fort Lee Federal Savings Bank, FSB, Fort Lee, New Jersey, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
83
  	On 4/24/2012, Treasury completed the sale of all Peoples Bancorporation, Inc. (“Peoples”) preferred stock held by Treasury to SCBT Financial Corporation (“SCBT”) for an aggregate purchase price of $13,293,000 plus accrued and unpaid dividends, pursuant to the terms of the agreement by and among
    Treasury, Peoples, and SCBT entered into on 4/24/2012.
84
  	On 8/14/2012, Treasury completed the sale of all Millennium Bancorp, Inc. (Millennium) Preferred Stock held by Treasury to CIC Bancshares, Inc. (CIC) for an aggregate purchase price of (i) $2.904 million plus (ii) accrued and unpaid dividends on the Preferred Stock as of the closing date, pursuant to an
    agreement by and amount Treasury, CIC, and Millennium entered into on 4/20/2012.
85
  	On 6/19/2012, Treasury completed the sale of 52,000 shares of Ameris Bancorp preferred stock at $930.60 per share (less underwriting discounts) for net proceeds of $47,665,332.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
86
  	On 6/19/2012, Treasury completed the sale of 104,823 shares of Taylor Capital Group preferred stock at $893.50 per share (less underwriting discounts) for net proceeds of $92,254,460.24 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
87
  	 On 6/19/2012, Treasury completed the sale of 30,000 shares of Farmers Capital Bank Corporation preferred stock at $869.17 per share (less underwriting discounts) for net proceeds of $21,594,228.79 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
88
  	 On 6/19/2012, Treasury completed the sale of 25,223 shares of LNB Bancorp Inc. preferred stock at $739.89 per share (less underwriting discounts) for net proceeds of $21,863,749.50 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
89
  	 On 6/19/2012, Treasury completed the sale of 37,000 shares of First Defiance Financial Corp. preferred stock at $962.66 per share (less underwriting discounts) for net proceeds of $35,084,143.70 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
90
  	 On 6/19/2012, Treasury completed the sale of 10,958 shares of First Capital Bancorp, Inc. preferred stock at $920.11 per share (less underwriting discounts) for net proceeds of $9,931,326.90 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
91
  	 On 6/19/2012, Treasury completed the sale of 20,600 shares of United Bancorp, Inc. preferred stock at $825.50 per share (less underwriting discounts) for net proceeds of $16,750,220.50 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on 6/13/2012.
92
  	On 6/27/2012, Treasury executed an underwriting agreement for the sale of 48,200 shares of Fidelity Southern Corporation preferred stock at $900.60 per share (less underwriting discounts) for net proceeds of $42,757,786.20 plus accrued and unpaid dividends.
93
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 25,054 shares of Peoples Bancorp of North Carolina, Inc. preferred stock at $933.36 per share (less underwriting discounts) for net proceeds of $23,033,635.42 plus accrued and unpaid dividends.
94
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 23,184 shares of First Citizens Banc Corp preferred stock at $906.00 per share (less underwriting discounts) for net proceeds of $20,689,633.44 plus accrued and unpaid dividends.
95
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 45,000 shares of MetroCorp Bancshares, Inc. preferred stock at $981.17 per share (less underwriting discounts) for net proceeds of $43,490,360.25 plus accrued and unpaid dividends.
96
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 32,538 shares of Pulaski Financial Corp preferred stock at $888.00 per share (less underwriting discounts) for net proceeds of $28,460,337.84 plus accrued and unpaid dividends.
97
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 33,000 shares of Firstbank Corporation preferred stock at $941.01 per share (less underwriting discounts) for net proceeds of $30,587,530.05 plus accrued and unpaid dividends.
98
  	 On 6/27/2012, Treasury executed an underwriting agreement for the sale of 17,299 shares of Southern First Bancshares, Inc. preferred stock at $904.00 per share (less underwriting discounts) for net proceeds of $15,403,721.56 plus accrued and unpaid dividends.
99
  	 On 7/12/2012, Treasury completed the sale of all Naples Bancorp, Inc. (“Naples Bancorp”) preferred stock held by Treasury to Naples Bancorp for an aggregate purchase price of $600,000.00, pursuant to the terms of the agreement between Treasury and Naples Bancorp entered into on 7/12/2012.
100
   	On 7/17/2012, Treasury completed the sale of all Heartland Bancshares, Inc. (“Heartland”) preferred stock held by Treasury to Horizon Bancorp for an aggregate purchase price of $7,248,000 plus accrued and unpaid dividends, pursuant to the terms of the agreement by and among Treasury, Heartland,
    and Horizon Bancorp entered into on 7/17/2012.
101
   	As a result of the acquisition of Community Holding Company of Florida, Inc. (the acquired company) by Community Bancshares of Mississippi, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 2/6/2009 were exchanged for a like amount of securities of the
    acquiror, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 7/19/2012.
102
   	On 8/10/2012, Treasury completed the sale of 35,500 shares of Marquette National Corporation preferred stock at $720.25 per share (less a placement agent fee) for net proceeds of $25,313,186.25 and 1,775 shares of Marquette National Corporation preferred stock received upon the exercise of
    warrants at $825.25 per share (less a placement agent fee) for net proceeds of $1,450,170.56, pursuant to a placement agency agreement executed on 7/23/2012.
103
   	On 8/13/2012, Treasury completed the sale of 43,000 shares of Exchange Bank preferred stock at $875.25 per share (less a placement agent fee) for net proceeds of $37,259,392.50 and 2,150 shares of Exchange Bank preferred stock received upon the exercise of warrants at $965.10 per share (less
    a placement agent fee) for net proceeds of $2,054,215.35, pursuant to a placement agency agreement executed on 7/23/2012.
104
   	On 8/9/2012, Treasury completed the sale of 36,282 shares of Fidelity Financial Corporation preferred stock at $891.26 per share (less a placement agent fee) for net proceeds of $32,013,328.37 and 1,814 shares of Fidelity Financial Corporation preferred stock received upon the exercise of warrants at
    $960.60 per share (less a placement agent fee) for net proceeds of $1,725,103.12, pursuant to a placement agency agreement executed on 7/23/2012.
105
   	On 8/9/2012, Treasury completed the sale of 428 shares of First Western Financial, Inc. preferred stock received upon the exercise of warrants at $828.50 per share (less a placement agent fee) for net proceeds of $351,052.02, pursuant to a placement agency agreement executed on 7/23/2012.

                                                                                                                                                                                                                                                                                              Continued on next page
106
   	On 8/10/2012, Treasury completed the sale of 23,200 shares of Park Bancorporation, Inc. preferred stock at $730.25 per share (less a placement agent fee) for net proceeds of $16,772,382.00 and 1,160 shares of Park Bancorporation, Inc. preferred stock received upon the exercise of warrants at
    $780.25 per share (less a placement agent fee) for net proceeds of $896,039.10, pursuant to a placement agency agreement executed on 7/23/2012.
107
   	On 8/10/2012, Treasury completed the sale of 35,539 shares of Trinity Capital Corporation preferred stock at $750.25 per share (less a placement agent fee) for net proceeds of $26,396,503.40 and 1,777 shares of Trinity Capital Corporation preferred stock received upon the exercise of warrants at
    $941.20 per share (less a placement agent fee) for net proceeds of $1,655,787.28, pursuant to a placement agency agreement executed on 7/23/2012.
108
   	On 8/10/2012, Treasury completed the sale of 24,300 shares of CBS Banc-Corp. preferred stock at $905.20 per share (less a placement agent fee) for net proceeds of $21,776,396.40 and 1,215 shares of CBS Banc-Corp. preferred stock received upon the exercise of warrants at $921.00 per share
    (less a placement agent fee) for net proceeds of $1,107,824.85, pursuant to a placement agency agreement executed on 7/23/2012.
109
   	On 8/9/2012, Treasury completed the sale of its Market Street Bancshares, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $18,069,212.70 and its Market Street Bancshares, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee)
    for net proceeds of $824,730.64, pursuant to a placement agency agreement executed on 7/23/2012.
110
   	On 8/9/2012, Treasury completed the sale of its Commonwealth Bancshares, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $15,147,000.00 and its Commonwealth Bancshares, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent
    fee) for net proceeds of $898,722.00, pursuant to a placement agency agreement executed on 7/23/2012.
111
   	On 8/9/2012, Treasury completed the sale of its Diamond Bancorp, Inc. subordinated debentures (less a placement agent fee) for net proceeds of $14,780,661.64 and its Diamond Bancorp, Inc. subordinated debentures received upon the exercise of warrants (less a placement agent fee) for net proceeds
    of $779,576.49, pursuant to a placement agency agreement executed on 7/23/2012.
112
   	On 8/10/2012, Treasury completed the sale of 22,252 shares of Premier Financial Bancorp, Inc. preferred stock at $901.03 per share (less a placement agent fee) for net proceeds of $19,849,222.36, pursuant to a placement agency agreement executed on 7/23/2012.
113
   	On 8/10/2012, Treasury completed the sale of 1,100 shares of First Community Financial Partners, Inc. preferred stock received upon the exercise of warrants at $661.50 per share (less a placement agent fee) for net proceeds of $720,373.50, pursuant to a placement agency agreement executed on
    7/23/2012.
114
   	On 8/9/2012, Treasury completed the sale of 8,000 shares of First Western Financial, Inc. preferred stock at $775.00 per share (less a placement agent fee) for net proceeds of $6,138,000.00, pursuant to a placement agency agreement executed on 7/23/2012.
115
   	On 7/13/2012, Glasgow Savings Bank, Glasgow, MO, the banking subsidiary of Gregg Bancshares, Inc. , was closed by the Missouri Division of Finance, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
116
   	On 7/27/2012, Treasury entered into an agreement with Pinnacle Bank Holding Company, Inc. (“Pinnacle”) pursuant to which Treasury agreed to sell its CPP preferred stock back to Pinnacle at a discount subject to the satisfaction of the conditions specified in the agreement.
117
   	On 8/1/2012, Treasury completed the sale of all VIST Financial Corp. (“VIST”) preferred stock and the related warrant held by Treasury to Tompkins Financial Corporation (“Tompkins”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($25,000,000) plus accrued and unpaid
    dividends thereon and (ii) $1,189,813 for the warrant, pursuant to the terms of the agreement by and among Treasury, VIST, and Tompkins entered into on 8/1/2012.
118
   	On 8/20/2012, Treasury completed the sale of 5,738,637 split adjusted shares of Sterling Financial Corporation common stock at $20.00 per share (less underwriting discounts) for net proceeds of $113,338,080.75, pursuant to an underwriting agreement executed on 8/14/2012.
119
   	On 8/21/2012, Treasury completed the sale of 230,000 shares of M&T Bank Corporation Series A Preferred Shares and 151,500 shares of M&T Bank Corporation Series C Preferred Shares at $1,000.00 per share plus accrued dividends for proceeds of $381,500,000.00 plus accrued dividends, pursuant
    to an underwriting agreement executed on 8/17/2012.
120
   	On 8/29/2012, Treasury completed the sale of 31,260 shares of BNC Bancorp preferred stock at $921.23 per share (less underwriting discounts) for net proceeds of $28,365,685.05 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.
121
   	On 8/29/2012, Treasury completed the sale of 11,000 shares of Mackinac Financial Corporation preferred stock at $958.09 per share (less underwriting discounts) for net proceeds of $10,380,905.15 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.
122
   	On 8/29/2012 Treasury completed the sale of 11,350 shares of First Community Corporation preferred stock at $982.83 per share (less underwriting discounts) for net proceeds of $10,987,793.69 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.
123
   	On 8/29/2012, Treasury completed the sale of 13,900 shares of First National Corporation preferred stock at $882.50 per share (less underwriting discounts) for net proceeds of $12,082,748.75 plus accrued dividends and 695 shares of First National Corporation preferred stock (held as a result of
    warrant exercise) at $912.50 per share (less underwriting discounts) for net proceeds of $624,674.69 plus accrued dividends, pursuant to an underwriting agreement executed on 8/23/2012.
124
   	On 9/18/2012, Treasury completed the sale of 36,000 shares of Yadkin Valley Financial Corporation Series T preferred stock at $884.82 per share (less underwriting discounts) for net proceeds of $31,843,080.00 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on
    9/12/2012.
125
   	On 9/18/2012, Treasury completed the sale of 13,312 shares of Yadkin Valley Financial Corporation Series T-ACB preferred stock at $880.00 per share (less underwriting discounts) for net proceeds of $11,643,740.16 plus accrued and unpaid dividends, pursuant to an underwriting agreement executed on
    9/12/2012.
126
   	On 9/20/2012, Treasury completed the sale of 17,000 shares of F&M Financial Corporation (NC) preferred stock at $950.00 per share (less a placement agent fee) for net proceeds of $15,988,500.00 and 850 shares of F&M Financial Corporation (NC) preferred stock received upon the exercise of
    warrants at $921.30 per share (less a placement agent fee) for net proceeds of $775,273.95, pursuant to a placement agency agreement executed on 9/12/2012.
127
   	On 9/21/2012, Treasury completed the sale of 17,243 shares of F&M Financial Corporation (TN) preferred stock at $787.50 per share (less a placement agent fee) for net proceeds of $13,443,073.87 and 862 shares of F&M Financial Corporation (TN) preferred stock received upon the exercise of
    warrants at $870.00 per share (less a placement agent fee) for net proceeds of $742,440.60, pursuant to a placement agency agreement executed on 9/12/2012.
128
   	On 9/20/2012, Treasury completed the sale of 70,000 shares of Alpine Banks of Colorado preferred stock at $814.29 per share (less a placement agent fee) for net proceeds of $56,430,297.00 and 3,500 shares of Alpine Banks of Colorado preferred stock received upon the exercise of warrants at
    $950.00 per share (less a placement agent fee) for net proceeds of $3,291,750.00, pursuant to a placement agency agreement executed on 9/12/2012.
129
   	On 9/21/2012, Treasury completed the sale of 22,000 shares of First Community Financial Partners, Inc. preferred stock at $652.50 per share (less a placement agent fee) for net proceeds of $14,211,450.00, pursuant to a placement agency agreement executed on 9/12/2012

Sources: Treasury, Transactions Report, 9/28/2012; Dividends and Interest Report,10/10/2012; Treasury, response SIGTARP data call, 10/12/2012; Bloomberg, LP, accessed 10/10/2012.




Table D.2
  CPP - CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 9/30/2012
 Note       Date                                              Pricing Mechanism6                     Number of Shares                              Proceeds7
 1          4/26/2010 - 5/26/2010                                             $4.12                      1,500,000,000                       $6,182,493,158
 2          5/26/2010 - 6/30/2010                                             $3.90                      1,108,971,857                       $4,322,726,825
 3          7/23/2010 - 9/30/2010                                             $3.91                      1,500,000,000                       $5,863,489,587
 4          10/19/2010 - 12/6/2010                                            $4.26                      1,165,928,228                       $4,967,921,811
 5          12/6/2010                                                         $4.35                      2,417,407,607                      $10,515,723,090
                                                                                                        Total Proceeds:                   $31,852,354,471
 Notes: Numbers may not total due to rounding. Data as of 9/30/2012. Numbered notes taken verbatim from 9/28/2012 Transactions Report.
 1	
    On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
     parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
     Completion of the sale under this authority occurred on 5/26/2010.
 2	
     On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
      parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
      Completion of the sale under this authority occurred on 6/30/2010.
 3	
      On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
       parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale).
       Completion of the sale under this authority occured on 9/30/2010.
 4	
       On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
        parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale),
        which plan was terminated on 12/6/2010.
 5	
        On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
         fulfillment of certain closing conditions.
 6	
         The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding
          period.
                                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I October 25, 2012




 7	
          Amount represents the gross proceeds to Treasury.

 Source: Treasury, Transactions Report, 9/28/2012.
                                                                                                                                                                                                                                                                                                                      255
Table D.3                                                                                                                                                                                                                                                 256

 CDCI PROGRAM TRANSACTION DETAIL, AS OF 9/30/2012
                                                      Seller                                                                      Purchase Details                                                            Disposition Details

                                                                                                                                                                                     Pricing                        Remaining        Dividend/Interest
Note   Purchase Date   Name of Institution                                                Investment Description    Amount from CPP   Additional Investment   Investment Amount   Mechanism         Date    Investment Amount         Paid to Treasury
       9/24/2010       Alternatives Federal Credit Union, Ithaca, NY                      Subordinated Debentures               $­—                    $­—           $2,234,000          Par                                               $84,519.67
       9/17/2010       American Bancorp of Illinois, Inc., Oak Brook, IL                  Subordinated Debentures               $­—                    $­—           $5,457,000          Par                                              $323,296.93
       9/24/2010       Atlantic City Federal Credit Union, Lander, WY                     Subordinated Debentures               $­—                    $­—           $2,500,000          Par   9/26/20125                  $­—            $100,277.77
       9/24/2010       Bainbridge Bancshares, Inc., Bainbridge, GA                        Preferred Stock                       $­—                    $­—           $3,372,000          Par                                              $127,574.00
       9/29/2010       Bancorp of Okolona, Inc., Okolona, MS                              Subordinated Debentures               $­—                    $­—           $3,297,000          Par                                              $191,922.03
1, 2   9/29/2010       BancPlus Corporation, Ridgeland, MS                                Preferred Stock               $50,400,000            $30,514,000          $80,914,000          Par                                            $3,038,770.22
       9/29/2010       BankAsiana, Palisades Park, NJ                                     Preferred Stock                       $­—                    $­—           $5,250,000          Par                                              $197,166.67
       9/29/2010       Bethex Federal Credit Union, Bronx, NY                             Subordinated Debentures               $­—                    $­—            $502,000           Par                                               $18,852.89
       9/29/2010       Border Federal Credit Union, Del Rio, TX                           Subordinated Debentures               $­—                    $­—           $3,260,000          Par                                              $122,431.11
       9/24/2010       Brewery Credit Union, Milwaukee, WI                                Subordinated Debentures               $­—                    $­—           $1,096,000          Par                                               $41,465.33
       9/30/2010       Brooklyn Cooperative Federal Credit Union, Brooklyn, NY            Subordinated Debentures               $­—                    $­—            $300,000           Par                                               $11,250.00
       9/24/2010       Buffalo Cooperative Federal Credit Union, Buffalo, NY              Subordinated Debentures               $­—                    $­—            $145,000           Par                                                $5,485.83
       9/24/2010       Butte Federal Credit Union, Biggs, CA                              Subordinated Debentures               $­—                    $­—           $1,000,000          Par                                               $37,833.33
       9/29/2010       Carter Federal Credit Union, Springhill, LA                        Subordinated Debentures               $­—                    $­—           $6,300,000          Par                                              $236,600.00
1, 3   8/27/2010       Carver Bancorp, Inc, New York, NY                                  Common Stock                  $18,980,000                    $­—          $18,980,000          Par                                              $446,507.39
                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I October 25, 2012




       9/17/2010       CFBanc Corporation, Washington, DC                                 Preferred Stock                       $­—                    $­—           $5,781,000          Par                                              $220,962.67
1      8/13/2010                                                                          Preferred Stock                $7,462,000                    $­—                  $­—          Par
                       Citizens Bancshares Corporation, Atlanta, GA                                                                                                                                                                       $466,684.22
2a     9/17/2010                                                                          Preferred Stock                       $­—             $4,379,000          $11,841,000          Par
1      9/29/2010       Community Bancshares of Mississippi, Inc., Brandon, MS             Preferred Stock               $54,600,000                    $­—          $54,600,000          Par                                            $2,050,533.33
1, 2   9/29/2010       Community Bank of the Bay, Oakland, CA                             Preferred Stock                $1,747,000             $2,313,000           $4,060,000          Par                                              $132,175.56
       9/24/2010       Community First Guam Federal Credit Union, Hagatna, GU             Subordinated Debentures               $­—                    $­—           $2,650,000          Par                                              $100,258.33
       9/29/2010       Community Plus Federal Credit Union, Rantoul, IL                   Subordinated Debentures               $­—                    $­—            $450,000           Par                                               $16,900.00
       9/24/2010       Cooperative Center Federal Credit Union, Berkeley, CA              Subordinated Debentures               $­—                    $­—           $2,799,000          Par                                              $105,895.50
       9/29/2010       D.C. Federal Credit Union, Washington, DC                          Subordinated Debentures               $­—                    $­—           $1,522,000          Par                                               $57,159.56
       9/29/2010       East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT   Subordinated Debentures               $­—                    $­—              $7,000           Par                                                  $262.89
       9/29/2010       Episcopal Community Federal Credit Union, Los Angeles, CA          Subordinated Debentures               $­—                    $­—            $100,000           Par                                                $3,755.56
       9/24/2010       Fairfax County Federal Credit Union, Fairfax, VA                   Subordinated Debentures               $­—                    $­—           $8,044,000          Par                                              $304,331.33
       9/29/2010       Faith Based Federal Credit Union, Oceanside, CA                    Subordinated Debentures               $­—                    $­—             $30,000           Par                                                $1,126.67
       9/29/2010       Fidelis Federal Credit Union, New York, NY                         Subordinated Debentures               $­—                    $­—             $14,000           Par                                                  $525.78
1      8/13/2010       First American International Corp., Brooklyn, NY                   Preferred Stock               $17,000,000                    $­—          $17,000,000          Par                                              $171,888.89
1      9/24/2010       First Choice Bank, Cerritos, CA                                    Preferred Stock                $5,146,000                    $­—           $5,146,000          Par                                              $194,690.33
1      9/17/2010       First Eagle Bancshares, Inc., Hanover Park, IL                     Subordinated Debentures        $7,875,000                    $­—           $7,875,000          Par                                              $466,550.00
       9/29/2010       First Legacy Community Credit Union, Charlotte, NC                 Subordinated Debentures               $­—                    $­—           $1,000,000          Par                                               $37,555.56
1      9/29/2010       First M&F Corporation, Kosciusko, MS                               Preferred Stock               $30,000,000                    $­—          $30,000,000          Par                                            $1,126,666.67
1      9/29/2010       First Vernon Bancshares, Inc., Vernon, AL                          Preferred Stock                $6,245,000                    $­—           $6,245,000          Par                                               $15,959.44
       9/29/2010       Freedom First Federal Credit Union, Roanoke, VA                    Subordinated Debentures               $­—                    $­—           $9,278,000          Par                                              $348,440.44
       9/24/2010       Gateway Community Federal Credit Union, Missoula, MT               Subordinated Debentures               $­—                    $­—           $1,657,000          Par                                               $62,689.83
       9/17/2010       Genesee Co-op Federal Credit Union, Rochester, NY                  Subordinated Debentures               $­—                    $­—            $300,000           Par                                               $11,466.67
5      9/29/2010       Greater Kinston Credit Union, Kinston, NC                          Subordinated Debentures               $­—                    $­—            $350,000           Par   4/10/20125                  $­—             $10,714.44
1      7/30/2010       Guaranty Capital Corporation, Belzoni, MS                          Subordinated Debentures       $14,000,000                    $­—          $14,000,000          Par                                              $886,083.33
       9/29/2010       Hill District Federal Credit Union, Pittsburgh, PA                 Subordinated Debentures               $­—                    $­—            $100,000           Par                                                $3,755.56
       9/17/2010       Hope Federal Credit Union, Jackson, MS                             Subordinated Debentures               $­—                    $­—           $4,520,000          Par                                              $172,764.44
1, 2   9/10/2010       IBC Bancorp, Inc., Chicago, IL                                     Subordinated Debentures        $4,205,000             $3,881,000           $8,086,000          Par                                              $483,924.64
1      9/3/2010        IBW Financial Corporation, Washington, DC                          Preferred Stock                $6,000,000                    $­—           $6,000,000          Par                                              $234,000.00
       9/29/2010       Independent Employers Group Federal Credit Union, Hilo, HI         Subordinated Debentures               $­—                    $­—            $698,000           Par                                               $26,213.78
       9/3/2010        Kilmichael Bancorp, Inc., Kilmichael, MS                           Subordinated Debentures               $­—                    $­—           $3,154,000          Par                                              $190,659.30
1      9/29/2010       Lafayette Bancorp, Inc., Oxford, MS                                Preferred Stock                $4,551,000                    $­—           $4,551,000          Par                                              $170,915.33
                                                                                                                                                                                                                                 Continued on next page
CDCI PROGRAM TRANSACTION DETAIL, AS OF 9/30/2012                                                                  (Continued)
                                                             Seller                                                                               Purchase Details                                                                            Disposition Details
                                                                                                                                                                                                             Pricing                               Remaining        Dividend/Interest
Note       Purchase Date      Name of Institution                                               Investment Description          Amount from CPP        Additional Investment      Investment Amount       Mechanism                Date    Investment Amount         Paid to Treasury
           9/24/2010          Liberty County Teachers Federal Credit Union, Liberty, TX         Subordinated Debentures                        $­—                         $­—              $435,000               Par                                                    $16,457.50
1, 2       9/24/2010          Liberty Financial Services, Inc., New Orleans, LA                 Preferred Stock                        $5,645,000                 $5,689,000             $11,334,000               Par                                                   $428,803.00
           9/24/2010          Lower East Side People’s Federal Credit Union, New York, NY       Subordinated Debentures                        $­—                         $­—              $898,000               Par                                                    $33,974.33
1          8/20/2010          M&F Bancorp, Inc., Durham, NC                                     Preferred Stock                      $11,735,000                           $­—           $11,735,000               Par                                                   $466,140.28
1          8/20/2010                                                                            Preferred Stock                        $5,500,000                          $­—                     $­—             Par
                              Mission Valley Bancorp, Sun Valley, CA                                                                                                                                                                                                     $401,434.22
2a         9/24/2010                                                                            Preferred Stock                                $­—                $4,836,000             $10,336,000               Par
           9/24/2010          Neighborhood Trust Federal Credit Union, New York, NY             Subordinated Debentures                        $­—                         $­—              $283,000               Par                                                     $9,291.83
           9/29/2010          North Side Community Federal Credit Union, Chicago, IL            Subordinated Debentures                        $­—                         $­—              $325,000               Par                                                    $12,205.56
           9/24/2010          Northeast Community Federal Credit Union, San Francisco, CA       Subordinated Debentures                        $­—                         $­—              $350,000               Par                                                    $13,241.67
           9/29/2010          Opportunities Credit Union, Burlington, VT                        Subordinated Debentures                        $­—                         $­—            $1,091,000               Par                                                    $40,973.11
1          8/13/2010          PGB Holdings, Inc., Chicago, IL                                   Preferred Stock                        $3,000,000                          $­—            $3,000,000               Par                                                    $30,333.33
           9/24/2010          Phenix Pride Federal Credit Union, Phenix City, AL                Subordinated Debentures                        $­—                         $­—              $153,000               Par                                                     $5,788.50
1, 4       8/13/2010          Premier Bancorp, Inc., Wilmette, IL                               Subordinated Debentures                $6,784,000                          $­—            $6,784,000               Par                                                              -
           9/24/2010          Prince Kuhio Federal Credit Union, Honolulu, HI                   Subordinated Debentures                        $­—                         $­—              $273,000               Par                                                    $10,328.50
1          9/29/2010          PSB Financial Corporation, Many, LA                               Preferred Stock                        $9,734,000                          $­—            $9,734,000               Par                                                   $365,565.78
           9/24/2010          Pyramid Federal Credit Union, Tucson, AZ                          Subordinated Debentures                        $­—                         $­—            $2,500,000               Par                                                    $94,583.33
           9/29/2010          Renaissance Community Development Credit Union, Somerset, NJ      Subordinated Debentures                        $­—                         $­—                $31,000              Par                                                     $1,164.22
           9/24/2010          Santa Cruz Community Credit Union, Santa Cruz, CA                 Subordinated Debentures                        $­—                         $­—            $2,828,000               Par                                                   $106,992.67
1          9/29/2010          Security Capital Corporation, Batesville, MS                      Preferred Stock                      $17,910,000                           $­—           $17,910,000               Par                                                   $672,620.00
1, 2       9/29/2010          Security Federal Corporation, Aiken, SC                           Preferred Stock                      $18,000,000                  $4,000,000             $22,000,000               Par                                                   $826,222.22
           9/29/2010          Shreveport Federal Credit Union, Shreveport, LA                   Subordinated Debentures                        $­—                         $­—            $2,646,000               Par                                                    $99,372.00
1, 2       8/6/2010           Southern Bancorp, Inc., Arkadelphia, AR                           Preferred Stock                      $11,000,000                 $22,800,000             $33,800,000               Par                                                 $1,368,900.00
           9/29/2010          Southern Chautauqua Federal Credit Union, Lakewood, NY            Subordinated Debentures                        $­—                         $­—            $1,709,000               Par                                                    $64,181.64
           9/29/2010          Southside Credit Union, San Antonio, TX                           Subordinated Debentures                        $­—                         $­—            $1,100,000               Par                                                    $41,311.11
1          9/29/2010          State Capital Corporation, Greenwood, MS                          Preferred Stock                      $15,750,000                           $­—           $15,750,000               Par                                                   $591,500.00
1, 2       9/29/2010          The First Bancshares, Inc., Hattiesburg, MS                       Preferred Stock                        $5,000,000                $12,123,000             $17,123,000               Par                                                   $643,063.78
           9/29/2010          The Magnolia State Corporation, Bay Springs, MS                   Subordinated Debentures                        $­—                         $­—            $7,922,000               Par                                                   $461,148.42
                              Thurston Union of Low-Income People (TULIP) Cooperative Credit
           9/24/2010                                                                            Subordinated Debentures                        $­—                         $­—                $75,000              Par                                                     $2,837.50
                              Union, Olympia, WA
           9/24/2010          Tongass Federal Credit Union, Ketchikan, AK                       Subordinated Debentures                        $­—                         $­—            $1,600,000               Par                                                    $60,533.33
1          8/13/2010          Tri-State Bank of Memphis, Memphis, TN                            Preferred Stock                        $2,795,000                          $­—            $2,795,000               Par                                                   $112,110.56
           9/24/2010          Tulane-Loyola Federal Credit Union, New Orleans, LA               Subordinated Debentures                        $­—                         $­—              $424,000               Par                                                    $16,041.33
           9/24/2010          Union Baptist Church Federal Credit Union, Fort Wayne, IN         Subordinated Debentures                        $­—                         $­—                $10,000              Par                                                       $378.33
           9/29/2010          Union Settlement Federal Credit Union, New York, NY               Subordinated Debentures                        $­—                         $­—              $295,000               Par                                                    $11,078.89
1          9/3/2010           United Bancorporation of Alabama, Inc., Atmore, AL                Preferred Stock                      $10,300,000                           $­—           $10,300,000               Par                                                   $401,700.00
                              UNITEHERE Federal Credit Union, (Workers United Federal Credit
           9/29/2010                                                                            Subordinated Debentures                        $­—                         $­—                $57,000              Par                                                     $2,140.67
                              Union), New York, NY
1, 2       7/30/2010          University Financial Corp, Inc., St. Paul, MN                     Subordinated Debentures              $11,926,000                 $10,189,000             $22,115,000               Par                                                 $1,399,695.21
           9/24/2010          UNO Federal Credit Union, New Orleans, LA                         Subordinated Debentures                        $­—                         $­—              $743,000               Par                                                    $28,110.17
           9/29/2010          Vigo County Federal Credit Union, Terre Haute, IN                 Subordinated Debentures                        $­—                         $­—            $1,229,000               Par                                                    $46,155.78
           9/24/2010          Virginia Community Capital, Inc., Christiansburg, VA              Subordinated Debentures                        $­—                         $­—            $1,915,000               Par                                                    $72,450.83
                                                                                                                                                                                                              Total Capital Repayment
                                                                                                                                                      Total Purchase Amount            $570,073,000                                               $2,850,000
                                                                                                                                                                                                                               Amount
                                                                                                                                         TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                               $567,223,000
Notes: Numbers may not total due to rounding. Data as of 9/30/2012. Numbered notes are taken verbatim from Treasury’s 9/28/2012, Transactions Report.
1	
    This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2	
    Treasury made an additional investment in this institution at the time it entered the CDCI program.
                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I October 25, 2012




2a	
    Treasury made an additional investment in this institution after the time it entered the CDCI program.
3	
    On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 6/29/2011. Accrued and
    previously unpaid dividends were paid on the date of the exchange.
4	
    On 3/23/2012, Premier Bank, Wilmette, IL, the banking subsidiary of Premier Bancorp, Inc., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
5	
    Repayment pursuant to Section 5.2 of the CDCI Securities Purchase Agreement.

Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Dividends and Interest Report, 10/10/2012.
                                                                                                                                                                                                                                                                                        257
                                                                                                                                                                                                                                                                                                     258
Table D.4
 AIFP TRANSACTION DETAIL, AS OF 9/30/2012
                                                                                                                                                                 Treasury Investment After
                                             Initial Investment                          Exchange/Transfer/Other Details                                         Exchange/Transfer/Other                                                              Payment or Disposition1
                                                                                                                                                                                                                                                                      Remaining
                          Trans                                                                                                                                                                                                                     Remaining        Investment         Dividend/
                          action                                                                                                                                                             Amount/                                      Amount/ Investment           Amount/    Interest Paid to
              Date        Type      Seller         Description            Amount Note Date           Type                           Amount Note Obligor          Note   Description          Equity %         Date          Type          Proceeds Description         Equity %          Treasury
                                                   Preferred
                                                                                                   Exchange for
                                                   Stock w/                                                                                                              Convertible
              12/29/2008 Purchase GMAC                             $5,000,000,000       12/30/2009 convertible preferred     $5,000,000,000        GMAC           21,
                                                   Exercised                                                                                                              Preferred    $5,937,500,000
                                                                                                   stock                                           (Ally)         22
                                                   Warrants                                                                                                                  Stock
                                                   Convertible
                                                   Preferred                                      Partial conversion of
              5/21/2009   Purchase GMAC            Stock w/        $7,500,000,000   22 12/30/2009 preferred stock for        $3,000,000,000
                                                   Exercised                                      common stock
GMAC                                               Warrants
                                                                                                                                                                  3,
(Ally),                                                                                                                                            GMAC                    Common                                                                                                 $3,004,503,132
                                                   Convertible                                                                                                    26,                          73.8%
Detroit, MI                                                                                                                                        (Ally)                    Stock
                                                   Preferred                                       Partial conversion of                                          32
                                                                                    22,
              12/30/2009 Purchase GMAC             Stock w/        $1,250,000,000       12/30/2010 preferred stock for       $5,500,000,000   26
                                                                                    26
                                                   Exercised                                       common stock
                                                   Warrants
                                                   Trust
                                                                                                     Exchange for
                                                   Preferred                                                                                                                  Trust
                                                                                                     amended and                                   GMAC
              12/30/2009 Purchase GMAC             Securities      $2,540,000,000       3/1/2011                             $2,670,000,000   27                  27      Preferred    $2,670,000,000     3/2/2011   Disposition28   $2,667,000,000         N/A             $—
                                                                                                     restated Trust                                (Ally)
                                                   w/ Exercised                                                                                                           Securities
                                                                                                     Preferred Securities
                                                   Warrants
                                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I October 25, 2012




                                  General
                                              Debt                                                   Exchange for equity
              12/29/2008 Purchase Motors                            $884,024,131    2   5/29/2009                             $884,024,131    3
                                              Obligation                                             interest in GMAC
                                  Corporation
                                              Debt                                                   Exchange for
                                  General
                                              Obligation                                             preferred and
              12/31/2008 Purchase Motors                          $13,400,000,000       7/10/2009                           $13,400,000,000   7
                                              w/ Additional                                          common stock in
                                  Corporation
                                              Note                                                   New GM
                                               Debt                                                  Exchange for
                                   General                                                                                                         General        10,
                                               Obligation                                            preferred and                                                         Preferred
              4/22/2009   Purchase Motors                          $2,000,000,000   4   7/10/2009                            $2,000,000,000   7    Motors         11,                  $2,100,000,000 12/15/2010      Repayment      $2,139,406,778         N/A             $—
                                               w/ Additional                                         common stock in                                                          Stock
                                   Corporation                                                                                                     Company        24
                                               Note                                                  New GM

                                               Debt                                                  Exchange for                                                                                                          Partial                    Common
                                   General                                                                                                         General        10,                                   11/18/2010                 $11,743,303,903                       36.9%
                                               Obligation                                            preferred and                                                         Common                                    Disposition25                      Stock
              5/20/2009   Purchase Motors                          $4,000,000,000   5   7/10/2009                            $4,000,000,000   7    Motors         11,                          60.8%
                                               w/ Additional                                         common stock in                                                         Stock                                         Partial                    Common
                                   Corporation                                                                                                     Company        25                                    11/26/2010                   $1,761,495,577                     32.04%
                                               Note                                                  New GM                                                                                                          Disposition25                      Stock
                                                                                                                                                                                                                          Partial                          Debt
                                                                                                                                                                                                         7/10/2009                    $360,624,198               $6,711,864,407
                                                                                                                                                                                                                      Repayment                       Obligation
                                                                                                                                                                                                                          Partial                          Debt
                                                                                                                                                                                                        12/18/2009                   $1,000,000,000              $5,711,864,407
                                               Debt                                                  Exchange for                                  General                                                            Repayment                       Obligation
                                   General                                                                                                                                                                                                                                         $756,714,508
                                               Obligation                                            preferred and                                 Motors         11,          Debt
              5/27/2009   Purchase Motors                           $360,624,198    6   7/10/2009                             $360,624,198    7                                        $7,072,488,605                     Partial                          Debt
                                               w/ Additional                                         common stock in                               Holdings       12      Obligation                     1/21/2010                     $35,084,421               $5,676,779,986
                                   Corporation                                                                                                                                                                        Repayment                       Obligation
                                               Note                                                  New GM                                        LLC
General
Motorsb,c,                                                                                                                                                                                                                Partial                          Debt
                                                                                                                                                                                                         3/31/2010                   $1,000,000,000              $4,676,779,986
Detroit, MI                                                                                                                                                                                                           Repayment                       Obligation
                                                                                                                                                                                                         4/20/2010    Repayment      $4,676,779,986         N/A             $—
                                               Debt                                                  Exchange for
                                   General
                                               Obligation                                            preferred and
              6/3/2009    Purchase Motors                         $30,100,000,000   8   7/10/2009                           $22,041,706,310   9
                                               w/ Additional                                         common stock in
                                   Corporation
                                               Note                                                  New GM
                                                                                                     Transfer of debt to
                                                                                        7/10/2009                            $7,072,488,605   9
                                                                                                     New GM
                                                                                                                                                   Motors
                                                                                                                                                                               Debt                                       Partial                          Debt
                                                                                        7/10/2009    Debt left at Old GM      $985,805,085    9    Liquidation    29                    $985,805,085     3/31/2011                     $50,000,000                 $935,805,085
                                                                                                                                                                          Obligation                                  Repayment                       Obligation
                                                                                                                                                   Company
                                                                                                                                                                                                                          Partial                          Debt
                                                                                                                                                                                                          4/5/2011                     $45,000,000                 $890,805,085
                                                                                                                                                                                                                      Repayment                       Obligation
                                                                                                                                                                                                                          Partial                          Debt
                                                                                                                                                                                                          5/3/2011                     $15,887,795                 $874,917,290
                                                                                                                                                                                                                      Repayment                       Obligation
                                                                                                                                                                                                                          Partial                          Debt
                                                                                                                                                                                                        12/16/2011                        $144,444                 $874,772,846
                                                                                                                                                                                                                      Repayment                       Obligation
                                                                                                                                                                                                                          Partial                          Debt
                                                                                                                                                                                                        12/23/2011                     $18,890,294                 $855,882,552
                                                                                                                                                                                                                      Repayment                       Obligation
                                                                                                                                                                                                                          Partial                          Debt
                                                                                                                                                                                                         1/11/2012                      $6,713,489                 $849,169,063
                                                                                                                                                                                                                      Repayment                       Obligation
                                                                                                                                                                                                                                                                           Continued on next page
 AIFP TRANSACTION DETAIL, AS OF 9/30/2012                                                (CONTINUED)
                                                                                                                                                                    Treasury Investment After
                                             Initial Investment                          Exchange/Transfer/Other Details                                            Exchange/Transfer/Other                                                                Payment or Disposition1
                                                                                                                                                                                                                                                                          Remaining
                         Trans                                                                                                                                                                                                                           Remaining       Investment          Dividend/
                         action                                                                                                                                                                  Amount/                                       Amount/ Investment          Amount/     Interest Paid to
             Date        Type       Seller         Description            Amount Note Date           Type                             Amount Note Obligor           Note   Description           Equity %         Date           Type          Proceeds Description        Equity %           Treasury
                                                                                                                                                                                                                                                                Debt
                                                   Debt
                                                                                                                                                                                                                                                           Obligation
                                    Chrysler       Obligation                                                                                                                                                                 Partial
             1/16/2009   Purchase                                  $1,500,000,000   13                                                                                                                       3/17/2009                       $3,499,055            w/ $1,496,500,945
                                    FinCo          w/ Additional                                                                                                                                                          Repayment
                                                                                                                                                                                                                                                           Additional
                                                   Note
                                                                                                                                                                                                                                                                Note
                                                                                                                                                                                                                                                                Debt
                                                                                                                                                                                                                                                           Obligation
                                                                                                                                                                                                                              Partial
                                                                                                                                                                                                             4/17/2009                      $31,810,122            w/ $1,464,690,823
                                                                                                                                                                                                                          Repayment
                                                                                                                                                                                                                                                           Additional
                                                                                                                                                                                                                                                                Note
Chrysler                                                                                                                                                                                                                                                        Debt
FinCo,                                                                                                                                                                                                                                                     Obligation
                                                                                                                                                                                                                              Partial                                                      $7,405,894
Farmington                                                                                                                                                                                                   5/18/2009                      $51,136,084            w/ $1,413,554,739
Hills, MI                                                                                                                                                                                                                 Repayment
                                                                                                                                                                                                                                                           Additional
                                                                                                                                                                                                                                                                Note
                                                                                                                                                                                                                                                                Debt
                                                                                                                                                                                                                                                           Obligation
                                                                                                                                                                                                                              Partial
                                                                                                                                                                                                             6/17/2009                      $44,357,710            w/ $1,369,197,029
                                                                                                                                                                                                                          Repayment
                                                                                                                                                                                                                                                           Additional
                                                                                                                                                                                                                                                                Note
                                                                                                                                                                                                                                                           Additional
                                                                                                                                                                                                             7/14/2009    Repayment       $1,369,197,029                         $—
                                                                                                                                                                                                                                                                Note
                                                                                                                                                                                                             7/14/2009   Repayment*         $15,000,000         N/A              $—
                                                   Debt                                                                                                                            Debt
                                    Chrysler       Obligation                                        Transfer of debt to                              Chrysler                obligation
             1/2/2009    Purchase                                  $4,000,000,000        6/10/2009                              $500,000,000     19                  20                    $3,500,000,000    5/14/2010                    $1,900,000,000        N/A              $—
                                    Holding        w/ Additional                                     New Chrysler                                     Holding              w/ additional                                  Termination
                                                   Note                                                                                                                            note                                           and
                                                   Debt                                                                                                                                                                    settlement
                                    Chrysler       Obligation                                                                                                                                                              payment20
             4/29/2009   Purchase                                            $—     14
                                    Holding        w/ Additional
                                                   Note
                                                   Debt
                                    Chrysler       Obligation
             4/29/2009   Purchase                                   $280,130,642    15                                                                                                                       7/10/2009    Repayment        $280,130,642         N/A              $—
                                    Holding        w/ Additional
                                                   Note
                                                   Debt
                                                                                                                                                      Old Carco                Right to                                     Proceeds                        Right to
                                    Old            Obligation
             5/1/2009    Purchase                                  $1,888,153,580   16 4/30/2010     Completion               ($1,888,153,580)   23   Liquidation    23         recover              N/A     5/10/2010   from sale of       $30,544,528      recover             N/A
                                    Chrysler       w/ Additional
                                                                                                     of bankruptcy                                    Trust                   proceeds                                      collateral                     proceeds
                                                   Note
                                                                                                     proceeding; transfer
                                                   Debt                                              of collateral security                                                                                                 Proceeds                        Right to
                                    Old            Obligation                                        to liquidation trust
             5/20/2009   Purchase                                            $—     17                                                                                                                        9/9/2010   from sale of        $9,666,784      recover             N/A
                                    Chrysler       w/ Additional
                                                                                                                                                                                                                            collateral                     proceeds
                                                   Note
                                                                                                                                                                                                                            Proceeds                        Right to
Chrysler,                                                                                                                                                                                                   12/29/2010   from sale of        $7,844,409      recover             N/A
Auburn                                                                                                                                                                                                                      collateral                     proceeds                    $1,171,263,942
Hills, MI                                                                                                                                                                                                                   Proceeds                        Right to
                                                                                                                                                                                                             4/30/2012   from sale of        $9,302,185      recover             N/A
                                                                                                                                                                                                                            collateral                     proceeds
                                                   Debt
                                                                                                                                                                                   Debt
                                                   Obligation
                                                                                                                                                      Chrysler                obligation
                                  New              w/ Additional                                     Issuance of equity in                                           19,                                                 Repayment -
             5/27/2009   Purchase                                  $6,642,000,000   18 6/10/2009                                          $—          Group                w/ additional   $7,142,000,000    5/24/2011                    $5,076,460,000
                                  Chrysler         Note, Zero                                        New Chrysler                                                    31                                                     Principal
                                                                                                                                                      LLC                   note & zero
                                                   Coupon
                                                                                                                                                                           coupon note
                                                   Note, Equity
                                                                                                                                                                                                                          Termination
                                                                                                                                                                                                             5/24/2011    of undrawn      $2,065,540,000
                                                                                                                                                                                                                             facility31                         N/A              $—

                                                                                                                                                                                                                         Repayment*
                                                                                                                                                                                                             5/24/2011    - Additional     $288,000,000
                                                                                                                                                                                                                                 Note
                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I October 25, 2012




                                                                                                                                                                                                                         Repayment*
                                                                                                                                                                                                                              - Zero
                                                                                                                                                                                                             5/24/2011                     $100,000,000
                                                                                                                                                                                                                             Coupon
                                                                                                                                                                                                                                Note
                                                                                                                                                      Chrysler
                                                                                                                                                                              Common
                                                                                                                                                      Group          30                             6.6%     7/21/2011    Disposition      $560,000,000         N/A              $—
                                                                                                                                                                                equity
                                                                                                                                                      LLC
                                                                                                                                                                                                                                                                                                          259




                                                                                                                                                                                                                                                                                Continued on next page
     AIFP TRANSACTION DETAIL, AS OF 9/30/2012                                                        (CONTINUED)                                                                                                                                                                                                               260
                                                                                                                                                                             Treasury Investment After
                                                  Initial Investment                                 Exchange/Transfer/Other Details                                         Exchange/Transfer/Other                                                                       Payment or Disposition1
                                                                                                                                                                                                                                                                                             Remaining
                              Trans                                                                                                                                                                                                                                    Remaining            Investment           Dividend/
                              action                                                                                                                                                                        Amount/                                          Amount/ Investment               Amount/      Interest Paid to
               Date           Type       Seller         Description                Amount Note Date                Type                         Amount Note Obligor          Note    Description            Equity %           Date           Type           Proceeds Description             Equity %            Treasury
                                                                                                                                                                                                                                               Additional Proceeds*                     $403,000,000
                              Total Initial Investment Amount           $81,344,932,551                                                                                                                                                               Total Payments                $34,894,279,433
                                                                                                                                                                                                                                 Total Treasury Investment Amount                   $40,896,959,538
Notes: Numbers may not total due to rounding. Data as of 9/30/2012. Numbered notes were taken verbatim from Treasury’s 9/28/2012 Transaction Report.

GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.

1	
    Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2	
    Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3	
    Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See
    transactions marked by orange line in the table above and footnote 22.)
4	
    This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5	
    This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6	
    This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM. On 7/10/2009, the principal amount was included in the $7.07 billion of debt
    assumed by the new GM, as explained in footnote 10.
7	
    On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8	
    Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of funds had
                                                                                                                                                                                                                                                                                                                               Appendix D I Transaction Detail I October 25, 2012




    been disbursed by Treasury.
9	
    On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the
    terms of a separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10	
    In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11	
    Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors
    Company” on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12	
    Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13	
    The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14	
    This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15	
    The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16	
    This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of
    6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17	
    This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had
    terminated.
18	
    This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to
    $6.642 billion. The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler.
    When the sale to new Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in New Chrysler.
19	
    Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20	
    Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement
    payment of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21	
    Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22	
    Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23	
    On 4/30/2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were
    transferred to a liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24	
    On 10/27/2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common
    stock. The repurchase was completed on 12/15/2010.
25	
    On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.75 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903. On
    11/26/2010, the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting
    agreement total $13,504,799,480.
26	
    On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27	
    On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement,
    Treasury received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28	
    On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not
    include the accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29	
    On 3/31/2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were
    transferred to liquidation trusts. On 12/15/2011, Old GM was dissolved, as required by the Plan of Liquidation. Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30	
    In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership automatically
    increased from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On 5/24/2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a fully diluted basis). On
    7/21/2011, Fiat, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.
31	
    On 5/24/2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
32	
    On 11/1/2011, Treasury received a $201,345.42 pro-rata tax distribution on its common stock from Ally Financial, Inc. pursuant to the terms of the Sixth Amended and Restated Limited Liability Company Operating Agreement of GMAC LLC dated 5/22/2009.

a	
      For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b	
      According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c 	
      This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Dividends and Interest Report, 10/10/2012.
Table D.5
 ASSP TRANSACTION DETAIL, AS OF 9/30/2012
                      Seller                                                                                                                                  Adjustment Details                        Repayment4
                                                                                                                                                                                           Adjusted                                                      Remaining
                                                            Transaction      Investment                     Investment         Pricing        Adjustment             Adjustment          Investment                                                     Investment                              Dividend/Interest
Note      Date        Institution Name                      Type             Description                       Amount       Mechanism               Date                Amount              Amount      Date                       Type                 Description                Amount        Paid to Treasury
                                                                                                                                                                                                                                 Partial         Debt Obligation w/
                                                                                                                                     N/A                                                                11/20/2009                                                          $140,000,000
                                                                                                                                                                                                                             repayment              Additional Note
                                                                                                                                                          3
                      GM Supplier Receivables LLC                            Debt Obligation w/                                                7/8/2009        ($1,000,000,000)     $2,500,000,000                               Partial         Debt Obligation w/
1         4/9/2009                                          Purchase                                   $3,500,000,000                                                                                   2/11/2010                                                           $100,000,000              $9,087,808
                      Wilmington, DE                                         Additional Note                                                                                                                                 repayment              Additional Note
                                                                                                                                                                                                                                       5
                                                                                                                                                                                                        3/4/2010         Repayment                    Additional Note        $50,000,000
                                                                                                                                                                                      $290,000,000      4/5/2010              Payment6                         None          $56,541,893

                      Chrysler Receivables SPV LLC                           Debt Obligation w/        $1,500,000,000                N/A       7/8/20093         ($500,000,000)     $1,000,000,000      3/9/2010         Repayment5                   Additional Note       $123,076,735
2         4/9/2009                                          Purchase                                                                                                                                                                                                                                  $5,787,176
                      Wilmington, DE                                         Additional Note                                                                                          $123,076,735      4/7/2010              Payment7                         None          $44,533,054
Initial Total         $5,000,000,000                                                                                                       Adjusted Total        $413,076,735                                                                  Total Repayments            $413,076,735
                                                                                                                 Total Proceeds from Additional Notes            $101,074,947
Notes: Numbers may not total due to rounding. Data as of 9/30/2012. Numbered notes were taken verbatim from Treasury’s 9/28/2012 Transactions Report.
1
 	The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
   made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
 	The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
   of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
 	 Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4
 	 Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
 	All outstanding principal drawn under the credit agreement was repaid.
6
 	Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all
   of which have been repaid.
7
 	Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
   which have been repaid.

Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Dividends and Interest Report, 10/10/2012.




Table D.6
 TIP TRANSACTION DETAIL, AS OF 9/30/2012
                                                                                                                                                                               Treasury Investment
                                                                                                                                                                               Remaining After Capital
                       Seller                                                                                                              Capital Repayment Details           Repayment                                          Final Disposition                              Market and Warrant Data
                                                                                                                                                    Capital          Capital    Remaining     Remaining              Final         Final          Final                                                 Dividends/
                       Institution         Transaction                                                     Investment        Pricing             Repayment        Repayment       Capital        Capital       Disposition         Disposition    Disposition            Stock       Outstanding   Interest Paid to
Note Date              Name                Type           Investment Description                              Amount      Mechanism                 Amount             Date2      Amount      Description           Date3          Description    Proceeds               Price    Warrant Shares          Treasury
                                                          Trust Preferred Securities w/
    1   12/31/2008     Citigroup Inc.      Purchase                                                 $20,000,000,000                 Par    $20,000,000,000       12/23/2009             $—        Warrants     1/25/2011      A    Warrants       $190,386,428          $32.72                     $1,568,888,889
                                                          Warrants
                       Bank of America
        1/16/2009                          Purchase       Preferred Stock w/ Warrants               $20,000,000,000                 Par    $20,000,000,000         12/9/2009            $—        Warrants      3/3/2010      A    Warrants       $1,236,804,513         $8.83                     $1,435,555,556
                       Corporation
                                                                                                                           Total Capital
                                                          Total Investment                          $40,000,000,000                        $40,000,000,000
                                                                                                                            Repayment
                                                                                             Total Treasury TIP Investment Amount                        $—                                                                                       Total Warrant Proceeds         $1,427,190,941
Notes: Numbers may not total due to rounding. Data as of 9/30/2012. Numbered notes were taken verbatim from Treasury’s 9/28/2012 Transactions Report.
1
 	Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
 	 Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3
 	 For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, after underwriting fees, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.

Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Dividends and Interest Report, 10/10/2012; Bloomberg LP, accessed 10/10/2012.
                                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                                                      261
Table D.7                                                                                                                                                                                                                                                                                                                                262

 AGP TRANSACTION DETAIL, AS OF 9/30/2012
                         Initial Investment                                                                      Premium                                      Exchange/Transfer/Other Details                                                Payment or Disposition                            Market and Warrant Data
                                                                                                                                                                                                                                                            Remaining            Remaining Outstanding                      Dividends/
                         Institution       Transaction                                                                                                                                                                    Payment              Payment        Premium             Premium Warrant               Stock    Interest Paid
Note     Date            Name              Type        Description       Guarantee Limit      Description             Amount            Date              Type     Description             Amount             Date           Type               Amount      Description            Amount Shares                Price      to Treasury
                                                                                                                                                     Exchange                                                                 Partial
                                                                                                                                                                          Trust                                                                                     Trust
                                                                                                                                                      preferred                                                         cancellation
                                                                                                                                                                    Preferred                                                                                 Preferred
                                                                                                                                   6/9/2009      stock for trust                   $4,034,000,000     12/23/2009            for early ($1,800,000,000)                      $2,234,000,000
                                                                                                                                                                 Securities w/                                                                             Securities w/
                                                                                                                                                      preferred                                                          termination
                                                                                              Preferred                                                             Warrants                                                                                  Warrants
1, 2, 3,                 Citigroup Inc.,                 Master                                                                                      securities                                                        of guarantee
         1/16/2009                         Guarantee                     $5,000,000,000       Stock w/       $4,034,000,000                                                                                                                                                                                    $32.72 $442,964,764
4, 5                     New York, NY                    Agreement                                                                                    Exchange                                          9/30/2010       Disposition    $2,246,000,000          Warrants                  $—
                                                                                              Warrants                                                                     Trust
                                                                                                                                                 trust preferred
                                                                                                                                                                     Preferred
                                                                                                                                  9/29/2010        securities for                  $2,246,000,000                           Warrant
                                                                                                                                                                  Securities w/                         1/25/2011                          $67,197,045             None                  $—
                                                                                                                                                 trust preferred                                                            Auction
                                                                                                                                                                     Warrants
                                                                                                                                                      securities
                                                         Termination
3        12/23/2009      Citigroup Inc.    Termination                   ($5,000,000,000)
                                                         Agreement
                                                         Total           $­—                                                                                                                                      Total Proceeds      $2,313,197,045

Notes: Numbers may not total due to rounding. Data as of 9/30/2012. Numbered notes were taken verbatim from Treasury’s 9/28/2012 Transactions Report.
1
 	 In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
 	Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred
   Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
 	On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP
   Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity
   Guarantee Program.
4
                                                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I October 25, 2012




 	On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange, Citigroup
   Inc. paid the outstanding accrued and unpaid dividends.
5
 	 On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.

Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Dividends and Interest Report, 10/10/2012; Bloomberg LP, accessed 10/9/2012.




Table D.8
TALF TRANSACTION DETAIL, AS OF 9/30/2012
                         Seller
                                                         Transaction                                                                            Pricing                 Adjusted             Adjusted
Note       Date          Institution                     Type              Investment Description                  Investment Amount            Mechanism               Investment Date      Investment Amount
                                                                                                                                                                        7/19/2010            $4,300,000,000
1,2,3      3/3/2009      TALF LLC, Wilmington, DE        Purchase          Debt Obligation w/ Additional Note      $20,000,000,000              N/A
                                                                                                                                                                        6/28/2012            $1,400,000,000
                                                                           Total                                   $1,400,000,000
Notes: Numbers may not total due to rounding. Data as of 9/30/2012. Numbered notes were taken verbatim from Treasury’s 9/28/2012 Transactions Report.
1
 	The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan amount. The loan
   will be incrementally funded.
2
 	On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan amount to
   $4,300,000,000.
3
 	On 6/28/2012, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously amended 7/19/2010, which reduced Treasury’s maximum loan amount to $1,400,000,000.

Sources: Treasury, Transactions Report, 9/28/2012.
Table D.9
SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2012
                     Seller               Purchase Details                                                      Exchange/Transfer Details
                                                                                                                                                                                                                                                                   Outstanding       Dividends/Interest
                     Name of              Transaction     Investment               Investment   Pricing                                          Transaction                                                                    Pricing                                Warrant                  Paid to
Note    Date         Institution          Type            Description                 Amount    Mechanism        Date                            Type                Investment Description                       Amount     Mechanism     Stock Price                  Shares                Treasury
                                                          Preferred Stock
                                                                                                                                                                     Preferred Stock w/
1       11/25/2008   AIG, New York, NY    Purchase        w/ Warrants         $40,000,000,000   Par             4/17/2009                        Exchange                                                 $40,000,000,000            Par           $32.79            2,689,938                      $—
                                                                                                                                                                     Warrants (Series E)
                                                          (Series D)
                                                                                                                See table below for exchange/
                                                          Preferred Stock
                                                                                                                transfer details in connection
2, 3    4/17/2009    AIG, New York, NY    Purchase        w/ Warrants         $29,835,000,000   Par                                                                                                                                                $32.79                  150           $641,275,676
                                                                                                                with the recapitalization
                                                          (Series F)
                                                                                                                conducted on 1/14/2011.
                                                          Initial Total      $69,835,000,000
                                                                                                                                                 Final Disposition
                                                                                                                                                                                           Transaction                          Pricing
                                                                                                                                                 Date                Investment                                 Proceeds
                                                                                                                                                                                           Type                              Mechanism
                                                                                                                                                                     Warrants
                                                                                                                                                                     (Series E)
                                                                                                                                                                     Warrants
                                                                                                                                                                     (Series F)

                                       Recapitalization                                                     Treasury Holdings Post-Recapitalization                                                                            Final Disposition
                                                                                                                                                                                                                                                              Remaining Recap
                     Investment           Transaction                       Pricing                                                              Amount /                                  Transaction                                        Pricing       Investment Amount,
Note    Date         Description          Type                              Mechanism           Investment Description                           Shares              Date                  Type                                Proceeds8   Mechanism        Shares, or Equity %
                                          Exchange                          Par                 Preferred Stock (Series G)                       $2,000,000,000      5/27/2011             Cancellation                              $—              N/A                  $—10
                                                                                                                                                                     2/14/2011             Payment                          $185,726,192              Par
                                                                                                                                                                     3/8/2011              Payment                     $5,511,067,614                 Par
                                                                                                                                                                     3/15/2011             Payment                           $55,833,333              Par
                                                                                                                                                                     8/17/2011             Payment                           $97,008,351              Par
                                                                                                                                                                     8/18/2011             Payment                     $2,153,520,000                 Par
                                                                                                AIA Preferred Units                              $16,916,603,568                                                                                                           $—
                                                                                                                                                                     9/2/2011              Payment                           $55,885,302              Par
                                          Exchange                          N/A                                                                                      11/1/2011             Payment                          $971,506,765              Par
                     Preferred Stock
4,7,8   1/14/2011                                                                                                                                                    3/8/2012              Payment                     $5,576,121,382                 Par
                     (Series F)
                                                                                                                                                                     3/15/2012             Payment                     $1,521,632,096                 Par
                                                                                                                                                                     3/22/2012             Payment                     $1,493,250,339                 Par
                                                                                                                                                                     2/14/2011             Payment                     $2,009,932,072                 Par
                                                                                                ALICO Junior Preferred Interests                 $3,375,328,432      3/8/2011              Payment                     $1,383,888,037                 Par                  $—
                                                                                                                                                                     3/15/2012             Payment                           $44,941,843              Par


                                                                                                                                                                                           Partial                                                              1,455,037,9629
                                          Exchange                                                                                               167,623,733         5/24/2011                                         $5,800,000,000                N/A
                                                                                                                                                                                           Disposition
                                                                                                                                                                                                                                                                           77%


                                                                                                                                                                                           Partial                                                              1,248,141,41011
                                                                                                                                                                     3/8/2012                                          $6,000,000,008                N/A
                                                                                                                                                                                           Disposition
                                                                                                                                                                                                                                                                           70%

                     Preferred Stock                                                                                                                                                       Partial                                                              1,084,206,98412
5       1/14/2011                         Exchange                          N/A                                                                  924,546,133         5/6/2012                                          $4,999,999,993                N/A
                     (Series E)                                                                                                                                                            Disposition                                                                     63%

                                                                                                                                                                                           Partial                                                              1,059,616,82112
                                                                                                Common Stock                                                         5/7/2012                                               $749,999,972             N/A
                                                                                                                                                                                           Disposition                                                                     61%

                                                                                                                                                                                           Partial                                                               895,682,39513
                                                                                                                                                                     8/3/2012                                          $4,999,999,993                N/A
                                                                                                                                                                                           Disposition                                                                     55%

                                                                                                                                                                                           Partial                                                               871,092,23113
                                                                                                                                                                     8/6/2012                                               $750,000,002             N/A
                                                                                                                                                                                           Disposition                                                                     53%
                     Common Stock
6       1/14/2011                         Transfer                                                                                               562,868,096                               Partial                                                               317,246,07814
                     (non-TARP)
                                                                                                                                                                                                                                                                                                           Transaction detail I Appendix D I October 25, 2012




                                                                                                                                                                     9/10/2012                                        $17,999,999,973                N/A
                                                                                                                                                                                           Disposition                                                                     22%

                                                                                                                                                                                           Partial                                                               234,169,15614
                                                                                                                                                                     9/11/2012                                         $2,699,999,965                N/A
                                                                                                                                                                                           Disposition                                                                     16%
                                                                                                                                                                     Total                                           $65,060,313,233
                                                                                                                                                                                                                                                                                  Continued on next page
                                                                                                                                                                                                                                                                                                           263
Notes: Numbers may not total due to rounding. Data as of 9/30/2012. Numbered notes were taken verbatim from the Treasury’s 9/28/2012 Transactions Report, and Treasury’s 10/10/2012 Dividends and Interest Report.
1
 	On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an additional obligation to Treasury of
                                                                                                                                                                                                                                                                                                                                      264
    $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
 	The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
 	This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 05/27/2011.
4
 	On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests and
    (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to $2,000,000,000.
5
 	On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6
 	On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization
    transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
  	The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
 	Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9
 	On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for total proceeds of $5,800,000,000, pursuant to an underwriting agreement executed on 05/24/2011.
10
  	On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.
11
  	On 3/13/2012, Treasury completed the sale of 206,896,552 shares of common stock at $29.00 per share for total proceeds of $6,000,000,008, pursuant to an underwriting agreement executed on 3/8/2012.
12
  	On 5/10/2012, Treasury completed the sale of 188,524,589 shares of common stock at $30.50 per share for total proceeds of $5,749,999,965, pursuant to an underwriting agreement executed on 5/6/2012.
13
  	On 8/8/2012, Treasury completed the sale of 188,524,590 shares of common stock at $30.50 per share for total proceeds of $5,749,999,995, pursuant to an underwriting agreement executed on 8/3/2012.
14
  	On 9/14/2012, Treasury completed the sale of 636,923,075 shares of common stock at $32.50 per share for total proceeds of $20,699,999,938, pursuant to an underwriting agreement executed on 9/10/2012.

Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Dividends and Interest Report, 10/10/2012; Bloomberg LP, accessed 10/10/2012.




Table D.10
UCSB TRANSACTION DETAIL, AS OF 9/30/2012
                                                               Purchase Details1                                                                                             Settlement Details                                                                       Final Disposition
                                                                                                                                                                                                                 Senior                          Life-to-date
Purchase                                                                                            Purchase Face             Pricing      TBA or    Settlement             Investment                          Security                            Principal    Current Face             Disposition            Interest Paid to
Date          Investment Description                        Institution Name       CUSIP                 Amount3           Mechanism        PMF3     Date                    Amount2, 3    TBA or PMF3        Proceeds4     Trade Date           Received1, 8      Amount6, 8              Amount5, 6                   Treasury
                                                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I October 25, 2012




3/19/2010     Floating Rate SBA 7a security due 2025        Coastal Securities     83164KYN7            $4,070,000              107.75       —       3/24/2010              $4,377,249           —                $2,184    6/21/2011               $902,633        $3,151,186            $3,457,746                    $169,441
3/19/2010     Floating Rate SBA 7a security due 2022        Coastal Securities     83165ADC5            $7,617,617                 109       —       3/24/2010              $8,279,156           —                $4,130    10/19/2011            $1,685,710        $5,891,602            $6,462,972                    $449,518
3/19/2010     Floating Rate SBA 7a security due 2022        Coastal Securities     83165ADE1            $8,030,000             108.875       —       3/24/2010              $8,716,265           —                $4,348    6/21/2011             $2,022,652        $5,964,013            $6,555,383                    $371,355
4/8/2010      Floating Rate SBA 7a security due 2034        Coastal Securities     83165AD84           $23,500,000             110.502       —       5/28/2010            $26,041,643            —              $12,983     6/7/2011              $1,149,633      $22,350,367          $25,039,989                    $1,089,741
4/8/2010      Floating Rate SBA 7a security due 2016        Coastal Securities     83164KZH9            $8,900,014               107.5       —       4/30/2010              $9,598,523           —                $4,783    6/7/2011              $2,357,796        $6,542,218            $7,045,774                    $414,561
5/11/2010     Floating Rate SBA 7a security due 2020        Coastal Securities     83165AEE0           $10,751,382             106.806       —       6/30/2010            $11,511,052            —                $5,741    6/7/2011                $932,112        $9,819,270         $10,550,917                      $348,599
5/11/2010     Floating Rate SBA 7a security due 2035        Coastal Securities     83164K2Q5           $12,898,996              109.42       —       6/30/2010            $14,151,229            —                $7,057    6/7/2011                $328,604      $12,570,392          $13,886,504                      $479,508
5/11/2010     Floating Rate SBA 7a security due 2033        Coastal Securities     83165AED2            $8,744,333             110.798       —       6/30/2010              $9,717,173           —                $4,844    6/7/2011                $261,145        $8,483,188            $9,482,247                    $368,608
5/25/2010     Floating Rate SBA 7a security due 2029        Coastal Securities     83164K3B7            $8,417,817             110.125       —       7/30/2010              $9,294,363           —                $4,635    6/7/2011                $246,658        $8,171,159            $8,985,818                    $287,624
5/25/2010     Floating Rate SBA 7a security due 2033        Coastal Securities     83165AEK6           $17,119,972             109.553       —       7/30/2010            $18,801,712            —                $9,377    9/20/2011             $2,089,260      $15,030,712          $16,658,561                      $657,863
6/17/2010     Floating Rate SBA 7a security due 2020        Coastal Securities     83165AEQ3           $34,441,059             110.785       —       8/30/2010            $38,273,995            —              $19,077     6/21/2011             $1,784,934      $32,656,125          $36,072,056                    $1,286,450
6/17/2010     Floating Rate SBA 7a security due 2034        Coastal Securities     83165AEP5           $28,209,085             112.028       —       8/30/2010            $31,693,810            —              $15,801     9/20/2011             $2,278,652      $25,930,433          $29,142,474                    $1,254,222
7/14/2010     Floating Rate SBA 7a security due 2020        Coastal Securities     83164K3Y7            $6,004,156             106.625       —       9/30/2010              $6,416,804           —                $3,200    6/21/2011               $348,107        $5,656,049            $6,051,772                    $146,030
7/14/2010     Floating Rate SBA 7a security due 2025        Shay Financial         83164K4J9            $6,860,835             108.505       —       9/30/2010              $7,462,726           —                $3,722    10/19/2011              $339,960        $6,520,875            $7,105,304                    $255,370
7/14/2010     Floating Rate SBA 7a security due 2034        Shay Financial         83165AE42           $13,183,361              111.86       —       9/30/2010            $14,789,302            —                $7,373    6/21/2011               $478,520      $12,704,841          $14,182,379                      $423,725
7/29/2010     Floating Rate SBA 7a security due 2017        Coastal Securities     83164K4E0            $2,598,386             108.438       —       9/30/2010              $2,826,678           —                $1,408    1/24/2012               $694,979        $1,903,407            $2,052,702                    $140,130
7/29/2010     Floating Rate SBA 7a security due 2034        Shay Financial         83164K4M2            $9,719,455              106.75       —       10/29/2010           $10,394,984            —                $5,187    6/21/2011               $188,009        $9,531,446         $10,223,264                      $181,124
8/17/2010     Floating Rate SBA 7a security due 2020        Shay Financial         83165AEZ3            $8,279,048             110.198       —       9/30/2010              $9,150,989           —                $4,561    9/20/2011             $1,853,831        $6,425,217            $7,078,089                    $335,082
8/17/2010     Floating Rate SBA 7a security due 2019        Coastal Securities     83165AFB5            $5,000,000             110.088       —       10/29/2010             $5,520,652           —                $2,752    10/19/2011              $419,457        $4,580,543            $5,029,356                    $213,319
8/17/2010     Floating Rate SBA 7a security due 2020        Coastal Securities     83165AE91           $10,000,000             110.821       —       10/29/2010           $11,115,031            —                $5,541    10/19/2011              $969,461        $9,030,539            $9,994,806                    $433,852
8/31/2010     Floating Rate SBA 7a security due 2020        Shay Financial         83165AEW0            $9,272,482             110.515       —       9/29/2010            $10,277,319            —                $5,123    9/20/2011               $868,636        $8,403,846            $9,230,008                    $386,326
8/31/2010     Floating Rate SBA 7a security due 2024        Shay Financial         83165AFA7           $10,350,000             112.476       —       10/29/2010           $11,672,766            —                $5,820    10/19/2011              $250,445      $10,099,555          $11,314,651                      $425,545
8/31/2010     Floating Rate SBA 7a security due 2020        Coastal Securities     83164K5H2            $6,900,000             105.875       —       11/30/2010             $7,319,688            —               $3,652    1/24/2012               $663,200        $6,236,800            $6,556,341                    $209,956
9/14/2010     Floating Rate SBA 7a security due 2020        Shay Financial         83165AFC3            $8,902,230             111.584       —       10/29/2010             $9,962,039           —                $4,966    1/24/2012             $1,398,549        $7,503,681            $8,269,277                    $447,356
9/14/2010     Floating Rate SBA 7a security due 2021        Shay Financial         83165AFK5            $8,050,000             110.759       —       11/30/2010             $8,940,780           —                $4,458    1/24/2012               $996,133        $7,053,867            $7,703,610                    $354,302
9/14/2010     Floating Rate SBA 7a security due 2029        Coastal Securities     83164K5F6            $5,750,000               106.5       —       11/30/2010             $6,134,172           —                $3,061    1/24/2012               $276,276        $5,473,724            $5,764,858                    $156,481
9/14/2010     Floating Rate SBA 7a security due 2026        Coastal Securities     83164K5L3            $5,741,753               110.5       —       11/30/2010             $6,361,173            —               $3,172    1/24/2012             $1,433,872        $4,307,881            $4,693,918                    $239,527
9/28/2010     Floating Rate SBA 7a security due 2035        Coastal Securities     83164K5M1            $3,450,000             110.875       —       11/30/2010             $3,834,428            —               $1,912    10/19/2011               $82,832        $3,367,168            $3,698,411                    $111,165
9/28/2010     Floating Rate SBA 7a security due 2034        Coastal Securities     83165AFT6           $11,482,421             113.838       —       12/30/2010           $13,109,070            —                $6,535    1/24/2012               $889,646      $10,592,775          $11,818,944                      $512,131
9/28/2010     Floating Rate SBA 7a security due 2034        Shay Financial         83165AFM1           $13,402,491               113.9       —       11/30/2010           $15,308,612            —                $7,632    10/19/2011              $438,754      $12,963,737          $14,433,039                      $516,624
9/28/2010     Floating Rate SBA 7a security due 2035        Shay Financial         83165AFQ2           $14,950,000             114.006       —       12/30/2010           $17,092,069             —               $8,521    1/24/2012               $387,839      $14,562,161          $16,383,544                      $681,819
                                                                                                                                                                                             Total Senior                                                                 Total
                                                            Total Purchase Face Amount              $332,596,893                         Total Investment Amount*       $368,145,452             Security     $183,555                                              Disposition     $334,924,711                   $13,347,352
                                                                                                                                                                                               Proceeds                                                              Proceeds
                                                                                                                                                                                                                                                                                                           Continued on next page
       Notes: Numbers affected by rounding. Data as of 9/30/2012. Numbered notes were taken verbatim from Treasury’s 9/28/2012 Transactions Report.

       *Subject to adjustment

       1
        	 The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
       2
        	 Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
       3
        	If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is listed as
          PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable month’s factor
          (on or about the 11th business day of each month).
       4
        	In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the product
          of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the Master Purchase
          Agreement.
       5
        	Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
       6
        	If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the 11th
          business day of each month).
       7
        	 Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
       8
        	 The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

       Source: Treasury, Transactions Report, 9/28/2012, Treasury, Dividends and Interest Report, 10/10/2012.




Table D.11
 PPIP TRANSACTION DETAIL, AS OF 9/30/2012
                                                                                                                                                                                                     Final
                                                                                                                                                                                               Investment                                         Investment After Capital
                                                     Seller                                                               Adjusted Investment3           Final Commitment Amount7                 Amount9     Capital Repayment Details                 Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                         Interest/
                                                       Transaction Investment             Investment   Pricing                                                                                               Repayment           Repayment                                                                                     Distributions Paid
Note Date          Institution       City        State Type        Description               Amount Mechanism               Date              Amount Date                       Amount            Amount          Date              Amount             Amount Description       Date         Description          Proceeds            to Treasury

                   UST/TCW                                            Debt
                                                                                                                                                                                                                                                              Debt Obligation
                   Senior Mortgage                                    Obligation w/
2,4,5 9/30/2009                     Wilmington DE       Purchase                    $2,222,222,222               Par   1/4/2010        $200,000,000 1/4/2010             $200,000,000       $200,000,000      1/11/2010        $34,000,000       $166,000,000 w/ Contingent
                   Securities Fund,                                   Contingent
                                                                                                                                                                                                                                                              Proceeds
                   L.P.                                               Proceeds

                                                                                                                                                                                                                                                                                1/29/2010 Distribution            $502,302
                                                                                                                                                                                                                                                                  Contingent
                                                                                                                                                                                                              1/12/2010       $166,000,000                  $—                               Final
                                                                                                                                                                                                                                                                  Proceeds      2/24/2010                             $1,223            $342,176
                                                                                                                                                                                                                                                                                             Distribution
                   UST/TCW
                   Senior Mortgage                                    Membership
1,4,5 9/30/2009                     Wilmington DE       Purchase                 $1,111,111,111                  Par   1/4/2010        $156,250,000 1/4/2010             $156,250,000       $156,250,000                                                                        1/29/2010 Distribution         $20,091,872
                   Securities Fund,                                   Interest                                                                                                                                                                                    Membership
                   L.P.                                                                                                                                                                                       1/15/2010       $156,250,000                   $0
                                                                                                                                                                                                                                                                  Interest
                                                                                                                                                                                                                                                                                             Final
                                                                                                                                                                                                                                                                                2/24/2010                           $48,922
                                                                                                                                                                                                                                                                                             Distribution
                                                                                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                                                                                     265
 PPIP TRANSACTION DETAIL, AS OF 9/30/2012                                         (CONTINUED)                                                                                                                                                                                                      266
                                                                                                                                                                  Final
                                                                                                                                                            Investment                                 Investment After Capital
                                                   Seller                                              Adjusted Investment3    Final Commitment Amount7        Amount9     Capital Repayment Details         Repayment                    Distribution or Disposition
                                                                                                                                                                                                                                                                                       Interest/
                                                   Transaction Investment      Investment   Pricing                                                                       Repayment       Repayment                                                                          Distributions Paid
Note Date         Institution      City      State Type        Description        Amount Mechanism      Date           Amount Date               Amount        Amount          Date          Amount         Amount Description     Date       Description         Proceeds          to Treasury
                  Invesco Legacy
                  Securities                                    Membership                                                                                                                                            Membership
1,6   9/30/2009                    Wilmington DE     Purchase              $1,111,111,111       Par 3/22/2010   $1,244,437,500 7/16/2010   $856,000,000   $580,960,000     2/18/2010      $2,444,347   $578,515,653
                  Master Fund,                                  Interest                                                                                                                                              Interest10
                  L.P.
                                                                                                                                                                                                                      Membership
                                                                                                                                                                           4/15/2010      $3,533,199   $574,982,454
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                           9/15/2010     $30,011,187   $544,971,267
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                          11/15/2010     $66,463,982   $478,507,285
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                          12/14/2010     $15,844,536   $462,662,749
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                           1/14/2011     $13,677,726   $448,985,023
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                           2/14/2011     $48,523,845   $400,461,178
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                           3/14/2011     $68,765,544   $331,695,634
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                           4/14/2011     $77,704,254   $253,991,380
                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I October 25, 2012




                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                           5/20/2011     $28,883,733   $225,107,647
                                                                                                                                                                                                                      Interest10                                                  $99,764,742
                                                                                                                                                                                                                      Membership
                                                                                                                                                                           6/14/2011      $9,129,709   $215,977,938
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                           7/15/2011     $31,061,747   $184,916,192
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                           8/12/2011     $10,381,214   $174,534,977
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                          10/17/2011      $6,230,731   $168,304,246
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                          12/14/2011      $1,183,959   $167,120,288
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                           1/17/2012      $1,096,185   $166,024,103
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                           2/14/2012      $1,601,688   $164,422,415
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                      Membership
                                                                                                                                                                           3/14/2012      $3,035,546   $161,386,870
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                                   3/29/2012 Distribution5     $56,390,209
                                                                                                                                                                                                                      Membership   8/9/2012   Distribution5     $1,056,751
                                                                                                                                                                           3/29/2012    $161,386,870             $0
                                                                                                                                                                                                                      Interest10
                                                                                                                                                                                                                                             Final
                                                                                                                                                                                                                                   9/28/2012                       $18,772
                                                                                                                                                                                                                                             Distribution5
                                                                                                                                                                                                                                                                        Continued on next page
 PPIP TRANSACTION DETAIL, AS OF 9/30/2012                                           (CONTINUED)
                                                                                                                                                                      Final
                                                                                                                                                                Investment                                  Investment After Capital
                                                   Seller                                                Adjusted Investment3    Final Commitment Amount7          Amount9     Capital Repayment Details          Repayment                      Distribution or Disposition
                                                                                                                                                                                                                                                                                                Interest/
                                                   Transaction Investment        Investment   Pricing                                                                         Repayment       Repayment                                                                               Distributions Paid
Note Date         Institution      City      State Type        Description          Amount Mechanism      Date           Amount Date                Amount         Amount          Date          Amount          Amount Description       Date        Description        Proceeds            to Treasury
                  Invesco Legacy                                Debt
                                                                                                                                                                                                                        Debt Obligation
                  Securities                                    Obligation w/
2,6,8 9/30/2009                    Wilmington DE     Purchase                 $2,222,222,222      Par 3/22/2010   $2,488,875,000 9/26/2011   $1,161,920,000 $1,161,920,000     2/18/2010      $4,888,718 $1,157,031,282 w/ Contingent
                  Master Fund,                                  Contingent
                                                                                                                                                                                                                        Proceeds
                  L.P.                                          Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               4/15/2010      $7,066,434 $1,149,964,848 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               9/15/2010     $60,022,674 $1,089,942,174 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              11/15/2010    $132,928,628   $957,013,546 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              12/14/2010     $31,689,230   $925,324,316 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               1/14/2010     $27,355,590   $897,968,726 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               2/14/2011     $92,300,138   $805,668,588 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               3/14/2011    $128,027,536   $677,641,052 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               4/14/2011    $155,409,286   $522,231,766 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               5/20/2011     $75,085,485   $447,146,281 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               6/14/2011     $18,259,513   $428,886,768 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               7/15/2011     $62,979,809   $365,906,960 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               8/12/2011     $20,762,532   $345,144,428 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              10/17/2011     $37,384,574   $307,759,854 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                              12/14/2011      $7,103,787   $300,656,067 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               1/17/2012      $6,577,144   $294,078,924 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                        Debt Obligation
                                                                                                                                                                               2/14/2012      $9,610,173   $284,468,750 w/ Contingent
                                                                                                                                                                                                                        Proceeds
                                                                                                                                                                                                                                          3/29/2012 Distribution5      $3,434,460
                                                                                                                                                                                                                         Contingent       8/9/2012    Distribution5       $40,556
                                                                                                                                                                               3/14/2012    $284,468,750              $0
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                                                      Final
                                                                                                                                                                                                                                          9/28/2012                            $469
                                                                                                                                                                                                                                                      Distribution5
                                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                                            267
 PPIP TRANSACTION DETAIL, AS OF 9/30/2012                                             (CONTINUED)                                                                                                                                                                                                            268
                                                                                                                                                                        Final
                                                                                                                                                                  Investment                                  Investment After Capital
                                                     Seller                                                Adjusted Investment3    Final Commitment Amount7          Amount9    Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                                 Interest/
                                                     Transaction Investment        Investment   Pricing                                                                         Repayment      Repayment                                                                               Distributions Paid
Note Date          Institution      City       State Type        Description          Amount Mechanism      Date           Amount Date                Amount         Amount          Date         Amount          Amount Description         Date       Description         Proceeds          to Treasury
                   Wellington
                                                                  Debt
                   Management                                                                                                                                                                                            Debt Obligation
                                                                  Obligation w/
2,6   10/1/2009    Legacy          Wilmington DE       Purchase                 $2,222,222,222      Par 3/22/2010   $2,524,075,000 7/16/2010   $2,298,974,000                   6/26/2012    $125,000,000 $2,173,974,000 w/ Contingent
                                                                  Contingent
                   Securities PPIF                                                                                                                                                                                       Proceeds
                                                                  Proceeds
                   Master Fund, LP
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                9/17/2012    $305,000,000 $1,868,974,000 w/ Contingent
                                                                                                                                                                                                                         Proceeds                                                          $188,551,798
                   Wellington
                   Management
                                                                  Membership                                                                                                                                                Membership
1,6   10/1/2009    Legacy          Wilmington DE       Purchase              $1,111,111,111         Par 3/22/2010   $1,262,037,500 7/16/2010   $1,149,487,000                   7/16/2012     $62,499,688 $1,086,987,313
                                                                  Interest                                                                                                                                                  Interest10
                   Securities PPIF
                   Master Fund, LP
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                9/17/2012    $152,499,238    $934,488,075
                                                                                                                                                                                                                            Interest10
                   AllianceBernstein
                                                                  Debt
                   Legacy                                                                                                                                                                                                Debt Obligation
                                                                  Obligation w/
2,6,12 10/2/2009   Securities        Wilmington DE     Purchase                 $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010   $2,300,847,000 $2,128,000,000    5/16/2011     $30,244,575 $2,097,755,425 w/ Contingent
                                                                  Contingent
                   Master Fund,                                                                                                                                                                                          Proceeds
                                                                  Proceeds
                   L.P.
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I October 25, 2012




                                                                                                                                                                                6/14/2011         $88,087 $2,097,667,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                 5/3/2012     $80,000,000 $2,017,667,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                5/14/2012     $30,000,000 $1,987,667,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                5/23/2012    $500,000,000 $1,487,667,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation                                                   $251,819,349
                                                                                                                                                                                6/14/2012     $44,200,000 $1,443,467,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                6/25/2012    $120,000,000 $1,323,467,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                                7/16/2012     $17,500,000 $1,305,967,339 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                7/27/2012    $450,000,000    $855,967,339 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                8/14/2012    $272,500,000    $583,467,339 w/ Contingent
                                                                                                                                                                                                                          Proceeds
                                                                                                                                                                                                                           Debt Obligation
                                                                                                                                                                                8/22/2012    $583,467,339               $0 w/ Contingent
                                                                                                                                                                                                                           Proceeds
                   AllianceBernstein
                   Legacy
                                                                  Membership                                                                                                                                                Membership
1,6   10/2/2009    Securities        Wilmington DE     Purchase              $1,111,111,111         Par 3/22/2010   $1,244,437,500 7/16/2010   $1,150,423,500                   1/15/2010         $44,043 $1,150,379,457
                                                                  Interest                                                                                                                                                  Interest10
                   Master Fund,
                   L.P.
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                2/14/2011        $712,284 $1,149,667,172
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                3/14/2011      $6,716,327 $1,142,950,845
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                4/14/2011      $7,118,388 $1,135,832,457
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                            Membership
                                                                                                                                                                                5/14/2012     $39,999,800 $1,095,832,657
                                                                                                                                                                                                                            Interest10
                                                                                                                                                                                                                                                                                  Continued on next page
 PPIP TRANSACTION DETAIL, AS OF 9/30/2012                                                            (CONTINUED)
                                                                                                                                                                                     Final
                                                                                                                                                                               Investment                                  Investment After Capital
                                                                  Seller                                                  Adjusted Investment3    Final Commitment Amount7        Amount9    Capital Repayment Details           Repayment                     Distribution or Disposition
                                                                                                                                                                                                                                                                                                             Interest/
                                                                  Transaction Investment          Investment   Pricing                                                                       Repayment      Repayment                                                                              Distributions Paid
Note Date              Institution           City           State Type        Description            Amount Mechanism      Date           Amount Date                Amount       Amount          Date         Amount          Amount Description       Date        Description        Proceeds           to Treasury
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                             6/14/2012    $287,098,565    $808,734,092
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                             7/16/2012     $68,749,656    $739,984,436
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                             8/14/2012    $361,248,194    $378,736,242
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                                        8/30/2012 Distribution5,11   $75,278,664
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                             8/30/2012    $292,454,480     $86,281,762                  9/12/2012 Distribution5,11   $79,071,633
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                                        9/19/2012 Distribution5,11 $106,300,357
                                                                                 Debt
                                                                                                                                                                                                                                      Debt Obligation
                       Blackrock PPIF,                                           Obligation w/
2,6   10/2/2009                              Wilmington DE            Purchase                 $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010   $1,389,960,000                 7/31/2012    $175,000,000 $1,214,960,000 w/ Contingent
                       L.P.                                                      Contingent
                                                                                                                                                                                                                                      Proceeds
                                                                                 Proceeds
                                                                                                                                                                                                                                      Debt Obligation
                                                                                                                                                                                             8/14/2012      $5,539,055 $1,209,420,945 w/ Contingent
                                                                                                                                                                                                                                      Proceeds
                                                                                                                                                                                                                                      Debt Obligation
                                                                                                                                                                                             8/31/2012     $16,000,000 $1,193,420,945 w/ Contingent
                                                                                                                                                                                                                                      Proceeds
                                                                                                                                                                                                                                                                                                        $71,050,264
                                                                                                                                                                                                                                      Debt Obligation
                                                                                                                                                                                             9/17/2012      $1,667,352 $1,191,753,592 w/ Contingent
                                                                                                                                                                                                                                      Proceeds
                                                                                                                                                                                                                                      Debt Obligation
                                                                                                                                                                                             9/28/2012     $35,000,000 $1,156,753,592 w/ Contingent
                                                                                                                                                                                                                                      Proceeds
                       Blackrock PPIF,                                           Membership                                                                                                                                              Membership
1,6   10/2/2009                              Wilmington DE            Purchase              $1,111,111,111         Par 3/22/2010   $1,244,437,500 7/16/2010    $694,980,000                  8/14/2012     $90,269,076    $604,710,924
                       L.P.                                                      Interest                                                                                                                                                Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                             9/17/2012      $8,833,632    $595,877,292
                                                                                                                                                                                                                                         Interest10
                                                                                 Debt
                 AG GECC PPIF                                                                                                                                                                                                         Debt Obligation
                                                                                 Obligation w/
2,6   10/30/2009 Master Fund,                Wilmington DE            Purchase                 $2,222,222,222      Par 3/22/2010   $2,542,675,000 7/16/2010   $2,486,550,000                 2/14/2012    $174,200,000 $2,312,350,000 w/ Contingent
                                                                                 Contingent
                 L.P.                                                                                                                                                                                                                 Proceeds
                                                                                 Proceeds
                                                                                                                                                                                                                                      Debt Obligation
                                                                                                                                                                                             3/14/2012    $198,925,000 $2,113,425,000 w/ Contingent
                                                                                                                                                                                                                                      Proceeds
                                                                                                                                                                                                                                      Debt Obligation
                                                                                                                                                                                             5/14/2012    $150,000,000 $1,963,425,000 w/ Contingent
                                                                                                                                                                                                                                      Proceeds
                                                                                                                                                                                                                                      Debt Obligation
                                                                                                                                                                                             7/16/2012     $37,500,000 $1,925,925,000 w/ Contingent
                                                                                                                                                                                                                                      Proceeds
                                                                                                                                                                                                                                      Debt Obligation
                                                                                                                                                                                             8/14/2012    $136,800,000 $1,789,125,000 w/ Contingent
                                                                                                                                                                                                                                      Proceeds
                                                                                                                                                                                                                                      Debt Obligation                                                  $241,161,623
                                                                                                                                                                                             9/17/2012    $250,000,000 $1,539,125,000 w/ Contingent
                                                                                                                                                                                                                                      Proceeds
                 AG GECC PPIF
                                                                                 Membership                                                                                                                                              Membership
1,6   10/30/2009 Master Fund,             Wilmington DE               Purchase              $1,111,111,111         Par 3/22/2010   $1,271,337,500 7/16/2010   $1,243,275,000                 2/14/2012     $87,099,565 $1,156,175,436
                                                                                 Interest                                                                                                                                                Interest10
                 L.P.                                              
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                             3/14/2012     $99,462,003 $1,056,713,433
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                             5/14/2012     $74,999,625    $981,713,808
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                             7/16/2012     $18,749,906    $962,963,902
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I October 25, 2012




                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                             8/14/2012     $68,399,658    $894,564,244
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                             9/17/2012    $124,999,375    $769,564,869
                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                                                         269
 PPIP TRANSACTION DETAIL, AS OF 9/30/2012                                           (CONTINUED)                                                                                                                                                                                                            270
                                                                                                                                                                      Final
                                                                                                                                                                Investment                                  Investment After Capital
                                                   Seller                                                Adjusted Investment3    Final Commitment Amount7          Amount9    Capital Repayment Details           Repayment                       Distribution or Disposition
                                                                                                                                                                                                                                                                                               Interest/
                                                   Transaction Investment        Investment   Pricing                                                                         Repayment      Repayment                                                                               Distributions Paid
Note Date         Institution      City      State Type        Description          Amount Mechanism      Date           Amount Date                Amount         Amount          Date         Amount          Amount Description         Date       Description         Proceeds          to Treasury
                  RLJ Western                                   Debt
                                                                                                                                                                                                                       Debt Obligation
                  Asset Public/                                 Obligation w/
2,6   11/4/2009                    Wilmington DE     Purchase                 $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010   $1,241,156,516 $1,241,000,000    5/13/2011     $13,531,530 $1,227,468,470 w/ Contingent
                  Private Master                                Contingent
                                                                                                                                                                                                                       Proceeds
                  Fund, L.P.                                    Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              7/31/2012    $618,750,000   $608,718,470 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                               8/9/2012    $151,006,173   $457,712,297 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              8/14/2012     $11,008,652   $446,703,645 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              8/23/2012    $160,493,230   $286,210,415 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                              8/29/2012    $103,706,836   $182,503,579 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                                                                                         $161,227,563
                                                                                                                                                                                                                       Debt Obligation
                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I October 25, 2012




                                                                                                                                                                              9/17/2012     $20,637,410   $161,866,170 w/ Contingent
                                                                                                                                                                                                                       Proceeds
                                                                                                                                                                                                                         Debt Obligation
                                                                                                                                                                              9/21/2012    $161,866,170               $0 w/ Contingent
                                                                                                                                                                                                                         Proceeds
                  RLJ Western
                  Asset Public/                                 Membership                                                                                                                                                Membership
1,6   11/4/2009                    Wilmington DE     Purchase              $1,111,111,111         Par 3/22/2010   $1,244,437,500 7/16/2010    $620,578,258   $620,578,258     3/14/2011      $1,202,957   $619,375,301
                  Private Master                                Interest                                                                                                                                                  Interest10
                  Fund, L.P.
                                                                                                                                                                                                                          Membership
                                                                                                                                                                              4/14/2011      $3,521,835    $615,853,465
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                              8/14/2012    $104,959,251    $510,894,215
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                              9/17/2012     $72,640,245    $438,253,970
                                                                                                                                                                                                                          Interest10
                                                                                                                                                                                                                          Membership
                                                                                                                                                                              9/28/2012    $180,999,095    $257,254,875
                                                                                                                                                                                                                          Interest10
                 Marathon Legacy
                                                                Debt
                 Securities                                                                                                                                                                                             Debt Obligation
                                                                Obligation w/
2,6   11/25/2009 Public-Private    Wilmington DE     Purchase                 $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010    $949,100,000                    9/17/2012    $149,000,000    $800,100,000 w/ Contingent
                                                                Contingent
                 Investment                                                                                                                                                                                             Proceeds
                                                                Proceeds
                 Partnership, L.P.
                                                                                                                                                                                                                                                                                          $71,897,483
                 Marathon Legacy
                 Securities
                                                                Membership                                                                                                                                              Membership
1,6   11/25/2009 Public-Private    Wilmington DE     Purchase              $1,111,111,111         Par 3/22/2010   $1,244,437,500 7/16/2010    $474,550,000                    9/17/2012     $74,499,628    $400,050,373
                                                                Interest                                                                                                                                                Interest10
                 Investment
                 Partnership, L.P.
                                                                                                                                                                                                                                                                                Continued on next page
 PPIP TRANSACTION DETAIL, AS OF 9/30/2012                                                          (CONTINUED)
                                                                                                                                                                                                            Final
                                                                                                                                                                                                      Investment                                          Investment After Capital
                                                          Seller                                                                Adjusted Investment3            Final Commitment Amount7                 Amount9      Capital Repayment Details                 Repayment                         Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                                   Interest/
                                                            Transaction Investment             Investment   Pricing                                                                                                  Repayment          Repayment                                                                                        Distributions Paid
Note Date             Institution        City         State Type        Description               Amount Mechanism                Date              Amount Date                        Amount             Amount          Date             Amount               Amount Description       Date         Description           Proceeds            to Treasury
                                                                            Debt
                                                                                                                                                                                                                                                                  Debt Obligation
                      Oaktree PPIP                                          Obligation w/
2,6     12/18/2009                       Wilmington DE       Purchase                     $2,222,222,222              Par 3/22/2010        $2,488,875,000 7/16/2010           $2,321,568,200                          7/15/2011        $79,000,000 $2,242,568,200 w/ Contingent
                      Fund, L.P.                                            Contingent
                                                                                                                                                                                                                                                                  Proceeds
                                                                            Proceeds
                                                                                                                                                                                                                                                                  Debt Obligation
                                                                                                                                                                                                                      3/14/2012        $78,775,901 $2,163,792,299 w/ Contingent
                                                                                                                                                                                                                                                                  Proceeds
                                                                                                                                                                                                                                                                  Debt Obligation
                                                                                                                                                                                                                      9/17/2012        $44,224,144 $2,119,568,156 w/ Contingent                                                                $42,909,169
                                                                                                                                                                                                                                                                  Proceeds
                      Oaktree PPIP                                          Membership                                                                                                                                                                                   Membership
1,6     12/18/2009                       Wilmington DE       Purchase                  $1,111,111,111                 Par 3/22/2010        $1,244,437,500 7/16/2010           $1,160,784,100                          7/15/2011        $39,499,803 $1,121,284,298
                      Fund, L.P.                                            Interest                                                                                                                                                                                     Interest10
                                                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                                                      3/14/2012        $39,387,753 $1,081,896,544
                                                                                                                                                                                                                                                                         Interest10
                                                                                                                                                                                                                                                                         Membership
                                                                                                                                                                                                                      9/17/2012        $22,111,961 $1,059,784,583
                                                                                                                                                                                                                                                                         Interest10
                                                Initial Investment Amount               $30,000,000,000                           Final Investment Amount                   $21,856,403,574          Total Capital Repayment $9,820,537,482                                              Total Proceeds5              $342,236,192
Notes: Numbers may not total due to rounding. Data as of 9/30/2012. Numbered notes were taken verbatim from Treasury’s 9/28/2012 Transactions Report.
1
 	 The equity amount may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
 	 The loan may be incrementally funded. Commitment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
 	Adjusted to show Treasury’s maximum obligations to a fund.
4
 	 On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
  	Distributions after capital repayments will be considered profit and are paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in proportion to their membership interests. These figures exclude pro-rata distributions to Treasury of gross investment proceeds (reported on the
    Dividends and Interest Report), which may be made from time to time in accordance with the terms of the fund’s Limited Partnership Agreement.
6
 	Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for the
    $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
 	Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
8
  	 On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.
9
 	 Cumulative capital drawn at end of the Investment Period.
10
  	 The Amount is adjusted to reflect pro-rata equity distributions that have been deemed to be capital repayments to Treasury.
11
  	 Distribution represents a gain on funded capital and is subject to revision pending any additional fundings of the outstanding commitment.
12
  	 On 8/23/2012, AllianceBernstein agreed to de-obligate its unused debt commitment. The Final Investment Amount represents the cumulative capital drawn as of the de-obligation.

Sources: Treasury, Transactions Report, 9/28/2012; Treasury, Dividends and Interest Report, 10/10/2012.
                                                                                                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                                                                                                271
                                                                                                                                                                                                                                                                                       272
Table D.12
HAMP TRANSACTION DETAIL, AS OF 9/30/2012
             Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                              TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                                                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives          Incentives       Incentives          Payments
                                                                                                                     6/12/2009    $284,590,000       $660,590,000   Updated portfolio data from servicer
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                     9/30/2009    $121,910,000       $782,500,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $131,340,000       $913,840,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                     3/26/2010   ($355,530,000)      $558,310,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010    $128,690,000       $687,000,000   Updated portfolio data from servicer
                                                                                                                                                                    Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                     9/30/2010       $4,000,000      $691,000,000
                                                                                                                                                                    cap
                                                                                                                     9/30/2010      $59,807,784      $750,807,784   Updated portfolio data from servicer
                                                                                                                    11/16/2010       ($700,000)      $750,107,784   Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010      $64,400,000      $814,507,784   Updated portfolio data from servicer
                                                                                                                      1/6/2011            ($639)     $814,507,145   Updated portfolio data from servicer
                                                                                                                     1/13/2011      ($2,300,000)     $812,207,145   Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I October 25, 2012




                                                                                                                     2/16/2011        $100,000       $812,307,145   Transfer of cap due to servicing transfer
                                                                                                                     3/16/2011       $3,600,000      $815,907,145   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($735)     $815,906,410
                                                                                                                                                                    reallocation
                                                        Financial                                                    4/13/2011       ($100,000)      $815,806,410   Transfer of cap due to servicing transfer
            Select Portfolio Servicing,                 Instrument for
4/13/2009                                 Purchase                              $376,000,000     N/A                                                                                                            $40,129,557        $82,250,254      $65,556,339      $187,936,150
            Salt Lake City, UT                          Home Loan                                                    5/13/2011        $400,000       $816,206,410   Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                     6/16/2011       ($100,000)      $816,106,410   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($6,805)     $816,099,605
                                                                                                                                                                    reallocation
                                                                                                                     8/16/2011       ($100,000)      $815,999,605   Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011       ($200,000)      $815,799,605   Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011       ($100,000)      $815,699,605   Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011       ($100,000)      $815,599,605   Transfer of cap due to servicing transfer
                                                                                                                     1/13/2012        $200,000       $815,799,605   Transfer of cap due to servicing transfer
                                                                                                                     3/15/2012      $24,800,000      $840,599,605   Transfer of cap due to servicing transfer
                                                                                                                     4/16/2012       $1,900,000      $842,499,605   Transfer of cap due to servicing transfer
                                                                                                                     5/16/2012          $80,000      $842,579,605   Transfer of cap due to servicing transfer
                                                                                                                     6/14/2012       $8,710,000      $851,289,605   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/28/2012          ($5,176)     $851,284,429
                                                                                                                                                                    reallocation
                                                                                                                     7/16/2012       $2,430,000      $853,714,429   Transfer of cap due to servicing transfer
                                                                                                                     8/16/2012       $2,310,000      $856,024,429   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     9/27/2012         ($13,961)     $856,010,468
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                              Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                          (continued)
            Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                                     TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                                                  Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                         Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                                Incentives          Incentives       Incentives         Payments
                                                                                                               6/12/2009   ($991,580,000)     $1,079,420,000      Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                               9/30/2009   $1,010,180,000     $2,089,600,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                              12/30/2009   ($105,410,000)     $1,984,190,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                               3/26/2010   ($199,300,000)     $1,784,890,000
                                                                                                                                                                  2MP initial cap
                                                                                                                                                                  Transfer of cap to Service One, Inc. due to
                                                                                                               4/19/2010        ($230,000)    $1,784,660,000
                                                                                                                                                                  servicing transfer
                                                                                                                                                                  Transfer of cap to Specialized Loan
                                                                                                               5/14/2010      ($3,000,000)    $1,781,660,000
                                                                                                                                                                  Servicing, LLC due to servicing transfer
                                                                                                                                                                  Transfer of cap to multiple servicers due
                                                                                                               6/16/2010     ($12,280,000)    $1,769,380,000
                                                                                                                                                                  to servicing transfer
                                                                                                               7/14/2010   ($757,680,000)     $1,011,700,000      Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap to multiple servicers due
                                                                                                               7/16/2010      ($7,110,000)    $1,004,590,000
                                                                                                                                                                  to servicing transfer
                                                                                                                                                                  Transfer of cap to multiple servicers due
                                                                                                               8/13/2010      ($6,300,000)     $998,290,000
                                                                                                                                                                  to servicing transfer
                                                                                                                                                                  Transfer of cap to multiple servicers due
                                                                                                               9/15/2010      ($8,300,000)     $989,990,000
                                                                                                                                                                  to servicing transfer
                                                                                                               9/30/2010      $32,400,000     $1,022,390,000      Initial FHA-HAMP cap and initial FHA-2LP cap
                                                                                                               9/30/2010     $101,287,484     $1,123,677,484      Updated portfolio data from servicer
                                                                                                              10/15/2010      ($1,400,000)    $1,122,277,484      Transfer of cap due to servicing transfer
                                                                                                              11/16/2010      ($3,200,000)    $1,119,077,484      Transfer of cap due to servicing transfer
                                                                                                                1/6/2011            ($981)    $1,119,076,503      Updated portfolio data from servicer
                                                                                                               1/13/2011     ($10,500,000)    $1,108,576,503      Transfer of cap due to servicing transfer
                                                                                                               2/16/2011      ($4,600,000)    $1,103,976,503      Transfer of cap due to servicing transfer
                                                  Financial
            CitiMortgage, Inc.,                   Instrument for                                               3/16/2011     ($30,500,000)    $1,073,476,503      Transfer of cap due to servicing transfer
4/13/2009                           Purchase                            $2,071,000,000     N/A                                                                                                                   $41,841,665       $131,661,645      $78,346,675      $251,849,985
            O’Fallon, MO                          Home Loan                                                                                                       Updated due to quarterly assessment and
                                                  Modifications                                                3/30/2011          ($1,031)    $1,073,475,472
                                                                                                                                                                  reallocation
                                                                                                               4/13/2011         $100,000     $1,073,575,472      Transfer of cap due to servicing transfer
                                                                                                               5/13/2011      ($7,200,000)    $1,066,375,472      Transfer of cap due to servicing transfer
                                                                                                               6/16/2011        ($400,000)    $1,065,975,472      Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               6/29/2011          ($9,131)    $1,065,966,341
                                                                                                                                                                  reallocation
                                                                                                               7/14/2011     ($14,500,000)    $1,051,466,341      Transfer of cap due to servicing transfer
                                                                                                               8/16/2011      ($1,600,000)    $1,049,866,341      Transfer of cap due to servicing transfer
                                                                                                               9/15/2011         $700,000     $1,050,566,341      Transfer of cap due to servicing transfer
                                                                                                              10/14/2011      $15,200,000     $1,065,766,341      Transfer of cap due to servicing transfer
                                                                                                              11/16/2011      ($2,900,000)    $1,062,866,341      Transfer of cap due to servicing transfer
                                                                                                              12/15/2011      ($5,000,000)    $1,057,866,341      Transfer of cap due to servicing transfer
                                                                                                               1/13/2012        ($900,000)    $1,056,966,341      Transfer of cap due to servicing transfer
                                                                                                               2/16/2012      ($1,100,000)    $1,055,866,341      Transfer of cap due to servicing transfer
                                                                                                               3/15/2012      ($1,700,000)    $1,054,166,341      Transfer of cap due to servicing transfer
                                                                                                               4/16/2012        ($600,000)    $1,053,566,341      Transfer of cap due to servicing transfer
                                                                                                               5/16/2012        ($340,000)    $1,053,226,341      Transfer of cap due to servicing transfer
                                                                                                               6/14/2012      ($2,880,000)    $1,050,346,341      Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I October 25, 2012




                                                                                                               6/28/2012          ($5,498)    $1,050,340,843
                                                                                                                                                                  reallocation
                                                                                                               7/16/2012    ($298,960,000)     $751,380,843       Transfer of cap due to servicing transfer
                                                                                                               7/27/2012     $263,550,000     $1,014,930,843      Transfer of cap due to servicing transfer
                                                                                                               8/16/2012          $30,000     $1,014,960,843      Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               9/27/2012         ($12,722)    $1,014,948,121
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                                                        273




                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                          (continued)                                                                                                                                                                                           274
            Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                                    TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                                                  Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                         Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount         Adjusted Cap Reason for Adjustment                               Incentives          Incentives       Incentives         Payments
                                                                                                               6/17/2009    ($462,990,000)     $2,410,010,000      Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                               9/30/2009       $65,070,000     $2,475,080,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                              12/30/2009    $1,213,310,000     $3,688,390,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                                                                   Transfer of cap (from Wachovia) due
                                                                                                               2/17/2010    $2,050,236,344     $5,738,626,344
                                                                                                                                                                   to merger
                                                                                                                                                                   Transfer of cap (from Wachovia) due
                                                                                                               3/12/2010           $54,767     $5,738,681,110
                                                                                                                                                                   to merger
                                                                                                               3/19/2010     $668,108,890      $6,406,790,000      Initial 2MP cap
                                                                                                               3/26/2010     $683,130,000      $7,089,920,000      Updated portfolio data from servicer
                                                                                                               7/14/2010   ($2,038,220,000)    $5,051,700,000      Updated portfolio data from servicer
                                                                                                               9/30/2010    ($287,348,828)     $4,764,351,172      Updated portfolio data from servicer
                                                                                                                                                                   Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                               9/30/2010     $344,000,000      $5,108,351,172
                                                                                                                                                                   and initial RD-HAMP
                                                                                                                                                                   Transfer of cap (from Wachovia) due
                                                                                                               12/3/2010        $8,413,225     $5,116,764,397
                                                                                                                                                                   to merger
                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I October 25, 2012




                                                                                                              12/15/2010       $22,200,000     $5,138,964,397      Updated portfolio data from servicer
                                                                                                                1/6/2011           ($6,312)    $5,138,958,085      Updated portfolio data from servicer
                                                                                                               1/13/2011        ($100,000)     $5,138,858,085      Transfer of cap due to servicing transfer
                                                                                                               3/16/2011        ($100,000)     $5,138,758,085      Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                  Financial                                                    3/30/2011           ($7,171)    $5,138,750,914
                                                                                                                                                                   reallocation
            Wells Fargo Bank, NA,                 Instrument for
4/13/2009                           Purchase                            $2,873,000,000     N/A                 4/13/2011       ($9,800,000)    $5,128,950,914      Transfer of cap due to servicing transfer    $111,431,012       $270,879,574     $189,552,986      $571,863,573
            Des Moines, IA                        Home Loan
                                                  Modifications
                                                                                                               5/13/2011          $100,000     $5,129,050,914      Transfer of cap due to servicing transfer
                                                                                                               6/16/2011        ($600,000)     $5,128,450,914      Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               6/29/2011          ($63,856)    $5,128,387,058
                                                                                                                                                                   reallocation
                                                                                                               7/14/2011       ($2,300,000)    $5,126,087,058      Transfer of cap due to servicing transfer
                                                                                                               8/16/2011       ($1,100,000)    $5,124,987,058      Transfer of cap due to servicing transfer
                                                                                                               9/15/2011        $1,400,000     $5,126,387,058      Transfer of cap due to servicing transfer
                                                                                                              10/14/2011          $200,000     $5,126,587,058      Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        ($200,000)     $5,126,387,058      Transfer of cap due to servicing transfer
                                                                                                              12/15/2011        ($200,000)     $5,126,187,058      Transfer of cap due to servicing transfer
                                                                                                               1/13/2012        ($300,000)     $5,125,887,058      Transfer of cap due to servicing transfer
                                                                                                               2/16/2012        ($200,000)     $5,125,687,058      Transfer of cap due to servicing transfer
                                                                                                               3/15/2012       ($1,000,000)    $5,124,687,058      Transfer of cap due to servicing transfer
                                                                                                               4/16/2012        ($800,000)     $5,123,887,058      Transfer of cap due to servicing transfer
                                                                                                               5/16/2012        ($610,000)     $5,123,277,058      Transfer of cap due to servicing transfer
                                                                                                               6/14/2012       ($2,040,000)    $5,121,237,058      Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               6/28/2012          ($39,923)    $5,121,197,135
                                                                                                                                                                   reallocation
                                                                                                               8/16/2012         ($120,000)    $5,121,077,135      Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               9/27/2012         ($104,111)    $5,120,973,024
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                          (continued)
            Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                                   TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                                                 Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                        Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount         Adjusted Cap Reason for Adjustment                              Incentives          Incentives       Incentives         Payments
                                                                                                               6/12/2009     $384,650,000      $1,017,650,000      Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                               9/30/2009    $2,537,240,000     $3,554,890,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                              12/30/2009   ($1,679,520,000)    $1,875,370,000
                                                                                                                                                                   HAFA initial cap
                                                                                                               3/26/2010     $190,180,000      $2,065,550,000      Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap from Wilshire Credit
                                                                                                               5/14/2010        $1,880,000     $2,067,430,000
                                                                                                                                                                   Corporation due to servicing transfer
                                                                                                               7/14/2010    ($881,530,000)     $1,185,900,000      Updated portfolio data from servicer
                                                                                                               8/13/2010       ($3,700,000)    $1,182,200,000      Transfer of cap due to servicing transfer
                                                                                                                                                                   Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                               9/30/2010     $119,200,000      $1,301,400,000
                                                                                                                                                                   and initial 2MP cap
                                                                                                               9/30/2010     $216,998,139      $1,518,398,139      Updated portfolio data from servicer
                                                                                                              12/15/2010        ($500,000)     $1,517,898,139      Updated portfolio data from servicer
                                                                                                                1/6/2011           ($1,734)    $1,517,896,405      Updated portfolio data from servicer
                                                                                                               3/16/2011        ($100,000)     $1,517,796,405      Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               3/30/2011           ($2,024)    $1,517,794,381
                                                                                                                                                                   reallocation
                                                  Financial                                                    4/13/2011        ($800,000)     $1,516,994,381      Transfer of cap due to servicing transfer
            GMAC Mortgage, Inc.,                  Instrument for
4/13/2009                           Purchase                              $633,000,000     N/A                 5/13/2011     ($17,900,000)     $1,499,094,381      Transfer of cap due to servicing transfer    $34,378,351        $90,025,792      $62,698,455      $187,102,598
            Ft. Washington, PA                    Home Loan
                                                  Modifications                                                                                                    Updated due to quarterly assessment and
                                                                                                               6/29/2011          ($18,457)    $1,499,075,924
                                                                                                                                                                   reallocation
                                                                                                               7/14/2011        ($200,000)     $1,498,875,924      Transfer of cap due to servicing transfer
                                                                                                               8/16/2011        $3,400,000     $1,502,275,924      Transfer of cap due to servicing transfer
                                                                                                               9/15/2011          $200,000     $1,502,475,924      Transfer of cap due to servicing transfer
                                                                                                              10/14/2011        ($800,000)     $1,501,675,924      Transfer of cap due to servicing transfer
                                                                                                              11/16/2011        ($200,000)     $1,501,475,924      Transfer of cap due to servicing transfer
                                                                                                              12/15/2011        $2,600,000     $1,504,075,924      Transfer of cap due to servicing transfer
                                                                                                               1/13/2012       ($1,600,000)    $1,502,475,924      Transfer of cap due to servicing transfer
                                                                                                               3/15/2012        ($400,000)     $1,502,075,924      Transfer of cap due to servicing transfer
                                                                                                               4/16/2012        ($100,000)     $1,501,975,924      Transfer of cap due to servicing transfer
                                                                                                               5/16/2012        ($800,000)     $1,501,175,924      Transfer of cap due to servicing transfer
                                                                                                               6/14/2012        ($990,000)     $1,500,185,924      Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               6/28/2012          ($12,463)    $1,500,173,461
                                                                                                                                                                   reallocation
                                                                                                               8/16/2012           $10,000     $1,500,183,461      Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               9/27/2012          ($33,210)    $1,500,150,251
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                       275
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                             (continued)                                                                                                                                                                                           276
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                    TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                                                   Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                         Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount         Adjusted Cap Reason for Adjustment                               Incentives          Incentives       Incentives          Payments
                                                                                                                  6/17/2009     $225,040,000       $632,040,000       Updated portfolio data from servicer
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  9/30/2009     $254,380,000       $886,420,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                 12/30/2009     $355,710,000      $1,242,130,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                  3/26/2010     ($57,720,000)     $1,184,410,000      Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap to Ocwen Financial
                                                                                                                  6/16/2010    ($156,050,000)     $1,028,360,000
                                                                                                                                                                      Corporation, Inc. due to servicing transfer
                                                                                                                  7/14/2010    ($513,660,000)      $514,700,000       Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap due to multiple servicing
                                                                                                                  7/16/2010     ($22,980,000)      $491,720,000
                                                                                                                                                                      transfers
                                                                                                                  9/15/2010        $1,800,000      $493,520,000       Transfer of cap due to servicing transfer
                                                                                                                                                                      Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                  9/30/2010        $9,800,000      $503,320,000
                                                                                                                                                                      cap
                                                                                                                  9/30/2010     $116,222,668       $619,542,668       Updated portfolio data from servicer
                                                                                                                 10/15/2010          $100,000      $619,642,668       Transfer of cap due to servicing transfer
                                                                                                                 12/15/2010        $8,900,000      $628,542,668       Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I October 25, 2012




                                                                                                                   1/6/2011             ($556)     $628,542,112       Updated portfolio data from servicer
                                                                                                                  1/13/2011        $2,300,000      $630,842,112       Transfer of cap due to servicing transfer
                                                     Financial                                                    3/16/2011          $700,000      $631,542,112       Transfer of cap due to servicing transfer
            Saxon Mortgage Services,                 Instrument for
4/13/2009                              Purchase                              $407,000,000     N/A                                                                                                                   $19,833,015        $42,253,356      $39,868,984      $101,955,354
            Inc., Irving, TX                         Home Loan                                                                                                        Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($654)     $631,541,458
                                                     Modifications                                                                                                    reallocation
                                                                                                                  4/13/2011        $2,100,000      $633,641,458       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/29/2011           ($6,144)     $633,635,314
                                                                                                                                                                      reallocation
                                                                                                                  7/14/2011          $200,000      $633,835,314       Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011        ($100,000)      $633,735,314       Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011        ($700,000)      $633,035,314       Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011       $17,500,000      $650,535,314       Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012        ($100,000)      $650,435,314       Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012          $100,000      $650,535,314       Transfer of cap due to servicing transfer
                                                                                                                  4/16/2012     ($17,500,000)      $633,035,314       Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012        ($760,000)      $632,275,314       Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012    ($354,290,000)      $277,985,314       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/28/2012           ($1,831)     $277,983,483
                                                                                                                                                                      reallocation
                                                                                                                  7/16/2012     ($10,120,000)      $267,863,483       Transfer of cap due to servicing transfer
                                                                                                                  8/16/2012          ($10,000)     $267,853,483       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  9/27/2012           ($4,701)     $267,848,782
                                                                                                                                                                      reallocation
                                                     Financial
            Chase Home Finance,                      Instrument for
4/13/2009                              Purchase                            $3,552,000,000     N/A         2       7/31/2009   ($3,552,000,000)                $0      Termination of SPA                                    $0                  $0               $0                  $0
            LLC, Iselin, NJ                          Home Loan
                                                     Modifications
                                                                                                                                                                                                                                                                  Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                          (continued)
            Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                                  TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                                               Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                      Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                             Incentives          Incentives       Incentives         Payments
                                                                                                               6/12/2009   ($105,620,000)      $553,380,000       Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                               9/30/2009    $102,580,000       $655,960,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                              12/30/2009    $277,640,000       $933,600,000
                                                                                                                                                                  HAFA initial cap
                                                                                                               3/26/2010      $46,860,000      $980,460,000       Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap from Saxon Mortgage
                                                                                                               6/16/2010    $156,050,000      $1,136,510,000
                                                                                                                                                                  Services, Inc. due to servicing transfer
                                                                                                               7/14/2010   ($191,610,000)      $944,900,000       Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap from Saxon Mortgage
                                                                                                               7/16/2010      $23,710,000      $968,610,000
                                                                                                                                                                  Services, Inc. due to servicing transfer
                                                                                                               9/15/2010        $100,000       $968,710,000       Initial FHA-HAMP cap
                                                                                                               9/30/2010       $3,742,740      $972,452,740       Updated portfolio data from servicer
                                                                                                              10/15/2010    $170,800,000      $1,143,252,740      Transfer of cap due to servicing transfer
                                                                                                                1/6/2011          ($1,020)    $1,143,251,720      Updated portfolio data from servicer
                                                  Financial
            Ocwen Financial                                                                                    2/16/2011        $900,000      $1,144,151,720      Transfer of cap due to servicing transfer
                                                  Instrument for
4/16/2009   Corporation, Inc.,      Purchase                              $659,000,000     N/A                                                                                                                $52,246,432       $135,916,056     $101,269,381      $289,431,870
                                                  Home Loan                                                                                                       Updated due to quarterly assessment and
            West Palm Beach, FL                                                                                3/30/2011          ($1,114)    $1,144,150,606
                                                  Modifications                                                                                                   reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               6/29/2011        ($10,044)     $1,144,140,562
                                                                                                                                                                  reallocation
                                                                                                              10/14/2011       ($100,000)     $1,144,040,562      Transfer of cap due to servicing transfer
                                                                                                               1/13/2012    $194,800,000      $1,338,840,562      Transfer of cap due to servicing transfer
                                                                                                               2/16/2012        $400,000      $1,339,240,562      Transfer of cap due to servicing transfer
                                                                                                               3/15/2012        $100,000      $1,339,340,562      Transfer of cap due to servicing transfer
                                                                                                               5/16/2012    $123,530,000      $1,462,870,562      Transfer of cap due to servicing transfer
                                                                                                               6/14/2012    $354,290,000      $1,817,160,562      Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               6/28/2012          ($6,308)    $1,817,154,254
                                                                                                                                                                  reallocation
                                                                                                               7/16/2012      $10,080,000     $1,827,234,254      Transfer of cap due to servicing transfer
                                                                                                               8/16/2012       $8,390,000     $1,835,624,254      Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               9/27/2012        ($10,733)     $1,835,613,521
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                     277
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)                                                                                                                                                                                         278
               Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                  TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                                Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                       Borrower’s   Lenders/Investors        Servicers          Incentive
Date           Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount         Adjusted Cap Reason for Adjustment                             Incentives          Incentives       Incentives         Payments
                                                                                                                   6/12/2009        $5,540,000      $804,440,000       Updated portfolio data from servicer
                                                                                                                                                                       Updated portfolio data from servicer &
                                                                                                                   9/30/2009     $162,680,000       $967,120,000
                                                                                                                                                                       HPDP initial cap
                                                                                                                                                                       Updated portfolio data from servicer &
                                                                                                                  12/30/2009     $665,510,000      $1,632,630,000
                                                                                                                                                                       HAFA initial cap
                                                                                                                   1/26/2010     $800,390,000      $2,433,020,000      Initial 2MP cap
                                                                                                                   3/26/2010    ($829,370,000)     $1,603,650,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010    ($366,750,000)     $1,236,900,000      Updated portfolio data from servicer
                                                                                                                                                                       Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                   9/30/2010       $95,300,000     $1,332,200,000
                                                                                                                                                                       and initial RD-HAMP
                                                                                                                   9/30/2010     $222,941,084      $1,555,141,084      Updated portfolio data from servicer
                                                      Financial
4/17/2009 as
               Bank of America, N.A.,                 Instrument for                                                1/6/2011           ($2,199)    $1,555,138,885      Updated portfolio data from servicer
amended on                              Purchase                              $798,900,000     N/A         13                                                                                                       $4,267,062        $17,852,012       $9,159,439        $31,278,513
               Simi Valley, CA                        Home Loan
1/26/2010                                                                                                                                                              Updated due to quarterly assessment and
                                                      Modifications                                                3/30/2011           ($2,548)    $1,555,136,337
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($23,337)    $1,555,113,000
                                                                                                                                                                       reallocation
                                                                                                                   8/16/2011        ($300,000)     $1,554,813,000      Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I October 25, 2012




                                                                                                                  10/14/2011    ($120,700,000)     $1,434,113,000      Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011        ($900,000)     $1,433,213,000      Transfer of cap due to servicing transfer
                                                                                                                   5/16/2012        ($200,000)     $1,433,013,000      Transfer of cap due to servicing transfer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   6/28/2012          ($17,893)    $1,432,995,107
                                                                                                                                                                       reallocation
                                                                                                                                                                       Update of cap due to termination of SPA
                                                                                                                   8/10/2012   ($1,401,716,594)       $31,278,513
                                                                                                                                                                       and merger with BAC Home Loans, LP
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                                  (continued)
               Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                                    TARP Incentive Payments
                                                                                Cap of Incentive
                                                                            Payments on Behalf
                                                                            of Borrowers and to                                                                                                                                                                                  Total TARP
                                            Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                         Borrower’s   Lenders/Investors        Servicers          Incentive
Date           Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount         Adjusted Cap Reason for Adjustment                               Incentives          Incentives       Incentives         Payments
                                                                                                                       6/12/2009    $3,318,840,000     $5,182,840,000      Updated portfolio data from servicer
                                                                                                                                                                           Updated portfolio data from servicer &
                                                                                                                       9/30/2009    ($717,420,000)     $4,465,420,000
                                                                                                                                                                           HPDP initial cap
                                                                                                                                                                           Updated portfolio data from servicer &
                                                                                                                      12/30/2009    $2,290,780,000     $6,756,200,000
                                                                                                                                                                           HAFA initial cap
                                                                                                                       1/26/2010     $450,100,000      $7,206,300,000      Initial 2MP cap
                                                                                                                       3/26/2010     $905,010,000      $8,111,310,000      Updated portfolio data from servicer
                                                                                                                                                                           Transfer of cap from Wilshire Credit
                                                                                                                       4/19/2010       $10,280,000     $8,121,590,000
                                                                                                                                                                           Corporation due to servicing transfer
                                                                                                                                                                           Transfer of cap from Wilshire Credit
                                                                                                                       6/16/2010     $286,510,000      $8,408,100,000
                                                                                                                                                                           Corporation due to servicing transfer
                                                                                                                       7/14/2010   ($1,787,300,000)    $6,620,800,000      Updated portfolio data from servicer
                                                                                                                                                                           Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                       9/30/2010     $105,500,000      $6,726,300,000
                                                                                                                                                                           and initial RD-HAMP
                                                                                                                       9/30/2010    ($614,527,362)     $6,111,772,638      Updated portfolio data from servicer
                                                                                                                      12/15/2010     $236,000,000      $6,347,772,638      Updated portfolio data from servicer
                                                                                                                        1/6/2011           ($8,012)    $6,347,764,626      Updated portfolio data from servicer
                                                                                                                       2/16/2011        $1,800,000     $6,349,564,626      Transfer of cap due to servicing transfer
                                                                                                                       3/16/2011          $100,000     $6,349,664,626      Transfer of cap due to servicing transfer
                                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                                       3/30/2011           ($9,190)    $6,349,655,436
                                                                                                                                                                           reallocation
                                                                                                                       4/13/2011          $200,000     $6,349,855,436      Transfer of cap due to servicing transfer
                                                                                                                       5/13/2011          $300,000     $6,350,155,436      Transfer of cap due to servicing transfer
               Countrywide Home Loans                     Financial
4/17/2009 as                                                                                                           6/16/2011       ($1,000,000)    $6,349,155,436      Transfer of cap due to servicing transfer
               Servicing LP (BAC Home                     Instrument for
amended on                                  Purchase                            $1,864,000,000     N/A                                                                                                                  $154,329,739       $328,976,781     $228,274,883      $711,581,403
               Loans Servicing, LP), Simi                 Home Loan                                                                                                        Updated due to quarterly assessment and
1/26/2010                                                                                                              6/29/2011          ($82,347)    $6,349,073,089
               Valley, CA                                 Modifications                                                                                                    reallocation
                                                                                                                       7/14/2011        ($200,000)     $6,348,873,089      Transfer of cap due to servicing transfer
                                                                                                                       8/16/2011       ($3,400,000)    $6,345,473,089      Transfer of cap due to servicing transfer
                                                                                                                       9/15/2011       ($1,400,000)    $6,344,073,089      Transfer of cap due to servicing transfer
                                                                                                                      10/14/2011     $120,600,000      $6,464,673,089      Transfer of cap due to servicing transfer
                                                                                                                                                                           Transfer of cap from Home Loan Services,
                                                                                                                      10/19/2011     $317,956,289      $6,782,629,378      Inc. and Wilshire Credit Corporation due
                                                                                                                                                                           to merger
                                                                                                                      11/16/2011          $800,000     $6,783,429,378      Transfer of cap due to servicing transfer
                                                                                                                      12/15/2011      ($17,600,000)    $6,765,829,378      Transfer of cap due to servicing transfer
                                                                                                                       2/16/2012       ($2,100,000)    $6,763,729,378      Transfer of cap due to servicing transfer
                                                                                                                       3/15/2012      ($23,900,000)    $6,739,829,378      Transfer of cap due to servicing transfer
                                                                                                                       4/16/2012      ($63,800,000)    $6,676,029,378      Transfer of cap due to servicing transfer
                                                                                                                       5/16/2012           $20,000     $6,676,049,378      Transfer of cap due to servicing transfer
                                                                                                                       6/14/2012       ($8,860,000)    $6,667,189,378      Transfer of cap due to servicing transfer
                                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                                       6/28/2012          ($58,550)    $6,667,130,828
                                                                                                                                                                           reallocation
                                                                                                                       7/16/2012       ($6,840,000)    $6,660,290,828      Transfer of cap due to servicing transfer
                                                                                                                                                                           Transfer of cap (from Bank of America,
                                                                                                                       8/10/2012    $1,401,716,594     $8,062,007,423
                                                                                                                                                                           N.A.) due to merger
                                                                                                                       8/16/2012       ($4,780,000)    $8,057,227,423      Transfer of cap due to servicing transfer
                                                                                                                                                                           Updated due to quarterly assessment and
                                                                                                                       9/27/2012        ($205,946)     $8,057,021,476
                                                                                                                                                                           reallocation
                                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I October 25, 2012




                                                                                                                                                                                                                                                                       Continued on next page
                                                                                                                                                                                                                                                                                                279
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)                                                                                                                                                                                       280
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                 TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                               Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                   6/12/2009    $128,300,000       $447,300,000       Updated portfolio data from servicer
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                   9/30/2009      $46,730,000      $494,030,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009    $145,820,000       $639,850,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010     ($17,440,000)     $622,410,000       Updated portfolio data from servicer
                                                                                                                   7/14/2010     ($73,010,000)     $549,400,000       Updated portfolio data from servicer
                                                                                                                   9/30/2010       $6,700,000      $556,100,000       Initial FHA-2LP cap

                                                      Financial                                                    9/30/2010     ($77,126,410)     $478,973,590       Updated portfolio data from servicer
            Home Loan Services, Inc.,                 Instrument for
4/20/2009                               Purchase                              $319,000,000     N/A         13     12/15/2010   ($314,900,000)      $164,073,590       Updated portfolio data from servicer         $169,858          $2,440,768       $3,698,607         $6,309,233
            Pittsburgh, PA                            Home Loan
                                                      Modifications                                                 1/6/2011            ($233)     $164,073,357       Updated portfolio data from servicer
                                                                                                                   2/16/2011      ($1,900,000)     $162,173,357       Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011       ($400,000)      $161,773,357       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   3/30/2011            ($278)     $161,773,079
                                                                                                                                                                      reallocation
                                                                                                                   5/13/2011       ($400,000)      $161,373,079       Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I October 25, 2012




                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($2,625)     $161,370,454
                                                                                                                                                                      reallocation
                                                                                                                  10/19/2011   ($155,061,221)         $6,309,233      Termination of SPA
                                                                                                                   6/12/2009      $87,130,000      $453,130,000       Updated portfolio data from servicer
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                   9/30/2009   ($249,670,000)      $203,460,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009    $119,700,000       $323,160,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010      $52,270,000      $375,430,000       Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap to Countrywide Home
                                                                                                                   4/19/2010     ($10,280,000)     $365,150,000
                                                                                                                                                                      Loans due to servicing transfer
                                                                                                                                                                      Transfer of cap to GMAC Mortgage, Inc.
                                                                                                                   5/14/2010      ($1,880,000)     $363,270,000
                                                                                                                                                                      due to servicing transfer

                                                      Financial                                                                                                       Transfer of cap to Countrywide Home
            Wilshire Credit                                                                                        6/16/2010   ($286,510,000)        $76,760,000
                                                      Instrument for                                                                                                  Loans due to servicing transfer
4/20/2009   Corporation,                Purchase                              $366,000,000     N/A         13                                                                                                            $0            $490,394       $1,167,000         $1,657,394
                                                      Home Loan
            Beaverton, OR                                                                                          7/14/2010      $19,540,000        $96,300,000      Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                                      Transfer of cap to Green Tree Servicing
                                                                                                                   7/16/2010       ($210,000)        $96,090,000
                                                                                                                                                                      LLC due to servicing transfer
                                                                                                                   8/13/2010       ($100,000)        $95,990,000      Transfer of cap due to servicing transfer
                                                                                                                   9/30/2010      $68,565,782      $164,555,782       Updated portfolio data from servicer
                                                                                                                    1/6/2011            ($247)     $164,555,535       Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   3/30/2011            ($294)     $164,555,241
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($2,779)     $164,552,462
                                                                                                                                                                      reallocation
                                                                                                                  10/19/2011   ($162,895,068)         $1,657,394      Termination of SPA
                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                 TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                               Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                   6/17/2009     ($64,990,000)       $91,010,000      Updated portfolio data from servicer
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                   9/30/2009    $130,780,000       $221,790,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009   ($116,750,000)      $105,040,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010      $13,080,000      $118,120,000       Updated portfolio data from servicer
                                                                                                                   7/14/2010     ($24,220,000)       $93,900,000      Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap from Wilshire Credit
                                                                                                                   7/16/2010         $210,000        $94,110,000
                                                                                                                                                                      Corporation due to servicing transfer
                                                                                                                   8/13/2010       $2,200,000        $96,310,000      Transfer of cap due to servicing transfer
                                                                                                                   9/10/2010      $34,600,000      $130,910,000       Initial 2MP cap
                                                                                                                   9/30/2010       $5,600,000      $136,510,000       Initial FHA-2LP cap and FHA-HAMP
                                                                                                                   9/30/2010      $10,185,090      $146,695,090       Updated portfolio data from servicer
                                                                                                                  10/15/2010         $400,000      $147,095,090       Transfer of cap due to servicing transfer
                                                                                                                    1/6/2011            ($213)     $147,094,877       Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   3/30/2011            ($250)     $147,094,627
                                                                                                                                                                      reallocation
                                                      Financial
            Green Tree Servicing LLC,                 Instrument for                                               5/13/2011       $1,200,000      $148,294,627       Transfer of cap due to servicing transfer
4/24/2009                               Purchase                              $156,000,000     N/A                                                                                                                $1,135,650         $3,610,262       $2,997,926         $7,743,839
            Saint Paul, MN                            Home Loan
                                                      Modifications                                                6/16/2011         $100,000      $148,394,627       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($2,302)     $148,392,325
                                                                                                                                                                      reallocation
                                                                                                                   7/14/2011       $1,900,000      $150,292,325       Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011         $200,000      $150,492,325       Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011         $200,000      $150,692,325       Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011         $400,000      $151,092,325       Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012         $900,000      $151,992,325       Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012         $100,000      $152,092,325       Transfer of cap due to servicing transfer
                                                                                                                   5/16/2012       $3,260,000      $155,352,325       Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012         $920,000      $156,272,325       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012          ($1,622)     $156,270,703
                                                                                                                                                                      reallocation
                                                                                                                   7/16/2012         $110,000      $156,380,703       Transfer of cap due to servicing transfer
                                                                                                                   8/16/2012       $5,120,000      $161,500,703       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012          ($4,509)     $161,496,194
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                        281
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                          (continued)                                                                                                                                                                                       282
            Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                                 TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                                               Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                               6/17/2009     ($63,980,000)     $131,020,000       Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                               9/30/2009      $90,990,000      $222,010,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                              12/30/2009      $57,980,000      $279,990,000
                                                                                                                                                                  HAFA initial cap
                                                                                                               3/26/2010      $74,520,000      $354,510,000       Updated portfolio data from servicer
                                                                                                               7/14/2010     ($75,610,000)     $278,900,000       Updated portfolio data from servicer
                                                                                                               8/13/2010       $1,100,000      $280,000,000       Transfer of cap due to servicing transfer
                                                                                                               9/30/2010       $3,763,685      $283,763,685       Updated portfolio data from servicer
                                                                                                              12/15/2010         $300,000      $284,063,685       Updated portfolio data from servicer
                                                                                                                1/6/2011            ($325)     $284,063,360       Updated portfolio data from servicer
                                                                                                               1/13/2011       $2,400,000      $286,463,360       Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               3/30/2011            ($384)     $286,462,976
                                                  Financial                                                                                                       reallocation
            Carrington Mortgage
                                                  Instrument for
4/27/2009   Services, LLC, Santa    Purchase                              $195,000,000     N/A                                                                    Updated due to quarterly assessment and     $5,424,783        $15,903,153      $11,409,391        $32,737,327
                                                  Home Loan                                                    6/29/2011          ($3,592)     $286,459,384
            Ana, CA                                                                                                                                               reallocation
                                                  Modifications
                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I October 25, 2012




                                                                                                               8/16/2011       $1,800,000      $288,259,384       Transfer of cap due to servicing transfer
                                                                                                               9/15/2011         $100,000      $288,359,384       Transfer of cap due to servicing transfer
                                                                                                              11/16/2011       $1,000,000      $289,359,384       Transfer of cap due to servicing transfer
                                                                                                               2/16/2012       $1,100,000      $290,459,384       Transfer of cap due to servicing transfer
                                                                                                               4/16/2012         $100,000      $290,559,384       Transfer of cap due to servicing transfer
                                                                                                               5/16/2012         $850,000      $291,409,384       Transfer of cap due to servicing transfer
                                                                                                               6/14/2012       $2,240,000      $293,649,384       Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               6/28/2012          ($2,520)     $293,646,864
                                                                                                                                                                  reallocation
                                                                                                               7/16/2012       $1,690,000      $295,336,864       Transfer of cap due to servicing transfer
                                                                                                               8/16/2012         ($30,000)     $295,306,864       Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               9/27/2012          ($6,632)     $295,300,232
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                         (continued)
           Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                                  TARP Incentive Payments
                                                                       Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                                                                Total TARP
                                   Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                      Borrower’s   Lenders/Investors        Servicers           Incentive
Date       Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                             Incentives          Incentives       Incentives          Payments
                                                                                                              6/17/2009   ($338,450,000)      $459,550,000       Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                              9/30/2009     ($11,860,000)     $447,690,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                             12/30/2009      $21,330,000      $469,020,000
                                                                                                                                                                 HAFA initial cap
                                                                                                              3/26/2010       $9,150,000      $478,170,000       Updated portfolio data from servicer
                                                                                                              7/14/2010     ($76,870,000)     $401,300,000       Updated portfolio data from servicer
                                                                                                               9/1/2010         $400,000      $401,700,000       Initial FHA-HAMP cap
                                                                                                              9/30/2010      ($8,454,269)     $393,245,731       Updated portfolio data from servicer
                                                                                                               1/6/2011            ($342)     $393,245,389       Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                              3/30/2011            ($374)     $393,245,015
                                                 Financial                                                                                                       reallocation
           Aurora Loan Services,                 Instrument for
5/1/2009                           Purchase                              $798,000,000     N/A                 5/13/2011      $18,000,000      $411,245,015       Transfer of cap due to servicing transfer   $15,976,418        $41,234,666      $28,618,751        $85,829,835
           LLC, Littleton, CO                    Home Loan
                                                 Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                              6/29/2011          ($3,273)     $411,241,742
                                                                                                                                                                 reallocation
                                                                                                             10/14/2011       ($200,000)      $411,041,742       Transfer of cap due to servicing transfer
                                                                                                              3/15/2012         $100,000      $411,141,742       Transfer of cap due to servicing transfer
                                                                                                              4/16/2012       ($500,000)      $410,641,742       Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                              6/28/2012          ($1,768)     $410,639,974
                                                                                                                                                                 reallocation
                                                                                                              7/16/2012         ($90,000)     $410,549,974       Transfer of cap due to servicing transfer
                                                                                                              8/16/2012   ($134,230,000)      $276,319,974       Transfer of cap due to servicing transfer
                                                                                                              8/23/2012   ($166,976,849)      $109,343,125       Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                              9/27/2012               $1      $109,343,126
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                           Continued on next page
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                    283
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                             (continued)                                                                                                                                                                                         284
            Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                                   TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                       Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                              Incentives          Incentives       Incentives          Payments
                                                                                                                  6/12/2009      $16,140,000      $117,140,000       Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $134,560,000       $251,700,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $80,250,000      $331,950,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                  3/26/2010      $67,250,000      $399,200,000       Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($85,900,000)     $313,300,000       Updated portfolio data from servicer
                                                                                                                  8/13/2010         $100,000      $313,400,000       Transfer of cap due to servicing transfer
                                                                                                                                                                     Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010       $2,900,000      $316,300,000
                                                                                                                                                                     initial RD-HAMP, and initial 2MP cap
                                                                                                                  9/30/2010      $33,801,486      $350,101,486       Updated portfolio data from servicer
                                                                                                                 11/16/2010         $700,000      $350,801,486       Transfer of cap due to servicing transfer
                                                                                                                 12/15/2010       $1,700,000      $352,501,486       Updated portfolio data from servicer
                                                                                                                   1/6/2011            ($363)     $352,501,123       Updated portfolio data from servicer
                                                                                                                  2/16/2011         $900,000      $353,401,123       Transfer of cap due to servicing transfer
                                                     Financial
            Nationstar Mortgage LLC,                 Instrument for                                               3/16/2011      $29,800,000      $383,201,123       Transfer of cap due to servicing transfer
5/28/2009                              Purchase                              $101,000,000     N/A                                                                                                                 $13,752,860        $30,876,388      $23,479,835        $68,109,083
                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I October 25, 2012




            Lewisville, TX                           Home Loan
                                                     Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                                  3/30/2011            ($428)     $383,200,695
                                                                                                                                                                     reallocation
                                                                                                                  5/26/2011      $20,077,503      $403,278,198       Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($4,248)     $403,273,950
                                                                                                                                                                     reallocation
                                                                                                                 11/16/2011         $100,000      $403,373,950       Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012       ($100,000)      $403,273,950       Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012          $90,000      $403,363,950       Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012      ($2,380,000)     $400,983,950       Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($2,957)     $400,980,993
                                                                                                                                                                     reallocation
                                                                                                                  7/16/2012      ($2,580,000)     $398,400,993       Transfer of cap due to servicing transfer
                                                                                                                  8/16/2012    $131,450,000       $529,850,993       Transfer of cap due to servicing transfer
                                                                                                                  8/23/2012    $166,976,849       $696,827,842       Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012         ($12,806)     $696,815,036
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                             (continued)
            Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                                  TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                                               Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                      Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                             Incentives          Incentives       Incentives         Payments
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                  9/30/2009      ($1,860,000)       $17,540,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $27,920,000        $45,460,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                  3/26/2010      ($1,390,000)       $44,070,000      Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($13,870,000)       $30,200,000      Updated portfolio data from servicer
                                                                                                                                                                     Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010         $400,000        $30,600,000
                                                                                                                                                                     and initial 2MP cap
                                                                                                                  9/30/2010         $586,954        $31,186,954      Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($34)       $31,186,920      Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                     Financial                                                    3/30/2011             ($37)       $31,186,883
                                                                                                                                                                     reallocation
            Residential Credit                       Instrument for
6/12/2009                              Purchase                               $19,400,000     N/A                                                                                                                  $771,003          $2,162,078       $1,544,729         $4,477,810
            Solutions, Fort Worth,TX                 Home Loan                                                    4/13/2011         $100,000        $31,286,883      Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/29/2011            ($329)       $31,286,554
                                                                                                                                                                     reallocation
                                                                                                                  9/15/2011      ($1,900,000)       $29,386,554      Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       $2,800,000        $32,186,554      Transfer of cap due to servicing transfer
                                                                                                                  5/16/2012         $420,000        $32,606,554      Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012       $8,060,000        $40,666,554      Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012            ($313)       $40,666,241
                                                                                                                                                                     reallocation
                                                                                                                  7/16/2012       $2,160,000        $42,826,241      Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012            ($911)       $42,825,330
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                  9/30/2009      $13,070,000        $29,590,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                 12/30/2009     $145,510,000      $175,100,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                  3/26/2010    ($116,950,000)       $58,150,000      Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($23,350,000)       $34,800,000      Updated portfolio data from servicer

                                                     Financial                                                    9/30/2010       $7,846,346        $42,646,346      Updated portfolio data from servicer
            CCO Mortgage, Glen                       Instrument for                                                1/6/2011             ($46)       $42,646,300      Updated portfolio data from servicer
6/17/2009                              Purchase                               $16,520,000     N/A                                                                                                                 $1,148,846         $3,073,269       $2,245,215         $6,467,330
            Allen, VA                                Home Loan
                                                     Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($55)       $42,646,245
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/29/2011            ($452)       $42,645,793
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012            ($309)       $42,645,484
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012            ($807)       $42,644,677
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                        285
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)                                                                                                                                                                                       286
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                 TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                               Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                   9/30/2009     ($11,300,000)       $45,700,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009     ($42,210,000)        $3,490,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010      $65,640,000        $69,130,000      Updated portfolio data from servicer
                                                                                                                    4/9/2010     ($14,470,000)       $54,660,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($8,860,000)       $45,800,000      Updated portfolio data from servicer

                                                      Financial                                                    9/30/2010      ($4,459,154)       $41,340,846      Updated portfolio data from servicer
            RG Mortgage Corporation,                  Instrument for                                              12/15/2010      ($4,300,000)       $37,040,846      Updated portfolio data from servicer
6/17/2009                               Purchase                               $57,000,000     N/A                                                                                                                 $164,853            $227,582         $401,334           $793,769
            San Juan, PR                              Home Loan
                                                      Modifications                                                 1/6/2011             ($51)       $37,040,795      Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($65)       $37,040,730
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($616)       $37,040,114
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012            ($462)       $37,039,652
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012          ($1,270)       $37,038,382
                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I October 25, 2012




                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated portfolio data from servicer &
                                                      Financial                                                   12/30/2009       $2,020,000         $2,790,000
                                                                                                                                                                      HAFA initial cap
            First Federal Savings and                 Instrument for
6/19/2009                               Purchase                                  $770,000     N/A                                                                                                                       $0                  $0               $0                  $0
            Loan, Port Angeles, WA                    Home Loan                                                    3/26/2010      $11,370,000        $14,160,000      Updated portfolio data from servicer
                                                      Modifications
                                                                                                                   5/26/2010     ($14,160,000)                $0      Termination of SPA
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                   9/30/2009         $330,000           $870,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009      $16,490,000        $17,360,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010     ($14,260,000)        $3,100,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($1,800,000)        $1,300,000      Updated portfolio data from servicer
                                                                                                                   7/30/2010       $1,500,000         $2,800,000      Updated portfolio data from servicer
                                                      Financial
            Wescom Central Credit                     Instrument for                                               9/30/2010       $1,551,668         $4,351,668      Updated portfolio data from servicer
6/19/2009                               Purchase                                  $540,000     N/A         9,12                                                                                                    $128,617            $461,204         $247,236           $837,058
            Union, Anaheim, CA                        Home Loan                                                     1/6/2011              ($2)        $4,351,666      Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($2)        $4,351,664
                                                                                                                                                                      reallocation
                                                                                                                   5/13/2011      ($1,800,000)        $2,551,664      Transfer of cap due to servicing transfer
                                                                                                                    6/3/2011      ($1,872,787)          $678,877      Termination of SPA
                                                                                                                   6/14/2012         $990,000         $1,668,877      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012         $372,177         $2,041,054
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                   9/30/2009         ($10,000)           $20,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009         $590,000           $610,000
                                                      Financial                                                                                                       HAFA initial cap
            Citizens First Wholesale
                                                      Instrument for
6/26/2009   Mortgage Company, The       Purchase                                    $30,000    N/A                 3/26/2010       ($580,000)            $30,000      Updated portfolio data from servicer               $0                  $0               $0                  $0
                                                      Home Loan
            Villages, FL
                                                      Modifications                                                7/14/2010          $70,000           $100,000      Updated portfolio data from servicer
                                                                                                                   9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                   2/17/2011       ($145,056)                 $0      Termination of SPA
                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                             (continued)
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                  TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                                                 Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                       Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount         Adjusted Cap Reason for Adjustment                             Incentives          Incentives       Incentives          Payments
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                 12/30/2009        $2,180,000         $2,250,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                  3/26/2010        ($720,000)         $1,530,000      Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($430,000)         $1,100,000      Updated portfolio data from servicer
                                                                                                                  9/30/2010           $60,445         $1,160,445      Updated portfolio data from servicer
                                                     Financial                                                     1/6/2011                           $1,160,444      Updated portfolio data from servicer
            Technology Credit Union,                 Instrument for
6/26/2009                              Purchase                                    $70,000    N/A                                                                     Updated due to quarterly assessment and        $26,250            $108,282          $44,417           $178,949
            San Jose, CA                             Home Loan                                                    3/30/2011                           $1,160,443
                                                     Modifications                                                                                                    reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($12)        $1,160,431
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/28/2012               ($9)        $1,160,422
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  9/27/2012              ($23)        $1,160,399
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  9/30/2009     $315,170,000       $610,150,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                 12/30/2009       $90,280,000      $700,430,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                  3/26/2010     ($18,690,000)      $681,740,000       Updated portfolio data from servicer
                                                                                                                  7/14/2010    ($272,640,000)      $409,100,000       Updated portfolio data from servicer
                                                                                                                                                                      Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                  9/30/2010       $80,600,000      $489,700,000
                                                                                                                                                                      and initial 2MP cap
                                                                                                                  9/30/2010       $71,230,004      $560,930,004       Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($828)     $560,929,176       Updated portfolio data from servicer
                                                                                                                  2/16/2011          $200,000      $561,129,176       Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011        ($100,000)      $561,029,176       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($981)     $561,028,195
                                                                                                                                                                      reallocation
                                                     Financial                                                    4/13/2011       ($2,300,000)     $558,728,195       Transfer of cap due to servicing transfer
            National City Bank,                      Instrument for
6/26/2009                              Purchase                              $294,980,000     N/A                                                                                                                  $1,380,269         $5,066,459       $3,167,078         $9,613,807
            Miamisburg, OH                           Home Loan                                                    5/13/2011        ($200,000)      $558,528,195       Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                  6/16/2011        ($200,000)      $558,328,195       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/29/2011           ($9,197)     $558,318,998
                                                                                                                                                                      reallocation
                                                                                                                  8/16/2011                $0      $558,318,998       Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011          $300,000      $558,618,998       Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011        ($300,000)      $558,318,998       Transfer of cap due to servicing transfer
                                                                                                                  1/13/2012          $200,000      $558,518,998       Transfer of cap due to servicing transfer
                                                                                                                  2/16/2012        ($100,000)      $558,418,998       Transfer of cap due to servicing transfer
                                                                                                                  3/15/2012          $200,000      $558,618,998       Transfer of cap due to servicing transfer
                                                                                                                  6/14/2012          ($10,000)     $558,608,998       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/28/2012           ($6,771)     $558,602,227
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  9/27/2012          ($18,467)     $558,583,760
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  9/30/2009     $723,880,000      $1,357,890,000
                                                                                                                                                                      HPDP initial cap

                                                     Financial                                                                                                        Updated portfolio data from servicer &
                                                                                                                 12/30/2009     $692,640,000      $2,050,530,000
            Wachovia Mortgage, FSB,                  Instrument for                                                                                                   HAFA initial cap
7/1/2009                               Purchase                              $634,010,000     N/A         3                                                                                                               $0             $76,890         $162,000           $238,890
            Des Moines, IA                           Home Loan                                                                                                        Transfer of cap (to Wells Fargo Bank) due
                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I October 25, 2012




                                                     Modifications                                                2/17/2010   ($2,050,236,344)          $293,656
                                                                                                                                                                      to merger
                                                                                                                                                                      Transfer of cap (to Wells Fargo Bank) due
                                                                                                                  3/12/2010          ($54,767)          $238,890
                                                                                                                                                                      to merger
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         287
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                            (continued)                                                                                                                                                                                       288
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                 TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                                               Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                 9/30/2009      $23,850,000        $68,110,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                12/30/2009      $43,590,000      $111,700,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                 3/26/2010      $34,540,000      $146,240,000       Updated portfolio data from servicer
                                                                                                                  5/7/2010       $1,010,000      $147,250,000       Initial 2MP cap
                                                                                                                 7/14/2010     ($34,250,000)     $113,000,000       Updated portfolio data from servicer
                                                                                                                 9/30/2010         $600,000      $113,600,000       Initial FHA-2LP cap
                                                                                                                 9/30/2010     ($15,252,303)       $98,347,697      Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($70)       $98,347,627      Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 3/30/2011             ($86)       $98,347,541
                                                                                                                                                                    reallocation
                                                                                                                 4/13/2011         $400,000        $98,747,541      Transfer of cap due to servicing transfer

                                                    Financial                                                    5/13/2011         $100,000        $98,847,541      Transfer of cap due to servicing transfer
            Bayview Loan Servicing,                 Instrument for
7/1/2009                              Purchase                               $44,260,000     N/A                                                                    Updated due to quarterly assessment and     $4,524,732         $8,877,092       $7,256,970        $20,658,794
            LLC, Coral Gables, FL                   Home Loan                                                    6/29/2011            ($771)       $98,846,770
                                                                                                                                                                    reallocation
                                                    Modifications
                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I October 25, 2012




                                                                                                                 9/15/2011         $600,000        $99,446,770      Transfer of cap due to servicing transfer
                                                                                                                10/14/2011     ($18,900,000)       $80,546,770      Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012         $900,000        $81,446,770      Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012       $2,400,000        $83,846,770      Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012       ($100,000)        $83,746,770      Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012         $200,000        $83,946,770      Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012          $30,000        $83,976,770      Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012       $1,810,000        $85,786,770      Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/28/2012            ($508)       $85,786,262
                                                                                                                                                                    reallocation
                                                                                                                 7/16/2012       $2,660,000        $88,446,262      Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 9/27/2012          ($1,249)       $88,445,013
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                 9/30/2009         $150,000           $250,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                12/30/2009         $130,000           $380,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                 3/26/2010          $50,000           $430,000      Updated portfolio data from servicer
                                                                                                                 7/14/2010         ($30,000)          $400,000      Updated portfolio data from servicer
                                                    Financial                                                    9/30/2010          $35,167           $435,167      Updated portfolio data from servicer
            Lake National Bank,                     Instrument for
7/10/2009                             Purchase                                  $100,000     N/A         12       1/6/2011                            $435,166      Updated portfolio data from servicer           $3,000              $3,651           $4,000            $10,651
            Mentor, OH                              Home Loan
                                                    Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 3/30/2011                            $435,165
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/29/2011              ($6)          $435,159
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/28/2012              ($4)          $435,155
                                                                                                                                                                    reallocation
                                                                                                                 8/23/2012       ($424,504)            $10,651      Termination of SPA
                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                             (continued)
            Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                                  TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                                                Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                      Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                             Incentives          Incentives       Incentives          Payments
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                  9/30/2009         ($10,000)          $860,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                 12/30/2009         $250,000         $1,110,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                  3/26/2010         ($10,000)        $1,100,000      Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($400,000)           $700,000      Updated portfolio data from servicer
                                                     Financial                                                    9/30/2010         $170,334           $870,334      Updated portfolio data from servicer
            IBM Southeast Employees’
                                                     Instrument for
7/10/2009   Federal Credit Union,      Purchase                                  $870,000     N/A         12       1/6/2011                            $870,333      Updated portfolio data from servicer            $9,000             $23,589          $16,000            $48,589
                                                     Home Loan
            Delray Beach, FL
                                                     Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  3/30/2011                            $870,332
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($12)          $870,320
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($9)          $870,311
                                                                                                                                                                     reallocation
                                                                                                                  9/14/2012       ($821,722)            $48,589      Termination of SPA
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                  9/30/2009      $18,530,000        $42,010,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $24,510,000        $66,520,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                  3/26/2010      $18,360,000        $84,880,000      Updated portfolio data from servicer

                                                     Financial                                                    7/14/2010     ($22,580,000)       $62,300,000      Updated portfolio data from servicer
            MorEquity, Inc.,                         Instrument for
7/17/2009                              Purchase                               $23,480,000     N/A         11      9/30/2010      ($8,194,261)       $54,105,739      Updated portfolio data from servicer          $345,841          $2,305,003       $1,977,321         $4,628,165
            Evansville, IN                           Home Loan
                                                     Modifications                                                 1/6/2011             ($37)       $54,105,702      Updated portfolio data from servicer
                                                                                                                  3/16/2011     ($29,400,000)       $24,705,702      Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($34)       $24,705,668
                                                                                                                                                                     reallocation
                                                                                                                                                                     Termination of SPA
                                                                                                                  5/26/2011     ($20,077,503)        $4,628,165
                                                                                                                                                                     (remaining cap equals distribution amount)
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                  9/30/2009     ($36,240,000)       $18,230,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $19,280,000        $37,510,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                  3/26/2010       $2,470,000        $39,980,000      Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($17,180,000)       $22,800,000      Updated portfolio data from servicer
                                                                                                                  9/30/2010      $35,500,000        $58,300,000      Initial FHA-2LP cap and initial 2MP cap
                                                                                                                  9/30/2010      $23,076,191        $81,376,191      Updated portfolio data from servicer
                                                     Financial
            PNC Bank, National                                                                                     1/6/2011            ($123)       $81,376,068      Updated portfolio data from servicer
                                                     Instrument for
7/17/2009   Association,               Purchase                               $54,470,000     N/A                                                                                                                   $54,708            $329,078         $277,250           $661,036
                                                     Home Loan                                                                                                       Updated due to quarterly assessment and
            Pittsburgh, PA                                                                                        3/30/2011            ($147)       $81,375,921
                                                     Modifications                                                                                                   reallocation
                                                                                                                  5/13/2011       ($100,000)        $81,275,921      Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($1,382)       $81,274,539
                                                                                                                                                                     reallocation
                                                                                                                 10/14/2011       ($300,000)        $80,974,539      Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012          ($1,003)       $80,973,536
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012          ($2,745)       $80,970,791
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                        289
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)                                                                                                                                                                                        290
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                  TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                               Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                      Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                             Incentives          Incentives       Incentives         Payments
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                   9/30/2009         ($90,000)           $80,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009          $50,000           $130,000
                                                      Financial                                                                                                       HAFA initial cap
            Farmers State Bank, West                  Instrument for
7/17/2009                               Purchase                                  $170,000     N/A                 3/26/2010         $100,000           $230,000      Updated portfolio data from servicer                $0                  $0               $0                  $0
            Salem, OH                                 Home Loan
                                                      Modifications                                                7/14/2010       ($130,000)           $100,000      Updated portfolio data from servicer
                                                                                                                   9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                   5/20/2011       ($145,056)                 $0      Termination of SPA
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                   9/30/2009         $890,000         $2,300,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $1,260,000         $3,560,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010         ($20,000)        $3,540,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($240,000)         $3,300,000      Updated portfolio data from servicer
                                                                                                                   9/30/2010         $471,446         $3,771,446      Updated portfolio data from servicer
                                                      Financial
                                                                                                                    1/6/2011              ($3)        $3,771,443      Updated portfolio data from servicer
                                                      Instrument for
7/17/2009   ShoreBank, Chicago, IL      Purchase                                 $1,410,000    N/A                                                                                                                   $49,915            $153,906         $143,165           $346,986
                                                      Home Loan
                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I October 25, 2012




                                                                                                                                                                      Updated due to quarterly assessment and
                                                      Modifications                                                3/30/2011              ($4)        $3,771,439
                                                                                                                                                                      reallocation
                                                                                                                   4/13/2011      ($1,100,000)        $2,671,439      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($38)        $2,671,401
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($29)        $2,671,372
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012             ($79)        $2,671,293
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                   9/30/2009     ($53,670,000)    $1,218,820,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009    $250,450,000      $1,469,270,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010    $124,820,000      $1,594,090,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010   ($289,990,000)     $1,304,100,000      Updated portfolio data from servicer
                                                                                                                   9/30/2010       $1,690,508     $1,305,790,508      Updated portfolio data from servicer
                                                                                                                  10/15/2010         $300,000     $1,306,090,508      Transfer of cap due to servicing transfer
                                                                                                                  11/16/2010       ($100,000)     $1,305,990,508      Transfer of cap due to servicing transfer
                                                                                                                    1/6/2011          ($1,173)    $1,305,989,335      Updated portfolio data from servicer
                                                                                                                   2/16/2011       ($500,000)     $1,305,489,335      Transfer of cap due to servicing transfer

                                                      Financial                                                                                                       Updated due to quarterly assessment and
            American Home Mortgage                                                                                 3/30/2011          ($1,400)    $1,305,487,935
                                                      Instrument for                                                                                                  reallocation
7/22/2009   Servicing, Inc (Homeward    Purchase                            $1,272,490,000     N/A                                                                                                                $36,981,901       $111,142,407      $76,605,349      $224,729,657
                                                      Home Loan                                                    4/13/2011       $3,100,000     $1,308,587,935      Transfer of cap due to servicing transfer
            Residential), Coppell, TX
                                                      Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011         ($12,883)    $1,308,575,052
                                                                                                                                                                      reallocation
                                                                                                                   9/15/2011      ($1,000,000)    $1,307,575,052      Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011       ($100,000)     $1,307,475,052      Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011      ($1,100,000)    $1,306,375,052      Transfer of cap due to servicing transfer
                                                                                                                   5/16/2012         ($10,000)    $1,306,365,052      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012          ($8,378)    $1,306,356,674
                                                                                                                                                                      reallocation
                                                                                                                   7/16/2012       ($470,000)     $1,305,886,674      Transfer of cap due to servicing transfer
                                                                                                                   8/16/2012         ($80,000)    $1,305,806,674      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012         ($22,494)    $1,305,784,180
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                               TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                            Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                          Incentives          Incentives       Incentives         Payments
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                   9/30/2009       $1,780,000         $5,990,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $2,840,000         $8,830,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010       $2,800,000        $11,630,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($5,730,000)        $5,900,000      Updated portfolio data from servicer

                                                      Financial                                                    9/30/2010       $2,658,280         $8,558,280      Updated portfolio data from servicer
            Mortgage Center, LLC,                     Instrument for                                                1/6/2011             ($12)        $8,558,268      Updated portfolio data from servicer
7/22/2009                               Purchase                                 $4,210,000    N/A                                                                                                                $80,220            $160,528         $181,142           $421,890
            Southfield, MI                            Home Loan
                                                      Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($14)        $8,558,254
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($129)        $8,558,125
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($94)        $8,558,031
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012            ($256)        $8,557,775
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                   9/30/2009       ($490,000)           $370,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $6,750,000         $7,120,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010      ($6,340,000)          $780,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($180,000)           $600,000      Updated portfolio data from servicer
                                                      Financial
                                                                                                                   9/30/2010        $125,278            $725,278      Updated portfolio data from servicer
            Mission Federal Credit                    Instrument for
7/22/2009                               Purchase                                  $860,000     N/A                                                                                                                $35,588            $102,672          $70,472           $208,732
            Union, San Diego, CA                      Home Loan                                                                                                       Updated due to quarterly assessment and
                                                      Modifications                                                3/30/2011                            $725,277
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($4)          $725,273
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012                            $725,272
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012                            $725,271
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                   9/30/2009      ($1,530,000)        $4,930,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009        $680,000          $5,610,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010       $2,460,000         $8,070,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($2,470,000)        $5,600,000      Updated portfolio data from servicer

                                                      Financial                                                    9/30/2010       $2,523,114         $8,123,114      Updated portfolio data from servicer
                                                      Instrument for                                                1/6/2011              ($2)        $8,123,112      Updated portfolio data from servicer
7/29/2009   First Bank, St. Louis, MO   Purchase                                 $6,460,000    N/A                                                                                                               $568,097          $1,301,119       $1,057,111         $2,926,328
                                                      Home Loan
                                                      Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($2)        $8,123,110
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($15)        $8,123,095
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($3)        $8,123,092
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012              ($5)        $8,123,087
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                      291
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                          (continued)                                                                                                                                                                                     292
            Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                               TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                                             Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                          Incentives          Incentives       Incentives          Payments
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                               9/30/2009         ($60,000)        $1,030,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                              12/30/2009       $1,260,000         $2,290,000
                                                                                                                                                                  HAFA initial cap
                                                                                                               3/26/2010       $2,070,000         $4,360,000      Updated portfolio data from servicer
                                                                                                               7/14/2010      ($3,960,000)          $400,000      Updated portfolio data from servicer

                                                  Financial                                                    9/30/2010         $180,222           $580,222      Updated portfolio data from servicer
            Purdue Employees
                                                  Instrument for                                                1/6/2011                            $580,221      Updated portfolio data from servicer
7/29/2009   Federal Credit Union,   Purchase                                 $1,090,000    N/A                                                                                                                 $1,000                $795           $2,000             $3,795
                                                  Home Loan
            West Lafayette, IN
                                                  Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                               3/30/2011                            $580,220
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               6/29/2011              ($8)          $580,212
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               6/28/2012              ($6)          $580,206
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               9/27/2012             ($17)          $580,189
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                               9/30/2009     ($37,700,000)       $47,320,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I October 25, 2012




                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                              12/30/2009      $26,160,000        $73,480,000
                                                  Financial                                                                                                       HAFA initial cap
            Wachovia Bank, N.A.,                  Instrument for
7/29/2009                           Purchase                               $85,020,000     N/A                 3/26/2010       $9,820,000        $83,300,000      Updated portfolio data from servicer             $0                  $0               $0                  $0
            Charlotte, NC                         Home Loan
                                                  Modifications                                                7/14/2010     ($46,200,000)       $37,100,000      Updated portfolio data from servicer
                                                                                                               9/30/2010     ($28,686,775)        $8,413,225      Updated portfolio data from servicer
                                                                                                               12/3/2010      ($8,413,225)                $0      Termination of SPA
                                                                                                                                                                                                                                                         Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                            (continued)
            Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                                    TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                                                  Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                         Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount         Adjusted Cap Reason for Adjustment                               Incentives          Incentives       Incentives         Payments
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                 9/30/2009     ($14,850,000)     $2,684,870,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                12/30/2009    $1,178,180,000     $3,863,050,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                 3/26/2010    $1,006,580,000     $4,869,630,000
                                                                                                                                                                     2MP initial cap
                                                                                                                 7/14/2010   ($1,934,230,000)    $2,935,400,000      Updated portfolio data from servicer
                                                                                                                                                                     Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                 9/30/2010       $72,400,000     $3,007,800,000
                                                                                                                                                                     and initial RD-HAMP
                                                                                                                 9/30/2010     $215,625,536      $3,223,425,536      Updated portfolio data from servicer
                                                                                                                  1/6/2011           ($3,636)    $3,223,421,900      Updated portfolio data from servicer
                                                                                                                 3/16/2011        ($100,000)     $3,223,321,900      Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 3/30/2011           ($3,999)    $3,223,317,901
                                                                                                                                                                     reallocation
                                                                                                                 4/13/2011        ($200,000)     $3,223,117,901      Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011     $122,700,000      $3,345,817,901      Transfer of cap due to servicing transfer
                                                    Financial                                                                                                        Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($34,606)    $3,345,783,295
            J.P. Morgan Chase Bank,                 Instrument for                                                                                                   reallocation
7/31/2009                             Purchase                            $2,699,720,000     N/A                                                                                                                  $171,318,015       $320,844,633     $250,719,046      $742,881,694
            NA, Lewisville, TX                      Home Loan
                                                    Modifications                                                7/14/2011          $600,000     $3,346,383,295      Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011        ($400,000)     $3,345,983,295      Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011        ($100,000)     $3,345,883,295      Transfer of cap due to servicing transfer
                                                                                                                10/14/2011          $200,000     $3,346,083,295      Transfer of cap due to servicing transfer
                                                                                                                10/19/2011     $519,211,309      $3,865,294,604      Transfer of cap due to servicing transfer
                                                                                                                11/16/2011       ($2,800,000)    $3,862,494,604      Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012        ($100,000)     $3,862,394,604      Transfer of cap due to servicing transfer
                                                                                                                 2/16/2012        ($100,000)     $3,862,294,604      Transfer of cap due to servicing transfer
                                                                                                                 5/16/2012    ($126,080,000)     $3,736,214,604      Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012       ($1,620,000)    $3,734,594,604      Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 6/28/2012          ($16,192)    $3,734,578,412
                                                                                                                                                                     reallocation
                                                                                                                 7/16/2012       ($2,300,000)    $3,732,278,412      Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012          ($20,000)    $3,732,258,412      Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 9/27/2012          ($37,341)    $3,732,221,071
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                                 Continued on next page
                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                          293
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                                (continued)                                                                                                                                                                                       294
            Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                                 TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                                                               Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                                                                        Updated portfolio data from servicer &
                                                                                                                     9/30/2009         ($10,000)     $707,370,000
                                                                                                                                                                        HPDP initial cap
                                                                                                                                                                        Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $502,430,000      $1,209,800,000
                                                                                                                                                                        HAFA initial cap
                                                                                                                                                                        Updated portfolio data from servicer &
                                                                                                                     3/26/2010   ($134,560,000)     $1,075,240,000
                                                                                                                                                                        2MP initial cap
                                                                                                                     7/14/2010   ($392,140,000)      $683,100,000       Updated portfolio data from servicer
                                                                                                                                                                        Transfer of cap to Saxon Mortgage
                                                                                                                     7/16/2010       ($630,000)      $682,470,000
                                                                                                                                                                        Services, Inc.
                                                                                                                                                                        Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                     9/30/2010      $13,100,000      $695,570,000
                                                                                                                                                                        cap

                                                        Financial                                                    9/30/2010      ($8,006,457)     $687,563,543       Updated portfolio data from servicer
            EMC Mortgage                                Instrument for                                              10/15/2010       ($100,000)      $687,463,543       Transfer of cap due to servicing transfer
7/31/2009                                 Purchase                              $707,380,000     N/A         14                                                                                                     $7,569,459        $11,592,937      $16,279,383        $35,441,779
            Corporation, Lewisville, TX                 Home Loan
                                                        Modifications                                               12/15/2010      ($4,400,000)     $683,063,543       Updated portfolio data from servicer
                                                                                                                      1/6/2011            ($802)     $683,062,741       Updated portfolio data from servicer
                                                                                                                     2/16/2011       ($900,000)      $682,162,741       Transfer of cap due to servicing transfer
                                                                                                                     3/16/2011      ($4,000,000)     $678,162,741       Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I October 25, 2012




                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($925)     $678,161,816
                                                                                                                                                                        reallocation
                                                                                                                     5/13/2011   ($122,900,000)      $555,261,816       Transfer of cap due to servicing transfer
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($8,728)     $555,253,088
                                                                                                                                                                        reallocation
                                                                                                                     7/14/2011       ($600,000)      $554,653,088       Transfer of cap due to servicing transfer
                                                                                                                    10/19/2011   ($519,211,309)        $35,441,779      Termination of SPA
                                                                                                                                                                        Updated portfolio data from servicer &
                                                                                                                     9/30/2009        $180,000            $600,000
                                                                                                                                                                        HPDP initial cap
                                                                                                                                                                        Updated portfolio data from servicer &
                                                                                                                    12/30/2009       ($350,000)           $250,000
                                                                                                                                                                        HAFA initial cap
                                                                                                                     3/26/2010          $20,000           $270,000      Updated portfolio data from servicer
                                                        Financial                                                    7/14/2010         ($70,000)          $200,000      Updated portfolio data from servicer
            Lake City Bank,                             Instrument for
8/5/2009                                  Purchase                                  $420,000     N/A                 9/30/2010          $90,111           $290,111      Updated portfolio data from servicer           $3,926              $4,134          $12,873            $20,933
            Warsaw, IN                                  Home Loan
                                                        Modifications
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($3)          $290,108
                                                                                                                                                                        reallocation
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($2)          $290,106
                                                                                                                                                                        reallocation
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                     9/27/2012              ($7)          $290,099
                                                                                                                                                                        reallocation
                                                                                                                                                                        Updated portfolio data from servicer &
                                                                                                                     9/30/2009        $290,000            $430,000
                                                                                                                                                                        HPDP initial cap
                                                                                                                                                                        Updated portfolio data from servicer &
                                                                                                                    12/30/2009        $210,000            $640,000
                                                                                                                                                                        HAFA initial cap
                                                                                                                     3/26/2010        $170,000            $810,000      Updated portfolio data from servicer
                                                                                                                     7/14/2010         ($10,000)          $800,000      Updated portfolio data from servicer
                                                        Financial
            Oakland Municipal Credit                    Instrument for                                               9/30/2010         ($74,722)          $725,278      Updated portfolio data from servicer
8/5/2009                                  Purchase                                  $140,000     N/A         12                                                                                                            $0              $3,568           $6,500            $10,068
            Union, Oakland, CA                          Home Loan                                                     1/6/2011                            $725,277      Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                     3/30/2011                            $725,276
                                                                                                                                                                        reallocation
                                                                                                                     4/13/2011       ($200,000)           $525,276      Transfer of cap due to servicing transfer
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($7)          $525,269
                                                                                                                                                                        reallocation
                                                                                                                     7/22/2011       ($515,201)            $10,068      Termination of SPA
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                         (continued)
           Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                                 TARP Incentive Payments
                                                                       Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                                                               Total TARP
                                   Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date       Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                              9/30/2009   ($121,190,000)      $552,810,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                             12/30/2009     ($36,290,000)     $516,520,000
                                                                                                                                                                 HAFA initial cap
                                                                                                              3/26/2010    $199,320,000       $715,840,000       Updated portfolio data from servicer
                                                                                                              7/14/2010   ($189,040,000)      $526,800,000       Updated portfolio data from servicer
                                                                                                              9/30/2010      $38,626,728      $565,426,728       Updated portfolio data from servicer
                                                                                                             10/15/2010   ($170,800,000)      $394,626,728       Transfer of cap due to servicing transfer

                                                 Financial                                                   12/15/2010     ($22,200,000)     $372,426,728       Updated portfolio data from servicer
           HomEq Servicing,                      Instrument for                                                1/6/2011            ($549)     $372,426,179       Updated portfolio data from servicer
8/5/2009                           Purchase                              $674,000,000     N/A                                                                                                                       $0          $3,036,319       $5,272,500         $8,308,819
           North Highlands, CA                   Home Loan
                                                 Modifications                                                2/16/2011       ($900,000)      $371,526,179       Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                              3/30/2011            ($653)     $371,525,526
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                              6/29/2011          ($6,168)     $371,519,358
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                              6/28/2012          ($4,634)     $371,514,724
                                                                                                                                                                 reallocation
                                                                                                              8/16/2012       ($430,000)      $371,084,724       Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                              9/27/2012         ($12,728)     $371,071,996
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                   295
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)                                                                                                                                                                                        296
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                  TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                               Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                      Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                             Incentives          Incentives       Incentives         Payments
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                   9/30/2009     $313,050,000     $1,087,950,000
                                                                                                                                                                      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009     $275,370,000     $1,363,320,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010     $278,910,000     $1,642,230,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010   ($474,730,000)     $1,167,500,000      Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap to due to servicing
                                                                                                                   8/13/2010        ($700,000)    $1,166,800,000
                                                                                                                                                                      transfer
                                                                                                                                                                      Transfer of cap to due to servicing
                                                                                                                   9/15/2010      ($1,000,000)    $1,165,800,000
                                                                                                                                                                      transfer
                                                                                                                   9/30/2010   ($115,017,236)     $1,050,782,764      Updated portfolio data from servicer
                                                                                                                  10/15/2010        ($800,000)    $1,049,982,764      Transfer of cap due to servicing transfer
                                                                                                                  12/15/2010         $800,000     $1,050,782,764      Updated portfolio data from servicer
                                                                                                                    1/6/2011          ($1,286)    $1,050,781,478      Updated portfolio data from servicer
                                                                                                                   3/16/2011       $8,800,000     $1,059,581,478      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   3/30/2011          ($1,470)    $1,059,580,008
                                                      Financial                                                                                                       reallocation
                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I October 25, 2012




            Litton Loan Servicing LP,                 Instrument for
8/12/2009                               Purchase                              $774,900,000     N/A                 4/13/2011      ($3,300,000)    $1,056,280,008      Transfer of cap due to servicing transfer   $13,441,220        $35,353,126      $27,530,414        $76,324,760
            Houston, TX                               Home Loan
                                                      Modifications                                                5/13/2011        ($300,000)    $1,055,980,008      Transfer of cap due to servicing transfer
                                                                                                                   6/16/2011        ($700,000)    $1,055,280,008      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011         ($13,097)    $1,055,266,911
                                                                                                                                                                      reallocation
                                                                                                                   7/14/2011        ($200,000)    $1,055,066,911      Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011      ($2,900,000)    $1,052,166,911      Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011        ($300,000)    $1,051,866,911      Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011        ($500,000)    $1,051,366,911      Transfer of cap due to servicing transfer
                                                                                                                  12/15/2011      ($2,600,000)    $1,048,766,911      Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012    ($194,800,000)     $853,966,911       Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012        ($400,000)     $853,566,911       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012          ($9,728)     $853,557,183
                                                                                                                                                                      reallocation
                                                                                                                   8/16/2012      ($7,990,000)     $845,567,183       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012         ($26,467)     $845,540,716
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                            (continued)
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                 TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                                               Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                 9/30/2009      ($1,200,000)        $5,010,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                12/30/2009      $30,800,000        $35,810,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                 3/26/2010      $23,200,000        $59,010,000      Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc.
                                                                                                                 6/16/2010       $2,710,000        $61,720,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                 7/14/2010     ($18,020,000)       $43,700,000      Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc.
                                                                                                                 7/16/2010       $6,680,000        $50,380,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                                                                    Transfer of cap to due to servicing
                                                                                                                 8/13/2010       $2,600,000        $52,980,000
                                                                                                                                                                    transfer
                                                                                                                                                                    Transfer of cap to due to servicing
                                                                                                                 9/15/2010       ($100,000)        $52,880,000
                                                                                                                                                                    transfer
                                                                                                                 9/30/2010         $200,000        $53,080,000      Initial FHA-HAMP cap and 2MP initial cap
                                                                                                                 9/30/2010      ($1,423,197)       $51,656,803      Updated portfolio data from servicer
                                                                                                                11/16/2010       $1,400,000        $53,056,803      Transfer of cap due to servicing transfer
                                                                                                                12/15/2010       ($100,000)        $52,956,803      Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($72)       $52,956,731      Updated portfolio data from servicer
                                                                                                                 1/13/2011       $4,100,000        $57,056,731      Transfer of cap due to servicing transfer
                                                                                                                 2/16/2011       ($100,000)        $56,956,731      Transfer of cap due to servicing transfer
                                                    Financial                                                    3/16/2011       $4,000,000        $60,956,731      Transfer of cap due to servicing transfer
            PennyMac Loan Services,                 Instrument for
8/12/2009                             Purchase                                 $6,210,000    N/A                                                                    Updated due to quarterly assessment and     $3,334,072         $5,293,712       $4,199,629        $12,827,412
            LLC, Calasbasa, CA                      Home Loan                                                    3/30/2011             ($94)       $60,956,637
                                                    Modifications                                                                                                   reallocation
                                                                                                                 4/13/2011       ($100,000)        $60,856,637      Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011       $5,800,000        $66,656,637      Transfer of cap due to servicing transfer
                                                                                                                 6/16/2011         $600,000        $67,256,637      Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/29/2011            ($812)       $67,255,825
                                                                                                                                                                    reallocation
                                                                                                                 7/14/2011       $2,500,000        $69,755,825      Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011       $2,800,000        $72,555,825      Transfer of cap due to servicing transfer
                                                                                                                10/14/2011         $300,000        $72,855,825      Transfer of cap due to servicing transfer
                                                                                                                11/16/2011         $900,000        $73,755,825      Transfer of cap due to servicing transfer
                                                                                                                12/15/2011         $800,000        $74,555,825      Transfer of cap due to servicing transfer
                                                                                                                 1/13/2012         $200,000        $74,755,825      Transfer of cap due to servicing transfer
                                                                                                                 3/15/2012       $1,900,000        $76,655,825      Transfer of cap due to servicing transfer
                                                                                                                 4/16/2012         $200,000        $76,855,825      Transfer of cap due to servicing transfer
                                                                                                                 6/14/2012       $1,340,000        $78,195,825      Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/28/2012            ($340)       $78,195,485
                                                                                                                                                                    reallocation
                                                                                                                 7/16/2012       $2,930,000        $81,125,485      Transfer of cap due to servicing transfer
                                                                                                                 8/16/2012         $890,000        $82,015,485      Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 9/27/2012            ($974)       $82,014,511
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                             Continued on next page
                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                      297
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                          (continued)                                                                                                                                                                                       298
            Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                                 TARP Incentive Payments
                                                                        Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                                               Total TARP
                                    Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution     Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                               9/30/2009     ($25,510,000)        $4,220,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                              12/30/2009         $520,000         $4,740,000
                                                                                                                                                                  HAFA initial cap
                                                                                                               3/26/2010       $4,330,000         $9,070,000      Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap from CitiMortgage, Inc.
                                                                                                               4/19/2010         $230,000         $9,300,000
                                                                                                                                                                  due to servicing transfer
                                                                                                               5/19/2010         $850,000        $10,150,000      Initial 2MP cap
                                                                                                               7/14/2010       ($850,000)         $9,300,000      Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap to due to servicing
                                                                                                               9/15/2010         $100,000         $9,400,000
                                                                                                                                                                  transfer
                                                                                                               9/30/2010         $100,000         $9,500,000      Initial FHA-HAMP cap
                                                                                                               9/30/2010      $16,755,064        $26,255,064      Updated portfolio data from servicer
                                                                                                              10/15/2010         $100,000        $26,355,064      Transfer of cap due to servicing transfer
                                                                                                              12/15/2010         $100,000        $26,455,064      Updated portfolio data from servicer
                                                                                                                1/6/2011             ($40)       $26,455,024      Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I October 25, 2012




                                                                                                               1/13/2011         $300,000        $26,755,024      Transfer of cap due to servicing transfer
                                                                                                               2/16/2011         $100,000        $26,855,024      Transfer of cap due to servicing transfer
                                                                                                               3/16/2011       $2,200,000        $29,055,024      Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               3/30/2011             ($52)       $29,054,972
                                                                                                                                                                  reallocation
                                                  Financial
            Servis One, Inc.,                     Instrument for                                               4/13/2011       $1,500,000        $30,554,972      Transfer of cap due to servicing transfer
8/12/2009                           Purchase                               $29,730,000     N/A                                                                                                                 $201,180            $444,680         $289,479           $935,339
            Titusville, PA                        Home Loan
                                                                                                               5/13/2011       $1,000,000        $31,554,972      Transfer of cap due to servicing transfer
                                                  Modifications
                                                                                                               6/16/2011         $100,000        $31,654,972      Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               6/29/2011            ($534)       $31,654,438
                                                                                                                                                                  reallocation
                                                                                                               8/16/2011         $700,000        $32,354,438      Transfer of cap due to servicing transfer
                                                                                                               9/15/2011       ($600,000)        $31,754,438      Transfer of cap due to servicing transfer
                                                                                                              10/14/2011       $4,000,000        $35,754,438      Transfer of cap due to servicing transfer
                                                                                                              11/16/2011         $600,000        $36,354,438      Transfer of cap due to servicing transfer
                                                                                                              12/15/2011         $200,000        $36,554,438      Transfer of cap due to servicing transfer
                                                                                                               1/13/2012         $100,000        $36,654,438      Transfer of cap due to servicing transfer
                                                                                                               2/16/2012       $1,300,000        $37,954,438      Transfer of cap due to servicing transfer
                                                                                                               3/15/2012       $1,100,000        $39,054,438      Transfer of cap due to servicing transfer
                                                                                                               4/16/2012         $800,000        $39,854,438      Transfer of cap due to servicing transfer
                                                                                                               5/16/2012      ($1,080,000)       $38,774,438      Transfer of cap due to servicing transfer
                                                                                                               6/14/2012       $1,560,000        $40,334,438      Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               6/28/2012            ($465)       $40,333,973
                                                                                                                                                                  reallocation
                                                                                                               7/16/2012                $-       $40,333,973      Transfer of cap due to servicing transfer
                                                                                                               8/16/2012          $70,000        $40,403,973      Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                               9/27/2012          ($1,272)       $40,402,701
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                           Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                            (continued)
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                  TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                                               Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                      Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                             Incentives          Incentives       Incentives         Payments
                                                                                                                 10/2/2009    $145,800,000       $814,240,000       HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                12/30/2009   $1,355,930,000     $2,170,170,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                 3/26/2010    $121,180,000      $2,291,350,000      Updated portfolio data from servicer
                                                                                                                 7/14/2010   ($408,850,000)     $1,882,500,000      Updated portfolio data from servicer
                                                                                                                 9/30/2010       $5,500,000     $1,888,000,000      2MP initial cap
                                                    Financial                                                    9/30/2010     ($51,741,163)    $1,836,258,837      Updated portfolio data from servicer
            OneWest Bank, Pasadena,                 Instrument for
8/28/2009                             Purchase                              $668,440,000     N/A                  1/6/2011          ($2,282)    $1,836,256,555      Updated portfolio data from servicer        $30,404,188       $102,819,075      $52,967,116      $186,190,379
            CA                                      Home Loan
                                                    Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                                 3/30/2011          ($2,674)    $1,836,253,881
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/29/2011         ($24,616)    $1,836,229,265
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/28/2012         ($15,481)    $1,836,213,784
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 9/27/2012         ($40,606)    $1,836,173,178
                                                                                                                                                                    reallocation
                                                                                                                 10/2/2009          $70,000           $370,000      HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                12/30/2009       $2,680,000         $3,050,000
                                                                                                                                                                    HAFA initial cap
                                                    Financial
            Stanford Federal Credit                 Instrument for                                               3/26/2010         $350,000         $3,400,000      Updated portfolio data from servicer
8/28/2009                             Purchase                                  $300,000     N/A                                                                                                                        $0                  $0               $0                  $0
            Union, Palo Alto, CA                    Home Loan
                                                    Modifications                                                7/14/2010      ($1,900,000)        $1,500,000      Updated portfolio data from servicer
                                                                                                                 9/30/2010      ($1,209,889)          $290,111      Updated portfolio data from servicer
                                                                                                                 3/23/2010       ($290,111)                 $0      Termination of SPA
                                                                                                                 10/2/2009         $130,000           $700,000      HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                12/30/2009       ($310,000)           $390,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                 3/26/2010       $2,110,000         $2,500,000      Updated portfolio data from servicer
                                                                                                                 7/14/2010       $8,300,000        $10,800,000      Updated portfolio data from servicer
                                                                                                                 9/30/2010       $5,301,172        $16,101,172      Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($22)       $16,101,150      Updated portfolio data from servicer
                                                    Financial
            RoundPoint Mortgage                                                                                  3/16/2011       ($400,000)        $15,701,150      Transfer of cap due to servicing transfer
                                                    Instrument for
8/28/2009   Servicing Corporation,    Purchase                                  $570,000     N/A                                                                                                                   $98,460            $265,265         $209,951           $573,675
                                                    Home Loan
            Charlotte, NC                                                                                                                                           Updated due to quarterly assessment and
                                                    Modifications                                                3/30/2011             ($25)       $15,701,125
                                                                                                                                                                    reallocation
                                                                                                                 4/13/2011               $0        $15,701,125      Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/29/2011            ($232)       $15,700,893
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/28/2012            ($174)       $15,700,719
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 9/27/2012            ($479)       $15,700,240
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                       299
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                                (continued)                                                                                                                                                                                       300
              Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                 TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                                                               Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date          Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                     10/2/2009        $130,000            $690,000      HPDP initial cap
                                                                                                                                                                        Updated portfolio data from servicer &
                                                                                                                    12/30/2009       $1,040,000         $1,730,000
                                                                                                                                                                        HAFA initial cap
                                                                                                                     3/26/2010      ($1,680,000)           $50,000      Updated portfolio data from servicer
                                                                                                                     5/12/2010       $1,260,000         $1,310,000      Updated portfolio data from servicer

                                                        Financial                                                    7/14/2010      ($1,110,000)          $200,000      Updated portfolio data from servicer
                                                        Instrument for                                               9/30/2010        $100,000            $300,000      Initial RD-HAMP
9/2/2009      Horicon Bank, Horicon, WI   Purchase                                  $560,000     N/A                                                                                                                   $4,348             $11,400           $7,570            $23,318
                                                        Home Loan
                                                        Modifications                                                9/30/2010          ($9,889)          $290,111      Updated portfolio data from servicer
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($3)          $290,108
                                                                                                                                                                        reallocation
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                     6/28/2012              ($2)          $290,106
                                                                                                                                                                        reallocation
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                     9/27/2012              ($7)          $290,099
                                                                                                                                                                        reallocation
                                                                                                                     10/2/2009       $1,310,000         $7,310,000      HPDP initial cap
                                                                                                                                                                        Updated portfolio data from servicer &
                                                                                                                    12/30/2009      ($3,390,000)        $3,920,000
                                                                                                                                                                        HAFA initial cap
                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I October 25, 2012




                                                                                                                     3/26/2010        $410,000          $4,330,000      Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($730,000)         $3,600,000      Updated portfolio data from servicer
                                                                                                                     9/15/2010       $4,700,000         $8,300,000      Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010        $117,764          $8,417,764      Updated portfolio data from servicer
                                                                                                                    11/16/2010        $800,000          $9,217,764      Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010       $2,700,000        $11,917,764      Updated portfolio data from servicer
                                                                                                                      1/6/2011             ($17)       $11,917,747      Updated portfolio data from servicer
                                                                                                                     1/13/2011        $700,000         $12,617,747      Transfer of cap due to servicing transfer
                                                        Financial
9/2/2009 as   Vantium Capital, Inc.dba                                                                               2/16/2011       $1,800,000        $14,417,747      Transfer of cap due to servicing transfer
                                                        Instrument for
amended on    Acqura Loan Services,       Purchase                                 $6,000,000    N/A         10                                                                                                      $207,151            $420,180         $347,419           $974,750
                                                        Home Loan
8/27/2010     Plano, TX                                                                                                                                                 Updated due to quarterly assessment and
                                                        Modifications                                                3/30/2011             ($19)       $14,417,728
                                                                                                                                                                        reallocation
                                                                                                                     4/13/2011        $300,000         $14,717,728      Transfer of cap due to servicing transfer
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                     6/29/2011            ($189)       $14,717,539
                                                                                                                                                                        reallocation
                                                                                                                     8/16/2011        $300,000         $15,017,539      Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011        $100,000         $15,117,539      Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011        $100,000         $15,217,539      Transfer of cap due to servicing transfer
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                     6/28/2012            ($147)       $15,217,392
                                                                                                                                                                        reallocation
                                                                                                                     7/16/2012         ($10,000)       $15,207,392      Transfer of cap due to servicing transfer
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                     9/27/2012            ($413)       $15,206,979
                                                                                                                                                                        reallocation
                                                                                                                                                                                                                                                                 Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                             (continued)
           Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                               TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                                             Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s   Lenders/Investors        Servicers           Incentive
Date       Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                          Incentives          Incentives       Incentives          Payments
                                                                                                                  10/2/2009         $280,000         $1,530,000      HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                 12/30/2009       ($750,000)           $780,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                  3/26/2010         $120,000           $900,000      Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($300,000)           $600,000      Updated portfolio data from servicer
                                                                                                                  9/30/2010         $270,334           $870,334      Updated portfolio data from servicer
                                                     Financial
           Central Florida Educators                                                                               1/6/2011                            $870,333      Updated portfolio data from servicer
                                                     Instrument for
9/9/2009   Federal Credit Union,       Purchase                                 $1,250,000    N/A                                                                                                                $54,770             $94,331         $125,747           $274,847
                                                     Home Loan
           Lake May, FL                                                                                                                                              Updated due to quarterly assessment and
                                                     Modifications                                                3/30/2011                            $870,332
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($5)          $870,327
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012          $21,717           $892,044
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012         $190,077         $1,082,121
                                                                                                                                                                     reallocation
                                                                                                                  10/2/2009      $24,920,000      $139,140,000       HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $49,410,000      $188,550,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                  3/26/2010      $41,830,000      $230,380,000       Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($85,780,000)     $144,600,000       Updated portfolio data from servicer
                                                                                                                  9/30/2010      $36,574,444      $181,174,444       Updated portfolio data from servicer
                                                     Financial
           U.S. Bank National                                                                                      1/6/2011            ($160)     $181,174,284       Updated portfolio data from servicer
                                                     Instrument for
9/9/2009   Association,                Purchase                              $114,220,000     N/A                                                                                                              $6,658,161        $18,582,395      $14,391,376        $39,631,933
                                                     Home Loan
           Owensboro, KY                                                                                                                                             Updated due to quarterly assessment and
                                                     Modifications                                                3/30/2011            ($172)     $181,174,112
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($1,431)     $181,172,681
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012            ($746)     $181,171,935
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012          ($1,926)     $181,170,009
                                                                                                                                                                     reallocation
                                                                                                                  10/2/2009         $950,000         $5,300,000      HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                 12/30/2009       $5,700,000        $11,000,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                  3/26/2010         $740,000        $11,740,000      Updated portfolio data from servicer
                                                                                                                  7/14/2010      ($1,440,000)       $10,300,000      Updated portfolio data from servicer
                                                                                                                  9/30/2010      ($6,673,610)        $3,626,390      Updated portfolio data from servicer
                                                     Financial
           CUC Mortgage                              Instrument for                                                1/6/2011              ($5)        $3,626,385      Updated portfolio data from servicer
9/9/2009                               Purchase                                 $4,350,000    N/A                                                                                                                $32,380             $90,612          $70,722           $193,714
           Corporation, Albany, NY                   Home Loan
                                                                                                                                                                     Updated due to quarterly assessment and
                                                     Modifications                                                3/30/2011              ($6)        $3,626,379
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($52)        $3,626,327
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012             ($38)        $3,626,289
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012            ($107)        $3,626,182
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                     301
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                            (continued)                                                                                                                                                                                       302
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                 TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                                              Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives         Payments
                                                                                                                 10/2/2009         $460,000         $2,530,000      HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                12/30/2009       $2,730,000         $5,260,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                 3/26/2010      $13,280,000        $18,540,000      Updated portfolio data from servicer
                                                                                                                 7/14/2010     ($13,540,000)        $5,000,000      Updated portfolio data from servicer
                                                                                                                 9/30/2010       $1,817,613         $6,817,613      Updated portfolio data from servicer
                                                    Financial
            ORNL Federal Credit                     Instrument for                                                1/6/2011             ($10)        $6,817,603      Updated portfolio data from servicer
9/11/2009                             Purchase                                 $2,070,000    N/A                                                                                                                   $6,451             $13,746          $16,251            $36,449
            Union, Oak Ridge, TN                    Home Loan
                                                                                                                                                                    Updated due to quarterly assessment and
                                                    Modifications                                                3/30/2011             ($12)        $6,817,591
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/29/2011            ($115)        $6,817,476
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/28/2012             ($86)        $6,817,390
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 9/27/2012            ($236)        $6,817,154
                                                                                                                                                                    reallocation
                                                                                                                 10/2/2009          $60,000           $310,000      HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                12/30/2009         ($80,000)          $230,000
                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I October 25, 2012




                                                                                                                                                                    HAFA initial cap
                                                                                                                 3/26/2010         $280,000           $510,000      Updated portfolio data from servicer

                                                    Financial                                                    7/14/2010       ($410,000)           $100,000      Updated portfolio data from servicer
            Allstate Mortgage Loans
                                                    Instrument for                                               9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
9/11/2009   & Investments, Inc.,      Purchase                                  $250,000     N/A                                                                                                                   $3,329              $7,821           $6,329            $17,480
                                                    Home Loan
            Ocala, FL
                                                    Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                                 6/29/2011                            $145,055
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/28/2012                            $145,054
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 9/27/2012              ($2)          $145,052
                                                                                                                                                                    reallocation
                                                                                                                 10/2/2009          $70,000           $350,000      HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                12/30/2009         $620,000           $970,000
                                                                                                                                                                    HAFA initial cap
                                                    Financial                                                    3/26/2010         $100,000         $1,070,000      Updated portfolio data from servicer
            Metropolitan National                   Instrument for
9/11/2009                             Purchase                                  $280,000     N/A                                                                                                                       $0                  $0               $0                  $0
            Bank, Little Rock, AR                   Home Loan                                                    7/14/2010       ($670,000)           $400,000      Updated portfolio data from servicer
                                                    Modifications
                                                                                                                 9/30/2010          $35,167           $435,167      Updated portfolio data from servicer
                                                                                                                  1/6/2011                            $435,166      Updated portfolio data from servicer
                                                                                                                 1/26/2011       ($435,166)                 $0      Termination of SPA
                                                                                                                 10/2/2009       $6,010,000        $33,520,000      HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                12/30/2009     ($19,750,000)       $13,770,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                 3/26/2010      ($4,780,000)        $8,990,000      Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($2,390,000)        $6,600,000      Updated portfolio data from servicer
                                                                                                                 9/30/2010       $2,973,670         $9,573,670      Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($3)        $9,573,667      Updated portfolio data from servicer
                                                    Financial
            Franklin Credit                                                                                      2/16/2011      ($1,800,000)        $7,773,667      Transfer of cap due to servicing transfer
                                                    Instrument for
9/11/2009   Management Corporation,   Purchase                               $27,510,000     N/A                                                                                                                 $268,267            $533,823         $645,324         $1,447,414
                                                    Home Loan
            Jersey City, NJ                                                                                                                                         Updated due to quarterly assessment and
                                                    Modifications                                                3/30/2011              ($6)        $7,773,661
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/29/2011             ($61)        $7,773,600
                                                                                                                                                                    reallocation
                                                                                                                10/14/2011       ($100,000)         $7,673,600      Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 6/28/2012             ($58)        $7,673,542
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                 9/27/2012            ($164)        $7,673,378
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                 TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                              Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives         Payments
                                                                                                                   10/2/2009          $90,000           $500,000      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $1,460,000         $1,960,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010        $160,000          $2,120,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($120,000)         $2,000,000      Updated portfolio data from servicer
                                                      Financial
            Bay Federal Credit Union,                 Instrument for                                               9/30/2010      ($1,419,778)          $580,222      Updated portfolio data from servicer
9/16/2009                               Purchase                                  $410,000     N/A                                                                                                                       $0                  $0               $0                  $0
            Capitola, CA                              Home Loan
                                                      Modifications                                                 1/6/2011                            $580,221      Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   3/30/2011                            $580,220
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($8)          $580,212
                                                                                                                                                                      reallocation
                                                                                                                   1/25/2012       ($580,212)                 $0      Termination of SPA
                                                                                                                   10/2/2009        $960,000          $5,350,000      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009      ($3,090,000)        $2,260,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010        $230,000          $2,490,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010       $5,310,000         $7,800,000      Updated portfolio data from servicer
                                                                                                                   9/30/2010        $323,114          $8,123,114      Updated portfolio data from servicer
                                                                                                                    1/6/2011             ($12)        $8,123,102      Updated portfolio data from servicer
                                                                                                                   3/16/2011        $600,000          $8,723,102      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($16)        $8,723,086
                                                                                                                                                                      reallocation
                                                      Financial
            AMS Servicing, LLC,                       Instrument for                                               4/13/2011        $200,000          $8,923,086      Transfer of cap due to servicing transfer
9/23/2009                               Purchase                                 $4,390,000    N/A                                                                                                                     $917             $10,679          $18,600            $30,196
            Buffalo, NY                               Home Loan
                                                      Modifications                                                5/13/2011        $100,000          $9,023,086      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($153)        $9,022,933
                                                                                                                                                                      reallocation
                                                                                                                   9/15/2011        $100,000          $9,122,933      Transfer of cap due to servicing transfer
                                                                                                                  11/16/2011        $100,000          $9,222,933      Transfer of cap due to servicing transfer
                                                                                                                   4/16/2012       $1,100,000        $10,322,933      Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012        $650,000         $10,972,933      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012            ($136)       $10,972,797
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012            ($347)       $10,972,450
                                                                                                                                                                      reallocation
                                                                                                                   10/2/2009          $90,000           $480,000      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009        $940,000          $1,420,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010       ($980,000)           $440,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($140,000)           $300,000      Updated portfolio data from servicer
                                                                                                                   9/30/2010       $1,150,556         $1,450,556      Updated portfolio data from servicer
                                                      Financial
            Schools Financial Credit                  Instrument for                                                1/6/2011              ($2)        $1,450,554      Updated portfolio data from servicer
9/23/2009                               Purchase                                  $390,000     N/A                                                                                                                  $12,917             $40,478          $26,500            $79,894
            Union, Sacramento, CA                     Home Loan
                                                                                                                                                                      Updated due to quarterly assessment and
                                                      Modifications                                                3/30/2011              ($2)        $1,450,552
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($22)        $1,450,530
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($16)        $1,450,514
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012             ($44)        $1,450,470
                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I October 25, 2012




                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        303
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)                                                                                                                                                                                     304
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                               TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                          Incentives          Incentives       Incentives          Payments
                                                                                                                   10/2/2009          $60,000           $290,000      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009         ($10,000)          $280,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010        $130,000            $410,000      Updated portfolio data from servicer

                                                      Financial                                                    7/14/2010       ($110,000)           $300,000      Updated portfolio data from servicer
            Glass City Federal Credit                 Instrument for                                               9/30/2010          ($9,889)          $290,111      Updated portfolio data from servicer
9/23/2009                               Purchase                                  $230,000     N/A                                                                                                                 $3,000              $2,292           $5,000            $10,292
            Union, Maumee, OH                         Home Loan
                                                      Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($3)          $290,108
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($2)          $290,106
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012              ($7)          $290,099
                                                                                                                                                                      reallocation
                                                                                                                   10/2/2009          $10,000            $40,000      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009        $120,000            $160,000
                                                                                                                                                                      HAFA initial cap
                                                      Financial
            Central Jersey Federal
                                                      Instrument for                                               3/26/2010          $10,000           $170,000      Updated portfolio data from servicer
9/23/2009   Credit Union,               Purchase                                     30,000    N/A                                                                                                                     $0                  $0               $0                  $0
                                                      Home Loan
            Woodbridge, NJ                                                                                         7/14/2010         ($70,000)          $100,000      Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I October 25, 2012




                                                                                                                   9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                  10/29/2010       ($145,056)                 $0      Termination of SPA
                                                                                                                   10/2/2009          $60,000           $300,000      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009        $350,000            $650,000
                                                                                                                                                                      HAFA initial cap
                                                                                                                   3/26/2010       $1,360,000         $2,010,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($1,810,000)          $200,000      Updated portfolio data from servicer
                                                      Financial
                                                                                                                   9/30/2010        $235,167            $435,167      Updated portfolio data from servicer
            Yadkin Valley Bank,                       Instrument for
9/23/2009                               Purchase                                  $240,000     N/A                                                                                                                $12,634             $17,223          $31,484            $61,341
            Elkin, NC                                 Home Loan                                                     1/6/2011                            $435,166      Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($4)          $435,162
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($3)          $435,159
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012              ($7)          $435,152
                                                                                                                                                                      reallocation
                                                                                                                   10/2/2009        $100,000            $540,000      HPDP initial cap
                                                                                                                                                                      Updated portfolio data from servicer &
                                                                                                                  12/30/2009          $20,000           $560,000
                                                                                                                                                                      HAFA initial cap

                                                      Financial                                                    3/26/2010       ($290,000)           $270,000      Updated portfolio data from servicer
                                                      Instrument for
9/25/2009   SEFCU, Albany, NY           Purchase                                  $440,000     N/A                 7/14/2010         ($70,000)          $200,000      Updated portfolio data from servicer             $0                  $0               $0                  $0
                                                      Home Loan
                                                      Modifications                                                9/30/2010         ($54,944)          $145,056      Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011                            $145,055
                                                                                                                                                                      reallocation
                                                                                                                   4/11/2012       ($145,055)                 $0      Termination of SPA
                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                               (continued)
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                 TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                                                               Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                                                                       Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $1,030,000         $1,600,000
                                                                                                                                                                       HAFA initial cap
                                                                                                                    3/26/2010       ($880,000)           $720,000      Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($320,000)           $400,000      Updated portfolio data from servicer
                                                                                                                    9/30/2010         $180,222           $580,222 Updated portfolio data from servicer
                                                       Financial                                                     1/6/2011                            $580,221      Updated portfolio data from servicer
             Great Lakes Credit Union,                 Instrument for
10/14/2009                               Purchase                                  $570,000     N/A                                                                    Updated due to quarterly assessment and        $5,917             $10,557           $9,100            $25,574
             North Chicago, IL                         Home Loan                                                    3/30/2011                            $580,220
                                                       Modifications                                                                                                   reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($8)          $580,212
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    6/28/2012              ($6)          $580,206
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    9/27/2012             ($17)          $580,189
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated portfolio data from servicer &
                                                                                                                   12/30/2009      ($2,900,000)        $1,960,000
                                                                                                                                                                       HAFA initial cap
                                                       Financial                                                    3/26/2010      ($1,600,000)          $360,000      Updated portfolio data from servicer
             Mortgage Clearing                         Instrument for
10/14/2009                               Purchase                                 $4,860,000    N/A                                                                                                                       $0                  $0               $0                  $0
             Corporation, Tulsa, OK                    Home Loan                                                    7/14/2010       ($260,000)           $100,000      Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                     3/9/2011       ($145,056)                 $0      Termination of SPA
                                                                                                                    1/22/2010          $20,000           $430,000      Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010         $400,000           $830,000      Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($430,000)           $400,000      Updated portfolio data from servicer
                                                                                                                    9/30/2010         $180,222           $580,222      Updated portfolio data from servicer
                                                                                                                     1/6/2011                            $580,221      Updated portfolio data from servicer
                                                       Financial
             United Bank Mortgage
                                                       Instrument for                                                                                                  Updated due to quarterly assessment and
10/21/2009   Corporation,                Purchase                                  $410,000     N/A                 3/30/2011                            $580,220                                                    $24,901             $50,415          $46,446           $121,763
                                                       Home Loan                                                                                                       reallocation
             Grand Rapids, MI
                                                       Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($5)          $580,215
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    6/28/2012              ($4)          $580,211
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    9/27/2012             ($11)          $580,200
                                                                                                                                                                       reallocation
                                                                                                                    1/22/2010       $4,370,000        $98,030,000      Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010      $23,880,000      $121,910,000       Updated portfolio data from servicer
                                                                                                                    7/14/2010     ($16,610,000)     $105,300,000       Updated portfolio data from servicer
                                                                                                                    9/30/2010       $1,751,033      $107,051,033       Updated portfolio data from servicer
                                                                                                                     1/6/2011             ($77)     $107,050,956       Updated portfolio data from servicer
                                                                                                                    3/16/2011      ($9,900,000)       $97,150,956      Transfer of cap due to servicing transfer
                                                       Financial
             Bank United, Miami                        Instrument for                                                                                                  Updated due to quarterly assessment and
10/23/2009                               Purchase                               $93,660,000     N/A                 3/30/2011             ($88)       $97,150,868                                                  $4,549,455        $12,339,904       $8,056,726        $24,946,085
             Lakes, FL                                 Home Loan                                                                                                       reallocation
                                                       Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    6/29/2011            ($773)       $97,150,095
                                                                                                                                                                       reallocation
                                                                                                                    3/15/2012      ($1,400,000)       $95,750,095      Transfer of cap due to servicing transfer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    6/28/2012            ($277)       $95,749,818
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    9/27/2012            ($549)       $95,749,269
                                                                                                                                                                       reallocation
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                         305
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)                                                                                                                                                                                     306
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                               TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                            Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s   Lenders/Investors        Servicers          Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                          Incentives          Incentives       Incentives         Payments
                                                                                                                  1/22/2010           $40,000           $800,000      Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010        ($760,000)            $40,000      Updated portfolio data from servicer
                                                                                                                  5/12/2010        $2,630,000         $2,670,000      Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($770,000)         $1,900,000      Updated portfolio data from servicer
                                                                                                                  9/30/2010         $565,945          $2,465,945      Updated portfolio data from servicer
                                                      Financial                                                    1/6/2011               ($4)        $2,465,941      Updated portfolio data from servicer
             IC Federal Credit Union,                 Instrument for
10/23/2009                              Purchase                                  $760,000     N/A                                                                                                                $12,417             $25,120          $24,000            $61,537
             Fitchburg, MA                            Home Loan                                                                                                       Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($4)        $2,465,937
                                                      Modifications                                                                                                   reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($40)        $2,465,897
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($29)        $2,465,868
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  9/27/2012              ($80)        $2,465,788
                                                                                                                                                                      reallocation
                                                      Financial
             Harleysville National
                                                      Instrument for
10/28/2009   Bank & Trust Company,      Purchase                                 $1,070,000    N/A                4/21/2010       ($1,070,000)                $0      Termination of SPA                               $0                  $0               $0                  $0
                                                      Home Loan
             Harleysville, PA
                                                      Modifications
                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I October 25, 2012




                                                      Financial
             Members Mortgage
                                                      Instrument for
10/28/2009   Company, Inc,              Purchase                                  $510,000     N/A                4/21/2010        ($510,000)                 $0      Termination of SPA                               $0                  $0               $0                  $0
                                                      Home Loan
             Woburn, MA
                                                      Modifications
                                                                                                                  1/22/2010           $10,000            $80,000      Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010           $10,000            $90,000      Updated portfolio data from servicer

                                                      Financial                                                   7/14/2010           $10,000           $100,000      Updated portfolio data from servicer
             DuPage Credit Union,                     Instrument for                                              9/30/2010           $45,056           $145,056      Updated portfolio data from servicer
10/30/2009                              Purchase                                    $70,000    N/A                                                                                                                 $2,514             $19,127           $7,814            $29,456
             Naperville, IL                           Home Loan
                                                      Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                                  6/29/2011                             $145,055
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  9/27/2012                             $145,054
                                                                                                                                                                      reallocation
                                                                                                                  1/22/2010           $40,000           $740,000      Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010           $50,000           $790,000      Updated portfolio data from servicer
                                                                                                                  7/14/2010        $1,310,000         $2,100,000      Updated portfolio data from servicer
                                                                                                                  9/30/2010           $75,834         $2,175,834      Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($3)        $2,175,831      Updated portfolio data from servicer
                                                      Financial
             Los Alamos National                      Instrument for                                                                                                  Updated due to quarterly assessment and
11/6/2009                               Purchase                                  $700,000     N/A                3/30/2011               ($4)        $2,175,827                                                   $9,828             $18,194          $23,341            $51,362
             Bank, Los Alamos, NM                     Home Loan                                                                                                       reallocation
                                                      Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($35)        $2,175,792
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($26)        $2,175,766
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  9/27/2012              ($70)        $2,175,696
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                               (continued)
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                 TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                                                               Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                   1/22/2010         $890,000         $19,850,000      Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        $3,840,000        $23,690,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($2,890,000)       $20,800,000      Updated portfolio data from servicer
                                                                                                                   9/30/2010        $9,661,676        $30,461,676      Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($46)       $30,461,630      Updated portfolio data from servicer
                                                                                                                   1/13/2011        $1,600,000        $32,061,630      Transfer of cap due to servicing transfer
                                                                                                                   2/16/2011        $1,400,000        $33,461,630      Transfer of cap due to servicing transfer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($58)       $33,461,572
                                                                                                                                                                       reallocation
                                                                                                                   4/13/2011         $100,000         $33,561,572      Transfer of cap due to servicing transfer
                                                       Financial
                                                                                                                   5/13/2011         $100,000         $33,661,572      Transfer of cap due to servicing transfer
             Quantum Servicing                         Instrument for
11/18/2009                               Purchase                               $18,960,000     N/A                                                                                                                 $134,393            $335,508         $183,984           $653,885
             Corporation, Tampa, FL                    Home Loan                                                   6/16/2011         $800,000         $34,461,572      Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($559)       $34,461,013
                                                                                                                                                                       reallocation
                                                                                                                   7/14/2011         $300,000         $34,761,013      Transfer of cap due to servicing transfer
                                                                                                                   8/16/2011         $200,000         $34,961,013      Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011         $100,000         $35,061,013      Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012         $100,000         $35,161,013      Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012         $330,000         $35,491,013      Transfer of cap due to servicing transfer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($428)       $35,490,585
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   9/27/2012           ($1,184)       $35,489,401
                                                                                                                                                                       reallocation
                                                                                                                   1/22/2010           $80,000         $1,750,000      Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010         $330,000          $2,080,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,080,000)        $1,000,000      Updated portfolio data from servicer
                                                                                                                   9/30/2010         $160,445          $1,160,445      Updated portfolio data from servicer
                                                                                                                    1/6/2011                           $1,160,444      Updated portfolio data from servicer
                                                       Financial
             Hillsdale County National                 Instrument for                                                                                                  Updated due to quarterly assessment and
11/18/2009                               Purchase                                 $1,670,000    N/A                3/30/2011               ($2)        $1,160,442                                                    $18,110             $24,956          $40,529            $83,596
             Bank, Hillsdale, MI                       Home Loan                                                                                                       reallocation
                                                       Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($16)        $1,160,426
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($12)        $1,160,414
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   9/27/2012              ($33)        $1,160,381
                                                                                                                                                                       reallocation
                                                                                                                   1/22/2010                $0            $20,000      Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010          ($10,000)           $10,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010           $90,000           $100,000      Updated portfolio data from servicer
                                                       Financial                                                   9/30/2010           $45,056           $145,056      Updated portfolio data from servicer
             QLending, Inc.,                           Instrument for
11/18/2009                               Purchase                                    $20,000    N/A                                                                    Updated due to quarterly assessment and            $0                  $0               $0                  $0
             Coral Gables, FL                          Home Loan                                                   6/29/2011                             $145,055
                                                       Modifications                                                                                                   reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   6/28/2012                             $145,054
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   9/27/2012               ($2)          $145,052
                                                                                                                                                                       reallocation
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                         307
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                            (continued)                                                                                                                                                                                       308
             Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                                 TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                                               Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date         Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                1/22/2010          $950,000        $21,310,000      Updated HPDP cap & HAFA initial cap
                                                                                                                3/26/2010      ($17,880,000)        $3,430,000      Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc.
                                                                                                                6/16/2010        $1,030,000         $4,460,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                7/14/2010       ($1,160,000)        $3,300,000      Updated portfolio data from servicer
                                                                                                                8/13/2010          $800,000         $4,100,000      Transfer of cap due to servicing transfer
                                                                                                                9/30/2010          $200,000         $4,300,000      Initial FHA-HAMP cap and initial RD-HAMP
                                                                                                                9/30/2010        $1,357,168         $5,657,168      Updated portfolio data from servicer
                                                                                                                 1/6/2011                           $5,657,167      Updated portfolio data from servicer
                                                                                                                3/16/2011        $5,700,000        $11,357,167      Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                3/30/2011               ($6)       $11,357,161
                                                                                                                                                                    reallocation
                                                                                                                4/13/2011        $7,300,000        $18,657,161      Transfer of cap due to servicing transfer
                                                    Financial
             Marix Servicing, LLC,                  Instrument for                                              5/13/2011          $300,000        $18,957,161      Transfer of cap due to servicing transfer
11/25/2009                            Purchase                               $20,360,000     N/A                                                                                                                 $352,196            $970,197         $839,633         $2,162,025
             Phoenix, AZ                            Home Loan
                                                    Modifications                                               6/16/2011          $900,000        $19,857,161      Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I October 25, 2012




                                                                                                                6/29/2011             ($154)       $19,857,007
                                                                                                                                                                    reallocation
                                                                                                                7/14/2011          $100,000        $19,957,007      Transfer of cap due to servicing transfer
                                                                                                                8/16/2011          $300,000        $20,257,007      Transfer of cap due to servicing transfer
                                                                                                                1/13/2012       ($1,500,000)       $18,757,007      Transfer of cap due to servicing transfer
                                                                                                                2/16/2012       ($2,100,000)       $16,657,007      Transfer of cap due to servicing transfer
                                                                                                                4/16/2012       ($1,300,000)       $15,357,007      Transfer of cap due to servicing transfer
                                                                                                                6/14/2012       ($8,350,000)        $7,007,007      Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                6/28/2012              ($38)        $7,006,969
                                                                                                                                                                    reallocation
                                                                                                                8/16/2012          ($90,000)        $6,916,969      Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                9/27/2012             ($103)        $6,916,866
                                                                                                                                                                    reallocation
                                                    Financial
             Home Financing Center,                 Instrument for
11/25/2009                            Purchase                                  $230,000     N/A                4/21/2010        ($230,000)                 $0      Termination of SPA                                 $0                  $0               $0                  $0
             Inc, Coral Gables FL                   Home Loan
                                                    Modifications
                                                                                                                1/22/2010           $50,000         $1,330,000      Updated HPDP cap & HAFA initial cap
                                                                                                                3/26/2010        $1,020,000         $2,350,000      Updated portfolio data from servicer
                                                                                                                7/14/2010        ($950,000)         $1,400,000      Updated portfolio data from servicer
                                                                                                                9/30/2010           $50,556         $1,450,556      Updated portfolio data from servicer
                                                    Financial
                                                                                                                 1/6/2011               ($2)        $1,450,554      Updated portfolio data from servicer
             First Keystone Bank,                   Instrument for
11/25/2009                            Purchase                                 $1,280,000    N/A         12                                                                                                        $2,776              $3,423           $8,718            $14,917
             Media, PA                              Home Loan                                                                                                       Updated due to quarterly assessment and
                                                    Modifications                                               3/30/2011               ($2)        $1,450,552
                                                                                                                                                                    reallocation
                                                                                                                6/16/2011        ($100,000)         $1,350,552      Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                6/29/2011              ($21)        $1,350,531
                                                                                                                                                                    reallocation
                                                                                                                7/22/2011       ($1,335,614)           $14,917      Termination of SPA
                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                           (continued)
            Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                               TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                                             Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                          Incentives          Incentives       Incentives          Payments
                                                                                                               1/22/2010           $10,000           $390,000      Updated HPDP cap & HAFA initial cap
                                                                                                               3/26/2010          $520,000           $910,000      Updated portfolio data from servicer
                                                                                                               7/14/2010        ($810,000)           $100,000      Updated portfolio data from servicer
                                                   Financial                                                   9/30/2010           $45,056           $145,056      Updated portfolio data from servicer
            Community Bank & Trust
                                                   Instrument for
12/4/2009   Company,                 Purchase                                  $380,000     N/A                                                                    Updated due to quarterly assessment and          $0                  $0               $0                  $0
                                                   Home Loan                                                   6/29/2011                             $145,055
            Clarks Summit, PA                                                                                                                                      reallocation
                                                   Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               6/28/2012                             $145,054
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               9/27/2012               ($2)          $145,052
                                                                                                                                                                   reallocation
                                                                                                               1/22/2010          $440,000         $9,870,000      Updated HPDP cap & HAFA initial cap
                                                                                                               3/26/2010       $14,480,000        $24,350,000      Updated portfolio data from servicer
                                                                                                               5/26/2010      ($24,200,000)          $150,000      Updated portfolio data from servicer
                                                                                                               7/14/2010          $150,000           $300,000      Updated portfolio data from servicer
                                                   Financial
            Idaho Housing and                                                                                  9/30/2010           ($9,889)          $290,111      Updated portfolio data from servicer
                                                   Instrument for
12/4/2009   Finance Association,     Purchase                                 $9,430,000    N/A                                                                                                                $14,683             $15,047          $21,933            $51,664
                                                   Home Loan
            Boise, ID                                                                                                                                              Updated due to quarterly assessment and
                                                   Modifications                                               6/29/2011               ($3)          $290,108
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               6/28/2012               ($2)          $290,106
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               9/27/2012               ($6)          $290,100
                                                                                                                                                                   reallocation
                                                                                                               1/22/2010           $10,000           $370,000      Updated HPDP cap & HAFA initial cap
                                                                                                               3/26/2010          $850,000         $1,220,000      Updated portfolio data from servicer

                                                   Financial                                                   7/14/2010        ($120,000)         $1,100,000      Updated portfolio data from servicer
            Spirit of Alaska
                                                   Instrument for
12/9/2009   Federal Credit Union,    Purchase                                  $360,000     N/A                9/30/2010          $100,000         $1,200,000      Initial FHA-HAMP cap                             $0                  $0               $0                  $0
                                                   Home Loan
            Fairbanks, AK
                                                   Modifications                                               9/30/2010          $105,500         $1,305,500      Updated portfolio data from servicer
                                                                                                                1/6/2011               ($2)        $1,305,498      Updated portfolio data from servicer
                                                                                                               2/17/2011       ($1,305,498)                $0      Termination of SPA
                                                                                                               1/22/2010           $70,000         $1,660,000      Updated HPDP cap & HAFA initial cap
                                                                                                               3/26/2010        ($290,000)         $1,370,000      Updated portfolio data from servicer
                                                                                                               7/14/2010        ($570,000)           $800,000      Updated portfolio data from servicer

                                                   Financial                                                   9/30/2010           $70,334           $870,334      Updated portfolio data from servicer
            American Eagle
                                                   Instrument for                                               1/6/2011                             $870,333      Updated portfolio data from servicer
12/9/2009   Federal Credit Union,    Purchase                                 $1,590,000    N/A                                                                                                                     $0                  $0               $0                  $0
                                                   Home Loan
            East Hartford, CT
                                                   Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                               3/30/2011                             $870,332
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               6/29/2011              ($13)          $870,319
                                                                                                                                                                   reallocation
                                                                                                               1/25/2012        ($870,319)                 $0      Termination of SPA
                                                                                                               1/22/2010           $90,000         $1,970,000      Updated HPDP cap & HAFA initial cap
                                                                                                               3/26/2010        $1,110,000         $3,080,000      Updated portfolio data from servicer
                                                                                                               7/14/2010       ($1,180,000)        $1,900,000      Updated portfolio data from servicer
                                                                                                               9/30/2010          $275,834         $2,175,834      Updated portfolio data from servicer
                                                                                                                1/6/2011               ($2)        $2,175,832      Updated portfolio data from servicer
                                                   Financial
            Silver State
                                                   Instrument for                                                                                                  Updated due to quarterly assessment and
12/9/2009   Schools Credit Union,    Purchase                                 $1,880,000    N/A                3/30/2011               ($3)        $2,175,829                                                  $40,356            $168,611          $69,189           $278,156
                                                   Home Loan                                                                                                       reallocation
            Las Vegas, NV
                                                   Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               6/29/2011              ($26)        $2,175,803
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I October 25, 2012




                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               6/28/2012              ($21)        $2,175,782
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                               9/27/2012              ($57)        $2,175,725
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                          Continued on next page
                                                                                                                                                                                                                                                                                   309
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                           (continued)                                                                                                                                                                                     310
            Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                               TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                                            Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                          Incentives          Incentives       Incentives         Payments
                                                                                                                1/22/2010        $140,000          $3,080,000      Updated HPDP cap & HAFA initial cap
                                                                                                                3/26/2010       $6,300,000         $9,380,000      Updated portfolio data from servicer
                                                                                                                7/14/2010      ($1,980,000)        $7,400,000      Updated portfolio data from servicer
                                                                                                                9/30/2010      ($6,384,611)        $1,015,389      Updated portfolio data from servicer
                                                                                                                 1/6/2011                          $1,015,388      Updated portfolio data from servicer
                                                   Financial
            Fidelity Homestead
                                                   Instrument for                                                                                                  Updated due to quarterly assessment and
12/9/2009   Savings Bank,            Purchase                                 $2,940,000    N/A                 3/30/2011              ($2)        $1,015,386                                                       $0                  $0               $0                  $0
                                                   Home Loan                                                                                                       reallocation
            New Orleans, LA
                                                   Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                6/29/2011             ($16)        $1,015,370
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                6/28/2012             ($12)        $1,015,358
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                9/27/2012             ($32)        $1,015,326
                                                                                                                                                                   reallocation
                                                                                                                1/22/2010          $10,000           $240,000      Updated HPDP cap & HAFA initial cap

                                                   Financial                                                    3/26/2010        $440,000            $680,000      Updated portfolio data from servicer
            Bay Gulf Credit Union,                 Instrument for
12/9/2009                            Purchase                                  $230,000     N/A                 7/14/2010         ($80,000)          $600,000      Updated portfolio data from servicer             $0                  $0               $0                  $0
            Tampa, FL                              Home Loan
                                                   Modifications
                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I October 25, 2012




                                                                                                                9/30/2010         ($19,778)          $580,222      Updated portfolio data from servicer
                                                                                                               10/15/2010       ($580,222)                 $0      Termination of SPA
                                                                                                                1/22/2010        $290,000          $6,450,000      Updated HPDP cap & HAFA initial cap
                                                                                                                3/26/2010          $40,000         $6,490,000      Updated portfolio data from servicer
                                                                                                                7/14/2010      ($2,890,000)        $3,600,000      Updated portfolio data from servicer
                                                                                                                9/30/2010        $606,612          $4,206,612      Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($4)        $4,206,608      Updated portfolio data from servicer
                                                   Financial
            The Golden 1 Credit                    Instrument for                                                                                                  Updated due to quarterly assessment and
12/9/2009                            Purchase                                 $6,160,000    N/A                 3/30/2011              ($4)        $4,206,604                                                 $150,083            $534,750         $342,864         $1,027,697
            Union, Sacramento, CA                  Home Loan                                                                                                       reallocation
                                                   Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                6/29/2011             ($35)        $4,206,569
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                6/28/2012              ($9)        $4,206,560
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                9/27/2012             ($14)        $4,206,546
                                                                                                                                                                   reallocation
                                                                                                                1/22/2010        $100,000          $2,350,000      Updated HPDP cap & HAFA initial cap
                                                                                                                3/26/2010       ($740,000)         $1,610,000      Updated portfolio data from servicer
                                                                                                                7/14/2010       ($710,000)           $900,000      Updated portfolio data from servicer
                                                                                                                9/30/2010        $550,556          $1,450,556      Updated portfolio data from servicer
                                                   Financial
            Sterling Savings Bank,                 Instrument for                                                1/6/2011                          $1,450,555      Updated portfolio data from servicer
12/9/2009                            Purchase                                 $2,250,000    N/A                                                                                                                $75,696            $179,165         $156,911           $411,772
            Spokane, WA                            Home Loan
                                                                                                                                                                   Updated due to quarterly assessment and
                                                   Modifications                                                3/30/2011                          $1,450,554
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                6/29/2011             ($11)        $1,450,543
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                9/27/2012          $30,907         $1,481,450
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                          Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                                 TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                              Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers          Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives         Payments
                                                                                                                  1/22/2010           $20,000           $330,000      Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010         $820,000          $1,150,000      Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($350,000)           $800,000      Updated portfolio data from servicer
                                                                                                                  9/30/2010           $70,334           $870,334      Updated portfolio data from servicer
                                                      Financial                                                    1/6/2011                             $870,333      Updated portfolio data from servicer
             HomeStar Bank &
                                                      Instrument for
12/11/2009   Financial Services,        Purchase                                  $310,000     N/A         12                                                         Updated due to quarterly assessment and        $1,917              $5,573           $5,833            $13,323
                                                      Home Loan                                                   3/30/2011                             $870,332
             Manteno, IL                                                                                                                                              reallocation
                                                      Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($13)          $870,319
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($10)          $870,309
                                                                                                                                                                      reallocation
                                                                                                                   7/6/2012        ($856,986)            $13,323      Termination of SPA

                                                      Financial                                                   1/22/2010           $20,000           $390,000      Updated HPDP cap & HAFA initial cap
             Glenview State Bank,                     Instrument for
12/11/2009                              Purchase                                  $370,000     N/A                3/26/2010        $1,250,000         $1,640,000      Updated portfolio data from servicer               $0                  $0               $0                  $0
             Glenview, IL                             Home Loan
                                                      Modifications                                               5/26/2010       ($1,640,000)                $0      Termination of SPA
                                                                                                                  1/22/2010           $30,000           $630,000      Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010         $400,000          $1,030,000      Updated portfolio data from servicer
                                                      Financial
             Verity Credit Union,                     Instrument for                                              7/14/2010        ($330,000)           $700,000      Updated portfolio data from servicer
12/11/2009                              Purchase                                  $600,000     N/A                                                                                                                       $0                  $0               $0                  $0
             Seatle, WA                               Home Loan                                                   9/30/2010           $25,278           $725,278      Updated portfolio data from servicer
                                                      Modifications
                                                                                                                   1/6/2011                             $725,277      Updated portfolio data from servicer
                                                                                                                  2/17/2011        ($725,277)                 $0      Termination of SPA
                                                                                                                  1/22/2010           $30,000           $660,000      Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010         $800,000          $1,460,000      Updated portfolio data from servicer
                                                                                                                  7/14/2010        ($360,000)         $1,100,000      Updated portfolio data from servicer
                                                                                                                  9/30/2010           $60,445         $1,160,445      Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($2)        $1,160,443      Updated portfolio data from servicer
                                                      Financial
             Hartford Savings Bank,                   Instrument for                                                                                                  Updated due to quarterly assessment and
12/11/2009                              Purchase                                  $630,000     N/A                3/30/2011               ($2)        $1,160,441                                                         $0                  $0               $0                  $0
             Hartford, WI                             Home Loan                                                                                                       reallocation
                                                      Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($18)        $1,160,423
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($14)        $1,160,409
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  9/27/2012              ($37)        $1,160,372
                                                                                                                                                                      reallocation
                                                      Financial                                                   4/21/2010        ($150,000)                 $0      Termination of SPA
             The Bryn Mawr Trust Co.,
                                                      Instrument for
12/11/2009   Bryn Mawr, PA              Purchase                                  $150,000     N/A         9                                                                                                         $7,137              $8,606           $7,436            $23,178
                                                      Home Loan
                                                      Modifications                                               6/16/2011         $100,000            $100,000      Transfer of cap due to servicing transfer

                                                                                                                  1/22/2010           $30,000           $650,000      Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010        ($580,000)            $70,000      Updated portfolio data from servicer
                                                                                                                  7/14/2010        $1,430,000         $1,500,000      Updated portfolio data from servicer
                                                                                                                  9/30/2010           $95,612         $1,595,612      Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($2)        $1,595,610      Updated portfolio data from servicer
                                                      Financial
             Citizens 1st National                    Instrument for                                                                                                  Updated due to quarterly assessment and
12/16/2009                              Purchase                                  $620,000     N/A                3/30/2011               ($3)        $1,595,607                                                    $10,667             $33,965          $28,317            $72,949
             Bank, Spring Valley, IL                  Home Loan                                                                                                       reallocation
                                                      Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($24)        $1,595,583
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($16)        $1,595,567
                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I October 25, 2012




                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  9/27/2012              ($45)        $1,595,522
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        311
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                               (continued)                                                                                                                                                                                       312
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                 TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                                                               Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date         Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                   1/22/2010           $10,000           $180,000      Updated HPDP cap & HAFA initial cap

                                                       Financial                                                   3/26/2010           $30,000           $210,000      Updated portfolio data from servicer
             Golden Plains Credit                      Instrument for
12/16/2009                               Purchase                                  $170,000     N/A                7/14/2010          ($10,000)          $200,000      Updated portfolio data from servicer               $0                  $0               $0                  $0
             Union, Garden City, KS                    Home Loan
                                                       Modifications                                               9/30/2010           $90,111           $290,111      Updated portfolio data from servicer
                                                                                                                   2/17/2011        ($290,111)                 $0      Termination of SPA
                                                       Financial                                                   1/22/2010         $160,000          $3,620,000      Updated HPDP cap & HAFA initial cap
             First Federal Savings
                                                       Instrument for
12/16/2009   and Loan Association of     Purchase                                 $3,460,000    N/A                                                                                                                       $0                  $0               $0                  $0
                                                       Home Loan                                                   4/21/2010       ($3,620,000)                $0      Termination of SPA
             Lakewood, Lakewood, OH
                                                       Modifications
                                                                                                                   1/22/2010           $20,000           $460,000      Updated HPDP cap & HAFA initial cap
                                                       Financial
             Sound Community Bank,                     Instrument for                                              3/26/2010        $1,430,000         $1,890,000      Updated portfolio data from servicer
12/16/2009                               Purchase                                  $440,000     N/A                                                                                                                       $0                  $0               $0                  $0
             Seatle, WA                                Home Loan                                                   7/14/2010        ($390,000)         $1,500,000      Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    9/8/2010       ($1,500,000)                $0      Termination of SPA
                                                                                                                   1/22/2010           $30,000           $730,000      Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        $1,740,000         $2,470,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,870,000)          $600,000      Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I October 25, 2012




                                                                                                                   9/30/2010         $850,556          $1,450,556      Updated portfolio data from servicer
                                                       Financial                                                    1/6/2011               ($2)        $1,450,554      Updated portfolio data from servicer
             Horizon Bank, NA,                         Instrument for
12/16/2009                               Purchase                                  $700,000     N/A                                                                    Updated due to quarterly assessment and            $0                  $0               $0                  $0
             Michigan City, IN                         Home Loan                                                   3/30/2011               ($2)        $1,450,552
                                                       Modifications                                                                                                   reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($23)        $1,450,529
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($17)        $1,450,512
                                                                                                                                                                       reallocation
                                                                                                                   9/21/2012       ($1,450,512)                $0      Termination of SPA
                                                                                                                   1/22/2010           $40,000           $800,000      Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010         $140,000            $940,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($140,000)           $800,000      Updated portfolio data from servicer
                                                                                                                   9/30/2010           $70,334           $870,334      Updated portfolio data from servicer
                                                       Financial                                                    1/6/2011                             $870,333      Updated portfolio data from servicer
             Park View Federal Savings                 Instrument for
12/16/2009                               Purchase                                  $760,000     N/A         12                                                         Updated due to quarterly assessment and       $11,000             $23,937          $19,000            $53,937
             Bank, Solon, OH                           Home Loan                                                   3/30/2011                             $870,332
                                                       Modifications                                                                                                   reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($12)          $870,320
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($10)          $870,310
                                                                                                                                                                       reallocation
                                                                                                                   9/14/2012        ($816,373)            $53,937      Termination of SPA
                                                                                                                   1/22/2010         $200,000          $4,430,000      Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010       ($1,470,000)        $2,960,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,560,000)        $1,400,000      Updated portfolio data from servicer
                                                       Financial                                                   9/30/2010        $5,852,780         $7,252,780      Updated portfolio data from servicer
                                                       Instrument for
12/23/2009   Iberiabank, Sarasota, FL    Purchase                                 $4,230,000    N/A         12      1/6/2011              ($11)        $7,252,769      Updated portfolio data from servicer               $0             $10,502          $15,000            $25,502
                                                       Home Loan
                                                       Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($13)        $7,252,756
                                                                                                                                                                       reallocation
                                                                                                                   4/13/2011        ($300,000)         $6,952,756      Transfer of cap due to servicing transfer
                                                                                                                    6/3/2011       ($6,927,254)           $25,502      Termination of SPA
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                                (continued)
             Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                               TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                                                             Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s   Lenders/Investors        Servicers           Incentive
Date         Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                          Incentives          Incentives       Incentives          Payments
                                                                                                                    1/22/2010          $20,000            $360,000      Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        ($320,000)            $40,000      Updated portfolio data from servicer
                                                                                                                    7/14/2010         $760,000            $800,000 Updated portfolio data from servicer

                                                        Financial                                                   9/30/2010         ($74,722)           $725,278      Updated portfolio data from servicer
             Grafton Suburban Credit                    Instrument for                                               1/6/2011                             $725,277      Updated portfolio data from servicer
12/23/2009                                Purchase                                  $340,000     N/A                                                                                                                     $0                  $0               $0                  $0
             Union, North Grafton, MA                   Home Loan
                                                        Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011                             $725,276
                                                                                                                                                                        reallocation
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($11)          $725,265
                                                                                                                                                                        reallocation
                                                                                                                    1/25/2012        ($725,265)                 $0      Termination of SPA
                                                                                                                    1/22/2010                $0            $60,000      Updated HPDP cap & HAFA initial cap

                                                        Financial                                                   3/26/2010          $90,000            $150,000      Updated portfolio data from servicer
             Eaton National Bank
                                                        Instrument for
12/23/2009   & Trust Company,             Purchase                                    $60,000    N/A                7/14/2010          $50,000            $200,000      Updated portfolio data from servicer             $0                  $0               $0                  $0
                                                        Home Loan
             Easton, OH
                                                        Modifications                                               9/30/2010         ($54,944)           $145,056      Updated portfolio data from servicer
                                                                                                                    5/20/2011        ($145,056)                 $0      Termination of SPA
                                                                                                                    1/22/2010                $0           $110,000      Updated HPDP cap & HAFA initial cap

                                                        Financial                                                   3/26/2010         ($20,000)            $90,000      Updated portfolio data from servicer
             Tempe Schools Credit                       Instrument for
12/23/2009                                Purchase                                  $110,000     N/A                7/14/2010          $10,000            $100,000      Updated portfolio data from servicer             $0                  $0               $0                  $0
             Union, Tempe, AZ                           Home Loan
                                                        Modifications                                               9/30/2010          $45,056            $145,056      Updated portfolio data from servicer
                                                                                                                    12/8/2010        ($145,056)                 $0      Termination of SPA
                                                                                                                    3/26/2010         $480,000            $740,000      Updated portfolio data from servicer
                                                                                                                    7/14/2010        ($140,000)           $600,000      Updated portfolio data from servicer
                                                                                                                    9/30/2010         ($19,778)           $580,222      Updated portfolio data from servicer
                                                                                                                     1/6/2011                             $580,221      Updated portfolio data from servicer
                                                        Financial
             Fresno County Federal                      Instrument for                                                                                                  Updated due to quarterly assessment and
1/13/2010                                 Purchase                                  $260,000     N/A         12     3/30/2011                             $580,220                                                   $3,833             $13,204           $7,917            $24,954
             Credit Union, Fresno, CA                   Home Loan                                                                                                       reallocation
                                                        Modifications
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                    6/29/2011               ($8)          $580,212
                                                                                                                                                                        reallocation
                                                                                                                                                                        Updated due to quarterly assessment and
                                                                                                                    6/28/2012               ($6)          $580,206
                                                                                                                                                                        reallocation
                                                                                                                     7/6/2012        ($555,252)            $24,954      Termination of SPA
                                                                                                                    3/26/2010         $610,000            $850,000      Updated portfolio data from servicer

                                                        Financial                                                   7/14/2010          $50,000            $900,000      Updated portfolio data from servicer
             Roebling Bank,                             Instrument for
1/13/2010                                 Purchase                                  $240,000     N/A                9/30/2010         ($29,666)           $870,334      Updated portfolio data from servicer             $0                  $0               $0                  $0
             Roebling, NJ                               Home Loan
                                                        Modifications                                                1/6/2011                             $870,333      Updated portfolio data from servicer
                                                                                                                    3/23/2011        ($870,333)                 $0      Termination of SPA
                                                                                                                    3/26/2010         $150,000            $290,000      Updated portfolio data from servicer
                                                        Financial
             First National Bank of                     Instrument for                                              7/14/2010          $10,000            $300,000      Updated portfolio data from servicer
1/13/2010                                 Purchase                                  $140,000     N/A                                                                                                                     $0                  $0               $0                  $0
             Grant Park, Grant Park, IL                 Home Loan                                                   9/30/2010           ($9,889)          $290,111      Updated portfolio data from servicer
                                                        Modifications
                                                                                                                    1/26/2011        ($290,111)                 $0      Termination of SPA
                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                        313
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)                                                                                                                                                                                       314
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                 TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                               Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                   3/26/2010     ($51,240,000)       $12,910,000      Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap from CitiMortgage, Inc.
                                                                                                                   5/14/2010       $3,000,000        $15,910,000
                                                                                                                                                                      due to servicing transfer
                                                                                                                                                                      Transfer of cap from CitiMortgage, Inc.
                                                                                                                   6/16/2010       $4,860,000        $20,770,000
                                                                                                                                                                      due to servicing transfer
                                                                                                                   7/14/2010       $3,630,000        $24,400,000      Updated portfolio data from servicer
                                                                                                                                                                      Transfer of cap from CitiMortgage, Inc.
                                                                                                                   7/16/2010         $330,000        $24,730,000
                                                                                                                                                                      due to servicing transfer
                                                                                                                   8/13/2010         $700,000        $25,430,000      Transfer of cap due to servicing transfer
                                                                                                                   9/15/2010         $200,000        $25,630,000      Transfer of cap due to servicing transfer
                                                                                                                   9/30/2010      ($1,695,826)       $23,934,174      Updated portfolio data from servicer
                                                                                                                  11/16/2010         $200,000        $24,134,174      Transfer of cap due to servicing transfer
                                                                                                                    1/6/2011             ($32)       $24,134,142      Updated portfolio data from servicer
                                                                                                                   1/13/2011       $1,500,000        $25,634,142      Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011       $7,100,000        $32,734,142      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($36)       $32,734,106
                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I October 25, 2012




                                                                                                                                                                      reallocation
                                                                                                                   4/13/2011       $1,000,000        $33,734,106      Transfer of cap due to servicing transfer
                                                      Financial                                                    5/13/2011         $100,000        $33,834,106      Transfer of cap due to servicing transfer
            Specialized Loan
                                                      Instrument for
1/13/2010   Servicing, LLC,             Purchase                               $64,150,000     N/A                                                                                                                $1,540,844         $3,803,636       $3,277,360         $8,621,841
                                                      Home Loan                                                    6/16/2011         $300,000        $34,134,106      Transfer of cap due to servicing transfer
            Highland Ranch, CO
                                                      Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($332)       $34,133,774
                                                                                                                                                                      reallocation
                                                                                                                   8/16/2011         $100,000        $34,233,774      Transfer of cap due to servicing transfer
                                                                                                                   9/15/2011         $300,000        $34,533,774      Transfer of cap due to servicing transfer
                                                                                                                  10/14/2011         $300,000        $34,833,774      Transfer of cap due to servicing transfer
                                                                                                                  12/15/2011      ($1,700,000)       $33,133,774      Transfer of cap due to servicing transfer
                                                                                                                   1/13/2012       $1,600,000        $34,733,774      Transfer of cap due to servicing transfer
                                                                                                                   2/16/2012         $100,000        $34,833,774      Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012         $100,000        $34,933,774      Transfer of cap due to servicing transfer
                                                                                                                   4/16/2012      $77,600,000      $112,533,774       Transfer of cap due to servicing transfer
                                                                                                                   5/16/2012          $40,000      $112,573,774       Transfer of cap due to servicing transfer
                                                                                                                   6/14/2012       ($350,000)      $112,223,774       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012          ($1,058)     $112,222,716
                                                                                                                                                                      reallocation
                                                                                                                   7/16/2012       $4,430,000      $116,652,716       Transfer of cap due to servicing transfer
                                                                                                                   8/16/2012      ($1,280,000)     $115,372,716       Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012          ($3,061)     $115,369,655
                                                                                                                                                                      reallocation
                                                                                                                   3/26/2010       $8,680,000         $9,450,000      Updated portfolio data from servicer
                                                                                                                   7/14/2010      ($8,750,000)          $700,000      Updated portfolio data from servicer
                                                                                                                   9/30/2010         $170,334           $870,334      Updated portfolio data from servicer
                                                                                                                    1/6/2011                            $870,333      Updated portfolio data from servicer
                                                      Financial                                                                                                       Updated due to quarterly assessment and
            Greater Nevada Mortgage                   Instrument for                                               3/30/2011                            $870,332
1/13/2010                               Purchase                                  $770,000     N/A                                                                    reallocation                                  $36,606             $92,326          $66,430           $195,362
            Services, Carson City, NV                 Home Loan
                                                      Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($8)          $870,324
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012              ($4)          $870,320
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012             ($10)          $870,310
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                             (continued)
            Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                                 TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                                               Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                     Financial                                                    3/26/2010      $12,190,000        $15,240,000      Updated portfolio data from servicer
            Digital Federal Credit
                                                     Instrument for
1/15/2010   Union, Marlborough, MA     Purchase                                 $3,050,000    N/A                                                                                                                       $0                  $0               $0                  $0
                                                     Home Loan                                                    5/14/2010     ($15,240,000)                $0      Termination of SPA
                                                     Modifications
                                                                                                                  3/26/2010       ($730,000)           $230,000      Updated portfolio data from servicer
                                                                                                                  7/14/2010         $370,000           $600,000 Updated portfolio data from servicer
                                                                                                                  9/30/2010         $200,000           $800,000      Initial FHA-HAMP cap and initial 2MP cap
                                                                                                                  9/30/2010       ($364,833)           $435,167      Updated portfolio data from servicer
                                                                                                                 11/16/2010         $100,000           $535,167      Transfer of cap due to servicing transfer
                                                     Financial                                                     1/6/2011                            $535,166      Updated portfolio data from servicer
            iServe Residential
                                                     Instrument for
1/29/2010   Lending, LLC ,             Purchase                                  $960,000     N/A                                                                                                                       $0                  $0               $0                  $0
                                                     Home Loan                                                                                                       Updated due to quarterly assessment and
            San Diego, CA                                                                                         3/30/2011                            $535,165
                                                     Modifications                                                                                                   reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($7)          $535,158
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($6)          $535,152
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012             ($15)          $535,137
                                                                                                                                                                     reallocation
                                                                                                                  3/26/2010         $160,000           $700,000      Updated portfolio data from servicer
                                                                                                                  9/30/2010          $25,278           $725,278      Updated portfolio data from servicer
                                                                                                                   1/6/2011                            $725,277      Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                     Financial                                                    3/30/2011                            $725,276
                                                                                                                                                                     reallocation
                                                     Instrument for
1/29/2010   United Bank, Griffin, GA   Purchase                                  $540,000     N/A                                                                                                                   $2,000              $1,416           $4,000             $7,416
                                                     Home Loan                                                                                                       Updated due to quarterly assessment and
                                                     Modifications                                                6/29/2011             ($11)          $725,265
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($8)          $725,257
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012             ($22)          $725,235
                                                                                                                                                                     reallocation
                                                     Financial                                                    7/14/2010       $4,440,000         $5,500,000      Updated portfolio data from servicer
            Urban Trust Bank, Lake
                                                     Instrument for
3/3/2010    May, FL                    Purchase                                 $1,060,000    N/A                                                                                                                       $0                  $0               $0                  $0
                                                     Home Loan                                                    9/24/2010      ($5,500,000)                $0      Termination of SPA
                                                     Modifications
                                                                                                                  5/26/2010         $120,000        $28,160,000      Initial 2MP cap
                                                                                                                  7/14/2010     ($12,660,000)       $15,500,000      Updated portfolio data from servicer
                                                                                                                  9/30/2010         $100,000        $15,600,000      Initial FHA-HAMP cap
                                                                                                                  9/30/2010      ($3,125,218)       $12,474,782      Updated portfolio data from servicer
                                                                                                                 11/16/2010         $800,000        $13,274,782      Transfer of cap due to servicing transfer
                                                     Financial                                                     1/6/2011             ($20)       $13,274,762      Updated portfolio data from servicer
            iServe Servicing, Inc.,                  Instrument for
3/5/2010                               Purchase                               $28,040,000     N/A                                                                                                                       $0                  $0               $0                  $0
            Irving, TX                               Home Loan                                                                                                       Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($24)       $13,274,738
                                                     Modifications                                                                                                   reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/29/2011            ($221)       $13,274,517
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012            ($169)       $13,274,348
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012            ($465)       $13,273,883
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                              Continued on next page
                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                       315
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                            (continued)                                                                                                                                                                                       316
            Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                                 TARP Incentive Payments
                                                                          Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                                               Total TARP
                                      Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution       Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                7/14/2010      ($44,880,000)       $15,900,000      Updated portfolio data from servicer
                                                                                                                9/30/2010        $1,071,505        $16,971,505      Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($23)       $16,971,482      Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                    Financial                                                   3/30/2011              ($26)       $16,971,456
                                                                                                                                                                    reallocation
            Navy Federal Credit                     Instrument for
3/10/2010                             Purchase                               $60,780,000     N/A                                                                                                                 $156,999            $595,445         $452,415         $1,204,859
            Union, Vienna, VA                       Home Loan                                                                                                       Updated due to quarterly assessment and
                                                    Modifications                                               6/29/2011             ($238)       $16,971,218
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                6/28/2012             ($145)       $16,971,073
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                9/27/2012             ($374)       $16,970,699
                                                                                                                                                                    reallocation
                                                                                                                7/14/2010          $400,000           $700,000      Updated portfolio data from servicer
                                                                                                                9/30/2010           $25,278           $725,278      Updated portfolio data from servicer
                                                                                                                 1/6/2011                             $725,277      Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                    Financial                                                   3/30/2011                             $725,276
                                                                                                                                                                    reallocation
            Vist Financial Corp,                    Instrument for
3/10/2010                             Purchase                                  $300,000     N/A                                                                                                                       $0                  $0               $0                  $0
            Wyomissing, PA                          Home Loan                                                                                                       Updated due to quarterly assessment and
                                                                                                                6/29/2011              ($11)          $725,265
                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I October 25, 2012




                                                    Modifications                                                                                                   reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                6/28/2012               ($8)          $725,257
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                9/27/2012              ($22)          $725,235
                                                                                                                                                                    reallocation
                                                                                                                7/14/2010          $300,000           $600,000      Updated portfolio data from servicer
                                                                                                                9/30/2010          ($19,778)          $580,222      Updated portfolio data from servicer

                                                    Financial                                                    1/6/2011                             $580,221      Updated portfolio data from servicer
            Midwest Bank and Trust                  Instrument for                                                                                                  Updated due to quarterly assessment and
4/14/2010                             Purchase                                  $300,000     N/A                3/30/2011                             $580,220                                                         $0                  $0               $0                  $0
            Co., Elmwood Park, IL                   Home Loan                                                                                                       reallocation
                                                    Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                6/29/2011               ($8)          $580,212
                                                                                                                                                                    reallocation
                                                                                                                7/14/2011        ($580,212)                 $0      Termination of SPA
                                                                                                                7/14/2010        ($150,000)         $6,400,000      Updated portfolio data from servicer
                                                                                                                9/15/2010        $1,600,000         $8,000,000      Transfer of cap due to servicing transfer
                                                                                                                9/30/2010       ($4,352,173)        $3,647,827      Updated portfolio data from servicer
                                                                                                                 1/6/2011               ($5)        $3,647,822      Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                    Financial                                                   3/30/2011               ($6)        $3,647,816
                                                                                                                                                                    reallocation
            Wealthbridge Mortgage                   Instrument for
4/14/2010                             Purchase                                 $6,550,000    N/A                                                                                                                       $0                  $0               $0                  $0
            Corp, Beaverton, OR                     Home Loan                                                   4/13/2011       ($3,000,000)          $647,816      Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                6/29/2011               ($9)          $647,807
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                6/28/2012               ($7)          $647,800
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                9/27/2012              ($19)          $647,781
                                                                                                                                                                    reallocation
                                                                                                                5/26/2010           $30,000            $40,000      Updated FHA-HAMP cap
                                                                                                                9/30/2010          $250,111           $290,111      Updated portfolio data from servicer
                                                    Financial                                                                                                       Updated due to quarterly assessment and
                                                                                                                6/29/2011           $59,889           $350,000
            Aurora Financial Group,                 Instrument for                                                                                                  reallocation
5/21/2010                             Purchase                                    $10,000    N/A         4, 8                                                                                                     $24,689                  $0          $27,844            $52,533
            Inc., Marlton, NJ                       Home Loan
                                                    Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                                6/28/2012               ($2)          $349,998
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                9/27/2012               ($5)          $349,993
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                           (continued)
            Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                                 TARP Incentive Payments
                                                                         Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                                              Total TARP
                                     Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution      Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives         Payments
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc.
                                                                                                                6/16/2010       $3,680,000         $3,680,000
                                                                                                                                                                   due to servicing transfer
                                                                                                                8/13/2010       $3,300,000         $6,980,000      Transfer of cap due to servicing transfer
                                                                                                                9/30/2010       $3,043,831        $10,023,831      Updated portfolio data from servicer
                                                                                                               10/15/2010       $1,400,000        $11,423,831      Transfer of cap due to servicing transfer
                                                                                                                 1/6/2011             ($17)       $11,423,814      Updated portfolio data from servicer
                                                                                                                3/16/2011       $2,100,000        $13,523,814      Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                3/30/2011             ($24)       $13,523,790
                                                                                                                                                                   reallocation
                                                                                                                4/13/2011       $2,900,000        $16,423,790      Transfer of cap due to servicing transfer
                                                                                                                6/16/2011       ($200,000)        $16,223,790      Transfer of cap due to servicing transfer
                                                   Financial
            Selene Finance LP,                     Instrument for                                                                                                  Updated due to quarterly assessment and
6/16/2010                            Purchase                                         $0    N/A         9       6/29/2011            ($273)       $16,223,517                                                    $25,000             $70,369          $36,500           $131,869
            Houston, TX                            Home Loan                                                                                                       reallocation
                                                   Modifications
                                                                                                               10/14/2011        $100,000         $16,323,517      Transfer of cap due to servicing transfer
                                                                                                               11/16/2011       $1,100,000        $17,423,517      Transfer of cap due to servicing transfer
                                                                                                                4/16/2012        $200,000         $17,623,517      Transfer of cap due to servicing transfer
                                                                                                                5/16/2012          $10,000        $17,633,517      Transfer of cap due to servicing transfer
                                                                                                                6/14/2012       ($300,000)        $17,333,517      Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                6/28/2012            ($218)       $17,333,299
                                                                                                                                                                   reallocation
                                                                                                                7/16/2012          $40,000        $17,373,299      Transfer of cap due to servicing transfer
                                                                                                                8/16/2012        $480,000         $17,853,299      Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                9/27/2012            ($600)       $17,852,699
                                                                                                                                                                   reallocation
                                                                                                                9/30/2010       $1,585,945         $2,465,945      Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($4)        $2,465,941      Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                   Financial                                                    3/30/2011              ($4)        $2,465,937
            Suburban Mortgage                                                                                                                                      reallocation
                                                   Instrument for
8/4/2010    Company of New Mexico,   Purchase                                  $880,000     N/A                                                                    Updated due to quarterly assessment and            $0                  $0               $0                  $0
                                                   Home Loan                                                    6/29/2011             ($40)        $2,465,897
            Albuquerque, MN                                                                                                                                        reallocation
                                                   Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                6/28/2012             ($30)        $2,465,867
                                                                                                                                                                   reallocation
                                                                                                                8/10/2012      ($2,465,867)                $0      Termination of SPA
                                                                                                                9/30/2010       $1,040,667         $1,740,667      Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($2)        $1,740,665      Updated portfolio data from servicer
                                                   Financial
                                                                                                                                                                   Updated due to quarterly assessment and
            Bramble Savings Bank,                  Instrument for                                               3/30/2011              ($3)        $1,740,662
8/20/2010                            Purchase                                  $700,000     N/A                                                                    reallocation                                       $0                  $0               $0                  $0
            Cincinnati, OH                         Home Loan
                                                   Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                                6/29/2011             ($28)        $1,740,634
                                                                                                                                                                   reallocation
                                                                                                                8/10/2011      ($1,740,634)                $0      Termination of SPA
                                                                                                                9/30/2010       $2,181,334         $3,481,334      Updated portfolio data from servicer
                                                                                                                 1/6/2011              ($5)        $3,481,329      Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                3/30/2011              ($6)        $3,481,323
                                                   Financial                                                                                                       reallocation
            Pathfinder Bank,                       Instrument for                                                                                                  Updated due to quarterly assessment and
8/25/2010                            Purchase                                 $1,300,000    N/A                 6/29/2011             ($58)        $3,481,265                                                     $1,917              $3,177           $6,117            $11,211
            Oswego, NY                             Home Loan                                                                                                       reallocation
                                                   Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                6/28/2012             ($43)        $3,481,222
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I October 25, 2012




                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                9/27/2012            ($119)        $3,481,103
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                     317
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                                (continued)                                                                                                                                                                                      318
            Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                                 TARP Incentive Payments
                                                                              Cap of Incentive
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                                                             Total TARP
                                          Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution           Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives         Payments
                                                                                                                     9/30/2010       $7,014,337       $11,314,337      Updated portfolio data from servicer
                                                                                                                      1/6/2011            ($17)       $11,314,320      Updated portfolio data from servicer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($20)       $11,314,300
                                                        Financial                                                                                                      reallocation
            First Financial Bank, N.A.,                 Instrument for                                                                                                 Updated due to quarterly assessment and
8/27/2010                                 Purchase                                 $4,300,000    N/A                 6/29/2011           ($192)       $11,314,108                                                         $0                  $0               $0                  $0
            Terre Haute, ID                             Home Loan                                                                                                      reallocation
                                                        Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                     6/28/2012           ($144)       $11,313,964
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                     9/27/2012           ($396)       $11,313,568
                                                                                                                                                                       reallocation
                                                                                                                     9/30/2010         $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                      1/6/2011         $34,944           $180,000      Updated portfolio data from servicer

                                                        Financial                                                                                                      Updated due to quarterly assessment and
                                                                                                                     3/30/2011         $40,000           $220,000
            RBC Bank (USA),                             Instrument for                                                                                                 reallocation
9/1/2010                                  Purchase                                  $100,000     N/A         4, 8                                                                                                         $0                  $0               $0                  $0
            Raleigh, NC                                 Home Loan                                                                                                      Updated due to quarterly assessment and
                                                        Modifications                                                6/29/2011         $50,000           $270,000
                                                                                                                                                                       reallocation
                                                                                                                     3/15/2012       ($200,000)           $70,000      Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I October 25, 2012




                                                                                                                     6/14/2012        ($10,000)           $60,000      Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010       $5,168,169        $8,268,169      Updated portfolio data from servicer
                                                                                                                      1/6/2011            ($12)        $8,268,157      Updated portfolio data from servicer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($15)        $8,268,142
                                                                                                                                                                       reallocation
                                                                                                                     4/13/2011        $400,000         $8,668,142      Transfer of cap due to servicing transfer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                     6/29/2011           ($143)        $8,667,999
                                                                                                                                                                       reallocation
                                                                                                                     9/15/2011        $700,000         $9,367,999      Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011        $100,000         $9,467,999      Transfer of cap due to servicing transfer
                                                        Financial
            Fay Servicing, LLC,                         Instrument for                                              11/16/2011        $200,000         $9,667,999      Transfer of cap due to servicing transfer
9/3/2010                                  Purchase                                 $3,100,000    N/A                                                                                                                $216,222            $544,522         $223,972           $984,715
            Chicago, IL                                 Home Loan                                                   12/15/2011       $1,700,000       $11,367,999      Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                     4/16/2012       $1,600,000       $12,967,999      Transfer of cap due to servicing transfer
                                                                                                                     5/16/2012         $40,000        $13,007,999      Transfer of cap due to servicing transfer
                                                                                                                     6/14/2012       ($210,000)       $12,797,999      Transfer of cap due to servicing transfer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                     6/28/2012           ($105)       $12,797,894
                                                                                                                                                                       reallocation
                                                                                                                     7/16/2012         $50,000        $12,847,894      Transfer of cap due to servicing transfer
                                                                                                                     8/16/2012         $90,000        $12,937,894      Transfer of cap due to servicing transfer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                     9/27/2012           ($294)       $12,937,600
                                                                                                                                                                       reallocation
                                                                                                                                                                                                                                                                Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                               (continued)
            Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                                 TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                                                               Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                    9/15/2010       $1,000,000         $1,000,000      Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010        $450,556          $1,450,556      Updated portfolio data from servicer
                                                                                                                     1/6/2011              ($2)        $1,450,554      Updated portfolio data from servicer
                                                                                                                    2/16/2011       $3,000,000         $4,450,554      Transfer of cap due to servicing transfer
                                                                                                                    3/16/2011      $10,200,000        $14,650,554      Transfer of cap due to servicing transfer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    3/30/2011             ($24)       $14,650,530
                                                                                                                                                                       reallocation
                                                       Financial
                                                                                                                                                                       Updated due to quarterly assessment and
            Vericrest Financial, Inc.,                 Instrument for                                               6/29/2011            ($227)       $14,650,303
9/15/2010                                Purchase                                         $0    N/A         9                                                          reallocation                                 $352,401          $1,027,915       $1,069,507         $2,449,823
            Oklahoma City, OK                          Home Loan
                                                       Modifications                                                7/14/2011      $12,000,000        $26,650,303      Transfer of cap due to servicing transfer
                                                                                                                   12/15/2011       $4,100,000        $30,750,303      Transfer of cap due to servicing transfer
                                                                                                                    1/13/2012        $900,000         $31,650,303      Transfer of cap due to servicing transfer
                                                                                                                    4/16/2012        $300,000         $31,950,303      Transfer of cap due to servicing transfer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    6/28/2012            ($266)       $31,950,037
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    9/27/2012            ($689)       $31,949,348
                                                                                                                                                                       reallocation
                                                                                                                    9/30/2010        $180,222            $580,222      Updated portfolio data from servicer
                                                                                                                     1/6/2011                            $580,221      Updated portfolio data from servicer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    3/30/2011                            $580,220
                                                       Financial                                                                                                       reallocation
            Midwest Community Bank,                    Instrument for                                                                                                  Updated due to quarterly assessment and
9/15/2010                                Purchase                                  $400,000     N/A                 6/29/2011              ($8)          $580,212                                                     $1,000              $1,454           $2,000             $4,454
            Freeport, IL                               Home Loan                                                                                                       reallocation
                                                       Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    6/28/2012              ($6)          $580,206
                                                                                                                                                                       reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    9/27/2012             ($17)          $580,189
                                                                                                                                                                       reallocation
                                                       Financial                                                    9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
            American Finance House
                                                       Instrument for
9/24/2010   LARIBA, Pasadena, CA         Purchase                                  $100,000     N/A                                                                                                                       $0                  $0               $0                  $0
                                                       Home Loan                                                     2/2/2011       ($145,056)                 $0      Termination of SPA
                                                       Modifications

                                                       Financial                                                    9/30/2010        $856,056          $2,756,056      Updated portfolio data from servicer
                                                       Instrument for
9/24/2010   Centrue Bank, Ottawa, CA     Purchase                                 $1,900,000    N/A                  1/6/2011              ($4)        $2,756,052      Updated portfolio data from servicer               $0                  $0               $0                  $0
                                                       Home Loan
                                                       Modifications                                                 3/9/2011      ($2,756,052)                $0      Termination of SPA
                                                       Financial                                                    9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
            AgFirst Farm Credit Bank,                  Instrument for
9/30/2010                                Purchase                                  $100,000     N/A                                                                                                                       $0                  $0               $0                  $0
            Columbia, SC                               Home Loan                                                    3/23/2011       ($145,056)                 $0      Termination of SPA
                                                       Modifications
                                                                                                                    9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                       Financial                                                    6/29/2011                            $145,055
                                                                                                                                                                       reallocation
            Amarillo National Bank,                    Instrument for
9/30/2010                                Purchase                                  $100,000     N/A         4, 8                                                       Updated due to quarterly assessment and            $0                  $0               $0                  $0
            Amarillo, TX                               Home Loan                                                    6/28/2012                            $145,054
                                                       Modifications                                                                                                   reallocation
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                    9/27/2012              ($2)          $145,052
                                                                                                                                                                       reallocation
                                                                                                                    9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                                                                       Updated due to quarterly assessment and
                                                       Financial                                                    6/29/2011                            $145,055
            American Financial                                                                                                                                         reallocation
                                                       Instrument for
9/30/2010   Resources Inc.,              Purchase                                  $100,000     N/A         4, 8                                                       Updated due to quarterly assessment and            $0                  $0               $0                  $0
                                                       Home Loan                                                    6/28/2012                            $145,054
            Parsippany, NJ                                                                                                                                             reallocation
                                                       Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I October 25, 2012




                                                                                                                    9/27/2012              ($2)          $145,052
                                                                                                                                                                       reallocation
                                                                                                                                                                                                                                                                Continued on next page
                                                                                                                                                                                                                                                                                         319
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)                                                                                                                                                                                     320
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                               TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                             Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                          Incentives          Incentives       Incentives          Payments
                                                                                                                  9/30/2010         $765,945          $2,465,945      Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($3)        $2,465,942      Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($4)        $2,465,938
                                                      Financial                                                                                                       reallocation
            Banco Popular de Puerto                   Instrument for                                       4,                                                         Updated due to quarterly assessment and
9/30/2010                               Purchase                                 $1,700,000    N/A                6/29/2011              ($36)        $2,465,902                                                       $0                  $0               $0                  $0
            Rico, San Juan, PR                        Home Loan                                            5, 8                                                       reallocation
                                                      Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($30)        $2,465,872
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  9/27/2012              ($83)        $2,465,789
                                                                                                                                                                      reallocation
                                                                                                                  9/30/2010           $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                      Financial                                                   6/29/2011                             $145,055
            Capital International                                                                                                                                     reallocation
                                                      Instrument for
9/30/2010   Financial, Inc.,            Purchase                                  $100,000     N/A         4, 8                                                       Updated due to quarterly assessment and          $0                  $0               $0                  $0
                                                      Home Loan                                                   6/28/2012                             $145,054
            Coral Gables, FL                                                                                                                                          reallocation
                                                      Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  9/27/2012               ($2)          $145,052
                                                                                                                                                                      reallocation

                                                      Financial                                                   9/30/2010         $360,445          $1,160,445      Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I October 25, 2012




            Citizens Community Bank,                  Instrument for
9/24/2010                               Purchase                                  $800,000     N/A                 1/6/2011               ($2)        $1,160,443      Updated portfolio data from servicer             $0                  $0               $0                  $0
            Freeburg, IL                              Home Loan
                                                      Modifications                                               3/23/2011       ($1,160,443)                $0      Termination of SPA
                                                                                                                  9/30/2010         $901,112          $2,901,112      Updated portfolio data from servicer
                                                                                                                   1/6/2011               ($4)        $2,901,108      Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                      Financial                                                   3/30/2011               ($5)        $2,901,103
                                                                                                                                                                      reallocation
            Community Credit Union                    Instrument for                                       6,
9/30/2010                               Purchase                                 $2,000,000    N/A                                                                    Updated due to quarterly assessment and      $3,000              $4,632           $5,000            $12,632
            of Florida, Rockledge, FL                 Home Loan                                            12     6/29/2011              ($48)        $2,901,055
                                                      Modifications                                                                                                   reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($36)        $2,901,019
                                                                                                                                                                      reallocation
                                                                                                                  9/14/2012       ($2,888,387)           $12,632      Termination of SPA
                                                                                                                  9/30/2010           $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                      Financial                                                   6/29/2011                             $145,055
                                                                                                                                                                      reallocation
            CU Mortgage Services,                     Instrument for
9/30/2010                               Purchase                                  $100,000     N/A         4, 8                                                       Updated due to quarterly assessment and          $0                  $0               $0                  $0
            Inc., New Brighton, MN                    Home Loan                                                   6/28/2012                             $145,054
                                                      Modifications                                                                                                   reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  9/27/2012               ($2)          $145,052
                                                                                                                                                                      reallocation
                                                                                                                  9/30/2010           $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                      Financial                                                   6/29/2011                             $145,055
                                                                                                                                                                      reallocation
            First Federal Bank of                     Instrument for
9/30/2010                               Purchase                                  $100,000     N/A         4, 8                                                       Updated due to quarterly assessment and          $0                  $0               $0                  $0
            Florida, Lake City, FL                    Home Loan                                                   6/28/2012                             $145,054
                                                      Modifications                                                                                                   reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  9/27/2012               ($2)          $145,052
                                                                                                                                                                      reallocation
                                                                                                                  9/30/2010           $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                      Financial                                                   6/29/2011                             $145,055
            First Mortgage                                                                                                                                            reallocation
                                                      Instrument for
9/30/2010   Corporation,                Purchase                                  $100,000     N/A         4, 8                                                       Updated due to quarterly assessment and      $1,000                  $0           $1,000             $2,000
                                                      Home Loan                                                   6/28/2012                             $145,054
            Diamond Bar, CA                                                                                                                                           reallocation
                                                      Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                  9/27/2012               ($2)          $145,052
                                                                                                                                                                      reallocation

                                                      Financial                                                   9/30/2010         $180,222            $580,222      Updated portfolio data from servicer
            First Safety Bank,                        Instrument for
9/30/2010                               Purchase                                  $400,000     N/A                 1/6/2011                             $580,221      Updated portfolio data from servicer             $0                  $0               $0                  $0
            Cincinnati, OH                            Home Loan
                                                      Modifications                                               3/23/2011        ($580,221)                 $0      Termination of SPA
                                                                                                                                                                                                                                                             Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)
            Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                               TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                            Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution         Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                          Incentives          Incentives       Incentives          Payments
                                                                                                                  9/30/2010         $360,445         $1,160,445      Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($2)        $1,160,443      Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  3/30/2011              ($2)        $1,160,441
                                                      Financial                                                                                                      reallocation
            Flagstar Capital Markets                  Instrument for                                                                                                 Updated due to quarterly assessment and
9/30/2010                               Purchase                                  $800,000     N/A         7, 8   6/29/2011             ($18)        $1,160,423                                                       $0                  $0               $0                  $0
            Corporation, Troy, MI                     Home Loan                                                                                                      reallocation
                                                      Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012             ($14)        $1,160,409
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012             ($37)        $1,160,372
                                                                                                                                                                     reallocation
                                                                                                                  9/30/2010         $765,945         $2,465,945      Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($4)        $2,465,941      Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  3/30/2011              ($4)        $2,465,937
                                                      Financial                                                                                                      reallocation
            Franklin Savings,                         Instrument for                                                                                                 Updated due to quarterly assessment and
9/30/2010                               Purchase                                 $1,700,000    N/A         4      6/29/2011             ($40)        $2,465,897                                                     $750              $2,583           $3,000             $6,333
            Cincinnati, OH                            Home Loan                                                                                                      reallocation
                                                      Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012             ($30)        $2,465,867
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012             ($83)        $2,465,784
                                                                                                                                                                     reallocation
                                                                                                                  9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                      Financial                                                   6/29/2011                            $145,055
                                                                                                                                                                     reallocation
            Gateway Mortgage                          Instrument for
9/30/2010                               Purchase                                  $100,000     N/A         4, 8                                                      Updated due to quarterly assessment and          $0                  $0               $0                  $0
            Group, LLC, Tulsa, OK                     Home Loan                                                   6/28/2012                            $145,054
                                                      Modifications                                                                                                  reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012              ($2)          $145,052
                                                                                                                                                                     reallocation
                                                      Financial                                                   9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
            GFA Federal Credit Union,                 Instrument for
9/30/2010                               Purchase                                  $100,000     N/A                                                                                                                    $0                  $0               $0                  $0
            Gardner, MA                               Home Loan                                                   3/23/2011        ($145,056)                $0      Termination of SPA
                                                      Modifications
                                                                                                                  9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                      Financial                                                   6/29/2011                            $145,055
                                                                                                                                                                     reallocation
            Guaranty Bank,                            Instrument for
9/30/2010                               Purchase                                  $100,000     N/A         4, 8                                                      Updated due to quarterly assessment and        $917                  $0           $1,000             $1,917
            Saint Paul, MN                            Home Loan                                                   6/28/2012                            $145,054
                                                      Modifications                                                                                                  reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012              ($2)          $145,052
                                                                                                                                                                     reallocation
                                                                                                                  9/30/2010         $135,167           $435,167      Updated portfolio data from servicer
                                                                                                                   1/6/2011                            $435,166      Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  3/30/2011                            $435,165
                                                      Financial                                                                                                      reallocation
            James B. Nutter &
                                                      Instrument for                                                                                                 Updated due to quarterly assessment and
9/24/2010   Company,                    Purchase                                  $300,000     N/A         4, 8   6/29/2011              ($6)          $435,159                                                   $2,575                  $0           $2,825             $5,400
                                                      Home Loan                                                                                                      reallocation
            Kansas City, MO
                                                      Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  6/28/2012              ($4)          $435,155
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                  9/27/2012             ($12)          $435,143
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                            Continued on next page
                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                     321
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                             (continued)                                                                                                                                                                                       322
            Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                                 TARP Incentive Payments
                                                                           Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                                                              Total TARP
                                       Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers          Incentive
Date        Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives         Payments
                                                                                                                 9/30/2010          $450,556         $1,450,556      Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($2)        $1,450,554      Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 3/30/2011               ($2)        $1,450,552
                                                     Financial                                                                                                       reallocation
            Liberty Bank and Trust                   Instrument for                                                                                                  Updated due to quarterly assessment and
9/30/2010                              Purchase                                 $1,000,000    N/A                6/29/2011              ($23)        $1,450,529                                                         $0                  $0               $0                  $0
            Co, New Orleans, LA                      Home Loan                                                                                                       reallocation
                                                     Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 6/28/2012              ($17)        $1,450,512
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 9/27/2012              ($48)        $1,450,464
                                                                                                                                                                     reallocation
                                                                                                                 9/30/2010          $315,389         $1,015,389      Updated portfolio data from servicer
                                                                                                                  1/6/2011                           $1,015,388      Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 3/30/2011                           $1,015,387
                                                     Financial                                                                                                       reallocation
                                                     Instrument for                                                                                                  Updated due to quarterly assessment and
9/30/2010   M&T Bank, Buffalo, NY      Purchase                                  $700,000     N/A         4, 8   6/29/2011              ($11)        $1,015,376                                                    $30,524                  $0          $33,587            $64,111
                                                     Home Loan                                                                                                       reallocation
                                                     Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 6/28/2012              ($11)        $1,015,365
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I October 25, 2012




                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 9/27/2012              ($30)        $1,015,335
                                                                                                                                                                     reallocation
                                                                                                                 9/30/2010          $630,778         $2,030,778      Updated portfolio data from servicer
                                                                                                                  1/6/2011               ($3)        $2,030,775      Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 3/30/2011               ($3)        $2,030,772
                                                     Financial                                                                                                       reallocation
            Magna Bank,                              Instrument for                                                                                                  Updated due to quarterly assessment and
9/30/2010                              Purchase                                 $1,400,000    N/A         5      6/29/2011              ($33)        $2,030,739                                                         $0                  $0               $0                  $0
            Germanton, TN                            Home Loan                                                                                                       reallocation
                                                     Modifications
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 6/28/2012              ($25)        $2,030,714
                                                                                                                                                                     reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 9/27/2012              ($68)        $2,030,646
                                                                                                                                                                     reallocation

                                                     Financial                                                   9/30/2010          $225,278           $725,278      Updated portfolio data from servicer
            Mainstreet Credit Union,                 Instrument for
9/30/2010                              Purchase                                  $500,000     N/A                 1/6/2011                             $725,277      Updated portfolio data from servicer               $0                  $0               $0                  $0
            Lexena, KS                               Home Loan
                                                     Modifications                                                3/9/2011         ($725,277)                $0      Termination of SPA
                                                                                                                 9/30/2010           $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                     Financial                                                   6/29/2011                             $145,055
                                                                                                                                                                     reallocation
            Marsh Associates, Inc.,                  Instrument for
9/30/2010                              Purchase                                  $100,000     N/A         4, 8                                                       Updated due to quarterly assessment and        $3,710                  $0           $4,057             $7,767
            Charlotte, NC                            Home Loan                                                   6/28/2012                             $145,054
                                                     Modifications                                                                                                   reallocation
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 9/27/2012                             $145,053
                                                                                                                                                                     reallocation
                                                                                                                 9/30/2010       $49,915,806        $93,415,806      Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($125)       $93,415,681      Updated portfolio data from servicer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 3/30/2011             ($139)       $93,415,542
                                                                                                                                                                     reallocation

                                                     Financial                                                                                                       Updated due to quarterly assessment and
            Midland Mortgage                                                                                     6/29/2011           ($1,223)       $93,414,319
                                                     Instrument for                                                                                                  reallocation
9/30/2010   Company,                   Purchase                               $43,500,000     N/A         4, 5                                                                                                   $1,869,153           $311,704       $2,400,691         $4,581,548
                                                     Home Loan                                                                                                       Updated due to quarterly assessment and
            Oklahoma City, OK                                                                                    6/28/2012             ($797)       $93,413,522
                                                     Modifications                                                                                                   reallocation
                                                                                                                 7/16/2012      $294,540,000      $387,953,522       Transfer of cap due to servicing transfer
                                                                                                                 7/27/2012     ($263,550,000)     $124,403,522       Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                 9/27/2012           ($3,170)     $124,400,352
                                                                                                                                                                     reallocation
                                                                                                                                                                                                                                                              Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                              (continued)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                                 TARP Incentive Payments
                                                                            Cap of Incentive
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                                                               Total TARP
                                        Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s   Lenders/Investors        Servicers           Incentive
Date         Name of Institution        Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount        Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                   9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                      Financial                                                    6/29/2011                            $145,055
             Schmidt Mortgage                                                                                                                                         reallocation
                                                      Instrument for
9/30/2010    Company,                   Purchase                                  $100,000     N/A         4, 8                                                       Updated due to quarterly assessment and            $0                  $0               $0                  $0
                                                      Home Loan                                                    6/28/2012                            $145,054
             Rocky River, OH                                                                                                                                          reallocation
                                                      Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012              ($2)          $145,052
                                                                                                                                                                      reallocation
                                                                                                                   9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                      Financial                                                    6/29/2011                            $145,055
                                                                                                                                                                      reallocation
             Stockman Bank of                         Instrument for
9/30/2010                               Purchase                                  $100,000     N/A         4, 8                                                       Updated due to quarterly assessment and            $0                  $0               $0                  $0
             Montana, Miles City, MT                  Home Loan                                                    6/28/2012                            $145,054
                                                      Modifications                                                                                                   reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012              ($2)          $145,052
                                                                                                                                                                      reallocation

                                                      Financial                                                    9/30/2010        $270,334            $870,334      Updated portfolio data from servicer
             University First Federal
                                                      Instrument for
9/30/2010    Credit Union,              Purchase                                  $600,000     N/A                  1/6/2011                            $870,333      Updated portfolio data from servicer               $0                  $0               $0                  $0
                                                      Home Loan
             Salt Lake City, UT
                                                      Modifications                                                2/17/2011       ($870,333)                 $0      Termination of SPA
                                                                                                                   9/30/2010          $45,056           $145,056      Updated portfolio data from servicer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                      Financial                                                    6/29/2011                            $145,055
                                                                                                                                                                      reallocation
             Weststar Mortgage, Inc.,                 Instrument for
9/30/2010                               Purchase                                  $100,000     N/A         4, 8                                                       Updated due to quarterly assessment and            $0                  $0               $0                  $0
             Woodbridge, VA                           Home Loan                                                    6/28/2012                            $145,054
                                                      Modifications                                                                                                   reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012              ($2)          $145,052
                                                                                                                                                                      reallocation
                                                                                                                  12/15/2010       $5,000,000         $5,000,000      Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($7)        $4,999,993      Updated portfolio data from servicer
                                                                                                                   2/16/2011        $500,000          $5,499,993      Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011        $100,000          $5,599,993      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($9)        $5,599,984
                                                      Financial                                                                                                       reallocation
             Statebridge Company,                     Instrument for                                                                                                  Updated due to quarterly assessment and
12/15/2010                              Purchase                                         $0    N/A         9       6/29/2011             ($85)        $5,599,899                                                     $9,536             $24,758           $9,643            $43,936
             LLC, Denver, CO                          Home Loan                                                                                                       reallocation
                                                      Modifications
                                                                                                                  11/16/2011      ($2,500,000)        $3,099,899      Transfer of cap due to servicing transfer
                                                                                                                   3/15/2012        $200,000          $3,299,899      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($40)        $3,299,859
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012            ($100)        $3,299,759
                                                                                                                                                                      reallocation
                                                                                                                  12/15/2010       $4,300,000         $4,300,000      Updated portfolio data from servicer
                                                                                                                    1/6/2011              ($4)        $4,299,996      Updated portfolio data from servicer
                                                      Financial                                                                                                       Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($5)        $4,299,991
             Scotiabank de Puerto                     Instrument for                                                                                                  reallocation
12/15/2010                              Purchase                                         $0    N/A         9                                                                                                       $250,289            $407,668         $288,858           $946,814
             Rico, San Juan, PR                       Home Loan
                                                      Modifications                                                                                                   Updated due to quarterly assessment and
                                                                                                                   6/28/2012             ($23)        $4,299,968
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                   9/27/2012             ($63)        $4,299,905
                                                                                                                                                                      reallocation
                                                                                                                                                                                                                                                               Continued on next page
                                                                                                                                                                                                                                                                                        Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                        323
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                               (continued)                                                                                                                                                                                      324
            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                 TARP Incentive Payments
                                                                             Cap of Incentive
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                                                              Total TARP
                                         Transaction   Investment       Servicers & Lenders/    Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s   Lenders/Investors        Servicers           Incentive
Date        Name of Institution          Type          Description           Investors (Cap)1   Mechanism   Note         Date          Amount       Adjusted Cap Reason for Adjustment                            Incentives          Incentives       Incentives          Payments
                                                                                                                    4/13/2011        $200,000           $200,000      Transfer of cap due to servicing transfer
                                                                                                                    5/13/2011        $100,000           $300,000      Transfer of cap due to servicing transfer
                                                                                                                    6/16/2011        $300,000           $600,000      Transfer of cap due to servicing transfer
                                                       Financial                                                                                                      Updated due to quarterly assessment and
            AmTrust Bank, A Division                                                                                6/29/2011             ($9)          $599,991
                                                       Instrument for                                                                                                 reallocation
4/13/2011   of New York Community        Purchase                                         $0    N/A         9                                                                                                       $10,848             $30,421          $19,107            $60,376
                                                       Home Loan
            Bank, Cleveland, OH                                                                                     8/16/2011        $200,000           $799,991      Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                    6/28/2012             ($7)          $799,984
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                    9/27/2012            ($19)          $799,965
                                                                                                                                                                      reallocation
                                                       Financial
            SunTrust Mortgage, Inc.,                   Instrument for
4/13/2011                                Purchase                                         $0    N/A         9       4/13/2011        $100,000           $100,000      Transfer of cap due to servicing transfer          $0                  $0               $0                  $0
            Richmond, VA                               Home Loan
                                                       Modifications
                                                                                                                    4/13/2011       $1,000,000        $1,000,000      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                    6/29/2011        $233,268         $1,233,268
                                                                                                                                                                      reallocation
                                                       Financial
            Urban Partnership Bank,                    Instrument for                                              11/16/2011        $100,000         $1,333,268      Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                        Appendix D I Transaction Detail I October 25, 2012




4/13/2011                                Purchase                                         $0    N/A         9                                                                                                       $92,447            $194,254          $98,754           $385,455
            Chicago, IL                                Home Loan
                                                       Modifications                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/28/2012             ($3)        $1,333,265
                                                                                                                                                                      reallocation
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                    9/27/2012            ($10)        $1,333,255
                                                                                                                                                                      reallocation
                                                                                                                    4/13/2011        $200,000           $200,000      Transfer of cap due to servicing transfer
                                                       Financial
                                                                                                                                                                      Updated due to quarterly assessment and
            Western Federal Credit                     Instrument for                                               6/29/2011         $17,687           $217,687
4/13/2011                                Purchase                                         $0    N/A         9                                                         reallocation                                   $9,417             $28,917          $12,917            $51,251
            Union, Hawthorne, CA                       Home Loan
                                                       Modifications                                                                                                  Updated due to quarterly assessment and
                                                                                                                    9/27/2012                           $217,686
                                                                                                                                                                      reallocation
                                                                                                                    5/13/2011        $500,000           $500,000      Transfer of cap due to servicing transfer
                                                                                                                    6/16/2011        $100,000           $600,000      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($9)          $599,991
                                                                                                                                                                      reallocation
                                                                                                                    7/14/2011        $200,000           $799,991      Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011        $100,000           $899,991 Transfer of cap due to servicing transfer
                                                       Financial                                                   11/16/2011       $2,500,000        $3,399,991      Transfer of cap due to servicing transfer
            FCI Lender Services, Inc.,                 Instrument for
5/13/2011                                Purchase                                         $0    N/A         9       5/16/2012       $1,510,000        $4,909,991      Transfer of cap due to servicing transfer     $15,957             $29,479          $17,416            $62,852
            Anaheim Hills, CA                          Home Loan
                                                       Modifications
                                                                                                                    6/14/2012        $450,000         $5,359,991      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                    6/28/2012            ($66)        $5,359,925
                                                                                                                                                                      reallocation
                                                                                                                    7/16/2012        $250,000         $5,609,925      Transfer of cap due to servicing transfer
                                                                                                                    8/16/2012         $90,000         $5,699,925      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                    9/27/2012           ($191)        $5,699,734
                                                                                                                                                                      reallocation
                                                                                                                    7/14/2011        $200,000           $200,000      Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011        $900,000         $1,100,000      Transfer of cap due to servicing transfer

                                                       Financial                                                    1/13/2012        $100,000         $1,200,000      Transfer of cap due to servicing transfer
            Gregory Funding, LLC,                      Instrument for                                                                                                 Updated due to quarterly assessment and
7/14/2011                                Purchase                                         $0    N/A         9       6/28/2012             ($9)        $1,199,991                                                    $36,743             $76,611          $39,391           $152,745
            Beaverton, OR                              Home Loan                                                                                                      reallocation
                                                       Modifications
                                                                                                                    8/16/2012         $20,000         $1,219,991      Transfer of cap due to servicing transfer
                                                                                                                                                                      Updated due to quarterly assessment and
                                                                                                                    9/27/2012            ($26)        $1,219,965
                                                                                                                                                                      reallocation
                                                       Financial
            Bangor Savings Bank,                       Instrument for
9/15/2011                                Purchase                                         $0    N/A         9       9/15/2011        $100,000           $100,000      Transfer of cap due to servicing transfer          $0                  $0               $0                  $0
            Bangor, ME                                 Home Loan
                                                       Modifications
                                                                                                                                                                                                                                                               Continued on next page
HAMP TRANSACTION DETAIL, AS OF 9/30/2012                                                         (continued)
                 Servicer Modifying Borrowers’ Loans                                                                                                                      Adjustment Details                                                                           TARP Incentive Payments
                                                                                     Cap of Incentive
                                                                                 Payments on Behalf
                                                                                 of Borrowers and to                                                                                                                                                                                                               Total TARP
                                             Transaction     Investment         Servicers & Lenders/      Pricing                   Adjustment       Cap Adjustment                                                                              Borrower’s     Lenders/Investors              Servicers             Incentive
Date             Name of Institution         Type            Description             Investors (Cap)1     Mechanism       Note            Date              Amount           Adjusted Cap Reason for Adjustment                                  Incentives            Incentives             Incentives            Payments
                                                                                                                                    9/15/2011             $1,300,000           $1,300,000      Transfer of cap due to servicing transfer
                                                             Financial
                 PHH Mortgage                                                                                                                                                                  Updated due to quarterly assessment and
                                                             Instrument for                                                         6/28/2012                    ($15)         $1,299,985
9/15/2011        Corporation,                Purchase                                               $0    N/A             9                                                                    reallocation                                               $0                     $0                    $0                  $0
                                                             Home Loan
                 Mt. Laurel, NJ
                                                             Modifications                                                                                                                     Updated due to quarterly assessment and
                                                                                                                                    9/27/2012                    ($42)         $1,299,943
                                                                                                                                                                                               reallocation
                                                                                                                                   12/15/2011               $200,000             $200,000      Transfer of cap due to servicing transfer
                                                                                                                                    4/16/2012               $600,000             $800,000      Transfer of cap due to servicing transfer
                                                             Financial
                 Rushmore Loan                                                                                                                                                                 Updated due to quarterly assessment and
                                                             Instrument for                                                         6/28/2012                      ($3)          $799,997
12/15/2011       Management Services         Purchase                                               $0    N/A             9                                                                    reallocation                                          $9,583                $76,929               $20,250             $106,763
                                                             Home Loan
                 LLC, Irvine, CA
                                                             Modifications                                                          8/16/2012               $110,000             $909,997      Transfer of cap due to servicing transfer
                                                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                                    9/27/2012                    ($13)           $909,984
                                                                                                                                                                                               reallocation
                                                             Financial
                 Sun West Mortgage
                                                             Instrument for
1/13/2012        Company, Inc,               Purchase                                               $0    N/A             9         1/13/2012               $100,000             $100,000      Transfer of cap due to servicing transfer                  $0                     $0                    $0                  $0
                                                             Home Loan
                 Cerritos, CA
                                                             Modifications
                                                             Financial
                 PrimeWest Mortgage                          Instrument for
3/15/2012                                    Purchase                                               $0    N/A             9         3/15/2012               $100,000             $100,000      Transfer of cap due to servicing transfer                  $0                     $0                    $0                  $0
                 Corporation, Lubbock, TX                    Home Loan
                                                             Modifications
                                                                                                                                    6/14/2012               $940,000             $940,000      Transfer of cap due to servicing transfer
                                                             Financial
                 Resurgent Capital                                                                                                                                                             Updated due to quarterly assessment and
                                                             Instrument for                                                         6/28/2012               $205,242           $1,145,242
6/14/2012        Solutions, LP,              Purchase                                               $0    N/A             9                                                                    reallocation                                         $26,722                $53,305               $29,972             $110,000
                                                             Home Loan
                 Greenville, SC
                                                             Modifications                                                                                                                     Updated due to quarterly assessment and
                                                                                                                                    9/27/2012                      ($3)        $1,145,239
                                                                                                                                                                                               reallocation
                                                           Total Initial Cap       $23,831,570,000                      Total Cap Adjustments       $6,039,454,004                                                                 Totals    $784,983,814         $1,851,601,418       $1,332,748,959        $3,969,334,191
                                                                                                                                      Total Cap    $29,871,024,004
Notes: Numbers may be affected by rounding. Data as of 9/30/2012. Numbered notes are taken verbatim from Treasury’s 9/27/2012, Transactions Report-Housing Programs.
1
 	The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors.
    The Cap is subject to adjustment based on the total amount allocated to the program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
 	On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3
 	Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
4
 	Initial cap amount includes FHA-HAMP.
5
 	Initial cap amount includes RD-HAMP.
6
 	Initial cap amount includes 2MP.
7
 	Initial cap amount includes FHA-2LP.
8
 	Initial cap does not include HAMP.
9
 	This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
  	The amendment reflects a change in the legal name of the institution.
11
  	MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 02/01/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.  
12
  	The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.  
13
  	Bank of America, N.A., Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, LP. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior to such merger.
14
  	In April 2011, EMC Mortgage, an indirect subsidiary of JP Morgan Chase & Co, transferred the servicing of all loans to JP Morgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.

As used in this table:
“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program.

Source: Treasury, Transactions Report-Housing Programs, 9/27/2012.
                                                                                                                                                                                                                                                                                                                                 Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                                                                 325
Table D.13                                                                                                                                                                                                                   326

HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2012
                    Seller
                                                                                             Transaction                                          Initial Investment           Additional       Investment   Pricing
Note   Trade Date   Name of Institution                                                      Type          Investment Description                            Amount    Investment Amount           Amount1   Mechanism
       6/23/2010                                                                                           Financial Instrument for HHF Program      $102,800,000                     —                      N/A
2      9/23/2010    Nevada Affordable Housing Assistance Corporation, Reno, NV               Purchase      Financial Instrument for HHF Program                  —           $34,056,581     $194,026,240    N/A
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —           $57,169,659                     N/A
       6/23/2010                                                                                           Financial Instrument for HHF Program      $699,600,000                     —                      N/A
2      9/23/2010    CalHFA Mortgage Assistance Corporation, Sacramento, CA                   Purchase      Financial Instrument for HHF Program                  —          $476,257,070    $1,975,334,096   N/A
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —          $799,477,026                     N/A
       6/23/2010                                                                                           Financial Instrument for HHF Program      $418,000,000                     —                      N/A
2      9/23/2010    Florida Housing Finance Corporation, Tallahassee, FL                     Purchase      Financial Instrument for HHF Program                  —          $238,864,755    $1,057,839,136   N/A
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —          $400,974,381                     N/A
       6/23/2010                                                                                           Financial Instrument for HHF Program      $125,100,000                     —                      N/A
                    Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ   Purchase                                                                                        $267,766,006
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —          $142,666,006                     N/A
       6/23/2010                                                                                           Financial Instrument for HHF Program      $154,500,000                     —                      N/A
                    Michigan Homeowner Assistance Nonprofit Housing Corporation,
2      9/23/2010                                                                             Purchase      Financial Instrument for HHF Program                  —          $128,461,559     $498,605,738    N/A
                    Lansing, MI
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —          $215,644,179                     N/A
       8/3/2010                                                                                            Financial Instrument for HHF Program      $159,000,000                     —                      N/A
                                                                                                                                                                                                                             Appendix D I Transaction Detail I October 25, 2012




2      9/23/2010    North Carolina Housing Finance Agency, Raleigh, NC                       Purchase      Financial Instrument for HHF Program                  —          $120,874,221     $482,781,786    N/A
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —          $202,907,565                     N/A
       8/3/2010                                                                                            Financial Instrument for HHF Program      $172,000,000                     —                      N/A
2      9/23/2010    Ohio Homeowner Assistance LLC, Columbus, OH                              Purchase      Financial Instrument for HHF Program                  —          $148,728,864     $570,395,099    N/A
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —          $249,666,235                     N/A
       8/3/2010                                                                                            Financial Instrument for HHF Program       $88,000,000                     —                      N/A
2      9/23/2010    Oregon Affordable Housing Assistance Corporation, Salem, OR              Purchase      Financial Instrument for HHF Program                  —           $49,294,215     $220,042,786    N/A
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —           $82,748,571                     N/A
       8/3/2010                                                                                            Financial Instrument for HHF Program       $43,000,000                     —                      N/A
2      9/23/2010    Rhode Island Housing and Mortgage Finance Corporation, Providence, RI    Purchase      Financial Instrument for HHF Program                  —           $13,570,770      $79,351,573    N/A
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —           $22,780,803                     N/A
       8/3/2010                                                                                            Financial Instrument for HHF Program      $138,000,000                     —                      N/A
2      9/23/2010    SC Housing Corp, Columbia, SC                                            Purchase      Financial Instrument for HHF Program                  —           $58,772,347     $295,431,547    N/A
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —           $98,659,200                     N/A
       9/23/2010                                                                                           Financial Instrument for HHF Program       $60,672,471                     —                      N/A
                    Alabama Housing Finance Authority, Montgomery, AL                        Purchase                                                                                        $162,521,345
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —          $101,848,874                     N/A
       9/23/2010                                                                                           Financial Instrument for HHF Program       $55,588,050                     —                      N/A
                    Kentucky Housing Corporation, Frankfort, KY                              Purchase                                                                                        $148,901,875
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —           $93,313,825                     N/A
       9/23/2010                                                                                           Financial Instrument for HHF Program       $38,036,950                     —                      N/A
                    Mississippi Home Corporation, Jackson, MS                                Purchase                                                                                        $101,888,323
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —           $63,851,373                     N/A
       9/23/2010                                                                                           Financial Instrument for HHF Program      $126,650,987                     —                      N/A
                    GHFA Affordable Housing, Inc., Atlanta, GA                               Purchase                                                                                        $339,255,819
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —          $212,604,832                     N/A
       9/23/2010                                                                                           Financial Instrument for HHF Program       $82,762,859                     —                      N/A
                    Indiana Housing and Community Development Authority, Indianapolis, IN    Purchase                                                                                        $221,694,139
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —          $138,931,280                     N/A
       9/23/2010                                                                                           Financial Instrument for HHF Program      $166,352,726                     —                      N/A
                    Illinois Housing Development Authority, Chicago, IL                      Purchase                                                                                        $445,603,557
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —          $279,250,831                     N/A
       9/23/2010                                                                                           Financial Instrument for HHF Program      $112,200,637                     —                      N/A
                    New Jersey Housing and Mortgage Finance Agency, Trenton, NJ              Purchase                                                                                        $300,548,144
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —          $188,347,507                     N/A
       9/23/2010                                                                                           Financial Instrument for HHF Program         $7,726,678                    —                      N/A
                    District of Columbia Housing Finance Agency, Washington, DC              Purchase                                                                                         $20,697,198
3      9/29/2010                                                                                           Financial Instrument for HHF Program                  —           $12,970,520                     N/A
                                                                                                                                                                                                    Continued on next page
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2012                                                                                                 (continued)
                         Seller
                                                                                                         Transaction                                                    Initial Investment             Additional              Investment      Pricing
Note     Trade Date      Name of Institution                                                             Type              Investment Description                                  Amount      Investment Amount                 Amount1       Mechanism
         9/23/2010                                                                                                         Financial Instrument for HHF Program              $81,128,260                           —                           N/A
                         Tennessee Housing Development Agency, Nashville, TN                             Purchase                                                                                                           $217,315,593
3        9/29/2010                                                                                                         Financial Instrument for HHF Program                          —            $136,187,333                             N/A
                                                                                                                                                                                         Total Investment Amount         $7,600,000,000
Notes: Numbers may be affected by rounding. Data as of 9/30/2012. Numbered notes are taken verbatim from Treasury’s 9/27/2012, Transactions Report-Housing Programs.
1
 	The purchase will be incrementally funded up to the investment amount.
2
 	On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
 	On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 9/27/2012.




Table D.14
FHA SHORT REFINANCE PROGRAM, AS OF 9/30/2012
Note        Trade Date            Seller Name                       Transaction Type      Investment Description                                                                                                                    Investment Amount       Pricing Mechanism
1           9/3/2010              Citigroup, Inc., New York, NY     Purchase              Facility Purchase Agreement, dated as of September 3, 2010, between the U.S. Department of the Treasury and Citibank, N.A                     $8,117,000,000      N/A
                                                                                                                                                                                               Total Investment Amount                $8,117,000,000
Notes: Numbers may be affected by rounding. Data as of 9/30/2012. Numbered notes are taken verbatim from Treasury’s 9/27/2012, Transactions Report-Housing Programs.
1
 	On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-year letter of credit (the
   “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the dollar value of mortgages refinanced under the FHA Short Refinance program from time to time during the first 2.5 years. At that time, the amount of the L/C will be capped at the
   then-current level. Under the terms of the L/C Facility Agreement, Treasury will incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.

Source: Treasury, Transactions Report-Housing Programs, 9/27/2012.
                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I October 25, 2012
                                                                                                                                                                                                                                                                                     327
328              Appendix E I Cross-Reference of Report to the Inspector General Act of 1978 | october 25, 2012




      Cross-Reference of Report to the Inspector General
      Act of 1978
      This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
      (P.L. 95-452), as amended, 5 U.S.C. APP.

      Section      Statute (Inspector General Act of 1978)                 SIGTARP Action                              Report Reference

      Section      “Description of significant problems, abuses, and       List problems, abuses, and deficiencies     Section 1: “The Office of the SIGTARP”
      5(a)(1)      deficiencies...”                                        from SIGTARP audits and investigations.     Section 4: “SIGTARP Recommendations”
                   “Description of recommendations for corrective                                                      Section 1: “The Office of the SIGTARP”
      Section                                                              List recommendations from SIGTARP
                   action…with respect to significant problems,
      5(a)(2)                                                              audits and investigations.                  Section 4: “SIGTARP Recommendations”
                   abuses, or deficiencies...”
                   “Identification of each significant recommendation      List all instances of incomplete
      Section
                   described in previous semiannual reports on which       corrective action from previous             Section 4: “SIGTARP Recommendations”
      5(a)(3)
                   corrective action has not been completed...”            semiannual reports.
                   “A summary of matters referred to prosecutive
      Section                                                              List status of SIGTARP investigations
                   authorities and the prosecutions and convictions                                                    Section 1: “The Office of the SIGTARP”
      5(a)(4)                                                              referred to prosecutive authorities.
                   which have resulted...”
                   “A summary of each report made to the [Treasury
      Section      Secretary] under section 6(b)(2)...” (instances         List TARP oversight reports by Treasury,    Appendix G: “Key Oversight Reports and
      5(a)(5)      where information requested was refused or not          GAO, and SIGTARP.                           Testimony”
                   provided).
                   “A listing, subdivided according to subject matter,
      Section      of each audit report issued...” showing dollar value
                                                                           List SIGTARP audits.                        Section 1: “The Office of the SIGTARP”
      5(a)(6)      of questioned costs and recommendations that
                   funds be put to better use.
      Section      “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                       Section 1: “The Office of the SIGTARP”
      5(a)(7)      report...”                                              SIGTARP audits.
                   “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   Section 1: “The Office of the SIGTARP”
      Section
                   reports and the total dollar value of questioned        value of questioned costs from SIGTARP
      5(a)(8)                                                                                                          Section 4: “SIGTARP Recommendations”
                   costs...”                                               audits.
                                                                                                                       As detailed in Section 1: “The Office of the
                   “Statistical tables showing the total number of audit   Provide statistical tables showing dollar   SIGTARP,” SIGTARP has made important
      Section
                   reports and the dollar value of recommendations         value of funds put to better use by         findings in its audit reports. However, to date
      5(a)(9)
                   that funds be put to better use by management...”       management from SIGTARP audits.             SIGTARP’s audits have not included funds put
                                                                                                                       to better use findings.
                   “A summary of each audit report issued before
                   the commencement of the reporting period for
                                                                           Provide a synopsis of significant
                   which no management decision has been made by                                                       Section 1: “The Office of the SIGTARP”
      Section                                                              SIGTARP audit reports in which
                   the end of reporting period, an explanation of the
      5(a)(10)                                                             recommendations by SIGTARP are              Section 4: “SIGTARP Recommendations”
                   reasons such management decision has not been
                                                                           still open.
                   made, and a statement concerning the desired
                   timetable for achieving a management decision...”
                                                                           Explain audit reports in which              Section 1: “The Office of the SIGTARP”
      Section      “A description and explanation of the reasons for
                                                                           significant revisions have been made to
      5(a)(11)     any significant revised management decision...”                                                     Section 4: “SIGTARP Recommendations”
                                                                           management decisions.
                   “Information concerning any significant                                                             Section 1: “The Office of the SIGTARP”
      Section                                                              Provide information where management
                   management decision with which the Inspector
      5(a)(12)                                                             disagreed with a SIGTARP audit finding.     Section 4: “SIGTARP Recommendations”
                   General is in disagreement...”
                                                                 public announcements of audits I Appendix F I October 25, 2012     329




Public Announcements of Audits
This appendix provides an announcement of new and                GAO3
ongoing public audits by the agencies listed below. See          Ongoing Audits
Appendix G: “Key Oversight Reports and Testimony” for a          •	 Financial Audit will come in November.
listing of published reports. Italic style indicates narrative   •	 Overview report is scheduled for January.
taken verbatim from the agencies’ responses to SIGTARP’s         •	 For March a recommendation follow up report.
data call.                                                       •	 For May probably an AIG status report.
•	 U.S. Department of Treasury Office of Inspector General
    (“Treasury OIG”)                                             FDIC OIG4
•	 Federal Reserve Board Office of Inspector General             Ongoing Audits
    (“Federal Reserve OIG”)                                      •	 None
•	 Government Accountability Office (“GAO”)
•	 Federal Deposit Insurance Corporation Office of Inspector     Endnotes
                                                                 1
                                                                   Treasury OIG, response to SIGTARP data call, 9/28/2012.
    General (“FDIC OIG”)                                         2
                                                                   Federal Reserve OIG, response to SIGTARP data call, 10/4/2012.
                                                                 3
                                                                   GAO, response to SIGTARP data call, 10/5/2012.
Treasury OIG1                                                    4
                                                                   FDIC OIG, response to SIGTARP data call, 10/1/2012.
Ongoing Audits
•	 None

Federal Reserve OIG2
Ongoing Audits
•	 None
330            Appendix g I key oversight reports and testimonY I october 25, 2012




      Key Oversight Reports and Testimony
      This list reflects TARP-related reports and testimony published in the quarter ended September 30, 2012.
      See previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.

      U.S. DEPARTMENT OF THE TREASURY (Treasury)
      ROLES AND MISSION

      The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. Government’s finances effectively;
      promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury
      advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial
      institutions.

      OVERSIGHT REPORTS

      Treasury, Transactions Report, 6/27/2012 – 9/28/2012, www.treasury.gov/initiatives/financial-stability/reports/Pages/TARP-Investment-Program-
      Transaction-Reports.aspx, accessed 10/3/2012. (released weekly)

      Treasury, Daily TARP Update, 7/2/2012 – 10/1/2012, www.treasury.gov/initiatives/financial-stability/reports/Pages/Daily-TARP-Reports.aspx,
      accessed 10/2/2012.

      Treasury, TARP Monthly 105(a) Report, 7/10/2012 – 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Pages/Monthly-Report-to-
      Congress.aspx, accessed 10/16/2012.

      Treasury, Dividends and Interest Report, 7/10/2012 – 10/10/2012, www.treasury.gov/initiatives/financial-stability/reports/Pages/Dividends-and-
      Interest-Reports.aspx, accessed 10/16/2012. (released monthly)

      Treasury, Making Home Affordable Program Report, 7/6/2012 – 10/5/2012, www.treasury.gov/initiatives/financial-stability/reports/Documents/
      August%202012%20MHA%20Report%20Final.pdf, accessed 10/5/2012. (released monthly)

      Treasury, HAMP Activity by Metropolitan Statistical Area, 7/6/2012 – 10/5/2012, www.treasury.gov/initiatives/financial-stability/reports/Pages/
      HAMP-Report.aspx, accessed 10/16/2012. (released monthly)



      FEDERAL DEPOSIT INSURANCE CORPORATION (FDIC)
      ROLES AND MISSION

      FDIC is an independent agency created by Congress that maintains the stability and public confidence in the nation’s financial system by insuring deposits,
      examining and supervising financial institutions, and managing receiverships.

      OVERSIGHT REPORTS

      FDIC, Material Loss Review of Tennessee Commerce Bank, Franklin, Tennessee (Report No. AUD-12-014, issued on September 13, 2012). www.fdicoig.
      gov/reports12%5C12-014AUD.pdf, accessed 10/4/2012.
                                                                                            key oversight reports and testimonY I Appendix g I october 25, 2012                            331




GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
ROLES AND MISSION

GAO is tasked with performing ongoing oversight of TARP’s performance, including:

•	   evaluating the characteristics of asset purchases and the disposition of assets acquired
•	   assessing TARP’s efficiency in using the funds
•	   evaluating compliance with applicable laws and regulations
•	   assessing the efficiency of contracting procedures
•	   auditing TARP’s annual financial statements and internal controls
•	   submitting reports to Congress at least every 60 days.


OVERSIGHT REPORTS

GAO, “Treasury Continues to Implement its Oversight System for Addressing TARP Conflicts of Interest,” GAO-12-984R, September 18, 2012, www.gao.
gov/assets/650/648468.pdf, accessed 10/5/2012.

GAO, “Troubled Asset Relief Program: Further Actions Needed to Enhance Assessments and Transparency of Housing Programs,” GAO-12-783, July 19,
2012, www.gao.gov/assets/600/592707.pdf, accessed 10/5/2012.



OFFICE OF MANAGEMENT AND BUDGET (OMB)
ROLES AND MISSION

OMB’s predominant mission is to assist the President in overseeing the preparation of the Federal budget and to supervise its administration in Executive
Branch agencies. In helping to formulate the President’s spending plans, OMB evaluates the effectiveness of agency programs, policies, and procedures,
assesses competing funding demands among agencies, and sets funding priorities. OMB ensures that agency reports, rules, testimony, and proposed
legislation are consistent with the President’s budget and with Administration policies.

In addition, OMB oversees and coordinates the Administration’s procurement, financial management, information, and regulatory policies. In each of these
areas, OMB’s role is to help improve administrative management, to develop better performance measures and coordinating mechanisms, and to reduce
any unnecessary burdens on the public.

OVERSIGHT REPORTS
OMB, “OMB Report Under the Emergency Economic Stabilization Act, Section 202,” 8/31/2012, www.whitehouse.gov/sites/default/files/omb/reports/
tarp_report_august_2012.pdf, accessed 10/5/2012.



SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
ROLES AND MISSION

Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
the purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).
SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.

OVERSIGHT REPORTS

SIGTARP, “Quarterly Report to Congress,” 7/25/2012, www.sigtarp.gov/Quarterly%20Reports/July_25_2012_Report_to_Congress.pdf, accessed
10/2/2012.

RECORDED TESTIMONY
SIGTARP, Written Testimony of the Honorable Christy Romero, Special Inspector General for the Troubled Asset Relief Program (SIGTARP), Before the U.S.
House Committee on Oversight and Reform Subcommittee on TARP, Financial Services and Bailouts of Public and Private Programs, 7/10/2012, www.
sigtarp.gov/Testimony/SIGTARP_Testimony_Delphi_Hearing.pdf, accessed 10/20/2012.
Notes: Italic style indicates verbatim narrative taken from source documents.

Sources: Treasury, www.treasury.gov, accessed 10/1/2012; Treasury OIG, www.treasury.gov, accessed 10/1/2012; FDIC, www.fdicoig.gov, accessed 10/4/2012; GAO, www.gao.gov, accessed
10/1/2012; OMB, www.whitehouse.gov/omb, accessed 10/16/2012; SIGTARP, www.sigtarp.gov, accessed 10/1/2012; FDIC, response to SIGTARP data call, 10/1/2012; GAO, response to SIGTARP data
call, 10/5/2012; Treasury OIG, response to SIGTARP data call 9/28/2012.
332           Appendix h I correspondence I october 25, 2012                                                                                  332




      Correspondence
      This appendix provides a copy of the following correspondence:

      Correspondence
      Date            From                  To                 Regarding
      8/22/2012       SIGTARP               Treasury           SIGTARP Recommendation to Treasury and Federal Reserve on LIBOR Manipulation
      9/13/2012       SIGTARP               Treasury           SIGTARP Recommendation to Treasury and Federal Reserve on AIG
      10/4/2012       Treasury              SIGTARP            Status Update on Recommendations in the SIGTARP Quarterly Report
                      Treasury, Office of
      10/4/2012                             SIGTARP            Status Update on Recommendations in the SIGTARP Quarterly Report
                      the Special Master
      10/4/2012       Treasury              SIGTARP            Treasury Response to SIGTARP AIG Recommendation
      10/9/2012       SIGTARP               Treasury           SIGTARP Recommendation to Treasury on CPP Auctions
                      Board of
                      Governors of the
      10/12/2012                            SIGTARP            Federal Reserve Response to SIGTARP AIG Recommendation
                      Federal Reserve
                      System
correspondence I Appendix h I october 25, 2012   333
334   Appendix h I correspondence I october 25, 2012
correspondence I Appendix h I october 25, 2012   335
336   Appendix h I correspondence I october 25, 2012
correspondence I Appendix h I october 25, 2012   337
338   Appendix h I correspondence I october 25, 2012
correspondence I Appendix h I october 25, 2012   339
340   Appendix h I correspondence I october 25, 2012
correspondence I Appendix h I october 25, 2012   341
342   Appendix h I correspondence I october 25, 2012
       Organizational Chart                                                                                                              Special Inspector General
                                                                                                                                             Christy Romero

                                                                                                                                                                                                                      EEO Program
                                                                                                                                         Special Inspector General                                                      Manager
                                                                                                                                             Christy Romero                                                          Raymond Campbell
                                                                                                                                                 Deputy Special                                                    EEO Program
                                                                                                                                               Inspector General                                                     Manager
                                                                                                                                                      Peggy Ellen                                                 Raymond Campbell
                                                                                                                                                 Deputy Special
                                                                                 Senior Policy Advisor
                                                                                                                                               Inspector General
                                                                                      Brian Sano
                                                                                                                                                      Peggy Ellen
                                                                                   Senior Policy Advisor
                                Deputy SIG –               Deputy SIG –                 Brian Sano
                                                                                                 General Counsel                                     Deputy SIG –                                                                     Deputy SIG –
                               Investigations               Reporting                                                                                  Audit and                                                                       Operations
                                                                                                   Roderick Fillinger                                 Evaluations
                               Scott Rebein                 Mia Levine                                                                                                                                                                 Cathy Alix
                                    Deputy SIG –             Deputy SIG –                              General Counsel                               Deputy  SIG –
                                                                                                                                                       Kurt Hyde                                                                Deputy SIG –
                                   Investigations               Reporting                                                                              Audit and                                                                 Operations
                                                                                                    Roderick Fillinger                               Evaluations
                                    Scott Rebein                Mia Levine                                                                                                                                                          Cathy Alix
 Chief Investigative                                                                                                                                  Kurt Hyde
                                                                                                                                                       Assistant
                                   ADSIG                   Managing Editor            Director of                   Director of                                                    Director of Policy     ADSIG − Support              ADSIG − HR          ADSIG − CIO           ADSIG − CFO
      Counsel                                                                                                                                    Deputy SIG –
                                                                                    Communications               Legislative Affairs                                              and Administration          Services
                                Thomas Kelly             Maryann Haggerty                                                                                                                                                               Sally Ruble       Sangeeta Saraf        Deborah Mathis
   Michael Rivera                                                                     Troy Gravitt               Joseph Cwiklinski                Audit and                           Judith Grady          Lynn Perkoski
       Chief Investigative              ADSIG                 Managing Editor           Director of                  Director of                  Assistant
                                                                                                                                                 Evaluations                     Director of Policy     ADSIG − Support             ADSIG − HR        ADSIG − CIO          ADSIG − CFO
             Counsel                                                                                                                            Deputy SIG –
                                                                                      Communications              Legislative Affairs                                           and Administration         Services
                                      Thomas Kelly            Maryann Haggerty                                                                     Gimbel                                                                           Sally Ruble       Sangeeta Saraf       Deborah Mathis
           Michael
Investigative      Rivera
              Counsel           Investigative                                           Troy Gravitt              Joseph Cwiklinski
                                                                                                                                             BruceAudit and(Acting)                 Judith Grady         Lynn Perkoski
                                 Operations                                                                                                      Evaluations

                                     Investigative                                                                                           Bruce Gimbel (Acting)
       Investigative Counsel
                                      Operations
                                  HQ Operations


                                      HQ Operations
                                     Hotline
                                                                                      Director                 Director                   Director                   Director                   Director                Director
                                           Hotline                                Leslyee Burgess           Brenda James                Craig Meklir                Eric Mader                Joan Becker           Danial Olberding
                               Computer Forensics                                       Director                Director                  Director                  Director                  Director               Director
                                                                                     Leslyee Burgess          Brenda James            Craig Meklir               Eric Mader                Joan Becker           Danial Olberding
                                    Computer Forensics
                                                                                 Auditors & Analysts      Auditors & Analysts     Auditors & Analysts         Auditors & Analysts         Auditors & Analysts      Auditors & Analysts

                                                                                   Auditors & Analysts      Auditors & Analysts   Auditors & Analysts        Auditors & Analysts        Auditors & Analysts     Auditors & Analysts




       Note: SIGTARP organizational chart as of 10/1/2012.

              Note: SIGTARP organizational chart as of 10/1/2012.
                                                                                                                                                                                                                                                                                                 organizational chart I Appendix I I October 25, 2012
                                                                                                                                                                                                                                                                                                 343
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal, or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”), as amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise, and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
                        SIGTARP: Quarterly Report to Congress | October 25, 2012
                                                                                                           C
                                                                                                      INSPE TOR GEN
                                                                                                 AL                E
                                                                                              CI




                                                                                                                              RA
                                                                                          E
                                                                                        SP




                                                                                                                                  L
                                                                                                                                  M
                                                                                       TRO




                                                                                                                              RA
                                                                                             LE




                                                                                        UB




                                                                                                                         OG
                                                                                                  DA                          R
                                                                                                       S S E T R E LI E F P




SIGTARP
SIG-QR-12-04
                         Q4
                        2012
                                                                                   SIGTARP                                            Office of the Special Inspector General
                                                                                                                                      for the Troubled Asset Relief Program
                                                                                   Advancing Economic Stability Through Transparency, Coordinated Oversight, and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                  Quarterly Report to Congress
SIGTARP@treasury.gov                                                                                                                                              October 25, 2012
www.SIGTARP.gov
